<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                   INTERIOR, ENVIRONMENT, AND RELATED
                    AGENCIES APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                  NORMAN D. DICKS, Washington, Chairman
 JAMES P. MORAN, Virginia
 ALAN B. MOLLOHAN, West Virginia
 BEN CHANDLER, Kentucky
 MAURICE D. HINCHEY, New York
 JOHN W. OLVER, Massachusetts
 ED PASTOR, Arizona
 DAVID E. PRICE, North Carolina     MICHAEL K. SIMPSON, Idaho
                                    KEN CALVERT, California
                                    STEVEN C. LaTOURETTE, Ohio
                                    TOM COLE, Oklahoma

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Delia Scott, Christopher Topik, Greg Knadle,
                     Julie Falkner, and Beth Houser
                            Staff Assistants

                                ________

                                 PART 5
                                                                   Page
 Oversight Hearing on Department of Interior......................    1
 Council on Environmental Quality.................................  117
 Oversight Hearing on Wildland Fire Budgeting.....................  173
 Oversight Hearing on the Minerals Management Service.............  301
 Testimony of Members of Congress.................................  401
 Law Enforcement Issues in Indian Country.........................  413
 Department of the Interior.......................................  495
 National Park Service............................................  631
 U.S. Geological Survey...........................................  693
 Indian Health Service............................................  759

         Printed for the use of the Committee on Appropriations
?


                                 Part 5

                                  DOI

                                  CEQ

                                  WFB

                                  MMS

                                Members

                               Law Enfor.

                                  NPS

                               U.S. Geo.

                                  IHS

  INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2010
                                                                      ?

                   INTERIOR, ENVIRONMENT, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2010

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
                  NORMAN D. DICKS, Washington, Chairman
 JAMES P. MORAN, Virginia           MICHAEL K. SIMPSON, Idaho
 ALAN B. MOLLOHAN, West Virginia    KEN CALVERT, California
 BEN CHANDLER, Kentucky             STEVEN C. LaTOURETTE, Ohio
 MAURICE D. HINCHEY, New York       TOM COLE, Oklahoma         
 JOHN W. OLVER, Massachusetts       
 ED PASTOR, Arizona                 
 DAVID E. PRICE, North Carolina     

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Delia Scott, Christopher Topik, Greg Knadle,
                     Julie Falkner, and Beth Houser
                            Staff Assistants

                                ________

                                 PART 5
                                                                   Page
 Oversight Hearing on Department of Interior......................    1
 Council on Environmental Quality.................................  117
 Oversight Hearing on Wildland Fire Budgeting.....................  173
 Oversight Hearing on the Minerals Management Service.............  301
 Testimony of Members of Congress.................................  401
 Law Enforcement Issues in Indian Country.........................  413
 Department of the Interior.......................................  495
 National Park Service............................................  631
 U.S. Geological Survey...........................................  693
 Indian Health Service............................................  759

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 52-296                     WASHINGTON : 2009

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    HAROLD ROGERS, Kentucky
 MARCY KAPTUR, Ohio                 FRANK R. WOLF, Virginia
 PETER J. VISCLOSKY, Indiana        JACK KINGSTON, Georgia
 NITA M. LOWEY, New York            RODNEY P. FRELINGHUYSEN, New   
 JOSE E. SERRANO, New York          Jersey
 ROSA L. DeLAURO, Connecticut       TODD TIAHRT, Kansas
 JAMES P. MORAN, Virginia           ZACH WAMP, Tennessee
 JOHN W. OLVER, Massachusetts       TOM LATHAM, Iowa
 ED PASTOR, Arizona                 ROBERT B. ADERHOLT, Alabama
 DAVID E. PRICE, North Carolina     JO ANN EMERSON, Missouri
 CHET EDWARDS, Texas                KAY GRANGER, Texas
 PATRICK J. KENNEDY, Rhode Island   MICHAEL K. SIMPSON, Idaho
 MAURICE D. HINCHEY, New York       JOHN ABNEY CULBERSON, Texas
 LUCILLE ROYBAL-ALLARD, California  MARK STEVEN KIRK, Illinois
 SAM FARR, California               ANDER CRENSHAW, Florida
 JESSE L. JACKSON, Jr., Illinois    DENNIS R. REHBERG, Montana
 CAROLYN C. KILPATRICK, Michigan    JOHN R. CARTER, Texas
 ALLEN BOYD, Florida                RODNEY ALEXANDER, Louisiana
 CHAKA FATTAH, Pennsylvania         KEN CALVERT, California
 STEVEN R. ROTHMAN, New Jersey      JO BONNER, Alabama
 SANFORD D. BISHOP, Jr., Georgia    STEVEN C. LaTOURETTE, Ohio
 MARION BERRY, Arkansas             TOM COLE, Oklahoma              
 BARBARA LEE, California            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2010

                              ----------                              --
--------

                                            Tuesday, March 3, 2009.

            OVERSIGHT HEARING ON DEPARTMENT OF THE INTERIOR

                               WITNESSES

ROBIN M. NAZZARO, DIRECTOR FOR NATURAL RESOURCES AND ENVIRONMENT
FRANK RUSCO, GAO, DIRECTOR OF NATURAL RESOURCES AND ENVIRONMENT
MARY KENDALL, ACTING INSPECTOR GENERAL

                    Chairman Dicks: Opening Remarks

    Mr. Dicks. The committee will come to order.
    I want to welcome our panel of witnesses this morning from 
the Government Accountability Office and the Department of the 
Interior's Office of Inspector General. Our first witness will 
be Ms. Robin Nazzaro, director of the Natural Resources and 
Environment Division of the GAO. She will be followed by Ms. 
Mary Kendall, the acting IG at Interior. Ms. Kendall is 
appearing rather than Earl Devaney, who has been detailed to 
the White House to head up the new Recovery Accountability and 
Transparency Board, which will oversee spending from the 
recently enacted American Recovery and Reinvestment Act. We 
appreciate both witnesses appearing here today.
    Although the details of the President's 2010 budget have 
not yet been released, I have asked GAO and the IG's office 
here today to discuss areas of concern and material weaknesses 
of programs within the Department of the Interior. It is 
important for us to be aware of these issues before we get 
started on the fiscal year 2010 activities. Our request to 
these witnesses is broad and straightforward. We have asked 
them to review concerns they have regarding programs or policy 
issues that will help us as we prepare to review the new 
budget. Both GAO and the Inspector General have issued dozens 
of reports on many of these issues and in some cases these 
individual reports may be discussed today. Our goal, however, 
is to have GAO and the IG summarize the findings of these 
studies and identify the most important issues that this 
subcommittee should be aware of as it carries out its oversight 
of these programs. Today's hearing will be followed by similar 
GAO/IG sessions for the EPA, the Forest Service and the 
Smithsonian Institution.
    The testimony of both witnesses is quite sobering. While 
there is overlap in the reports, the GAO testimony concentrates 
on programmatic concerns in numerous areas while the Inspector 
General has focused on financial management and program 
integrity issues. Together they highlight very serious problems 
in the Department of the Interior that potentially cost 
American taxpayers billions of dollars. The testimony does not 
challenge the commitment or integrity of most employees at the 
Department but it does highlight critical flaws and weaknesses 
which must be addressed by the new Administration and by this 
committee.
    Our subcommittee will continue to advocate for adequate 
funding for the agencies of the Interior Department, which 
manages over 500 million acres of public lands and services 
more than 300 million visitors per year but we will also 
fulfill our duties to be watchdogs on the Treasury. The country 
does not have the resources to waste one penny of the 
taxpayers' money. I am committed, as I am sure Mr. Simpson and 
the rest of our members are, to use these oversight hearings as 
the jumping-off point for an aggressive review of the fiscal 
year 2010 budget.
    As we begin the hearing, I want to remind the members that 
the format of this session is somewhat different from a regular 
hearing. We have allocated 15 minutes for opening statements by 
each of our witnesses because I believe it is important that 
members hear about the broad range of issues which the 
testimony touches. We will first hear from the GAO and then 
from the Inspector General and then we will begin member 
questions.
    Mr. Simpson, I yield to you for your opening remarks.
    Mr. Simpson. Mr. Chairman, I will be very brief, but I do 
want to commend you for scheduling today's hearing. Oversight 
is one of the most important functions of the Appropriations 
Committee, but because we tend to focus so much on how much is 
being spent rather than on how we spend what we appropriate, 
oversight tends to get overlooked. It is especially appropriate 
that we concentrate on oversight now since Congress has given a 
stamp of approval for over $15 billion in stimulus funding for 
the Department of the Interior as well as large increases in 
the omnibus package the House passed last week. The functions 
provided by both the GAO and the Department of the Interior's 
Office of Inspector General are essential and I look forward to 
today's testimony.
    Thank you, Mr. Chairman.
    Mr. Dicks. We also want to welcome Mr. Frank Rusco from 
GAO, who is one of the experts on natural resources issues. Do 
you want to proceed?

                     Statement of Ms. Nazzaro, GAO

    Ms. Nazzaro. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss ongoing 
challenges faced by the Department of the Interior.
    The Department is the steward for more than 500 million 
acres of federal land and 1.8 billion acres of subsurface oil, 
gas and mineral rights. Interior's management of this vast 
federal estate is largely characterized by the struggle to 
balance the demand for greater use of its resources with the 
need to conserve and protect those resources for the benefit of 
future generations. Difficult choices face this Congress and 
Administration in fulfilling these responsibilities under 
increased budgetary constraints.
    My testimony today focuses on the findings from a number of 
reports and specifically I will discuss management challenges 
in five key areas: resource protection, Indian and island 
community programs, land acquisition and management, deferred 
maintenance, and revenue collections and financial assurances 
with the exception of royalty collection, which my colleague, 
Frank Rusco, will discuss. While our recent reports indicate 
that Interior agencies have improved the management of some 
programs, some issues remain problematic. Moreover, recent work 
has identified new problems that need to be addressed.

                   RESOURCE PROTECTION, WILDLAND FIRE

    The first area that I will discuss is the need to 
strengthen resource protection. The average number of acres 
burned by wildland fires has increased approximately 70 percent 
since the 1990s while appropriations have tripled to $3 billion 
annually. While USDA's Forest Service receives the majority of 
the fire management resources, Interior agencies are key 
partners. We have called on the agencies to develop a cohesive 
national strategy that identifies long-term options and the 
associated funding to reduce potentially hazardous vegetation 
and address the wildland fire problems. We have also identified 
the need to clearly define goals for cost containment and to 
develop a strategy for achieving those goals, to continue to 
improve their process for allocating fuel reduction funds and 
selecting fuel reduction projects, and take steps to improve 
the use of a new budgetary and planning tool. These actions 
would help the agencies improve their ability to contain 
wildland fire costs, ensure that those costs and funds are 
directed where they will reduce risk most effectively and more 
effectively use limited fuel reduction dollars and allow the 
agencies to determine the most cost-effective mix of 
firefighting assets and strategies.

                     RESOURCE PROTECTION, OIL & GAS

    In addition, the number of oil and gas operations that are 
permitted by BLM for access to federal oil and gas resources 
has dramatically increased, more than quadrupling since 1999. 
BLM has struggled to deal with the increase in permit workload 
while also carrying out its responsibility to mitigate the 
environmental impacts of such development.
    Likewise, we have concerns that Fish and Wildlife Service's 
oversight of oil and gas operations on refuge lands was not 
adequate, in some instances exercising little or no control to 
ensure that environmental standards are met. The core of this 
problem is that the Fish and Wildlife Service has not formally 
clarified its authority to oversee these activities. We believe 
the agency has such authority.

                  RESOURCE PROTECTION, CLIMATE CHANGE

    Furthermore, a growing body of evidence shows that federal 
land and water resources are vulnerable to a wide range of 
physical, biological and economic and social effects from 
climate change. For example, we found that flooding and erosion 
affects 184 out of 213, or 86 percent, of Alaska Native 
villages to some extent and four villages in imminent danger 
plan to relocate. BLM, Fish and Wildlife Service and the 
National Park Service have not made climate change a priority 
and the agencies' strategic plans do not specifically address 
it.
    Conflicts over the use of the Nation's natural resources 
along with increased ecological problems have led land managers 
to seek cooperative means to resolve conflicts and problems. 
Experts generally view collaborative resource management 
including public and private stakeholders in resource decisions 
as an effective approach. The benefits include less conflict 
and litigation and improved resource conditions. To enhance 
support of and participation in collaborative resource 
management, we recommended several actions including a written 
plan identifying goals, actions and timeframes for carrying out 
cooperative conservation activities.

                     INDIAN AND ISLAND COMMUNITIES

    Another area of concern is the persistence of management 
problem associated with Indian and island community programs. 
We have reported on serious delays in the Bureau of Indian 
Affairs programs for determining whether the Department will 
accept land in trust. Many Indians believe that having the land 
placed in trust status fundamentally is important to 
safeguarding it against future loss and ensuring sovereignty. 
In 1980 the Department established a regulatory process 
intended to provide a uniform approach for taking land in 
trust. While we found that BIA is generally following the 
regulations, it has no deadlines for making its decisions. The 
median processing time for the 87 land in trust applications 
with decisions in fiscal year 2005 was 1.2 years, ranging from 
58 days to almost 19 years. We recommended that the Department 
move forward with adopting revisions to these regulations. 
While the Department agreed with our recommendations, it has 
not revised the regulations. BIA's land into trust process has 
been the focus of a great deal of discussion over the past 
week, given the Supreme Court's recent decision.
    In addition, the Department could be doing more to assist 
the island communities of American Samoa, Guam, the 
Commonwealth of the Northern Mariana Islands and the U.S. 
Virgin Islands and three sovereign island nations with 
longstanding financial and program management deficiencies in 
accurately accounting for expenditures, collecting taxes and 
other revenues, controlling the level of expenditures and 
delivering program services. These programs have resulted in 
numerous federal agencies designating some of these governments 
as high-risk grantees.

                            LAND ACQUISITION

    A third area of concern is federal land acquisition and 
management. As steward of more than 500 million acres of 
federal land, land consolidation through sales and acquisition 
and land management are important functions for the Department, 
especially those lands lying within the boundaries of national 
parks, forests and wildlife refuges known as inholdings. 
However, the Federal Land Transaction Facilitation Act of 2000, 
which in part was intended to facilitate land consolidation, 
has had limited success. While BLM raised more than $95 million 
in revenue, only $13 million of the revenues raised for 
acquiring certain non-federal lands have been spent. We made a 
number of recommendations to the agencies to improve the 
implementation and compliance with the Act, which the agencies 
again generally agreed with but have yet to implement.
    In addition, the Fish and Wildlife Service is unlikely to 
achieve its goal to protect certain migratory bird habitat. 
Since the inception of the Small Wetlands Acquisition program 
in the late 1950s, Fish and Wildlife Service has acquired and 
permanently protected about 3 million acres of wetlands and 
grasslands in the Prairie Pothole Region. However, at the 
current pace of acquisitions, it could take the Fish and 
Wildlife Service about 150 years and billions of dollars to 
acquire and permanently protect as much as possible of an 
additional 12 million acres of high-priority habitat. Emerging 
market forces suggest that the Service may have only several 
decades before most of the goal acreage is converted to 
agricultural use.
    Also since 1986, the Service has received at least 1,400 
conservation easements and fee simple farmlands covering 
132,000 acres from USDA's Farm Service Agency. However, the 
Service is generally not managing a majority of its farmlands. 
For 2002 through 2006, the Service inspected an annual average 
of only 13 percent of those lands. Because the farmlands are 
now part of the National Wildlife Refuge System, we found that 
the Service cannot dispose of unwanted farmlands. As a result, 
we recommended that the Service develop a proposal to Congress 
seeking authority for additional flexibility.

                          DEFERRED MAINTENANCE

    The fourth area that needs to be addressed is the deferred 
maintenance backlog. The Department owns, builds, purchases and 
contracts services for assets such as visitor centers, schools, 
office buildings, roads, bridges, dams, irrigation systems and 
reservoirs. However, repair and maintenance of these facilities 
has not been adequately funded. The deterioration of these 
facilities can impair public health and safety, reduce employee 
morale and productivity and increase the need for costly major 
repairs or early replacement. In November 2008, the Department 
estimated that the deferred backlog for fiscal year 2008 was 
between $13.2 billion and $19.4 billion. Interior is not alone 
in facing this daunting maintenance challenge. In fact, GAO has 
identified the management of federal real property including 
deferred maintenance as a government high-risk area since 2003. 
Interior has made progress in addressing prior recommendations 
to improve maintenance of some National Park Service 
facilities, BIA schools and irrigation projects. BIA has 
developed plans to hire experts in engineering and irrigation 
to thoroughly assess the condition of all irrigation projects 
every five years. It completed its first estimate in 2005 and 
expects to complete all assessments by 2010. Although Interior 
has made a concentrated effort to address this backlog, the 
dollar estimate of the backlog continues to escalate. The 2008 
backlog estimate is more than 60 percent higher than the 2003 
estimate. The funds included in the recently enacted stimulus 
package for Interior may reverse this trend but continued 
monitoring will be prudent to ensure that priorities are 
established.

                   CONCERNS ABOUT REVENUE COLLECTION

    The last area that I would like to highlight is the revenue 
collection and financial assurances. The General Mining Act of 
1872 helped open the West by allowing individuals to obtain 
exclusive rights to mine billions of dollars worth of hardrock 
minerals without having to pay a federal royalty. Since at 
least 1974, GAO has recommended that Congress modernize the 
mining laws to ensure that the public is compensated for 
hardrock minerals extracted from public lands. Under BLM 
regulations, these operators who extract gold, silver, copper 
or other valuable mineral deposits from federal land are 
required to provide financial assurances before they begin 
exploration or mining to guarantee that the costs to reclaim 
the land disturbed by the operations are paid. We have found 
that BLM does not have a process for ensuring that adequate 
financial assurances are in place and the assurances required 
by BLM are not always adequate. When operators fail to reclaim 
BLM land disturbed by these operations, we are left with public 
land that poses risk to the environment and public health and 
safety and requires millions of federal dollars to reclaim. 
Pending legislation would allow the Secretary to use royalties 
collected for hardrock mining on federal lands for the 
reclamation and restoration of land and water resources 
adversely affected by past activities.
    Additional revenues could also be generated by increasing 
the grazing fee for public lands managed by BLM. Ten federal 
agencies manage grazing on over 22 million acres with BLM and 
the Forest Service managing the vast majority. In 2005, we 
reported that the fees that BLM and the Forest Service charged 
were generally much lower than fees charged by other federal 
agencies and private entities. BLM fees are set by a formula 
that expired in 1985 but has been extended indefinitely by an 
executive order. This formula takes into account a rancher's 
ability to pay and therefore the purpose is not primarily to 
recover the agency's costs or to capture the fair market value 
of the forage. Instead, the formula is designed to set a fee 
that helps support ranchers and the western livestock industry. 
Other federal agencies employ market-based approaches to 
setting grazing fees. Were BLM to implement approaches used by 
these other agencies to set grazing fees, it would help to 
close the gap between the expenditures and receipts and more 
closely align the fees with market prices.
    In conclusion, several emerging issues underscore the need 
for the Department of the Interior to improve the management of 
its programs. The evolving effects of climate change, increased 
human development in and near the wildlands, the aging of the 
federal workforce and the Nation's long-term fiscal challenges 
are all likely to have profound implications for the department 
and magnify the need to address the management challenges we 
have highlighted today.
    Ms. Nazzaro. Mr. Chairman, Mr. Rusco will now address the 
adequacy or accurate collection of royalties for oil and gas 
operations.

                      Statement of Mr. Rusco, GAO

    Mr. Rusco. Thank you. Mr. Chairman and members of the 
subcommittee, I am pleased to be here today to discuss GAO's 
recent work on oil and natural gas resource management and 
revenue collection by the Department of the Interior. As you 
know, Interior's Bureau of Land Management and Minerals 
Management Service oversee onshore and offshore oil and gas 
leases on federal lands and waters, respectively. In addition, 
MMS is charged with collecting royalties and other revenues 
accruing to the federal government for all such leases. In the 
past several years GAO, Interior's Inspector General and 
Interior's own royalty policy committee have evaluated many of 
Interior's programs and activities surrounding management of 
federal oil and gas leases and have found numerous deficiencies 
that Interior is currently attempting to address. Today I will 
discuss a number of the most significant deficiencies GAO has 
found and then discuss what remains to be done to bring 
Interior's programs and activities into accord with changes in 
the oil and gas industry.
    GAO's findings fall into three broad categories. First, 
with respect to the collection of federal oil and gas revenue, 
we have found many problems with data quality, inspection 
practices and audit procedure that raise serious doubts about 
Interior's ability to provide reasonable assurance that it is 
collecting the revenue due to the federal government. For 
example, MMS relies too heavily on self-reported royalty and 
production data and does not use available third-party data to 
the extent it should. MMS's approach to collecting royalties 
would be analogous to the IRS asking taxpayers to state how 
much taxes they owed and not cross-referencing this to W-2s, 
1099s or other third-party sources of data on taxpayers' 
incomes. GAO has also found many instances of erroneous data 
that have been entered by royalty payers and that have not been 
identified and corrected by MMS. In addition, both MMS offshore 
and BLM onshore have failed in recent years to meet statutory 
and regulatory requirements for inspecting oil and gas meters, 
raising questions about the accuracy of oil and gas production 
numbers.

                  OTHER OIL & GAS MANAGEMENT PRACTICES

    Second, Interior is not using the full range of tools that 
other oil and gas resource owners use to manage the development 
of oil and gas leases. For example, some of the resource owners 
aggressively encourage or incentivize speedier development of 
promising oil and gas prospects while allowing more time to 
develop more speculative properties. In contrast, in 
determining the terms of leases, Interior generally does not 
consider the likelihood that leaseholders will find oil and gas 
despite the frequent availability of information that could be 
used for this purpose. In addition, BLM and MMS practices for 
choosing which properties to lease and when to offer them for 
lease differ in ways that are not obviously the result of 
reasoned decision making. For example, MMS makes an estimate of 
the value of leases it sells at auction and does not award 
leases unless the auction price offered exceeds a reasonable 
acceptable level based on this expected value. This is 
something we believe is prudent. Further, if bidders fail to 
offer MMS's minimal acceptable bid or more, MMS pulls the lease 
off the market and may sell it a later date. We also think that 
is a prudent way to operate. On the other hand, BLM makes no 
estimate of the value of leases it sells at auction and 
therefore has no minimal acceptable bid. Further, BLM will sell 
any lease to the highest bidder at any positive price and if it 
receives no bids at all on a lease offered, it will offer the 
lease the next day for an administrative fee on a first-come, 
first-serve basis.
    Mr. Dicks. You do not think that is prudent?
    Mr. Rusco. No, we do not.
    Mr. Dicks. I did not hear that. I just was waiting.
    Mr. Rusco. I do not think that is quite as rigorous as 
MMS's approach.

                     REVENUES NOT AT MARKET LEVELS

    Third, the federal government collects a smaller share of 
revenues from oil and gas produced on federal lands than do 
most other oil and gas resource owners. Specifically, in a 
recent study done by one of the preeminent energy consulting 
companies, it was found that of 104 oil and gas resource 
systems evaluated that the federal leases in the Gulf of Mexico 
ranked 93rd lowest in terms of the share of revenues accruing 
to the resource owner. This result is consistent with other 
studies over a number of years. In addition, the way that 
Interior collects revenues may contribute to instability in 
revenue collection. Specifically, the federal system for 
collecting oil and gas revenues is regressive in the sense that 
the federal government collects a larger share of revenues when 
oil and gas company profits are low and a smaller share when 
company profits are high. This feature of the federal revenue 
collection system creates incentives for companies to seek 
royalty relief or other concessions when oil and gas profits 
are low and may also lead to public resentment and calls for 
increases in revenues when company profits are high. For 
example, in the mid-1990s, a time when oil prices were very 
low, companies sought and were granted royalty relief on 
certain leases offered between 1996 and 2000 in the Gulf of 
Mexico. GAO recently reported that this royalty relief may cost 
the federal government between $21 and $53 billion, depending 
on future oil and gas production on those leases and future oil 
and gas prices. In contrast, when prices of oil rose 
dramatically between 2002 and summer 2008, there was pressure 
to raise revenues collected and in 2007 Interior raised royalty 
rates in the Gulf of Mexico twice for leases sold subsequent to 
the rate increases. Since the summer of 2008, however, oil 
prices have fallen dramatically and it is not difficult to 
imagine that oil and gas companies could again come to Interior 
or Congress in the future seeking relief from these higher 
royalty rates if oil prices remain low for some time or fall 
further.
    There are alternative ways to collect revenues that collect 
smaller shares of revenues when company profits are low and 
larger shares when profits are high. That would be keeping 
average revenues constant over time. Interior should explore 
using such alternatives to improve the stability of the revenue 
collection system. However, Interior has not comprehensively 
evaluated its revenue collection system in over 25 years 
despite the changes in industry I just described.

                       FUTURE CHALLENGES FOR DOI

    In response to recommendations made by GAO, the Interior 
Inspector General and others, Interior is attempting to improve 
its procedures and practices. We believe the agency can make a 
great deal of progress toward improving the accuracy of revenue 
collection by following through with these recommendations. 
However, fixing these problems will not address the larger 
questions of how to choose which properties to lease, the 
proper terms of such leases nor how much and in what form to 
collect revenues from oil and gas companies. To address these 
larger issues, Interior needs to perform comprehensive 
assessments of its leasing and revenue collection programs to 
be able to provide reasonable assurance that it is managing 
public resources efficiently and that the public is getting a 
reasonable share of oil and gas revenues over time. To perform 
assessments, Interior will need to seek assistance from experts 
outside the agency because Interior has not developed and 
maintained the information and expertise required to evaluate 
the wide range of available tools and practices in use by other 
resource owners and to determine which, if any, of these should 
be adopted by the federal government.
    This concludes my summary statement. I will be happy to 
answer any questions the subcommittee may have. Thank you.
    [Robin M. Nazzaro and Frank Rusco testimony follows:]

    [GRAPHIC] [TIFF OMITTED] T2296A.001
    
    [GRAPHIC] [TIFF OMITTED] T2296A.002
    
    [GRAPHIC] [TIFF OMITTED] T2296A.003
    
    [GRAPHIC] [TIFF OMITTED] T2296A.004
    
    [GRAPHIC] [TIFF OMITTED] T2296A.005
    
    [GRAPHIC] [TIFF OMITTED] T2296A.006
    
    [GRAPHIC] [TIFF OMITTED] T2296A.007
    
    [GRAPHIC] [TIFF OMITTED] T2296A.008
    
    [GRAPHIC] [TIFF OMITTED] T2296A.009
    
    [GRAPHIC] [TIFF OMITTED] T2296A.010
    
    [GRAPHIC] [TIFF OMITTED] T2296A.011
    
    [GRAPHIC] [TIFF OMITTED] T2296A.012
    
    [GRAPHIC] [TIFF OMITTED] T2296A.013
    
    [GRAPHIC] [TIFF OMITTED] T2296A.014
    
    [GRAPHIC] [TIFF OMITTED] T2296A.015
    
    [GRAPHIC] [TIFF OMITTED] T2296A.016
    
    [GRAPHIC] [TIFF OMITTED] T2296A.017
    
    [GRAPHIC] [TIFF OMITTED] T2296A.018
    
    [GRAPHIC] [TIFF OMITTED] T2296A.019
    
    [GRAPHIC] [TIFF OMITTED] T2296A.020
    
    [GRAPHIC] [TIFF OMITTED] T2296A.021
    
    [GRAPHIC] [TIFF OMITTED] T2296A.022
    
    [GRAPHIC] [TIFF OMITTED] T2296A.023
    
    [GRAPHIC] [TIFF OMITTED] T2296A.024
    
    [GRAPHIC] [TIFF OMITTED] T2296A.025
    
    [GRAPHIC] [TIFF OMITTED] T2296A.026
    
    [GRAPHIC] [TIFF OMITTED] T2296A.027
    
    [GRAPHIC] [TIFF OMITTED] T2296A.028
    
    [GRAPHIC] [TIFF OMITTED] T2296A.029
    
    [GRAPHIC] [TIFF OMITTED] T2296A.030
    
    Mr. Dicks. All right. We are going to go on to Ms. Mary 
Kendall, the deputy IG.

                     Statement of Ms. Kendall, OIG

    Ms. Kendall. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to address you this morning about 
the observations of the Office of Inspector General and our 
views about the challenges that face the Department of the 
Interior.
    Over the past few years our office has investigated a 
series of cases involving the abuse of public trust, which 
stemmed from a fundamental breakdown in the integrity and 
ethical conduct of both career and political appointees from 
the most egregious of these cases involving the former deputy 
secretary to the most notorious involving improper fraternizing 
and acceptance of gifts by employees of the Minerals Management 
Service's Royalty-in-Kind program from the oil companies with 
which they did business. Other examples include a senior 
departmental official who attempted to manipulate the science 
concerning endangered species, an assistant secretary accepting 
prohibited gifts from friends who stood to benefit from his 
official decisions, a senior Insular Affairs official who pled 
guilty to accepting bribes and the successful prosecution of a 
National Park Service agent who pled guilty to travel fraud, 
and finally Office of Special Trustee officials who fraternized 
with and accepted gifts from a contractor to whom they awarded 
multimillion dollar contracts.
    While the vast majority of Department employees conduct 
themselves in an ethical manner, Department officials must lead 
by example, setting the standard for ethical conduct in all 
Department business. Secretary Salazar has already signaled all 
of this as a priority under his watch.

                          OIL AND GAS PROGRAMS

    The Bureau of Land Management manages 258 million surface 
acres of public land located primarily in the western United 
States including Alaska and some 700 million acres of below-
ground minerals located throughout the country. Minerals 
Management Service manages oil, natural gas and other mineral 
resources and ocean energy on the outer continental shelf. MMS 
also collects, accounts for and disburses revenues from both 
offshore and onshore mineral leases located on federal and 
Indian lands. We recently completed an evaluation at the 
request of Chairman Dicks concerning the status of non-
producing federal oil and gas leases. In addition to some very 
challenging data integrity and lease oversight issues, we found 
that BLM and MMS need to develop much clearer policy concerning 
the expectations of production of oil and gas on federal lands. 
We recommended that the Department consult with Congress in 
this regard. We are presently conducting an audit of MMS's 
process for verifying oil volumes delivered as royalty in kind 
including that destined for the Strategic Petroleum Reserve. In 
addition, we have several investigations ongoing concerning 
underpayment of royalties. We have queued up evaluations of the 
onshore lease auction process that BLM employs, the Inspection 
and Enforcement program for onshore leases, and wind and solar 
energy programs in the near future. These all present 
challenges to the Department of the Interior.
    The Department manages an annual appropriation of $16.7 
billion, revenues of $12 to $24 billion annually from onshore 
and offshore mineral leases, and $3.3 billion in funds held in 
trust. Financial management has remained a top management 
challenge for the Department over the past five fiscal years.

                  BUSINESS AND INFORMATION MANAGEMENT

    The Department has been looking to the Financial and 
Business Management System, known as FBMS, to resolve many, if 
not most, of its financial management challenges. The complete 
implementation of a functional FBMS and funding for the FBMS 
effort are significant challenges to DOI. Operational problems 
plague the system, causing the Department to revise its 
implementation date from fiscal year 2008 to fiscal year 2012. 
Funding for the next fiscal year may not be adequate to 
completely fund the next phase of deployment. Lack of adequate 
funding for FBMS may result in a reduction in the scope of the 
work for the next fiscal year and may delay the project 
completion date even beyond fiscal year 2012.
    Department's information technology annual budget is 
approximately $1 billion for an expansive infrastructure of 
networks, hardware and software programs. One of the greatest 
IT challenges for the Department is the uniform implementation 
of effective security to protect its networks and data. In May 
2008 we issued a report summarizing our longstanding concerns 
about the management of IT programs and security at DOI. We 
concluded that some sweeping measures are necessary to 
effectively address IT security department-wide, realign 
bureau-specific IT personnel under the purview of the 
Department CIO, realign all IT funding under the purview of the 
Department CIO, organize the IT programs along technology and 
security borders rather than along organizational boundaries, 
and manage all IT projects under the purview of the 
Department's CIO. We do not believe that DOI can solve its 
longstanding and pervasive IT security challenges absent such 
department-wide solutions.
    The Department's procurement and financial assistance 
awards in fiscal year 2008 exceeded $5 billion, representing 
over one-fourth of the total DOI budget. We have identified 
procurement and financial assistance as one of the top 
management challenges for the Department for a number of years. 
The Department's challenge in managing procurement and 
financial assistance awards is going to be exacerbated as it is 
called upon to administer nearly $4 billion in Recovery Act 
funds. Our office is committed to assisting the Department in 
this management of these funds. We have issued the first of 
what will likely be many critical point evaluation reports in 
which we provide recommendations and offer assistance to 
prevent fraud and waste as opposed to detecting it at a later 
date. We believe this prevention approach is critical to 
effectively distributing and accounting for Recovery Act funds 
as well as tracking the results of the expenditure of those 
funds.
    There is also an urgent need to breathe life into the 
suspension and debarment program at DOI. This program, which 
excludes irresponsible contractors from receiving future 
awards, is highly effective when properly administered. A 
robust suspension and debarment program would do much to 
protect the integrity of DOI procurement and financial 
assistance programs.

                 MAINTENANCE, HEALTH & SAFETY CONCERNS

    Each year over 500 million people visit the Department's 
natural parks and monuments, wildlife refuges and recreational 
sites. The Department is responsible to serve these visitors 
and to maintain and protect thousands of facilities and 
millions of acres of property. The physical isolation of some 
departmental lands and facilities presents unique 
vulnerabilities and makes safety and maintenance a challenge 
for the Department. Our work has documented decades of 
maintenance, health and safety issues that place DOI employees 
and the public at risk.

                              TRUST FUNDS

    Responsibility to the American Indians has consistently 
been a top challenge for DOI. The Department manages about $3.4 
billion in trust funds, holds approximately 56 million acres of 
land in trust, and manages over 100,000 leases. DOI collects 
almost $1 billion each year in combined individual Indian and 
tribal trust accounts. DOI's responsibility to American Indians 
is daunting. The myriad problems we have uncovered portray 
programs that are sorely understaffed, underfunded and poorly 
managed. Over the last 10 years we identified gross program 
inefficiencies along with criminal conduct at many levels of 
Indian Affairs but the greatest obstacle to reform is the 
leadership vacuum that has existed for nearly a decade. 
Assistant secretaries have typically served for only 6 to 18 
months, resulting in constantly shifting priorities and 
changing messages to Bureau employees and the American Indians 
they serve.

                                 LANDS

    The Department of Interior manages one-fifth of the 
landmass of the United States. The Bureau's managing lands 
utilize land exchanges to acquire and dispose of lands in the 
public interest. As part of the land exchange process, 
professional appraisals are necessary to determine the market 
value of land. Our office has had a longstanding concern about 
the appraisal program, particularly with the validity of the 
appraisal process. One high-profile OIG investigation resulted 
in the consolidation of real estate appraisal functions into a 
central office of appraisal services. The structure was 
designed to ensure appraiser independence, ensure that 
appraisals meet recognized and professional standards and 
enhance the reliability of DOI appraisals. DOI has recently 
made changes to the appraisal program to streamline some of the 
functions. This is a significant positive step but due to the 
controversial nature of land exchanges, this remains a 
significant management challenge.

                            INSULAR AFFAIRS

    DOI seeks to increase the federal responsiveness to the 
unique needs of the U.S.-affiliated insular areas through the 
Office of Insular Affairs, known as OIA. OIA is tasked to 
improve the financial management practices of insular area 
governments and increase economic development opportunities 
through financial and technical assistance. Our work has 
identified instances of public corruption and fraud relating to 
the island governments and the contractors paid with federal 
funding. Our reviews have consistently pointed to the problems 
that might have been mitigated had OIA provided adequate 
oversight and taken a more active approach to assist insular 
area governments. We are presently evaluating OIA program 
management to determine if OIA has the proper organizational 
structure and resources to effectively assist the insular area 
governments to gain their economic self-sufficiency and improve 
the quality of life for their people.

                            LAW ENFORCEMENT

    Finally, DOI has one of the largest federal law enforcement 
workforces in the executive branch with over 4,000 commissioned 
law enforcement officers in seven separate and distinct law 
enforcement programs managed by five bureaus. The Department's 
Office of Law Enforcement, Security and Emergency Management, 
OLESM, is a centralized office responsible for providing 
departmental leadership, policy guidance and oversight for 
these programs as well as being the external point of contact 
for any department-wide law enforcement issues. Our 2001 
assessment found significant problems throughout DOI's law 
enforcement programs and identified a number of improvements 
needed in the leadership organization, control and 
accountability of the program. We have monitored the progress 
of reforms made in response to our assessment, and while 
progress has been made, significant improvements are still 
needed. OLESM still struggles with issuing centralized policy 
and providing effective oversight. The Department also needs to 
implement an enhanced emergency radio and communications system 
for all DOI law enforcement and security officers.
    This concludes my oral testimony today. I would 
respectfully request that my written testimony be accepted by 
the subcommittee and made part of the hearing record.
    Mr. Dicks. Without objection.
    Ms. Kendall. I thank the subcommittee for the opportunity 
to testify today on these issues of great import to the 
Department of Interior and would be glad to answer any 
questions.
    [The statement of Mary L. Kendall follows:]

    [GRAPHIC] [TIFF OMITTED] T2296A.031
    
    [GRAPHIC] [TIFF OMITTED] T2296A.032
    
    [GRAPHIC] [TIFF OMITTED] T2296A.033
    
    [GRAPHIC] [TIFF OMITTED] T2296A.034
    
    [GRAPHIC] [TIFF OMITTED] T2296A.035
    
    [GRAPHIC] [TIFF OMITTED] T2296A.036
    
    [GRAPHIC] [TIFF OMITTED] T2296A.037
    
    [GRAPHIC] [TIFF OMITTED] T2296A.038
    
    [GRAPHIC] [TIFF OMITTED] T2296A.039
    
    [GRAPHIC] [TIFF OMITTED] T2296A.040
    
    [GRAPHIC] [TIFF OMITTED] T2296A.041
    
    [GRAPHIC] [TIFF OMITTED] T2296A.042
    
    [GRAPHIC] [TIFF OMITTED] T2296A.043
    
    [GRAPHIC] [TIFF OMITTED] T2296A.044
    
    [GRAPHIC] [TIFF OMITTED] T2296A.045
    
    [GRAPHIC] [TIFF OMITTED] T2296A.046
    
    Mr. Dicks. Thank you very much. That was a very good 
statement. Ms. Kendall, your office has identified some very 
serious ethical problems at the Interior Department in recent 
years. A number of these are highlighted in your testimony. The 
risks of these sorts of problems are especially high in 
organizations which oversee activities which manage quasi-
business type of enterprise such as the case with the Minerals 
Management Service. How extensive do you believe these problems 
are today? Have proper steps been put in place to ensure better 
operation by departmental employees? This was a rather flagrant 
case, as I recall. I know Secretary Kempthorne tried to get 
involved in this to try to straighten it out but can you give 
us your view of this?
    Ms. Kendall. I can, Mr. Chairman. Thank you. Certainly, 
disciplinary steps have been taken by the Department in 
response to our report for individual employees that remain 
with the Department. As you may know, a number of the involved 
employees left the Department prior to the issuance of our 
report and Secretary Kempthorne has indicated his intention to 
revisit some of those cases with the Department of Justice. As 
far as----
    Mr. Dicks. You mean Secretary Salazar?
    Ms. Kendall. I am sorry, Secretary Salazar. Thank you very 
much. MMS has also taken some managerial steps to, number one, 
improve the ethics program specifically for MMS. They have not 
only developed but implemented an enhanced ethics program. The 
department has recently dedicated a solicitor to ethics issues 
in Denver where MMS is primarily located. MMS has also taken a 
number of management steps in terms of the organizational 
structure and the reporting structure to add oversight both in 
Denver and in D.C. and putting some additional supervisory 
controls in place. I am personally hopeful that given the 
scrutiny that MMS has been under, given the three reports that 
we issued, that it is probably one of the most cognizant 
bureaus right now of ethics issues. We will have to wait and 
see.
    Mr. Dicks. Do you have any comments on this, on that 
particular case?

                            ROYALTY-IN-KIND

    Mr. Rusco. Yes, I would just like to add something. Prior 
to this case coming to light, some of the management of the 
Royalty-In-Kind program had made an attempt to get the program 
to be declared exempt from the typical ethics rules that they 
were supposed to be operating under. They did not achieve this, 
but the reason that they asked for this exemption was that they 
felt that they could not operate in the industry the way they 
needed to for selling oil and gas, the royalty in kind oil and 
gas that they got. They could not operate and still live within 
the ethical standards that applied to all federal employees. I 
think that raises a question and I do not know whether they 
were correct about that, whether or not they could actually, 
you know, perform this function and still maintain all the 
ethical requirements that other federal employees are required 
to adhere to, but if in fact they cannot, then I think there is 
a more fundamental question about whether that program is 
feasible.
    Mr. Dicks. Do you want to comment on that? For the 
committee's background, describe a little bit about what went 
on with the Mineral Management Service in Denver.
    Ms. Kendall. Certainly, Mr. Chairman. There were three 
reports. Perhaps the most notorious one and the one that Mr. 
Rusco primarily refers to concerns really the management of the 
Royalty-In-Kind program. It was headed by a senior executive 
who indeed considered the program or thought the program should 
be exempt from the ethics rules that govern all other federal 
employees. They explored formal exemption. It never really came 
to fruition. But in the meantime, the organization was managed 
and functioned essentially outside of the ethics rules. I 
believe that employees were encouraged to do exactly what we 
found that they did, which was fraternize with oil companies to 
get to know them, to be a part of the industry. They regulated 
accepted gifts from the oil companies in the form of dinners, 
drinks, trips, lodging, things that would otherwise be 
prohibited by the Ethics in Government rules. We found really 
no quid pro quo but the employees of the RIK program indicated 
that they felt they needed to do this in order to, number one, 
understand what the industry is all about, which calls into 
question their formal training, and also felt that they needed 
to be a part of the industry to effectively conduct business. I 
agree with Mr. Rusco that if this is in fact true, which I do 
not believe, I think that they can do their job without that 
kind of interaction, but if in fact it is true, then I agree 
that the fundamental question of whether this program is 
appropriate for federal government to be involved in is really 
the key issue.
    Mr. Dicks. So what has happened subsequent to these 
reports? You said that Kempthorne reviewed this, he tried to 
get it straightened out. Do you think it is straightened out? 
Do you think that the people that were involved have been 
disciplined? You said there has been quite a bit of training. 
Do you think this thing is under control? Obviously the idea 
that they had to be able to be involved with the industry as 
you suggested, that was never granted by higher-ups, right?
    Ms. Kendall. No, no. Well, it was never explicitly stated 
that they should not.
    Mr. Dicks. Who did they ask to do this? I mean, who did 
they go to with this, or was this just something they came up 
with amongst themselves?
    Ms. Kendall. Well, as I said, it never really came to 
fruition but there was some e-mail traffic that went to the 
associate director in D.C.
    Mr. Dicks. Of the Mineral Management Service?
    Ms. Kendall. Exactly, yes, to just float the idea about 
whether this is something that they should pursue. There was 
brief discussion about pursuing it although it was never 
brought to any kind of conclusion.
    Mr. Dicks. Mr. Simpson.

                      IMPLEMENTING RECOMMENDATIONS

    Mr. Simpson. Thanks, Mr. Chairman.
    Do you guys ever wake up and feel like you are in deja vu 
all over again? I mean, I am serious. I read your testimony 
last night and also read all the GAO reports from past years on 
wildfire, good reports done over several Administrations. Do we 
ever make any progress from any of these or are these reports 
that are done and put on a shelf and a few years later we 
reread them and update them or whatever? I think you do good 
work. What stops us, in your opinion, from implementing many of 
the recommendations that you make or the Inspector General 
makes that might improve these programs? Because as I read back 
through these reports, it is almost like the same issues over 
and over and over again. Does anybody care to comment on that 
or is that an unanswerable question? One of the questions I 
have asked is, is it because you have such short time in 
Administrations really, four years, maybe eight years, you have 
Secretaries oftentimes that last even shorter than that, 
Department of Indian Affairs, you mentioned the average 
undersecretary was 6 to 18 months, I think, and the turnover is 
so great? I mean, even here, I sat on this committee four years 
ago for two years, was off it, now I am back on it. There does 
not seem to be the consistency to try to follow through on 
these things and now we have a new Administration. What can 
this new Administration do to make sure some of these policies 
are in fact implemented? In fact, when you see a new 
Administration come in, the first thing they do is suspend the 
rules that were implemented by the last Administration. How 
does this lead to consistently trying to implement some of the 
things that you have reported in your reports?
    Ms. Nazzaro. I can start. We do track implementation of our 
recommendations and actually our goal is 80 percent implemented 
in a three-year time period. Usually if the agency does not 
take action within that time period, we feel they are probably 
not, and so our tracking is not as aggressive as it is in the 
first couple of years. I think the wildland fire area that you 
mentioned specifically might be somewhat of an exception. We go 
back to 1995 asking for this cohesive strategy, which the 
agencies did agree to at one point in time, then somewhat 
backed off and now they seem to be back on again. That may be 
somewhat of a shift because of change of Administration. But 
for the most part, the agency does make changes.
    I think one of the issues is that you cannot continue to do 
business as usual. The challenges continue to change and we 
continue to look at different programs in some areas. I would 
say there are some cross-cutting things that we have seen in 
the past. They do not routinely collect the data that is 
necessary to implement the programs, much less to begin to 
evaluate the programs. They do not always have the needed 
controls or accountability in place to make the managers 
responsible for these programs, and I think on the broader 
perspective when I was going through this testimony, I saw time 
and time again where we are asking them to set strategies and 
goals, particularly the goals so that they can be measured and 
we can actually know what they have achieved but strategies 
then for achieving those. So I do see some common themes of 
where the agency is somewhat lax. I do agree with the comment 
that Ms. Kendall made as far as BIA, lack of continuity. The 
leadership at the top has not been there, and I think that is 
clearly going to be a charge for this Administration. It is 
going to take strong leadership to come in and start making 
some significant changes.

                             NEW CHALLENGES

    But we do see significant challenges, some of them new. I 
mean, money has always been a problem but certainly climate 
change, the change in environment for law enforcement is going 
to be certainly a new challenge, the continued development in 
the wildland-urban interface. The aging federal workforce has 
been one that we have mentioned for a while now but I think as 
the Baby Boomers retire, that is going to be even more 
critical. We see Interior has a slightly larger than average 
retirement-eligible workforce, so I think there are new 
challenges too that the agency has to face. I do not want to be 
too dismal and say they never do anything because they have 
implemented a lot of the recommendations but I think sometimes 
it is very specific----
    Mr. Dicks. You hurt the panel's feelings.
    Ms. Nazzaro. Well, sometimes it is very specific though, 
you know, on a program that we will say you need to develop 
training, they develop training, they may develop the courses 
but then it is the implementation that is always critical and 
that is where we come back a few years later and say, you know, 
you have got the regulation in place, you have got the policies 
in place but you are not implementing them very effectively.

                         CONGRESSIONAL INTEREST

    Mr. Simpson. I suspect agencies have a tendency to respond 
more to your recommendations if they see that Congress is 
interested in your recommendations. I do not want to put you on 
the spot. Do you have any comment on Congress's willingness to 
conduct oversight in these areas? Because for most people, 
oversight is not a high priority sort of thing. It is not the 
fun part of being in Congress but is probably one of the most 
important things we do, and I think in all honesty, and 
Republicans and Democrats alike, it is probably one of the 
worst things we do in that we do not do enough of it and we 
probably ought to spend a whole lot more time on overseeing 
these programs and implementation of them and I suspect you 
would find agencies more willing or more interested in taking a 
look at that. I know Chairman Dicks has been very interested in 
oversight of these programs and how they are implemented but we 
seem to get focused more on how we spend the money rather than 
if it is spent efficiently and everything else. And the 
coordination between, I guess, the committees of jurisdiction 
and the Appropriations Committee would be important also.

                        THE PURPOSE OF ROYALTIES

    Let me ask you, Frank, another question. I am fascinated by 
this Minerals Management Service and the royalties and the 
royalties paid for gas and oil leases and so forth and the 
royalty relief program that you mentioned. My gas tax stays the 
same regardless of the price of a gallon of gas, and what is 
the purpose of a royalty?
    Mr. Rusco. Well, the Department of Interior is charged 
with, well, it is actually a couple of different things but one 
of the things is to generate a fair return for the public on 
oil and gas developed on public lands.
    Mr. Simpson. How do our royalties compare with other 
countries on oil and gas that is leased in the OCS and stuff?
    Mr. Rusco. Well, royalties themselves are one component of 
the revenues collected, and the work we did looked at a 
compilation of all the components of the revenue stream from 
oil and gas development, and when you look at the total of 
revenues collected on oil and gas as a share of the total 
revenues of that oil and gas generated from that oil and gas, 
the United States ranks very low compared to most other 
countries, a lot of states and many other resource owners.
    Mr. Simpson. What would be the purpose of reducing the 
royalties when the price of oil is down? We are essentially 
being paid for a commodity that the people of the United States 
own, right? And I suspect when it is down, consumers pay that 
royalty eventually because of the cost overhead, right?
    Mr. Rusco. When the price of oil is low, one of the things 
that, you know, happens is oil and gas profits fall, and if 
they could get royalty relief, that would sort of help their 
bottom line and maybe keep some stability of production. There 
have been times when oil and gas wells might be in danger of 
being shut in as opposed to continuing to operate because the 
price has fallen so low. What we have advocated is a more 
comprehensive look at how we collect revenues that up front 
recognizes the cyclical nature of oil and gas prices and 
profits in industry and says okay, we will structurally give 
you a break when profits and prices are low but we want a 
higher share when profits are really high, and there are other 
countries that do that, and according to the consulting company 
that did the study we relied on for this work, they have more 
stable systems and they are able to not, you know, be subject 
to this yo-yoing back and forth and ad hoc changes in revenue 
collections as industry conditions change.
    Mr. Simpson. What has been the response from the Department 
on doing something like that?
    Mr. Rusco. We recommended in our report that Interior 
undertake a comprehensive review of how it collects revenues, 
and in their comments on our report they declined to take that 
recommendation. So we turned it into a matter for consideration 
for Congress. So to your point, you know, obviously I think 
that the agencies are more responsive when Congress is 
interested in and that is why we made that a matter for 
Congressional consideration.

                          PROCUREMENT CONCERNS

    Mr. Simpson. If I could ask one more final question, Mr. 
Chairman, Mary, you mentioned in your testimony the financial 
management and the procurement and financial assistance 
problems within the Department of Interior. They have been 
given a whole bunch of money in the stimulus package. I am very 
concerned that a year or two years or three years from now we 
will be sitting here having hearings on the misuse of those 
funds or the waste of those funds, the inappropriate use of 
those funds because of the lack of financial oversight within 
the Department. What are we doing to make sure that they can 
effectively spend, what, you said $4 billion in this year and 
that it is not wasted?
    Ms. Kendall. I share your concern, Congressman. I referred 
to an approach that our office is taking. We call it a critical 
point evaluation, but it is really a proactive effort on the 
Office of Inspector General's part to work with the Department 
to ensure that controls are in place before money is expended. 
We are actively working with the Department in six sort of 
high-level area but grants and contracts are two of the highest 
priorities. We will be meeting with Pam Hayes this afternoon to 
talk about how we can work with the Department to get them some 
additional training to oversee the expenditure of these funds. 
We have some other additional tools that will assist them in 
their own oversight of the funds and really tracking the 
dollars as they go out to the recipients and then subrecipients 
as well. Although I too am very concerned, I look to this 
really as an opportunity, given the requirements that are 
contained in the Recovery Act for tracking funds. If we can get 
controls and mechanisms in place that really do track the funds 
as the Act envisions, I see this as a real opportunity for how 
government would operate in the future in regard to managing 
funds that it expends to grantees and contractors and in 
cooperative agreements. So both with concern, I also see this 
as a real opportunity to try to get something right at the 
front end.
    Mr. Simpson. I am hopeful that this committee keeps a very 
close eye, and I am sure we will, on how these funds are being 
used and so forth. Go ahead, Mr. Chairman.
    Mr. Dicks. Thank you, Mr. Simpson.
    Mr. LaTourette.

                            HEARING PROCESS

    Mr. LaTourette. Thank you very much, Mr. Chairman. If I 
could just ask you a procedural question, I guess, as I attempt 
to feel my way along here. In my authorizing days when we would 
have a hearing like this, we would have this panel, which has 
been invaluable, but then the agency would come and discuss 
with us whether they agreed with the recommendations and 
findings or not, and I guess I would ask, is it your intention 
to have a subsequent hearing, not just on the new 
Administration's budget proposal for Interior in these agencies 
but also sometimes the agency does not agree with what the IG 
has said or what GAO has said.
    Mr. Dicks. What we are going to do this year, because of 
the new budget and because it is delayed, we thought we would 
have these panels first. We hope that everybody will not forget 
all the things that are recommended here and that when we have 
the agencies up, we will use this information, the staff will, 
to prepare questions for all of us, and I agree with you, I 
think that the officials should be given an opportunity to 
answer why they have or have not gone along with these 
recommendations. I completely agree with you. I think that is a 
good way to go. But in this case, we decided to have the GAO 
and the Inspector General to give us all a sense of what has 
been recommended, what has been done, what has not, and we can 
follow up on that when the Administration witnesses come.
    Mr. LaTourette. Well, thank you very much.
    Mr. Dicks. And a lot of the Administration witnesses who 
would testify are not in place yet. Except for the Secretary, I 
do not think there is anybody in place. I think that is 
correct. So we have to give them a little chance to get into 
place and let them have a chance to review these things. I take 
these things very seriously, and we have added money every year 
for the Inspector General and we have great confidence in Mr. 
Devaney in his new role. We want to make sure that he is given 
an opportunity to evaluate how people are spending this money. 
But I think the Administration has taken this seriously by 
putting him there. He is, I think, one of the highest and best 
regarded officials and I am confident he will do a very good 
job.
    Mr. LaTourette. I just wanted to make sure that we were 
going to have----
    Mr. Dicks. We are going to have a lot of hearings.
    Mr. LaTourette. The chairman may be optimistic, but I look 
forward to those hearings.
    Mr. Dicks. The staff will help us.

                 TIMEFRAMES FOR REPORTS RECOMMENDATIONS

    Mr. LaTourette. Excellent. But that brings me to, I think, 
Ms. Kendall, my question to you. You were discussing with the 
chairman the Denver situation, which certainly was egregious, 
but the question to IGs in general, I always think IGs do 
wonderful work but they are a little bit like Barney Frank says 
of editorial writers that you watch the battle from the 
hillside as it unfolds and then you come down and slaughter the 
wounded. And in the Denver situation, it is my understanding 
that first of all, the matter happened a number of years ago, 
the IG released the report to the media before it was delivered 
to Secretary Kempthorne, and it was based upon conduct that did 
not occur under Secretary Kempthorne's watch. So what 
procedurally from an IG standpoint, if you were to receive a 
tip or a matter needed to be investigated today, what is the 
average timeframe for you to do your due diligence and make a 
report and a recommendation to the agency affected?
    Ms. Kendall. I do not know that there is an average. We 
follow wherever the facts take us. In this case, I want to say 
we spent about a year and a half with this investigation. It 
started as something far simpler than what it ended up being. 
It started as an allegation initially that someone was having 
improper sort of sales parties in the office. My recollection 
is, that allegation may not even have made it into the report 
but that is where it started, and we ended up with the three 
separate reports which touched on separate but serious 
allegations.
    I would also like to just explain to you what our process 
is in terms of releasing reports. They do get out quickly but 
they were not released by our office. Particularly in cases 
like this one, which we know is going to have incredible 
notoriety, we literally send out teams to the Secretary and to 
Congress to deliver reports simultaneously. I am personally 
astonished as how quickly they get released once we have done 
that.
    Mr. LaTourette. So my understanding is incorrect, that the 
IG did not release it to the media before it was delivered to 
Secretary Kempthorne? Some of these simultaneous deliveries 
made their way to the media before----
    Ms. Kendall. That is my understanding.

                           USE OR LOSE LEASES

    Mr. LaTourette. Okay. Well, I appreciate that.
    Mr. Rusco, to you. We had a little bit of a dustup last 
year on use it or lose it and people were accused of sort of 
gobbling up oil and gas leases and sitting on them to 
artificially increase the cost of oil and gas during our run-up 
to $140-a-barrel gasoline. I would ask you, my understanding of 
what you described is that at least one agency does a pretty 
good job of saying okay, we have this piece of property we 
think based upon third-party verification this is how much the 
lease is worth and you have to hit that price or above or you 
do not get the lease. Did you look into whether or not oil and 
gas explorers were gaming the system and just sort of 
concerning the market on leases and letting them lay fallow?
    Mr. Rusco. Not specifically that. One of the things, 
though, that I would want to point out is that the number of 
leases, the amount of land under lease and the number of leases 
offered as well as the amount of drilling increased 
dramatically from 2002 to 2008 as prices rose, and you would 
expect that. We do not know nor have any evidence to suggest 
that companies are gaming the system in any way. What we do 
want the agency to do is to somehow rationalize their approach 
to issuing leases and look for best practices across both these 
agencies. We see BLM and MMS doing things differently, and 
maybe they should be doing things differently. We would like 
them to justify those differences, to look for ways that other 
resource owners manage leases and try to find best practices 
and adopt those.
    Mr. LaTourette. Well, and I heard your testimony and I 
agree with you completely. It seems that the approach where you 
get an estimate of what the thing is worth and you have to at 
least hit that estimate in order to purchase the lease, that 
makes sense. The one where you just hand it over and put it up 
for auction regardless I do not think is a good deal for either 
the government or the prospective lease purchaser. You should 
at least know what you are buying if it is a pig in a poke. But 
specifically, is there a way for you to determine--I do not 
remember the figure, it kept growing, 68 million, 75 million 
acres that the big oil companies would just come in and 
purchase the leases and not do any exploration, which really 
seemed kind of stupid to me with the price of gasoline, and 
just sat on those leases for the purpose of further elevating 
the cost of crude oil or natural gas around the world. You do 
not have any information on that?
    Mr. Rusco. No, we did not look at that specifically. We did 
look at a sample of 10 years' worth of leases that had gone 
through their initial 10-year term, and of those leases, we 
found that a larger proportion of the offshore leases actually 
had been developed and had started to produce oil and gas than 
onshore and, you know, that may reflect lots of things 
including the fact that onshore was picked over for a lot more 
than the offshore. The offshore was new. There is more new and 
larger place for oil and gas offshore than there typically are 
onshore. But the majority of leases in that sample were never 
developed, and to some extent, they are held speculatively by 
companies, and one of the reasons is, you might buy a lease in 
an area where you do not know whether there is any oil or gas 
and other leases are being sold in that area and essentially 
you are waiting for more information. You may do some pre-
development evaluation or you may be waiting for somebody else 
to drill a hole because it is really costly to drill a hole, 
and if someone does it first and they find something, then that 
is a better bet for you. So there may be a waiting game, but 
also I think there were so many leases let during this last 
five, six years that all the rigs, all the drilling rigs that 
could have developed oil and gas leases were being used, and 
you saw the price of oil service companies that do this work 
just skyrocketing because they were operating everywhere, and 
over half of the oil rigs that were in operation, of the 
increase in oil rigs, oil rig use about doubled in that five-
year period, over half of those were operating in the United 
States. So there was a great deal of development in the United 
States.
    Mr. LaTourette. Thank you for that, and Mr. Chairman, if I 
could ask Ms. Nazzaro one question?
    Mr. Dicks. Sure. Go ahead.

                          DEFERRED MAINTENANCE

    Mr. LaTourette. On page 12 of your testimony and report, 
you have a table that talks about maintenance backlog, and a 
good friend and actually my mentor in the Congress used to be 
the chair of this subcommittee, Mr. Regula of Ohio, and from 
conversations with him I am aware that this subcommittee has 
done, I think outstanding work and continuing to not only, we 
do not call anything earmarked anymore but sort of specifically 
designating funds for the backlog together with----
    Mr. Dicks. That is a national initiative.
    Mr. LaTourette. A national initiative. Together with a 
portion of the fee that is collected from some of 500 million 
visitors that have been discussed as well for that, but the 
backlog keeps going up despite the concerted effort. And so it 
is a little bit like Mr. Simpson's question on the fire 
suppression. I used to have a house like this. No matter how 
much I spent, it got worse. And did you examine at all whether 
or not these national initiative funds are being wisely used? 
Are we fixing the right things? Are we fixing them in the right 
way? Why do we keep going up in billions of dollars in backlog?
    Ms. Nazzaro. Well, to answer the last part of your question 
as to why the number goes up, although we have not done any 
work of late, but you have got a park system particularly that 
has been around for a number of years now, you know, and a lot 
of these facilities, visitor centers, roads, bridges are all 
getting to a point where they are quite dated and so while they 
are addressing ongoing problems and are working aggressively to 
address the problems, the new problems keep surfacing and so it 
does continue. It is like they cannot stay ahead of the game. 
One thing that the agency has done that we recommended was to 
have a better database of what is actually backlog maintenance 
because there were some issues about well, is this really new 
construction or is it really backlog maintenance. So the 
agencies have done that. What I think our concern now going 
forward with the monies that are in the stimulus bill is, given 
it still is not going to be enough to address the whole 
problem, how are the priorities going to be set, and I think 
that is an issue we see time and time again across various 
programs that on the ground everybody is working very hard at 
an individual refuge or a park. They clearly have an idea of 
what they need to address, what they want to work on next but 
there is nothing done at a national level to really make sure 
that we are addressing the highest priorities across the 
country.
    Mr. LaTourette. Well, and that I think was what struck me 
about your sort of walk-off line in the deferred maintenance, 
and that was that the stimulus bill may reverse this trend, and 
I am just wondering why after 10 years of concentrated effort 
the trend has not been reversed but this one piece of 
legislation all of a sudden is going to change 10 years of 
practice.
    Mr. Dicks. I would just say that they have gotten a better 
definition and it is more comprehensive about what needs to be 
maintained and that has led to an increase, and we have had 
inflation. You know, things might be a little different here on 
projects because of the current economic circumstances. But you 
cannot go out to one of these parks without seeing things that 
need to be done. Every park has their list of things that need 
to be done, and I do believe that our fee demonstration 
program, which Mr. Regula started with my support and continued 
support, has helped these parks. With the fee demo program, 80 
percent of the money stays local and then 20 percent goes to 
the other national parks that do not have entrance fees. So 
that has helped. I think when people have to pay $5, $10, $15, 
to enter compare that to Disney Land and other places where 
they spend much more money. I think people have a better 
feeling of the value. Some people complain, but overall I think 
it has been a very solid program.
    Mr. LaTourette. Well, and I do too.
    Mr. Dicks. And I do not know how we would get all these 
things done if we did not have it.
    Mr. LaTourette. Well, the point I am trying to make is, it 
is my understanding that every year the Park Service carries 
over about $274 million a year that they have not expended for 
deferred maintenance, and I do not know if you looked at that. 
And the second thing, as wonderful----
    Mr. Dicks. You mean money that they have but the projects 
are ongoing and they have not committed it yet?
    Mr. LaTourette. Yes, they have not used it. They have not 
spent it. And then likewise, it is my understanding from staff 
that some parks are using the fee money for new construction 
rather than deferred maintenance. I do not know if you looked 
at that as well. But I think that the specific question I am 
trying to ask is, you have this deferred maintenance backlog of 
$19 billion on the high side and sometimes it is like the story 
of the three little pigs. I mean, you can build 100 straw 
houses and use your money and yes, you have taken care of some 
of the maintenance you have to fix it again five years from now 
so are we not better sort of targeting and saying in this park 
today we are going to build the brick house and know that we 
built less, but that is what I am trying to get at.
    Ms. Nazzaro. Well, I think you have hit on two points that 
we have made in the past, and the one is, the setting of the 
priorities and how you spend these monies and are they being 
spent as economically and efficiently as possible to get the 
greatest benefit out of them. But also the issue of the 
database because there was confusion on a lot of locations as 
to new construction versus backlog maintenance, and that is 
where I say the agencies have made some progress. They have a 
better inventory now of their maintenance projects, which may 
have also been part of the increase in the lists. Now that they 
have gone out and inventoried, there are probably more things 
on the list. We have not done work on backlog maintenance for a 
number of years. We have just been tracking it because it is a 
high-risk area across the federal government. It is not just 
Interior, it is not just Park Service.
    Mr. LaTourette. I thank you for that.
    Mr. Chairman, maybe it would be illustrative to ask the GAO 
to do sort of how are they handling it. I mean, if every park 
just gets a chunk of money and goes to town, but on our highway 
programs, for instance, we have a ranking system and this road 
may be the most important so we make sure we get that done 
whereas even though the least important thing is deferred 
maintenance, maybe we do not do it for a couple of years.
    Mr. Dicks. I think that is worthy of questions when we get 
the Administration witnesses up here.
    Mr. Cole, thank you for being patient.
    Mr. Cole. Thank you, Mr. Chairman, and gosh, you were 
sounding awfully Republican with that fees for service. That 
was great. Or fiscally responsible.
    Mr. Dicks. Fiscally responsible, which I think has to be 
bipartisan.
    Mr. Cole. Absolutely, Chairman. I am sorry. I was carried 
away in my enthusiasm.

              COMPARING ROYALTIES WITHIN THE UNITED STATES

    Mr. Rusco, I have about three things I want to ask about, I 
have a whole series of questions on the BIA but I want to start 
with the oil and gas part of this thing and the royalties, and 
I particularly want to tell you I appreciate the sophistication 
of your answer and all the different elements that go into 
pricing a lease. It is something that I think frankly gets 
overlooked in a lot of the Congressional discussions of this. I 
want to ask you specifically, you referenced a study where you 
compared royalty collections in the United States versus other 
countries, and I think that is a good way to look at this. 
Although we have a long tradition in this country, the 1872 
Mining Act, of incentivizing development by frankly charging 
less or nothing for the value of the oil. That may be something 
we want to look at but I think it is pretty characteristic of 
what we have done in development in the West in particular. But 
did you also have a comparison between royalties between 
private domestic leases and government leases?
    Mr. Rusco. To some extent but a very limited extent because 
there are no sort of publicly available databases that would 
enable us to do a systematic comparison.
    Mr. Cole. I suggest you really need to find a way to do 
that because, frankly, one of the big factors that you did not 
have a chance to touch on is just the cost of recovery of the 
product in the United States, and the reality is, what it costs 
to bring up a barrel in Oklahoma versus Saudi Arabia is night 
and day different and so the value of a lease in the United 
States honestly is not worth what the value of a lease quite 
often is in foreign countries. It is the same reason why, as 
you pointed out, you see more extraction offshore than you do 
onshore simply because there is the potential for big strikes 
in other places. And so, I think it somewhat misleading 
sometimes just to compare what comes out. I was involved in 
keeping high-priced coalmines operating in eastern Oklahoma as 
a public official by removing the tax because frankly we could 
not compete with Wyoming simply because the cost of extraction 
was less. So I think that is something you have to look at 
there.
    I really appreciate you pointing out the problem with the 
number of rigs that there are. I mean, that is a very expensive 
thing to maintain so you can get out and get a lot of leases 
but actually deploying a rig and the people there is pretty 
major. The same thing I would suggest you look at also relates 
to frankly the cost of drilling domestically here and drilling 
domestically someplace else or overseas. It makes a big 
difference, and oil companies will shift resources back and 
forth, particularly the big ones, which frankly are not all 
that active here anymore. And, that is the last thing you have 
to look at is, what are the resources of the oil companies. 
There is a big difference between what an Exxon can deploy and 
how much money it needs to make off a big strike and what a 
little independent oil and gas company can deploy, and that is 
who is doing most of the domestic exploration in the United 
States now. It is really not the big guys anymore. They kind of 
manage existing reserves but they do not drill much here. 
Anyway, I just threw out a lot more than maybe I should have, 
but are you aware of anything that looks at the private cost of 
this versus public?
    Mr. Rusco. Well, again, we have only looked at a few cases 
because that is all we have been able to find. The one thing 
that we focused on when we looked at development of leases is 
that a number of states and private landholders that we 
encountered make a distinction between lands that are highly 
prospective versus lands that are not, and if they have a 
highly prospective land, they want faster development and they 
incentivize it or create a structure, a lease term that 
encourages faster development of highly prospective lands. If 
it is a more speculative prospect and nobody knows whether 
there is oil or gas there, then they give them more time and 
they structure both the lease terms and the revenue collection 
accordingly, and I think there is a great deal of merit in 
Interior looking into those practices and trying to find if 
there are ways to change from what in, say, the BLM is, one 
size fits all for all leases regardless of, as you say, the 
cost of extraction, the likelihood of finding oil or gas, or 
any of those features, which vary a great deal across the 
country. Some gas places, everybody knows there is gas there, 
they know how to get it, they know how deep it is, they know 
what technology they are going to use and it is just a matter 
of deciding when to put it a drill there and start producing. 
In other cases they do not know and it is highly speculative. 
We think there is some merit in trying to look at what other 
resource owners do to make those distinctions and see if that 
would work.
    Mr. Cole. I think that is a great idea. I would suggest it 
needs to probably be domestic, and just as a point of 
information, you may be aware of this but the largest domestic 
driller in the United States will not drill on federal land, 
the most prolific explorer, has the largest number of rigs and 
it is simply because the difficulty of dealing from the private 
standpoint, and I say this not to frankly discount the fact 
that we have sold off resources here throughout our entire 
history for less than they are worth. Do you find the same 
pattern of things in things like hardrock mining across the 
board or is this unique to oil and gas?
    Mr. Rusco. I have not looked at the hardrock mining. I 
could not answer that.

                               BIA ISSUES

    Mr. Cole. If I could, I would like to move on to the BIA 
quickly, and I thought an excellent point was made, and I 
cannot remember, Ms. Kendall, if it was you or Ms. Nazzaro, if 
it was you, about the rapid turnover at the assistant secretary 
level, but I would also like to ask you, you know, usually when 
you come in to one of these public departments as a political 
appointee, the reality is, there is a professional bureaucracy 
there and it is of much longer standing than you, and usually 
if it is capable and competent, your job is usually to expedite 
what needs to go fight the resource battle inside the 
Administration with Congress that you need or to make sure the 
programs that have been developed internally. Maybe you bring a 
new eye and a new approach, but I find very few people that 
move into these positions that frankly know that much about 
them when they arrive, I am sad to say. So it really falls on 
the professional bureaucracy a great deal. Is there a problem 
there in developing and maintaining professional bureaucratic 
institutional leadership over time?
    Ms. Kendall. I think Bureau of Indian Affairs not only 
suffers from the leadership void but has some real challenges 
in what you call the professional bureaucracy. I cannot tell 
you sitting here right now precisely what the needs are. There 
are so many competing issues that Indian Affairs must deal with 
from trust to education to gaming to--it is such a broad trust 
responsibility, and many of the sort of subagencies are in 
remote locations where it is really hard to find qualified 
people to fill positions. So their challenge is multiple, not 
just in terms of finding strong and long-term leadership but 
staffing the bureaucracy, if you will, with the kinds of people 
that need to be there to really do the job.
    Mr. Cole. Do you have any sense of what the impact of--
because my experience is pretty substantial, you may have a 
different view, of both the Cobell lawsuit and the Abramoff 
deal had on frankly the ability of the Department to function? 
People were frozen over there for a while.
    Ms. Kendall. Certainly the Cobell lawsuit and the resulting 
shutdown of the Internet for the entire department for brief 
periods of time but Indian Affairs and the Solicitor's Office 
were down for seven years. It hampered their ability to operate 
considerably. There is no question about that.
    Mr. Cole. And do you see--and this would go actually to 
both of you because I think you both mentioned it. Certainly I 
know you did, Ms. Nazzaro. The Carcieri-Salazar decision that 
you referenced briefly in your testimony, which is going to be 
a huge problem just in terms of what do you do with land that 
is moved into trust to try to recognize post-1934. That is a 
Congressional issue. Do you see what kind of impact or have any 
estimate on what kind of impact that will have on departmental 
functioning? Because you really have a department that has now 
made decisions for a long period of time that were 
constitutionally questionable.
    Ms. Nazzaro. We have not done anything yet to really 
calculate how many of those decisions or the petitions that are 
in requesting land into trust would now fall out of that, so I 
do not know how it would affect the workload but I cannot 
imagine that it is not going to be litigated, so, you know, I 
think it is a little early to predict really what the 
implications will be.
    Mr. Cole. I have a lot more questions but I know you have 
been generous with your time. If I can ask one more question, 
Ms. Kendall, I would love to get a brief from somebody if I 
could on, you had a whole range of ethical issues at the BIA 
and just a little bit more depth than maybe we have here, or if 
you can direct me, I could certainly use the help. I would 
invite both of you, either as the IG or the GAO, to help me in 
that.

                             FIRE TRANSFERS

    The last question, at least in this round, I want to ask a 
question related to one of the national initiatives that the 
chairman brought up that was of particular interest to me, and 
I do not expect you to comment on it individually but you might 
be able to tell me how the process works. I had a situation in 
my district several years ago where we had maintenance at a 
park, a new visitors facility at the Chickasaw Recreational 
Area in Oklahoma. It had worked its way to the top of the list 
and it was supposed to be funded that year. They had actually 
broken ground on it. There was a wildfire outbreak and all the 
construction was appropriately suspended. Money needed to go to 
deal with that. But then the next year even though ground had 
been broken and we were at the top, we were back at the bottom 
of the list and told it would be a minimum of nine years. We 
had been assured at the time, oh, you will be there next year. 
Never happened again. So we are still waiting. So I am just 
curious how when money is suspended across the board for 
construction projects, you know, is there a regular system? I 
mean, how do people that were at the top of the list where 
ground had been broken go all the way to the bottom of the 
list? Is there a system? Because I have never gotten a 
satisfactory answer. I have to tell you, I have asked again and 
again, give me the system whereby something like this can 
happen logically, and I have not gotten an answer.
    Ms. Nazzaro. Again, we have not done any work to actually 
identify how they prioritize or how that would happen. I have 
not heard of a situation like that before. I do not know if the 
IG has looked at that.
    Ms. Kendall. I cannot provide any insight either. I am 
sorry.
    Mr. Cole. Thank you very much. I yield back.

                       VALUING NATURAL RESOURCES

    Mr. Moran [presiding]. We will do one more round but I 
think the members understand that we will also submit any 
remaining questions that do not get asked publicly for the 
record and we would appreciate you responding to them.
    I want to ask my colleagues if there is general consensus 
that the cost for mining extraction, grazing, oil and gas 
royalties, whatever it be, should be covered with a market 
price, in other words, the reimbursement should be market 
oriented including the cost of reclamation to its original 
form. Is there a consensus? If there is, raise your hand. But 
you would agree, Mike?
    Mr. Simpson. In general, yes.
    Mr. Moran. In general. Okay. Well in general is good. We 
can discuss that further, but it seems to me that is what the 
taxpayers would expect, that when resources are extracted from 
public land that there be market-based compensation plus the 
cost of restoring the land as much as possible to its original 
condition. Now, having said that, it is a lot easier than 
implementing such a policy. Obviously from your testimony we 
are nowhere near that, and I am wondering how realistic it is 
to make that the criteria and how much more money might be 
gotten by the federal taxpayer even if it was put in some kind 
of a trust account so that it could be used for the 
reconstruction of lands or for the improvement of the water 
quality, even in the area where the resources were extracted. I 
did not see specifics in the testimony. There was one specific 
in terms of the royalties lost from the kind of approach we 
used to get reimbursed for oil and gas but it really did not go 
to this question. Do we have any estimate of how much the 
taxpayer is subsidizing these resource extraction programs? Has 
there been any kind of estimate? It may be unfair and 
unrealistic to ask but I think at some point with a new sheriff 
in town, that would be a reasonable question to ask. If you 
were to take the standard as to market-based compensation plus 
reclamation, whether it was a mine or whatever, versus what we 
are currently getting, what would that amount to? Do we have 
any rough ballpark estimate?
    Ms. Nazzaro. We have not done a total estimate. We 
certainly know the royalties from oil and gas is considerably 
larger than what you would expect to get from grazing or even 
hardrock mining. They are required now to provide a financial 
assurance that they do reclaim the hardrock mining. We have 
just found that BLM's policies and procedures are not adequate 
to always assure that they are adequate and occasionally you do 
have an operator who walks away from it and then the government 
is left holding the bag there. But we have not done an estimate 
as to how much we could expect to get, say, if we increased 
grazing to the market value. We have never done an estimate.
    Mr. Moran. I would be inclined to ask OMB at least to get 
us that number, which means that they would invariably look to 
you to see what GAO has done in that respect. I know I would be 
interested to know the total extent of what some would consider 
to be a subsidy.
    With regard to this 1874 Mining Act, there used to be 
figures as to how much we were losing or the taxpayer was 
losing. I think the number went up from 250 an acre but it is 
still not market based, I understand. Do you have any number on 
that?
    Ms. Nazzaro. With hardrock mining, how much we are losing 
by not----
    Mr. Moran. By not charging a market-oriented cost.
    Ms. Nazzaro. No, that is what I just asked, whether we had 
an estimate or whether we had heard an estimate, say, from CBO 
or anybody else.
    Mr. Moran. Are most of these firms that do the hardrock 
mining foreign owned? They used to be the case.
    Ms. Nazzaro. I was going to say, we have never looked into 
the ownership either.
    Mr. Moran. There was a time when I asked and there was not 
one American firm. Some were Canadian and others had overseas 
ownership. It would be interesting to know that.
    Ms. Nazzaro. Percentage-wise, I would not know.
    Mr. Moran. And we do not have any estimate on grazing, 
either. There is some denuding of the lands when they get 
overgrazed that is an addition to the cost to the government. 
Ranchers with grazing permits pay considerably below what a 
private landowner would charge. There is also the cost of 
reclamation. We do not have that either, do we?
    Ms. Nazzaro. I would not say it is really a cost of 
reclamation. They try to----
    Mr. Moran. Well, restoration.
    Ms. Nazzaro. Well, they monitor, though, how much they are 
allowing and so not to--I mean, ideally, they would not get in 
that condition of overgrazing.
    Mr. Moran. Well, what you would do is to give a certain 
period of time for the grass to grow back and oftentimes I 
understand they do not, that is based more on the need of the 
rancher than the need to maintain the quality of the grazing 
area.
    Ms. Nazzaro. Okay. One figure we do have is that for the 10 
agencies that have grazing fees, they generated about $21 
million in fiscal year 2004, which was less than one-sixth the 
expenditures to manage the grazing program.
    Mr. Moran. So that is just the expenditures to manage?
    Ms. Nazzaro. Right. It is not getting it up to market 
value. We are talking about what it would cost the cattlemen to 
do it but we are saying just administratively the program is 
not breaking even, it is not making money. I mean, it is losing 
money. But again, it is what was the intent of the program. The 
intent of the program was not intended to be a cash operation 
for the federal government to make money.

             ENVIRONMENTAL PROTECTION: OIL AND GAS PERMITS

    Mr. Moran. I know in the debates that we used to have, I 
think back before any of the current Members were even in the 
Congress back in the early 1990s, there was a guy from 
Oklahoma, Mike Synar, that used to bring this up. He is no 
longer with us, and that may be one of the reasons. But he made 
the point that it was not fair to the private landowner who was 
also competing for the use of their grazing area when the 
federal government was making land available so cheaply. I am 
reading the question here so I can be consistent with the way 
that Mr. Dicks would have asked it. Do we have an assessment as 
to whether BLM-managed lands are getting adequate environmental 
protection during the oil and gas extraction operations?
    Ms. Nazzaro. That was an issue that we had raised, that 
while we had recommended they be allowed to charge a fee to 
process the permits, that what had happened was, this was 
actually set up as an offset so while they got those fees, they 
really were not getting extra money because of having to 
process these increased number of permits now with oil and gas. 
They have not been able to do as much as far as environmental 
and resource management that we would expect. We would suggest 
that the authority be a cost recovery fee rather than to be 
offset so that they actually then could have the people that 
were supposed to be doing reclamation activities or other 
resource management activities go back to do that and have the 
program set up as a fee program that would pay for the cost of 
processing the permits.
    Mr. Moran. But since so many permits have already been 
issued, there is some real question as to whether the damage 
that has occurred can be undone. How long are these permits 
normally? You have to use them, do you not? If you do not use 
them, do you lose them?
    Mr. Rusco. Yes. Oil and gas permits currently for onshore 
typically are 10 years in length, and if you are actively 
developing at the end of 10 years or producing oil or gas, then 
they will be extended indefinitely as long as you are producing 
economic quantities. If you are actively developing, meaning 
either currently drilling or have a good plan to drill or under 
a couple other circumstances, you can get extensions on that 
10-year lease term.
    Mr. Moran. Did you do an assessment as to whether the 
management plans and the permit requirements adequately 
addressed the environmental mitigation requirements?
    Mr. Rusco. Well, the work that we did was essentially 
looking at the ability of BLM to keep up with its environmental 
protection mandate while they were increasing their workload on 
drilling inspections and applications to drill, and we found 
that they essentially had moved almost everybody to working in 
issuing the permits as opposed to doing other things.
    Mr. Moran. So I think this subcommittee has generally felt 
that BLM's mission is the sustainability of the land over which 
it is responsible to be at least equal to or greater than its 
responsibility to make oil and gas that might be on that land 
available to private drillers. But those priorities were 
reversed apparently so the desire to drill clearly was a higher 
priority than the sustainability responsibility. That is a fair 
statement, is it not?
    Mr. Rusco. We found in that work that BLM had failed to 
undertake responsible workforce planning, and if they were 
going to expand the number of leases issued and the workload 
that was going to accompany that, then they needed to acquire 
more employees to manage all of their responsibilities.
    Mr. Moran. Or suspend those operations until they could 
adequately preserve the land that they are responsible for.
    I thank you. I do not want to repeat questions that have 
already been asked. We will go through one more round. What you 
have given us is a lot of grist for the mill. It is good work 
and I hope it can be incorporated into the markup of the bill. 
Thank you very much.
    Mr. Simpson.
    Mr. Simpson. Thank you.

                    MARKET VALUE VS. ABILITY TO PAY

    A couple of questions I would like to continue asking. I 
guess one of them is, we talk about these resources that are 
owned by the people of the United States, and maybe I have a 
funny view of it but I always have figured that these are owned 
by the people of the United States and consequently if you 
allow someone else to extract them, that the people of the 
United States ought to get a certain percentage of that 
regardless of what the market value was. Whether the price of 
oil was $100 a barrel or whether it was $2 a barrel, a portion 
of that belongs to the people of the United States, same with 
hardrock mining, same with grazing, same with anything else. 
And I have been interested in your questions on grazing, and I 
read in your report where it said BLM in 2004 collected $12 
million in receipts and it cost $58 million to implement the 
grazing activities in 2004.
    Ms. Nazzaro. Well, that gets to the point of why did they 
have the grazing program. It was to benefit the ranchers, and 
the other side of the argument would be that the ranchers are 
also citizens of the United States and they feel, well, they 
have already paid for these lands, we are paying to manage them 
and we are paying through our taxes. And so the program was 
never really established to be cost-neutral.
    Mr. Simpson. Some of the AUMs are assessed based on a 
formula based on a rancher's ability to pay. Is that correct?
    Ms. Nazzaro. Correct.
    Mr. Simpson. Before I forget, I will tell you that it is 
not overgrazing that is a problem. The reason that most 
ranchers are getting off of federal lands now is because the 
regulations' because of past practices that sometimes 
overgrazed lands and stuff. Grazing is actually a management 
tool that they use in reducing the underbrush and everything 
else in forests and on BLM land. I mean, there are other 
purposes for grazing. Are these AUMs competitively bid?
    Ms. Nazzaro. I do not think it is competitive.
    Mr. Simpson. How does the rancher get a lease on BLM land 
to run so many cattle?
    Ms. Nazzaro. I guess we have never really looked to see if 
it is a lottery or how they determine who gets them, but you 
are right, there is not ever enough.
    Mr. Simpson. They have to have a base property near the 
land. That is why some ranchers claim them essentially as 
property rights as part of their base land but they have never 
been recognized as that. I am curious how these are continued. 
I know on state land, the State of Idaho, the Department of 
Lands is required to manage state lands for the best and most 
beneficial use of public schools, so they have to get as much 
revenue from them as possible, and every time a permit comes 
up, whether it is 10 years or whatever, they are competitively 
bid and someone can go and outbid them. In fact, there have 
been controversies now because some environmental groups that 
want to get cattle off the lands are bidding for these and 
outbidding the ranchers and the ranchers are saying goodbye and 
getting them off public lands. But Mr. Moran is absolutely 
right in one area, and that, is that I have had many ranchers 
that ranch on private lands that complain about competing with 
someone that has subsidized grazing essentially on public 
lands, and that is a controversy also. But I would be 
interested to know exactly how a rancher qualifies for an AUM, 
if they have to have base property near it, several ranchers 
around, why one versus the other.
    Ms. Nazzaro. Possibly the agency would be in a better 
position. I do not believe we have ever looked at that as to 
how they allocate them.
    Mr. Moran. We will find that out for the benefit of all the 
members.

                         INTERVIEWS FOR REPORTS

    Mr. Simpson. A couple other areas. One is, in your reports, 
particularly on the wildfire area, I noticed you have talked to 
a lot of individuals out in the field and so forth. Do you 
actually go out in the field and talk to the people on the 
ground fighting the fires, the incident commanders, these 
people about the issues that they are facing, and how free do 
you think these people are to tell you the realities? Because 
it has been my experience working with Department of Energy, I 
have a DOE site in Idaho, they have been told, the employees 
out there, that before they can talk to me, essentially they 
have to notify the Department that they are talking to a 
Congressman. You know, I do not know how much freedom this 
gives them to actually say what they think.
    Ms. Nazzaro. I think we get people to be actually pretty 
open. I am only aware of one recent audit that we did where we 
had to have the solicitor present during questioning that we 
did of any employees. But other than that, it is my 
understanding, it is usually pretty open. Word gets out pretty 
quickly when we are doing an audit, if people are interested, 
they call me, they e-mail me. The team will meet with them out 
in the field. There is people who say hey, I would like to meet 
at a restaurant after hours, you know, when they are not on 
government property to tell us their story. So I think the word 
gets out and I think we do get the story.
    Mr. Simpson. Because when I went up and sat in on one of 
these forest fires, the best information I got was sitting 
around the campfire at night with the incident commander and 
some of the people who were actually working on the fire and 
talking to them about what was going on, the issues that they 
were facing and some of the pros and cons of various things. 
Have you ever been out on one of the wildfires where they are 
actually fighting it and stuff?
    Ms. Nazzaro. Actually a couple years ago they did get me 
out to a fire camp. I was there for about two nights, I think, 
or three days, yes.
    Mr. Simpson. Amazing, is it not? They gave me a tent with 
broken poles.
    Ms. Nazzaro. We brought our own equipment.
    Mr. Moran. The tent was what?
    Mr. Simpson. They gave me a pup tent with broken poles so 
the next time----
    Ms. Nazzaro. I think they were very surprised. We brought 
our own equipment. My staff from Seattle had us outfitted in 
sleeping bags and tents. It was cold but----
    Mr. Simpson. I told them I wanted to be treated like a 
firefighter, just do not put me in danger, because I wanted to 
know exactly how it worked and what you had to do to fight one 
of these and why it took 5,000 people and stuff. It is amazing 
being out there for a few days and realizing what they actually 
go through, and sometimes when we look at the reports, it is 
nice to sit back in an academic situation and look at them and 
say we could have done this and so forth as opposed to making 
decisions that are on the ground right now that this is going 
to burn down this valley and burn these houses if we do not do 
something regardless of the fact that it might cost a little 
more to do it or something. And we sit back sometimes and try 
to analyze these after the event and say, you know, well, we 
could have done it cheaper or other things. Second guessing is 
oftentimes hard.

                         APPEALS AND LITIGATION

    One final question. Have we done any reports on the amount 
it costs to comply, the amount the Department spends fighting 
lawsuits and so forth?
    Ms. Nazzaro. Actually we have an ongoing effort right now. 
We are looking at the Forest Service. We have not done it with 
Department of Interior but we looked at how much they are 
spending on appeals and litigation activities.
    Mr. Simpson. Good. Because one of the real problems I had, 
I guess one of the discussions I had with the former forest 
chief, I asked him one day how much of the total cost of making 
a decision for a thinning project, timber cut, whatever, how 
much of the amount of money you spend for that is spent making 
what you believe to be a sound scientific decision and how much 
trying to make it bulletproof from a lawsuit and then defending 
it because you know you are going to get sued, and he told me, 
you know, on any given decision he would say between 25 and 50 
percent of the funds are spent making a sound decision and 
between 50 and 75 percent are spent trying to make it 
bulletproof from a lawsuit. If we could use those resources, 
and I understand that people have to have the right to--these 
are the people's resources. They have to have the right to 
voice their opinion and if they think it is wrong be able to go 
to court and so forth. But the process we have set up has made 
it so cumbersome and so expensive that if we could use a lot of 
those resources in actually managing our public lands rather 
than managing attorneys in court, I think we would be a lot 
further ahead, but I will be interested in seeing your report 
when it comes out.
    Ms. Nazzaro. We have also done a report in the last year on 
the use of collaborative resource management, and that is where 
you bring the stakeholders involved up front to try to work out 
all those issues, and one of the benefits certainly is to 
minimize litigation after the fact.
    Mr. Simpson. And that has been fairly successful, has it 
not?
    Ms. Nazzaro. Well, we have seen, you know, some activity in 
a few locations. It is not as maybe widely used as one would 
think it is. There are a lot of barriers to the use. One, 
agencies have different perceptions about whether their 
employees can actually work in those environments because a lot 
of times it is not really directly related to their job so can 
they participate in these activities, can they be part of a 
decision-making process and is that going to stick then. If 
this group meets and makes a decision, then is the agency going 
to accept it. So we have actually made some recommendations to 
CEQ on how to put this forth as a vision for the government and 
to encourage collaboration and so we are waiting to see whether 
they adopt any recommendations. But you may be interested in 
that report.
    Mr. Simpson. It has been my experience in trying to work 
out a wilderness bill in Idaho that if you can get people 
together beforehand, get them on the plane early, you can solve 
a lot of the problems that would come up later on rather than 
just hand them something and say this is the decision. But if 
you look at most of the lawsuits that occur, they are process 
lawsuits. They are not necessarily about the outcome or the 
decision. They are about the process, you did not do X, Y or Z. 
And we have created a process which is so cumbersome that I 
will guarantee you almost every decision we make somebody will 
be able to sue us because of some process. We need to review 
the entire process of how some of these decisions are arrived 
at and all the requirements through them, still maintaining an 
individual's right to have a say in how these public lands are 
managed.
    Mr. Moran. Thank you, Mr. Simpson.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Moran.

                COMPARING PRODUCTION NUMBERS: OIL & GAS

    I just have one follow-up question to you, Mr. Rusco, about 
something you were talking about on royalties and sort of the 
self-policing and the collection. I think you made the 
observation that there is third-party verification available 
that the Service is not using to determine whether or not the 
financials that they are getting from the oil and gas explorers 
are accurate. What would be a comparable 1099 or W-2?
    Mr. Rusco. Well, one of the things that they used to do at 
MMS prior to getting a new IT system is, they used to 
automatically compare lease operator production numbers against 
royalty payer production numbers, so there are two separate 
databases, one in which the operator which often operates a 
number of leases owned by maybe multiple owners, they provide a 
production report, and then when the royalty payers go to pay 
their royalties they tell MMS this is how much we produced, 
this is how much we got for it and here is how much we owe you. 
And it used to be that until 2001 there was an automatic 
comparison of those two databases and that fell out when the 
agency got a new IT system and they have been sort of 
struggling with trying to implement that. Another example is in 
looking at pipeline data to determine how much product was 
actually shipped, and they do this for oil but they do not do 
it for natural gas, and we think there is some considerable 
advantage to just providing that additional look.
    Mr. LaTourette. On those issues, is that something, on the 
first one in particular, once their new computers are humming, 
that problem will be fixed or they do not have the will to do 
it? Does it need an administrative fix or a legislative fix?
    Mr. Rusco. I think they have been trying to implement a fix 
to the computer system and I do not know whether they may have 
since our audit actually achieved that. I do not know. I would 
have to go back and check.
    Mr. LaTourette. And then again, Mr. Moran, you were out of 
the room but I think speaks to the importance of having the 
agency up here because a lot of important things came up during 
the course of this hearing but the fact that someone cannot pay 
regardless of whether you are setting a reasonable fee, a 
market-based fee, but once you have set a fee if you are not 
collecting it, that just seems ridiculous to me. And so I would 
be interested to hear the Department's response.
    The last comment I would make to Mr. Simpson, I had always 
thought that a pup tent with a broken pole was like a split-
level in Idaho, the average split-level. Is that not right?
    Mr. Moran. Thank you, Mr. LaTourette, for your incisive 
comments.
    Mr. Chairman, Mr. LaTourette just raised the issue of 
third-party verification on the reimbursement for resource 
extraction. They used to do it. Their new IT system is not 
doing it, and that would seem to be one way we could determine 
how serious a problem is. But with that, Mr. Cole is the only 
one who has not participated in the second round.
    Mr. Dicks. Good. Mr. Cole.
    Mr. Cole. Good?
    Mr. Dicks. Well, I meant good that you are the only one.
    Mr. Cole. That was eloquently stated, Mr. Chairman. I am 
the most junior member of the minority party. I understand.
    Mr. Dicks. We want you to have an equal opportunity.

           COST OF PRODUCTION IN THE U.S. VS. OTHER COUNTRIES

    Mr. Cole. You have provided it, Mr. Chairman. Thank you.
    Mr. Rusco, I want to go back real quickly to this oil thing 
and I want to make sure my own view is clear here, which number 
one, I think we have historically in our country chosen to 
underprice things to incentivize development. I do not think 
that is particularly good policy. I just think that is what we 
have done. And I think second, there is no question about the 
amount of theft and mismanagement going on. Anybody that knows 
anything about the history of Indian tribes and the trust 
management would agree with that. So I think that is true. All 
I would ask is going forward as you look at this, please do 
take into account it is not a free market that we are dealing 
with here. If it was a free market, there would not be very 
much drilling in the United States now because it is cheaper to 
drill someplace else. The reality is, we have a market where 
the price is set for a variety of international factors but 
overseas the cost of recovery is cheaper. It is considerably 
cheaper. You can get thousands of barrels of oil from a well 
where a really good well in Oklahoma would be 300 barrels a day 
now. You know, the cost of the well is more expensive to drill 
here. The risk is higher. And so we are never going to 
provide--you know, if you are an oil company, you are going to 
pay a government overseas more to drill in a place like that 
than you are going to pay to drill in a place like most of the 
domestic in the United States. So I think it is really critical 
that we find some way to compare what the private market 
domestically in the United States gets with what the public 
market would get, so to speak, inside this country, because 
cost of production just varies dramatically and risk varies 
dramatically. So I would just ask you to do that.

                            BIA: TRUST LANDS

    Second, I really do have a couple questions on the BIA 
thing. Ms. Nazzaro, you mentioned this, and I appreciate you 
bringing it up, this enormous variation in land in trust, the 
amount of time it takes, what are the factors when you look 
into that the BIA or the Department of Indian Affairs actually 
says this is the reason why we disposed of this in 58 days, 
this one is 19 years and the clock is still ticking? What 
explanation do you get for that kind of variation?
    Ms. Nazzaro. I would say probably the most common one is 
that they had to go back either for more information, either 
the application was incomplete or there were questions during 
the processing of it that they go back then to the individual 
who is submitting the application and either--I mean, sometimes 
they do not get the information back in a timely fashion. We 
tried to take out the time, you know, to really see how long 
does it take to process these things and it was very difficult 
to get that back and forth, but that is clearly the issue.
    Mr. Cole. Do you see political factors of bureaucratic 
factors intervening or is it just----
    Ms. Nazzaro. No, I did not see that.

                           TRIBAL RECOGNITION

    Mr. Cole. Last question on a related issue. The same kind 
of frustration, you know, always and even more intense is 
around the whole recognition process. Have you looked into the 
process of recognizing tribes and why again some of these 
tribes can get recognized in a comparatively brief period of 
time? Others take decades where it goes on forever with no 
resolution for the Department and they tend to then find their 
way to Congress and, you know, the Congress always has the 
right and the ability to recognize tribes but it usually not 
very well informed about any particular tribe when it actually 
comes down to the Floor. So I think most people in Congress 
would like a bureaucratic process that worked rather than us 
just fighting it out without knowing too much about it. Have 
you made any recommendations to them in that area?
    Ms. Nazzaro. It has been some time since we looked at 
tribal recognition but it was the same type of thing that, you 
know, they had submitted an application, maybe the application 
was not complete or there were questions during the review of 
the application, that they went back to the tribes and so 
sometimes that would sit. So we did a similar exercise looking 
at tribal recognition and timeframes.
    Mr. Cole. Do you think it would be possible to get that to 
some sort of standardized, you know, more or less, you ought to 
be able to get it done in this number of years or something?
    Ms. Nazzaro. Well, we suggested that they have some 
timeframes that they establish that would actually be 
reasonable to get that process down so someone would know. It 
is certainly a complex decision-making process, you know, and 
there is a lot of research that goes on, so I do not want to 
minimize the complexity of it but that is what we recommended 
was if they could at least come up with a time.
    Mr. Cole. Do you happen to recall roughly what the time 
period was? I am just curious.
    Ms. Nazzaro. No, we do not.
    Mr. Cole. Okay. Thank you very much. Thank you, Mr. 
Chairman.

               PREVIOUS EXPLOITATION OF AMERICAN INDIANS

    Mr. Dicks. Mary, in your report you talked about some of 
the cases of abuse, breakdown in integrity and ethical conduct 
of both career and political appointees, and you say the most 
egregious of these cases involved former assistant Secretary 
Steven Griles and his willingness to serve as Jack Abramoff's 
inside man at Interior. The scandal involved the exploitation 
of American Indians and resulted in over a dozen separate 
investigations, some of which are still ongoing. Can you give 
us a little more on what this entailed?
    Ms. Kendall. Basically the relationship between Mr. Griles 
and Mr. Abramoff was more than Mr. Griles testified to. His 
conviction was 1,001 violations for lying to Congress. He said 
that his relationship with Abramoff was far less than it was. 
He had actually negotiated in employment discussions with Mr. 
Abramoff when he said that to, and I am drawing a blank on the 
Congressional committee, that said that he had only a passing 
relationship with him. It was in fact more.
    Mr. Dicks. And you said that this had been adverse to 
several of the tribes. Can you tell us, do you remember what 
those things were?
    Ms. Kendall. Well, my recollection is a little hazy at this 
point but Abramoff, in the one instance that I recall more 
clearly than others, was putting two tribes against each other, 
taking money from one to prevent gaming approval for another 
and then taking it from the other to basically pit the position 
against the first tribe. That is the one I remember most 
clearly.
    Mr. Dicks. I remember that now. Are there any other issues 
where Abramoff was involved with other people inside the 
Department of Interior that you recall?
    Ms. Kendall. Not that I recall, no. My recollection was Mr. 
Griles was his primary contact. I think he saw other people as 
well but not to the extent where Mr. Griles was making himself 
available.

                      IMPROVING ROYALTY COLLECTION

    Mr. Dicks. I would mention that, I know this was brought up 
earlier but apparently the United States is only the 93rd 
highest nation in getting return from publicly owned oil and 
gas, and my view of this is that taxpayers should get a better 
return from the sale of energy. Again on the question of the 
leases, my view of this is that we have to go through an 
environmental process on the offshore leases. That takes time, 
and I felt in that whole debate we might have been beating up a 
little bit on the companies unfairly in that everyone has to go 
through this process, and sometimes if there is an area where 
you really are excited about it you may go a little faster but 
it takes five or six years to get through the basic process. Is 
that not correct?
    Mr. Rusco. Yes, it does take some time to get through all 
the environmental impact statements and other issue that you 
would have to do in order to drill.
    Mr. Dicks. And it is expensive. I mean, it takes money to 
do that.
    Mr. Rusco. Correct.
    Mr. Dicks. But you still are of the opinion that we should 
be doing a little bit better in what the taxpayers get?
    Mr. Rusco. Well, I think there are two points you raised, 
one is just how much are we getting, and we do get less than 
most other resource owners in terms of the share of revenues, 
and we are also a very popular place to invest in oil and gas 
development. As I said before, in the last five years or so 
when the number of rigs in operation doubled globally, more 
than half of the increase was in the United States, so we are 
an attractive place to invest.
    Mr. Dicks. But you believe that with your IT, with third-
party verification, with more oversight of the actual work that 
has been done or not done, we could do better? I mean, it seems 
to me as if we have chosen to take a lax approach to this, 
which is worrisome. Do you agree with that?
    Mr. Rusco. I think we have----
    Mr. Dicks. There is laxity in certain areas that contribute 
to this problem.
    Mr. Rusco. I think in terms of collecting the royalties and 
the revenues that we are due, you could describe it as a lax 
approach. We have found many, many problems that could be 
solved. In terms of the bigger question of how much to charge 
or how much land to put under lease at any given time, we think 
that requires a more comprehensive look that takes into account 
all the complexities of the industry, the fact that these are 
big, long, 30-year commitments. If you find oil or gas, you 
know, you will be developing it and extracting it for 30 years, 
and that there is a lot of cyclicality in the industry and also 
in prices of oil and gas, and all of that I think needs to be 
considered in the context of what other oil and gas resource 
owners get.
    Mr. Dicks. But you said that, and I am trying to remember 
the exact words, but you said that there was one area where we 
have self-reporting and that you had found that if they had a 
different form of reporting, that we would be getting more 
money, that self-reporting is not a satisfactory way to do 
this. Is that not correct?
    Mr. Rusco. I think there may be no----
    Mr. Dicks. There may be an opportunity.
    Mr. Rusco. Yes, I think it is an opportunity to utilize 
third-party data in some areas that are available more than 
they are used to corroborate what the payers are self-
reporting.
    Mr. Dicks. Well, when people are saying, well, we are going 
to have self-reporting, we are not going to have this and that, 
it leads one to conclude that the Department itself, the 
Minerals Management Service is not aggressively reviewing all 
of this to make sure the taxpayers are being treated right. 
That is how it comes out to me, the bottom line. Do you 
disagree with that?
    Mr. Rusco. No, I do not. I think in the totality of the 
work we have done looking at royalties and revenue collections, 
we found and the Inspector General found and the Interior's own 
royalty policy committee, between the three groups we made well 
over 100 recommendations in the last year and a half to ways to 
improve the royalty collection system.
    Mr. Dicks. This involves the BLM too. I did not mean to 
leave them out of it.
    Mr. Rusco. Yes.
    Mr. Dicks. And they are even somewhat more lax than the 
Minerals Management Service, except they do not party as much. 
I should not have said that but I did. The BLM, as you laid out 
today, both of you, on the rebid and the minimum bid, all those 
things, you know, you prefer the Minerals Management Service 
over the BLM. That is what I got out of your statement. Is that 
not correct?
    Mr. Rusco. I think that there is a lot of merit in using 
all the information you have when you are selling a resource 
and they are putting this out for competitive auction and yet 
they are not using all the available information about what the 
value of that might be to determine whether or not they are 
getting a competitive rate, and what Minerals Management 
Service does, if they do not think they got a competitive rate, 
they pull it off and they might issue it later. BLM on the 
other hand, they do not estimate whether they got a competitive 
rate, and even if no one bids on it, they will still offer it 
the very next day for a small administrative fee to whoever 
gets there first and wants it, and I think that may be 
reasonable under some circumstances but I think that the 
Department of the Interior should look at the whole program of 
oil and gas leasing in both of its subagencies and not let 
specific historical accident or whatever cause the way that 
each agency does their business be the way that we manage our 
oil and gas resources. We should look at this and say in this 
instance we will manage it this way and in this instance we 
will manage it that way and it should be based on the 
conditions.
    Mr. Dicks. Has the GAO looked at BLM's coal program?
    Mr. Rusco. We have in the past looked at all kinds of 
mining but I have not done that work.
    Mr. Dicks. You have not had a specific look at the BLM's 
coal program?
    Ms. Nazzaro. The Office of Surface Mining does coal.
    Mr. Dicks. Staff says BLM has 40 percent of the coal. I 
know that is right. There is an Office of Surface Mining but 
they are regulatory, are they not, mainly for safety and that 
kind of thing?
    Ms. Nazzaro. Overseeing. The states manage the programs for 
the most part.
    Mr. Dicks. Yes, but what we are talking about is the land 
that the BLM owns, they have coal programs. They are doing oil 
and gas and coal, I think.
    Ms. Nazzaro. We have not looked at that.
    Mr. Dicks. But you have not looked at that. All right. 
There has been a suggestion that we ask the Department to look 
at all these issues raised. I am going to hold on that until we 
have a chance to talk to them, and we have a lot of questions 
that we have prepared and maybe we will do that, but I want to 
confer with Mike first and see what is the best way to do that. 
All of these things have been talked about within the 
Department. They have all seen your recommendations and we will 
have a chance to question them about that when they come up. So 
I do not know whether it is worth asking them to respond to all 
these things, but if we do, we will do a letter.
    Mr. Simpson. Can I ask one question?
    Mr. Dicks. Yes, go ahead.

                         SELLING FEDERAL LANDS

    Mr. Simpson. In the Federal Land Transaction Facilitation 
Act, it has raised $95.7 million in revenues, and 92 percent 
has come from land transacted in Nevada?
    Ms. Nazzaro. Yes.
    Mr. Simpson. Why is that?
    Ms. Nazzaro. Because that is where the vast majority of--I 
mean, they have more land, BLM lands.
    Mr. Simpson. I know they do, but that is an incredible 
amount to come from just one state. Have there been other 
things that have made it easier to make these transactions 
available in Nevada that are not in other states?
    Ms. Nazzaro. The program is pretty much the same across the 
country. The way it works is, BLM can sell their lands but then 
other agencies can use the money to buy lands. So there is 
really a disincentive there so that is one of the problems that 
we identified was, why should BLM sell their lands and then 
have another agency use that money to be able to acquire lands.
    Mr. Simpson. It seems too strange that so much of it would 
be in Nevada and very little in other states.
    Ms. Kendall. They have so much federal land.
    Mr. Simpson. Well, I know they do but a lot of states have 
a lot of federal land.
    Ms. Navarro. But not BLM lands. Well, and high value.
    Mr. Simpson. It is in Las Vegas and it is very high value.
    Mr. Dicks. They made a lot of money on that and lot of that 
money went to the state, did it not?
    Ms. Nazzaro. It does, yes. But if you look at the maps, I 
mean, that is a primary state for BLM. I mean, there are 
federal lands, like Idaho has a lot of federal lands but not 
the percentage that BLM has compared to Forest Service.
    Mr. Dicks. Mr. LaTourette, do you have another question?

                        NON-PRODUCING OIL LEASES

    Mr. LaTourette. I just wanted to make sure, Mr. Chairman, I 
got what you had said earlier. Were you indicating that in last 
year's debate on use it or lose it we were unfair to the 
companies?
    Mr. Dicks. Well, I just said, I did my own independent 
assessment of this. I brought in the private sector companies, 
I brought in the Minerals Management Service, and I asked them 
how does this really work. I think that is part of our 
responsibility because we need to know how this really works, 
and there were a lot of people that were saying that we could 
do this rather quickly and cavalierly, and that turned out not 
to be accurate. And so as I always try to be fair, I wanted to 
make sure if I got up there and said something, that it was 
based on real information from the industry, from the 
government, from the oversight people so I would have a better 
understanding of how this thing really works and whether there 
was the possibility of acceleration.
    Mr. LaTourette. I appreciate that, and I would suggest that 
that is what separates you from others who make observations 
without the facts, so I thank you for that.
    Mr. Dicks. Well, I hope we all together will work on this 
and we will collectively have the facts.

                       ADDRESSING CLIMATE CHANGE

    Let me go back to one thing that I missed, climate change. 
You mentioned climate change, which is a big priority for me 
and our committee is working on it. We had a hearing with the 
land agencies and we had, I think the Park Service, the Fish 
and Wildlife Service, BLM and the Forest Service. And we asked 
each of them whether they, in fact, could see things happening 
out there that they would attribute to climate change and they 
all said yes, and I have been impressed. You know, the previous 
Administration did not make this a priority, in my judgment, 
but I have been impressed that a lot of the people in the 
agencies, scientists in particular, have been studying this and 
I thought the testimony was almost overwhelming that they 
already see dramatic implications. You know, the fire season is 
a month longer on both ends. Drought is much more severe, bug 
infestation, the rising seas. You know, the testimony about 
Florida and the Everglades was rather dramatic. Even a few 
inches higher sea level would be catastrophic to a big part of 
the Everglades, and we are in this big effort to try and 
restore the Everglades. So what is it that you saw that you 
were concerned about in terms of the response within the 
Department to climate change? And we also created at the USGS a 
center for climate change and adaptation for wildlife too, 
which I think is another good priority.
    Ms. Nazzaro. About a year ago we did a report on climate 
change, in fact, pulled together a couple of expert panels 
using the National Academy of Sciences to bring in people and 
we heard the same thing, that we had agency officials as well 
as climate change experts documenting the impact on federal 
lands. Since that time the Department has taken some action. 
They have put together three study groups. It is my 
understanding they are looking at the legal ramifications, the 
policy and the land management areas and we are looking at the 
outcomes of those study groups right now. It is my 
understanding what they have got though is like a menu of 
options and again no prioritization has been established yet, 
no common direction or goal of what they are trying to achieve, 
but we will give them credit that they are starting to study 
it. I just think more action probably needs to be taken and 
more emphasis. They are clearly going to have that as a 
challenge to how to adapt their management styles, their 
resource management styles to the climate change issues.
    Mr. Dicks. Well, and the impact that this could have on 
fire, making the whole fire situation even more difficult and 
challenging unless we do all the things that we could do and we 
have not done because of financial reasons to better manage the 
forest health, cleaning out the understory, doing the things 
that we could do to lessen the fire risk. To me, if we had a 
budget shortfall, that is where it has been, and when you see 
the areas where there is proper preparation, the fires are less 
intense and there is less damage to the soils, so hopefully 
with a new Administration we are going to have to see if we 
cannot work on some of these issues. But I do appreciate what 
you said about fire. It is not only consuming huge areas of 
forestlands, it is consuming the Forest Service and the BLM 
budgets.
    Ms. Nazzaro. Federal budgets, yes.
    Mr. Dicks. In terms of their budget. It is up to 50 
percent. Some people do not realize that.
    Thank you. The committee will be adjourned.

    [GRAPHIC] [TIFF OMITTED] T2296A.047
    
    [GRAPHIC] [TIFF OMITTED] T2296A.048
    
    [GRAPHIC] [TIFF OMITTED] T2296A.049
    
    [GRAPHIC] [TIFF OMITTED] T2296A.050
    
    [GRAPHIC] [TIFF OMITTED] T2296A.051
    
    [GRAPHIC] [TIFF OMITTED] T2296A.052
    
    [GRAPHIC] [TIFF OMITTED] T2296A.053
    
    [GRAPHIC] [TIFF OMITTED] T2296A.054
    
    [GRAPHIC] [TIFF OMITTED] T2296A.055
    
    [GRAPHIC] [TIFF OMITTED] T2296A.056
    
    [GRAPHIC] [TIFF OMITTED] T2296A.057
    
    [GRAPHIC] [TIFF OMITTED] T2296A.058
    
    [GRAPHIC] [TIFF OMITTED] T2296A.059
    
    [GRAPHIC] [TIFF OMITTED] T2296A.060
    
    [GRAPHIC] [TIFF OMITTED] T2296A.061
    
    [GRAPHIC] [TIFF OMITTED] T2296A.062
    
    [GRAPHIC] [TIFF OMITTED] T2296A.063
    
    [GRAPHIC] [TIFF OMITTED] T2296A.064
    
    [GRAPHIC] [TIFF OMITTED] T2296A.065
    
    [GRAPHIC] [TIFF OMITTED] T2296A.066
    
    [GRAPHIC] [TIFF OMITTED] T2296A.067
    
    [GRAPHIC] [TIFF OMITTED] T2296A.068
    
    [GRAPHIC] [TIFF OMITTED] T2296A.069
    
    [GRAPHIC] [TIFF OMITTED] T2296A.070
    
    [GRAPHIC] [TIFF OMITTED] T2296A.071
    
    [GRAPHIC] [TIFF OMITTED] T2296A.072
    
    [GRAPHIC] [TIFF OMITTED] T2296A.073
    
    [GRAPHIC] [TIFF OMITTED] T2296A.074
    
                                          Thursday, March 19, 2009.

                    COUNCIL ON ENVIRONMENTAL QUALITY

                                WITNESS

NANCY H. SUTLEY, CHAIR OF THE COUNCIL ON ENVIRONMENTAL QUALITY

                    Chairman Dicks: Opening Remarks

    Mr. Dicks. We have before us today Nancy Sutley, Chair of 
the Council on Environmental Quality. Nancy, thank you for 
appearing before us today.
    The Council on Environmental Quality has received its 
funding through the Interior, Environment, and Related Agencies 
Appropriations Bill only since 2006. This is the first time the 
chair of the council has appeared before this subcommittee, and 
we welcome this opportunity.
    I will note that the council's annual budget is very small 
as we discussed yesterday. In fiscal years 2008 and 2009, they 
received less than $3 million to fund 24 FTEs. Given the job 
ahead of you, Ms. Sutley, we might anticipate a 2010 budget 
with at least a slight increase above fiscal year 2009 level, 
but we will have to wait for the official budget submission to 
review the issue.
    CEQ was established with the passage of the National 
Environmental Policy Act in 1969. It is charged with important 
responsibilities and should be a major component in any 
Administration's effort to protect and preserve our 
environment.
    In addition to developing national policies to improve 
environmental quality and coordinating federal environmental 
programs to avoid redundancy, it is responsible for oversight 
of federal implementation of the requirements of NEPA and for 
ensuring the federal agencies meet their NEPA obligations.
    We will be interested to hear from you what role the 
council will play in this Administration. There certainly is a 
need for Administration-wide leadership on a broad array of 
challenges facing our environment over the next few years.
    A few of the key challenges are coordinating government-
wide climate change capabilities, including: a role in 
determining the appropriate program to address climate change 
be it cap-and-trade or carbon tax; focusing the government's 
response to climate change, to the adaptation and mitigation of 
the effects of these changes on public lands and wildlife; 
helping the Administration to address the Supreme Court 
decision in Massachusetts v. EPA, which determined that EPA can 
regulate greenhouse gases under its Clean Air Act authorities; 
providing direction and leadership on future energy development 
for this Nation, including both traditional and renewable 
energy sources; providing coordination and direction on broad 
environmental issues that affect our Nation's public lands; and 
addressing the scope of the Federal Clean Water Act protection 
for our wetlands, streams, and other non-navigable but 
environmentally-sensitive waters of the United States.
    The President's budget request, at least the general 
overview that we have seen, appears to be very promising. Over 
the past 8 years the budget request for the programs funded 
through this bill suffered terribly disappointing reductions 
each year. From the fiscal year 2001 enacted level to the 2008 
request, Interior was cut by 16 percent, EPA by 29 percent, and 
the Forest Service without fire was down 35 percent.
    I am very pleased to see a 2010 budget request that begins 
to reverse this trend, but it is still not where we need to be 
to make up for the last 8 years of neglect. We look forward to 
seeing the actual agency and departmental budget requests, 
which, of course, are where the details reside.
    One point I will note before we get started is that while 
the chair is certainly a party to many of the Administration's 
discussions on specific environmental issues, she is not the 
decision maker for most of these issues. Therefore, we 
understand if on some of these things you will want to defer to 
others.
    Although it may have been neglected by the last 
Administration, the council has the potential to leverage real 
environmental progress. We look forward to working with you and 
supporting your work through our bill.
    Mr. Dicks. Mr. Simpson, would you like to make an opening 
statement?

                      Mr. Simpson: Opening Remarks

    Mr. Simpson. Thank you. I want to join Chairman Dicks in 
welcoming Ms. Sutley to today's hearing focusing on the work of 
the Council on Environmental Quality.
    It is clear from our brief conversation on Tuesday and from 
reviewing your opening statement that you bring a great deal of 
energy to the task before you. I hope that you bring to your 
work energy that is actually renewable energy, because you will 
need the wind at your back and plenty of sunny days to fulfill 
an environmental agenda as ambitious as the one presented by 
the new Administration. See, I am trying to get all those green 
words in there, because I know that they impress the chairman.
    The President has made clear his intentions to focus a 
great deal on the impact of climate change in the coming years. 
This is an issue of great interest to this subcommittee and 
Congress in whole, particularly with regard to changing climate 
conditions and how they impact our forest, range lands, and 
wildlife.
    I would encourage all of us in positions of responsibility 
to take actions to address climate change based on what science 
tells us rather than responding to what our emotions may tell 
us.
    Lastly, while we and members of the Administration will 
agree on some things, we may disagree over specific legislative 
proposals and the proper course of action to address a wide 
variety of environmental challenges. It is my hope that we can 
engage in a debate that is civil, constructive, and places 
limits on the amount of hot air rising from the Capitol.
    Mr. Chairman, let us pledge to work together to prevent 
even more damage to both our natural and political environment. 
I thank Ms. Sutley for joining us today and look forward to our 
discussion. Thank you.
    Mr. Dicks. And you may proceed with your statement. We will 
put the entire statement in the record, and you may proceed as 
you wish.

                     Statement of Nancy Sutley, CEQ

    Ms. Sutley. Thank you, Mr. Chairman, and thank you, Ranking 
Member Simpson and members of the subcommittee for the 
opportunity to appear before you this morning to discuss the 
President's environmental agenda and how it is reflected in the 
budget proposal. And thank you both for taking time to talk to 
me ahead of time.
    The President's agenda puts creating jobs, transforming our 
economy, and protecting the environment on the forefront of 
America's priorities. Since taking office just 2 months ago the 
Administration has articulated a bold set of policy 
initiatives, including increasing fuel economy standards, 
taking a fresh look at California's request for a waiver under 
the Clean Air Act, initiating a review of last-minute 
Endangered Species Act regulations, and supporting the first 
steps of a legally-binding international treaty to reduce 
mercury emissions worldwide.
    The Council on Environmental Quality was established by 
Title II of the National Environmental Policy Act. CEQ 
coordinates all federal environmental efforts and works closely 
with agencies, departments, and other White House offices to 
develop environmental policies and initiatives.
    As chair I serve as the President's environmental advisor, 
and in this capacity develop policies, set priorities, and 
coordinate the efforts of many agencies and departments.
    Over the past 2 months I have begun the effort to 
reinvigorate CEQ to pursue environmental policies that will 
help the Nation respond to a changing environment under 
considerably challenging economic conditions. As you know, as 
stated in its enacting legislation, NEPA's purpose is to assure 
that as we confront the challenges of harmonizing our economic, 
environmental, and social aspirations, we make transparent 
decisions based on the best available information.
    In the American Recovery and Reinvestment Act of 2009, 
Congress affirmed NEPA's central role in public decision making 
by finding that NEPA protects public health, safety, and 
environmental quality by ensuring transparency, accountability, 
and public involvement in federal actions and in the use of 
public funds. NEPA provides direction for the country to, as 
the statute says, regain a productive harmony between man and 
nature. And NEPA helps to provide an orderly process for 
considering federal actions and funding decisions and prevents 
litigation and delay.
    It will take time and dedication to get CEQ back to playing 
the leadership role provided for in NEPA which it has played in 
the past. I look forward to a constructive relationship with 
the subcommittee as I lead CEQ in its efforts to tackle our 
shared environmental challenges. As chair of CEQ in addition to 
focusing on an efficient and effective NEPA process and 
coordination among appropriate agencies, I plan to pursue the 
following four priority areas.

                        CEQ: PLAN FOR THE FUTURE

    First, I plan to work for the White House Office of Science 
and Technology policy and others to help ensure that there is a 
strong scientific basis for environmental policies.
    Second, I will help move the Nation towards greater 
reliance on clean energy, which will help put Americans back to 
work in good-paying jobs, increase our energy security, improve 
environmental quality, and combat climate change.
    Third, I will work to protect public health from 
environmental pollutants with a particular emphasis on 
protecting those most vulnerable.
    Fourth and finally, I will direct CEQ to help conserve and 
where needed restore our working landscapes and great 
ecosystems.
    Some examples of priorities in this fourth area, resource 
conservation, include CEQ will help the Federal Government make 
progress towards conserving our ocean resources. This means 
working closely with our partners at the National Oceanic and 
Atmospheric Administration and facilitating regional, national, 
and international progress on issues related to habitat loss, 
overfishing, pollution, and the impacts of climate change on 
our oceans.
    I also see CEQ identifying ways that Federal Government can 
be helpful in preserving working landscapes by insuring more 
sustainable use of timberlands, agricultural lands, range 
lands, urban parks, and other open spaces. These efforts will 
involve encouraging the development of sustainable solutions to 
persistent droughts in the southeast and the western United 
States and facilitating action to address issues related to 
water, land use, and energy.
    Finally, I expect CEQ to work with our federal partners in 
making tangible progress on some of the Nation's key ecosystem 
restoration efforts, including the Great Lakes and the 
Everglades, as well as other large estuary systems such as the 
San Francisco Bay Delta, Louisiana Delta, Chesapeake Bay, and 
Puget Sound, which I know is important to the chairman.

                       GREEN INITIATIVES IN ARRA

    These are but a few examples of where we plan to go in the 
future, and as we begin our work we appreciate the investments 
in these areas and others that will be made by the American 
Recovery and Reinvestment Act of 2009. The American Recovery 
and Reinvestment Act of 2009 is the single largest investment 
in clean energy in the environment we have ever made. It 
includes $4 billion for the Clean Water State Revolving Fund, 
which will help communities build and improve their wastewater 
treatment systems and other watershed management programs that 
will improve water quality.
    Additionally, it includes $2 billion for the Drinking Water 
State Revolving Fund, which will help communities with needed 
upgrades in drinking water systems. These infrastructure 
investments will create jobs throughout the country and 
conserve both our water and energy resources. The Recovery Act 
also includes $4.5 billion for greening federal buildings, 
including to reduce their energy consumption and $6.3 for state 
and local efficiency and renewable energy efforts.
    Other highlights include $2 billion to jumpstart a domestic 
automotive battery industry, to accelerate commercial 
availability of plug-and-hybrid electric vehicles, $100 million 
for competitive grants to evaluate and clean up former 
industrial and commercial sites, and $300 million for grants 
and loans to help state and local governments, tribal agencies, 
and non-profit organizations with projects that reduce diesel 
emissions.

                       CEQ ROLE IN ARRA PROJECTS

    The Recovery Act also invests $600 million in the Green Job 
Training Programs, $100 million to expand line worker training 
programs, and $500 million for green workforce training. An 
important aspect of CEQ's role related to the investments 
provided through the Recovery Act is overseeing NEPA compliance 
for federal projects funded by the Recovery Act. Congress 
mandated that adequate resources within the Recovery Act must 
be devoted to ensuring that applicable environmental reviews 
under NEPA are completed on an expeditious basis and that the 
President report every 90 days on the status and progress of 
projects and activities funded by the Recovery Act with respect 
and compliance with NEPA.
    As chair of CEQ I have already convened a meeting of each 
of the federal agencies that receive funding under the Recovery 
Act to ensure they understand the NEPA requirements. CEQ staff 
has had several followup meetings to discuss guidance to 
expedite the NEPA process, and CEQ staff has also worked 
closely with individual departments to provide them with 
tailored programs to meet specific funding categories.
    I have also issued guidance for these agencies to use as 
they award project grants under the Recovery Act, and we have 
made it clear that CEQ is available to identify and help 
address questions regarding NEPA requirements and recovery 
funding.
    As we continue to confront the Nation's current economic 
challenges, President Obama has put an emphasis on finding and 
funding solutions that can both improve our economy and our 
environment in the short and in the long term. The President's 
budget proposal recognizes the fact that a strong, sustainable 
economy and a healthy environment go hand in hand. One of the 
most important things we can do is take action now to 
simultaneously transform our economy to one based on clean and 
reliable energy sources, create millions of new jobs, and move 
the Nation off of its dependence on foreign oil and reduce the 
threat of climate change. By supporting innovation and 
developing and deploying technologies like wind power and solar 
power, advance bio-fuels, carbon capture and storage, and more 
fuel efficient cars and trucks we can go a long way towards 
promoting a strong, sustainable economy and a healthy 
environment.

                  CLEAN ENERGY AND EMISSIONS REDUCTION

    To spark this clean energy industry we will make 
investments in the next 3 years that could double the Nation's 
renewable energy supply. We will put people to work modernizing 
buildings, weatherizing homes, updating the electric grid, and 
building and installing cutting-edge renewable technologies in 
homes and businesses across the country. And to make sure that 
we are sending a clear signal about investing in a clean energy 
future that reduces our dependence on oil, addresses the global 
climate crisis, and creates new American jobs that cannot be 
outsourced, the Administration is developing a comprehensive 
energy and climate change plan.
    As the President has mentioned, after enactment of the 
budget the Administration will work with key stakeholders and 
the Congress to develop an economy-wide emissions reduction 
program to reduce greenhouse gas emissions 14 percent below 
2005 levels by 2020, and 83 percent below 2005 levels by 2050. 
This program will be implemented through a cap-and-trade 
system, an approach that has a strong and well-tested track 
record.
    The President has indicated that he wants to see the 
revenues from auctioning pollution allowances returned to the 
people, especially to vulnerable families, communities, and 
businesses, as well as to deploy, to develop and deploy clean 
energy technologies that will create jobs and catalyze the 
clean energy sector in the United States. We can no longer wait 
while other nations make significant investments in creating 
this clean energy industry and the jobs that go with it.

                   OTHER FY 2010 INITIATIVES AND CEQ

    Let me also highlight three other pieces of the budget 
proposal that directly relate to the CEQ priorities I discussed 
earlier. The Administration budget for EPA includes $475 
million for a collaborative interagency effort to combat a 
number of problems affecting the Great Lakes, including 
invasive species and contaminated sediment. Unlike past budgets 
that funded elements of Great Lakes restoration activities, 
this initiative will be guided by environmental performance 
goals and measures that will target resources and lead to 
improvements in water quality and ecosystem health.
    The request for EPA also includes $2.4 billion for the 
Clean Water State Revolving Fund and $1.5 billion for the 
Drinking Water State Revolving Fund. This historic investment 
in these programs will allow communities to make much needed 
improvements to the waste water and drinking water systems, 
further protecting the environment and human health.
    And the Administration would also like to see an increase 
in the Land and Water Conservation Fund, which supports the 
conservation of important landscapes. To do this the Department 
of Interior and Department of Agriculture's budgets combined 
would provide approximately $420 million for fiscal year 2010.
    Mr. Chairman, Ranking Member, and all the members of the 
subcommittee, I know that you are deeply interested in a number 
of the programs that I may not have touched in my brief 
testimony. As you know, this Administration will be releasing 
its detailed budget later this spring, and it is my hope that 
we can work together to see implementation of that detailed 
budget that will invest in America's energy and environmental 
priorities.
    I appreciate the opportunity to testify this morning, and I 
look forward to answering your questions. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296A.075
    
    [GRAPHIC] [TIFF OMITTED] T2296A.076
    
    [GRAPHIC] [TIFF OMITTED] T2296A.077
    
    [GRAPHIC] [TIFF OMITTED] T2296A.078
    
                            STAFFING AT CEQ

    Mr. Dicks. In the past the council's budget has been 
relatively small as we mentioned, less than $3 million a year. 
You have a big job ahead of you. I trust the President's budget 
will give you what you need to do that job. Over the past few 
years the council has had about 24 staff slots. How many staff 
do you anticipate you will need to fully cover all that you 
have ahead of you?
    Ms. Sutley. Well, Mr. Chairman, the council's budget in the 
last several fiscal years, although it is authorized for 24 
FTE, the budgets have not been adequate to even reach that 
level of staffing. So we are hopeful that as we look to the 
next fiscal year that we will at least be able to fund the 24 
authorized positions.
    We also----
    Mr. Dicks. They were vacant. I mean, in other words, you 
had the money, but they decided not to fill them.
    Ms. Sutley. There was not enough money to cover all 24 
FTEs.
    Mr. Dicks. Oh, there was not? Okay. And I guess we will not 
really know until the budget comes up what it is that the 
President is requesting for CEQ.
    Ms. Sutley. Yes.

                          OCEAN ACIDIFICATION

    Mr. Dicks. When we had our discussion the other day, we 
talked a little bit about ocean acidification. You mentioned in 
your statement the effect of CO<INF>2</INF> emissions on the 
ocean. This is, I think, a major concern. I know there is a lot 
of focus on cap-and-trade and carbon tax, and how are we going 
to proceed on dealing with the question of climate change and 
the reduction in greenhouse gases.
    But I hope at the same time you being from and having a lot 
of experience in California, I know you are aware of this, 
there is a great concern that this acidification problem could 
be accelerating. I think this is one area that we really need 
to focus on. The President's nominee for NOAA, Jean Lubchanco, 
is an expert on this. Assuming that she is confirmed, she will 
be a person who can really bring a lot of attention to this 
issue.
    But I hope that CEQ will be involved in a leadership role 
with the Administration in making sure that we focus on this.
    Ms. Sutley. Mr. Chairman, you raise two important points. 
One is dealing with how natural systems and human systems are 
dealing with the impacts of climate change that we are already 
seeing. Certainly the concerns about ocean acidification, 
questions about changing hydrology in the west, other changes 
in wildfire seasons and things like that are real impacts that 
we are seeing from climate change are things that we need to 
address. And CEQ, working with other agencies within the 
Federal Government, we will take the leadership role in looking 
at how our natural systems and human systems are adapting to 
the changes from climate change, first by understanding what 
programs there already are within the Federal Government and 
seeing where there are gaps. This is an area we look forward to 
working with this committee and with the Congress on.
    Also, with respect to the ocean resources overall, this is 
an area where CEQ has played a leadership role in trying to 
bring the Federal Government together on a coordinated response 
to questions regarding ocean resources. And Dr. Lubchanco, 
assuming she is confirmed, has a very strong scientific 
background with respect to the oceans, and we look forward to 
working with her and supporting NOAA's science policies but 
also coordinating within the Federal Government on a response 
on ocean resources.

                      ARRA: RECOVERY ACT PROJECTS

    Mr. Dicks. Now, let me ask you about our stimulus package 
that Congress enacted. Though controversial, you mention in 
your statement about the need to accelerate the NEPA process.
    Now, that really rests with the agencies. Right? As you 
said, you brought all the agencies together, but they have to 
go through this process before the projects can be started. Is 
that not correct?
    Ms. Sutley. Yes.
    Mr. Dicks. If they have significant impacts.
    Ms. Sutley. That is right. Yes. That is correct.
    Mr. Dicks. Will a lot of these be getting environmental 
assessments rather than the full-blown EIS?
    Ms. Sutley. Yes. There are a number of tools within NEPA, 
with the statute, within guidance and regulations that CEQ has 
issued in the past, as well as working closely with the 
agencies to help them find ways that they can meet NEPA's goals 
of providing the kind of information that is helpful for 
decision makers and for the public, but at the same time moving 
the projects along quickly.
    So, in addition to talking to agencies generally about what 
those options are within NEPA, we have also been, as agencies 
have questions or requests, working closely with those agencies 
in helping them to develop tailored solutions that will help 
them get through the NEPA process quickly.
    Mr. Dicks. Do you think they have enough staff at these 
agencies? I mean, sometimes when we get into consultations 
under Section 7 of the ESA we find that one of the big problems 
is we do not have enough staff to do these things. What about 
for NEPA compliance? Do the agencies have enough staff to do 
this expeditiously?
    Ms. Sutley. Well, I think it varies a little bit from 
agency to agency. I think in all of the agencies that have NEPA 
requirements, they have staff who works on these, who are 
giving out money. One thing I think we have observed is that at 
the policy level within agencies there are generally, you know, 
they are not necessarily involved in the NEPA process. And that 
is something that we want to work with agencies on, because we 
think that NEPA helps policymakers to understand the choices 
that are in front of them and that, the value that Congress 
intended in establishing the NEPA process is reflected in the 
agencies.
    So far we have not encountered any problems with NEPA 
specifically with agencies that we have not been able to find a 
way through.
    Mr. Dicks. Mr. Simpson.

                      FEDERAL DROUGHT ACTION TEAM

    Mr. Simpson. Mr. Chairman, Congressman Calvert has to get 
to a Homeland Security meeting so----
    Mr. Dicks. Well, if you want to defer to Mr. Calvert, 
another Californian.
    Mr. Calvert. Thank you, Mr. Chairman, and I do not want to 
sound somewhat parochial, but California has its difficulties 
in a number of arenas, water being one of them as we discussed 
prior to the hearing.
    And one of the questions I wanted to ask, are you a member 
of the Federal Drought Team in your capacity in CEQ?
    Ms. Sutley. We have been discussing the drought with the 
Department of Agriculture and with the Department of Interior, 
and as I said in my statement, the resource management 
challenges in the Bay Delta is an area we want to pay----
    Mr. Calvert. Right.
    Ms. Sutley [continuing]. Particular attention to.
    Mr. Calvert. But you are aware of the Federal Drought 
Action Team?
    Ms. Sutley. Yes, we are.
    Mr. Calvert. Okay. I think it would be helpful if you are a 
member, because I think that this is going to develop into 
somewhat of a calamity. If not now, it is going to be worse 
this summer. As you know, 50 percent of the country's fruits 
and vegetables come from the Central Valley. Allocations of 
water have been cut 85 percent, zeroed out in some parts of the 
Central Valley. A lot of the permanent crops, for instance 90 
percent of the almonds produced in the United States, that feed 
the world comes out of the Central Valley. Many of those 
permanent crops have zero water allocation. They may lose their 
entire inventory of trees. It is a significant crisis in the 
State.
    So I would hope that you put a lot of focus in on that, 
both in the short term, where about 10,000 acre feet of water a 
day is leaving the delta, and long term and how we fix this 
problem once and for all, because this is a difficult problem 
not just for the State of California but for the whole country.

                  STATE NEPA REQUIREMENTS VS. FEDERAL

    One thing I wanted to follow up on the chairman's point on 
NEPA, as you know, California and many states in the country 
have environmental standards that exceed the NEPA requirements. 
California is famous for this. We have the California 
Environmental Quality Act, which in every aspect exceeds 
federal standards. It is one of the reasons why California is 
asking for a waiver of the Clean Air Act because we want to 
exceed it.
    But as you know----
    Mr. Dicks. Are you for that?
    Mr. Calvert. Well, you know, it is not really what I am 
for. It is what the Administration is going to determine. And I 
do believe that at the end of Recovery Act we all want this 
money to be spent as quickly as possible so we can get to 
economic recovery. And one thing that I have heard, and you 
probably have heard from states and from local communities is 
that projects that, say in California, are CEQA compliant, but 
they are not NEPA compliant. They have to go through this 
process. It can take months, you know, and I encourage you as 
you have mentioned to accelerate this process. But these things 
can get bogged down in a bureaucratic fashion that could take 
years, and that defeats the purpose of what we are trying to do 
under the Recovery Act.
    Don't you think that states that meet or exceed NEPA 
requirements should have some kind of an accelerated waiver 
process? Mr. Chairman, you probably know more about this than I 
do, that there will probably be some kind of technical 
direction bill down the road. Would that be useful to have a 
waiver process for states that exceed the NEPA compliance, so 
we can get these projects out there as quickly as possible?
    Ms. Sutley. Well, thank you for the question. I think that 
in looking at some of these projects and these shovel-ready 
projects, we hope that for them to actually be shovel-ready 
that they are pretty far along, that they have been through 
their environmental----
    Mr. Calvert. The point I have been hearing in many cases 
where areas, not just in California but other areas throughout 
the country, have met certain environmental standards, they did 
not need to go through the NEPA process. They only had to go 
through the CEQA process, for instance, in California, if they 
receive $1 of federal money, they must be NEPA compliant. And 
so then the word from them is, well, heck, the juice is not 
worth the squeeze. If we have to go through this, it is going 
to take 6 months to a year or longer, and that defeats the 
purpose.
    So what I am thinking of and I am sure that many of the 
members here have heard the same comments from their local 
communities, if you have a state that exceeds federal 
standards, could we have a waiver process to accelerate the 
approvals to get these projects underway?
    Ms. Sutley. Well, we have looked at some guidance to 
agencies for grant programs but would certainly be willing to 
sit down and talk with the agencies about the circumstances 
that you are mentioning, where but for the federal dollars it 
would not be subject to NEPA. We will be happy to take a look 
at that.
    Mr. Calvert. Do you believe you have the authority now to 
waive that process upon determination that they meet or exceed 
NEPA requirements?
    Ms. Sutley. I do not know the answer to that right at the 
moment but would be happy to get back to you on that.
    Mr. Calvert. I would appreciate that. Thank you.
    Thank you, Mr. Chairman.

                          MOUNTAIN TOP REMOVAL

    Mr. Dicks. All right. Mr. Chandler from Kentucky.
    Mr. Chandler. Thank you, Mr. Chairman. Congratulations to 
you, Ms. Sutley.
    I would like to, if I may, I know you are from California 
and the rest of the folks here at the table are from the 
western part of the country. I would like to wrench your 
attention back toward the east, if you do not mind.
    Ms. Sutley. I do not mind.
    Mr. Chandler. I would like to ask you a few questions about 
mountaintop removal. It is an issue I am sure you are familiar 
with, and there are a number of people in the Appalachian 
Mountain Chain who are very concerned about the shearing off of 
the tops of these mountains, an activity that as you obviously 
know, affects the landscape forever. Also, the impact on 
drinking water is fairly strong. There is a lot of concern from 
a lot of people who live downstream about the quality of their 
drinking water.
    During the election, President Obama expressed serious 
concerns about this, but since he has been elected, a Fourth 
Circuit decision came down in February, which basically allowed 
this practice to carry on. It had been held in abeyance prior 
to that decision. There are some permits I think that are 
moving forward right now.
    Are you aware that mountaintop removal mining is moving 
forward now into mines in West Virginia and Kentucky?
    Ms. Sutley. Well, we have had the opportunity since the 
Fourth Circuit Court decision to sit down with the agencies 
that are involved in this process, trying to get, first of all, 
to understand the status of the permits that were both the 
specific subject of the Circuit Court and the District Court 
decisions, as well as the status of all of the permits that 
were, as you said, held in abeyance while those issues were 
going through the Courts, trying to understand how many there 
were, where they are, and where in the process they are.
    And so we have had a number of discussions with the Army 
Corps of Engineers and with EPA and with the Department of 
Justice and with the Office of Surface Mining to understand 
where we are in the process and to try now to begin the process 
of identifying which permits are fartherest along in the 
process and which permits represent projects with the most 
significant environmental impact to try to get a handle on what 
is out there and what we may be able to do about them.
    Mr. Chandler. Well, what is the Administration's attitude 
toward this? Does the Administration have a position on the 
going forward of these permits?
    Ms. Sutley. Well, I think that we want to understand----
    Mr. Chandler. Do you not understand it yet?
    Ms. Sutley. No, no. I am sorry. Whether all of the permits 
are sort of created equal. Do they all represent, you know, 
activities that will have significant environmental impact so 
that we can focus on the ones that have the most significant 
environmental impacts and see what the options are for making 
sure that if they do go ahead, that we are dealing with the 
environmental impacts, or if not, that they do not go ahead.

                    CEQ ARBITRATING AGENCY CONFLICT

    Mr. Chandler. Well, it is my understanding that the EPA is 
not in favor of them going ahead, and there is a dispute there 
that the Corps of Engineers may be in favor of them going 
ahead. And is not it the role of the CEQ to arbitrate when 
there is some dispute amongst agencies?
    Ms. Sutley. It is and----
    Mr. Chandler. Are you going to arbitrate on this subject?
    Ms. Sutley. Yes, and that is what we are doing right now.
    Mr. Chandler. Do you know that there is a bit of an urgency 
to this?
    Ms. Sutley. Yes. We recognize there is an urgency, and we 
have had several meetings with both the Corps and EPA already 
and met this week with some representatives from the 
communities affected by that and have had some other meetings 
as well. So we are aware of the urgency and trying to get to a 
solution very quickly.
    Mr. Chandler. And you know that every day that passes 
things are put in place that cannot be reversed?
    Ms. Sutley. Yes. Yes, sir.
    Mr. Chandler. Okay. Do we expect some decision from the CEQ 
soon?
    Ms. Sutley. Yes. Very soon.
    Mr. Chandler. I suppose you cannot be more specific than 
that right now.
    Ms. Sutley. Not right at the moment.
    Mr. Chandler. All right.
    Ms. Sutley. But we will certainly be happy to stay in touch 
with you on how we are progressing on that, and we understand 
the urgency of acting.
    Mr. Chandler. I wish you would stay in touch with my 
office, please, and we will anxiously await your decision.
    Ms. Sutley. Very good.
    Mr. Chandler. Thank you very much.
    Ms. Sutley. Thank you.
    Mr. Dicks. Mr. Simpson.

                              ROLE OF CEQ

    Mr. Simpson. Thanks, Mr. Chairman. Thanks, Ms. Sutley, for 
being here today. I appreciate it very much.
    Several questions. Some of them just general. I do not want 
you to take offense by anything I might ask.
    Ms. Sutley. Okay.
    Mr. Simpson. Why do we have a CEQ? And the reason I ask 
that is that during your testimony you referred to your work 
with the Forest Service, the Department of Interior, NOAA, the 
EPA, all of the other agencies, and is this just another level 
of bureaucracy that we have here? Because all of those agencies 
are out working on the same issues you are working on.
    Do we need a CEQ? I know that it is required by NEPA, but 
what I am looking at is trying to, I guess, streamline some of 
this.
    And I guess it came to me several years ago when I was in a 
hearing, and I cannot even remember what subcommittee it was 
now, but a banking representative was talking about loans that 
they have under a program in the Federal Government to give 
loans to people that want to start businesses. I knew there 
were different programs. I asked him afterwards how many 
programs there were to do essentially the same thing--provide 
loans to individuals that want to go out and start new 
businesses and those types of things. He did not have a clue. A 
lady came up to me afterwards and said that she puts on a 
conference for those types of programs, and there are like 43 
different programs that do essentially the same thing, maybe 
with different nuances here and there.
    How do you expect the American public to try to navigate 
that system of what is available, what is not available, and 
why these things are not consolidated into a program where the 
public understands what is going on? And I am wondering the 
same thing now as I look at what we are doing in the 
environmental area where we have a flood of different agencies 
that oversee things.
    I was actually surprised in your testimony when you said 
NEPA helps provide an orderly process for considering federal 
actions and funding decisions and prevents litigation today. If 
that is one of the goals of NEPA, it has failed, because it has 
not prevented litigation. I will guarantee you that any 
decision we make on any matter by the Federal Government is 
going to be sued by one side or the other.
    And what we have created is a system where most of the 
lawsuits are not lawsuits about the outcome of the decision. 
They are process lawsuits. You did not do X, you did not do Y, 
you did not do Z. And has anybody within the Administration 
ever sat down and said, you know, can we coordinate some of 
this stuff so we know exactly what is going on so we are not 
trying to deal with different agencies that give completely 
conflicting opinions of what ought to happen? It is the 
frustration the public feels out there as they try to deal with 
the Federal Government.
    And what I wonder, back to my original question, as we set 
this all up, have we created the inevitability of that because 
we have so many different federal agencies that do the same 
thing, that watch over each other, et cetera, et cetera, et 
cetera? So why the CEQ?
    Ms. Sutley. Well, I guess the first answer and I do not 
mean to be flip is that Congress did create CEQ in passing 
NEPA.
    Mr. Dicks. And Richard Nixon was President of the United 
States and signed it into law in 1969.
    Mr. Simpson. He was also the first President to resign.
    All I am saying is whether Congress created it or not, as I 
looked at these 43 or whatever the number was, different 
agencies that do essentially the same thing, I noticed that 
every one of them has, the program has a senator's name behind 
it. And when we reauthorize the Ag Bill, we write a program, 
and it is the senator, whatever, loan program. And we do that 
with reauthorization of things, and nobody seems to coordinate 
all this stuff to see that it all makes sense.
    And I am getting very fearful that, as I told you on the 
phone, after 9/11 every individual that came into my office 
lobbying for a different program or industry or whatever, 
everything was tied to Homeland Security. Growing corn in Iowa 
was tied to Homeland Security. That was the key word. Now 
everything is climate change, global warming, greening. That is 
the key word. I will guarantee that, and I do not care what you 
do, if you come to Congress and you want money for your 
programs, tie it to climate change.

                   COORDINATING ENVIRONMENTAL POLICY

    Ms. Sutley. Well, I think to your original question, I 
think the purpose of creating CEQ in NEPA was really to provide 
a coordinating function for the Federal Government, and you 
know, over the years certainly the Congress and working with 
the President we have created many national environmental 
statutes and national environmental programs. But from the 
beginning and from the enactment of NEPA their desire and the 
thought by the Congress was that there needed to be some 
coordination really at kind of the overarching level on our 
environmental policies.
    And what you have with all of these agencies, you are 
right. In some cases a program about forests gets developed 
over here, and then there is another one over here, and really 
CEQ's role in those cases is to try to coordinate and try to 
streamline, and that the purpose of putting CEQ in the White 
House was because sometimes it is difficult for one agency to 
tell another, you know, do not work on forests because we work 
on forests, so that we can help to coordinate and to resolve 
some of these issues where there may be overlapping 
jurisdiction or conflicting jurisdiction, and CEQ has played 
that role over the 40 years and will continue to do so unless 
someone tells us to do something different.
    Mr. Simpson. Does CEQ, and I am not blaming CEQ for this. 
This is not a criticism of CEQ. Sometimes it is a criticism of 
what we do here. Does CEQ have the ability to resolve disputes 
between federal agencies if, as an example, you are re-
licensing dams on the Snake River. A company has to deal with 
the Forest Service, the BLM, the EPA, NOAA, everybody else that 
has got any letters behind their name. And they have to do 
this, and sometimes these agencies are at loggerheads about 
what to do. NOAA says we do not have to lower the water 
temperature, EPA says we have to lower the water temperature. 
We decide a couple of different options for how to lower the 
water temperature. The agencies disagree on which one to do. So 
the investor, the company is sitting out there going, just make 
a decision.
    Does CEQ have any ability to step in and say, guys, resolve 
this issue, or we choose X, Y, and Z? Do they have a final 
authority like that?
    Ms. Sutley. Well, certainly with respect to any conflict 
that arises under NEPA we do, and there is actually a formal 
process that has been used sparingly over the years. I think 
the last formal request for arbitration, I guess, for lack of a 
better word, was about 2 or 3 years ago, and as I said, it has 
been used sparingly.
    But on an informal basis this is something that CEQ does 
all the time in helping to resolve disputes related to NEPA or 
even just disputes between agencies over environmental matters.
    So is it effective in every case? I do not know, and 
sometimes we do not hear about things before they are very far 
down the road where we can help to resolve a dispute. So I 
think one of the things that I would like to see happen more 
sort of at the NEPA level is to get issues elevated to the 
policymakers, so then the agency is quicker, so it does not 
start 17 layers down in an agency and then it takes until you 
are well into the process, until you are well along before 
there is, you know, a problem, identification of a problem.
    So to try to have at a higher level within the agencies 
people paying attention to this so we can flag these issues 
early and get them resolved before it turns into, you know, 
many years of litigation or uncertainty.
    So I think that is something that over its history CEQ has 
been able to do, and we would like to continue to do that.

                      LITIGATION OF NEPA DECISIONS

    Mr. Simpson. Well, I appreciate that, and the reason I ask 
these questions, my goal actually is, I am not against any of 
these environmental laws that we have got on the books or any 
of those types of things. I am not really trying to be critical 
of any agency. What I am trying to do is to make government 
work better, more efficiently so that the people understand 
what is going on.
    And I have told this story before, I will tell it since you 
are here. I talked with the chief of the Forest Service one day 
a few years ago. And I asked him how much of the money that you 
spend on making a sound, what you believe scientific decision 
on whether it is a forest timber cut or whether it is a 
thinning project, grazing, whatever, I said, how much of the 
money you spend on making what you believe is a sound 
scientific decision, is spent on making the decision? And how 
much of it is spent on trying to make that decision bulletproof 
from lawsuits? And he said--given, and he is talking off the 
top of his head--he said, given, you know, any particular 
decision, between 25 and 50 percent of the total funds he 
guessed was spent on making what they believe a good, sound 
scientific decision. Between 75 and 50 percent was spent on 
trying to make it bulletproof from lawsuits.
    And if there is not a way that we can streamline the 
process, still give people the right, it is their forest, their 
public lands, their water, et cetera, still give people the 
right to intercede when they think the Federal Government is 
acting improperly, but start using those dollars, not in 
courtrooms, but on the ground, we could do a lot more in this 
country.
    And that is the reason I am kind of directing these 
questions, trying to get at process lawsuits and how we avoid 
that and how we can streamline the process and what every 
agency's role in this is, and sometimes it is overlapping and 
conflicting roles.
    And I think we need, as we have mentioned before in 
hearings, Mr. Chairman, we need to review some of these laws 
that we have enacted, because all we ever do is add new laws on 
top of old laws it seems like. And it seems like we need to 
look to start all over. I will not say blow up the system like 
I did last time. We need to start again and say, what would it 
look like if we were trying to do it in a way that made sense 
and still maintain people's rights to intercede if they feel 
that the government has done something improperly.
    So that is kind of the reason I ask these questions, and I 
will ask a few more in just a minute, Mr. Chairman.
    Mr. Dicks. Right. Well, thank you for those questions. The 
gentleman's point is well taken in the sense that there is a 
lot of money that we need for forest health, for working on the 
urban rural interface, where we need to do more work. The 
budgets are not adequate to do that or at least the previous 
Administration's budgets were not adequate to do that. And 
because of that this fire situation has gotten more and more 
severe. So, you know, I think we have to look at everything in 
this discussion.
    Now, I will ask a few questions, and then I will give you 
some more time.

           GLOBAL WARMING LEGISLATION--CONSERVING ECOSYSTEMS

    As you know, I and others in Congress have consistently 
pointed to the fundamental need for comprehensive global 
warming legislation to include significant, reliable funding to 
help conserve our natural ecosystems, wildlife, and the 
ecological processes.
    Our subcommittee, as I told you in our private discussion, 
created the new Federal Global Warming and Wildlife Science 
Center to give us better science on this subject. In the 
Omnibus Spending Bill just enacted our subcommittee called for 
the Administration to develop a national strategy to guide 
federal and state agencies in conserving ecosystems. Whatever 
global warming bill that is enacted by the Congress should 
provide a substantial, reliable funding stream for these 
activities, and I know a lot of people have competing ideas 
about where the money should go.
    I am told that you and others in the White House have given 
repeated assurances that the Administration acknowledges that 
this would be a fundamental requirement of any global warming 
legislation. Is that correct?
    Ms. Sutley. Well, Mr. Chairman, we do believe as you do, 
that we have to address the impacts of climate change on our 
ecosystems and really look at the adaptation issues and the 
impacts issues and that we have to have a comprehensive 
response to that and how many are things that may be already 
under way in the agency as additional programs and whether this 
should be addressed through legislation, something we are very 
happy to work with you and others up here on.
    Mr. Dicks. Yes. You know, there have been various bills 
that have been introduced on this, and I just want to make sure 
that we think about that part of the equation, and the USGS, to 
whom we have given this responsibility to create this Federal 
Global Warming and Wildlife Science Center. And even the 
previous Administration, Mark Myers, who I have great regard 
for, was very enthusiastic about this. So I hope we can work 
together on seeing how this is implemented.

                  COORDINATING WITH DEPT. OF INTERIOR

    Would you propose to the President that he issue an 
executive order that directs all agencies to cooperate with the 
Department of Interior in developing the national strategy 
outlined in the 2009 Omnibus Bill and give them specific 
guidance? I think this best describes it. ``The Secretary with 
the assistance of the USGS National Climate Change Wildlife 
Science Center and a scientific advisory board, including 
members recommended by the National Academy of Science should 
initiate development of a national strategy to assist fish, 
wildlife, plants, and associated ecological process in becoming 
more resilient, adapting to and surviving the impact of climate 
change.''
    As we heard from Mr. Calvert, the droughts are already 
under way. In developing the national framework for flora and 
fauna conservation in a changing climate, the secretary should 
consult with other federal agencies, state fish and wildlife 
and conservation data agencies, territories, tribes, 
scientists, and stake holders, and the Secretary should provide 
the public with notice and opportunity for comment.''
    I mean, it just seems to me that we held hearings in the 
last Congress, brought in the federal agencies, and they all 
testified that they already can see the impacts of climate 
change, drought and bug infestation and the expansion of the 
fire season by a month on each end. All of these are things 
that we already see happening, and so we know there is going to 
be an affect on wildlife and on these ecosystems.
    So I just mention this. I think it is something that we 
need to work together on, but it is a priority of our 
subcommittee.
    Mr. Simpson.

                         STAFFING AND BUDGETING

    Mr. Simpson. Back to the budget. About $3 million a year, 
24 employees, FTEs authorized. How many employees do you have 
in other agencies that are detailed there that are paid for by 
the other agencies?
    Ms. Sutley. Right now I think we have about either five or 
six people.
    Mr. Simpson. And these are CEQ employees?
    Ms. Sutley. No. They are other agency employees who are 
detailed to CEQ.
    Mr. Simpson. Oh, who are detailed to CEQ?
    Ms. Sutley. Yes.
    Mr. Simpson. Okay. So how many unfilled positions do you 
have out of the 24?
    Ms. Sutley. We probably have right at the moment given the 
change in Administration, we probably have about a dozen 
unfilled, authorized positions.
    Mr. Simpson. Do we have any idea how much money budget wide 
in the Administration or in, you know, in the federal budget 
today is being used for climate change?
    Ms. Sutley. I do not have those numbers off the top of my 
head, but we could get back to you with that.

                       RENEWABLE ENERGY EXPANSION

    Mr. Simpson. I would like to see it, because that has been 
one of my concerns is that everybody is throwing money at 
global warming. I mean, even Department of Defense, we have 
authorized them to use their satellites, their spy satellites 
to look at global warming. We are throwing a lot of money at 
global warming. I am not saying it is inappropriate. I am not 
saying we know what we are doing either, because every agency 
is putting money in there, and in fact, I noticed you said in 
your testimony when talking about the clean energy industry, 
that we will make investments in the next 3 years, the 
investments in the next 3 years, that could double the Nation's 
renewable energy supply. How long will it take to double it if 
the investment is made over the next 3 years?
    Ms. Sutley. Well, I think we are confident that we can 
double it quickly, partially considering we are not using that 
much----
    Mr. Simpson. We are talking from 2 to 4 percent.
    Ms. Sutley. Something like that.
    Mr. Simpson. Yes.
    Ms. Sutley. So that could happen fairly quickly, and then 
certainly in a number of states there has been a lot of 
activity. There have been state-level renewable standards that 
are adding renewable energy to the portfolio every day. So I 
think that it is achievable within a very few years.
    Mr. Simpson. You know, I also sit on the Energy and Water 
Subcommittee, and if you look at the prognosticators of how 
much energy is going to be delivered by what source, right now 
it is something like 50, 51 percent is from coal. They expect 
that to go up over the next 20 years, that we will be using 
more coal over the next 20 years.
    Do you have any idea or have you made any predictions, has 
your agency made any predictions of what the energy mix will 
look like over the next 20 years? And the reason I ask this 
is--well, go ahead.
    Ms. Sutley. Well, I could not give you specific numbers, 
but I think, you know, we recognize that coal is an important 
source of energy, domestic energy, and that I think really the 
issue with coal is trying to deal with its environmental 
impacts.
    And so looking at making investments in development of 
carbon capture and sequestration technology so they can be 
deployed will help to assure that we can address the 
environmental impacts from coal, knowing that we will as a 
nation continue to rely at least for a portion of our energy 
supply from coal.
    I think in terms of renewable energy that the President 
stated his support for renewable electricity standard, we have 
them in a number of states, and we will see an increasing 
percentage of our energy coming from renewable resources. And 
both in the Recovery Act and in the budget that there will be 
investments by the Federal Government, not only in technology 
development, in developing the transmission grid that will help 
to support that renewable sector and a number of other things 
to help provide incentives to grow the renewable energy sector.
    But we will continue to need a diversified energy 
portfolio.

                    GREEN JOBS AND RENEWABLE ENERGY

    Mr. Simpson. One other question. Terminology is kind of 
important. We throw things around a lot. Could you define for 
me what a green job is? Because I see we are going to spend 
$500 million for greening the workforce or green workforce 
training.
    Ms. Sutley. Well, I think that a green job, that there is a 
broad spectrum of jobs that could be considered green jobs that 
really address the full sector, the full spectrum of our 
economy and the things from as simple as training people to do 
weatherization and energy audits, you know, to Ph.D.s sitting 
in a lab trying to invent breakthrough technologies.
    But that there is in promoting not only energy efficiency 
but the move towards more renewable energy, that there is a 
significant potential to grow jobs in those industries at all 
levels of education and training. So the money in the Recovery 
Act towards training for green jobs is to help to ensure that 
not only there is an adequate workforce to cover that spectrum 
of activities, but that we are also reaching to the people who 
really need the training the most and the jobs the most.
    Mr. Simpson. When you say green energy production or 
renewable energy production, you are talking non-carbon-
emitting energy?
    Ms. Sutley. Yes.
    Mr. Simpson. Would that include nuclear energy?
    Ms. Sutley. I would not necessarily put nuclear energy in 
the same category as renewable energy, but I think in terms of 
a low-carbon source of energy it certainly is, and I think, 
again, the President recognizes that nuclear energy is an 
important part of our energy portfolio and will continue to be. 
It needs to be an important part of our energy portfolio.
    Mr. Simpson. I could put it in a category of renewable with 
solar and other things. I mean, almost all of them produce some 
bi-product. You know, you have solar panels that wear out and 
have certain things you have to replace, and some of those are 
not environmentally friendly.
    So I would say that for our ability to produce the power 
that is needed for the future, the key is quite frankly going 
to be nuclear energy.
    Ms. Sutley. As I said, I think the President understands 
that nuclear energy is a part of our portfolio, and it needs to 
continue to be, and we need to, again, as I think with all of 
this, as you point out, there really are no ways of producing 
energy that does not have some impact and that we need to 
address those impacts.
    Mr. Simpson. Thank you.
    Mr. Dicks. Mr. Cole.

                           ENERGY EXPLORATION

    Mr. Cole. Well, thank you, Mr. Chairman. First I need to 
begin with an apology to you and to the witness for arriving 
late. We had, as I know Mr. Simpson knows, a conference as we 
are dealing with some things none of us participated in 
yesterday, and that sort of threw my schedule off. So I have 
been there and dealing with that, and I apologize. I may cover 
some ground that----
    Mr. Dicks. You go right ahead.
    Mr. Cole [continuing]. Has already been dealt with, and 
again, I apologize for missing your testimony. I do not like to 
do that and then come in and ask questions as a rule.
    But I do want to pick up a little bit on what I caught from 
Mr. Simpson's questions in a couple of areas. I am very 
concerned. I am from an oil and gas producing state and very 
concerned about what the overall thrust of what the 
Administration's policy may be in terms of developing the 
domestic energy industry while we move toward alternative 
sources.
    And so tell me, if you can, how you see your role and how 
you see the Administration's thinking in terms of domestic 
energy exploration, offshore exploration, ANWR, but also the 
traditional domestic drilling in the continental United States.
    Ms. Sutley. Thank you, Mr. Cole. The question, you know, we 
do need to continue to produce energy domestically. I think 
with respect to the overall strategy towards domestic energy 
development I think what the Administration, what the President 
said so far is that, you know, we need to be thoughtful about 
how and where and when we do this in that looking at this in 
the context of the overall energy picture of the need to make 
our energy economy more sustainable and promote new sources of 
energy. We look across at a diversified portfolio.
    I think with respect to offshore development, I think the 
Secretary of Interior has asked for additional comment on plans 
regarding the Outer Continental Shelf, and I think that there 
the Administration believes that offshore oil development is 
appropriate in the right places and should go forward in the 
right place and that we just have to be considerate about and 
careful about what those places are.
    So the Secretary of Interior is conducting a number of 
public hearings around the country, taking comment on offshore 
development to try to understand, again, where are the right 
places to do that.
    I think with respect to domestic energy production, again, 
I think at least from my perspective the question is to 
understand what the environmental impacts are and make sure 
that we are addressing those.

                             NUCLEAR ENERGY

    Mr. Cole. Just from a philosophic standpoint if you had to 
rate, prioritize goals from an Administration perspective, not 
just from the perspective of your agency, but is the aim to 
become energy independent, or is the aim to become, you know, 
to reach a particular environmental standard?
    Because there are obviously a lot of tradeoffs and 
conflicts along the way. Mr. Simpson touched on one of them, on 
nuclear. By this I mean, saying you are going to keep it in the 
portfolio is a lot different than saying we are going to expand 
this. Senator McCain when he was running was talking about 
building multiple new nuclear power facilities, and do you have 
a view on that in particular, and again, how do you prioritize 
environment versus energy independence?
    Ms. Sutley. Well, I think that we can do both. We can 
reduce our dependence on foreign sources of energy and make our 
energy economy more sustainable. I think that with respect to 
nuclear specifically, I think that there are a number of 
proposals to build new nuclear power plants, and there are some 
challenges to assure that first the environmental impacts are 
considered, that there is a licensing process that these plants 
need to go through. And then, of course, there is a significant 
challenge in dealing with what to do with the waste.
    Mr. Cole. Again, if you had to prioritize which of the two 
was most important, between arriving in the foreseeable future 
at some sort of energy independence, and we are never going to 
be independent in terms of drilling. I mean, there is not 
enough petroleum in the continental United States. So I am all 
for shifting.
    I am worried, though, when I look at the emphasis on some 
things. We have a lot of wind power in Oklahoma. We have wind 
power facilities in my district. I am all for it. I have 
legislation with Earl Blumenauer that we manufacture wind power 
individual units inside my district. So, again, I am a big 
believer, but you just cannot get there from here in terms of 
energy independence. I mean you are talking 1 or 2 percent in 
most of the renewables that everybody likes to highlight. We 
all like to see pictures of windmills, and we all like to see 
thermal energy and when you are really talking about an economy 
that 80 plus percent of its energy is carbon based and that the 
balance of the remainder is nuclear, you know, the overwhelming 
majority, how do you get there in what is popular as opposed to 
what is practical?
    Can you get there on ``clean energy'' if nuclear is not 
defined as clean? Can you get there on non-carbon-based energy 
at all? Can you get there particularly with some of the 
cleanest carbon-based energy, natural gas if you have tax 
policies that are going to discourage the production of that. 
Believe me, you eliminate intangible drilling costs and 
depletion allowances, and you are going to see domestic 
drilling drop dramatically, because we are a high-cost 
producer. You will go someplace else where it is cheaper to 
produce, not just in the tax incentive. It is just cheaper to 
get certainly petroleum some place other than here.
    So what is the Administration thinking? And it is probably 
unfair, but how do you get there? I mean, what is the magic 
balance, mixture of different sources?

                           SMART ENERGY GRID

    Ms. Sutley. Well, I think we do need to have a diversified 
energy portfolio. I think we have the potential to develop a 
lot of renewable resources that we really have not tapped into 
yet, both in terms of the actual resources that are out there, 
in addition to places where they are suitable and good for wind 
energy. I mean, we have certainly seen it now, you know, 20 
years ago there were only a few windmills in California and 
nowhere else, and certainly now there are in many states. There 
is a lot of wind potential, and some of it has been developed.
    The other thing that has, I think, hindered the development 
of renewal energy resources is that our transmission grid does 
not, it was not built for the purposes of moving renewable 
energy resources. And so in the Recovery Act and going forward 
in the plans I think there will be a lot of focus on the grid 
on both how do we expand the transmission grid but also how do 
we use some of the technology that is available and develop new 
technologies to make the grid smarter and more suitable for the 
kind of energy future that we would like to see with more 
renewable energy resources.
    So I think that there is a lot of opportunity and a lot of 
potential to develop our renewable energy sources. I think 
that, again, with respect to domestic petroleum and natural gas 
production that we see this as an important part of the 
portfolio, that just in the last couple of days Secretary 
Salazar was in New Orleans to conduct some lease sales in the 
OCS. We need to be thoughtful and deliberate about where and 
how and avoid places where it is not appropriate to explore and 
to drill and focus on the places that it is and that there are 
potential for expanding production in existing leases and 
existing lease areas.
    So I think we are trying to look at a balanced portfolio, 
moving towards a more sustainable energy sector, and we would 
look at all of the sources of energy production as part of 
that.
    Mr. Cole. I just want to ask one last question. You have 
been very generous, Mr. Chairman, and thank you, and again, I 
apologize for coming late.
    You mentioned the need, which I agree very much with, about 
developing a smart grid and a different kind of grid in terms 
of moving energy around, because you are certainly not going to 
move wind power from the middle of the country to where it is 
needed most without some sort of very different grid.
    How do you see that being developed? That is, do you see 
the Federal Government using rights of eminent domain? I mean, 
just literally getting, the ability to build these things on a 
state-by-state basis and move power efficiently is 
extraordinarily difficult. Everybody, as you know, always wants 
the power but nobody wants the power lines.
    And so, from your standpoint, do you think that we will 
move forward under federal direction or the use of state 
authority here potentially, or do you think it can be done 
within the current confines of literally state-by-state 
discussion and debate over, where you place power lines?
    Ms. Sutley. Well, the governors were here a few weeks ago, 
and you know, there were a number of discussions about just 
this subject, and I think the governors expressed a fair amount 
of frustration that there was not a process in place to get to 
yes with respect to transmission. I think the fact that the 
governors have recognized this, you know, the Western 
Governors' Association has put a lot of effort into trying to 
work with each other to develop some ideas about how they could 
have a transmission sighting regime that actually got some 
transmission lines built.
    So I am not sure that we know the answer yet on the 
questions about federal eminent domain, but I think what we 
need to do is work together as a Federal Government and also 
work with our partners in state and local government to try to 
develop a process, and I guess my observation having actually 
tried to sight a transmission line is that there are a million 
ways to say no and very few ways to say yes.

                       PROCESS TO SITE SMART GRID

    And that we have to put in place some kind of process, so 
one of the things that working together the Secretary of 
Interior and the Secretary of Energy started to do was to start 
to, first of all, identify what the renewable energy 
transmission quarters might be, where are the needs, where are 
the renewable resource areas, and how do you, you know, connect 
it to where the load is, which certainly on the west those are 
not always the same places.
    So I think it is going to take a considered and deliberate 
effort on the part of federal agencies working together and 
also working with the state and local government.
    Mr. Cole. Well, again, I want to thank you. I want to 
apologize to you for missing your testimony and peppering you 
with questions coming in, and Mr. Chairman, thank you, and I 
apologize to you as well, and I will not make a habit of that.

                  CLIMATE CHANGE: NON-FEDERAL PARTNERS

    Mr. Dicks. Well, I am glad you came. That was good.
    We talked a little bit about the impact of climate change 
on the Nation's public lands. How do you see the Administration 
reaching out to non-federal partners so that we have a national 
strategy for climate change at all levels?
    In fact, I think the local governments have been well ahead 
of the previous Administration, with all due respect, in their 
advocacy for policies to deal with this problem. But now that 
we have an Administration that is committed to dealing with 
this, and having been a local and state official yourself, how 
do you see this unfolding?
    Ms. Sutley. Well, I think that this is going to take an 
effort on the part of everyone. From having sat in local 
government and state government, you know, something like 900 
mayors have signed onto the U.S. Conference of Mayors Climate 
Pledge, and I think that, at least I know in the case of the 
city that I worked for, we were starting to see the impacts. We 
were concerned about how the wildfire season in southern 
California is changing, I think it is now a year round, it is 
almost no time of the year where you could not have wildfire, 
that those are things that local government in particular but 
also state government has to respond to.
    And as Mr. Calvert was talking about the drought emergency 
in California, that is having real impacts on people throughout 
California. So I think that is where the concern about impacts 
is what has driven state and local government to say, you know, 
this is a problem we need to take seriously, and we need to try 
to do something about. I think that there has been a lot of 
creative thinking, not just at the policy level, how do you set 
a target for reducing global warming, pollution, how do you put 
a program in place, but also the kinds of programs like best 
practices on things like green buildings, on energy efficiency. 
There is a lot of good ideas out there.
    Mr. Dicks. Transit.
    Ms. Sutley. Transit. Absolutely. Smart growth. Those kinds 
of things that are, you know, coming from local government and 
state government and that I think all of us within the 
Administration, many of us have experience in state and local 
government, you know, understand that there are a lot of good 
ideas out there that we need to work together with our state 
and local partners to help to support those good ideas and 
those best practices, as well as thinking about how from a 
federal perspective and from what federal agencies do, how they 
can support those and incorporate those into the national 
response to our energy and climate needs.

                  CLEAN COAL AND CARBON SEQUESTRATION

    Mr. Dicks. Now, I have seen these recent ads about clean 
coal, and this committee used to have jurisdiction over clean 
coal. We have spent billions on clean coal, and I love the guy 
who goes outside and says, there is no such thing as clean 
coal. But you mentioned, I thought, two important things.
    One is how are we going to capture carbon or do 
sequestration, which is critical, I think, to making coal work, 
not only for us but for the Chinese, for the Indians, for 
people all around the world. And if we do not somehow develop 
this technology, we are going to be behind the eight ball with 
all these other countries developing coal plants very rapidly.
    I would hope that in all this money we are spending on 
science this has got to be at the forefront. And let me just 
say one thing that Mark Myers, former head of the USGS, said to 
this committee that worried me a little bit. He said, we know 
how to do carbon sequestration in an oil field or an existing 
coal field but there has been very little science done about 
just doing it out there somewhere in the ground where you are 
going to build a plant.
    What are your thoughts about that?
    Ms. Sutley. Well, I think that, first of all----
    Mr. Dicks. And do we need to do some more science on----
    Ms. Sutley. Yes.
    Mr. Dicks [continuing]. How we do this actually?
    Ms. Sutley. I think that we do. I think the Recovery Act 
provides funding for research into carbon capture and 
sequestration, and I think we have to get to the point where we 
can start to deploy some of these technologies commercially. 
And I think that we are still at the point of needing to 
develop the technology, though, so this investment in the 
Recovery Act and additional effort in the budget to focus on 
carbon capture and sequestration, I think there are a lot of 
questions on the science side about where and how and how some 
of the proposals or ideas that people have about how to make 
carbon capture and sequestration work, whether they really do 
work or not. And I think questions about whether you can do it 
offsite or not, you know, are real live questions.
    Mr. Dicks. Yes.
    Ms. Sutley. Oil fields are promising in a sense that we 
know that through techniques like enhanced oil recovery we know 
how to do some of these kinds of things, but the questions 
about their permanence and picking the right places to do it in 
addition to how do you deal with some of the technology 
questions. I think those are things that we will be looking at.

                      CLEAN WATER ACT JURISDICTION

    Mr. Dicks. We put some money in the Omnibus to look at 
that.
    Switching gears here just for a second. In June of 2006, 
the Supreme Court issued a ruling in the Raponos v. United 
States case, which has had major implications for federal 
regulation of streams, lakes, and wetlands. As I understand it 
the central question before the Court was whether or not 
regulations defining waters of the United States and protected 
by the Clean Water Act extended to waters which are neither not 
themselves navigable nor are adjacent to navigable waters.
    I further understand that the Court's decision was 
fragmented and did not contain a majority opinion. In fact, the 
only thing the majority of the justices agreed upon was that 
the Clean Water Act jurisdiction under Raponos would likely be 
difficult to determine.
    So what does the Administration think about this? I know 
Chairman Oberstar, is very committed to correcting this. What 
does the Administration think about this?
    Ms. Sutley. Well, we think that the effect of these 
decisions was to leave many of wetlands unprotected and under 
threat, and I think that this is an area where we want to work 
with Congress but also look at what the administrative options 
are, whether it is through EPA's guidance under the Clean Water 
Act or legislative solutions or both to help to restore some of 
the protections to our Nation's wetlands and waters.
    Mr. Dicks. Okay. Mr. Simpson.

                          CARBON CAP AND TRADE

    Mr. Simpson. Just lastly, when you mentioned the cap-and-
trade system that the Administration's probably going to 
propose, I have heard estimates that they estimate a cost of 
about $680 billion to the economy when they first proposed it. 
Now they are talking about $2 trillion.
    Does CEQ have any estimate on what their cap-and-trade 
proposal would cost in economic terms? And also when they are 
doing that, it is sometimes easy to figure out what it costs in 
direct terms of increased costs put on manufacturers or 
whatever, whatever it costs, and that side of the equation is 
oftentimes easy to figure out.
    Do they consider what the anticipated say health savings 
costs down the road would be from decrease in carbon emissions 
and that type of thing?
    Ms. Sutley. Well, what I understand in terms of the budget 
proposal where the $650----
    Mr. Simpson. Fifty or whatever.
    Ms. Sutley [continuing]. And something, it was not 
necessarily all of the costs but that in terms of what the 
budget, at least the proposal was to invest $15 billion a year 
in clean energy research and development and $60 billion a year 
in terms of the middle class tax cut to get money back into the 
pockets of Americans. But we would anticipate that there would 
be additional revenues from an auction of allowances, but I do 
not have a total number, and I mean, I do not know. I have seen 
the press reports on the $2 trillion. I do not know, you know, 
where that came from and whether that is right or not. I just 
do not know.
    I think in terms of looking at the benefits of addressing 
greenhouse gas emission, I think there has not been as much 
work done and that, you know, we need to do some more 
thoughtful, considered analysis in looking at what the, you 
know, what the direct and indirect benefits of reducing our 
global warming pollution is.
    Mr. Simpson. And I will tell you that, Mr. Chairman, since 
the Energy and Water Committee has taken over the clean coal 
technology stuff, we have put quite a bit of money into looking 
at sequestration and that type of stuff, and you are right. The 
science is not there yet about exactly what it does to the 
geology of those areas that might not be old oil fields and 
those kind of things.
    So much needs to be on that, and I know it is a concern of 
that committee, and we will keep doing it.

                    CLIMATE CHANGE & HUMAN ACTIVITY

    But I would like if we could get from you an analysis of 
what the total funding in the Federal Government is that we are 
spending on climate change. And, again, I do not say that in a 
way that I think it is wrong or anything. I just think that we 
need to have a better vision of what we are doing and maybe a 
little more coordination in what we are doing in these areas, 
because I think at least on this side of the aisle we support 
trying to reduce the human impacts on global warming, I find it 
kind of interesting is that everybody agrees that global 
warming is going on, and that is not rocket science. That is 
the thermometer. And I think most people, you know, you look at 
the ice fields, those kind of things. We all agree that it is 
going on.
    The question becomes how much of it is natural, how much of 
it is manmade, and can we have an affect in that overall 
process. The difficulty is if we can have an affect in reducing 
global warming and we do not and global warming continues, the 
costs could be catastrophic. So we have to do whatever we can 
do to try to reduce global warming. It may still go on because 
it may be more of a natural affect than a manmade affect. But 
that does not relieve us of our responsibility to try to do 
what we can to address it.
    So I do not think anybody on this side of the aisle is 
opposed to those initiatives that are being undertaken to try 
to address it, but we think it ought to be weighed against a 
lot of other factors, and we ought to be coordinating. We ought 
to be looking at exactly what we are spending, how we are 
spending it, and the impact that it could potentially have 
instead of what I would consider--and maybe I am just 
ignorant--a disjointed function out here of trying to deal with 
this issue.
    Ms. Sutley. Well, I think one of the things I think, I have 
talked to some of my colleagues in the Administration, I think 
in terms of the science and research that is being done in 
climate change throughout the Federal Government, there really 
is a need to, first of all, know what everybody is doing and 
second of all, to look at whether it is coordinated and whether 
it is being done under a framework that makes sense. So 
hopefully several of my colleagues will get confirmed soon and 
then they can----
    Mr. Simpson. And I was surprised to see just the other day 
the Smithsonian does research on global climate change, and I 
am kind of going, that surprises me. And I am wondering how 
many other agencies that are out there that are doing it. And 
that is why----
    Mr. Dicks. The Smithsonian has a real scientific agenda.
    Mr. Simpson. I am not saying it is wrong. Yes. I am not 
saying it is wrong.
    Mr. Dicks. And it has been there for years and years.
    Mr. Simpson. I am just saying that I do not know that there 
is any coordination between what we are all doing--if we are 
overlapping, if we are not overlapping, if we are leaving gaps 
and holes, or what. I want you to take away from this that I do 
not disagree with having a CEQ or anything else like that. The 
job you do is important, and you are right. It was created by 
Congress. What I want to make sure is that we have a 
coordinated and efficient to the extent you can use efficient 
and government in the same sentence, an efficient government 
that the people that we represent understand what is going on.
    So I appreciate it. Thank you for being here today.
    Ms. Sutley. Thank you.
    Mr. Dicks. Mr. Cole, do you have any further questions?
    Mr. Cole. Yes. If I may, Mr. Chairman, a couple. Thank you.

                          GLOBAL ENERGY POLICY

    After you solved Mr. Simpson's problems of coordinating all 
this across the Federal Government, I want you to take on the 
planet. And actually, there is a serious point to this, because 
I am interested--obviously environment is global, not national. 
What kind of efforts are underway to share science, and share 
technology? If we ever did develop the perfect, clean coal, 
obviously the Chinese would have at least as much interest in 
it as we do, given how much of their energy is carbon based and 
they are bringing on coal-fired, plants at the rate of one a 
week I think right now.
    So I am curious what role you see for your agency and what 
can be done, because most of the international agreements are 
agreements that are really founded on the sense that, well, the 
United States cannot do this alone, and the Chinese are not 
going to cooperate or are going to cooperate. Where do you see 
the state of that, and where can we go to have a little bit 
more of a cooperative effort around the world?
    Ms. Sutley. Well, I think the President believes that, you 
know, to get the rest of the world to kind of work together on 
this that the U.S. has to show some leadership here, and I 
think that as he has met with foreign leaders as the Secretary 
of State has started to go and meet with foreign leaders, 
visit. On her visit to Asia, for example, she discussed a 
number of climate change-related issues in her meeting.
    So I think the Administration recognizes that we have to 
play a leadership role in the international arena, not only 
sort of what the strategies are but in thinking about 
technology and how you share that technology and how, you know, 
how do we get all of the major economies in the world thinking 
about lower carbon technologies and moving the world to a more 
sustainable energy economy.
    So its a very important issue and one that we are all 
working within the Administration closely on to make sure that 
we are all coordinated together, but also that in these 
international discussions that we are deploying the right 
resources to make sure that we are addressing all of the needs 
internationally.
    Mr. Cole. Are you finding as you begin to wrestle with an 
extraordinarily difficult problem that there is a consensus 
with, I mean, China has now passed us as the largest greenhouse 
or greenhouse gas emitter, and you know, what is their view, 
and where would they be? Do we have a mechanism to cooperate on 
joint research projects, or common strategies at all?
    Ms. Sutley. I think the initial discussions, at least the 
ones that I have been a part of, and I know there have been 
others going on, is that there is, I think, from the Chinese 
and others a real desire to cooperate on issues of technology 
and in developing and deploying low carbon technology.
    So certainly I have had a number of discussions with 
officials of the Chinese government as well as other 
governments, and that is top of the agenda is cooperation on 
technology development.

               CLIMATE CHANGE: INTERNATIONAL COOPERATION

    Mr. Cole. Last point and it is hardly fair for you to have 
address these after 2 months, you know, I hope you found a 
place to live.
    But as you go forward, insofar as there can be 
bipartisanship on these issues and a movement forward, I think 
the assurance that there is some sort of mechanism to reach 
beyond the United States, that other countries are cooperating, 
that we can share, that we will not just fix the problem here 
that will not have a global impact because somebody else is 
doing something differently. So this movement of European 
economies, you know, Asian economies, and our own economy in 
concert insofar as you can, I am not asking you to do that but 
some effort, some thought as to how that gets done. And then 
how it is communicated to Congress so we do not always have 
this argument within just a strictly national context, but 
again, I think your point about leading by example is a good 
one. You are not credible in the debate if you are not part of 
it.
    But I think you also got to not be the sucker in the room 
either that is paying the whole freight or imposing 
restrictions on yourself that other countries ignore to their 
economic advantage and your economic disadvantage, particularly 
in this period we are going through pretty troubling times 
economically which, you know, makes all of these decisions much 
tougher.
    Ms. Sutley. Well, thank you for acknowledging we have only 
been here a couple of months and may not have all the answers 
yet, and yes, I did find a place to live. Thank you.
    But I think certainly, you know, we have to keep lines of 
communication open with the Congress and internationally, and I 
think we would like to do that and certainly welcome continuing 
these discussions with you.

                       EVERGLADES AND FLORIDA BAY

    Mr. Dicks. I just want to mention the South Florida 
Restoration Program, and I was pleased to see your mention of 
the national restoration objectives of the Administration. This 
committee has taken a special interest beginning before I was 
the chair on the Everglades and has put a lot of money into it, 
and I just would say that we still believe this is a priority. 
We want to move ahead on this project. I think the new governor 
is more willing to work with us.
    But we feel that this is still a priority, and we are glad 
the Administration is embracing it. And we want to work with 
you to move this thing forward. We feel that getting the 
natural flow of fresh water into the Everglades and into the 
Florida Bay is critical, and there are three national parks, 15 
refuges involved in this, and the Park Service is taking the 
lead on this.
    But we see this as an important priority. So I just mention 
that.
    Ms. Sutley. Thank you, and we do as well and hope that we 
can see some projects get underway quickly and certainly look 
forward to working with you on this.
    Mr. Dicks. Any other questions?
    We will let you get back to work.
    Ms. Sutley. Thank you.
    Mr. Dicks. Thank you. The committee stands until its next 
meeting.

[GRAPHIC] [TIFF OMITTED] T2296A.079

[GRAPHIC] [TIFF OMITTED] T2296A.080

[GRAPHIC] [TIFF OMITTED] T2296A.081

[GRAPHIC] [TIFF OMITTED] T2296A.082

[GRAPHIC] [TIFF OMITTED] T2296A.083

[GRAPHIC] [TIFF OMITTED] T2296A.084

[GRAPHIC] [TIFF OMITTED] T2296A.085

[GRAPHIC] [TIFF OMITTED] T2296A.086

[GRAPHIC] [TIFF OMITTED] T2296A.087

[GRAPHIC] [TIFF OMITTED] T2296A.088

[GRAPHIC] [TIFF OMITTED] T2296A.089

[GRAPHIC] [TIFF OMITTED] T2296A.090

[GRAPHIC] [TIFF OMITTED] T2296A.091

[GRAPHIC] [TIFF OMITTED] T2296A.092

[GRAPHIC] [TIFF OMITTED] T2296A.093

[GRAPHIC] [TIFF OMITTED] T2296A.094

[GRAPHIC] [TIFF OMITTED] T2296A.095

[GRAPHIC] [TIFF OMITTED] T2296A.096

[GRAPHIC] [TIFF OMITTED] T2296A.097

[GRAPHIC] [TIFF OMITTED] T2296A.098

[GRAPHIC] [TIFF OMITTED] T2296A.099

[GRAPHIC] [TIFF OMITTED] T2296A.100

                                          Wednesday, April 1, 2009.

              OVERSIGHT HEARING ON WILDLAND FIRE BUDGETING

                               WITNESSES

ROBIN M. NAZZARO, DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, 
    GOVERNMENT ACCOUNTABILITY OFFICE
VICKIE CHRISTIANSEN, ARIZONA STATE FORESTER, NATIONAL ASSOCIATION OF 
    STATE FORESTERS
HANK KASHDAN, ASSOCIATE CHIEF, U.S. FOREST SERVICE
PAM HAZE, DEPUTY ASSISTANT SECRETARY FOR BUDGET AND BUSINESS 
    MANAGEMENT, DEPARTMENT OF THE INTERIOR

                      Opening Statement: Mr. Dicks

    Mr. Dicks. I want to welcome our two panels of witnesses 
this morning. We will first hear from Robin Nazzaro of the 
Government Accountability Office, and Vickie Christiansen, the 
Arizona State Forester, who is representing the National 
Association of State Foresters. They will discuss problems 
associated with existing federal wildfire budgeting and provide 
suggestions for Congressional and Executive Branch 
consideration.
    Our second panel will include top civil servants from the 
Forest Service and the Department of Interior. We are pleased 
to have Hank Kashdan, the Associate Director of the Forest 
Service, and Pam Haze, the Acting Assistant Secretary of the 
Department of Interior. We would like them to discuss the 
existing system and procedures they use to budget for wildfire 
and past problems they have encountered.
    But more importantly I would like a discussion of various 
budgeting options focusing on solutions. This includes the 
recently-passed FLAME Act, the Suppression Reserve Account 
outlining the President's budget for fiscal year 2010, and 
other options discussed by the fire community.
    I am now going to take a minute to summarize the current 
situation. Wildfires continue to be more and more damaging and 
more costly to deal with. A decade ago there were rarely more 
than five million acres burned in a year, and total suppression 
costs were usually around $200 million or so. Now six to eight 
million acres burn a year, and federal suppression costs are 
over $2 billion in a single year. The costs are driven by a few 
megafires, which have tremendous impact.
    Before the 1990s it was unheard of to spend more than 10 
million to fight a single fire. Now in a single year 30 to 40 
individual events of that huge size occur. These large 
wildfires are true emergencies. We cannot just sit back and let 
all fires burn because so many people now live in harm's way. 
Where it is safe, we do need to allow remote wildfires to burn, 
but even that requires firefighters to monitor the situation 
and improve technology and science to predict fire behavior.
    I think we all understand some of the reasons that 
wildfires have expanded. There clearly is a combination of 
factors, much of it due to climate change. We know that in many 
areas of the Nation the fire season has grown a full month 
longer in both the spring and fall. In some places like 
California or Florida it is fire season all year long.
    Widespread drought and high fuel loads caused by bug and 
pest infestation contribute to the problem. We also know that 
decades of successful fire prevention has made many areas more 
prone to intense damaging megafires. Many areas in the arid 
west and the south have previously had regular low-intensity 
fires which prevented dangerous fuel loads from accumulating. 
In addition, as the wildlands become extremely popular places 
to live, there are more values at stake when fires start.
    Finally, I am expecting today's hearing to focus on 
solutions. The members and the witnesses should discuss how the 
Suppression Reserve Account and the FLAME Account can work 
together, but in addition, I think we need to consider an 
option similar to the way that FEMA Emergency Disaster Relief 
Account operates.
    FEMA receives a yearly on-budget appropriation. Congress 
and the Administration recognize that when large emergencies 
occur, the disaster accounts will be replenished. Unlike the 
Fire Suppression Account, FEMA Disaster Relief Fund is not 
allowed to be exhausted. Furthermore, FEMA's Disaster Accounts 
are not funded by transfer from federal operations accounts 
such as the Coast Guard for FEMA Operations.
    Before I turn to Mr. Simpson I note that this is the last 
hearing before this subcommittee for Lenise Lago as Forest 
Service Budget Officer. I want to thank Lenise for all of her 
fine and diligent work. I look forward to continuing to work 
with her as she moves to the northwest to become the Deputy 
Regional Forester.
    Mr. Dicks. Mr. Simpson, I yield to you for your opening 
remarks.

                     Opening Statement: Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman. Of the many 
challenges and issues facing our subcommittee, budgeting for 
wildland fire preparedness, suppression, and recovery is the 
one issue that has for many years confounded Congress, the 
Forest Service, and the Department of Interior. Today there is 
bipartisan consensus that the present budgeting process for 
wildfires needs to be restructured.
    I believe there is also a renewed level of commitment among 
the various stakeholders to address this issue directly. Each 
of us shares the common goal of ensuring that fire budgets are 
not only sufficient but that non-fire-related accounts are no 
longer diverted to fund fire needs when suppression accounts 
are exhausted.
    This has become an established practice in recent years, 
and I think it has done real harm. It is worth noting that 
Congress has never treated hurricanes, earthquakes, and floods 
as anything other than natural disasters. We do not pay for 
these extraordinary events with discretionary dollars, and yet 
we try funding something as complex and unpredictable as 
catastrophic wildfires from various discretionary accounts 
under our jurisdiction.
    The House passed the FLAME Act last week and is likely to 
consider a variety of fire budgeting proposals this year. While 
this attention is long overdue, let us not kid ourselves. No 
single agency or legislative action can adequately address a 
challenge as complex as this. It will take a collective effort 
from each and every stakeholder on the ground where fires occur 
and here in Washington where fire budgets are formulated to 
tackle this issue.
    Before closing I would like to mention that my 
Congressional district is home for the National Interagency 
Fire Center, NIFC, in Boise, Idaho. I can think of no better 
example of interagency cooperation at a government level than 
the work that is done at NIFC to coordinate fire planning, 
training, and operations. It is a model worth emulating.
    I appreciate the collective wisdom represented by both 
panels of witnesses today. I am always eager to hear from state 
foresters because they bring a unique hands-on perspective to 
the discussion. I thank each of you for being here and look 
forward to rolling up our sleeves and working together with 
Chairman Dicks and our subcommittee members to determine a 
better way to provide adequate fire budgets going forward.
    Thank you, Mr. Chairman.
    Mr. Dicks. Robin, do you want to start?

                     Statement of Ms. Nazzaro, GAO

    Ms. Nazzaro. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss the 
funding of wildland fire suppression activities and federal 
agencies' management of wildland fires.
    As noted in your opening remarks, our Nation's wildland 
fire problems have worsened in the past decade. 
Uncharacteristic accumulations of fuels, due in part to past 
fire suppressions policies and severe regional weather and 
drought, have contributed to higher-intensity fires and longer 
fire seasons. At the same time, continued development in and 
near wildlands has placed more homes at risk.
    Together these factors have contributed to more than a 
doubling of appropriations for wildland fire management 
activity since the late 1990s, averaging almost $3 billion 
annually in recent years for the Forest Service and the four 
agencies in the Department of the Interior responsible for 
managing fires on federal lands.
    Despite these increasing appropriations, the agencies have 
often had to transfer funds from other programs to cover the 
increasing fire suppression costs. In this context my testimony 
today will focus on the budgetary and programmatic affects of 
increasing costs of fire management activities and steps to 
help contain the wildland fire expenditures and to reduce the 
need to transfer funds from other programs.
    From fiscal years 1999 to 2003, the Forest Service and 
Interior transferred over $2.7 billion from non-fire programs 
to help fund fire suppression. Although the agencies received 
additional appropriations allowing them to repay about 80 
percent of the transferred funds, we found that the transfers 
led to cancelled and delayed projects and sometimes to 
increased project costs. Transferring funds to help pay for 
fire suppression also affected the agencies' ability to fulfill 
commitments that they had made to their non-federal partners, 
including States, communities, and non-profit organizations.
    Funding transfers have continued with the agencies 
transferring funds in fiscal years 2006, 2007, and 2008. While 
we have not evaluated the impact on funding for the agencies' 
non-fire programs, agency officials have expressed concern 
about the broader impact of these costs on the agencies' 
overall budget. An August 2008 memo from the chief of the 
Forest Service stated that because of the dramatically-rising 
costs of wildland fire management, all other Forest Service 
activities had experienced a steady decline in funding.
    As we have reported, there are several steps the agencies 
could take and actions Congress could consider that could 
mitigate the rising costs of wildland fire management and its 
affect on the agencies' other programs. Although the agencies 
have, among other actions, improved decision support tools for 
helping officials select appropriate strategies for fighting 
wildland fires, the agencies continue to lack both an agency-
wide strategy for containing fire suppression costs and a 
broader, long-term wildland fire management strategy that 
identifies options along with associated funding for reducing 
excess vegetation and responding to fires; what we have termed 
a cohesive strategy.
    In January agency officials told us they were working to 
create such a strategy, although they had no estimate of when 
the strategy would be completed, despite concurring with our 
recommendation 10 years ago. The agencies could also develop a 
better method of estimating the suppression funds requested. 
Better estimates in a given year could reduce the likelihood 
that the agencies would need to transfer funds from other 
accounts. Yet the agencies continue to use an estimation method 
with known problems.
    The Forest Service told us it analyzed alternative methods 
for estimated needed suppression funds but believe the current 
method of using the 10-year suppression cost average as the 
foundation for its budget request was a reasonable and durable 
basis for budgeting. Because the agencies had to transfer funds 
in each of the last 3 years, however, the agencies should 
continue to seek a more accurate method for estimating 
suppression costs.
    In addition, Congress may wish to consider establishing a 
reserve account dedicated to funding wildland fire suppression 
activities, which the agencies could access when the 
suppression accounts are depleted. If such an account is 
established, Congress could provide either a specified amount 
or an indefinite amount for as much funding as the agencies 
need to fund emergency suppression.
    Each of these approaches has advantages and disadvantages. 
Establishing a reserve account with a specified amount would 
provide the agencies with incentives to contain suppression 
costs within the amount of the reserve account, but depending 
on the size of the appropriation and the severity of the fire 
season, suppression costs could still exceed the funds 
reserved, meaning the agencies would still need to transfer 
funds from other programs.
    An account with an indefinite appropriation, in contrast, 
would eliminate the need for transferring funds from other 
programs but would offer no inherent incentives for the 
agencies to contain suppression costs.
    Mr. Chairman, this concludes my prepared statement.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296A.101
    
    [GRAPHIC] [TIFF OMITTED] T2296A.102
    
    [GRAPHIC] [TIFF OMITTED] T2296A.103
    
    [GRAPHIC] [TIFF OMITTED] T2296A.104
    
    [GRAPHIC] [TIFF OMITTED] T2296A.105
    
    [GRAPHIC] [TIFF OMITTED] T2296A.106
    
    [GRAPHIC] [TIFF OMITTED] T2296A.107
    
    [GRAPHIC] [TIFF OMITTED] T2296A.108
    
    [GRAPHIC] [TIFF OMITTED] T2296A.109
    
    [GRAPHIC] [TIFF OMITTED] T2296A.110
    
    [GRAPHIC] [TIFF OMITTED] T2296A.111
    
    [GRAPHIC] [TIFF OMITTED] T2296A.112
    
    [GRAPHIC] [TIFF OMITTED] T2296A.113
    
    [GRAPHIC] [TIFF OMITTED] T2296A.114
    
    Mr. Dicks. Ms. Christiansen.

                  Statement of Ms. Christiansen, NASF

    Ms. Christiansen. Thank you. For the record I am Vickie 
Christiansen, the Arizona State Forester. Chairman Dicks, 
Ranking Member Simpson, members of the committee, thank you for 
the opportunity to provide testimony today on behalf of the 
National Association of State Foresters. My remarks will 
address the impacts of wildfire suppression funding on our 
Nation's forests and offer some options for solving this 
growing challenge.
    NASF thanks the Chairman and Ranking Member for your 
leadership and support on this critical issue through the FLAME 
Act.
    America's forests are a strategic national resource that 
provides a host of important public benefits. State forestry 
agencies manage and protect State and private forests across 
the U.S., which encompass two-thirds of the Nation's forest 
lands.
    State foresters provide leadership and build partnerships 
among public land managers, private land owners, local 
governments, tribal nations, industry, and conservation 
organizations. These partnerships build community capacity, 
promote accountability, and address a wide range of threats to 
our forests. At the forefront of those threats looms the topic 
of today's hearing; emergency wildland fire.
    Wildfire protection continues to grow in complexity and 
expense. More people in fire-prone landscapes, declining forest 
conditions, and climate change are combining to create larger 
and more frequent wildfires. This presents a situation that 
overwhelms traditional fire management efforts and results in 
billions of dollars in suppression costs each year.
    Addressing wildland fire is a much larger, more complex 
land management and societal issue that cannot be solved by any 
one piece of legislation or any one agency alone. Solving the 
impact of skyrocketing fire suppression costs is only one piece 
of the puzzle, but it is one that is within our reach.
    Increasing fire suppression costs for the Forest Service 
and Interior have exceeded $1 billion every year since 2000. 
This is due in large part to extraordinary emergency wildfires. 
One percent of all wildfires consume 85 percent of suppression 
costs. These are not average wildfires. They should be treated 
the same way as other natural disasters and should not be 
funded within the agencies' constrained budgets at the expense 
of all other agency priorities.
    These increasing costs have placed sustainable forest 
management efforts at risk on both public and private lands. In 
the current funding structure the wildland fire when budgeted 
suppression dollars had been spent, the agency borrows funds 
from programs that could actually serve to drive down the cost 
of fire suppression over time by improving the health of our 
forested landscapes and helping to protect people and property 
from devastating fires.

                   PROPOSING A COMPREHENSIVE SOLUTION

    The National Association of State Foresters is a part of a 
broad coalition that is advocating potential solutions to this 
issue. We have identified at least three crucial components 
needed to achieve a comprehensive solution.
    Number one, the President's budget outline. NASF was 
encouraged to see President Obama's attention to this issue in 
his recently-released 2010 budget outline. The proposed budget 
acknowledges the emergency nature of fire suppression and 
includes increased funding for suppression, along with a 
discretionary contingent reserve fund. This aims to ensure that 
fire management resources are sufficient to allow for other 
critical agency activities.
    Number two, the FLAME Act. On March 26 the House 
overwhelmingly passed the Federal Land Assistance Management 
and Enhancement Act. The bill partitions the emergency 
suppression costs from the Forest Service and Interior budgets 
and provides accountability and fiscal support for the 
agencies' other important programs. Relieving the agencies' 
need to borrow funds from other agency accounts and a 
commitment to provide stable funding for other critical 
investments is an integral part of this solution.
    Number three, full funding for the 10-year comprehensive 
wildfires strategy. Since 2000, the 10-year strategy and its 
implementation plan have formed the basis for proactive forest 
health efforts as a means to prevent catastrophic wildfire 
across the Nation. If one looks at funding since the inception 
of the 10-year strategy, the vast majority has gone to the 
first goal of suppression and prevention. More investment needs 
to be made in the other key goals of fuels reduction, restoring 
fire-adapted ecosystems, and community assistance. It is more 
cost effective and efficient to manage the forest and protect 
communities in advance than to put out fires and repair their 
damage after the fact.
    Without balanced and proportionate investment in all 
elements of the 10-year strategy, we will not make the on-the-
ground progress the public expects, nor get ahead of the 
wildfire curve.
    As I mentioned earlier, addressing wildland fire is a 
complex land management and societal issue that goes beyond 
suppression alone and will not be solved by accepting business 
as usual. Effective partnerships with shared responsibility 
held by all stakeholders will create well-prepared fire adapted 
communities and healthy resilient landscapes at the most 
efficient costs.
    NASF greatly appreciates Chairman Dicks's and this 
committee's commitment to this issue and urges you to continue 
to provide leadership as we work together to solve one of the 
most pressing natural resource issues of our time.
    Thank you for the opportunity to appear before you today.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296A.115
    
    [GRAPHIC] [TIFF OMITTED] T2296A.116
    
    [GRAPHIC] [TIFF OMITTED] T2296A.117
    
    [GRAPHIC] [TIFF OMITTED] T2296A.118
    
    [GRAPHIC] [TIFF OMITTED] T2296A.119
    
    [GRAPHIC] [TIFF OMITTED] T2296A.120
    
                TREATING WILDFIRE AS A NATURAL DISASTER

    Mr. Dicks. I want to thank both of you. I think those were 
both very good statements and addressed the issues that we are 
concerned about.
    Now, you know, it is my understanding that when we are 
dealing with the FLAME Act, you still have to appropriate money 
into the account. So the question I keep coming back to is this 
really relief? I have supported it and the authorizers wanted 
to pass this thing, but is that really relief? I mean, my view 
of this is we should go to the FEMA model that uses the 10-year 
average, whatever that number is that is in the President's 
budget, and if it goes over that, then you would go to FEMA and 
then the Congress would have to reimburse FEMA for the extra 
amount of money.
    It seems to me that would be a better way to do it than 
borrowing this money from all the Forest Service accounts. They 
cannot go within the entire Agriculture Department like 
Interior does. They have to take it out of all these other 
accounts within the Forest Service, which means that roads, 
trails, forestry work, forest health get cut. To me the thing 
that is missing here is we are not doing the work on the ground 
that is necessary to help minimize the impact of the fires.
    And where you do it, it works. But we are not doing enough 
of it because the previous Administration just refused to put 
the money in the budget. And now we are going to have to figure 
out how much of this could we do and what would it cost.
    Have you thought about that? I mean, if we really wanted to 
go in and have a major effort with forest health to do the 
clearing out of the understory and the thinning and all the 
things that people say would have a positive effect, what would 
that cost? Do you have any idea?
    Ms. Christiansen. I do not have a figure for you.
    Mr. Dicks. Is that the right answer? What is the right 
answer?
    Ms. Christiansen. I appreciate your statements about FEMA, 
and the FLAME Act is very similar to the FEMA approach but 
recognizes that wildfire suppression is a unique activity that 
is costly. A little different than other natural disasters; a 
hurricane, a tornado you do not necessary suppress it or stop 
it, but you get ready for the recovery efforts. And certainly 
we have recovery efforts that fit the FEMA model in wildfire, 
but the actual wildfire suppression, you are exactly right, 
Chairman, it takes away from all those other critical programs.
    So the FLAME Act, if appropriated, will certainly set up 
similar to the FEMA model.

                 WILDFIRE RESPONSIBILITY AT EVERY LEVEL

    And in regards to your questions regarding what about the 
landscape, how much progress are we making, it really takes the 
entire greater Nation and the communities in the wildland 
landscapes, as well as the federal, State, and private 
landowners working together. That is why there is a group, a 
cadre of fire leadership individuals working to put more of a 
framework around these concepts at the State and at the 
Congressional level that we need to take personal 
responsibility, we need to fund at the Congressional level, and 
the States need to do their part to create the resilient 
landscapes, as well as make our fire communities adaptable to--
    Mr. Dicks. Does it go below the States, even down to the 
counties?
    Ms. Christiansen. Absolutely.
    Mr. Dicks. Do counties have to be involved in this----
    Ms. Christiansen. Absolutely.
    Mr. Dicks [continuing]. In terms of their land use and, you 
know, the rural, urban interface developments?
    Ms. Christiansen. The State foresters are unique often in 
that they convene these community dialogues with local 
emergency management, county officials, county planners, 
obviously the local fire service. Everyone working together has 
to see the bigger building box, and that is the kind of 
framework that we need. But every time we get started in 
building this community capacity and then unfortunately we get 
into these borrowing situations and funds that were already 
committed, you do your part, community will help support a 
piece of that to get yourself organized.
    Mr. Dicks. Well, and they wanted to eliminate the money for 
the private forestry program. Right?
    Ms. Christiansen. Exactly.
    Mr. Dicks. So we cannot have that. I mean, that just does 
not work.
    Ms. Nazzaro. I would agree with Ms. Christiansen that it is 
a joint responsibility, and I would even go down to the 
homeowner level, that everybody has a stake in this. To go back 
to your original question, we do not have a dollar amount 
either of what this would take, but this goes back to GAO's----
    Mr. Dicks. Nobody asked you to look at it? I mean, could 
you come up with an estimate do you think?

                 RIGHT SIZE FUNDING FOR FUELS AND FIRE

    Ms. Nazzaro. Well, it really gets at how much are you going 
to spend on fuel reduction, and that is where we have gone back 
to that recommendation back in 1999, calling for this cohesive 
strategy. What we envision----
    Mr. Dicks. What is the answer when they said 10 years ago 
that they were for having a cohesive strategy, but they never 
have one.
    Ms. Nazzaro. Well, they have gone back and forth on it. 
When we issued the report initially, they agreed with it. Back 
in '07, there was a slight change of opinion about it, and 
apparently they had discussions with OMB, and they were saying 
that they could not do it. We are not asking them to actually 
pinpoint exactly where are you going to do field reduction 
activities and how much is it going to cost and what exactly 
are you going to do should a fire break out here.
    But we are looking for them to develop options, both long-
term and short-term. If you did more fuel reduction, would that 
ultimately reduce the fire suppression costs? We really feel--
--
    Mr. Dicks. That is what we need to know. I mean----
    Ms. Nazzaro [continuing]. That there should be a strategy 
that brings preparation, you know, preparedness----
    Mr. Dicks. Could you do that with a model? Could you model 
that? I mean, could you model where you have done suppression, 
see what has happened when there are fires and compare that? I 
mean----
    Ms. Nazzaro. The agencies actually did attempt to do that 
at one point in time, and so we believe it can be done, and 
that is what we are asking for. Because we really would like to 
know what kind of investment is it going to take to get ahead 
of the game and what is it going to cost us, if it is more 
money upfront versus money in the future but could we turn it 
around.
    As to the investment fund, the reserve account, again, that 
is something that GAO has advocated for a long time. If you are 
going to keep the total appropriation level static, however, 
you are still borrowing against other programs. You are just 
doing it upfront rather than doing it as the money is needed. 
So I really feel that you need to set up an account more like a 
FEMA model that you would have separate money there, and you 
are not taking from the other programs, because we certainly 
have seen a downside to borrowing against the other programs.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    I realize the previous Administration is responsible for 
almost everything, but let me ask a couple questions. I am 
trying to figure out what we are trying to get at here, quite 
frankly. There is the concern of the increasing cost of 
fighting fires and can we control that increasing cost.
    Fires are kind of natural things that happen. There are 
things that you could do to reduce them in terms, you know, 
some of them are manmade and man-caused. Do not let people in 
the forest, I guess, or whatever. But they are like hurricanes 
and tornados and other types of things.
    That is one issue, trying to control the overall cost. The 
second issue is how do we budget for it, whatever that is, and 
it is our tendency as members of Congress or whoever, we want 
to fund things in various areas in this budget, and it is easy 
to say, well, we do not really know what it is going to cost to 
fight fires this year. We are kind of guessing.
    I was critical of the previous Administration for never 
appropriating money for the war in Iraq. They always did it 
through emergency supplemental appropriations, when they could 
at least kind of predicted what the cost was going to be. But 
their answer was we do not want to put it in there because we 
do not want it to become part of the base of the defense 
budget. You know, we could figure that out.
    But that was their strategy. Ultimately we got them to put 
$50 billion in there looking down the road, even knowing that 
that was only going to be probably 25 percent of about what it 
is.
    But we do the same thing. We do not know what the cost of 
fighting forest fires is going to be next year, so it is easy 
to kind of, well, we need $100 million for this program we 
would like. We will take it out of that. Or we would like a 
couple hundred million over here, so we can reduce the unknown. 
What we do not know is going to cost us.

                   ACCOUNTABILITY FOR WILDFIRE COSTS

    That is why I like the idea of setting up an account, but 
it brings up the very problem that you mentioned, Robin, what 
does that do to try and contain the overall cost of the forest 
fighting efforts by the Forest Service if there is an account 
of kind of unlimited dollars there that they know that they are 
going to be able to tap.
    How do you put that accountability into the Forest Service?
    Ms. Nazzaro. Well, we have looked at cost containment as an 
issue in the past, and while the agencies are taking a lot of 
actions to try to contain the costs, we still feel that they 
have not clarified the goals of what they are trying to do in 
cost containment, and when we went up and actually looked on 
the ground of what is being done, it is very difficult for the 
managers to determine which priorities and how they should set 
those priorities. And we found that usually they took 
protection over cost containment.
    You know, when the fire is going----
    Mr. Simpson. Sure.
    Ms. Nazzaro [continuing]. You know, that actually seems 
probably pretty reasonable that you would do it, but then that 
counters this idea that you are really focusing on cost 
containment.
    So we have asked for them to set goals and develop a 
strategy so that the people on the ground actually know what 
are the goals of the agency and how they should set their 
priorities when they actually are asked to do that.
    Mr. Simpson. And I have talked to incident commanders that 
say they are second guessed after the fire is over. The Forest 
Service comes in and evaluates how they have done certain 
things and says, you know, you could have bought this for this 
much, you know.
    Ms. Nazzaro. Uh-huh.
    Mr. Simpson. You do not put it out for bid at the time when 
a fire is going. If you need it tomorrow, you need it tomorrow. 
If you need it today, you need it today. They get frustrated by 
the second guessing of the agency to some degree.
    And this is a real issue about how we address that. You 
know, there are old stories about once a fire reaches a certain 
category, the costs are unlimited, so, man, make sure you get 
that fire to that category and then we can spend whatever it 
takes.

      REDUCTION IN TIMBER MANAGEMENT, IS IT RELATED TO FIRE COST?

    Have there ever been any studies in terms of the history of 
our forest management policies and the increasing wildfires 
that we are having over these years? We do not cut trees 
anymore basically compared to what we used to. Has there ever 
been any comparison of those activities? Those were fuels 
reduction if you want to call it that, but we do not cut board 
feed anymore like we used to. I am not saying that is bad or 
good. I am just saying it is the reality. Have we done anything 
along those lines?
    Ms. Nazzaro. We have not done a study, but I do not know if 
that really is equating to the cause of the fire problem. It is 
more that brush vegetation, the smaller timber. It is not the 
larger trees that are going to really make a difference. A lot 
of those can withstand most of the fires. It is that 
accumulation of the lower vegetation.
    Mr. Dicks. The understory vegetation.
    Ms. Nazzaro. The under-story. Right. That then causes the 
fires to increase in intensity. I mean, that may be a question 
you would pose to the agencies. They are much better at----
    Mr. Simpson. We have natural fire lines out there, too. We 
have clear cut. Yeah.
    Ms. Christiansen. Well, as a forester and I have been a 
firefighter for 29 years, I guess I do have a couple comments.
    The health and the condition of the resiliency of the 
landscape does depend on what kind of forest management or 
allowing fire on the landscape to keep those forests in the 
right balance of species and stocking. It might be small trees 
to start with, but those get overcrowded. That is what creates 
your forest health conditions that are often out of balance.
    So, yes, I would suggest there is an element of forest 
management. I am not aware of a national study. The agencies 
may know that, but at State level there are different studies. 
I formerly was the Washington State Forester, and I know there 
are studies there.
    In regards to cost containment, I would like to, I guess, 
approach it from a long-term cost containment. If we do 
introduce fire into the landscape where it is safe, where we do 
active forest management, where we do these fuels treatments, 
where we do have communities and individuals that take 
responsibility to make themselves adaptive to these fire-prone 
landscapes. Over time that is our cost containment strategy, 
and in the FLAME Act, the bill that was passed out of the 
House, it is in the Act that this cohesive strategy that does 
look at those long-term investments are there, and I applaud 
you for that piece in the FLAME Act.
    Mr. Simpson. Appreciate it.
    Mr. Dicks. Yes. Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman.

                       INCENTIVES FOR COMMUNITIES

    It is very interesting on the cost containment because I 
was on the Floor when we debated the FLAME Act, and one of the 
amendments that occurred, and it was Kirkpatrick who brought it 
up, is that communities that are in the landscape of the forest 
should take primary responsibility in terms of what they do in 
building permits, in zoning, and advising the people who decide 
to build and do build there what they can do around their 
house. And sometimes very simple things like clearing the brush 
around the house and making the buildings, as best they can, 
fire retardant.
    But the situation here is very analogous to my experiences 
on another subcommittee that deals with floods. People tend to 
build in flood plains because the land is cheaper, and so they 
build, and guess what? It is going to get flooded. And as long 
as local jurisdictions are allowing building permits or zoning 
allows some building there, you are going to have buildings 
flooded, families have to be evacuated.
    With the forest I am always persuaded that one of the 
things we ought to do in cost containment is provide incentives 
to communities, whether it be the city, town, or county or the 
State. Incentives, in some cases maybe financial, so that they 
restrict the number of building permits or restrict the zoning, 
the type of zoning that can be allowed and the type of 
dwellings. And then in the building permit if it allowed, the 
homeowner who is going to build the building or whoever is 
going to build the building has to ensure that they try to make 
it as safe as possible.
    If you watch a fire, whether it be in Arizona or 
California, I see in the news as how we are saving these 
houses, where we achieve victory by overcoming the forest fire 
by the number of houses we save, or we lose the forest fire by 
the number of houses that we lose.
    And so the cost containment I think is very difficult to 
predict because I think every fire has its own consequences in 
terms of where it is located, the wind conditions. In the west 
we have the Santa Ana winds that come in and cause it to shift, 
and so I think we can have short-term goals to look at these as 
emergencies and fund them the best we can. But in the long run 
we have to provide incentives to the local jurisdictions that 
would restrict the number of building permits, the type of 
building, et cetera, or else we will be continually fighting 
forest fires to save buildings that should not have been there 
in the first place.
    Mr. Dicks. What about that?

                   COUNTY PLANNING AND BUILDING CODES

    Ms. Christiansen. I appreciate Mr. Pastor's comments, and 
certainly the State Forest Service have a strong goal of 
working with local governments. There is the Wildland Urban 
Interface Building Codes that many counties adopt and try to 
provide incentives on a voluntarily basis. Now, some counties 
are making them a requirement. So there is a tool already out 
there.
    One thing I might mention that we do get from local county 
officials often, particularly in the west where there is a 
great deal of federal lands, in counties where there are a 
great deal of federal lands, restricting their building permits 
is counter to what they are trying to do, to build their local 
economy obviously. And so how you build, though, is just as 
important as how many you build.
    It is a two-way street. How the care of the forestland is 
taken and how resilient it is to fire as it comes off the hill 
and into the community is very important but how those 
communities prepare when they choose to live out in the 
wildland it is just as important as well.
    So I really support your comments; incentives to get those 
communities to really be aware of their surroundings is highly 
important.
    Mr. Pastor. Mr. Chairman, could I ask one more question?
    Mr. Dicks. Yes. Go ahead.

                     WILDLAND FIRE AERIAL RESOURCES

    Mr. Pastor. Because it is always an issue, and it will be 
an issue this summer is the number of tankers available. As I 
understand there will be 19 fire suppression tanker aircraft 
available I guess through the whole west or through the whole 
Nation. That is always an issue.
    Ms. Christiansen. Yes, it is an issue, and I would ask that 
you defer to the federal agencies when they are up.
    Mr. Pastor. Oh. Okay. All right. Well, thank you, Mr. 
Chairman.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman.
    The part of this issue that I guess I focus on the most 
from a district standpoint is just the budgeting impact because 
I have seen it happen. I mean, we have had facilities that were 
supposed to be built, cancelled, never been able to get them 
back at Chickasaw National Recreation Area 1 year because 
literally all the money was taken for wildfires. Appropriately, 
nobody complained. Somehow we fell to the bottom of a long 
list, and that was years ago. They literally broke ground on 
the facility and then stopped and have never come back and 
built it.

                     WILDLAND FIRES ARE EMERGENCIES

    So sad to say I am not all that familiar with the FLAME 
Act, which you referenced in your testimony. Can you tell me a 
little bit about the budgetary part of that? I think we all 
agree you cannot keep funding this thing this way. You have got 
an emergency situation, the funds have got to come available. 
You have got to provide what you need at the time, but how do 
you do this in a more orderly way so that every other program 
is not impacted and you get these situations that are really 
incredibly difficult on local communities and a lot of people 
wasted a lot of time and effort in planning and what have you.
    So how would the FLAME Act address that, and then it was 
not clear to me, you mentioned in your testimony the 
possibility of how that would be funded, other than by direct 
appropriations. So what are the various alternatives there?
    Ms. Nazzaro. Well, the aspect that you are talking about 
that would directly prevent this barring or transfer of funds 
from non-fire programs is the Reserve Account, and that is 
something that we have been supportive of for years. So 
hopefully that would minimize it.
    But as to how you fund it there are tradeoffs, and that is 
what I talked about was that if you set a certain amount of 
money for that fund, then it is almost like the agencies have 
additional money, and that could reduce that inherent incentive 
to reduce costs because now they have more funds. If it not a 
set amount. If it is just an amount that every time like the 
FEMA, every time they have an emergency they can come in and 
ask for more money. There is little incentive to contain costs. 
If you give them a set amount, then they have got to manage 
within that account.
    But then again, you may still end up borrowing against that 
if it is not enough. So that is why I say there is a tradeoff 
as to how much money you are going to give them and what you 
are you going to actually be able to accomplish. If you are 
really trying to eliminate any trading off or transfer of 
funds, then it is going to have to be more like a FEMA account 
where every time there is a catastrophic fire you are going to 
come in and borrow money or get appropriations.

                      POTENTIAL FOR FEE ASSESSMENT

    Mr. Cole. Was there any discussion of, any kind of 
replenishment mechanism for the fund other than direct 
appropriations? That is a fee, something that, gives you a 
stream of income that you would hope in most years would cover 
that. You might have to occasionally come in with additional 
appropriations or would allow maybe a fund to accumulate up to 
a certain level so that, again, there is a reserve fund sitting 
there.
    Any kind of thing like that that has actually been proposed 
either administratively or legislatively?
    Ms. Nazzaro. I have not seen any proposal. One similar 
activity that has been very effective in the past is the 
Recreation Fee Program, where the localities can keep a certain 
percentage of those funds to address their backlog maintenance, 
and that has certainly helped that situation. So a similar type 
of mechanism has been put in place in the past. I have not seen 
a proposal, though, for fires.
    Mr. Cole. Sorry. Did you have----
    Ms. Christiansen. Not to that particular question. To your 
first question.
    Mr. Cole. Please. Go ahead.
    Ms. Christiansen. I would just like to point out that the 
FLAME Act does separate or distinguish between your more 
predictable fire work load based on some, you know, averages 
and whatnot and these catastrophic, larger events that, as I 
said in my testimony, 1 percent of the fires can take up to 85 
percent of the funds. So there is some declarations called out 
in the FLAME Act where the Secretaries of Interior and of 
Agriculture would have to declare this emergency to access the 
FLAME partitioned account on these extraordinary events.
    So there is certainly accountability to the agencies and to 
all of us in the fire community quite frankly that it is in our 
best interest to manage these fires appropriately in the more 
routine sense and then some suggestions that the FLAME funds, 
if there is excess, would go back into these potentially cost 
containment activities of treating the landscapes and 
incentizing communities to become fire adaptive and those kinds 
of things.
    So there is some distinction between the two accounts.
    Mr. Cole. Is GAO or anybody looking at a funding mechanism 
for something like this? I mean, literally, is there much 
thinking going on? I just do not know how you do it and 
appropriate it in any kind of regular way. I mean, clearly we 
have wrestled with this as a committee and as a Congress, and 
it is hard to find a solution. And it is great to have an act 
that sort of prioritizes how you spend it, but at the end of 
the day it is about having enough money available. And it is 
very difficult to anticipate emergencies and appropriate 
accordingly. It just seems to me a lot easier if there is some 
sort of pool of money that is regularly replenished by some 
sort of fee because we know this is going to happen, and it 
seems to be happening a lot more frequently over the last 
decade than this happened before, that you could draw on so you 
could preserve the balance of the money going to the Forestry 
Service and other parts of Interior and have predictable 
budgeting.
    Ms. Nazzaro. We have nothing underway that would look at 
that.
    Mr. Cole. Would you like to have something underway? Would 
you like a formal request? Or is that something that Congress 
needs to come up with on its own?
    Mr. Dicks. Well, you know, we will see how the FLAME Act 
works, but, as I said, it seems to me that if you had a certain 
amount in the bill that on the 10-year average or whatever way 
you do it, and then if it goes over that, then you went to 
FEMA, and then FEMA would take care of the additional costs. 
And then that would be reimbursed like we always do after a big 
storm or whatever.
    Mr. Cole. Yeah.

               UP FRONT INVESTMENT TO REDUCE FUTURE COSTS

    Mr. Dicks. Or we are just going to have to have a lot of 
money in the FLAME Act. So then the question is, well, why did 
you not just put it in the suppression account. I mean, you 
know, I just do not see what the value added is, but, you know, 
we are going to see how it works.
    Mr. Cole. Again, if you had some sort of fee, and I am not 
sure what it would be levied on, and you said, okay. This 
operates until it builds to a certain level, and so you have 
got some sort of reserve, and then beyond that you can use it 
for suppression or anything else. You know, the money still 
comes in, but the first thing is just to have the money to 
protect the rest of the budget for Interior and certainly for 
the Forest Service. And so----
    Mr. Dicks. I think the other question besides how do you 
pay for the fires is, you know, the real question here is is 
there a strategy that could be developed that would help us 
reduce the cost of these events? And when you realize it there 
is only 1 or 2 percent of the fires that actually become 
megafires, and they are the ones that cause us the big problem. 
Then the question is, whether there a way with fuel reduction 
and things like that that you could do in advance working with 
the States and the localities to reduce the risk?
    And maybe the investment, putting the money up front would 
reduce the consequences, and so that is kind of what I am 
thinking about that we have not done, and this was not just the 
previous Administration. Probably the previous two 
Administrations did not put the money in. I know for a fact in 
Region Six we could do a lot more thinning, a lot more of fuel 
reduction work, and that would, I think, lead to a positive 
result in minimizing the consequences of fires.
    The question is how big a bill is that, how long would it 
take to do, and could we get everybody to agree that this is--
the States would have to do it on their own State lands, like 
Washington State has their DNR lands, you know, but all we see 
now is with climate change and the warming climate that this 
thing is just going right through the roof. And, you know, the 
numbers are there. Thirteen percent in the '90s of the Forest 
Service budget went for fire. Now it is up to 48 percent.
    So it is out of control.
    Ms. Nazzaro. To go back to your question as to what the Act 
actually contains, it is a fund that will have to have funds 
appropriated. It is not a fund that has been set up, and it is 
not a fund that----
    Mr. Dicks. Any revenue source.
    Ms. Nazzaro. That is right. That there is not a revenue 
source.
    Mr. Dicks. This has to come out of regular old 
appropriations.

                  THE IMPACTS OF THE CURRENT SITUATION

    Ms. Nazzaro. But it is set up for catastrophic fires, so it 
is not that it could be tapped into----
    Mr. Cole. Right. It just seems, and I am not familiar with 
this problem enough to be pontificating, but it seems like we 
have got two separate problems, and one is exactly the one you 
mentioned, which is the big problem, Mr. Chairman. Obviously 
what is the appropriate strategy in the era of changing and 
intensifying forest fires? The second is just a budgeting issue 
in terms of what the impact is on every other department, and 
again, it could be a direct----
    Mr. Dicks. Well, it is an extremely negative thing for the 
Forest Service.
    Mr. Cole. Yeah.
    Mr. Dicks. They cannot manage, and at some point money is 
going to be torn out. They cannot make contracts, they cannot 
do all the other things that they are supposed to be doing in 
terms of trails and roads and all the work on natural resource 
issues that they are supposed to be dealing with. And they 
provide a lot of recreation. So that gets adversely affected, 
the campsites and things like that. They are not being kept up 
because the money is being taken to fight the fires.
    Mr. Cole. Well----
    Mr. Dicks. And then as was stated here, only 80 percent of 
it has been reimbursed. We have tried, Mr. Lewis and I and 
others, Todd Tiahrt, when he was here, and if it had not been 
for all that emergency, money added, this would be 
catastrophic. The Forest Service would be on its knees. 
Congress has continued to bail this thing out on a bipartisan 
basis because we all recognize that there was not enough money 
in the budgets to take care of the problem.
    Mr. Cole. I am sorry, Mr. Simpson.
    Mr. Simpson. No. Go ahead.
    Mr. Cole. Just one point, and I will be quiet. We dealt 
with some, it was not like this, but it was the same sort of 
budgetary problem, it was a leaky tank fund in Oklahoma in 
terms of gasoline tanks, and we just eventually levied a fee. 
You did not see it at the pump frankly, but I am sure it got 
passed on. That is just the reality of this, but it built up a 
leaky tank fund which was then used to fix them all, and 
actually it turned out it was a pretty minor amount of money, 
but it turned out it then built up a surplus, and that was used 
to anticipate problems.
    And because the same thing was happening with our budgets 
that were responsible for this, the Corporation Commission in 
the State of Oklahoma, and they were just having a heck of a 
time.
    So, you know, it just seems giving you a source of income 
that gives you the reserve that you need to deal with the 
fire----
    Mr. Dicks. See, I do not know how you do that unless you 
would do it on timber sales, which already are in the tank, you 
know.
    Mr. Simpson. We do not have any.
    Mr. Cole. Yeah. You got to impose a fee on something 
somebody is still buying.
    Okay. I am sorry, Mr. Chairman. Thank you.
    Mr. Dicks. Mr. Simpson.

                       COMPARING FIRES TO FLOODS

    Mr. Simpson. Just a couple things.
    You know, it seems that it gets down to what Ed talked 
about, though, and that is that as we get more and more people 
moving into that wildland urban interface, we spend more and 
more time trying to protect homes, private property, those 
types of things, and that is the expensive part of trying to do 
protection.
    You guys involved in the Firewise Program?
    Ms. Christiansen. Absolutely. Yes.
    Mr. Simpson. It seemed to me like the best incentive you 
could have is if I was an insurance company, I would not insure 
anybody that built in the wildland urban interface that did not 
do Firewise on their house, use fire-resistant materials, 
clean, green defensible space around their property, and those 
types of things. If you cannot get insurance, you are not going 
to build there.
    So it seems to me that the insurance companies could be 
very helpful in this respect, and I will tell you that I have 
done PSAs for the Firewise Program, and I have gone to some of 
their meetings and talked to them and stuff. Home builders, I 
tried to get to homebuilders and Firewise Program, but 
homebuilders do not like any restrictions put on what they can 
build for someone, but it may take some State and or federal 
legislation to try to control this urban wildland interface 
that is creating, I think, a lot of the problem.
    I do not know exactly how the flood insurance works in this 
country because I have always built on higher ground, but if 
you build in a flood plain, do not you have insurance rates 
that are more substantial than otherwise?
    Mr. Pastor. And also restrictions at what level it is being 
built at and what materials. You have more restrictions.
    Mr. Simpson. Yeah. But it seems to me like you could do 
something along those lines. If you want to build in the 
wildland urban interface, however that is going to be defined 
by a county ordinance or a State law or whatever, there could 
be insurance consequences which fund exactly what 
Representative Cole was talking about, some type of funding 
that goes into the budget for fighting wildfires.
    So there are ways to do that. Now, I do not want to suggest 
that I support that because all of a sudden all the homeowners 
in America will start writing to me, but there are ways that 
you could do it that would both incentivize people to be 
careful and to think twice about where they are building and 
fund a program to address the wildland firefighting costs if 
that was a way to do it.
    Ms. Nazzaro. Well, and I think the government does have a 
leverage, if you will, because when you fight fires, it is not 
just a federal responsibility in these wildland urban 
interfaces. The States get involved, the localities get 
involved. They have a cooperative agreement that is reached as 
to how they are going to approach that fire and how they are 
going to pay for it.
    And so to the extent that the Federal Government is putting 
in money I would think you do have an opportunity here to 
leverage that. If you are not somebody who is, you know, 
prescribing to Firewise practices, it would seem the Federal 
Government could be more reluctant to pay, you know, an 
increased share of those firefighting activities.

                     MORE THAN A GOVERNMENT PROBLEM

    Ms. Christiansen. And I absolutely agree, Mr. Simpson. The 
wildland urban interface is a huge component to the complexity 
that, you know, we have all spoken to, and as I said before, it 
is not where all of the costs go because, again, the landscape 
conditions are declining. So the large catastrophic fires next 
to these communities that are not real smart about how they 
build next to the wildlands, then you put climate change and 
the other factors, so we really have to take a comprehensive 
look.
    But your remarks about the communities, about the insurance 
industry, the homebuilders, that is really the point of it is 
more than just a land management issue. It is a societal issue, 
and we need to think big and not business as usual in a 
comprehensive way.
    Mr. Dicks. Would you yield just on that point?
    Mr. Simpson. Sure.
    Mr. Dicks. In thinking big, I mean, does the Federal 
Government have to mandate the States to deal with this, or are 
we just letting this be done on a State-by-State basis? The 
best way to do it would be a national program where we say you 
have to do the following. You have to work with the counties to 
accomplish the following things and put some regulation into 
this.
    I am not sure that would go well in Arizona----
    Mr. Simpson. Or Idaho.
    Mr. Dicks. If you are going to deal with that problem, is 
there any other way to do it and just let the States do it as 
they wish? I mean, quite obviously, we are not getting it done.

                    INTERNATIONAL AND OTHER EXAMPLES

    Ms. Nazzaro. We may look at what other countries are doing. 
It is my understanding that the individual homeowner has a much 
greater responsibility in Australia for their properties than 
we are requiring here in the United States. So we may look to 
other countries, how they are dealing with their fire problems.
    Mr. Pastor. Mr. Chairman.
    Mr. Dicks. Do you have a comment?
    Ms. Christiansen. Yes, I do quickly. I am certainly not 
going to make full comment about governance and federalism in 
the United States, but I would suggest as I stated before we 
all have a role, and what these group of fire managers, the 
cadre that have been working on this, you know, we cannot do 
business as usual, is looking at what was done in the '70s 
regarding the huge spike of deaths from home fires, structure 
fires, and America's burning report that really set the 
framework at a national level but took it down to the State and 
local responsibilities of how everyone worked together, and you 
know, that trend line dramatically decreased.
    And so the thought is that we need Congressional, 
gubernatorial, Presidential support around America's wildland 
burning kind of effort that looks at all of these efforts and 
would certainly look to other countries and how we put the 
framework and what piece of it all goes together to address 
your questions.
    Mr. Pastor. Mr. Chairman.
    Mr. Dicks. Mr. Pastor.

                    NATIONAL FIRE INSURANCE CONCEPT

    Mr. Pastor. Going back to the analogy of flood plain and 
flood insurance, the Corps of Engineers is required to 
delineate flood plains, and they do the map and then they are 
publicized and cities, towns, States know where the flood plain 
is. Now, if you live in that flood plain, that means you have 
to have national flood insurance as part of purchasing the 
house. If you are going to build there, obviously there are 
certain warnings you get, and you have to buy flood insurance. 
The homebuilder or whoever is going to develop that property 
has restrictions in how that property is going to be developed.
    Now, never having lived next to a forest, has anybody 
thought about a national fire insurance that if the Forest 
Service delineated certain areas that were forest fire prone 
that then the community would have to recognize that and 
obviously deal with certain restrictions? If the homebuilder is 
going to build in there, obviously there are certain 
restrictions, and the homeowner when he purchases the property, 
obviously he has to buy this insurance and probably reside in 
that home with some restrictions how to make it forest wise.
    And if you do not have any of those restrictions, they 
cannot get the forest insurance, and that way you cannot build. 
So I do not know if anybody has looked at it, but maybe that is 
a possibility where you can have a federal presence in 
cooperation with the local jurisdictions and the private sector 
so everybody knows what the situation is and you want to 
contain the costs for the future.
    Mr. Dicks. What about that idea?
    Ms. Christiansen. In my experience it certainly has been 
discussed, but, again, the framework to tie the local, the 
State, and the federal piece together at a full national level 
is not there yet.
    Mr. Pastor. The flood control was not there at one time.
    Ms. Christiansen. Right.
    Mr. Pastor. It is there.
    Ms. Christiansen. That is right.
    Mr. Pastor. So that may be something that we may want to 
look at and see how that evolved and how we can improve on it 
because if we do not do something similar to that, we are going 
to be talking about cost containment or how much the fund is 
going to be, and people are going to be building urban 
construction next to a forest, and guess what? They will be on 
the news how many houses are about to burn down and how many 
tankers we have available.
    Mr. Dicks. Yes.
    Mr. Pastor. So, you know, that might be an idea that 
somebody may want to pursue. Maybe GAO might want to pursue.

                     STATE FIRE ASSISTANCE BY FEMA

    Mr. Dicks. Well, we will take a look at that.
    Let me ask you one thing. We understand that FEMA is able 
to reimburse States for some of the emergency wildfire 
suppression costs which States incur on certain emergency 
wildfires. Can you explain how this works?
    Ms. Christiansen. I can. We are having our--it is called 
the FMAG----
    Mr. Dicks. FMAG.
    Ms. Christiansen [continuing]. Process, and the Fire 
Management----
    Mr. Dicks. Assistance Grant.
    Ms. Christiansen [continuing]. Assistance Grant. Thank you. 
And we are actually having our FMAG meeting as soon as I return 
tomorrow in Arizona. Basically there are some thresholds that 
if a certain number of structures are immediately threatened 
and it takes a designee, the governor is the one that is 
designated in each State, but, of course, they often have their 
designees that make the request to FEMA, and it is often the 
State forester in Washington and now in Arizona, that has been 
the case.
    So when we anticipate a threshold of structures being 
threatened, we will make a request to FEMA, and then the actual 
firefighting expenses will be a cost share with FEMA back to 
the State. If we go collect cost because of negligence or any 
other issues, then obviously we need to pass those collection 
of FEMA share of costs onto the Federal Government.
    There is a threshold once the threat of the actual 
structures have passed and then there is still suppression 
activities in the wildland, then FEMA no longer picks up that 
part of the firefighting expenses. But during the period of 
threat to the homes, FEMA will engage will the States, and it 
has been very successful. We are getting the process down, so 
it is pretty well understood by the State level, State forestry 
and emergency management.

                          COSTS TO THE STATES

    Mr. Dicks. To what extent do the States still have to fund 
their own operations?
    Ms. Christiansen. Actual fire suppression?
    Mr. Dicks. Yes.
    Ms. Christiansen. They fund all of their own operations 
when the fire is burning. State-protected lands in most States 
are all the State and private lands, so anything non-federal 
there are some cases where there is protection agreements where 
the State will protect some federal lands and in exchange 
because of closest forces and whatnot then the federal land 
management agencies will pack under agreements in State and 
private lands. That is all worked out in advance, but for the 
most part State and private lands--it is the full 
responsibility of the State and then if structures or 
metropolitan areas or different fire district boundaries, the 
locals have a share of all the fire suppression 
responsibilities.
    Now, as we all know, fire knows no boundary, and you have 
to sort this out on paper through cost-share agreements, but 
you look at what federal lands are threatened or are a part of 
the fire incident, what State and private lands are part of it, 
and you work out your cost-share agreements with the State and 
the locals being 100 percent responsible for the State and 
private protection.
    Mr. Dicks. You indicated that much of the fire suppression 
costs are for a few large fire events. Have you participated in 
any large fire cost reviews? Do you think there are sufficient 
incentives for fire incident commanders to pay attention to 
costs while they are managing emergency wildfires?
    Ms. Christiansen. I have overseen or been a part, been a 
State forester when those large fire reviews have--you may 
know, Chairman Dicks, the Tripods Fire in '06----
    Mr. Dicks. Right.
    Ms. Christiansen [continuing]. In the Okanogan Forest, I 
have not personally been on those panels, and I would have to 
agree with Mr. Simpson when he suggested that there is a 
culture within the whole greater firefighting community that is 
changing, that cost containment next to safety has to be 
considered in every major decision and the predictive models 
about what is out ahead, where is our larger goals, our 
strategy, how we deploy that in tactics, I will say is changing 
from my first fire season 29 years ago to today given these 
large fires.

                     ADVANCE COST SHARE AGREEMENTS

    But what I would suggest, it should be done in advance as 
much as possible, not at the time the incident commander is 
having to make those tough decisions. And this larger dialogue 
that we are having is all about setting up those strategies in 
advance and doing your predictions in advance. What is the 
community's preparedness level? What is their responsibility? 
And how are we going to ramp up at different levels of 
complexity where our critical defensive lines as we manage the 
forest landscape and we get some fuels treatment in so we do 
not have these large expansive areas that----
    Mr. Dicks. How well is that being done? Is that being done 
now?
    Ms. Christiansen. It is being done.
    Mr. Dicks. Not effectively.
    Ms. Christiansen. Well, in some places effectively. I would 
say baby steps. We have a long way to go. I am a real champion. 
When I see my line managers out pointing fingers, you know, a 
federal manager saying, well, it is all about the wildland 
urban interface and a State fire manager saying, well, it is 
all about those fuels up in those hills, that is not getting us 
anywhere. We have to work together, and we have to say, what is 
the largest, most complex issue on these landscapes? It is 
multiple points of action that we need to engage in together. 
That is why we need this larger framework that will set the 
national direction, not the federal direction, the national 
direction for us to get a handle on this.
    It is happening in spots in my small piece of knowledge. It 
is not happening everywhere. I think we have a great deal of 
improvement still to be made.

                      IS THERE A NEED FOR A PLAN?

    Mr. Dicks. Do you think there needs to be a plan, a 10-year 
plan? There was one under the Clinton Administration. Do you 
think it is even in existence anymore, or has it just been 
shredded and disregarded?
    Ms. Christiansen. As far as the State foresters are 
concerned, there certainly is a plan. The 10-Year Comprehensive 
Wildfire Strategy, and you know, we are investing plenty of our 
staff, and we are reporting the accountability of the different 
implementation steps, and as my testimony said, we are not 
funding it to the level we need to. It is suppression and 
prevention are the two places where it is being funded, but 
community assistance, restoring the fire adaptive landscapes, 
and the fuels treatment were not--we have the framework in 
place, but we are not funding it at the level it needs to be 
funded. The plan is still there.
    Mr. Dicks. So it is about money. Again. It is about money 
and making sure that the locals are involved. That is the 
biggest thing I think----
    Ms. Christiansen. Yeah.
    Mr. Dicks [continuing]. That we cannot let happen is to 
make this just a federal thing and not have the local people 
involved.
    Ms. Christiansen. You are absolutely----
    Mr. Dicks. Is there anything else you would like to say? We 
are going to go to the next panel, but we have you here, and is 
there anything else you would like to say?
    Ms. Christiansen. I think that I really had the opportunity 
to say it all. I appreciate the depth of questions and real 
knowledge----
    Mr. Dicks. Our staff can write great questions.
    Ms. Christiansen. No. I mean----
    Mr. Dicks. Well, there is a lot of experience here.
    Ms. Christiansen. There certainly is and the State 
foresters do have a somewhat unique role in bringing the parts 
and pieces of this together, and so we stand ready to----
    Mr. Dicks. Well, we need your involvement. I think that is 
clear in my mind that a singular effort would be a big mistake.
    Ms. Christiansen. Thank you very much.
    Mr. Dicks. Any other questions?
    All right. Let us go to the next panel. Thank you very much 
for coming.
    All right. Hank, why do you not start first?
    Voice. You can address all the questions we have been 
asking here.
    Mr. Dicks. No. That would be good.
    Mr. Kashdan. I actually will attempt to do that in my 
opening remarks here.
    Mr. Dicks. Go right ahead.

                Statement of Mr. Kashdan, Forest Service

    Mr. Kashdan. Mr. Chairman, Mr. Simpson, Mr. Cole, thank you 
for the opportunity to be here today to talk about options for 
wildfire suppression funding. Let me also thank you on behalf 
of all the Forest Service employees for the many years you have 
spent on helping us look at a fix to the fire funding issue. 
You have no idea how greatly appreciated that is, and I want to 
say that at the beginning.
    Let me just summarize my remarks very briefly and start 
with a word about the coming fire season. We are ready for the 
coming fire season. We expect to be able to contain 98 percent 
of all fires on initial attack, and we will be bringing the 
same level of resources to these fires that we have in the 
past.
    Let me also say something different about this coming year 
that I think addresses what Ms. Christiansen said in terms of 
what she described as taking a baby step. I think you are going 
to see a very large step in addressing the issue of cost 
containment, and I will describe that a more in little bit.
    Our coming year continues to be influenced in even greater 
ways by the effects of climate change, warmer temperature, 
longer season, less snow pack, greater insect and disease 
affects, and that all leads us to expect larger fires, more 
acres consumed, more challenging predictive models, more 
erratic behavior. We expect to see a very challenging season as 
it is shaping up today.

                     THREE-POINT STRATEGY FOR FIRE

    Let me say that we are addressing the wildfire suppression 
issue from three standpoints. First, the land, second from the 
standpoint of risk where we talk about safety and costs, and 
the third, the budget issue. And let me start by talking about 
the land.
    The core element of our successful, long-term approach to 
wildland fire suppression is addressing forest health, both 
federal and non-federal, and we really have just a tremendous 
opportunity to do that in this coming year, and a lot of it 
thanks to your help as part of the American Recovery and 
Reinvestment Act. We have $500 million provided to the Forest 
Service for $250 million non-federal, 250 million federal, 
including $50 million for Wood for Energy Grants that really 
allows us to recognize and move towards a vision that is very 
exciting to all of this and directly addresses the health of 
the land.
    If you could imagine that we can reduce hazardous fuels, 
protect communities from catastrophic fire, improve forest 
health, put people to work in the context of woody biomass, and 
create new alternatives for the use of energy for alternative 
energy development and energy independence, this is all coming 
to us through the American Recovery and Reinvestment Act that 
we are very excited about doing and will demonstrate some of 
the strategies that----
    Mr. Dicks. I am sure glad I supported that.
    Mr. Kashdan. I am, too, Mr. Chairman. Thank you. It is 
truly an exciting time, and that is going to be very core to us 
addressing the health of the land.
    Now, I mentioned the second aspect, and that is risk, 
safety and cost, and what I would like to do is refer to some 
of the handouts here. First I want to talk about this map that 
I think you have in front of you. This is the major step that 
this constitutes that I think moves well beyond baby steps in 
cost containment.
    Mr. Dicks. I see Idaho is ground zero up there it looks 
like.
    Mr. Simpson. I will tell you that before--I do not mean to 
interrupt you, but if you look at that through the center of 
Idaho there across from Oregon, Montana, if you get a map out 
of the lightening strikes that happen in Idaho, there is a 
whole corridor there of nothing but lightening strikes across 
there all year long.
    Mr. Kashdan. And actually, that is very pertinent to what 
we are talking about here. These are 30 national forests that 
we are using some of our scientific analysis and predictive 
techniques to evaluate that we are indicating we are pre-
disposed to major megafires, and megafires I am going to 
describe by this chart if I can. Now, we were not able to get 
this to print, but you have it there. This is a slight 
different derivation than some pie charts you may have seen 
previously.
    I will wait until Mr. Simpson has it, because I think it 
is----
    Mr. Simpson. I certainly have it somewhere.
    Mr. Kashdan. There you go.
    Mr. Simpson. Ah. I got it now.
    Mr. Kashdan. If you look on the left-hand side the blue 
circle, this basically describes the 10,000 ignitions that we 
had in 2008, and you have heard us say that 2 percent of these 
fires will escape initial attack, and we expect that to 
continue to happen.
    However, if you look at .25 of 1 percent of the 10,000 
fires, 40 of those, .25 of 1 percent exceeded the suppression 
costs of over $5 million per fire and accounted for $666 
million in suppression expenditures, which is the yellow part 
of that larger pie. And then you see the red, the 195 million, 
which represents the 2 percent suppression costs. So in other 
words the 160 fires cost $195 million to suppress, and then you 
have got the 98 percent, the 9,800 fires that we spent 125 
million on, those being the ones suppressed at the point of 
initial attack.

                      NEW DECISION SUPPORT PROCESS

    Now, coming back to this map then what you see are places 
where we intend to prototype a new decision support process 
that we are working on in advance. We have our four national 
incident management organization teams, we call them the NIMO 
teams. These are full-time incident command teams that have 
already been at work, working with the States, counties, local 
communities to address the potential for these large megafires 
in these locations and to develop the suppression strategies 
now where, Mr. Simpson, in fact, we would assume the risk up 
and down the command structure from the incident commander all 
the way up to the chief, and I think this is really key to 
effective cost containment, that it is not up to the local 
incident commander to solely own the tactics here.
    And so our commitment in this area is the safe allocation 
of firefighters, the prudent allocation of resources, aviation 
resources particularly, large crews to advance preparation for 
addressing these megafires as they expand on the landscape, and 
that is really key, I think, to cost and safety and future cost 
containment. And this will be prototyped this year. So I think 
that is a key development. I wanted to talk about that as part 
of the risk management.

                   BUDGET CHANGES TO ADDRESS PROBLEMS

    Now, for the budget. It is important to keep in context, I 
think, that we tend at this time of the year to be talking 
about the President's budget and invariably that is always a 
discussion of the season after the coming one, and that we face 
some of these major issues for 2009, that the President's 
budget obviously is addressing in 2010, the full prospect of 
fire transfers and other aspects of a challenging fire season 
with a more traditional budget. But in 2010, what we have is 
the President's budget that provides a $282 million contingency 
for the Forest Service that would be accessible when the 10-
year average funding is on the verge of being exceeded. And 
this 282 million we believe will substantially reduce the 
probability of fire transfers or significantly lessen the 
chaotic nature should we end up going into that fire transfer 
situation.
    Mr. Dicks. Well, how would it work just while you are 
there?
    Mr. Kashdan. The 282 million would be set aside. It is non-
emergency money. You would have to----
    Mr. Dicks. Appropriate it.
    Mr. Kashdan [continuing]. Appropriate it. It would be set 
aside for a Presidential determination that we are able to 
exceed the 10-year average and that we need to make this money 
available, contingent on the fact that we have exercised 
appropriate cost containment controls and some satisfaction 
that we have met those constraints, and then that funding would 
become available. That is the short aspect of that.
    Mr. Dicks. Okay.
    Mr. Kashdan. Now, meanwhile the President's budget also 
substantially increases the 10-year average and does not offset 
that 10-year increase against any other programs. It 
substantially increases the level of funding for the Forest 
Service up to the point that the 10-year average has increased. 
I believe that is about $124 million dollars. And so there 
would be no erosion of the other programs under the President's 
budget.
    Now, meanwhile, of course, you have got the FLAME Act that 
has been discussed already. The FLAME Act would have the affect 
of addressing the root causes of what most of our interest 
groups would describe as needing the fire fix, and that is the 
advanced separation of large fires off budget. You still have 
to appropriate that, but it would move that off budget and 
would, therefore, mitigate that effective erosion in other 
programs.
    So you have got some capability issues between the two but 
both of them together really constitute the fire fix that has 
been talked about in the past.
    So I think we are at a stage here where, that I am so 
grateful to be, and that is we are talking about how to fix it, 
not if we have to fix it, and I think that it is a real tribute 
to this subcommittee, to the President, and to Congress and all 
the work of our partners. And so we are very pleased with it, 
and with that I will conclude my remarks.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296A.121
    
    [GRAPHIC] [TIFF OMITTED] T2296A.122
    
    [GRAPHIC] [TIFF OMITTED] T2296A.123
    
    [GRAPHIC] [TIFF OMITTED] T2296A.124
    
    [GRAPHIC] [TIFF OMITTED] T2296A.125
    
    [GRAPHIC] [TIFF OMITTED] T2296A.126
    
    [GRAPHIC] [TIFF OMITTED] T2296A.127
    
    [GRAPHIC] [TIFF OMITTED] T2296A.128
    
    Mr. Dicks. All right. Now we are going to ask Pam for your 
statement, and I just want to say that Pam Haze has been a real 
asset to this committee over the years, and we have enjoyed 
working with you, and Mr. Simpson and Mr. Cole are both new. I 
know they will learn what I learned, and that is that you are 
an incredible resource for the committee and for the country.

           Statement of Ms. Haze, Department of the Interior

    Ms. Haze. Thank you very much. Good morning, Mr. Chairman, 
Mr. Simpson, Mr. Cole. I will now bore you to tears with my 
opening statement. Hank is a hard act to follow. So I will be 
brief because I think we want to probably get to questions 
fairly quickly.
    Hank and I work very closely together. Our two agencies, 
our department and our four bureaus that are involved in the 
fire program, and the Forest Service work very closely 
together. I particularly appreciate the work we do in the late 
summer when we struggle through the issues related to fire 
borrowing and trying to work through minimizing the impacts of 
the fire borrowing. Last year we were very fortunate and did 
not have to execute any transfers, and the Forest Service 
struggled mightily with a lot of fire costs.
    So in our department fire program as it is in the Forest 
Service is very vital. It is a vital component of our landscape 
and natural resource management programs and the Bureau of Land 
Management, the National Park Service, the Fish and Wildlife 
Service, and the Bureau of Indian Affairs. Our bureaus work 
very closely together in our collaborative program, and it 
works very well.
    Our partnership also includes the States, local 
communities, and other countries as you well know. The Prime 
Minister from Australia, Prime Minister Rudd, was here last 
week to thank Secretaries Vilsack and Salazar for the help we 
provided during their fire season this year in January and in 
February. And there is a swap of firefighters between our 
countries in different years.
    So it really demonstrates the collaborative nature and how 
we need to work together so the solution that works for the 
Forest Service needs to work for us as well. This is the point 
I am trying to get to.
    I really laud the President's budget and the fact that it 
does recognize the need for sufficient funding for fire 
suppression and the fact there are these costs beyond what is 
in our 10-year average and gives us a place to go when we 
exhaust the suppression funding that is in the budget.
    I also appreciate the efforts of Congress to examine the 
issue and look for solutions. I think we have to be realistic 
about the situation as we work towards this. As Hank said and 
as Vickie and Robin said, fire seasons are getting longer, 
fires are getting larger, more expensive, climate change, 
drought, disease outbreaks are all making it harder and harder 
to manage. The expansion of development in the WUI, wildland 
urban interface, also challenges us with that.
    So our costs continue to rise as do the Forest Service's. 
We pale by comparison to the numbers you see with them, but our 
2009, 393 in suppression--I am sorry. In 2008, was about three 
and a half times the amount we spent 10 years ago. So we are 
seeing increases as well.
    I agree with Hank. We are ready for the fire season. We are 
poised, and we are going to keep initial attack at the rate of 
97 percent, 98 percent in his program, and I would like to just 
make two more comments.
    One is how important the Hazardous Fuels Program is. Vickie 
talked a lot to you about that. A good fire program is a 
balanced program, one that has a hazardous fuel program to 
allow us to attack the problem that causes some of the fire 
severity, as well as a strong preparedness that gives us the 
infrastructure to put on the ground to be ready for fire 
season.
    And then we were lucky enough to receive $15 million in the 
Recovery Act for the fire program, which we are allocating to 
hazardous fuels programs, and we are pretty excited about that 
as well.
    That concludes my findings. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296A.129
    
    [GRAPHIC] [TIFF OMITTED] T2296A.130
    
    [GRAPHIC] [TIFF OMITTED] T2296A.131
    
    [GRAPHIC] [TIFF OMITTED] T2296A.132
    
    [GRAPHIC] [TIFF OMITTED] T2296A.133
    
                       STRATEGIC FUELS TREATMENT

    Mr. Dicks. Okay. Well, the hazardous fuel thing is the one 
thing I want to know more about, and Hank, in your statement 
you do not include that, about how many acres have been 
treated. Interior statement says from 2001, through--I assume 
this is on BLM lands, I guess. We have treated over 29 million 
acres on federal land, including approximately 21.6 million 
acres treated through hazardous fuel reduction programs and 
over seven million acres of landscape restoration accomplished 
through other land management activities.
    Is that Forest Service and DOI?
    Ms. Haze. Yes, it is.
    Mr. Dicks. So it is both of you?
    Ms. Haze. Uh-huh.
    Mr. Kashdan. Since 2001, 29 million acres of hazardous 
fuels treatment, 15 million in the WUI and then I believe it is 
17 Forest Service, 12, DOI, I believe.
    Mr. Dicks. How good are you at predicting where these fires 
are going to occur?
    Mr. Kashdan. Well----
    Mr. Dicks. What I am trying to get at is if you had a 
predictive model where the most likely occurrence could be of 
these megafires based on what you have seen in the past, then 
you could focus your treatments in those areas where there is 
the greatest risk of a megafire. Have you ever thought about 
that?
    Mr. Kashdan. Well, actually, that is a very good question, 
Mr. Chairman. I think one of the things you will see when we 
actually lay out our hazardous fuels treatment under the 
Recovery Plan, that we will be overlaying our project selection 
directly over, in most cases, directly over the most prone 
hazardous fuels, most prone areas subject to megafire threat, 
which you will see will be very similar to this map you are 
looking at up here on the chart. I think what you will see is 
our hazardous fuels will overlay that very well.
    Now, our predictive models actually do take into account 
geography and seasonal switch. For example, right now our 
predictive models are showing an above average fire season 
emerging in Arizona, normal season elsewhere, and then that is 
used in actually predicting the severity of fire suppression, 
and that is based on weather, moisture, snow pack, climate, and 
hazardous fuels. And so you will see that predictive model 
spreading up across this map here. But the direct answer to 
your question is is that you will see our hazardous fuels 
strategies as represented by the Recovery Act will overlay this 
type of mapping very well, which I think gets directly to your 
question.

               MULTIPLE PLANS IN PLACE GUIDING DECISIONS

    Mr. Dicks. What about the plan, and the idea that you guys 
ought to have a strategy that is written out, not making it up 
each year on a year-by-year basis but there ought to be a 10-
year plan? What do you think of that?
    Mr. Kashdan. Well, actually, this is an area where I would 
have to bluntly take exception to the GAO's statement that we 
do not have a cohesive strategy. In fact, between DOI and 
Forest Service we have a collaborative approach to reducing 
wildland fire risks to communities, we have a protecting people 
and natural resources, a cohesive fuel strategy, we have a 10-
year comprehensive strategy that Ms. Christiansen talked about. 
When you see that overlay of the Recovery projects, that will 
clearly represent a strategy. So it may not say cohesive 
strategy but I would take exception to that.
    Mr. Dicks. Have you written that down?
    Mr. Kashdan. The first three items I mentioned are in 
writing and----
    Mr. Dicks. But have you put the label on it, this is our 
plan or you just got three elements?
    Mr. Kashdan. Well----
    Mr. Dicks. And any fool should know that is your plan but 
you have not told anybody.
    Mr. Kashdan. Well, I guess that is where I am taking some 
exceptions to the GAO finding. We do not have something called 
a cohesive strategy, so, therefore, it is implied we do not 
have a plan. And I think that is really misleading. We have the 
three items I just talked about that I would call plans that 
have been very----
    Mr. Dicks. Is that comprehensive enough?
    Mr. Kashdan. Pardon me?
    Mr. Dicks. Okay. Let us do this. Go through the three 
elements of the plan. Just describe them for me.
    Mr. Kashdan. Well, actually, they are, I think they are 
represented by the fact that, and I will answer your question 
directly here, but let me point out to the 29.1 million acres 
of hazardous fuels that we have jointly done, add to that 4,600 
communities' wildfire protection plans in place that we have 
done since these strategies have been in place, 580 stewardship 
contracts that directly relate to hazardous fuels, and what we 
are going to be doing under the American Recovery Reinvestment 
Act.
    So these plans, the collaborative approach for reducing 
wildland fire risks to communities, directly relates to our 
community wildfire protection plans that we have 4,600 of. The 
protecting people and natural resources, a cohesive fuel 
strategy directly relates to the strategies we are going to 
apply, that we have been applying to reducing hazardous fuels. 
So I guess I would come to the point we do have them.

                      BACKLOG OF FUELS TREATMENTS

    Mr. Dicks. But what is the backlog on hazardous fuels? It 
has got to be huge.
    Mr. Kashdan. It is huge.
    Mr. Dicks. I mean, would 29 million or 21 million, that 
would be less than one-tenth of 1 percent or----
    Mr. Kashdan. No. The current data, and let me just ask the 
staff to correct me if I say this wrong. The current data is 
that the Forest Service has 80 million acres of backlog 
hazardous fuels treatment.
    Mr. Dicks. Well, that is not bad.
    Mr. Kashdan. And that is----
    Mr. Dicks. Eighty million.
    Mr. Kashdan [continuing]. Some of our highest----
    Mr. Dicks. Pam, do you happen to know what your backlog is?
    Ms. Haze. I do not. I do not.
    Mr. Dicks. Anybody here, any of your backup people? Well, 
get us that number. We want to know that.
    How long would it take you to do 80 million?
    Mr. Kashdan. Well, it depends, of course, it depends on the 
allocations for hazardous fuels, and let me just say----
    Mr. Dicks. That is what I am saying. That is what I meant.
    Mr. Kashdan. Well, let us see. Between Forest Service and 
DOI I believe our number was 17 million of that 29 million was 
Forest Service, and that is what has been accomplished since 
2001. We are doing three million a year, so we have got a long 
way to go. That is 20 some years.
    Mr. Dicks. Thirty years.
    Mr. Simpson. Twenty-seven years.
    Mr. Dicks. Well, you have growth and----
    Mr. Kashdan. Thank you, Mr. Simpson.
    Mr. Dicks. So how much are we spending? How much does it 
cost us to do three million a year?
    Mr. Kashdan. Let us see. We did two million, 400 acres that 
we have got targeted here. I will come on this in just a second 
I am sure. We are going to do two million, 400 acres for $320 
million in 2010, and----
    Mr. Dicks. For how much?
    Mr. Kashdan. For $320 million.
    Mr. Dicks. Three hundred and twenty million dollars to do 
4,000 acres?
    Mr. Kashdan. Two million, four hundred thousand acres. 
Correct.
    Mr. Dicks. Two million, four hundred thousand.
    Ms. Haze. And in 2008, we did about 1.5 million acres for 
$200 million.
    Mr. Dicks. So it is expensive. Is the new Administration's 
budget going to be more substantial in this area?
    Mr. Kashdan. There are increases, some increases for the 
hazardous fuels budget, I believe. I would have to look at 
that.
    Mr. Dicks. So----
    Ms. Haze. Ours goes up----
    Mr. Kashdan. It might decrease.
    Ms. Haze [continuing]. A bit. His goes down a bit.
    Mr. Kashdan. Yeah.
    Mr. Dicks. Okay. Let us just take the 80 million acres. Of 
the 80 million acres, how many of those would be in areas that 
would be at the top of your list for fire potential?
    Mr. Kashdan. That is a good question, and if you do not 
mind, let me deviate back to the Recovery Act because----
    Mr. Dicks. Yes.

                    RECOVERY ACT AND FUELS REDUCTION

    Mr. Kashdan [continuing]. This actually directly gets at 
your point. The Recovery Act is all about jobs and mission. 
There is not a single discussion of acres in that, and what 
that has done for us has allowed us to concentrate in some of 
the most expensive, hazardous fuels arenas in the country and 
focus on jobs as opposed to acres. Now, that has major 
implications because it is really allowing us to take the 
absolute top priority acres without regard to cost where we can 
generate jobs in the biggest areas of unemployment, whereas in 
the regular program when it is about producing acres, you are 
tending to balance high cost, low cost in order to maximize the 
targets.
    And so this is hopefully a prototype for how we can address 
this in the future. So I would have to tell you that 2.4 
million acres is going to carry a balance of some of the 
highest, most expensive major fire danger areas also with a 
significant amount of maintenance acres as we call it. In other 
words, preserving condition class in order to prevent 
degradation but are also very inexpensive areas to treat.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. Do you know when the list from the stimulus 
package will be released?
    Mr. Kashdan. In the Forest Service case we are actually, 
this morning while I am here, the executive leadership is 
actually going through the proposed projects right now and will 
be referring those projects to the department imminently.
    So I would say that we are very, very close to approval on 
that. I mean, we have some reporting requirements here, of 
course, too, but to give you an exact date I would not know, 
but it is not far off. Let me put it that way.
    Mr. Simpson. Okay.
    Ms. Haze. And we are about 2 weeks away.
    Mr. Simpson. Okay.
    Ms. Haze. So the same timeline.
    Mr. Simpson. Eighty million acres in backlog. How often 
does it need to be redone to maintain a status? I mean if it 
takes 27 years to do this at the current appropriation, are we 
ever catching up on the backlog?
    Mr. Kashdan. Well, I would say that that really depends on 
the stand that we are talking about. You know, in the southeast 
the type of treatment you do to maintain a condition class is 
on a different cycle than what it might be in the northwest, 
and then, in fact, your seasonal ability to deal with those 
acres probably has a different window. So I would have to get 
that estimate for you based on analysis of the broad geography 
in the country.

                ARE LAWSUITS IMPACTING FUELS TREATMENTS?

    Mr. Simpson. How many of these projects are being held up 
because of lawsuits? And are there specific areas where they 
are being held up?
    Mr. Kashdan. No. I would say it depends on the activity, 
the degree of community support there is to address community 
protection principally and resource protection. If you just 
have your places around the country where there is a broader, 
more active groups, that might be opposing some of these 
projects.
    Mr. Simpson. I have heard that virtually every project in 
Montana has been held up by a lawsuit. Is that accurate?
    Mr. Kashdan. I do not know if that is the case. I would 
have to answer that for the record.
    Mr. Simpson. Okay. One other question. Almost everybody 
that talks about wildfires and the problems they are creating 
goes back to past management practices and fire suppression, et 
cetera, et cetera, et cetera, building up the fuels, all that 
kind of stuff.
    Then I see 98 percent are contained in the initial attack. 
What fires do we decide to let go, to let burn? How many of 
them do we let burn? How is that decision made? And on the one 
hand we are saying how can we control the cost of those 
wildfires, are we setting ourselves up down the road for more 
wildfires and greater wildfires by suppressing all the fires 
that occur, 98 percent of them at the initial attack and 
consequently not letting fire do what it naturally does, and 
that is reduce the fuel loads in the forest.

                        NEW FIRE ATTACK STRATEGY

    Mr. Kashdan. We in previous years have applied a term of 
wildland fire use fires, which had carried with it the 
terminology, let it burn. In the coming years we are either 
going to be working on fires as if they were planned or 
unplanned. Planned means we deliberately do the prescribed 
burns and unplanned includes those that were not started 
intentionally as part of a prescription.
    Mr. Simpson. Uh-huh.
    Mr. Kashdan. And those we will be applying different 
suppression strategies depending on the conditions. Now, 
obviously, in our current state where so much of our ecosystems 
are out of balance, not fire resistant, in unhealthy 
conditions, we are not going to do let it burn type approaches 
there. We are going to basically suppress every fire in the 
initial attack, and depending on the health of the land, we 
will be applying suppression strategies that are dictated by 
that condition should they escape initial attack.
    So we will have different postures of risk depending on how 
that land is characterized. And I have the data for wildland 
fire use that I can dig up here as we are going along.
    Mr. Simpson. Okay. Well, I appreciate that. It is a 
difficult----
    Mr. Dicks. Would the gentleman yield just----
    Mr. Simpson. Sure.
    Mr. Dicks. It is our understanding from staff that fire use 
is declared within 2 hours?
    Mr. Kashdan. Again, we are not going to be going into 2009, 
with a fire use concept. We are going to be basically----
    Mr. Dicks. Either planned or not planned.
    Mr. Kashdan. That is right, and we are going to be----
    Mr. Dicks. So every fire that starts out there you are 
going to suppress it?
    Mr. Kashdan. We are going to suppress it on initial attack.
    Mr. Dicks. Unless it was a planned fire.
    Mr. Kashdan. Yeah. If we started it deliberately as part of 
a prescribed burn, then we are going to follow that 
prescription. In the future if a fire is started, we are going 
to suppress it on initial attack, and if it escapes initial 
attack, then we are going to apply these strategies based on 
what is indicated in a good risk approach as to how much 
resources to apply based on resources at risk.
    Mr. Dicks. Have you ever had a situation in the past where 
you declared you are going to do this as a planned fire, and it 
becomes a megafire?
    Mr. Kashdan. Well, Mr. Chairman, I do not know if we have 
had these become megafires as we are laying out in this 
context. We clearly have had fires that have occurred through 
prescribed burning that exceeded our capacity to manage them as 
prescribed fires, and they did escape. We have also had 
instances in the history where you have wildland fire use where 
you are monitoring that wildland fire use fire to make sure it 
stays within prescription. When it goes out of prescription, 
then you bring suppression to it, and we have had some of those 
exceed that wildland fire use prescription on occasion. It is 
not a regular occurrence, but it has happened.

                     SOME FIRES CANNOT BE SUPRESSED

    Mr. Dicks. I was hoping Mr. Simpson would ask the question 
since he has the center over there that here you have stopped 
98 percent of them. Why cannot you stop the other 2?
    Mr. Simpson. Apparently he just asked the question.
    Mr. Kashdan. It is one of those aspects of how much do you 
spend to achieve perfection, if you will. You know, to get that 
final 2 percent would probably be a massive increase. That is 
total bulletproof----
    Mr. Dicks. Explain that. Why is that?
    Mr. Kashdan. Well, some fires are going to start in these 
locations at times of the year that if you do not get it 
instantly, it is such a rapid expansion----
    Mr. Dicks. There is really no way to do it. Right? Are you 
basically saying that the last 2 percent are not stoppable?
    Mr. Kashdan. It is probably unattainable.
    Mr. Dicks. Yes.
    Mr. Kashdan. That is a fair way of putting it.
    Mr. Simpson. You know, I am really caught up between this--
I do not like to see things burn down, but knowing that things 
do burn down and it is a necessary part of nature and I wonder 
about our whole policy, if it is wise in terms of what we are 
doing, because it seems like we are doing more of what we did 
in the past.
    And we are going to end up with more and more fuels on the 
ground. I do not have to tell you but I can take you in forests 
in Idaho that if a lightning strike hits it tomorrow, it is 
gone. We could do some things to reduce the fuels and that kind 
of stuff but there would be lawsuits against it, and you would 
probably never get it done, and probably the only way you are 
going to reduce those fuels is when a fire starts, and people 
are going to be upset that a fire started. And the same thing 
happened in Yellowstone. Everybody was so upset when they saw 
fires approaching Yellowstone Lodge, they kind of went berserk, 
but that was the policy at the time.

                            BENEFITS OF FIRE

    I can tell you if you go back to Yellowstone today, people 
will say that is the best thing that happened in Yellowstone 
because there is more wildlife, the new trees coming up and all 
that kind of stuff, but it was ugly for awhile. We have a 
tendency to criticize our practices when the fire is coming at 
our house and not understand that some of this stuff is 
natural.
    And I think we have got to have a better strategy in terms 
of what we let burn, because some of these forests have got to 
burn, quite frankly. It is healthy for the forest in the long 
run, and it is the only way to reduce. You know, we sit here in 
this committee, and we kind of talk about fuels reduction, and 
you can do fuels reduction around communities and that type of 
stuff, but when you talk about trying to reduce fuels in the 
forest out there that go for as far as the eye can see, you are 
not going to do it. There is not enough money in this country 
to do it, although this Administration would try to do that.
    I am just saying that for you, Mr. Chairman. I just thought 
I would throw that out there.
    Mr. Dicks. We are going to get this economy turned around 
one way or the other.
    Mr. Simpson. Anyway, in closing let us just say that I want 
to tell you in all honesty that I have met some of the most 
dedicated employees in our Federal Government in the Forest 
Service and particularly in the firefighting area when I have 
gone on these fires. They are truly magnificent employees who 
do a tremendous job, and I want to compliment both DOI and the 
Forest Service on their employees and the work they do out 
there, and it is sometimes an almost impossible job because 
there are Monday morning quarterbacks on every corner, 
including me and all of us here in Congress. But they do a 
fantastic job, and I hope you get that message out to them.
    Mr. Kashdan. Thank you very much, Mr. Simpson. Appreciate 
that.
    Mr. Dicks. Mr. Cole.

              RESPONDING TO MULTI-JURISDICTIONAL INCIDENTS

    Mr. Cole. Thank you, Mr. Chairman, and thank both of you 
for your testimony.
    I want to change the focus and ask about another area a 
little bit if I may. We do not have in our part of the country 
a lot of land within the Forestry Service or DOI, but we have 
terrific wildfires, usually grass fires that will go over--in 
2006, we lost over 300,000 acres, and my district lost most of 
that.
    And we certainly used your assets liberally. I mean, the 
process for us is normally going to FEMA, you know, when it 
just overwhelms local people and all the sudden, you know, 
maybe your tanker fleet will show up or some of your people 
will show up.
    So I am curious about how that process works when FEMA more 
or less borrows your assets and shifts them into areas that are 
largely privately owned. How much notification do you get, how 
much burden does that place on your resources? Do you have 
enough to do that? I mean, what happens when you have got this 
going really outside your area in Texas or Oklahoma, Texas has 
the some problems that year, and maybe something else happens 
that is actually in Forest Service managed land.
    How do you make those kinds of choices?
    Ms. Haze. You take that one.
    Mr. Kashdan. Yeah. Mr. Cole, it is a good question, and 
actually a lot of this is seasonally based, you know. Pam 
mentioned that we have resources that were called upon to go to 
Australia. It is very fortunate that Australia is in a 
different hemisphere, and it actually facilitates that ability.
    You know, when Katrina hit, that hit in August, and 
honestly we were worried about what you would call a perfect 
storm in the sense of availability of resources. We were able 
to support Katrina extensively, both DOI and Forest Service, 
and it was very fortunate that we were having a down fire 
season time at that point in time, and I think it was probably 
one of those years where we did not exceed the 10-year average.
    We have advanced pre-season agreements with FEMA for 
specific emergency support functions. The Forest Service has a 
lead in some, DOI has a lead in some, and there is always the 
inquiry about our capacity to support based on when this 
national emergency is occurring. We have a very limited number 
of people, as an example, up in North Dakota right now with 
flooding, and we are easily able to provide that now. If this 
were September or August, that might be a different matter.
    So among the Federal Government these resources are 
balanced in terms of capacity to provide support.
    Mr. Cole. How are you compensated when something like that 
happens? I mean, obviously you were using fuel in airplanes, 
were using people, what have you. Does FEMA just effectively 
pick up the costs of that for you or----
    Mr. Kashdan. With the Presidential declaration we are 
basically reimbursed by FEMA for all costs except for the base 
aid fixed cost. In other words, the eight hours that I might 
have that I an already planned to be paid. FEMA would not 
reimburse us for that. Other than that we bill, we provide an 
invoice to FEMA and go through an intensive audit process and 
then a reimbursement.
    Mr. Cole. Thank you very much.

                         AGING USFS AIR TANKERS

    Mr. Simpson. Mr. Chairman. Could I ask one question?
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. Tankers that Ed asked about earlier. How many 
tankers are we going to have available and----
    Mr. Kashdan. We will be bringing----
    Mr. Simpson [continuing]. Do we need more?
    Mr. Kashdan [continuing]. Actually, I am looking at this. 
It is different data than I have. We are going to be bringing 
up to 20 large air tankers this season. Now, that is a 
consistent number. We are going to have to struggle to get to 
that. These are aging tankers, over 50 years old, that will 
have to pass some very detailed integrity----
    Mr. Simpson. They had to ground them not too long ago. 
Right?
    Mr. Kashdan. Correct. And we are intending to be able to 
bring up to 20 this year.
    Mr. Simpson. We need to replace those at some point in 
time.
    Mr. Kashdan. Correct.
    Mr. Simpson. Is the Forest Service, do they have a plan to 
replace those?
    Mr. Kashdan. We have submitted an aviation strategic plan 
to OMB. That has not been approved, and it carries a variety of 
alternatives from acquisition of large air tankers ourselves 
that would then be run contract, all the way over to other 
options such as increased or majority of reliance on Air 
National Guard MAF units, Mobile Air Frames, that they put into 
C-130s or a greater reliance on large type one helicopters and 
a less reliance on large fixed wing air tankers.
    And these all have advantages and disadvantages. Large air 
tankers can deliver a long district, fixed wing helicopters 
have to be closer to the scene. If they are closer to the 
scene, they are more effective in the rotation to deliver 
retardant.
    So that aviation strategic plan is with OMB. It has not 
been approved, and it covers a range of alternatives.
    Mr. Simpson. Any idea when OMB will send it back and make 
changes and send it back and back and forth?
    Ms. Haze. Can you predict?
    Mr. Kashdan. Yeah. That is going to be hard to predict. We 
have a lot of dialogue on that aviation strategic plan.
    Mr. Simpson. Okay. Well, keep the committee informed 
because it is obviously something that we are going to have to 
deal with in terms of budgetary issues and stuff.
    Appreciate it. Thank you.
    Mr. Dicks. You talked a lot about the problem of megafires. 
Can you give us some examples of some fires which have had 
extreme impacts and costs?

                    LARGE FIRES AND DECISION SUPPORT

    Mr. Kashdan. The most recent one that immediately comes to 
mind, I believe it was called the Basin Fire, and it also was 
called the Indian Fire, and the two were joined up. It was 
between Santa Barbara and the San Francisco Bay Area on the Los 
Padres, and it was one of those that started very small, 
expanded very rapidly, and had some tremendous involvement with 
Cal Fire and local communities in terms of the expectations for 
suppression techniques. And that is one of those where we want 
to be prototyping this type of analysis, too, because that is 
where you would be making decisions about firefighter safety, 
the correct application of resources with the high probability 
of success.
    Here you are in California and see this fire expanding 
rapidly, and there is some major expectations for prompt, 
aggressive action, and the reality is if we are really going to 
address costs, we are going to have to share the risk with the 
incident commander all the way up to the chief of the Forest 
Service, and decide what the most prudent measure is.
    So that is the most recent one at appeared in 2008.
    Mr. Dicks. How long does that take to do?
    Mr. Kashdan. You mean the, ``sharing the risk'' if you 
will?
    Mr. Dicks. Yes. I mean, working out this agreement.
    Mr. Kashdan. Well, with work through our research 
organization and our interagency fire experts, basically we are 
developing a wildfire decision support tool that will be 
bringing instantly to bear, we will be prototyping it in these 
areas, and hopefully it will allow us to inform the appropriate 
line officer right from the instant commander or the forest 
supervisor or the regional forester, depending on how large it 
is.
    When these fires are going, the communication is absolutely 
constant. We are working with NIFC in Boise there to get this 
information, and we will be making decisions jointly, I mean, 
hour by hour.

               BUILDING AN ECONOMY FOR FOREST RESTORATION

    Mr. Dicks. You know, you have had a lot of experience. If 
you had unlimited funds, what would you do? What would be the 
things you would do to try to minimize the risk here to do in 
advance so that you could contain the costs? Better contain the 
costs.
    Mr. Kashdan. Mr. Chairman, I say the clear, straightforward 
answer to that is address the health of the land, and that is--
--
    Mr. Dicks. That is number one priority?
    Mr. Kashdan. Absolutely. And you saw how excited I got 
about the Recovery Act, and that linkage is just an ideal way 
to do that. That is absolutely number one. If funds were truly 
unlimited, we would be working on restoring forest health and 
creating alternative energy industries so that people are 
wanting the material as opposed to us having to subsidize the 
material. And I think that is hopefully our future.
    Mr. Dicks. So talking about a funding source, there is your 
funding source. You do the thinning, you do the adaptive 
management, and then you take that, you gather that and use it 
for fuel to create electricity.
    Mr. Kashdan. And the science would indicate we are just on 
the edge of doing that right now. I mean, we are doing co-gen.
    Mr. Dicks. Collecting the material is what I am told. We 
have a mill in Gray's Harbor. He says I can go out so far, and 
it is economic. But if I go further than that, it becomes 
uneconomic.
    Ms. Haze. It is the transportation.
    Mr. Dicks. It is the transportation of getting this stuff 
gathered and brought back to the mill.
    Mr. Simpson.
    Mr. Simpson. Is it a net green project? I mean, you know, 
burning wood puts carbon in the air.
    Mr. Kashdan. Well, yeah. Mr. Simpson, basically we would 
choose co-gen or wood ethanol any day over burning, and that is 
what gets us excited about this opportunity of wood for energy, 
and if we are able to get that industry going, you have got a 
situation where we are not burning it. We are moving it to a 
place where if it is co-gened, at least it is done with a very 
clean burn. Or if it is turned to ethanol, you have got a whole 
different process.
    Mr. Simpson. We are going to kill all those oxygen-
producing plants out there. I am just kidding.
    Mr. Kashdan. We will focus on the dead material first.

                FIRE SUPPRESSION AND COST ACCOUNTABILITY

    Mr. Dicks. Fire suppression accountability is always a 
question when expenditures are so great. During the last 
Administration, please summarize some of the cost 
accountability efforts you underwent and explain if these are 
saving any money.
    Mr. Simpson. This is a positive question.
    Mr. Kashdan. Mr. Chairman, first off, this we think has 
major, major potential for addressing fire costs. Some other 
aspects are more national management of major cost centers such 
as aviation resources is just key to reducing costs and that is 
to maintain a national control over large aviation resources. 
In other words, allocating them to a fire but intending to pull 
them back and reallocating elsewhere as opposed to past 
practice of viewing that once they are there, they are there, 
and then you have to create additional resources. You either go 
into the military or otherwise.
    I would say that type of management of national resources 
plus prudent risk management in terms of suppression techniques 
is really key. Really, frankly, the cost centers are not about 
whether you are serving steak or hamburgers in the fire camp. 
It is these things that we are talking about where the major 
cost issues are.
    Ms. Haze. And then we put business managers on the fires to 
help contain costs as well.

                         COST SHARE AGREEMENTS

    Mr. Dicks. One of the hallmarks of the wildfire effort is 
the close cooperation the federal and State governments have on 
field activities. Yet is it not clear that State and local 
governments are paying their fair share to the wildland fire 
suppression costs, since a major cost driver is protecting 
communities and private property.
    Please tell us how the federal and State governments work 
out cost agreements for suppression, and explain your views on 
whether or not there is equity here.
    Mr. Kashdan. Mr. Chairman, the aspect of sharing costs is 
one that I think would be very effective to deal with if we 
embarked down that road as a national interagency effort with 
the full support of the Administration. A standardized cost-
share agreement is certainly a very valuable document in 
setting up how we might share costs with States and other local 
authorities.
    In the past we have not had that mandate to do this as an 
interagency Administration-wide effort, and in the absence of 
that I suspect what we are going to continue to do is what we 
have done in the past, and that is individual State agreements, 
a lot of the costs negotiated at the time of the incident under 
the pressure of facing the suppression effort. And if we are 
going to accurately share costs, we are going to have to do it 
well in advance, and it is something that is going to take a 
national effort, not just a single agency effort.
    Mr. Dicks. How would you rate the cooperation with the 
locals? Does that need to be continually worked on, or how do 
you see that with the State officials and the local 
governments?
    Mr. Kashdan. I think our cooperation is excellent. I think 
it depends to some degree on where you are. You know, in 
southern California, as an example, we could not operate 
without well-designed, advanced plans for population 
management, evacuation, shared resources, combined command and 
control, as opposed to other areas where you do not have the 
fire frequency that would tend to drive the need to have some 
of these agreements in advance.
    So it really depends on the geography and the location.
    Mr. Dicks. Okay. Mr. Simpson.
    Mr. Simpson. You know, I will tell you that part of the 
problem is a lot of these agreements need to be worked out in 
advance, but as you said, there is not the pressure to do so 
until a fire occurs. In the Castle Rock Fire out by the Sun 
Valley in Blaine County, I think there is still some dispute 
about who owes what, the county is supposed to, I think have 
been billed for like $1 million, which they, quite frankly, do 
not have.
    But when I went over there into about the 11th or 12th day 
of the fire, the State had not applied for an FMAG grant, the 
county did not know one was available to assist them, but they 
had called fire engines from all over the State to help protect 
the communities because the Forest Service had essentially 
changed policies earlier that year in terms of protecting 
private structures.
    And does the Forest Service provide, protect private 
structures now?

                  STRUCTURE PROTECTION AND COST SHARE

    Mr. Kashdan. The Forest Service's position on structure 
protection is essentially this. We are committed to taking 
suppression action necessary to prevent the fire to getting to 
structures. We do not do suppression inside the structure or on 
the structure. Our commitment is to provide suppression up to 
the structure.
    Mr. Simpson. So that is going to come out of----
    Mr. Kashdan. I think our skills and training is just not 
there.
    Mr. Simpson. So that is going to come essentially down to 
the State or local government to pay for that, even if the fire 
starts on federal land?
    Mr. Kashdan. I am sorry. I was answering that from the 
standpoint of how we respond to suppress. I was not answering 
that from the cost-sharing standpoint. That is something that 
you would have to be agreeing on as part of that individual 
fire and the cost-sharing agreement we would work out at the 
time.
    Mr. Simpson. Will those agreements be different between 
different states or different communities, different areas? Is 
there any standardization of this? I mean, it seems to me like 
if you are going to be, if you are going to have a cost-sharing 
agreement where, I will throw out an example. If a fire starts 
on federal land and endangers private property, and you have 
worked out a cost-sharing agreement when you will pay for the 
cost of protecting that structure in this case, then it seems 
it ought to be the same in other areas.
    So is there--do we need to standardize this to some degree?
    Mr. Kashdan. Mr. Simpson, that has been an Administration 
position in the past in terms of moving to standardize 
agreements nationwide. It has not been as part of the 
Administration-wide effort. It has been something frankly we 
have been directed to do at the Forest Service, and it needs to 
be more than that. It needs to be combined DOI, Forest 
Service----
    Mr. Simpson. Right.
    Mr. Kashdan [continuing]. And Administration, and I think 
you would find us making headway there. It is clearly 
inconsistent at this point in time.
    Mr. Simpson. Okay. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. No questions.

                      CLIMATE CHANGE AND WILDFIRE

    Mr. Dicks. Well, this is still a very major concern of the 
committee, and you know, we know you are working on it. You 
know, the other thing I would say, I just had a briefing this 
weekend from the climate change group at the University of 
Washington, and there is no doubt in my mind that over the next 
20 years western Washington will become more prone to fire. 
With this climate change and warming that is occurring, you are 
going to have areas that normally have not had a lot of fires 
but are going to be moving up the list for potential areas of 
concern.
    So I think this climate change issue is going to, you know, 
nationwide it is going to make our problems worse, not better. 
Do you have any comment on that?
    Mr. Kashdan. I think all the data and analysis would 
support what you just said. Fire seasons longer, snow pack 
less, temperatures more. It leads to the conclusion that we 
have got much greater vulnerability.
    Mr. Dicks. So then to adapt to that, you almost have to do 
this forest health work that we have been doing very slowly. It 
seems to me we have no choice but to move that up in 
importance, and you know, the old line, ``pay me now or pay me 
later.'' I mean, either you do the right thing up front or you 
wait and then have these catastrophic fires, and there are 
going to be more of them and bigger. And so you wind up with 
these huge costs at the end of the game.
    So I think we are going to have to have the courage to step 
up to the plate and try to get this--instead of doing it over 
27 years, maybe we do it over 15 years. But just put up the 
money to do it and see if it works.
    Mr. Simpson. Well, and some of the question is some of the 
stuff changes naturally. There were glaciers covering North 
America. There were not any trees, there were not any forests. 
And as those glaciers receded, the forests have changed as the 
climate and the earth conditions have changed over the years.
    Voice. That took thousands of years.
    Mr. Dicks. What I am talking about the University of 
Washington climate change group says you are going to see a 
major difference between now and 2020, between now and 2050, 
and between now and 2080.
    Mr. Simpson. Well, I hope----
    Mr. Dicks. I mean, this climate issue is going to get 
worse, and warming is going to occur, and you are going to have 
all these impacts on the environment.
    Mr. Simpson. And I know that there are a lot of people 
that----
    Mr. Dicks. That is the next----
    Mr. Simpson [continuing]. Suggest that.
    Mr. Dicks [continuing]. 100 years.
    Mr. Simpson. There are a lot of people that suggest that, 
and there are a lot of people that have different opinions 
about that, too. It is not a founded science----
    Mr. Dicks. Well, unfortunately, the science is for----
    Mr. Simpson. No. No, that is not true. That is absolutely 
not true. The fact is is that there are differences of opinion 
about how rapidly it is changing, how naturally it is changing, 
how much manmade causes of this are, and how much man can do to 
affect changes on it.
    Mr. Dicks. The thing that was interesting----
    Mr. Simpson. And the question is that to use this all as 
scare tactics that we have got to change the world and the way 
we operate because things are going to change in the next 20 
years, I do not think that is going to happen----
    Mr. Dicks. We have just had 20 years----
    Mr. Simpson [continuing]. Quite frankly.
    Mr. Dicks [continuing]. Of evidence of this occurring.
    Mr. Simpson. No, we have not.
    Mr. Dicks. Yes, we have. Between 1990, and 2009----
    Mr. Simpson. See, we do not even agree.
    Mr. Dicks [continuing]. You have seen the cost of this go 
up dramatically, the fires are more severe. I mean----
    Mr. Simpson. The worst fires in Idaho and in fact, in the 
Nation were in 1910.
    Mr. Dicks. Well----
    Mr. Simpson. We had automobiles then.
    Mr. Dicks [continuing]. You can have----
    Mr. Simpson. You know what I mean?
    Mr. Dicks. That may be because they did not do the forest 
health work.

                  TOO MUCH EMPHASIS ON CLIMATE CHANGE?

    Mr. Simpson. I guess my only question is since we have to 
adjourn the meeting probably before too long is that we use 
climate change, if you remember after 9/11, everybody that came 
into my office that wanted anything said we have got to do this 
for homeland security reasons. If they wanted to grow corn in 
Iowa, we did it for national security reasons. Now whenever 
anybody comes into the office, the key words are, green climate 
change.
    And whatever we do it has got to address climate change. 
Congress has a tendency. We overreact to almost everything. We 
act too late and then we overreact. And I do not think we 
should use these things as scare tactics. I will tell you that, 
yes, we should do whatever we can to reduce the human impact of 
climate change. But that does not meant that everything that we 
do is wrong or that we are going to have a large impact on it.
    Mr. Dicks. All I am telling you is that the best scientists 
that we have in the State of Washington----
    Mr. Simpson. Your best scientists.
    Mr. Dicks [continuing]. At the University of Washington are 
saying that they are using a very conservative approach. They 
are not saying worst case. They are trying to make it 
reasonable so that they will not scare the hell out of people. 
You know, but the reality is the science is there.
    Mr. Simpson. And I can tell you that this year, last 
weekend, members went up on a submarine under the polar pack, 
under the ice pack.
    Mr. Dicks. I have done that.
    Mr. Simpson. And they came out, and you know what the guys 
told them there?
    Mr. Dicks. What?
    Mr. Simpson. That last year this was open ocean.
    Mr. Dicks. Yeah.
    Mr. Simpson. And today it is nothing but ice.
    Mr. Dicks. There will be 1 or 2 years--you have to look at 
the trend.
    Mr. Simpson. And there are long-term variations, too.
    Mr. Dicks. The long-term trends. And I do not think we are 
going to resolve this here today.
    Mr. Simpson. No, we are not.
    Mr. Dicks. But as far as I am concerned, speaking only for 
myself, I think this is going to make this problem worse. And I 
think all the credible science is clearly there.
    So we are adjourned until tomorrow.

    [GRAPHIC] [TIFF OMITTED] T2296A.134
    
    [GRAPHIC] [TIFF OMITTED] T2296A.135
    
    [GRAPHIC] [TIFF OMITTED] T2296A.136
    
    [GRAPHIC] [TIFF OMITTED] T2296A.137
    
    [GRAPHIC] [TIFF OMITTED] T2296A.138
    
    [GRAPHIC] [TIFF OMITTED] T2296A.139
    
    [GRAPHIC] [TIFF OMITTED] T2296A.140
    
    [GRAPHIC] [TIFF OMITTED] T2296A.141
    
    [GRAPHIC] [TIFF OMITTED] T2296A.142
    
    [GRAPHIC] [TIFF OMITTED] T2296A.143
    
    [GRAPHIC] [TIFF OMITTED] T2296A.144
    
    [GRAPHIC] [TIFF OMITTED] T2296A.145
    
    [GRAPHIC] [TIFF OMITTED] T2296A.146
    
    [GRAPHIC] [TIFF OMITTED] T2296A.147
    
    [GRAPHIC] [TIFF OMITTED] T2296A.148
    
    [GRAPHIC] [TIFF OMITTED] T2296A.149
    
    [GRAPHIC] [TIFF OMITTED] T2296A.150
    
    [GRAPHIC] [TIFF OMITTED] T2296A.151
    
    [GRAPHIC] [TIFF OMITTED] T2296A.152
    
    [GRAPHIC] [TIFF OMITTED] T2296A.153
    
    [GRAPHIC] [TIFF OMITTED] T2296A.154
    
    [GRAPHIC] [TIFF OMITTED] T2296A.155
    
    [GRAPHIC] [TIFF OMITTED] T2296A.156
    
    [GRAPHIC] [TIFF OMITTED] T2296A.157
    
    [GRAPHIC] [TIFF OMITTED] T2296A.158
    
    [GRAPHIC] [TIFF OMITTED] T2296A.159
    
    [GRAPHIC] [TIFF OMITTED] T2296A.160
    
    [GRAPHIC] [TIFF OMITTED] T2296A.161
    
    [GRAPHIC] [TIFF OMITTED] T2296A.162
    
    [GRAPHIC] [TIFF OMITTED] T2296A.163
    
    [GRAPHIC] [TIFF OMITTED] T2296A.164
    
    [GRAPHIC] [TIFF OMITTED] T2296A.165
    
    [GRAPHIC] [TIFF OMITTED] T2296A.166
    
    [GRAPHIC] [TIFF OMITTED] T2296A.167
    
    [GRAPHIC] [TIFF OMITTED] T2296A.168
    
    [GRAPHIC] [TIFF OMITTED] T2296A.169
    
    [GRAPHIC] [TIFF OMITTED] T2296A.170
    
    [GRAPHIC] [TIFF OMITTED] T2296A.171
    
    [GRAPHIC] [TIFF OMITTED] T2296A.172
    
    [GRAPHIC] [TIFF OMITTED] T2296A.173
    
    [GRAPHIC] [TIFF OMITTED] T2296A.174
    
    [GRAPHIC] [TIFF OMITTED] T2296A.175
    
    [GRAPHIC] [TIFF OMITTED] T2296A.176
    
    [GRAPHIC] [TIFF OMITTED] T2296A.183
    
    [GRAPHIC] [TIFF OMITTED] T2296A.184
    
    [GRAPHIC] [TIFF OMITTED] T2296A.177
    
    [GRAPHIC] [TIFF OMITTED] T2296A.178
    
    [GRAPHIC] [TIFF OMITTED] T2296A.179
    
    [GRAPHIC] [TIFF OMITTED] T2296A.180
    
    [GRAPHIC] [TIFF OMITTED] T2296A.181
    
    [GRAPHIC] [TIFF OMITTED] T2296A.182
    
                                           Thursday, April 2, 2009.

          OVERSIGHT HEARING ON THE MINERALS MANAGEMENT SERVICE

                               WITNESSES

FRANK RUSCO, DIRECTOR OF NATURAL RESOURCES AND ENVIRONMENT, GOVERNMENT 
    ACCOUNTABILITY OFFICE
MARY KENDALL, ACTING INSPECTOR GENERAL, DEPARTMENT OF THE INTERIOR
WALTER CRUICKSHANK, ACTING DIRECTOR, MINERALS MANAGEMENT SERVICE

                      Opening Statement: Mr. Dicks

    Mr. Dicks. This afternoon we are focusing on issues 
concerning the Minerals Management Service. The Minerals 
Management Service, or MMS, has responsibility for managing 
this country's offshore energy resources as well as collecting 
and distributing the annual revenues generated by energy 
production on all federal and Indian lands. The MMS manages 1.7 
billion acres of the outer continental shelf which is believed 
to contain 60 percent of the Nation's remaining undiscovered, 
technically recoverable oil and 40 percent of the Nation's 
undiscovered, technically recoverable natural gas resources.
    Additionally, the MMS has responsibility for renewable 
energy development on the OCS including wind, wave and tidal 
power. The MMS is charged with collecting, verifying and 
disbursing all oil and gas revenues on federal lands and 
waters. In 2008, the MMS collected $23.4 billion in revenue 
from the sale of oil and gas for the U.S. Treasury.
    The MMS has an annual budget of $304 million for fiscal 
year 2009, approximately half of which is appropriated by this 
Subcommittee and half of which comes from receipts and cost 
recovery.
    The Office of Inspector General, Government Accountability 
Office, and the Royalty Policy Committee, which is a federal 
advisory committee established by Secretary Kempthorne charged 
with reviewing mineral revenue collection practices, have 
outlined over 150 specific recommendations for the MMS to take 
to ensure better stewardship of our Nation's oil and gas 
resources. Among the most concerning problems were ethical 
lapses with MMS personnel in key policy and management 
positions, problems with MMS processes designed to ensure that 
companies are complying with production and payment 
requirements, issues determining the value of royalty-in-kind 
payments, problems in ensuring that companies are exercising 
due diligence in developing production on current leases, and 
lack of inspection and insufficient data tracking to ensure 
that the full value is received for oil and gas.
    We realize that the MMS is moving forward in addressing the 
many recommendations made in the numerous audits and reports. I 
would also like to acknowledge that despite the ethical lapses 
of the few employees formerly associated with the Royalty-in-
Kind Office in Denver, the vast majority of MMS employees are 
hardworking public servants who are dedicated to managing our 
federal mineral resources. However, we must take a serious look 
at the issues that have been raised and ensure that we are 
moving forward and protecting the American people's energy 
resources.
    While some of the audit and management reports also address 
the Bureau of Land Management, and in some cases the Bureau of 
Indian Affairs, today our hearing will focus on the MMS. The 
hearing will consist of two parts. First we will hear from Mary 
Kendall, Acting Inspector General of the Department of 
Interior, and Frank Rusco, Director, Natural Resource and 
Environment Division of the Government Accountability Office. 
They will be followed by Walter Cruickshank, Deputy Director of 
the Mineral Management Service.
    The OIG and the GAO have done extensive investigations into 
activities of the MMS and uncovered many serious problems. I 
would like to have the first two witnesses educate us on their 
findings with an emphasis on how we can work to move the MMS 
forward in a productive way. I would then like to have Mr. 
Cruickshank come to the table and update us on the progress the 
MMS is making in responding to the recommendations.
    I would now turn to Mr. Simpson for his opening remarks.

                     Opening Statement: Mr. Simpson

    Mr. Simpson. I want to thank Chairman Dicks in welcoming 
today's witnesses. I am hoping that once we complete these 
valuable oversight hearings and once the Administration submits 
its budget for the next fiscal year, the Chairman will also 
have an extensive round of budget hearings before we mark up 
our bill.
    The Mineral Management Service performs an important 
service and is to be commended for its significant 
contributions in managing our domestic energy and mineral 
resources. The intent of today's oversight hearing is not to 
criticize MMS but to offer thoughtful ideas to improve its 
performance so that all of us together can work more 
efficiently toward meeting our country's future energy needs.
    I think every member around this table would agree that 
securing America's energy independence is a worthy goal. There 
is no argument there. The quarrel begins when we begin 
designing the roadmap taking us from here to there. Some of my 
friends believe the future lies in promoting renewable energy, 
solar, wind, geothermal and other sources, and some of my 
friends believe that our energy future lies beneath our public 
lands and off our shores. Because I do not like to disagree 
with any of my friends, I think they both are right.
    Like many things in life, securing our energy future lies 
in striving for balance. Proven and emerging technologies and 
renewables ought to be explored and developed, but we cannot 
become energy independent through renewable energy sources 
alone. We must also carefully develop onshore and offshore 
energy sources ensuring that we take every necessary step to 
protect the environmentally sensitive areas. To dismiss known 
abundant sources of oil and natural gas from the domestic 
energy equation is shortsighted and unwise. We can make giant 
strides toward energy independence by seeking common ground. I 
stand ready to work with Chairman Dicks toward this end and 
look forward to our discussions today. Thank you, Mr. Chairman.

                      Statement of Mr. Rusco, GAO

    Mr. Dicks. Mr. Rusco, why do you not start?
    Mr. Rusco. All right. Thank you. Chairman Dicks, Ranking 
Member Simpson, and members of the Subcommittee, I am pleased 
to be here to discuss GAO's recent work on oil and natural gas 
resource management and revenue collection by the Department of 
the Interior.
    As you know, Interior's BLM and MMS oversee onshore and 
offshore oil and gas leases on federal lands and waters 
respectively. MMS is charged with collecting royalties and 
other revenue accruing to the Federal Government for all such 
leases.
    In the past several years, GAO, Interior's Inspector 
General and Interior's Royalty Policy Committee have evaluated 
many of Interior's programs and activities surrounding 
management of federal oil and gas leases and have found 
numerous deficiencies that Interior is currently attempting to 
address.
    Today I will discuss a number of the most significant 
deficiencies GAO has found and then discuss what remains to be 
done to bring Interior's programs and activities into accord 
with changes in the oil and gas industry.
    First, with respect to the collection of federal oil and 
gas revenue, we found many problems with data quality, 
inspection practices and audit procedures that raise serious 
doubts about Interior's ability to provide reasonable assurance 
that it is collecting the revenue due the Federal Government. 
For example, MMS relied too heavily on self-reported royalty 
and production data and does not use available third-party data 
to the extent it should.
    For example, companies that owe royalties to the Federal 
Government essentially tell MMS what they owe and enter this 
information themselves into MMS's information system. MMS lacks 
the processes and information to systematically and effectively 
verify that this self-reported information is accurate. 
Further, these companies are allowed to make changes to the 
information provided for up to 6 years without even informing 
MMS and without explaining why these changes were made or what 
effect the changes have on royalties paid.
    MMS's approach to collecting royalties would be analogous 
to the IRS asking taxpayers to state how much taxes they owed 
but not cross-referencing this to W-2's, 1099's and other 
third-party sources of data.
    In addition, GAO has found many instances of erroneous data 
that have been entered by royalty payers and that had not yet 
been identified and corrected by MMS.
    With respect to the Royalty-in-Kind Program, we have found 
deficiencies in the way MMS calculates and reports the claimed 
financial benefits of the program, and in addition we have 
found problems with the way that MMS and DoE coordinate to 
transfer oil from the Royalty-in-Kind Program to DoE which in 
turn trades this oil for oil to fill the Nation's strategic 
petroleum reserve. The lack of effective coordination, 
oversight and internal controls in this latter process raise 
serious questions about the efficiency and cost of both the 
Royalty-in-Kind Program run by MMS and the management of the 
strategic petroleum reserve by DoE.
    Further, we have found problems with the ways in which both 
MMS offshore and BLM onshore have managed oil and gas 
production verification which raise questions about even the 
accuracy of how much oil and gas is being produced on federal 
leases. For example, we found that the Royalty-in-Kind Program 
of MMS does not resolve discrepancies between gas volumes 
reported to MMS and volumes that pipelines say they received 
from federal leaseholders.
    With respect to onshore leases, BLM has not been able to 
hire and retain enough trained personnel to even keep up with 
the statutory and regulatory requirements for inspecting oil 
and gas meters, for doing work to evaluate and improve 
applications to drill and develop federal leases in a timely 
fashion and provide appropriate oversight over environmental 
mitigation.
    With regard to managing federal oil and gas leases, 
Interior is not using the full range of tools that other oil 
and gas resource owners use to manage the development of oil 
and gas leases. For example, some of the resource owners 
aggressively encourage or incentivize speedier development of 
promising oil and gas prospects while allowing more time to 
develop more speculative properties.
    In contrast, in determining the terms of leases, Interior 
generally does not consider the likelihood that leaseholders 
will find oil and gas despite the frequent availability of 
information that could be used for this purpose. In addition, 
BLM and MMS practices for choosing which properties to lease 
and when to offer them for lease differ in ways that are not 
obviously the result of reasoned decision-making.
    For example, MMS makes an estimate of the value of the 
leases it sells at auction and does not award leases unless the 
auction price offered exceeds a reasonable, acceptable level 
based on this expected value. On the other hand, BLM makes no 
estimate of the value of leases it sells at auction and 
therefore has no minimal acceptable bid. Further, if bidders 
fail to offer MMS's minimal acceptable bid or more, MMS pulls 
the lease off the market and may sell it at a later date. On 
the other hand, BLM will sell any lease to the highest bidder 
at any positive price, and if it receives no bids at all on a 
lease offer, it will offer the lease the next day for an 
administrative fee to the first comer.
    These differences in approach may contribute to the fact 
that onshore leases are far less likely to be drilled or 
developed than are offshore leases, although other reasons for 
these different rates of development exist. These other reasons 
include the fact that with few exceptions, most of the 
significant oil plays on shore have already been developed 
while many areas offshore have yet to be fully explored and 
have generally been off limits for gas and oil development. 
While onshore reserves of natural gas are still very large, 
significant new reserves of domestic oil are most likely to 
exist offshore or in sensitive areas such as the Alaskan 
National Wildlife Refuge.

                  GOVERNMENT REVENUES ON WORLD MARKET

    Finally, the Federal Government collects a smaller share of 
revenues from oil and gas produced on federal lands than do 
most other oil and gas resource owners. Specifically in a 
recent study done by one of the preeminent energy consulting 
companies, it was found that of 104 oil and gas resource owners 
evaluated, the federal leases in the Gulf of Mexico ranked 93rd 
lowest in terms of the share of revenues accruing to the 
resource owner. This result is consistent with other studies 
over----
    Mr. Dicks. Ninety-three out of 104?
    Mr. Rusco. Ninety-third lowest out of 104, and that 
included most major oil-producing countries. In addition, the 
way that Interior collects revenues may contribute to 
instability in revenue collection. Specifically, the federal 
system for collecting oil and gas revenues is regressive in the 
sense that the Federal Government collects a larger share of 
revenues when oil and gas company profits are low and a smaller 
share when company profits are high. This feature of the 
federal revenue collection system creates incentives for 
companies to seek royalty relief or other concessions when oil 
and gas profits are low and may also lead to public resentment 
and call for increases in federal revenue when company profits 
are high.
    There are alternative ways to collect revenues that collect 
smaller shares of revenue when company profits are low and 
larger shares when profits are high. Interior could explore 
using such alternatives to improve the stability of the revenue 
collection system. However, Interior has not comprehensively 
evaluated its revenue collection system in over 25 years, 
despite many changes in the industry.
    In response to recommendations made by GAO, the Interior, 
the Inspector General, and others, Interior is attempting to 
improve its procedures and practices, and we believe they can 
make a great deal of progress toward improving the accuracy of 
revenue collection by following through with these 
recommendations. However, fixing these problems will not 
address the larger questions of how to choose which properties 
to lease, the proper terms of such leases, nor how much and in 
what form to collect revenues from companies wishing to develop 
federal oil and gas resources.
    To address these larger issues, Interior needs to perform 
comprehensive reassessments of its leasing and revenue 
collection programs to be able to provide reasonable assurance 
that it is managing public resources efficiently and that the 
public is getting an appropriate share of oil and gas revenues 
over time. To perform these assessments, Interior will need to 
seek the assistance from experts outside the agency and involve 
industry representatives in a meaningful dialogue because 
Interior has not developed and maintained the information and 
expertise required to evaluate the wide range of available 
tools and practices in use by industry and resource owners to 
evaluate what the available options are for federal oil and gas 
management and oversight and to pick the operations that are 
most beneficial for balancing the multiple-use nature of 
federal lands and waters, promoting energy security and a 
healthy domestic energy sector, and promoting efficient and 
effective government.
    This concludes my statement, and I would be happy to answer 
any questions the Subcommittee may have. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296B.001
    
    [GRAPHIC] [TIFF OMITTED] T2296B.002
    
    [GRAPHIC] [TIFF OMITTED] T2296B.003
    
    [GRAPHIC] [TIFF OMITTED] T2296B.004
    
    [GRAPHIC] [TIFF OMITTED] T2296B.005
    
    [GRAPHIC] [TIFF OMITTED] T2296B.006
    
    [GRAPHIC] [TIFF OMITTED] T2296B.007
    
    [GRAPHIC] [TIFF OMITTED] T2296B.008
    
    [GRAPHIC] [TIFF OMITTED] T2296B.009
    
    [GRAPHIC] [TIFF OMITTED] T2296B.010
    
    [GRAPHIC] [TIFF OMITTED] T2296B.011
    
    Mr. Dicks. Mary, are you ready?

                     Statement of Ms. Kendall, OIG

    Ms. Kendall. I am. Mr. Chairman, Mr. Simpson, members of 
the Committee, thank you for the opportunity to appear today to 
discuss the findings from the Office of Inspector General's 
efforts in examining oil and gas royalty collection programs in 
the Department of the Interior.
    The Office of Inspector General has devoted many resources 
over the last 3 years to understanding and investigating the 
role of the Minerals Management Service in collecting royalties 
from offshore oil and gas drilling. We discovered weaknesses in 
the oversight of royalties, in communications in the drafting 
of leases, and underpayment of royalties, and a culture in the 
Royalty-in-Kind Program where employees felt exempt from ethics 
rules that govern all other federal employees.
    We are now devoting resources to tracking progress on the 
implementation of myriad recommendations by the OIG, the 
Government Accountability Office, and the Royalty Policy 
Committee. As the Chairman noted, there are more than 150 
recommendations to account for.
    In addition, we are reviewing the department's onshore 
leasing and drilling programs of the Bureau of Land Management 
and how BLM coordinates with MMS on production data and royalty 
collection. We have begun to examine alternative energy 
generation authorities as well, regulations and practices 
within the department to include MMS and BLM programs in the 
areas of wins, wave and ocean current, and solar and 
geothermal, both onshore and offshore.
    As you know, we recently completed an evaluation at the 
request of Chairman Dicks concerning the status of non-
producing federal oil and gas leases. In addition to some very 
challenging data integrity and lease oversight issues, we found 
that BLM and MMS need to develop much clearer policy concerning 
the expectation of production of oil and gas on federal leases.
    We found that oil and gas companies that hold federal 
drilling leases have little obligation to actually produce 
resources. The department has no formal policy to compel 
companies to bring these leases into production. While current 
statutes, regulations, and policies promote exploration 
production activities are not required to commence within the 
primary lease term. The bureaus do not inquire about the 
production strategies of companies and have not attempted to 
enforce the performance clauses included in lease agreements. 
Both industry and bureau officials cautioned, however, that 
mandating production activities may not necessarily have 
positive outcomes and could, in fact, be counter-productive by 
reducing industry interest in federal leases.
    While BLM and MMS are able to work together, their data 
collection systems and definitions of producing and non-
producing leases are incompatible. Their systems do not speak 
to one another, and the data integrity is compromised due to 
delays in data input. In many instances, both BLM and MMS are 
relying on companies to provide royalty payment information.
    We believe that more improved and more comprehensive data 
would assist in instituting a monitoring program for non-
producing leases and paint a much more accurate picture of the 
production status of DoI leases. Similarly, a better 
understanding of the process and problems leading to production 
would lead to a more accurate perception by the public of the 
production status of DoI leases. Further, more explicit 
statutory and/or regulatory mandates would contribute to 
clearer expectations on the parts of both DoI and the oil and 
gas industry.
    Other ongoing reviews by the OIG involve royalty collection 
and program management for onshore oil and gas drilling and 
alternative energies. We are examining the relationships with 
oil and gas companies and decisions by BLM managers relating to 
oil leases, oil production and royalty collection.
    Recently we initiated an evaluation of BLM's Inspection and 
Enforcement Program with a focus of BLM's effectiveness in 
performing required inspection and enforcement activities 
related to onshore oil and gas leases, from lease issuance to 
well-abandonment and lease closeout. Our evaluation will 
include a closer look at the reliability and integrity of the 
systems BLM uses to manage this program and how effectively BLM 
coordinates and collaborates with MMS.
    Presently, our Energy Investigations Unit is conducting two 
investigations concerning royalty payments for geothermal 
leases. We have learned that current regulations allow a 
producer to claim operating deductions of up to 99 percent of 
the royalty owed. The companies currently under investigation 
have allegedly claimed 99 percent deduction from their owed 
royalties for as many as 10 years. Once we have more 
information to provide, Congress might want to consider 
reviewing allowable deductions for these alternative and 
renewable energy resources.
    Finally, we have conducted a preliminary study on 
alternative energy generation. The study surveyed alternative 
energy authorities, regulations, and practices of BLM and MMS. 
It includes a review of current programs and projects, fee and 
royalty rates and structures, and timeliness. BLM is the lead 
agency for alternative energy activities within the continental 
U.S., while MMS has the lead for activities on the outer 
continental shelf. BLM's responsibilities include wind, solar, 
and geothermal; MMS's include wind, wave and ocean current. We 
are presently reviewing the results of our study to determine 
next steps.
    Mr. Chairman and members of the Committee, that concludes 
my testimony. I appreciate the opportunity to be here today and 
would be happy to answer any questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296B.012
    
    [GRAPHIC] [TIFF OMITTED] T2296B.013
    
    [GRAPHIC] [TIFF OMITTED] T2296B.014
    
    [GRAPHIC] [TIFF OMITTED] T2296B.015
    
                          MANAGEMENT CONCERNS

    Mr. Dicks. This has been an ongoing discussion. How much 
willingness is there at MMS to change these things, like 
royalty-in-kind for example?
    Mr. Rusco. I think that we have found that on a 
recommendation-by-recommendation basis, MMS has generally been 
very responsive to recommendations made by GAO and others. Our 
concerns are more with the overall picture. I think if you take 
the way we do our work, we look at very specific things and 
make recommendations based on only those specific things. When 
we look at the whole program at a broader and higher level, 
though, we see that the issues of how much we collect and when 
we collect it and how we collect it really matters, and we are 
not doing a good job of looking at those big issues. So I think 
we need to focus at the highest level while also addressing all 
the individual recommendations, and I believe that on the 
latter front, MMS has been quite willing. They are working very 
hard to implement recommendations. It is just the broader 
issues that are at question.
    Mr. Dicks. That sounds like a conflicting statement.
    Mr. Rusco. Well, I guess what----
    Mr. Dicks. I do not think you can have it both ways. They 
are trying to do something but they have not done it. It does 
not sound very good to me, to be honest with you. It sounds 
like we have had problems here and there have been scandals. I 
would like to see a lot more energy in terms of trying to 
change the way they do business. And that means more personnel. 
You talked about data processing equipment. You have got to end 
the old practices of just relying on the private sector. You 
have got to do the work yourself and then verify that it is 
accurate. That is not happening according to what I read here.
    Mr. Rusco. Certainly we agree that without doing the 
comprehensive reevaluation of revenue collection, how you do it 
and how you manage leases, fixing all the other things will not 
fix what is wrong with oil and gas management practices. It 
will help in terms of fixing things like accuracy of the data 
if they fix bits and pieces of the IT system. But they need to 
fundamentally look at how they do their business because there 
have been a lot of changes in industry, and they have not kept 
up with them.
    Ms. Kendall. I think it is like in almost any organization 
or operation. When you are trying to keep the day-to-day going, 
it is sometimes hard to step back and say we are going to stop, 
take a deep breath, and look at the whole organization. And 
sometimes what happens is the day-to-day operations suffer from 
that stopping and taking a look. I do not disagree however with 
the GAO's recommendation that a more wholesale look be taken, 
and maybe that just means the stepping back, taking a deep 
breath, and maybe slowing some operations down for the short 
term to improve them in the long term.
    Mr. Dicks. Is a lack of personnel part of the problem here?
    Ms. Kendall. I think MMS would say yes.
    Mr. Dicks. Are they out aggressively trying to hire or do 
they have a website that hires? I mean, I find out in the 
Federal Government that a lot of the hiring is done by 
websites. USA Jobs.
    Ms. Kendall. USA Jobs is the OPM's website where most 
federal jobs are advertised. I do not know the answers 
specifically.
    Mr. Dicks. Are they aggressively out there? You do not know 
the answer to that?
    Ms. Kendall. I do not know.
    Mr. Dicks. Do you know the answer?
    Mr. Rusco. I do not know the answer.
    Mr. Dicks. Well, we will have to ask them. Mr. Simpson.

                CONCERNS OVER PRODUCTION SELF-REPORTING

    Mr. Simpson. Self-reporting, you both mentioned that as a 
problem. I cannot believe that we just accept whatever a 
company reports as the facts. Is there no auditing of this 
reporting? You mentioned federal taxes. That is a self-
reporting system essentially. But I also know there is a huge 
penalty if I misreport. Do we have that in place in this?
    Mr. Rusco. We do have audit and compliance efforts at MMS, 
and we found some issues with that, although we have not done 
full audit of the compliance efforts. But I think the biggest 
issue, and this was brought out by a witness from the IRS in a 
hearing last year on this very issue, the IRS, when they are 
getting data from a taxpayer where there are third-party 
documents that corroborate, they find that their accuracy is, 
you know, close to 100 percent. And when they do not have the 
third-party documentation, the accuracy of the self-reported 
information goes way down when they do do the audits.
    Mr. Dicks. Third party, you mean the employer?
    Mr. Rusco. Right.
    Mr. Dicks. The W-2s?
    Mr. Rusco. W-2s or 1099s.
    Mr. Dicks. That is the third party you are talking about?
    Mr. Rusco. Yes.
    Mr. Simpson. So who would the third party be in this case?
    Mr. Rusco. In this case there are several things that could 
be done. So for example, MMS can get what are called run 
tickets or statements by the pipeline companies that take away 
the oil and gas and compare those to what the operators report 
that they produce, and they do that----
    Mr. Simpson. Do we not do that as part of audit now?
    Mr. Rusco. They do that but not in a timely and efficient 
way that would catch things, not in as timely and efficient a 
way as companies do for example. And companies for example, 
most oil and gas companies, are monitoring their oil and gas on 
a basically real-time basis and they are resolving any problems 
they have with the buyers of their oil and gas in terms of 
their counting of discrepancies between what buyers say they 
got and what producers said they produced, and they are 
resolving that in a very rapid fashion because they are looking 
essentially at typically the same data, that you can go and 
take your production data to the pipeline company if you are a 
producer and then look at the data and they will say, well 
yeah, you have this data that shows you produced this much. I 
guess our meter must be--you know, we can argue about whose 
meter was right and whose was wrong and look at the factors 
that might affect the accuracy of the readings and they can 
come to an agreement very rapidly. Well, those data are 
available. The Federal Government does not have access to them, 
but there is----
    Mr. Dicks. Why not?
    Mr. Moran. Yes, thank you, Mr. Chairman.
    Mr. Dicks. Why not?

                     UPDATING THE REPORTING SYSTEM

    Mr. Rusco. I think it is a factor of the fact that these 
data did not exist when the regulations and the laws were made, 
and you know, it used to be you put a hole in the ground and 
oil and gas came out and you had a meter of some sort. But 
there were not these electronic flow meter systems. There was 
less ability in technology for accurately measuring what you 
produced as a producer was primitive. And it has gotten better 
and better over time to the point now where they get typically, 
producers get, second-by-second readings of how much they are 
producing. And they get readings of pressure and all kinds of 
factors that can influence the variability of the meter 
readings, and so when they are going to talk to a pipeline 
about what they produce, they are both looking at similar data 
and they resolve these issues and they do it very quickly, 
usually a month later. And we do our audits 2, 3 years after 
the fact, and by then we are looking at a month's worth of data 
that was resolved by the companies 2, 3 years ago. So we should 
come into the 21st century.
    Mr. Simpson. I am still trying to figure out how we come 
into the 21st century. I understand what you are saying, I 
think. Is the royalty paid on what is pumped out of the ground 
or what is put in the pipeline?
    Mr. Rusco. It is paid----
    Mr. Simpson. And are those two ever different?
    Mr. Rusco. They are frequent arguments about what comes out 
of the ground and what goes into the pipeline, and depending 
whether you are onshore or offshore and where you are, there is 
a point at which custody changes hands, and at that point a 
royalty is due, and it is either due on the value or the 
production, depending on whether it is in value or in kind.
    Mr. Simpson. Is it always an independent pipeline owner or 
do the companies own the pipelines also?
    Mr. Rusco. There are some cases where companies own 
pipelines and production that go into the pipelines and other 
cases where it is a third-party pipeline owner.
    Mr. Simpson. In the case where a company owns the pipeline 
and the production, who would be the third party there? How 
would you check or verify the accuracy of the information in 
those cases?
    Mr. Rusco. In those cases, you would have to completely 
change how you do business, and you would have to set up a 
system wherein you get access to actual production data.
    Mr. Simpson. Would that be something that needs to be done 
through rule and regulation or through statutory changes?
    Mr. Rusco. I cannot answer that. I do not know whether they 
have the authority to do it.
    Mr. Simpson. What is the Royalty Policy Committee, just out 
of curiosity?
    Ms. Kendall. I think I can answer that question. This was a 
committee that was created by Secretary Kempthorne at the time 
when there were any number of issues going on, the '98-'99 
lease threshold issues. We were also looking at the compliance 
review process. GAO was looking at the potential loss that was 
associated with the '98-'99 leases. That Committee was formed 
with former Senator Kerry and former Senator Garn as the chairs 
to independently look at really the policies of MMS in their 
royalties.

                      VALUING LEASE OPPORTUNITIES

    Mr. Simpson. You mentioned the difference between BLM and 
MMS on lease offerings. It seemed to me like, in your 
description if I was just independently evaluating the way MMS 
does it is the way you would want to have it done. Did they 
make an assessment beforehand of what a lease is going to be 
valued at, what they ought to sell it for, and if the price, 
the bid, does not come in at that they withdraw it maybe offer 
it later or whatever? BLM makes no assessment of the value of a 
lease before they put it on the market?
    Mr. Rusco. That is correct.
    Mr. Simpson. That is bizarre.
    Mr. Dicks. Thank you.
    Mr. Simpson. Why is that? Has BLM ever answered that 
question? Has anybody ever asked them that question?
    Mr. Dicks. Yes, we asked them that question.
    Mr. Simpson. Do you know why they do not do it, why they do 
not make an assessment of what it is worth? I mean, if I am 
going to sell something on anything, I am going to have at 
least some idea of what it is valued at before I decide to 
accept a bid on it or not. And I find it strange that BLM would 
not do that. So it is not MMS that we need to change here, it 
is BLM in this case.
    Ms. Kendall. I think in addition to the failure to value 
on--just recently as of today or maybe even last night, we saw 
the indictment of the young man who was jacking up the bids at 
BLM. BLM does not pre-approve bidders coming in to their lease 
sales, and it is something that MMS does do, make sure that 
someone coming in to bid on a lease means it and has the money.
    Mr. Simpson. They are using people to just jack up the 
price? Is that a statutory change, a regulatory change by the 
agency or what that would be necessary?
    Ms. Kendall. On that one I think it is simply a matter of 
the agency changing its regulations or even its guidance.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Dicks. Why is it that if you have two entities within 
one agency that they have different regulations? I mean, is 
there ever any thought about trying to harmonize these things?
    Ms. Kendall. I would say that more often than not, when we 
look at these kinds of issues, we will find overlaps or 
multiple processes trying to get at the same thing and try to 
make recommendations to reconcile them or bring them together. 
In fact, in the report that we produced at your request, Mr. 
Chairman, we found the systems that BLM and MMS use not 
speaking to each other and actually using different 
terminology. We received response just today as I was on my way 
up here where the answer may not be as we suggested, pick a 
system and go with it, but to reconcile the systems and come up 
with some sort of electronic ability to reconcile and use the 
same terminology so you are counting the same kinds of things.
    Mr. Simpson. Mr. Chairman, could I just follow that one?
    Mr. Dicks. Yeah, go ahead.
    Mr. Simpson. How does BIA do it?
    Ms. Kendall. That I cannot answer right off hand. I do not 
know.
    Mr. Dicks. I think sometimes MMS does it for BIA. Mr. 
Moran.

                     WHAT TYPE OF FIX IS REQUIRED?

    Mr. Moran. People are shaking their head in the audience. I 
do not know. What little I know is we do not know enough about 
what is going on here, and I guess the first thing that occurs, 
does this require legislation to fix this mess or can it be 
done by good management? Can the Department of the Interior 
really get a hold on this and fix this so it is more rational 
and more accountable to the taxpayers?
    Ms. Kendall. I would go back to Mr. Rusco's first 
suggestion that a comprehensive review be done of how royalties 
management and resources management is done at the department. 
I think the answer is a little bit of both. There may be some 
statutory fixes that are needed, but I think much of it could 
be resolved in terms of regulatory or sort of comprehensive 
guidance, but to have all bureaus that have energy 
responsibility work together to develop something comprehensive 
for the department.
    Mr. Moran. It seems that there is no one really looking out 
for the taxpayer, that these are kind of fiefdoms controlled by 
people who understand the natural resources area, geography, 
the particular resource, and so on, and other than tripping 
over this information, there is very little light of day that 
is being applied to this unless you have a real scandal like 
you had with the personnel thing there, the MMS. But I would 
hope, Mr. Chairman, maybe we could address this in some report 
language or even go further and maybe work with the Natural 
Resources Committee. I mean, it does seem that people need to 
scrutinize this.
    Mr. Dicks. I completely agree. We will continue to do our 
part on this, on the resources and oversight. But I think if 
you are going to change this thing comprehensively, you would 
almost have to have the authorizers involved. They would have 
to pass comprehensive legislation saying you are going to do it 
this way, rather than letting them just do it whatever way they 
want or the way existing law allows them or regulations allow 
them to do it. Obviously this is not working.

                   FIXING THE ROYALTY-IN-KIND PROGRAM

    Mr. Moran. No. I am glad that you and Mr. Simpson both 
agree. I could find strong support on the Subcommittee for a 
real overhaul. The time for an overhaul is here.
    Let me ask the GAO this initially, would we be better off 
dropping the Royalty-in-Kind Program and getting cash payment 
for resources extracted which is what would normally be done in 
a typical corporate sector transaction?
    Mr. Rusco. We cannot go that far with the work we have. 
What we have found, though, is that the benefits, the financial 
benefits claimed by the MMS for the Royalty-in-Kind Program, 
the net benefits are likely, have been too high.
    Mr. Moran. They misstated them.
    Mr. Rusco. They overstated them in two important ways. One, 
the reporting did not include enough information about how the 
assumptions made, basically an estimate of how much the 
additional revenue collected in kind added to total revenues, 
and it is based on basically a model and some assumptions about 
prices and things. And we looked at the sensitivity of those 
estimates to the assumptions made and found it is very 
sensitive. And so small changes in the assumption could lead to 
actual negative benefits, not positive.
    There is another very important reason why the net benefits 
of the program are questionable, and that is that they claim 
administrative benefits, and a large part of the administrative 
benefits come from, a significant part come from the claim that 
because it is royalty-in-kind, you do not have to audit. And so 
they do not audit, and they do not count auditing as part of 
the cost of it. However, we do not believe that you can run 
this program without auditing it because you have to audit the 
volumes, and you have to audit the other elements of the 
exchanges, the prices you are getting and the system that you 
are using to sell the oil. You have to audit that to know that 
that is working well. And so I think they have not sufficiently 
accounted for either the net benefits of it, nor have they done 
sufficient audit of the program.
    Mr. Moran. That just keeps getting worse the more you start 
to understand this. Let me ask you about this Kerr-McGee 
situation. Just in the last couple of months, a Circuit Court 
said that the Interior Department could not collect royalties 
from eight deep-water leases held by Kerr-McGee--they call it 
Anadarko now--in the Gulf of Mexico. What does that mean to the 
taxpayer? Was this something that could have been avoided?

                      THE ROYALTY RELIEF SITUATION

    Mr. Rusco. We recently reported that based on some 
scenarios that we ran that if the Government lost this lawsuit 
and if the lawsuit were applied to all of the leaseholders that 
were potentially affected by the Deep-Water Royalty Relief Act, 
that the cost to the taxpayers in total over the lifetime of 
the leases could be between $21 and $53 billion.
    Mr. Moran. Between $21 and $53 billion? Was this because of 
a human error?
    Mr. Rusco. In our work we were unable to determine exactly 
how the structure of the leases were done and at what point the 
elements that led to the lawsuit were included.
    Mr. Moran. But somebody did something wrong. If it is taken 
to court and the court says that royalties that would normally 
be due to the government as much as $53 billion cannot be paid. 
There is some fault here on the part of the government, in 
putting together a deficient lease?
    Mr. Rusco. I would say that moving forward, it would be 
possible to design lease terms that would not be challengeable.
    Mr. Moran. But you are not willing to look backward and 
determine why this happened. I mean, is that not GAO's role?
    Mr. Rusco. Well, we have never been asked specifically to 
do that. We were asked to look at what the cost of it was, and 
so I do not have any audit work to base it on.
    Mr. Moran. Well, $50 billion is not chump change.
    Mr. Dicks. On this point, did the Inspector General look at 
this?
    Ms. Kendall. We have not----
    Mr. Dicks. As I recall, you did.
    Ms. Kendall. We looked at the problem----
    Mr. Dicks. I am trying to find out----
    Ms. Kendall [continuing]. With the '98-'99 leases where 
there was no threshold.
    Mr. Dicks. This is where an escalator was not put in.
    Ms. Kendall. Exactly. We did look at that and found that 
the '98-'99 leases did not contain this price threshold 
language. This is precisely the language that the underlying 
lawsuit addresses, and I am speaking only based on what I have 
read. I have not studied this legal case, but my understanding 
as recently as yesterday, the court opined that Interior did 
not have the authority to impose price thresholds absent 
specific language from Congress. And I think that is the 
turning point of this particular litigation.
    Mr. Dicks. So even the people that wanted to voluntarily 
pay in, would not have had to under that line of reasoning?
    Ms. Kendall. As the ruling stands today, yes.
    Mr. Dicks. That may be. It is on appeal?
    Ms. Kendall. It is, yes.
    Mr. Dicks. Why do we not give Mr. Hinchey----
    Mr. Moran. Yes, let's give Maurice an opportunity here.
    Mr. Dicks. Mr. Hinchey.

                          NON-PRODUCING LEASES

    Mr. Hinchey. Well, I am very happy to just keep listening 
to this discussion because it is frankly fascinating. As I 
listen to it I cannot help but think back to really a short 
time ago, just last year, when the price of oil went up to 
nearly $158 a barrel, and the price of gasoline was over $4 a 
gallon. The oil companies were making record profits, profits, 
not just record in the context of their industry but record 
profits in the context of any industry, any place, any time and 
the situation that we were dealing with. And I cannot help as I 
think of that, remember what was being said on the Floor of the 
House of Representatives and elsewhere. If we want to solve 
this problem, drill offshore, drill offshore, give more leases 
to the oil companies which was so totally dishonest, completely 
fraudulent. Nevertheless, it was completely fraudulent, it was 
said over and over again. So many people bought into it, 
interestingly enough, all over the country in the context of 
just playing into the needs of the oil companies, rather than 
playing into the needs of the people of this country, which is 
the main responsibility of the members of this Congress which 
is something that so many of them were not doing last year.
    In any case, we see that only 25 percent of almost 90 
million acres that are leased on public lands have been 
actually used by the oil companies--25 percent of almost 90 
million acres. And once again, thanks to the work of Mr. Dicks, 
we have learned through the Inspector General's Office, that 
the majority of those non-producing leases were issued in the 
last 5 years. Once again, in that context, we have a very 
interesting set of circumstances. Through all of this, I cannot 
help but think back to the Teapot Dome Scandal back in the 
early 1920's when there was a manipulation of the then-
relatively small known oil reserves in the country which were 
turned over to one major company and is the same kind of thing 
which has been attempted here over the course of the last 5 
years.
    So what do you think that we should be doing here? What 
should the oversight of this operation be? What kind of laws 
should this Congress pass and what kind of responsibility 
should be exercised by GAO and by the Inspector General to make 
sure that the people of this country, as well as members of the 
Congress, are not being conned on behalf of the financial 
interests of big corporations while people, ordinary people, 
are just being forced to pay more and more and more and more? 
As you know, the price of oil has dropped down. But it is only 
a matter of time before it starts going back up again. We are 
going to be dealing with that situation some time very soon, 
and we will probably hear those same things being said by the 
same kind of people on the Floor of the House of 
Representatives--drill offshore when only 25 percent of the 
leases that have already been granted are actually being used. 
What should we be doing to straighten this mess out?
    Ms. Kendall. I wish I knew the simple answer to that 
question, but I will try to answer it based on the work that we 
did at the request of Chairman Dicks. I think that as a result 
of our review of these non-producing leases, what we concluded 
was in terms of trying to answer your question, Congressman 
Hinchey, more collaboration between Congress and MMS and what 
expectations in terms of production Congress has when a lease 
is let. Right now lease onshore is generally let for 5 years, 
offshore for 10, and as you pointed out, I think, and I am 
going by memory at this point, but 80 percent of the present 
leases that are outstanding were issued within the last 10 
years and maybe 50 percent within the last five. There is a lot 
that goes on before actual production that is not measured by 
the department. It is not reported by companies. So it is not 
visible to the public to see that there is actually something 
going on for these, what we call, non-producing leases.

                    BUSINESS AND NATIONAL RESOURCES

    Mr. Hinchey. What you are saying now is that is just one of 
the deficiencies that we have to contend with because you are 
dealing with publically owned products here. You are dealing 
with oil and gas that is owned by the people of this country 
but is being exploited by corporations. These corporations have 
a lot of help around here that is enabling them to exploit 
these resources as much as possible. Now that has got to stop. 
This whole operation has got to be engaged in a way that is in 
the best interest of the people of this country who own these 
resources to make sure that they are used most effectively and 
that the price is not exploited in a way that is going to make 
the people who own them pay more for the finished product.
    Mr. Moran. They are upset about AIG bonuses. How upset are 
they going to be when they are paying $4 a gallon for gas that 
they own in the first place that they have not been compensated 
for, and we do not even have the system in place to exact that?
    Mr. Dicks. These two witnesses are the people who----
    Mr. Moran. Yes, I know. They are not the problem.
    Mr. Dicks [continuing]. Are reporting on what the issue is.
    Mr. Moran. Exactly. They are not the problem. We are just 
venting here, venting our frustrations.
    Mr. Dicks. I understand.
    Mr. Hinchey. Venting and also looking for recommendations.
    Mr. Simpson. No, you were venting.
    Mr. Hinchey. I am not venting, I am just stating the facts.
    Mr. Dicks. Some people might think it is venting.
    Mr. Hinchey. No venting in my statements.
    Mr. Simpson. As you see them.
    Mr. Dicks. No, no, wait a minute.
    Mr. Hinchey. As anybody even with their glasses on might 
see. It is very, very clear, very obvious.
    Mr. Simpson. I hope you will come back after the vote.
    Mr. Hinchey. No question about it.
    Mr. Simpson. Because I would like a few shots at a 
response.
    Mr. Hinchey. Well, do them now.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. We have got to vote.
    Mr. Dicks. How much time do we have? We have enough time. 
Go ahead. You wanted to say something. I think it is the proper 
time to say it.
    Mr. Simpson. Yes, first of all----
    Mr. Dicks. Then we will start with the other witnesses.

                      THE PROCESS UP TO PRODUCTION

    Mr. Simpson. A lot of that was a lot of bull obviously. 
There is a reason that if you want to reduce the price of 
gasoline, you have to produce more. Are there ever reasons why 
you have a non-producing lease that are legitimate, that are 
not to drive up the price of gas?
    Mr. Rusco. Yes.
    Ms. Kendall. Yes.
    Mr. Dicks. It takes a while to do the EIS and to do----
    Mr. Simpson. It takes a while to do all of that.
    Mr. Dicks [continuing]. All the permit work. I mean, you 
cannot just get a lease and start developing it. You have to go 
through a process, right? Or is that done beforehand?
    Mr. Rusco. No, once you get a lease, you have to go through 
processes and get various permits in order to start 
development. But the other thing is----
    Mr. Hinchey. But if you are in that process and you have 
not completed the process but you are still looking for more 
leases and still demanding more leases, there has got to be 
something inconsistent about that.
    Mr. Simpson. Why?
    Mr. Hinchey. Something obvious.
    Mr. Simpson. I would hope that companies look down the 
road, not only what they are doing today and what they are 
going to do tomorrow and 5 years from now but what they are 
going to do 30 years from now. So it is okay to lease things 
out.
    Mr. Hinchey. Well, they are looking down the road.
    Mr. Simpson. It is a supply and demand issue is what it is 
all about.
    Mr. Hinchey. They are looking down the road very carefully, 
but they are looking down the road only in their own interest.
    Mr. Dicks. Let's have one at a time here.
    Mr. Simpson. What do you think companies do?
    Mr. Hinchey. They should be looking not only in their own 
interest, and if they are only looking in their own interest, 
then we should be overseeing them to make sure that publicly 
owned resources should not be exploited at the expense of the 
people who own them.
    Mr. Simpson. Got no problem with that. I agree with that 
statement entirely.
    Mr. Hinchey. Okay, good.
    Mr. Simpson. But you are suggesting that that is exactly 
what happened----
    Mr. Hinchey. That is a good----
    Mr. Simpson [continuing]. And I am suggesting that is 
baloney.
    Mr. Hinchey. That is a good step in the right direction for 
the first time.
    Mr. Dicks. Okay. Let's go vote.
    Mr. Moran. You run a hell of a hearing, Mr. Chairman.
    Mr. Dicks. Let's go vote.
    [Recess]

                             ETHICAL LAPSES

    Mr. Dicks. We will start. I will ask a couple of questions. 
The U.S. Government takes part of its royalty-in-kind as actual 
oil and gas as we have talked about rather than as a cash 
payment. You both reported potential problems in royalty-in-
kind programs including the potential that MMS may be 
overstating the benefit of the program. You also found some 
serious ethical lapses on the part of personnel in the program. 
Can you tell us about that?
    Ms. Kendall. Mr. Chairman, our investigative probe detailed 
conduct that stemmed really from a cultural environment in the 
Royalty-in-Kind Program. I would say that the standard was set 
by the Director in Denver and was essentially followed by the 
people who reported to him.
    Where the genesis is I am not sure I can tell you, but this 
program determined that it needed to operate much like industry 
and so conducted itself essentially outside of the ethical 
rules that govern all other federal employees concerning the 
taking of gifts, socializing with industry and the like. It was 
fairly pervasive, but it was essentially condoned by the 
Director, not to say that that is necessarily an excuse for the 
conduct of the people who were involved. But there certainly 
was that of absolute condoning, sort of a nod and a wink at the 
top.
    Mr. Dicks. Has that been fixed? Has this been fixed?
    Ms. Kendall. I believe it has. Yes, sir.
    Mr. Dicks. What did they do to fix it?
    Ms. Kendall. Specifically, I cannot--I simply do not know 
the details in terms of personnel actions. The person who was 
the head of this office actually I believe retired from federal 
service even during the course of our investigation, well 
before our report was issued. A number of other people who 
remained in MMS received disciplinary action ranging from 
removal to reprimands and suspension, time off. But the 
individual information is not something that is made available 
publicly.
    Mr. Dicks. Mr. Simpson, do you have any further questions 
or should we bring up our next witness?

                           REVENUE COLLECTION

    Mr. Simpson. The revenue collection system, high when the 
company profits are low, low when the company profits are high, 
how does that work? Is that statutory?
    Mr. Rusco. Well, yes and no.
    Mr. Dicks. Well, that is a good answer.
    Mr. Rusco. I think that the basic statutory authority to 
set many of the terms of how we collect our revenue, royalty 
rates, bonus bids and rental rates all combine to make the 
government take. The Interior has the authority to make changes 
to individual components of that. However, without getting too 
technical, to completely look at all the possible options and 
ways to collect revenue might require making royalty rates 
flexible, for example, to oil and gas prices so that the 
royalty rate goes up when oil and gas prices go up, and you may 
want other flexible, sliding scales. We are not recommending 
specific ones, but these are some of the possible ways that you 
can change the system to keep it from being regressive so that 
when prices go up and profits go up, you are collecting a 
larger share. When prices go down and profits go down, the 
royalty rate falls. And so you are not collecting a large 
share. I mean, sometimes the profits could be zero but you are 
still collecting revenue from the companies, so they are 
actually losing money. You do not want that to happen because 
you do not want them to shut in production because that has an 
impact on the viability of the whole resource system.
    Mr. Simpson. And I guess you could also say that if oil 
prices were high and royalty rates went up, then the price of a 
gallon of gas would go up because the royalty went up?
    Mr. Rusco. I do not think that----
    Mr. Simpson. You are assuming that the royalty would just 
come out of the profits of the company.
    Mr. Rusco. It would because the price of gas at the pump is 
just determined by how much gets there and, you know, how much 
people are willing to pay at the time. It is just demand and 
supply. The decision on whether or not to pump is not going to 
be influenced if your profits are high by paying a larger share 
of revenue.
    Mr. Simpson. That is not going to have that much impact on 
the overall market.
    Mr. Rusco. You could design a system which collects over 
the lifetime of a lease the same amount of revenue that is 
flexible so that you collect more when companies are doing well 
and less when they are doing poorly, and if you designed that 
correctly, you would collect the same amount of revenue and 
that would leave the total lifetime profit for the company the 
same and it would not change their behavior.
    Mr. Simpson. Thank you, Mr. Chairman. You will be happy to 
know that Chairman Hinchey and I found common ground during the 
break.
    Mr. Dicks. Well, that is good. I am glad to hear that.
    All right. Thank you very much. We appreciate your good 
work and the reports that you have provided for us.
    Walter Cruickshank. Why don't you go ahead with your 
statement?

                      Statement of Mr. Cruickshank

    Mr. Cruickshank. Thank you, Mr. Chairman and Ranking Member 
Simpson for the opportunity to testify today and also thank you 
for the continuing support of this Subcommittee for Minerals 
Management Service over the years.
    Today's hearing considers actions taken as a result of 
recent independent reviews of MMS. We have looked closely at 
our ongoing operations as a result of these reviews as well as 
our own internal reviews and have acted aggressively to 
implement the many recommendations contained in these reports.
    As you know, the MMS consists of two major programs. The 
Minerals Revenue Management Program collects revenues and 
reporting information in some 66,000 non-producing and 
producing leases, both onshore and offshore. Over the last 5 
years, MMS has collected and disbursed an average of $13 
billion per year in revenues to States, American Indians and 
the U.S. Treasury.
    The Offshore Energy and Minerals Management Program manages 
energy and mineral activities on the outer continental shelf. 
The OCS accounts for 27 percent of the Nation's oil production 
and 14 percent of our domestic natural gas production. These 
figures illustrate the national importance of both programs and 
why close oversight by Congress, GAO, and the Office of the 
Inspector General are warranted and why we welcome constructive 
recommendations on how to improve our program.
    Minerals Revenue Management Program in particular has faced 
increased scrutiny in the last few years. In response, we have 
aggressively implemented numerous recommendations made by GAO, 
the Inspector General, and the Royalty Policy Committee and 
Subcommittee on Royalty Management. Since fiscal year 2003, we 
have conducted 67 internal reviews of our own operations making 
783 recommendations, and there have been 30 external reviews of 
our Minerals Revenue Management Program resulting in 218 
recommendations. We have implemented 90 percent of the 
recommendations as of the end of last year.
    Additionally, Secretary Salazar has launched a reform 
initiative that includes a review of the recent investigations 
and evaluations and how we have been implementing the various 
recommendations.
    Turning to some of the specific reports, in September of 
last year, the Inspector General released reports that covered 
improprieties that were occurring in the Royalty-in-Kind 
Program between January 2002 and mid-2006. In response, MMS has 
taken appropriate administrative actions against the employees 
in question, enhanced our ethics program and provided specific 
training to RIK employees, developed a clear and strict code of 
ethics for all MMS employees, and modified the organizational 
reporting structure for royalty-in-kind.
    In late 2008, GAO issued a report of its oversight of the 
RIK program recommending that MMS improve its calculations of 
the benefits and costs of the RIK program and the information 
we present to Congress. We will be implementing those 
recommendations in the annual report that we will be submitting 
to Congress later this year. GAO also recommended that MMS 
should improve the verification of the natural gas volumes 
taken in kind. In February of this year, we had fully 
implemented the use of third-party information through our gas 
verification system to verify the royalty production taken in-
kind.
    Turning away from royalty-in-kind to compliance program, in 
2006 the Inspector General conducted an audit of our royalty 
compliance program, focusing on the use of compliance reviews. 
The Inspector General found the compliance reviews are a 
legitimate tool for evaluating the reasonableness of royalty 
payments. Such reviews allow broader coverage of those payments 
using fewer resources but that the reviews should be used in 
conjunction with audits in a coordinated audit strategy. 
Particularly, the Inspector General found that there were 
improvements that could be made to our program and recommended 
that MMS provide reliable data for managing and reporting on 
program operations, strengthen the compliance review process, 
and improve the performance measures to better reflect program 
operations. MMS completed all of the items in the corrective 
action plan arising from this report as of February 2008.

                      THE ROYALTY POLICY COMMITTEE

    The Royalty Policy Committee Subcommittee Report was 
transmitted to the Secretary in January of 2008. The 
Subcommittee concluded that MMS is an effective steward of the 
Minerals Revenue Management Program and that MMS employees are 
generally concerned with fostering continued program 
improvements. The report's recommendations spanned the 
responsibility of three departmental bureaus involved in 
royalty management: MMS, the Bureau of Land Management, and 
Bureau of Indian Affairs. The report contains 110 
recommendations covering such areas as production 
accountability, royalty-in-kind, compliance and enforcement, 
and coordination among the bureaus.
    As of today, 44 of the 110 recommendations have been 
completed. At the request of Secretary Salazar, the Inspector 
General is in the process of assessing the progress and 
effectiveness of our implementation of the report's 
recommendations, and we are confident that we will be making 
continued progress through the remainder of the year in 
implementing more of that Committee's recommendations.
    Turning to the offshore program, in fiscal years 2008-2009, 
the Inspector General and GAO both completed several reports 
related to federal oil and gas leasing, both onshore and 
offshore. In fiscal year 2008, GAO issued a report on royalty 
accuracy that recommended the Secretary take actions related to 
production inspections in order to ensure the accuracy and 
completeness of production data. MMS has been developing a 
policy to address GAO's recommendations and expects that to be 
in place later this year.
    Also in recent months, both GAO and the Inspector General 
have issued reports on the issue of diligent development. These 
reports contain several recommendations including addressing 
data exchange issues between BLM and MMS and developing a clear 
policy regarding diligent development and production on federal 
leases, and work is well under way to implement these 
recommendations.

                    OFFSHORE PRODUCTION INFORMATION

    I would also like to just take a moment to clarify a couple 
of points that were raised in the discussion after the previous 
panel, one in regards to the use of third-party information. 
For the offshore program, for offshore leases we collect third-
party information on all production, oil and natural gas, and 
that is used in our gas verification system and liquid 
verification system to make sure that production is being 
reported by the producers as compared to this third-party 
information. Now, we do have a bit of a backlog, and we are 
working through some of the exceptions we are finding. But we 
do have a system in place.
    Mr. Dicks. Why is that?
    Mr. Cruickshank. Part of the issue arose on the offshore 
side following the hurricanes of 2005. We relocated a lot of 
resources in trying to focus on the efforts to try and get the 
infrastructure back in shape and get things back on line, and 
as a result some of the other day-to-day operations we fell 
behind in. So we do have a backlog. We are working to catch up 
on those.
    Mr. Dicks. When will you be caught up?
    Mr. Cruickshank. I do not know exactly when we will be 
caught up. We can get that information for you, but there is a 
plan in place to work through those backlogs.
    Mr. Dicks. Yes, I think we would want to know how long it 
is going to take and what is the magnitude of the backlog.
    Mr. Simpson. Along that same line, Mr. Chairman, what do 
you mean by caught up? How long is it before you do third-party 
verification or for what you do for verification and the actual 
production?
    Mr. Cruickshank. Well, the production verification system 
we have for offshore leases generally runs in the months after 
production. This is not part of the audit program so much, 
though the auditors will use that information when they do 
their audits. But this is a system where we have got data 
coming in from the third parties that run tickets from the 
pipelines, and we have the data being reported by the producers 
and we are just comparing them to see if they match. And if 
they do not match, then they are referred to some of the 
accounting staff to follow up and see what the problem is and 
get them corrected.
    The other item I would just like to clarify is the Kerr-
McGee litigation. Since what the court held in the Appeals 
Court upheld was that despite MMS's efforts to impose price 
thresholds on deep-water leases issued between '96 and 2000 to 
collect royalties at times of high prices, the court ruled that 
we did not have the authority to do so, that the law as enacted 
did not permit the collection of royalties on deep-water leases 
issued in those years until certain volumes have been produced, 
regardless of prices.
    Mr. Dicks. Okay.
    Mr. Cruickshank. I just want to close by saying Secretary 
Salazar is committed to taking strong actions to restore the 
public's trust in MMS, to enact meaningful reform, to ensure 
that taxpayers are getting a fair value from the resources they 
own, and to ensure that all of the Department of Interior 
employees perform their jobs with the highest level of 
integrity. The actions taken are the result of these 
independent reviews of MMS reflective of the Secretary's 
ongoing commitment to these principles.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer any questions that you or other members of the 
Subcommittee may have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296B.016
    
    [GRAPHIC] [TIFF OMITTED] T2296B.017
    
    [GRAPHIC] [TIFF OMITTED] T2296B.018
    
    [GRAPHIC] [TIFF OMITTED] T2296B.019
    
    [GRAPHIC] [TIFF OMITTED] T2296B.020
    
    [GRAPHIC] [TIFF OMITTED] T2296B.021
    
                       FAIR VALUE FOR OIL AND GAS

    Mr. Dicks. I think you heard the gist of the concerns here 
is whether the American people are getting fair value for the 
energy production occurring on their lands and waters. You 
know, we have heard about these recommendations being 
implemented but is there yet more to be done before we can say 
with confidence that we are getting fair value?
    Mr. Cruickshank. I think there is two different questions 
there, and I think Mr. Rusco sort of painted that picture in 
saying we are doing well in implementing recommendations, but 
there is a sort of a larger holistic picture that needs looking 
at. I think that in terms of collecting what folks are supposed 
to be paying us now where I think people are going to be 
confident that we are collecting what folks are supposed to be 
paying. There will be exceptions here and there. That is why we 
have an audit and compliance program to try and find those 
situations where someone is not paying what they are supposed 
to be, and given the number of leases out there, there are 
always going to be instances where we can do something better.
    I think the bigger picture question is just because people 
are paying what they are supposed to be, is that folks believe 
ought to be the right amount overall. Secretary Salazar is 
taking a look at this whole question of what should be the 
amount of royalties and other fees that companies pay that have 
leases. He is taking a look at that with an eye to try to 
figure out what he believes is the right set of policies to 
ensure that the public is indeed getting a fair return for the 
resources that it leases. And I expect in the coming months, we 
will be hearing from the department in that regard.
    Mr. Dicks. Have the ethical lapses in personnel issues that 
plagued the Royalty-in-Kind Office, have you got that 
straightened out?
    Mr. Cruickshank. Yes, we have. As Mary Kendall noted, we 
took action against the folks that were still there. Some had 
retired as she noted, but we did fire some folks, we demoted 
others, we moved several folks to other functions where they 
would no longer be involved in RIK. We took appropriate 
administrative actions against everybody, but more broadly, we 
worked at trying to reform the culture there, both by moving 
out the folks that contributed to the problems as well as 
taking every opportunity to reinforce the importance of ethics 
integrity in the job that we do. There is a new code of ethics 
that has been put in place by Secretary Salazar, we have done 
special training for the RIK staff on how ethics rules apply to 
the work that they do, and we are reinforcing this constantly.

                          PERSONNEL MANAGEMENT

    Mr. Dicks. Do you have the resources to continue to 
implement the recommendations, more specifically, does MMS have 
the appropriate structure and staffing in place to address the 
findings?
    Mr. Cruickshank. I will use a bit of circular logic here. 
We put together an action plan to implement these 
recommendations based on the resources that we have so that we 
would be able to implement them all over a period of time. 
Certainly with different levels of resources we would do things 
at a different speed. I do want to thank the Subcommittee for 
resources it has given us. In the 2009 budget, we have been 
able to hire some more auditors with the additional resources 
received, but we are----
    Mr. Dicks. Is that one of the key things you were short on?
    Mr. Cruickshank. I think that has helped in implementing 
some of the compliance recommendations that we received over 
the years, and I think that we are also now trying to focus a 
little bit more on some of the system issues and some of the 
production accountability issues that have been raised in the 
more recent reports and getting those fixed.
    Mr. Dicks. In your opinion, your personal and professional 
opinion, were the companies taking advantage of laxness at the 
MMS?
    Mr. Cruickshank. I do not believe so, but given there are 
2,100 payers, it is hard to paint them all with a single brush. 
I think most companies are trying to pay based on what they 
believe the regulations require, but in some cases it is not 
always clear what the regulations require because each lease is 
different and there are different types of contracts and 
agreements in place that raise questions of interpretation. And 
a lot of what we get into in the audit, we are always trying to 
figure out is their interpretation reasonable or not and that 
is what a lot of the disputes are over.
    Mr. Dicks. I am reminded of President Reagan's statement, 
trust but verify.
    Mr. Cruickshank. Yes.
    Mr. Dicks. Mr. Simpson.

                       ACTIVITY STATUS OF LEASES

    Mr. Simpson. Thank you, Mr. Chairman. You were just talking 
about non-producing leases versus producing leases. When does a 
non-producing lease become a producing lease?
    Mr. Cruickshank. For MMS purposes, it becomes a producing 
lease when oil and natural gas starts flowing.
    Mr. Simpson. When it starts flowing?
    Mr. Cruickshank. Yes.
    Mr. Simpson. What percentage of the leases are non-
producing, do you know?
    Mr. Cruickshank. I can speak with some specificity. The 
Gulf of Mexico, when this issue came up last year, we sort of 
took an in-depth snapshot of offshore leases in the Gulf of 
Mexico. At that point in time, and the numbers hold up pretty 
well today, 25 percent of the leases were producing, another 15 
percent of the leases it had exploration or development plans 
filed. Now, in order to file a plan, you would have had to have 
done some physical work on the lease, made some investment in 
the lease in order to be able to file those plans. So you have 
about 40 percent of the leases where there is clear tangible 
evidence of work being done. Another 17 percent of the leases 
at that time were less than a year old, and it is probably not 
reasonable to expect them to have done much in the way of 
investment on them that quickly. For the remainder, you know, 
40 percent or so of the leases, as was pointed out by the 
previous panel, we do not really track what companies are doing 
until they file a plan with us. So on some of those leases, 
there is work going on, survey work and hazards assessments and 
the like. But most of those leases are basically being held as 
exploration inventory by the companies. And it is something 
that they see has value because it gives them some options over 
time as to where they choose to drill as new information 
becomes available. But that set of leases where at any given 
time 40 percent or so offshore that are not being necessarily 
actively worked but might be in the future or might not, 
depending how things play out.
    One of the things Secretary Salazar has talked about and 
has been included in the President's budget blueprint is a per-
acre fee on leases that are not producing to try and make sure 
that folks are diligent in their activities.
    Mr. Simpson. Do they pay any fee now?
    Mr. Cruickshank. They pay a rental rate.
    Mr. Simpson. A rental rate?
    Mr. Cruickshank. Yes.
    Mr. Simpson. Which is?
    Mr. Cruickshank. For offshore leases, most recent ones, it 
is $11 an acre for the first 5 years, and for leases that are 
longer than 5-year lease terms it goes up to $16 an acre at 
that point.
    Mr. Simpson. And how big are most of these leases? How many 
acres are we talking about?
    Mr. Cruickshank. We are talking about 5,700 acres per 
lease, for a standard lease.

                   PROPOSED CHANGE FOR NON-PRODUCERS

    Mr. Simpson. How would the President's proposed fee on non-
producing leases work?
    Mr. Cruickshank. The precise language has not been 
developed yet, but as to the mechanics, if the lease is not 
producing in a given year, then it would pay a per-acre fee.
    Mr. Simpson. A per-acre fee?
    Mr. Cruickshank. Yes.
    Mr. Simpson. But are not they paying that now on the $11 
and $16?
    Mr. Cruickshank. They are paying a rental rate. This would 
be in addition to.
    Mr. Simpson. This would be in addition to that?
    Mr. Cruickshank. Yes.
    Mr. Dicks. Well, let me ask you a question on this, and Mr. 
Hinchey, you may want to get involved in this as well. I got 
into this last year, and I found out that there is a procedure. 
Once you got a lease, you have to go through all these hoops, 
and so you cannot start drilling immediately. So will this plan 
or whatever it is take into account--at what point will these 
extra fees set in? You know what I am trying to say?
    Mr. Cruickshank. Yes, I do see what you are trying to say, 
and specific language has not been developed yet. Right now it 
is really being based on whether it is producing or not.
    Mr. Dicks. But on the 10-year offshore leases for example, 
when I got into this, I found out it takes 6, 7 years sometimes 
to get through all the permitting before you actually could be 
drilling. So I would assume that there would be some period of 
time where if they are actively pursing the permit to drill 
that there would not be a fine, which is what this sounds like 
to me.
    Mr. Simpson. Or a fee.
    Mr. Dicks. And then when it is, then I could see it setting 
in. But what is your reaction to that?
    Mr. Cruickshank. I think you raise a very good point. There 
are a lot of ways to structure a fee as to when it would kick 
in or not. Again, generally, we are not tracking what we are 
doing until they file the plan with us as to what work they 
intend to do in terms of drilling wells. Prior to that, any 
investments they are undertaking we are not tracking because 
they are not really disruptive of the sea floor, that they 
would require any particular type of oversight. But certainly--
--

                       IS THE PROCESS A PROBLEM?

    Mr. Dicks. I am all for them doing it as quickly as they 
can, but we all know that there is on any kind of development, 
there is a process that you have to go through and you have to 
get the permits and the impact statements and all the other 
things before you can actually start drilling. I mean, it seems 
to me if people are aggressively pursuing it, that that has to 
be taken into account, out of just fairness.
    Mr. Cruickshank. And there would be a lot of ways to 
consider structuring that. You could have the fee kick in after 
so many years into the lease term or based on particular 
milestones that are transparent and easy to track as to whether 
they have been reached or not.
    Mr. Simpson. But with 40 percent of the leases that are out 
there that are non-producing that we are not tracking? We do 
not know if work is being done on it out there or not. First of 
all, why do we not know that, whether the company is doing 
anything? Do we have any idea how many of them are sitting 
there because they are in a company's future plans and the 
lease came up, they bid on it because they need to, you know, 
plan for the future? And how many of them are sitting out there 
as some have suggested, companies just waiting for the price to 
go up and not producing, driving the price up, that kind of 
stuff?
    Mr. Cruickshank. Well, I think that, you know, in a sense 
any leasing company holder is in some sense within their plans 
because they have to pay, you know, these rentals every year. 
And so if they do not have some concept that they might want to 
explore them some time, they are not going to hold onto them. 
That said, they prioritize what they are holding, and some are 
much more likely to be explored than others. And indeed, you 
know, many leases----
    Mr. Simpson. That was the other thing.
    Mr. Cruickshank [continuing]. Get turned back every year.
    Mr. Simpson. Because of the more likelihood of----
    Mr. Dicks. Right.
    Mr. Simpson [continuing]. On that lease?
    Mr. Dicks. Right. That is what I thought. I brought in the 
MMS and brought in some of the companies. I found out that, if 
there is one area and it is an exciting area, that is where 
they are going to go. And some other areas they would kind of 
be in reserve until they see how this thing develops, which is 
I think how most people would pursue it.

                        WHY IN-KIND ROYALITIES?

    Mr. Simpson. Let me ask you on another subject, the 
royalty-in-kind program. It has been mentioned here, why do we 
do royalty-in-kind? You make the decision, the Government makes 
the decision on whether a royalty-in-kind is a payment or 
whether they pay royalty as cash.
    Mr. Cruickshank. That is correct.
    Mr. Simpson. What factors go into your decision of deciding 
whether it is royalty-in-kind or cash?
    Mr. Cruickshank. In essence what we do is we take a look at 
whether there is an opportunity for the government to get more 
revenue by taking in-kind than taking it in value. There are 
many cases where that is not possible, and we do not even 
consider taking it in-kind. But there are many cases, 
particularly in the Gulf of Mexico, where there is a lot of 
existing infrastructure that gives you choices. There are 
opportunities where we can get better revenue for the 
government taking it in-kind. Then companies would pay in 
value. Part of the reason for that is that companies are 
allowed to deduct the cost of transportation and natural gas 
processing from the price, when they pay us royalties. So the 
deduction is off royalties. In many cases, the companies are 
locked into long-term contracts that might have been good 
contracts at the time but have not held up well over time. 
Sometimes they are locked into going to affiliate companies. 
When we were coming along later and we had some opportunity to 
actually compete for those transportation services, processing 
services, or have the choice to take it to other market 
centers, there are situations where we can actually get a 
better deal taking it in kind than in value. Those are the 
opportunities that we look for.
    Mr. Simpson. You had said that it is not audited.
    Mr. Cruickshank. It is not audited in the classic sense of 
the audits that we do for royalty and value. We do check 
compliance on the production volumes just like we do in royalty 
and value to make sure that the production volumes that are 
coming in are right. It is far easier to track when you are 
getting the right amount of money because it is a contract 
price, and they are paying on that. The only thing you really 
need to verify is production volume. You do not have the issue 
of trying to figure out if the royalties they are reporting are 
correct because the contract price is transparent to us, and we 
are a party to that contract.
    So we are checking the production volumes to see if that is 
right, and then we do also in essence for our own internal 
reviews, oversee our process for the dollars that are collected 
royalty-in-kind to make sure what we are collecting is 
accurate.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Hinchey.

                     REGULATING OFFSHORE PRODUCTION

    Mr. Hinchey. Thank you, Mr. Chairman. What are the 
applications for access to offshore drilling now, applications 
for leases?
    Mr. Cruickshank. That is more of an onshore issue for BLM. 
MMS, we schedule lease sales. We do not do leases by 
application.
    Mr. Hinchey. How are the leases for the offshore drilling 
regulated?
    Mr. Cruickshank. We have a very comprehensive regulatory 
program. Once a decision is made to offer a lease sale, we go 
through a very long process before that decision is made, but 
once the decision is made to hold a lease sale, we have a 
competitive seal bid auction for those leases. We consider 
whether or not the high bid meets our fair market value 
criteria before we decide whether to issue the lease or not. 
Once it is issued, we have the regulatory program in place. 
Initially on the lease, you are allowed to do some basic survey 
work without having to get any additional permits, in essence, 
survey work to just sort of see what is on the sea floor and do 
some non-invasive type of work. But before you want to drill a 
hole, you have to file an exploration plan with us, and that 
requires approval as well as reviewed through Coastal 
Management Program and the like. And then we are inspecting 
them while they are exploring to make sure they are complying 
with that exploration plan. If they find something, if they 
discover something that is commercial to develop, they have to 
file a development plan with us, and the same sort of rules 
apply in terms of having to comply with that development plan, 
and we are watching what they are doing. And then once they are 
actually in production, we have inspectors going offshore every 
day to take a look at the production facilities to make sure 
that they are meeting our safety requirements and the 
environmental requirements that are imposed on every lease.
    Mr. Hinchey. But you do not know how many applications are 
being submitted now for new leases?
    Mr. Cruickshank. Again, for offshore you cannot apply for a 
lease. You have to acquire it through the competitive lease 
sale. Onshore they do have an application process, but that is 
something that you would have to ask Bureau of Land Management 
for more information.
    Mr. Hinchey. What is the process of the competitive lease 
sale as it is going on now?
    Mr. Cruickshank. The process for competitive lease sale 
starts with the 5-year program. If we have not included an area 
as something for a potential lease sale in a 5-year program, it 
cannot be considered. If it is in the 5-year program, we have 
another 1-\1/2\ to 2 year process preparing for the lease sale. 
We are consulting with the governor, getting public comment, 
doing NEPA work. All this leads up to the decision as to 
whether or not to hold the lease sale, and if we do, we 
announce in advance the terms and conditions on the leases in 
that area and on a date that has been noticed at least 30 days 
in advance, and we have a competitive seal bid auction.

                NEW ANALYSIS OF OUTER CONTINENTAL SHELF

    Mr. Hinchey. The Interior Department just recently released 
a survey of the activities in the outer continental shelf some 
time today.
    Mr. Cruickshank. Yes, the executive summary of that report 
was posted today. That is sort of a synthesis of what is known 
about oil and gas as a renewable energy resource potential 
offshore as well as discussion of some of the sensitive 
environmental resources, what we know about them, what we do 
not know, identifying some of the information gaps. And then 
the secretary is following that up with meetings across the 
country over the last couple weeks to try and engage the public 
with some dialogue about how to fill those information needs 
and what sort of things we should consider from the OCS in the 
future.
    Mr. Hinchey. That report is based upon already-existing 
information. It was not based upon any new surveys, is that 
correct?
    Mr. Cruickshank. That is correct.
    Mr. Hinchey. Is there any indication that there will be 
some new analysis of the situation?
    Mr. Cruickshank. That is what the Secretary is hoping to 
generate in these meetings and in written comments that come 
in, that this report identifies some of the areas where our 
information is not as good for decision-making as it might be 
in some other areas, and he would like to get some ideas on the 
best path to follow to fill those information gaps so that he 
will have a better basis for making decisions in the future.
    Mr. Hinchey. We do not have any new information on the 
amount of oil for example that might be available offshore?
    Mr. Cruickshank. We every few years do an assessment and we 
sort of apply new tools to the data that we have, but in areas 
where there has not been new data collected, clearly in the 
Gulf of Mexico we are getting new data all the time, but in 
some of the other areas where there has not been new data 
collected, we are really just sort of applying improved tools, 
analogs from other parts of the world to try and improve our 
understanding of the data we have, but it is not generating new 
data.
    Mr. Hinchey. Is the new data that you have so far given any 
indication of any upgrade in the amount of resources available?
    Mr. Cruickshank. Certainly in the Gulf of Mexico we are 
continually getting new data. Actually, the estimates of 
undiscovered technically recoverable resources have grown over 
time as you get new data as wells are drilled, sort of ground 
truth the data that you have had. We have been able to get much 
better information on the resources that may be there. In the 
areas that have not had activity in 20 or 30 years, those 
numbers really are not changing very much because there is 
really not a lot of new information to apply.
    Mr. Hinchey. Okay. Thank you.

                        ADJUSTING ROYALTY RATES

    Mr. Dicks. The previous witnesses testified about the 
royalty rates charged by the Federal Government when compared 
to other countries. What are the current royalty rates for the 
federal leases, and does MMS have plans to propose increased 
royalty rates in the future?
    Mr. Cruickshank. For the Gulf of Mexico, MMS has increased 
the royalty rates twice over the last 2\1/2\ years, and the 
current royalty rates in the Gulf of Mexico are 18\3/4\ percent 
for all newly issued leases. Royalty rates are different in 
Alaska. There is a lower royalty rate there, 12\1/2\ percent, 
recognizing the higher cost of operating in that environment. 
And onshore, I think the royalty rates are generally 12\1/2\ 
percent as well. Secretary Salazar is taking a look at the 
royalty rate issue but has not made any decisions at this time 
as to what changes he might seek to implement.
    Mr. Dicks. Do you agree with the analysis about where we 
rank compared to all the other countries?
    Mr. Cruickshank. I agree with the recommendation. I am 
familiar with some of the reports GAO looked at, and though 
they are the best reports out there, they really were not 
designed to look at that question. They were designed for other 
purposes, but I think that really goes to the underlying point. 
There has not been a systematic look at what we are collecting 
relative to what other countries are doing. So I think that 
recommendation, that perhaps it is time to take a detailed look 
at how we collect, you know, what rates we set, what taxes we 
set, all the different components of government take, how they 
fit together and whether they are right for where we want to be 
today. I think that is a legitimate question to be asking. I do 
not think there has been a study in recent times that has 
really looked at that question the way it ought to be looked 
at.
    Mr. Dicks. When was the last time it was evaluated? Do you 
have any idea?
    Mr. Cruickshank. For MMS, for offshore leases, there was a 
lot of work done in the late '70s, early 1980's and the OCS----
    Mr. Dicks. So it is 30 years?
    Mr. Cruickshank. Yes, 25, 30 years.
    Mr. Dicks. Do you need resources in order to do that?
    Mr. Cruickshank. It depends on the nature of the study. I 
mean, there is certainly a lot of things we can do with current 
resources, but if one were to step back and sort of do the 
study to end all studies on this question, that is probably a 
pretty big undertaking.
    Mr. Dicks. Well, that would be something we would be 
interested in. Do you think an independent third source or 
outside source should look at this because of the issues that 
have been raised on ethical issues, et cetera? Or do you have 
the competence to do this study inside?
    Mr. Cruickshank. In terms of government take, I think that 
we certainly have folks that have the training to be able to do 
that sort of study, but they also have other jobs.
    Mr. Dicks. Yes.
    Mr. Cruickshank. And as Mary Kendall was saying earlier, 
you sort of step back to look at these big picture questions 
the way they ought to be looked at, and those people are not 
doing their other things. So that may argue for bringing in 
some other folks to take a look at some of those questions.

                         IMPACT ON THE INDUSTRY

    Mr. Dicks. I assume if you put out an RFP you would be able 
to get very competent people who could do this work.
    Mr. Cruickshank. I would think so.
    Mr. Dicks. Now, when you do these increases in royalties, 
what are the impacts in the industry? What happens?
    Mr. Cruickshank. In essence, what one would expect to 
happen in an increased royalty rate is you would actually see a 
decrease in revenue for a short time. Folks would bid less 
bonus money. If they know they are going to have to pay more 
royalty downstream, they might not acquire as many leases as 
they otherwise would. So you will see a little bit of drop-off 
in bonus and rental rate, but over time for at least the 
changes we have made, we expect the overall collections to go 
up because once these leases come into production, the higher 
royalty rate, they are going make up the money that you may 
have given up in the first couple years once they go into 
production. Production will also fall somewhat, of course, 
because if you are not issuing as many leases, there will be 
fewer going into production. And the royalty rate in and of 
itself tends to lead to folks ending producing a little bit 
earlier than they otherwise would. So those are the sort of a 
trade offs you have to consider when deciding what the right 
royalty rate might be.
    Mr. Dicks. Mr. Simpson?
    Mr. Simpson. On third-party verification, when you are 
verifying the reporting, if a company owns both the pipeline 
and the connection facility, what do you use as third-party 
verifying?
    Mr. Cruickshank. Well, in essence, the third party is a 
pipeline system that may be affiliated with the producer in 
that case. We are getting the wrong tickets from the meters. We 
do go out and inspect the meters to make sure they are not 
being tampered with, but in essence, your third party is not 
fully independent----
    Mr. Simpson. Still depending on----
    Mr. Cruickshank. Yes.
    Mr. Simpson. Talk to me a little bit about Alaska and what 
is going on up there. What about the lawsuits that are 
continuing around offshore production in Alaska?
    Mr. Cruickshank. Well, certainly everything that folks have 
tried to do in Alaska the last few years has led to litigation. 
The 5-year program has been challenged. The lease sales we have 
held in Alaska have been challenged. The exploration plans 
people have filed so they could actually try and do some 
exploration activity on these leases have been challenged. And 
at this point, most of those lawsuits are ongoing.
    Mr. Simpson. And those are on offshore facilities? We are 
not talking about ANWR?
    Mr. Cruickshank. That is right. We are talking about 
offshore leases here.

                           INSPECTING LEASES

    Mr. Dicks. Let me just sneak one in. According to the 
previous testimony, your agency is not meeting the statutory 
obligation or agency targets for conducting inspections of 
certain leases and metering equipment used to measure 
production. Is that true, and if it is, what can we do to deal 
with that?
    Mr. Cruickshank. The report actually noted that BLM was not 
meeting its statutory requirements, and I cannot answer what 
they are doing in that regard. For MMS, we are meeting our 
statutory requirements, but we had our own internal goals, to 
inspect beyond what was required by statute, and we were not 
meeting those targets. And again, part of that was redirecting 
resources after the hurricanes to try to deal with the 
infrastructure issues and getting things back on line. So we 
were not inspecting some of the day-to-day things as we had 
intended in setting those targets. But if we do not have 
another bad hurricane season, hopefully we will be back to 
doing sort of the day-to-day work that we intend to do.
    Mr. Dicks. Do you need additional people to get caught up?
    Mr. Cruickshank. It is not really a matter of getting 
caught up in terms of these inspections. You know, once you go 
out there and look at them, you are caught up. It is not like 
if you missed it a couple of times you have to look at it three 
times to--you need to get out there once, and I think again 
that we have the resources. We have inspectors going off every 
day, weather permitting, and we are looking at those meters 
when we go out there. But again, if there is some extraordinary 
event, we may have to again reallocate resources based on those 
events.
    Mr. Dicks. Mr. Hinchey, anything further?
    Mr. Hinchey. Thank you, Mr. Chairman. In your testimony you 
talk about the responsibility that MMS has to ensure the proper 
payment for the resources that we have. Are you doing any new 
analysis of that? Have there been any plans in place or 
potentially coming up that would look into that?
    Mr. Cruickshank. In terms of the royalty rate and fee 
structure or in terms of what people are paying?
    Mr. Hinchey. Yes, in terms of what the corporations are 
paying for leases and things like that.
    Mr. Cruickshank. In terms of royalty rate and bonuses and 
the like, Secretary Salazar and his new management team are 
taking a hard look at that across the board for onshore and 
offshore leases as to what the right royalty rates ought to be 
and what other terms and conditions ought to be looked at.
    Mr. Hinchey. So some time later this year there will 
probably be something new on that do you think or not?
    Mr. Cruickshank. I do not know the timeframe, but I expect 
it would be sooner rather than later.

                                 ALASKA

    Mr. Hinchey. In the 20 million acres up in Alaska, how many 
leases are there on that land right now?
    Mr. Cruickshank. Offshore, I do not know the numbers of 
leases off the top of my head.
    Mr. Hinchey. No, onshore, 20 million acres onshore.
    Mr. Cruickshank. I cannot speak for onshore leases. BLM 
manages those.
    Mr. Hinchey. Okay. Thanks, Mr. Chairman.
    Mr. Simpson. Why is Alaska a challenging environment in 
terms of lawsuits being filed against everything as opposed to 
the Gulf or other places?
    Mr. Cruickshank. Well, I would almost say the Gulf is the 
exception in not getting lawsuits, in part because the oil and 
gas industry has operating in the Gulf for so long that it is 
part of the culture, it is part of society, it is accepted 
there. It is not something new coming in, and these other 
areas----
    Mr. Dicks. And the fish are doing well, and that is----
    Mr. Cruickshank. And the fish are doing well, yes.
    Mr. Dicks. That makes a big difference. I think in Alaska, 
there is a concern about what the impact will be. You had the 
Exxon Valdez and some catastrophic events, so there is more 
sensitivity. That would be part of the answer I think at least.
    Mr. Cruickshank. Yes, I think that is part of the answer, 
and generally I think when you are coming in with a new, major 
sort of industrial activity in a place that has not had it 
before, you are going to have a lot of people who are going to 
be concerned about that. And it tends to draw litigation, at 
least for a while, until there is enough of a track record that 
people are either comfortable or the litigation has sort of run 
its course on how the program is going to be run in that area.
    Mr. Simpson. Thank you, Mr. Chairman. I was just telling 
Mr. Hinchey that I told the Chairman that we had reached common 
ground during the break.
    Mr. Hinchey. As usual. Mr. Chairman, is there any 
possibility that we could get an answer to that question about 
the onshore drilling up in Alaska, those 20 million acres?
    Mr. Dicks. Yeah, we will ask BLM. We will send them a 
letter.
    Mr. Hinchey. Okay.
    Mr. Dicks. I will be glad to do it.
    Mr. Hinchey. Thank you.
    Mr. Dicks. On this subject, one of the areas being 
considered in the current 5-year plan is the North Aleutian 
Basin in Alaska. This area sale is scheduled for 2011. There 
have been some serious concerns raised about the potential 
impacts to the environment in this sale area because of its 
significance to the commercial fishing industry. How will you 
proceed on this sale and what environmental reviews will you 
undertake to ensure we are not causing damage?
    Mr. Cruickshank. At this point there has been no decision 
as to whether to hold the sale or not. We are undertaking the 
process one takes leading up to a sale decision. We are 
currently funding several environmental studies of the North 
Aleutian Basin to get a better understanding of the fisheries 
issues, the subsistence issues, of marine mammal issues. All of 
those studies will go into doing a full environmental impact 
statement as well as coastal zone consistency with the state. 
We are also working very closely with the local communities and 
other stakeholders in that area. All of this will feed into a 
decision-making process as to whether or not to hold the sale. 
The sale is then currently scheduled for 2011, so we are still 
a ways out until we reach a decision point.

                          THE MMS 5-YEAR PLAN

    Mr. Dicks. Now, you have a 5-year plan, is that not 
correct?
    Mr. Cruickshank. That is correct.
    Mr. Dicks. And nothing happens unless you are in the 5-year 
plan?
    Mr. Cruickshank. That is correct.
    Mr. Dicks. So now that the law has changed and we do not 
have a restriction, how will that work? When is the 5-year plan 
renewed, every year?
    Mr. Cruickshank. No, it is partially----
    Mr. Dicks. Explain it to us.
    Mr. Cruickshank. The current 5-year plan is 2007 through 
2012, but it only included one area that had been under 
restriction at the time that plan went into place, and that is 
the area offshore Virginia.
    Mr. Dicks. Off of Virginia, right.
    Mr. Cruickshank. For the other areas, they were not in that 
5-year plan and cannot be offered under this plan. However, the 
prior Administration, based on the changes in the moratoria, 
started the process for putting a new 5-year program in place. 
And that generally is a 2- to 3-year process to get a new 5-
year program in place because there are three rounds of public 
comment and other analyses that are required by the statute. So 
that process got underway. Secretary Salazar extended the 
comment period on the first of the three proposals for 6 months 
until late September so he could have these meetings and talk 
with folks and gather more information before deciding how to 
proceed. A new 5-year program can be put in place as soon as we 
have done that whole process. We do not have to wait until the 
current one expires in 2012.
    Mr. Dicks. So you could do it in 3 years?
    Mr. Cruickshank. Yeah, since we actually started last 
summer with starting a new one----
    Mr. Dicks. Three years last summer.
    Mr. Cruickshank [continuing]. It is possible by 2011 we 
could have a new 5-year program in place if the secretary 
wanted to do so in that timeframe. We do not really need to 
have one in place until mid-2012 when the current one expires.
    Mr. Dicks. And what areas will you be looking at in this--
--

                         DRAFT PROPOSED PROGRAM

    Mr. Cruickshank. Well, the draft proposed program that went 
out for public comment included a lot of areas. It included the 
traditional areas we have had in the central and western Gulf 
of Mexico and four parts of Alaska, but it also put on the 
table for consideration the north central and south Atlantic as 
well as particular basins, northern and southern California. 
They are known to contain oil because of past exploration 
activity. So those are sort of the new areas that were put on 
the table in this last proposal.
    Mr. Dicks. So those will be the ones under consideration 
for the next 5-year plan?
    Mr. Cruickshank. Well, yes, they are on the table now. 
There will be a lot of comment through this comment period, 
through late September, and then Secretary Salazar would still 
have two proposals to go before a new 5-year program goes in 
place, and at this point, he has not said what areas that he 
would consider including in the next 5-year program.
    Mr. Dicks. Okay.

                      THE OUTER CONTINENTAL SHELF

    Mr. Simpson. Do you know if they are going to propose 
putting the moratorium back in place?
    Mr. Cruickshank. I have not heard that anybody is 
considering that but----
    Mr. Simpson. But you never know.
    Mr. Cruickshank. I hate to predict what might happen.
    Mr. Simpson. Thank you.
    Mr. Hinchey. Just one brief?
    Mr. Dicks. Yes, Mr. Hinchey.
    Mr. Hinchey. The lifting of the moratorium on the outer 
continental shelf, the offshore drilling, what impact is that 
going to have on MMS and what are you planning on doing with 
regard to that change?
    Mr. Cruickshank. The impact will depend on whether or not 
new areas are actually included in the 5-year program. If new 
areas are included, particularly in areas where we really have 
not been doing any work for 30 years, there is clearly a lot of 
work we will need to do to get better information on the 
environmental resources, to get better information on what oil 
and gas resources may be there, what the development scenarios 
may be. There is a lot of work that would go into it, being 
able to get the information you need to do your NEPA analyses 
and to put together a good lease sale and design a program. So 
to the extent new areas are added, we will have a lot of work 
to do before we can actually hold the lease sale.
    Mr. Hinchey. Thanks.
    Mr. Dicks. Who does the geologic work? Do you have the 
ability to do it or do you----
    Mr. Cruickshank. We do resource assessments based on the 
data. You know, seismic data is generally shot by the private 
sector, but when they are doing under permit from us and under 
those permits they have to give us the data. We have geologists 
that can interpret that data as well.
    Mr. Dicks. Evaluate?
    Mr. Cruickshank. Yes.
    Mr. Dicks. Okay. All right. The Committee stands adjourned 
until later in the month.

[GRAPHIC] [TIFF OMITTED] T2296B.022

[GRAPHIC] [TIFF OMITTED] T2296B.023

[GRAPHIC] [TIFF OMITTED] T2296B.024

[GRAPHIC] [TIFF OMITTED] T2296B.025

[GRAPHIC] [TIFF OMITTED] T2296B.026

[GRAPHIC] [TIFF OMITTED] T2296B.027

[GRAPHIC] [TIFF OMITTED] T2296B.028

[GRAPHIC] [TIFF OMITTED] T2296B.029

[GRAPHIC] [TIFF OMITTED] T2296B.030

[GRAPHIC] [TIFF OMITTED] T2296B.031

[GRAPHIC] [TIFF OMITTED] T2296B.032

[GRAPHIC] [TIFF OMITTED] T2296B.033

[GRAPHIC] [TIFF OMITTED] T2296B.034

[GRAPHIC] [TIFF OMITTED] T2296B.035

[GRAPHIC] [TIFF OMITTED] T2296B.036

[GRAPHIC] [TIFF OMITTED] T2296B.037

[GRAPHIC] [TIFF OMITTED] T2296B.038

[GRAPHIC] [TIFF OMITTED] T2296B.039

[GRAPHIC] [TIFF OMITTED] T2296B.040

[GRAPHIC] [TIFF OMITTED] T2296B.041

[GRAPHIC] [TIFF OMITTED] T2296B.042

[GRAPHIC] [TIFF OMITTED] T2296B.043

[GRAPHIC] [TIFF OMITTED] T2296B.044

[GRAPHIC] [TIFF OMITTED] T2296B.045

[GRAPHIC] [TIFF OMITTED] T2296B.046

[GRAPHIC] [TIFF OMITTED] T2296B.047

[GRAPHIC] [TIFF OMITTED] T2296B.048

[GRAPHIC] [TIFF OMITTED] T2296B.049

[GRAPHIC] [TIFF OMITTED] T2296B.050

[GRAPHIC] [TIFF OMITTED] T2296B.051

[GRAPHIC] [TIFF OMITTED] T2296B.052

[GRAPHIC] [TIFF OMITTED] T2296B.053

[GRAPHIC] [TIFF OMITTED] T2296B.054

[GRAPHIC] [TIFF OMITTED] T2296B.055

[GRAPHIC] [TIFF OMITTED] T2296B.056

[GRAPHIC] [TIFF OMITTED] T2296B.057

[GRAPHIC] [TIFF OMITTED] T2296B.058

[GRAPHIC] [TIFF OMITTED] T2296B.059

[GRAPHIC] [TIFF OMITTED] T2296B.060

[GRAPHIC] [TIFF OMITTED] T2296B.061

[GRAPHIC] [TIFF OMITTED] T2296B.062

[GRAPHIC] [TIFF OMITTED] T2296B.063

[GRAPHIC] [TIFF OMITTED] T2296B.064

                                         Wednesday, April 22, 2009.

                    TESTIMONY OF MEMBERS OF CONGRESS

                               WITNESSES

HON. GERALD E. CONNOLLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
HON. PAUL KANJORSKI, A REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH 
    OF PENNSYLVANIA
HON. DEBBIE HALVORSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
HON. DIANE WATSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. MADELEINE BORDALLO, A REPRESENTATIVE IN CONGRESS FROM THE UNITED 
    STATES TERRITORY OF GUAM
    Mr. Dicks. The committee will come to order. We have 
Congressman Connolly here, and we will put your entire 
statement in the record and you may summarize in 5 minutes.
                              ----------                              --
--------

                                         Wednesday, April 22, 2009.

                         HEMLOCK WOOLY ADELGID

                                WITNESS

HON. GERRY CONNOLLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Connolly. Thank you, Mr. Chairman and Mr. Simpson for 
the opportunity to testify today. I have just three things that 
I want to bring to the Subcommittee's attention; the first has 
to do with land preservation and protecting drinking water 
sources and the establishment of public park land. We were just 
talking about this, Mr. Chairman, before we began this hearing. 
But supporting local initiatives to allow for the acquisition 
of conservation of land is really important, especially for the 
headwaters of our drinking water supply. Frankly, this has been 
sort of ignored in many parts of the country. So trying to make 
sure we pay more attention to the headwaters can make a big 
difference in drinking water quality.
    Secondly, and Congress has already actually on a bipartisan 
basis, approved action on this, and that is to address the 
issue of invasive species, and the specific one I would bring 
to your attention is what is happening with the Hemlock Wooly 
Adelgid. Almost every member of this Subcommittee will have 
parts of his or her district that would be affected by invasive 
species such as the Wooly Adelgid. We are looking at the 
complete denuding of forests and mountainsides because of these 
invasive species. So I am requesting appropriations that would 
allow the Forest Service to address this issue in a more 
systematic way. Again, Congress, on a bipartisan basis, has 
supported doing this in previous legislation on the authorizing 
side.
    I have a map here in the testimony that shows which parts 
of the country are being affected, and I just thought you might 
want to look at that in terms of it is fairly dramatic what is 
happening.
    My third and final request, Mr. Chairman, has to do with 
the Chesapeake Bay Watershed and that issue. There is a lot we 
could do to try to make sure that that watershed is protected 
as you and I were just talking before this hearing. There was a 
very dramatic program last night on PBS entitled ``Poisoned 
Waters,'' that highlighted both Puget Sound and the Chesapeake 
Bay Watershed. This request is intended to make sure that we 
are doing everything in our power to meet Chesapeake Bay 
Restoration goals. I just think that is an important part of 
what we are doing as well, and I know the National Capital 
Region and most of the Maryland and Virginia delegation join in 
urging you to address that issue.
    So that is my summary of my testimony, Mr. Chairman.
    If you would like to ask me----
    Mr. Dicks. One thing, you know, we have to be able to do is 
get some grant money back. You were in charge of the local 
community, and you know, we do not have any grants. We have 
loan money that comes back.
    Mr. Connolly. That is right.
    Mr. Dicks. And these very small STAG grants, $1 or $2 
million or $500,000, you know, something in that range. When 
Ruckelshaus was the administrator of the EPA under Nixon, he 
had $4.5 billion a year. It was like 80/20 grant money, and 
especially the rural communities.
    Mr. Connolly. That is right.
    Mr. Dicks. They can not do these projects. So if we are 
ever going to save the Chesapeake or Puget Sound, we have got 
to figure out some way to more substantially help these local 
communities.
    Mr. Connolly. Absolutely.
    Mr. Dicks. And the money now goes all into revolving funds, 
as you know, and then the money has to be paid back. Now, we 
changed the language a little bit so that the state, as it does 
with drinking water, can have forgiveness if the local 
community cannot afford to repay. So we think that is a 
temporary fix, but I have introduced legislation, and I know 
Mr. Oberstar is working on this, we have got to do something 
more substantial or these communities are simply not going to 
or cannot do the projects.
    Mr. Connolly. You are exactly right, Mr. Chairman. And I 
think we have certainly seen that in the Chesapeake Bay 
Watershed. There is an unevenness of the ability of communities 
to be able to respond. The more affluent communities have been 
very aggressive in both water treatment and sewage treatment 
and have made a big difference in point-source pollution, for 
example. But in more rural parts of the watershed, it is much 
more difficult for communities already under economic stress to 
be able to make the kind of economic investments they need to, 
you know, do their part.
    The other part I would suggest to you which of course is 
not within the purview of the Appropriations Committee but just 
following up on the program last night that we watched with 
Hedrick Smith, and I do think that the Federal Government has 
some other opportunities over and above financial incentives, 
although those are important, where some policy changes may 
make a big difference in helping to provide uniform standards 
for communities, specially when you are looking at the issue of 
urban and suburban sprawl. We are going to be working on that 
in separate legislation. I certainly will share with you when 
we are ready.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. Just out of curiosity, how do you control the 
Hemlock?
    Mr. Connolly. There actually is treatment for the Hemlock 
thing, but it is spreading very rapidly.
    Mr. Dicks. Spray?
    Mr. Connolly. Pardon me?
    Mr. Dicks. It is a spray?
    Mr. Connolly. Yeah, it is a spray, that is right.
    Mr. Dicks. Do you have to do it individually or do you have 
to do it by plane?
    Mr. Connolly. I believe you can do it by plane.
    Mr. Dicks. Okay. Thank you.
    Mr. Connolly. Well, we could lose the Hemlock, Mr. Simpson, 
the way we have lost other species in America. That would be 
truly tragic.
    Mr. Dicks. Well, I would agree with you. Invasive species 
is a huge issue. It is a huge issue throughout the country, 
just different species.
    Mr. Simpson. That is right.
    Mr. Dicks. I appreciate it. Thank you.
    Mr. Simpson. Thank you.
    Mr. Dicks. All right. Mr. Kanjorski, we are very pleased to 
have you here.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    Mr. Dicks. We have been stalling to make sure you were on 
time. But we are glad to have you here. I know you had to tear 
yourself away from the Banking Committee. Let me just tell you 
about one thing before we start here. Broker deposits. That is 
all I heard about from our small community banks in the State 
of Washington, that FDIC is limiting them or saying they can 
not take brokered deposits. I heard the number might be 15 
percent. But these banks are saying this is absolutely 
critical, and I just mention this because of your high ranking 
position.
    Mr. Kanjorski. They are being denied by FDIC.
    Mr. Dicks. And they say it is hurting them very badly, and 
they are not making loans.
    Mr. Kanjorski. Well, a lot of our friends are negotiating 
these deals where they reach 1,000 banks.
    Mr. Dicks. Well, you are here to talk about Interior 
projects. We are going to give you 5 minutes to kind of 
summarize your projects, and we will try to help.
                                         Wednesday, April 22, 2009.

                     CHERRY VALLEY WILDLIFE REFUGE


                                WITNESS

HON. PAUL KANJORSKI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Kanjorski. Well, Mr. Chairman, there are two projects I 
am here for today. The first is the Cherry Valley National 
Wildlife Refuge, and it is in Monroe County, Pennsylvania, my 
district. It is the most recently declared refuge, 20,000 
acres, very unique territory. This will allow the Nation Refuge 
to get planned and started. We are requesting $3 million for 
it. It was most recently accommodated the status of a refuge. 
It is quite unique. It even has the bog turtle, and I know you 
are fully familiar with the bog turtle.
    But no, I do have to say it was the most fascinating 
experience in 24 years in Congress in terms of for the first 
time a bipartisan group of over 200 to 300 citizens came 
together and supported creating a National Wildlife Refuge in 
Cherry Valley. And the original study was so successful that 
although it was just an initial study supposed to be reported 
by the U.S. Fish and Wildlife Service they took it right to the 
point where it was declared a refuge and saved about four 
years, which was quite unique. Everybody was so stunned with 
it. But this Refuge is a great thing because it is located in 
one of the fastest-growing counties in Pennsylvania. The area 
is attracting tremendous populations from the New York/New 
Jersey area and we want to save the tremendous virtues of 
Cherry Valley. So that would be very helpful.
    The second project is in the same basic county of 
Pennsylvania. It is known as the Shawnee Valley Preservation 
Project, and that is right on the border of the Delaware Water 
Gap National Recreational Area. And there we have one of the 
largest, the 10th most-visited national park system with almost 
5 million visitors each year. These additional funds are needed 
to maintain and protect the 67,000 acres of mountain ranges, 
forests and flood plain along the Delaware River. My 
constituents and I are hoping that we can recognize these two 
tremendous land protections and for the purposes of the Shawnee 
Valley Preservation Project, we are requesting a $3 million 
appropriation.
    Now, considering the fact that I have been in Congress for 
24 years and I have never to my knowledge had an earmark before 
this Appropriations Subcommittee, and every time I call that to 
the Chairman's attention, he assures me that can not be 
correct, I would like to make note of that at least.
    Mr. Dicks. And as I have always told you, your day will 
come. But I have only been Chairman for two-and-a-half years. 
It is two terms.
    We will go to work on these. These look like good projects.
    Mr. Kanjorski. I would appreciate it, Mr. Chairman, and if 
you do, in Washington State, have a problem with these brokered 
accounts, let us know. I would be happy to maybe take a trip 
out there to shine some light on this because I think it is 
very important. We have got regulators that in some respects 
have shut down the system improperly, and that they should not 
do because, you know, that makes funds available really for the 
community banks. They are seriously injured.
    Mr. Dicks. Thank you. Mr. Simpson.
    Mr. Simpson. No, that is fine. Thank you.
    Mr. Dicks. All right.
    The Clerk. Congresswoman Watson is on her way from the 
Capitol right now.
    Mr. Dicks. Apparently we can do away with the next one.
    The Clerk. She is on her way from the Capitol.
    She was told 1:15.
    Mr. Dicks. I was just kidding.
    Well, let us let Ms. Halvorson testify.
    Ms. Halvorson. Thank you so much.
    Mr. Dicks. We will put your statement on the record, and 
you have five minutes to summarize.
                              ----------                              

                                         Wednesday, April 22, 2009.

                             RIDGEWOOD STAG


                                WITNESS

HON. DEBBIE HALVORSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Ms. Halvorson. Great. Thank you. Thank you, Chairman Dicks, 
and Ranking Member Simpson and members of the Subcommittee for 
the opportunity to testify.
    The project I am here to discuss is located in my district, 
Will County, Illinois. Will County is a rapidly growing county 
located approximately 30 miles southwest of Chicago, and in the 
last 25 years, the population of Will County has doubled to 
over 700,000 people.
    The expansion has come with some growing pains, and in just 
one generation, Will County has transformed from a mostly rural 
county to one that is now heavily suburban. While the suburban 
communities generally have the infrastructure to accommodate 
growth, the smaller, rural communities have been left behind.
    One such community is the Ridgewood neighborhood in the 
unincorporated area just outside of the City of Joliet in Will 
County. While Ridgewood is very close to one of the largest 
cities in Illinois, it lacks the basic water and sewer 
infrastructure of a modern community. One hundred eight-two 
homes in Ridgewood do not have access to municipal sewer 
services. Most of these properties have inadequate septic 
systems or none at all. Septic runoff seeps into local 
groundwater or directly into nearby Hickory Creek. Students at 
a local school recently had to cross the streets covered in 
septic discharge. An even more dangerous problem is the fact of 
discharge on the drinking water supply in Ridgewood. The 368 
properties in Ridgewood do not even have access to municipal 
water service.
    These properties obtain their drinking water from 
individual or small community wells. A private well testing 
program administered by the Will County Health Department found 
that 30 percent of these tested positive for fecal 
contamination.
    The government of Will County is moving forward with a 
multi-phased plan to address the problems in Ridgewood, and the 
plan will implement a municipal system for water and sewers. 
Phases 1 and 2 of the plan have already been completed, and 
this work included the construction of sanitary sewers and a 
water main. The next two planned phases are designed and need 
funding to be constructed. These phases will extend service to 
approximately 188 additional properties, and the estimated cost 
to complete the entire project is approximately $20 million.
    Over the past several years, Will County has spent nearly 
all of their Community Development Block Grant money on the 
Ridgewood project. Will County is requesting $550,000 from the 
EPA STAG account in fiscal year 2010 for Phases 3 and 4 of the 
project. The county has the 45,000 local match for the federal 
funding, so if they are able to secure the funds that they will 
be able to start work on these improvements immediately.
    The Ridgewood project will have a significant regional 
impact in Will County. The proximity to the City of Joliet and 
major roadways makes Ridgewood a prime location for economic 
development. However, without addressing the major 
infrastructure issues, attracting development will be much more 
difficult.
    So this project, which is supported by state and local 
officials, as well as the Will County Center for Economic 
Development, I respectfully ask for the Subcommittee on 
Interior and Environment approval of my appropriations request 
for the Ridgewood Project, and I again thank you all so much 
for giving me the time to address all of you.
    Mr. Dicks. Well, you are very welcome, and one thing we 
want you to know is we sent money out in the stimulus package. 
So make sure that your people in Ridgewood and Will County, 
make sure they check that out.
    Ms. Halvorson. Okay.
    Mr. Dicks. Because that is a possibility.
    Ms. Halvorson. Okay. We will.
    Mr. Dicks. You know, that does not mean we are saying it is 
an either/or proposition.
    Ms. Halvorson. Okay.
    Mr. Dicks. What we are just saying is we are advising 
members that there is money out there at the state level----
    Ms. Halvorson. For that.
    Mr. Dicks [continuing]. To come back to the local 
communities to do these projects.
    Ms. Halvorson. Great.
    Mr. Dicks. But we checked on it, so we know that----
    Ms. Halvorson. Oh, terrific. So there is something that----
    Mr. Dicks. Yes. You know, each state determines how they 
are going to do this.
    Ms. Halvorson. I know. I served 12 years in the senate----
    Mr. Dicks. We have the Department of Ecology----
    Ms. Halvorson [continuing]. In Illinois.
    Mr. Dicks [continuing]. In our state handle these things. 
So there might be a way to really move this ahead quickly. 
Mike.
    Mr. Simpson. Exactly.
    Ms. Halvorson. Thank you.
    Mr. Dicks. And we agree with you. We just were talking 
before you got here with Congressman Connolly about the fact 
that we need to have something more than just STAG grants. They 
are too small. You know, I always tell people that when 
Ruckelshaus was administrator of EPA, he had $4.5 billion in 
grant money to give away every year to local communities, 80/
20. This is under President Nixon, and that is all gone. You 
know, Mr. Oberstar is looking at it and trying to recreate it. 
We are glad you are here.
    Ms. Halvorson. Thank you both so much, and to the 
Committee, I appreciate all your help. Thank you.
    Mr. Dicks. Yes, thank you, Debbie. Now we have 
Congresswoman Diane Watson of California. Welcome, Diane.
    Ms. Watson. Thank you so much, Mr. Dicks, and members.
    Mr. Dicks. Well, glad to have you here today.
                              ----------                              

                                         Wednesday, April 22, 2009.

                  STORM WATER, SECONDARY SEWER RENEWAL


                                WITNESS

HON. DIANE WATSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Watson. And members, and I thank you for allowing me to 
testify before your Subcommittee. And I have two top priorities 
for fiscal year 2010. I sincerely hope that the testimony today 
will encourage the Subcommittee to fund these projects at their 
requested levels.
    The first project request I have submitted would grant $1.3 
million for Storm Water Improvement, trash removal and trash 
removal devices on catch basins. The project would install 
trash removal devices in 834 catch basins throughout Culver 
City to comply with the total maximum daily load regulations 
regarding trash.
    The devices will consist of automatic retractable screens 
along the curb face to keep larger solids out of catch basin 
and connector pipe screens inside catch basins to retain all 
the debris larger than five millimeters.
    The catch basin that you would be installing in Culver City 
would prevent trash pollution from entering Ballona Creek and 
finding its way to the ocean and polluting the Santa Monica 
Bay. In recent years, there have been significant environmental 
improvements, but the Bay continues to face the challenges of 
health risks to my constituents, to other users, and habitat 
degradation resulting from urban runoff pollution.
    Also, funding for this project will ensure that Culver City 
is compliment with the State and federal mandates which require 
the elimination of trash from the storm by 2013 through the 
Ballona Creek.
    The second request that was submitted would grant $550,000 
for the Secondary Sewer Renewal Project. In the year 2004, the 
City of Los Angeles and its Department of Public Works reached 
a settlement agreement with various governmental and 
environmental agencies to rehabilitate and replace old, damaged 
and substandard sewer pipes throughout the city through a 10-
year period. These sewer pipes are small, less than 16 inches 
in diameter, but are very important because they connect to 
residents' and businesses' private sewers.
    They convey flows to larger pipes that carry wastewater to 
the Hyperion Treatment Plant in Playa del Ray where it is 
treated to a high quality before being released into Santa 
Monica Bay. Rehabilitation of the faulty sewer pipes will 
improve sewer flows, reduce maintenance and potential sewer 
spills, and help minimize sewer odors.
    So, Mr. Chairman and members, I thank you again for the 
opportunity to present our top project request for the fiscal 
year 2010.
    Mr. Dicks. Well, I know that area very well, and I am glad 
you are working on this. We wanted you to know that California 
has, and this is in the stimulus package, $282 million. So you 
may want to go check with the State Department of Ecology. That 
is not saying anything about how we are going to judge this.
    Ms. Watson. Sure.
    Mr. Dicks. But take a look at that, because you may be able 
to get that done right now.
    Ms. Watson. What we did was a breakdown as to, as they say, 
shovel-ready projects and what they would do for the City of 
Los Angeles. I represent another city called Culver City, and 
it is right next.
    Mr. Dicks. Right.
    Ms. Watson. And so I want to be sure that we also recommend 
for your consideration----
    Mr. Dicks. Oh, no, we understand that.
    Ms. Watson [continuing]. Those projects.
    Mr. Dicks. I am just saying----
    Ms. Watson. And I will, you know.
    Mr. Dicks [continuing]. It appears that you were in the 
state senate----
    Ms. Watson. Oh, sure. Sure.
    Mr. Dicks [continuing]. So you know the state government. 
But you know, in our state, the Department of Ecology just 
awarded a pretty substantial amount of money for projects like 
this.
    Ms. Watson. Well, we are going to certainly check it. We 
are seeking every source we can.
    Mr. Dicks. Very good.
    Ms. Watson. So thank you so much for having me here, and we 
will certainly check with the other allocations.
    Mr. Dicks. Madeleine, you are up next. Congresswoman 
Bordallo, and we are glad to have you here. We will put your 
statement in the record, and you may proceed.
                              ----------                              

                                         Wednesday, April 22, 2009.

          DOI INSULAR AFFAIRS, EPA CLEAN WATER INFRASTRUCTURE


                                WITNESS

HON. MADELEINE BORDALLO, A REPRESENTATIVE IN CONGRESS FROM THE UNITED 
    STATES TERRITORY OF GUAM
    Ms. Bordallo. Thank you very much. Mr. Chairman, it is nice 
to see you again, and Ranking Member, Mr. Simpson.
    Over the next five years, Mr. Chairman, the civilian and 
military populations on Guam will increase substantially as a 
result of the major military realignments in the Pacific region 
and the Alignments Transformation Agreement with the government 
of Guam, and you and I have talked about this in the past.
    Mr. Dicks. Right.
    Ms. Bordallo. Of particular importance to Guam is the 
rebasing of 8,300 Marines and 9,000 of their dependents from 
Okinawa to Guam. Now, the compressed timeline for the 
realignment of forces requires the Federal Government to 
partner closely with the government of Guam to complete 
construction and improve infrastructure both on and off the 
base in such a condensed timeframe.
    The Department of the Interior is central to the 
interagency and intergovernmental process. There is a need for 
major and significant civilian infrastructure upgrades on Guam, 
and I take this opportunity today to highlight a few of these 
critical needs which are associated with project requests that 
I have filed with this Subcommittee for fiscal year 2010.
    Of particular relevance to this particular Subcommittee are 
the needed water and wastewater infrastructure improvements. I 
request an appropriation of not less than $600,000 for the Guam 
waterworks Authority under the Environmental Protection 
Agency's State and Tribal Assistance Grants account. 
Additionally, I join my colleagues from the territories in 
requesting that the Subcommittee specifically include language 
in its mark allowing the EPA Administrator to reserve up to 
one-half of 1 percent of the amounts to be appropriated to the 
Clean Water and Drinking Water State Revolving Funds for 
projects in the territories.
    Mr. Dicks. What percentage? 1 percent?
    Ms. Bordallo. It is one-half of 1 percent. Reserving a 
half-a-percent off the top line of each fund for the small 
territories, that is, for Guam, the Northern Mariana Islands, 
American Samoa, and the Virgin Islands, is consistent with 
treatment afforded them under other federal programs and has 
precedent in how funds are made available to the tribal 
governments for projects. Under the formulas used for 
allocating revolving fund monies to the 56 states and 
territories, it guarantees that no single state receive less 
than 1 percent of the overall funding. Most states receiving 
well over the 1 percent minimum, including the least populated 
state. Our request grants flexibility to the administrator, if 
she so chooses, to reserve up to half-a-percent for all four 
territories.
    EPA has identified upwards of $151 million in needed high-
priority waste and wastewater infrastructure projects in Guam, 
the CNMI, and American Samoa alone. This is a public health 
issue, Mr. Chairman, and will increasingly become more severe 
if infrastructure improvements are not made. Our water supply 
and delivery systems on Guam are antiquated, to say the least. 
They were built by the Navy after World War II, and it is 
expensive to render repairs on it.
    The Government of Guam alone is working to finance and 
execute high priority, critical, shovel-ready wastewater 
infrastructure improvement projects totaling $32.9 million. For 
Guam, a total of $54.1 million worth of drinking water 
infrastructure improvement projects are planned and they await 
execution.
    The government of Guam is challenged in financing these 
critical projects due to the state of the bond market, 
declining revenues, and the lack of capital. In fact, a 
moratorium on new construction on Guam is currently in place 
until water delivery and wastewater system upgrades are made. 
Therefore, a STAG appropriation to the Guam Waterworks 
Authority in fiscal year 2010 is important to not only 
advancing compliance with federal law but also to enabling 
economic development and simultaneous expansion of the tax base 
on Guam, thereby increasing local revenues that can be expended 
to improve water and wastewater infrastructure.
    Now, of equal importance is the issue of our solid waste, 
and more specifically, the closure and the replacement of the 
Ordot Landfill on Guam. I have requested an appropriation of 
$20 million under the Environmental Protection Agency's 
Superfunds cleanup account for this project. Mr. Chairman, we 
are facing a critical juncture where the estimated life of the 
Ordot Landfill is less than 850 days away, and federal 
assistance is required for its closure and replacement to be 
properly and adequately financed. This project is important to 
protecting public health and drinking water on Guam and is of 
increasing importance given the interest to both Department of 
the Navy and the Department of the Air Force to utilize the new 
landfill for solid waste generated at Naval Base Guam and 
Anderson Air Force Base respectively. This is a shovel-ready, 
environmental, sustainability project consistent with the 
national interest. Given the selection, opening and past 
disposal of hazardous waste at the Ordot Landfill by the United 
States military, it is important and justified that some 
federal assistance for its proper closure and replacement be 
extended to us. This requested appropriation would provide some 
basis for meeting that objective and federal responsibility, so 
I urge you to do all that you can to bring attention to this 
project in your Committee report and to appropriate funds to 
the EPA and/or the Department of the Interior to help finance 
the closure and the replacement of the Ordot Landfill.
    Apart from these infrastructure priorities and the requests 
directly associated with population growth and increased 
federal presence on Guam, I have submitted several requests 
relative to the Office of Insular Affairs, the National Park 
Service, and the Fish and Wildlife Service. First, I have 
requested $400,000 to be appropriated to the Office of Insular 
Affairs for grants in support of a political status education 
program on Guam.
    This particular request is directly related to the 
Department of the Interior's responsibility for the political 
advancement of Guam. Given the time that has elapsed since the 
last referendum was held on political status in 1982, and an 
entirely new generation of registered voters, it is important 
that the right to self-determination on Guam be fulfilled and 
that federal funds be appropriately expended in support of a 
public education campaign strictly to explain political status 
options. A plebiscite has been authorized by the Guam 
Legislature, and funding for political status education is now 
needed.
    The appropriation for federal funds for this purpose is not 
without precedent. U.S. Public Law 101-45 appropriated $3.5 
million to the Territory of Puerto Rico to participate in the 
legislative process involving the future political status of 
Puerto Rico. So furthermore, with respect to the now-
independent Republic of Palau in a Compact of Free Association 
with the United States, U.S. Public Law 101-219 appropriated 
such sums as may be necessary for a further referendum on 
approval of the Compact, if one is required, or other 
appropriated costs associated with the approval process in 
Palau.
    Therefore, I hope that this Subcommittee looks favorably 
upon this request and appropriates funds to the Office of 
Insular Affairs for the purpose of educating the public on Guam 
about political status options. Doing so is entirely consistent 
with the mission of the Office and with the trust 
responsibilities of the Federal Government relative to the 
fulfillment of self-determination for the people of Guam.
    I have also requested $1 million be appropriated to the 
National Park Service for the restoration of the Memorial Wall 
located in the Asan Bay Overlook Unit of the War in the Pacific 
National Historical Park on Guam. The Memorial Wall is 
corroded, discolored, bent and has been subject to vandalism 
since its construction in 1996. Just today I learned that no 
funds appropriated to the National Park Service under the 
American Recovery and Reinvestment Act will be applied to this 
project or any other at our park on Guam. This does remain a 
concern to me. Three years ago, you and I, Mr. Dicks, had a 
colloquy on the floor about this particular need. So I hope 
some appropriation for it can be made a part of this year's 
bill.
    I have also requested an appropriation of $75,000 to 
preserve ancient Chamorro cave art within the Guam National 
Wildlife Refuge which is a core mission of this refuge unit and 
is culturally significant to our people of Guam. And finally, I 
am concerned that the Fish and Wildlife Service is 
significantly under-resourced to undertake and complete the 
actions it is required to under the terms of the Presidential 
Proclamation signed by President Bush in January that 
established the Marianas Trench Marine National Monument. I 
have requested an appropriation of $200,000 for the Fish and 
Wildlife Service for work associated with this new Marine 
Monument. The Service, which has no one stationed on Guam or in 
the SNMI assigned to this new responsibility, could expend 
these funds for additional personnel on Guam or in the CNMI and 
to support travel to and outreach in Guam and the CNMI by its 
regional officials assigned to prepare management plans for 
this project, the Marianas Trench Marine National Monument.
    All the details of the projects I have drawn your attention 
to today are in the request letter and forms that I have filed 
with your Subcommittee. And I want to thank you, Mr. Chairman, 
very much and Mr. Simpson, Ranking Member, for allowing me to 
testify on these matters of great importance to my constituency 
on Guam.
    Mr. Dicks. Well, we realize what a difficult situation you 
are in out there, and we want to work with you on these 
requests. And we want to have your staff in contact with our 
Committee staff on this.
    Ms. Bordallo. They will work very closely with you, Mr. 
Chairman.
    Mr. Dicks. Mr. Simpson. Thank you.
    Ms. Bordallo. Thank you.
    Mr. Dicks. Thanks for being here. The Committee will be 
adjourned until tomorrow.
                                         Wednesday, April 22, 2009.

                LAW ENFORCEMENT ISSUES IN INDIAN COUNTRY

                               WITNESSES

THERESA TWO BULLS, PRESIDENT, OGALA SIOUX TRIBE
JOE GARCIA, PRESIDENT, NATIONAL CONGRESS OF AMERICAN INDIANS
SARAH DEER, NATIVE AMERICAN AND ALASKA NATIVE ADVISORY COUNCIL TO 
    AMNESTY INTERNATIONAL USA, AND VISITING PROFESSOR, WILLIAM MITCHELL 
    COLLEGE OF LAW
GEORGE SKIBINE, ACTING ASSISTANT SECRETARY FOR INDIAN AFFAIRS, 
    DEPARTMENT OF THE INTERIOR
JERRY GIDNER, DIRECTOR, BUREAU OF INDIAN AFFAIRS

                      Opening Statement: Mr. Dicks

    Mr. Dicks. The committee will come to order. I welcome 
everyone and thank you for being here today. At our hearing 
this morning we will look at the problem of inadequate law 
enforcement in Indian Country and the challenges officials face 
in ensuring the safety and well-being of the people they serve.
    The issue of crime in Indian Country is not one that 
appeared overnight. Rather, decades of inattention and funding 
shortages have created a climate where law enforcement officers 
are simply overwhelmed. In recent years this problem has 
reached crisis levels. Violence in Indian Country is twice the 
national average for other communities. According to the Bureau 
of Justice Statistics, one in three Native women will be raped 
or sexually assaulted in her lifetime. With these kinds of 
statistics, it is clear that this issue warrants this 
committee's attention.
    The committee has heard from numerous tribal leaders about 
the problems that plague Indian Country including substance 
abuse, particularly the use of methamphetamine. Substance abuse 
can destroy families and communities but the problem is much 
worse when communities are specifically targeted.
    The U.S. Attorney from Colorado, who is involved with 
investigating drug trafficking on reservations, said that 
Indian reservations are being used as business development 
tools by large drug trafficking organizations. The complex 
jurisdictional issues associated with crime in Indian Country 
often make it difficult to associate tribal, state and federal 
law enforcement authorities in order to respond to criminal 
activities in an adequate and timely manner. While I understand 
that this issue falls under the responsibility of many 
different agencies and subcommittees, we will primarily be 
focusing on how the Department of the Interior and the Bureau 
of Indian Affairs are responding to the challenges they face in 
carrying out their missions.
    This committee also has jurisdiction over the Indian Health 
Service, and although they are not here today to testify, they 
will be testifying at a hearing in May and we will continue to 
discuss these issues with them at that time.
    This committee has provided $50.6 million in increases in 
the past two years to begin to address this problem, bringing 
the total funding for BIA law enforcement to $255 million. We 
also provided $38 million in increases in the Indian Health 
Service to address the issues of substance abuse and domestic 
violence and $22 million for detention center construction. We 
look forward to hearing from the Department on how they are 
using this funding to reduce crime in Indian communities. I 
might add that that funding was done on a bipartisan basis.
    I know this is a very sensitive and often personal issue to 
discuss at a public hearing but it is one that needs to be 
addressed. I thank our witnesses for appearing here today. I 
know there are no easy solutions and that this problem will 
require more than one hearing or even one committee to fully 
understand the scope of the situation. However, it is vitally 
important that we further educate ourselves in order to better 
assist law enforcement officers and the people they serve.
    Mr. Simpson.

                     Opening Statement: Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman.
    I want to join Chairman Dicks in welcoming each of you to 
this morning's hearing. We are grateful for your commitment and 
the critically important work that you do. Of the many 
challenges facing Indian Country, those issues related to law 
enforcement are among the most severe, troublesome and 
destructive in human terms. Escalating levels of violence 
against women, widespread incidence of alcohol and drug abuse, 
the proliferation of methamphetamine on reservations, child 
neglect and abuse, and a corresponding lack of law enforcement 
and detention facilities have left many areas within Indian 
Country ill equipped to address these issues.
    Under Chairman Dicks' leadership, this subcommittee has 
begun to address a number of funding shortfalls associated with 
those issues through the Safe Indian Communities Initiative. On 
a bipartisan basis two years ago, this subcommittee provided $8 
million in additional funding to combat a meth epidemic so 
severe that it is regarded by the FBI as the cause of up to 50 
percent of the violent crime in Indian Country. I am especially 
eager to hear from our witnesses today how these dollars are 
being put to use and whether any measurable signs of progress 
have emerged. Congress has a responsibility to make certain 
that federal dollars are being spent effectively before 
providing additional funding support. The BIA too has a 
critical role to play in ensuring that the most critical law 
enforcement needs of Indian Country are being met.
    Of all the challenges this subcommittee faces, addressing 
the health and well-being of our Native American brothers and 
sisters is among the most important to me personally. Congress 
has an obligation to address the great disparities that exist 
between American Indian, Alaska Native populations and other 
populations in the United States. I take seriously Congress's 
responsibility to meet these needs and look forward to our 
discussions today.
    Thank you, Mr. Chairman.
    Mr. Dicks. Yes. We now will hear from our first panel of 
witnesses. We will start with President Two Bulls of the Oglala 
Sioux Tribe followed by Joe Garcia, president of the National 
Congress of American Indians, and then Sarah Deer representing 
Amnesty International.
    But before we start with the witnesses, I would like to 
welcome Congresswoman Stephanie Herseth Sandlin to introduce 
Theresa Two Bulls, president of the Oglala Sioux Tribe. 
Congresswoman Herseth Sandlin has worked with the committee to 
bring attention to the issues of law enforcement. In fact, I 
visited South Dakota with Stephanie to get a good appraisal of 
the situation and we really learned from the people on the 
ground just how serious this problem is. So we want to welcome 
you here today and you may proceed to introduce the witness.

                   Introduction of Theresa Two Bulls

    Ms. Herseth Sandlin. Thank you, Chairman Dicks, Ranking 
Member Simpson, other distinguished members of the 
subcommittee. I appreciate you holding this important hearing 
and for allowing me to join you this morning to introduce one 
of today's witnesses, Oglala Sioux Tribe President Theresa Two 
Bulls. I appreciate this opportunity to say a few words about 
the challenges facing tribal law enforcement and justice 
systems in South Dakota and throughout Indian Country.
    As the at-large representative for the state of South 
Dakota, I have the privilege of representing nine tribal 
nations. All nine Lakota, Nakota and Dakota tribes face 
significant law enforcement challenges, challenges that are 
exacerbated by their large land base, their rural location and 
the prevalence of poverty.
    Today President Theresa Two Bulls will speak to the 
challenges facing the Oglala Sioux Tribe, one of the largest 
tribes in South Dakota both in terms of population and 
reservation size. President Two Bulls hails from a family with 
a long history in tribal law enforcement. In fact, her great-
grandfather was one of the first tribal police officers for the 
Oglala Sioux Tribe. Prior to her election as tribal president 
in November of 2008, President Two Bulls served as a tribal 
prosecutor, tribal secretary, tribal vice president and state 
senator. She will speak to the challenges facing the Oglala 
Sioux Tribe's police department, tribal courts and detention 
systems. She can also shed light on the Oglala Sioux Tribe's 
current efforts to design and construct a new justice center in 
Pine Ridge with the support of the Bureau of Indian Affairs. I 
am confident that her expertise and perspective will yield 
important contributions to today's hearing.

                   HERSETH SANDLIN'S TRIBAL LAW BILL

    As the subcommittee knows, the federal government is 
responsible for working with tribes to ensure safe communities 
but, unfortunately over the years it has not met the great 
needs of Native communities. For example, today fewer than 
3,000 law enforcement officers patrol more than 56 million 
acres of Indian Country. Let me repeat, 3,000 officers for 56 
million acres. That reflects less than one-half of the law 
enforcement presence in comparable rural communities. On many 
Indian reservations, officers respond to emergency calls 
without backup and travel to remote locations without adequate 
radio communication. These kinds of statistics are one of the 
reasons I recently introduced H.R. 1924, the Tribal Law and 
Order Act of 2009, which is based on extensive hearings and is 
a companion bill to Senator Dorgan's Senate Bill 797. This 
legislation represents a step toward increasing tribal control 
over law enforcement and justice systems as well as increasing 
accountability measures for the Bureau of Indian Affairs and 
Department of Justice. H.R. 1924 would clarify the 
responsibilities of federal, state, tribal and local 
governments with respect to crimes committed in tribal 
communities. It would increase coordination and communication 
among federal, state, tribal and local law enforcement 
agencies, empower tribal governments with the authority, 
resources and information necessary to safely and effectively 
provide for the public safety in tribal communities. It would 
reduce the prevalence of violent crime in tribal communities 
and combat violence against Indian and Alaska Native women, 
address and prevent drug trafficking and reduce rates of 
alcohol and drug addiction in Indian Country and increase and 
standardize the collection of criminal data and the sharing of 
criminal history information among federal, state and tribal 
officials responsible for responding to and investigating 
crimes in Indian communities.
    While the Tribal Law and Order Act addresses systemic law 
enforcement issues, the bill is just one element in the 
comprehensive approach that is needed to address the tribal law 
enforcement challenges the subcommittee will hear about today. 
I know the subcommittee will do its very best with its annual 
allocation and will continue to work hard in future years to 
reach the level of funding needed to fully meet the needs of 
tribal law enforcement, detention and tribal court systems 
throughout Indian Country.
    To this end, I would like to thank Chairman Dicks and the 
subcommittee for recognizing that there is a public safety 
crisis in Indian Country. In fiscal year 2008 and fiscal year 
2009, as was mentioned, this subcommittee in a bipartisan 
fashion increased funding through the Safe Indian Communities 
Initiative including $28.6 million additional funds in fiscal 
year 2009. Your leadership and efforts are recognized in 
communities across the nation and I applaud your continuing 
attention to tribal law enforcement and justice issues 
including Chairman Dicks' visit to South Dakota a year and a 
half ago. I know the subcommittee will benefit from hearing 
President Two Bulls' testimony and I again thank Mr. Chairman 
for allowing me to join you this morning. I look forward to 
continuing to work with you and the subcommittee to address the 
tribal law enforcement challenges throughout Indian Country.
    Mr. Dicks. You are always welcome and we appreciate your 
testimony and your concern and effort on this important issue.
    Mr. Moran. Mr. Chairman, can I have five seconds?
    Mr. Dicks. Yes.
    Mr. Moran. Stephanie, would you put me on your bill, 
please?
    Ms. Herseth Sandlin. Thank you.
    Mr. Dicks. Theresa.
    Ms. Two Bulls. Good morning.
    Mr. Dicks. Good morning.

                     Statement of Theresa Two Bulls

    Ms. Two Bulls. My name is Theresa Two Bulls. I am president 
of the Oglala Sioux Tribe. I appreciate your holding this 
hearing. Nothing is more important to me and to other tribal 
leaders than the safety of our people, and today, because of 
the inadequate law enforcement, detention, courts and 911 
funding, many of our people are not safe.
    Mr. Chairman, common sense tells us that law enforcement, 
detention, courts, 911 and treatment programs and facilities 
have to be looked at as a package. Take away or weaken any one 
of these and the others fail to work properly. Today not one of 
these programs is funded at 50 percent of need and our facility 
situation has reached a crisis level. You have no doubt heard 
the BIA testify about the fact that law enforcement in Indian 
Country is only funded at around 40 percent of basic need but 
that percentage is far lower for large land-based tribes like 
Pine Ridge Indian Reservation. This is because our large size 
adds substantially to our vehicle, gasoline and basic manpower 
costs. As a result, our response time is much longer than other 
smaller reservations and their response time is generally 
abysmal.
    Let me give you some actual statistics from our reservation 
which I believe will hold true for all of the other large land-
based tribes. At Pine Ridge, we receive approximately 75,826 
calls for police service each year. That is about 6,083 calls 
per month. We are forced to answer those calls with 48 police 
officers. We used to have 110 officers; since 1990 budget cuts 
and inflation have decreased our force by over 50 percent. That 
means that each officer has to try to respond to 506 calls per 
month and has to drive around 350 miles per shift. That number 
of calls is not manageable for a police officer in an urban 
area where the calls are only 10 to 15 minutes away but it is 
impossible for us given that many of our calls are 50 to 60 
miles apart. As a result, we have a sizable number of calls 
that simply go unanswered altogether and a number of 
investigations that simply cannot be properly undertaken. 
During our February storm, we had a stabbing in one of our 
homes and our officers could not get to the body for two days 
because we had no equipment that could cross the snow-covered 
roads.
    All of our officers have to work alone with backup at least 
40 minutes away. Every day we have single officers walking 
along into parties with 20 or more intoxicated or stoned 
individuals or with a subject brandishing a deadly weapon. This 
has led to many unnecessary injuries. We have no money for 
stress management or mental health programs for our officers so 
our turnover rate is very high. Please do not think that these 
situations are unique in Pine Ridge because it is happening on 
reservations throughout the United States today.

                       THE HUMAN IMPACTS OF CRIME

    Let me explain what this means in human terms by telling 
you about one case. A young woman gets a restraining order 
against her ex-boyfriend, who has been beating her up. She is 
home alone and wakes up to find that man trying to break into 
her home with a crowbar. She calls the police but the nearest 
police officer is 40 miles away. The young officer who gets 
that call starts driving to the scene at 80 miles an hour on 
very bad roads. By the time he finally reaches the home, that 
young woman is on the floor covered in blood with no 
perpetrator in sight. The officer wants to start looking for 
that man but by that time he has three or four equally pressing 
calls to answer. This is an everyday occurrence at Pine Ridge.
    The situation is equally bad in our detention program. 
Because of inadequate funding, our jailers are often forced to 
work alone overseeing up to 50 male and female pre-sentenced 
offenders who are more often than not under the influence of 
alcohol or drugs. That makes a very dangerous situation. We 
have had our jailers attacked many times and more often than 
not they have had to rely on other prisoners in the cell for 
their protection. Unfortunately, even with cutting back 50 
percent of our staff since 1990, our current BIA law 
enforcement budget only funds our 48 officers' salary and some 
of their gas. The same is true for our detention budget. 
Virtually all of our cars, training needs and equipment have to 
come from money that we have to compete for from DOJ 
competitive grants. If the Congress enacts a yearlong 
continuing resolution, if we forget a signature on a DOJ grant 
application or if we lose out in the competition, we are sunk 
because we have no funding for cars, training and equipment 
during that period. These DOJ COPS and Byrne grants were not 
established to provide base funding for any law enforcement, 
detention, courts or 911. They were designed to allow local law 
enforcement to address one-time needs for a special piece of 
equipment or a special type of training. Given that most of 
these programs require matches that we cannot afford and 
expenditure or our own limited funds to pay the indirect costs 
that they fail to pay, there are often more problems than they 
are worth but we have no other choice. We need them just to 
keep our program operating at the poor level that it is today.

                  JUSTICE FACILITIES IN INDIAN COUNTRY

    We also need adequate facilities in which to operate these 
programs. We have five such condemned facilities at Pine Ridge. 
Because we are remote, we have no space that we can rent. Our 
Kyle Jail, courthouses and substations are so bad that we have 
lost staff because their doctors advised them that the 
condition of the building was leading them to have permanent 
respiratory problems. Our tribal court, which hears 
approximately 2,470 criminal and 2,000 civil cases a year, is 
also seriously underfunded. It operates with only one chief 
judge and one associate judge. Given our size, we are forced to 
operate two separate tribal courts, one at Pine Ridge and the 
other at Kyle, which is 60 miles away. These courts simply 
cannot keep up with the workload so our local law enforcement 
officers have started papering many violent alcohol-related 
crimes as mere public intoxication offenses because they know 
that our judges and prosecutors simply cannot handle the 
workload. Even with this approach, we are still receiving in 
excess of 20 new domestic violence cases each month. Our court 
is so broke that it is forced to operate on old, outdated and 
often broken computers which were purchased at Walmart. Our 
software is outdated and does not even allow us to open many of 
the files we receive. These computers have no virus protection 
software, no spam blockers, no security firewalls and we have 
no offsite backup for our files. Thus, if a tornado or a fire 
were to occur, we could lose all of our records. Because we 
have no commercial scanners, inadequate file cabinets and 
inadequate filing space, most of our files over six years old 
are stored in cardboard boxes that are stacked in our 
basements. Thus, our court records are regularly subjected to 
mold, mildew, water leaks, dust and decay. I cannot imagine any 
state judge or prosecutor having to use a hair blow dryer to 
make an official record usable in a case, but we do at Pine 
Ridge.
    I could go on for hours about our problems but I will end 
saying that obviously what we need is an adequate, reliable, 
law enforcement detention, courts, 911 and diversion service 
budget which takes our individual tribal needs into 
consideration. We also need facilities to house these 
activities. Nothing else will curb reservation crime.
    Thank you again for your deep felt concern and for taking 
the time to hold this very important hearing.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296B.065
    
    [GRAPHIC] [TIFF OMITTED] T2296B.066
    
    [GRAPHIC] [TIFF OMITTED] T2296B.067
    
    [GRAPHIC] [TIFF OMITTED] T2296B.068
    
    [GRAPHIC] [TIFF OMITTED] T2296B.069
    
    Mr. Dicks. Thank you.
    Joe.

                        Statement of Joe Garcia

    Mr. Garcia. Good morning, everyone. Greetings from the All 
Indian Pueblo Council as well as the 19 pueblos of New Mexico 
and from NCAI.
    Chairman Dicks and members of the committee, thank you for 
inviting NCAI to testify today. I commend the committee for 
holding this important oversight hearing. Native Americans are 
victims of violent crime at rates more than double those of any 
other community in the United States. One-third of our women 
will be raped in their lifetimes. Crime rates have been 
increasing in Indian Country while they have been falling in 
similar low-income communities throughout the United States. 
This is a matter of life and death. It is time, it is well past 
time for Congress to take action.
    Nearly two years ago, I had the opportunity to testify 
before the Senate Committee on Indian Affairs on this topic. At 
that hearing, I laid out what I saw to be the four primary 
factors that have created the public safety crisis in many 
tribal communities. Number one, criminal jurisdiction in Indian 
Country is extremely complex and responsibility is shared among 
federal, tribal and state authorities. This requires a high 
degree of commitment and cooperation from the feds, the state 
officials and the tribes, and that is difficult to establish 
and maintain. Number two, federal and state authorities do not 
prioritize their role in law enforcement on Indian reservations 
and there is no system of accountability. Number three, law 
enforcement in Indian Country suffers greatly from a lack of 
resources for policing, investigation, prosecution, courts, 
jails, and treatment and rehabilitation services. All of these 
factors combine to create a perception problem that encourages 
criminal activity and makes victims fearful in assisting law 
enforcement or prosecution.
    As overwhelming as these problems are, we have solutions 
and that is what I would like to focus on today. The Tribal Law 
and Order Act was recently reintroduced in the Senate and 
Representative Herseth Sandlin has introduced a companion bill 
in the House. This bill was developed in close collaboration 
with Indian Country. It includes many provisions aimed at 
increasing state and federal accountability for law 
enforcement. At the same time, it would also strengthen tribal 
government capacity. NCAI strongly supports this bill. It must, 
however, be paired with an increase in resources in order to 
achieve its goals.
    Basic law enforcement protection and services are severely 
inadequate for most of Indian Country. To put it in 
perspective, Indian Country law enforcement officers make up 
.004 percent of all law enforcement officers in the United 
States yet they patrol 2 percent of the land of the United 
States and 1 percent of the population. Tribal detention 
facilities are notoriously overcrowded and in deplorable 
condition. Tribal courts receive virtually no funding from the 
federal government, and treatment and rehabilitation services 
in Indian Country are severely lacking. Adequate funding for 
tribal law enforcement, detention, tribal courts and 
rehabilitation and treatment services simply must be a higher 
priority.
    In addition to increasing funding, we urge Congress to 
consolidate and streamline law enforcement funding sources. 
This is the most important piece that can get us through is 
that we have to satisfy projects and funding and reporting to 
basically service the funding sources more so than get the 
services out where they are needed, the actual reality of the 
situation. Currently, tribal criminal justice funds are divided 
up primarily between the DOI, Department of Interior, and 
Department of Justice. Within the DOJ, these funds are further 
divided into dozens of competitive grants for specific 
purposes. Funding for prevention, rehabilitation and treatment 
programs, key components of any community's approach to 
reducing crime, are located in yet other entities such as IHS, 
SAMHSA and elsewhere within the Department of Health and Human 
Services. The result is an ad hoc system where tribal law 
enforcement will receive vehicles but no maintenance or a 
detention facility that will be constructed but not staffed. A 
tribal police department will receive radios but no central 
dispatch. There is a need to streamline the funding available 
through the Department of Justice, Department of Interior, 
Department of Health and Human Services and potentially other 
departments such as Homeland Security, and I think this is the 
most important piece that we can really move forward on. NCAI 
stands committed to help this effort.
    I thank all of you again for taking up this important topic 
and we will be happy to answer any questions that you may have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296B.070
    
    [GRAPHIC] [TIFF OMITTED] T2296B.071
    
    [GRAPHIC] [TIFF OMITTED] T2296B.072
    
    [GRAPHIC] [TIFF OMITTED] T2296B.073
    
    Mr. Dicks. Sarah.

                        Statement of Sarah Deer

    Ms. Deer. Honorable Chairman and members of the committee, 
my name is Sarah Deer and I am a citizen of the Muscogee Creek 
Nation. I am a visiting professor of law at William Mitchell 
College of Law in St. Paul, Minnesota, and a member of the 
Native American and Alaska Native Advisory Council to Amnesty 
International USA's Stop Violence against Woman campaign. I 
understand that this is the first House Appropriations 
Committee hearing ever to focus specifically on law enforcement 
in Indian Country. I applaud you for making this historic 
moment possible. Thank you for inviting me to testify on sexual 
violence against American Indian and Alaska Native women.
    Sexual violence against Native women is but one example of 
the significant disparities that exist for Native peoples in 
accessing health services and justice in the United States. 
Native women are more than two and a half times more likely to 
be raped or sexually assaulted than women in the United States 
generally, and one in three will be raped in their lifetime. 
The vast majority of these crimes will go unpunished.
    There are three major challenges to ensuring adequate law 
enforcement response to these crimes. The first is jurisdiction 
and authority, the second is funding, and the third is 
training. In 1978, the Supreme Court ruled that tribal 
governments do not have criminal jurisdiction over non-Indians. 
This may account for the statistics that indicate that most 
perpetrators of crimes of sexual assault and rape against 
Native women are non-Native. Any serious long-term efforts to 
address sexual violence against Native women must include a 
legislative fix to address this jurisdictional gap. It will be 
vital in the long run for Congress to re-recognize the right of 
tribal authorities to prosecute all crimes committed on tribal 
land regardless of whether the suspect is Native or non-Native.
    An effective response to rape or sexual assault must 
include law enforcement and health care. It is almost 
impossible to prosecute a rape without forensic evidence. This 
mandates that both law enforcement and health care providers 
have a protocol to ensure exams take place in a timely manner. 
It is imperative that the Bureau of Indian Affairs work 
collaboratively with the Indian Health Service to establish 
these cooperative protocols with the guidance of Native women 
advocates. Moreover, it is imperative that the BIA ensures that 
all law enforcement personnel are trained on the implementation 
of such protocol.
    According to the Department of Justice, tribes only have 
between 55 and 75 percent of the law enforcement resources 
available to comparable non-Native rural communities. If there 
are not enough law enforcement personnel appropriately trained 
and available to respond to sexual assaults, Native women may 
never be transported to a health care facility for treatment 
and there may never be an investigation.
    The IHS is also critically underfunded and lacks personnel 
trained to provide services in the cases of sexual assault. 
Sexual assault nurse examiners, known as SANEs, are health care 
providers with expertise in conducting forensic examinations. 
SANEs are inseparable from law enforcement investigation in 
these cases. In other words, increasing funding for BIA law 
enforcement will only be effective if there are corresponding 
funding increases for IHS and specifically for SANEs. The best 
way to ensure that a perpetrator is held accountable is 
cooperation between law enforcement, SANEs, victim advocates 
and prosecutors. The only way a prosecutor can introduce 
forensic evidence in prosecution is to have the person who 
collected it testify under oath. SANEs and other IHS personnel 
that have conducted forensic exams must be available to testify 
in criminal prosecutions in tribal, state and federal courts. 
Current IHS regulations and policies present unacceptable 
barriers to testimony by employees. In other words, an IHS 
employee can be instructed to ignore a subpoena from a 
prosecutor. One section of the Code of Federal Regulations 
states explicitly that no employee or former employee of the 
Department of Health and Human Service may provide testimony or 
produce documents in any proceedings unless authorized by that 
agency head after consultation that the compliance with the 
request would promote objectives of the Department.
    I would like to conclude with three recommendations. First, 
increase funding for law enforcement on tribal lands and direct 
the BIA to train law enforcement personnel on responding to 
cases of sexual violence. Second, increase funding to IHS in 
the amount of $908 million and ensure that at least $25 million 
goes to SANE programs in IHS facilities. And third, direct the 
IHS to issue a report on their response to subpoenas in 
criminal cases.
    Thank you again for allowing me to testify before you today 
and thank you for the work you have done so far. I look forward 
to working with you in the future to stop this epidemic of 
sexual violence against Native women. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296B.074
    
    [GRAPHIC] [TIFF OMITTED] T2296B.075
    
    [GRAPHIC] [TIFF OMITTED] T2296B.076
    
    [GRAPHIC] [TIFF OMITTED] T2296B.077
    
             FINDING A SOLUTION TO CRIME IN INDIAN COUNTRY

    Mr. Dicks. Thank you. Thank you all for your very 
comprehensive testimony and you have given us some very good 
possibilities in terms of action that can be taken by our 
subcommittee.
    We now have a new Administration which has vowed to 
increase resources and attention to Native American and Alaska 
Native issues, particularly the lack of law enforcement 
resources in Indian Country. In fact, in a press release issued 
in March of this year, Secretary Salazar vowed to work towards 
a solution to crime in Indian Country. He stated that it is one 
of those first-tier issues for us. What short-term and long-
term steps would each of you suggest the Department and the 
Bureau of Indian Affairs take to work toward a solution to the 
problem?
    Mr. Garcia. I think one of the most important things is 
that President Obama also made important notes about that some 
of the current systems that are in place in terms of operations 
and functionality of a lot of the departments and agencies and 
other areas are so very, very weak, and unless we fix that, all 
the funding in the world is not going to improve a whole lot, 
so I think that is another major issue that we really need to 
look at. For instance, in the detention centers, there are 
other reasons besides the lack of funding that those facilities 
fell apart, and that has to go back to operations or lack 
thereof and other things of the sort and so they are related to 
the operations and the day-to-day functions of a lot of these 
agencies and I think this is what I meant about the funding, 
that if the funding goes out to uncorrelated and uncoordinated 
agencies to fight the same common cause, everybody is doing 
their own thing. The end result is deficient systems and 
deficient results for the efforts, and I think that is a major 
factor and so I would like to see that be a consideration in 
how we move forward. Of course, it takes a little bit more time 
but I think in the end it would help us by greater than 50 
percent of our efforts and improve the services that are 
provided.

                           COOPERATION ISSUES

    Mr. Dicks. In the testimony, it was said that there is 
concern about the federal and state response as well as the 
adequacy of the tribal law enforcement itself. How does that 
work? I mean, how do the state or county officials or the 
federal officials get involved?
    Mr. Garcia. One important piece, I think, Mr. Chairman, is 
that there is a lot to be said about the relationships between 
tribes and their states, and so if tribal entities have a great 
relationship or good relationship with the states, the 
partnerships and the collaborations between cities, tribes, 
counties, state police works a lot better and so if you do not 
have that kind of relationship, then the results are even more 
critical, I think, and so you do not get optimal performance 
but again that is another area that needs to be worked on and 
any of the funding sources is not going to impact that, so it 
has got to be a comprehensive look and I think that is what I 
meant about the federal system and the state system and the 
tribal systems. They have got to be coordinated efforts because 
the safety of our people is really the bottom line.
    Mr. Dicks. On law enforcement, having been out there, 
realizing how big the reservation is and how difficult it is to 
get people, as you said, 40 miles away, do you think, is there 
a distinction made about rural areas? I mean, do rural areas 
get extra law enforcement because of the distances, or do you 
know how the BIA handles that when they make decisions about 
who gets how many officers? Do they look at the fact that it is 
a rural area with great distances to cover?
    Ms. Two Bulls. Mr. Chairman, I cannot speak for the Bureau 
of Indian Affairs on their dollar formula but whatever it is, 
it is just not working on Pine Ridge. We do not have enough 
officers due to the budgets cuts which happen yearly. They cut 
our budget so we have to cut officers.
    Mr. Dicks. You had 110 officers and now you are down to----
    Ms. Two Bulls. Forty-eight.
    Mr. Dicks. And it is all because of lack of funding?
    Ms. Two Bulls. Yes.
    Mr. Dicks. Mr. Simpson.

                          JURISDICTION ISSUES

    Mr. Simpson. Thank you, Mr. Chairman. I appreciate all your 
testimony. It is a complicated issue obviously. One of the 
things is that there are jurisdictional issues. The town I grew 
up in, Blackfoot, Idaho, southern border of the town, was the 
northern border of the Fort Hall Indian Reservation, and I can 
remember sitting on city council. There were always challenges 
about who had jurisdiction over what, and there were agreements 
between the city and the county and the tribes about who could 
do what. I remember being pulled over for speeding on the 
interstate highway one time by an Indian police officer and 
going to tribal court actually and later on they found they 
could not do that. How do we resolve these jurisdictional 
issues? Because it seems like there--I am surprised when you 
said that a non-Native American, the tribe does not have any 
jurisdiction over them if they commit a crime on the 
reservation.
    Ms. Deer. Yes, that is correct. The Supreme Court decision 
is Oliphant versus Suquamish Indian Tribe. It was decided in 
1978 and authored by Chief Justice William Rehnquist, and what 
that decision said is that tribal courts, tribal governments do 
not have criminal authority over someone who is not an Indian. 
It is that simple.
    Mr. Simpson. So if a non-Native rapes a Native American on 
a reservation, tribal court does not have any jurisdiction over 
him?
    Ms. Deer. That is correct.
    Mr. Simpson. That is bizarre, to say the least.
    Ms. Deer. And what needs to happen----
    Mr. Dicks. What happens in that situation? Do they go to 
the state? Do they go to the federal officials, state 
officials? What happens?
    Ms. Deer. Right. It depends on the tribe. In some cases 
that tribe has concurrent jurisdiction with the federal 
government and so it would be the FBI that does the 
investigation, and in other states such as my state of 
Minnesota, the state officials have that authority. But the 
problem is, and I think President Garcia mentioned this, there 
is no accountability for either the federal government or the 
state government in whether or not they respond appropriately 
to crimes in Indian Country. So at some level then, in many 
communities tribes are at the mercy of non-Indian offenders. 
There is nothing the tribe can do.
    Mr. Pastor. Will you yield for a minute?
    Mr. Simpson. Sure.
    Mr. Pastor. In Arizona, it is the U.S. Attorney who 
basically has to prosecute or does prosecute, and so again, it 
always falls on the interest and the number of attorneys that 
the U.S. Attorney has to dedicate to deal with Native American 
issues as well as all the other issues. So she is right. 
Sometimes these cases just slip by just because the U.S. 
Attorney just does not have the personnel or does not have the 
interest to deal with these.
    Mr. Garcia. Mr. Chairman?
    Mr. Dicks. Yes, Mr. Garcia.
    Mr. Garcia. I think it also depends on the kind of crime. 
For major crimes, the FBI kicks off right off the bat but when 
it is other crimes, that is where the jurisdictional issues 
are, for drug dealing and whatnot. That is why I think 
individuals that are non-Indian have found havens in tribal 
courts because they know that there is nothing that can be done 
at least up to a point, but I want to relay an important 
message.
    Mr. Dicks. Sure, go ahead.

                   EXAMPLE OF JURISDICTIONAL CONCERNS

    Mr. Garcia. It has to do with a non-Indian who owned a 
gravel pit that was outside the tribal lands but the roadways 
were on tribal lands and so he challenged the Pueblo in saying 
that there are road signs posted saying that there are load 
limits on this roadway, and they are state roadways because it 
was maintained by the state of New Mexico. Well, he was way 
beyond the weight limits, and in fact what he was doing was 
endangering the lives of students and breaking up homes, adobe 
homes near the roadways, and so he did not want to be 
accountable for that and we said there is a weight limit there 
and you cannot be on this land and we will take action as a 
tribe. Well, he tested that because he knows about this 
jurisdictional issue. Well, what we did was, I happened to be 
governor then and I said he can test the system and so he 
brought his trucks on board and we weighed them and we cited 
them and we said do not come in here. If you come in again, you 
are breaking the law, this is a state law but also as part of 
Okawinge, the safety of our people, and so he tested and he 
told the tribes come on in and we will even get the state 
police to escort you. The state police came in and they 
escorted those trucks in and out and we stopped them with our 
tribal police and we said you were warned and so now we are 
going to confiscate your big trucks and now they belong to 
Okawinge, and so we took the drivers, and rather than take them 
to jail, we were worrying about this jurisdiction, well, what 
we did was, we simply escorted them out off the tribal lands 
and said do not come back in here because you will suffer the 
consequences. But what was crazy about that is the state police 
were supporting the law breaker, which is the gentleman that 
owned the trucking company, to break this law, and my point to 
the state police chief who was there, I said you see that sign 
there, it says the load limit is 14 tons, these trucks weigh 
over 35 tons, and so who is breaking the law. Your job is to 
provide law enforcement and you are supporting them by them 
breaking the law, and that is a New Mexico state sign right 
there. And so we were able to shuffle and put a stop to the 
trucking company being on our roadways.
    Mr. Dicks. So you prevailed?
    Mr. Garcia. We prevailed, but the next thing that would 
have happened would be, well, what if the gentleman brought a 
lawsuit to the Pueblo? Then we may be testing the case. But 
this is the kind of situation that is prevailing all across 
Indian Country, and when you talk about drugs, when you talk 
about other things, the bad things that happen to our children 
and to our women, you know, that is the same issue that they 
are testing and so unless we take action, unless we have the 
forces to battle that, we are batting zero.
    Mr. Simpson. Let me ask, and I apologize for having not 
read it, Congresswoman Herseth Sandlin's H.R. 1924, would it do 
anything relative to this issue?
    Mr. Garcia. Not so much the jurisdictional piece but I 
think more so with the resources that will be made available 
that would help coordinate and battle the part with the 
criminal activity to kind of curtail that kind of activity but 
I think in the end, the real solution is the legislative fix 
that was mentioned about jurisdiction, and in my mind, a 
turnover of the Oliphant case will be the prime fix to it 
because I do not care where it is, if you cannot protect and 
you cannot have the safety of your people as the first course 
of action, then it is not right, and any criminal that comes 
onto our tribal lands, anyway, will suffer the consequences no 
matter what we have to go through, and I think that is what the 
tribes are feeling right now, that nobody is going to do any 
harm to our people and if they do, they will suffer the 
consequences, whether it is a jurisdictional issue or whatever 
it is, and I think that the optimum fix is the turnover of that 
Oliphant case.

                      COORDINATING AVAILABLE FUNDS

    Mr. Simpson. I do want to ask one other question. So we 
have got a jurisdictional issue here which needs to be resolved 
somehow, and secondly, we have got obviously a funding issue 
but not just a funding issue in dollars but in how that money 
is appropriated and where it comes from that is so complicated. 
I suspect there are tribes out there that do not even know that 
some dollars are available through different agencies and that 
kind of stuff. It is not unique within the federal government, 
the situation you face there. I find that true in almost 
everything, that we create funding sources from a variety of 
different places and it gets so complicated that nobody can 
follow it. I am wondering why we do not have a more streamlined 
funding source for law enforcement within reservations and 
stuff. Go ahead, Mr. Chairman.
    Mr. Dicks. Thank you.
    Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. I welcome the 
witnesses to the hearing today. It is obviously that there is a 
lot of law enforcement that is falling through the cracks.
    I would like to ask two lines of questioning. First of all, 
what do your budgets look like? When you put together a budget, 
you get money for law enforcement from the federal government 
and the granting programs you talked about. I am familiar with 
those. You get funding from the Bureau of Indian Affairs for 
law enforcement, and then do you come up with local funding for 
law enforcement? How does that work?
    Ms. Marks. Good morning, sir.
    Mr. Dicks. Identify yourself for the record.
    Ms. Marks. My name is Patty Marks and I work for the Oglala 
Sioux Tribe Department of Public Safety. One of the issues that 
made me so excited about this hearing, I have been doing this 
for 30 years. Up until about the 1990s, the majority of funding 
for Indian law enforcement came out of this committee to the 
Bureau of Indian Affairs. We had base budgets. People could 
rely on them. Things moved forward. When budget cuts came down 
in the latter 1980s, one of the sources of solution to that 
that people came up with is, let's split the funding authority 
out and start doing a lot more for Indian tribes with the 
Department of Justice. Interior budget went stable. Justice 
budget, what they did is, they took a chunk of money that was 
normally available to non-Indian communities and they set it 
aside for tribes. It sounds like a wonderful idea. Everybody 
appreciated it. The problem is, those DOJ programs are based on 
funding entities that have a tax base. For example, right now 
the new facilities construction money for Indian tribes is 
coming through. They are requiring a 10 percent match. Pine 
Ridge has an average per capita income of $5,000 a person. They 
want us to come up with 2 million bucks to get the facility. No 
$2 million, no facility. The same is true for many of the 
programs that come through the Bureau of Justice Assistance. 
You are looking at a $1 million grant but you have to have 
$100,000 in cash, non-federal, in order to even qualify for it. 
This is the problem short and simple, and I think this is what 
Mr. Garcia referred to, it is what you have heard from a lot of 
the tribes. Those DOJ programs are designed to buy a particular 
piece of equipment to test for a new drug or to train officers 
on new technology that has come out or on new police 
procedures. It is not designed to provide base funding. Prime 
example, under BJA right now, Pine Ridge was drawing a lot of 
officers. It funds only the salary and fringe. No overtime is 
allowed to be funded by DOJ for those officers, no vehicles, no 
gas, no equipment, no training. So to bring on a BJA officer, 
you still have to have the money in the BIA budget to provide 
all of those things or you lose out. This is what we mean when 
we are talking about split funding, and it results in what Mr. 
Garcia said: an officer who can work but cannot stay at an 
accident scene past 4:00 without violating a federal disallowed 
cost procedure because it is overtime.
    Mr. Mollohan. So you are not saying you do not want to have 
access to the Justice funding, you think that is fine. You 
actually described it as a solution to only receiving--I 
understood you to say when they opened up the Justice funding, 
that was a solution to only getting funding through the Bureau 
of Indian Affairs. Is that what you meant when you said----
    Ms. Marks. I am saying that the problem is, the program 
worked the best, in my personal and professional opinion, when 
the Bureau of Indian Affairs budget was adequate. When the 
Bureau of Indian Affairs budget became inadequate and there was 
no way the budget committee was giving this committee the 
authority to fix that problem, that is when people started 
relying on all of these things that they could try to reach 
for.
    Mr. Mollohan. So was there a time when funding was adequate 
for law enforcement in tribal areas?
    Ms. Marks. I would get shot by my tribal clients if I ever 
said adequate, but let me say we could get by. I mean, you 
heard President Two Bulls talk about 110 officers. We really 
needed 130, but that is a big difference from 48.

                         SAFE TRAILS TASK FORCE

    Mr. Mollohan. Really quickly, the coordination problem, the 
Safe Trails Task Force program, which is supposed to coordinate 
all these jurisdictional issues, is it working, not working?
    Ms. Marks. I think it is working, but one of the things I 
would also like to stress on a point here, I am a lawyer, I was 
a prosecutor. To make a case, you have one standard of evidence 
in every court in the United States. The first officer on the 
scene under Safe Trails, a rape case, a murder case or simple 
assault, is going to be that tribal officer. If the tribal 
officer does not have the training, the equipment and the 
ability to secure that crime scene within the rules of federal 
evidence acceptable to a federal court, you are not going to 
make that case. The FBI by the time they get there the next 
morning, the crime scene is cold. As a prosecutor, I would have 
difficulty. As a defense attorney, I would have a heyday. We 
have got to look at who is responding to these calls first and 
we also have to look at the practical aspects of getting 
somebody really to be able to follow up on these cases. Thank 
you.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Garcia. I have something to add to the question about 
the funding, and I think----
    Mr. Dicks. Just one point I want to make. You are 
testifying, though, that many of the tribes who do not have 
casinos, do not have other sources of income do not have the 
matching money to get the Justice Department grants today.
    Ms. Marks. Absolutely.
    Mr. Dicks. So that source really is not there for you.
    Ms. Marks. Let me give you----
    Mr. Dicks. The reason I mention that is because my 
colleague here is the chairman of the State Justice and 
Commerce Appropriations Committee, and he does not authorize 
these programs but he funds them, and I think it is important 
that we clarify that.
    Ms. Marks. Let me just tell you that out of the disallowed 
cost from DOJ, 36 treaty tribes are facing an excess of $1 
million in disallowed costs with DOJ today. Why? They paid 
overtime. They had an officer who was on scene and needed to 
take a particular action, to send off a rape kit for a rape 
test. If you violate those DOJ rules, DOJ sends you a bill. 
That is the problem right there, is that we cannot afford these 
matches. And also this committee is very familiar with contract 
support and indirect costs. DOJ does not pay a penny. So like 
at Pine Ridge, if they want to bring in a $1 million grant, 
their indirect cost rate is in the high 20s. They not only have 
to pay the match, they have to come up with the indirect cost 
or the indirect cost rate is decreased and they get a bill. 
This is the practical problem. We would love nothing more than 
to be able to work with your committee, sir.

                   PAST REDUCTIONS IN AVAILABLE FUNDS

    Mr. Dicks. Mr. Garcia, you wanted to make a comment.
    Mr. Garcia. Yes, I wanted to make maybe at the greater 
level of the funding cuts, at one point in time we were close 
to maybe 40 percent of adequate funding. I mean, we are now 
down to about 10 to 20 percent of adequate funding. And so if 
you wonder how did that happen, it happens as the budgeting 
process, in the federal budgeting process and it comes from the 
President of the United States of America when he submits the 
budget, and so when the President and OMB get together and they 
say okay, Department of Interior, BIA, you will make these 
cuts, these cuts are what drives the funding sources, if you 
will, not the funding sources but the people that handle the 
programs, in this case BIA, they have to make those cuts, and 
those cuts then are made, sometimes the right cuts, sometimes 
the wrong cuts, and in my mind there are no right cuts because 
if adequate funding is not there from the beginning and you are 
asked to cut, something is going to give and that is why we are 
in the dilemma that we are in. But I think the funding process 
has to change and right now I am not sure how we address that. 
If the funding formulas are out of whack, the budgeting process 
is out of whack, the grants and the way the programs, the 
distribution of those funding are of whack and we will never 
get to adequate funding based on those and they are dire 
weaknesses. I also plead for our brothers and sisters who are 
in PL-280 because they have a different dilemma.
    Mr. Dicks. Explain that.
    Mr. Garcia. Public Law 280 states came about as a part of 
the Indian Reorganization Act back in 1934, and a lot of the 
jurisdictional issues and things like environment, law 
enforcement and other things were given to the states, 
jurisdictional issues given to the states to provide services 
and provide other things to the tribes who reside within those 
states, and it is not a good thing, especially if you have a 
bad relationship with the state, but in Alaska, for instance, 
Alaska villages do not have any funding directly from a lot of 
the programs, and for law enforcement or environmental 
programs, that funding is channeled through the state, and so 
the villages, Alaska villages, are at the mercy of the state in 
how they get their funding, and in this case, for environment, 
for any law enforcement, the same thing, so they do not have 
any working relationship whatsoever relative to the services 
being provided by the state and so here they are now at the 
mercy of whatever funding might be available through the 
Bureau, through the Department of Justice, and if that is the 
kind of need that is there, how are we going to fix that is the 
big question, and that is why it is a big challenge, and I 
think what was mentioned before is that this is just a 
horrendous complexity in the way the tribes are functioning 
relative to the relationship with the federal government and it 
includes all of those areas.
    Mr. Dicks. Ms. Two Bulls.
    Ms. Two Bulls. South Dakota is not a 280 state, and our 
tribe solely depends on the federal funding we get from 
Congress, but keep in mind by the time it gets down to the 
tribes, it is nothing, because our local office gets some 
funding, our regional office and the national level so we get 
hardly anything to operate our programs. So I am with Mr. 
Garcia that the funding formula, whatever needs to be changed 
where the dollars get to the tribes where the need is the 
greatest.
    Mr. Dicks. Thank you.
    Mr. Calvert.

                        DRUGS IN INDIAN COUNTRY

    Mr. Calvert. Thank you, Mr. Chairman.
    I guess I will direct this question to Mr. Garcia. It seems 
that underlying much of the violence in Indian Country is drug 
and alcohol abuse, especially methamphetamine, as I read 
through this testimony. Is the meth being produced on the 
reservation because of the remoteness of the reservations or is 
it being brought in from the outside and sold on the 
reservation?
    Mr. Garcia. That is sort of a general question. There are 
several different scenarios, Mr. Calvert. First, on 
reservations, if the drug dealers and others are aware that we 
have jurisdictional issues, then if they know that they cannot 
do anything to them, especially if they are non-Indian, they 
will set up shop in the reservation. But it also depends on how 
remote or how metropolitan an area the tribes are located in. 
So with meth situation, I think it does not really matter. They 
could set up adjacent to a tribal land base and they will 
function just as well, so it is a matter of choice in that way, 
but, you know, as far as the remoteness, I think it is a prime 
factor and the fact that jurisdictional questions are there. 
That creates a haven for these dealers and they will move 
wherever is safest for them.
    Mr. Calvert. Have you seen any changes over the last number 
of years in the production of methamphetamine on reservation 
versus the distribution from outside sources?
    Mr. Garcia. Well, the first point, Mr. Calvert, would be, 
if we knew a baseline of how many meth factories were out there 
on tribal lands, we could put a distinct number on how improved 
we are, but I think from our efforts in the federal entities 
coming really up to par in the funding situation coming up a 
little bit better to address those needs, I would say there is 
market improvement on how we battle that, even especially 
related to just advertisements and we have created some hard-
core advertisements that will help users, if you will, to not 
be users and non-users to not become users I think is an 
important piece but the efforts are out there. People are aware 
now that if you do meth and you create meth, you are going to 
suffer the consequences because the eyes and the radar is out 
there. But had we not done that two, three, four years ago, 
then we would not be in this better situation than we are now.
    Mr. Calvert. The reason I ask that, I see statistically the 
American Indian more than any other ethnic group in the United 
States is prone to methamphetamine abuse, and I co-chair the 
meth caucus here in the House with a number of members that 
have had this problem in their own Congressional districts. 
Anecdotally we see that there is much more activity importing 
methamphetamine from other outside sources and using groups to 
distribute methamphetamine, especially in rural areas. I can 
understand that your law enforcement officers are too 
undermanned and outgunned to get a hold of the meth problem. 
Any insight you could give to the committee on that would be 
helpful because that would also help us potentially in 
providing additional law enforcement activity.
    Ms. Deer. Can I add something to that?
    Mr. Dicks. Yes.
    Ms. Deer. One of the things that I have been working on, 
clearly my focus is on violence against women but why is it 
that people start using meth, what is it that is going on in 
their life that presents such despair that you would turn to 
that kind of a dangerous drug, and I think there is a strong 
link between sexual assault, sexual abuse and the use of meth, 
self-medicating as a result of the trauma, and when your 
perpetrator is still walking the streets of your reservation 
and nothing has ever happened to him, you know, turning to 
drugs and alcohol is an option to try to black that out of your 
life. And so I think that there is a strong connection between 
unresolved crime and trauma and the use of meth.
    Mr. Calvert. Thank you.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Chandler.

                     EXPLAINING JURISDICTION ISSUES

    Mr. Chandler. Thank you, Mr. Chairman. I am getting a 
picture here that is not at all clear about how things work in 
terms of law enforcement throughout Indian Country. I guess it 
is not clear because it just is not. It is very complex and it 
is done in a lot of different ways. Could you give me some idea 
about how much of the law enforcement is tribal, how much is 
non-Indian law enforcement? How do those agreements work when 
you do get non-Indian law enforcement? Do they even work 
satisfactorily? What needs to be done to make them work better 
if that is the course that needs to be undertaken?
    Ms. Marks. Mr. Chairman, simply put, tribes originally had 
exclusive jurisdiction on the reservation. That jurisdiction 
was then limited when the federal government took over its 
role. What we are dealing with here is a situation which varies 
by the type of crime and the person involved. It also varies 
depending on whether the Congress of the United States has 
passed some type of federal law delegating expanded authority 
to state government, and that is President Garcia was referring 
to when we were talking about Public Law 83-280. Your large 
land-based tribes and your large treaty tribes for the most 
part are non-280 states. These are your big areas, your big 
populations. So those are the core areas which are tribal 
jurisdiction, tribal, federal, for the most part. California, 
some of the Northwest, some of Minnesota, you have got smaller 
pockets here with state jurisdiction. We can actually provide 
the committee with a chart that shows you depending on what 
crime who actually has jurisdiction to prosecute. But I think 
the thing that I would like to go back to and stress again is, 
where you have tribal law enforcement, it is tribal law 
enforcement who is going to be first on the scene 95 percent of 
the time, and that is because the call comes to the tribal 
dispatch, and when an officer gets in a car he has no idea of 
whether the person involved in disturbing the peace has drugs 
or has committed a violent crime that rises to the major crimes 
level. So that is the person that is going to be your initial 
evidence gatherer in the courtroom regardless of who is 
prosecuting the case. Even if it turns out to be a case of 
state jurisdiction, that tribal cop is going to be first on the 
scene because there is nobody else to do it. And if that job is 
not done properly at that stage and they do not have the 
training and the equipment to keep that evidence secure and 
admissible, you are going to have a problem prosecuting no 
matter what happens, no matter what court gets the case.
    Mr. Chandler. Well, does the lack of uniformity cause 
significant problems and do we need some kind of reform of that 
process in general?
    Ms. Marks. It does cause significant problems. This is 
something that Congresswoman Herseth Sandlin's legislation 
addresses in the House. That bill has a variety of cosponsors. 
There is also a companion bill in the Senate. We are tackling 
the jurisdictional problems there.
    Mr. Dicks. Mr. Cole.

                  HISTORY OF JURISDICTIONAL CHALLENGES

    Mr. Cole. Thank you, Mr. Chairman. Thank you for holding 
the hearing and I thank all of you for being here.
    I have a variety of questions. I just want to break them 
down and go in order. I want to start with jurisdiction, move 
to coordination and then get to resources, just working 
through. Is it Professor Deer or Ms. Deer?
    Ms. Deer. New professor.
    Mr. Cole. New professor. Well, as an old professor, I know 
how valuable that title is, so congratulations. Could you give 
us a quick primer on the Supreme Court case, the Oliphant case 
in 1978, and what had preceded that in terms of jurisdiction? 
My experience in my state in Oklahoma is, we have no 
reservations, and so we have jurisdictions literally over 
parcels of trust land that you happen to hold within an area of 
historic jurisdiction. But I think if you trace it back, we 
have not had jurisdiction within our territory even when it was 
reservations. I mean, Indians have jurisdiction over Indians 
but the deal was that the federal government was supposed to 
keep non-Indians out. They obviously did not. And if you 
apprehended them, you could turn them over to the federal 
authorities and they would have authority. But evidently that 
was not the case everywhere, given the fact that we had this 
case. So what led up to that?
    Ms. Deer. There are a lot of factors involved. I teach 
federal Indian law and we spend at least six weeks of the 
semester on jurisdiction. So that tells you right there how 
complicated it is. The Oliphant case, according to most people 
who study in this area of law, was incorrectly decided. In 
other words, the assumption made by the Court was that tribes 
lacked inherent authority over non-Indians. There is no real 
basis in the history of federal Indian law for that. What you 
describe in Oklahoma as a result of the Allotment Act is what 
we call the checkerboard jurisdiction where the parcel of land 
was parceled out individually. You might have one plot of land 
here that is considered Indian land, across the street it is 
not Indian land, and so the law enforcement officer has to 
arrive on the scene and not only determine, you know, what 
crime happened, if it happened, but what the status of that 
particular plot of land is and whether or not the perpetrator 
is a member of a tribe or not. So the victims at that point 
just get lost in this discussion. But the Oliphant case quoted 
some early federal Indian law cases that suggested that Indian 
forms of justice were somehow inferior, that Indian tribes were 
incapable of adjudicating non-Indians in a fair way. And there 
was really no basis for that particular perspective, and to the 
credit of the Court, they did leave open the opportunity for 
Congress to correct that jurisdictional gap and so it is 
possible to fix it, and in my mind, tribes have always 
exercised jurisdiction over all parties that come into their 
land. It is no different if I go to Mexico and I commit a crime 
in Mexico. The authorities there could prosecute me. I am not a 
Mexican citizen. And unfortunately, the Court decision in 
Oliphant has created this haven for a non-Indian offender and 
there is really no constitutional basis for it and there is no 
philosophical basis for it either.
    Mr. Cole. So it would just take a simple legislative act?

                    PREVIOUS EFFORTS TO FIX PROBLEMS

    Ms. Deer. Yes, essentially. Now, you know, it has to be 
accompanied by the resources so that tribes can actually 
enforce the law, but the jurisdictional fix could happen. A 
similar fix happened, the Doro fix, which was in the 1990s and 
that was a fix that addressed another gap in which the Court 
suggested that not only did Indian tribes not have jurisdiction 
over non-Indians but they also did not have jurisdiction over 
other Indians that were not part of the tribe. Congress was 
able to fix that with a simple phrase.
    Mr. Cole. I would assume most of the objections are at the 
state level and one sovereign dealing with another and not 
wanting to relinquish the power, the authority or give it up to 
what it would consider although the law would not justify this 
as subordinate sovereignty. Is that fair to say?
    Ms. Deer. Well, I think the objections run a range of 
issues. I think we still have this stereotype of tribal courts 
that somehow they are not providing fair justice and there is 
no basis for that. Indians, non-Indians in state courts are 
treated fairly so why would Indians and non-Indians not be 
treated fairly in tribal court? I think there is a stereotype 
involved in the objection to overturning Oliphant.
    Mr. Simpson. Would the gentleman yield?
    Mr. Cole. Certainly.
    Mr. Simpson. I am looking at this handout that we have that 
is simplified jurisdiction, and it is two pages long and it is 
simplified. Let me see if I have got this right though. On the 
Fort Hall Reservation, if a Shoshone-Bannock Tribe member 
commits a crime, the tribe can have jurisdiction over the 
Shobane. What if it is Nez Perce Indians visiting on the 
reservation? Do they have jurisdiction over the Nez Perce 
Indian versus a non-Native American that is on the tribe?
    Ms. Deer. Any Indian.
    Mr. Simpson. So any Indian?
    Ms. Deer. Yes.
    Mr. Cole. The point is, you can trust Indians with Indians, 
you just cannot trust Indians with white people.
    Mr. Simpson. This is bizarre.
    Mr. Garcia. Congressman, there is also a potential fix, at 
least we have initiated this in our pueblo, and that is, we 
know if there are tribal members that are not Okawinge tribal 
members but members of other tribes, if they are going to 
reside on our homelands, they sign actually a form that says 
that they are under the jurisdiction, that they will abide by 
the laws of the pueblo and that we have jurisdiction over them 
if they----
    Mr. Simpson. But that is if they are going to reside there.
    Mr. Garcia. Yes.
    Mr. Simpson. If someone just happens to be traveling 
through, if a Nez Perce Indian happens to be traveling through 
the reservation and commits a crime----
    Ms. Deer. They still have jurisdiction because it is an 
Indian, but the problem is, I am an Indian and how is a police 
officer supposed to know that? You know, I mean, if somebody is 
speeding and you cannot tell the race of the person speeding, I 
mean, it just--it creates a lot of confusion.
    Mr. Simpson. It is bizarre.
    Mr. Cole. We could go on, as you said, weeks, months. I am 
going to jump to the resources issue real quickly, if I can, 
and just ask, it would not be a fix to your problem but in 
Oklahoma, obviously the tribes do not have taxing authority but 
we have found--do you have a gasoline tax arrangement with your 
state government?
    Ms. Deer. Yes.
    Mr. Cole. So you have worked that--okay. Sometimes you can 
steal their taxing power indirectly by refusing to charge their 
taxes unless they give you some of the loot, so to speak. Okay. 
I was just curious.

                  POTENTIAL FIX FOR COORDINATING FUNDS

    Let me jump then to Joe's point about coordination because 
we have some fragmentation of funding authorities and training. 
Where should that reside? Should we go back to basically all of 
this should be in the Bureau of Indian Affairs? You know, what 
should we do to achieve that coordination and consolidation 
that you are talking about?
    Mr. Garcia. Well, if we talk about vision and dreams, my 
dream would be to do like we have done in the state of New 
Mexico. Actually the state of New Mexico has created a 
Department of Indian Affairs for all funding, potential tribal 
infrastructure funding, capital outlay and other funding go 
through that department but it also created a secretary of 
Indian affairs, complete secretary, and if we look at the fix 
at the national level, my idea would be not the Department of 
Interior and the BIA within that Department, that there would 
be a Department of Indian Affairs completely and a secretary 
for that specific purpose and all funding that relates to 
Indian activity would be directed to that. Now, talk about 
having a vision, that would be the primary thing, and I think 
that that would be a better way. Then everything would be 
streamlined and policies and procedures and protocol and all of 
that and even the cooperative efforts would be a lot better in 
a scenario like that, and I think, you know, President Obama 
has heard about this from me and from several other tribal 
leaders but I think that would be the optimum fix. But we have 
to work toward that transition, you know, what would be the--
and the simple answer would be, let's find an entity that has 
the best record for getting the funding sources to the people 
that need to receive it and not so much stuck in the 
bureaucracy of functionality or non-functionality within a 
given department. So I do not know what department that might 
be but there are a few out there, I think, that are better 
prepared than others.
    Mr. Cole. Ms. Two Bulls.
    Ms. Two Bulls. In addition to what Mr. Garcia is saying, 
that would be fine to establish that Department of Indian 
Affairs but also we need to look at the funding, communicate 
with the tribes and see what the dollar amount is that each 
tribe needs and make sure that the adequate funding is there 
because today it is the government that gives us a dollar 
amount and says here, tribes, this is a dollar amount, you 
fight over it, and in order to build a better partnership and 
better communication, I think communicating with the tribes to 
see exactly what their needs are and what dollar amounts they 
would need to enhance their law enforcement, their courts would 
be a good step towards opening that communication.
    Mr. Garcia. There is another piece, Congressman, that we 
often do not think about and that is the different 
relationships that exist in tribes and just within the Bureau 
of Indian Affairs, and that is that there are the direct funded 
or direct service tribes which means that the Bureau of Indian 
Affairs when it is related to Bureau of Indian Affairs 
activity, they provide the services for the tribes that are 
under that system. There are then in between those tribes that 
could be partial what they call Public Law 638 tribes, meaning 
that they take a portion of the programs and they administer 
the programs. The tribe is responsible for providing those 
programs but the funding for 638 takes away from the big pie 
and a lot of the tribes get blasted for doing 638 because they 
have taken from the pool of funding to administer their 
programs and it leaves less money for those direct service 
tribes, which is wrong thing to conclude. But beyond the 638 
tribes are the self-governance tribes which are completely 
different and that means that the funding for self-governance 
tribes come directly to the tribe but they still are funneled 
by way of the BIA or IHS or some other entity that is a 
complete flow-through, should be complete flow-through, and so 
they are then more of the self-determination but here is the 
issue. If all tribes today wanted to go self-governance, the 
funding mechanism for the Bureau and for others is not such 
that it affords that opportunity and yet there is the Self-
Determination Act of 1975, and so the funding goes against and 
the appropriation goes against that very Act which says, you 
know, all those tribes that want to go self-governance for 
education and for others should have that opportunity, and 
right now if all of them went, there would not be adequate 
funding to support all the efforts, I mean, just in the 
transition of it and so that is another level that we very 
seldom talk about but it is a big issue.
    Mr. Cole. One point----
    Mr. Dicks. Mr. Cole?
    Mr. Cole. Oh, certainly, Mr. Chairman.
    Mr. Dicks. I want to keep moving because we have a second 
panel here today.
    Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. Are we doing a second 
panel this morning?
    Mr. Dicks. Yes.
    Mr. Olver. Okay.
    Mr. Dicks. This is the BIA too so we want to make sure that 
we get a chance to get to them.

                     TRANSPORTATION SYSTEM FUNDING

    Mr. Olver. I have been on this subcommittee for three or 
four terms now, I guess, and whenever I want to be depressed I 
come to a hearing that involves issues that go on in Indian 
Country. It is really appalling. Sometimes I do not even know 
now--I happen to be in the position of chairing the 
Subcommittee on Transportation and Housing and Urban 
Development, and it confuses me, just the complexity of 
jurisdictions there. If you have bad roads on your 
reservations, then you should be blaming me----
    Mr. Dicks. Or talking to you.
    Mr. Olver. Talking to me, yes, or if it has to do with 
housing, even there, there is one piece of that that comes out 
of this subcommittee and a much larger piece of it that comes 
out of my subcommittee, and I have to really work to understand 
exactly who gets what and which tribes get what out of that. So 
anyway, I really get confused. I am more confused than Mr. 
Chandler was, I think.
    I want to go back to Mr. Garcia. Your affiliation is, you 
are from New Mexico, I take it. Is your affiliation a 
reservation or a pueblo?
    Mr. Garcia. It is a pueblo.
    Mr. Olver. Which pueblo is that?
    Mr. Garcia. I come from Okawinge, and we restored our name. 
It used to be San Juan Pueblo but San Juan Pueblo is a Spanish 
term and so we wanted to know who--I mean, we knew who we were, 
we just had to relabel and re-recognize ourselves.
    Mr. Olver. The pueblo governance is the equivalent of a 
reservation. Okay. Now, I think you had mentioned that this 
Public Law 83-280, from the discussion, I understand that the 
states which have large reservations like Arizona and North 
Dakota, Montana, Wyoming and South Dakota, Wisconsin and 
Minnesota maybe, that those are ones which do not have state 
jurisdiction, that they have tribal jurisdiction. Depending 
upon the nature of the crime, does it change from reservation 
to reservation as to which crimes will be handled by local, 
state or federal authorities? In the states that have the big 
reservations, do crimes only get handled by the federal 
authorities or the tribal authorities or is there a state 
involvement even in there as well? Maybe somebody can clarify 
that for me.
    Mr. Garcia. The first break point I think is the 
relationship that the tribes have within the states but the 
Public Law 280 part, I think there were only initial six states 
that were considered and it grew, I think at this point it 
might be 10 states that have the Public Law 280 jurisdictional 
issues.
    Mr. Olver. Only 10 states?
    Mr. Garcia. Only 10.
    Mr. Olver. Where the states have jurisdiction?
    Mr. Garcia. Yes.
    Mr. Olver. And federal jurisdiction comes in for some--oh, 
well, this is another confusing thing that had not reached me 
before.
    Ms. Deer. The mandatory states are Alaska, California, 
Minnesota, Nebraska, Wisconsin and Oregon and Washington, and 
then there are other laws which give state jurisdiction in 
Kansas----
    Mr. Olver. Those are mandatory state jurisdiction?
    Ms. Deer. Yes.
    Mr. Olver. Those are by some sort of an agreement?
    Ms. Deer. There is a couple of exceptions.
    Ms. Davis. I am Virginia Davis. I am an attorney with the 
National Congress of American Indians. Public Law 280, as was 
mentioned, there are six mandatory states which meant that----
    Mr. Dicks. Give your name first so----
    Ms. Davis. Virginia Davis with the National Congress of 
American Indians. Six mandatory states. A number of other 
states were given the option of electing to assume this federal 
jurisdiction.
    Mr. Olver. And some more did?
    Ms. Davis. And some more did. Then there was also a 
recognition on the part of the Congress that Public Law 280 was 
a bad idea and so about 10 years after it was enacted there was 
a process set up to allow retro----
    Mr. Olver. Withdrawal.
    Ms. Davis. And if the states wanted to.
    Mr. Olver. Did any?
    Ms. Davis. Yes. For many reservations, Public Law 280 
jurisdiction was retroceded back from the state to the federal 
government, so even within----
    Mr. Olver. But just for reservations, not for all 
reservations?
    Ms. Davis. Tribe by tribe.
    Mr. Olver. By tribe?
    Ms. Davis. Tribe by tribe. So within a state----
    Mr. Olver. Unbelievable.
    Ms. Davis [continuing]. You may have some reservations that 
are Public Law 280, you may have some that used to be but no 
longer are. You may have a tribe whose reservation crosses the 
border of two different states and part of the reservation is 
Public Law 280 and the other part is not.

                 CRIMINAL SENTENCING IN INDIAN COUNTRY

    Mr. Olver. At an earlier hearing we were told that the 
tribes have a maximum sentence that they may impose. Is that 
true?
    Ms. Deer. Yes.
    Mr. Olver. What is the maximum? One year or----
    Ms. Deer. One year and/or a $5,000 fine.
    Mr. Olver. Tell me, for the items where there is a maximum 
sentence that tribal courts in their jurisdiction may apply, 
for the same crimes off reservation, what would be the range of 
sentences that one might do?
    Ms. Deer. For a rape case, 10, 20, 30 years, life.
    Mr. Olver. But for a rape case done on the tribe on tribal 
land which can only be done on Indians----
    Ms. Deer. One year.
    Mr. Olver. This is bizarre.
    Ms. Deer. This is a 1968 law called the Indian Civil Rights 
Act.
    Ms. Davis. Congresswoman Herseth Sandlin's proposed 
legislation would extend the tribal sentencing authority from 
the current one year to three years.
    Mr. Olver. To three years, but we are hearing that rape 
cases go five, 10, 20 years, whatever. This is----
    Mr. Garcia. In terms of, Congressman, about the--something 
about even rape cases against teenagers or non-adults, I guess 
you would say, it follows a different process in terms of the 
FBI on whether they get reported or not and they get dropped if 
they are under 18. It is a crazy thing that says well, if it is 
13 years old, it is not such a critical issue?
    Mr. Dicks. A rape?
    Mr. Garcia. Yes, I am talking about rape cases.
    Ms. Davis. There is an issue where the federal government 
has the authority. There has been a lot of complaints from 
tribal communities about prosecution thresholds that are 
sometimes informal and sometimes informal but definitely in 
place in the U.S. Attorney's Office and obviously prosecution 
thresholds make a lot of sense when the U.S. Attorneys are 
trying to figure out what to do with their scarce resources but 
they are kind of premised on the idea that there is--if the 
U.S. Attorneys decline to prosecute, the state or someone else 
could step in and take up the case and so those same 
prosecution thresholds while they may make a lot of sense for 
most federal cases do not make sense in Indian Country where 
there is no backup. So for example, you have got a drug case 
and the prosecution threshold requires a certain quantity of 
drugs before the U.S. Attorney's Office will take it up. If the 
amount is below that, then it may go to the state system. But 
in Indian Country, the prosecution threshold really creates a 
practical jurisdictional void.
    Mr. Olver. This is sort of an infantilization of law 
enforcement on tribal areas. Simple as that. It is 
paternalistic at one level. It is certainly infantilization, I 
think, of the situation.
    Mr. Garcia, what is the population on reservations, the 
Indian population on reservations?
    Mr. Garcia. Well, the current population across Indian 
Country, we are probably at about 3 million, and----
    Mr. Olver. On reservations?
    Mr. Garcia. On reservations is a percentage of the 3 
million so--
    Mr. Olver. And what is that?
    Mr. Garcia. I would say it is about 80 percent of that.
    Mr. Olver. Eighty percent are on reservations? Really? So 
when you gave us numbers in terms of the number of personnel 
that you have available, 80 percent of the 2,555, I think it 
was in your testimony, 80 percent of the population of that 3 
million or 2.4 million would be being served by that 2,500?
    Mr. Garcia. Yes.
    Mr. Olver. So the proportion of law enforcement personnel 
on the reservations is very low. The facilities are abysmal. If 
you have the sentencing of only one year at a time, the 
facilities that you have and the resources that you have for 
any kind of rehabilitation or whatever people might need if 
they are incarcerated are so abysmal that that may be the only 
merciful thing that is involved here, that the sentences have 
to be very short.
    But, you, Ms. Deer.
    Ms. Deer. Yes.
    Mr. Olver. You want me to stop. I could go on.
    Mr. Dicks. No, I think we should wrap this up. I am going 
to give you one last question and then we will wrap this up and 
bring in the other panel because you will have questions for 
them.
    Mr. Olver. When I asked the question about whether the 
maximum sentence is one year, whatever the crime happens to be, 
you immediately went to rape, and in my mind, I have a sense of 
what the rape sentences are on a national scale, but there must 
be all kinds of--every crime is a maximum of one year?
    Ms. Deer. That is correct. There is no exception.
    Mr. Olver. Every crime?
    Ms. Deer. There are no exceptions.
    Mr. Olver. Unbelievable.
    Mr. Dicks. Well, this is one the authorizers have to 
straighten out.
    Mr. Olver. Who are the authorizers?
    Mr. Dicks. Well, in the House it is the Natural Resources 
Committee. In the Senate, I think it is Senator Dorgan. They 
have an Indian Affairs Committee and he is chairman.
    Mr. Olver. God help us.
    Mr. Dicks. So we will send our transcript to them.
    All right. Thank you very much. You have given us a good 
start here and, as I mentioned, it was a very difficult and 
depressing issue but we need to address it, so thank you for 
being here. We appreciate your testimony.
    Our second panel is George Skibine, acting assistant 
secretary for Indian Affairs, Department of the Interior, and 
Jerry Gidner, director of the Bureau of Indian Affairs. Mr. 
Skibine, why do you not start first.

                      Statement of George Skibine

    Mr. Skibine. Thank you, Mr. Chairman. Good morning. I am 
George Skibine. I am the deputy assistant secretary for Policy 
and Economic Development. I am also discharging the functions 
of the assistant secretary for Indian Affairs. I have been 
doing this job for nearly a year now. Accompanying me today is 
Jerry Gidner, who is the permanent director of the Bureau of 
Indian Affairs. My statement is in the record so I am not going 
to repeat it. I am just going to make a very few comments.
    What I want to emphasize is that Secretary Salazar has made 
it one of his top priorities to try to resolve law enforcement 
issues in Indian Country and he has stated that on numerous 
occasions like you have said. He has tapped to be his assistant 
secretary an individual who has broad experience in criminal 
law and criminal procedure and I think that when that 
individual is confirmed, which we hope to be soon, I think 
Secretary Salazar and our new assistant secretary----
    Mr. Dicks. Who is that person?
    Mr. Skibine. I think it is Larry EchoHawk, who is currently 
a professor.
    Mr. Simpson. He was attorney general of Idaho.
    Mr. Skibine. Right, and so he will be well equipped to 
tackle some of the issues that the previous panel has discussed 
before you. And I think that Secretary Salazar wants to have a 
plan to tackle the various issues dealing with law enforcement 
and I think he has said that he would want to have a complete 
plan by the end of this year and his new assistant secretary 
should be onboard in the next few weeks.
    Mr. Gidner will discuss the issues of what we have been 
able to accomplish with the increased funding that the 
committee has given us in fiscal year 2008 and fiscal year 
2009. I will just mention that Mr. Gidner as the director of 
the Bureau supervises the law enforcement director and all law 
enforcement activities. I in my capacity supervise the Office 
of Construction Management, and in this capacity we--of course, 
I also supervise Jerry, and so what we do essentially is 
construction activities and maintenance, and one of these would 
be, we build schools, of course, and maintain schools and we 
also maintain detention centers.

                           DETENTION CENTERS

    So in 2004 there was an IG report on the state of detention 
centers in Indian Country that essentially has been taken as 
outlined several real problems with detention centers. We are 
very concerned with that report and we have essentially tried 
to solve issues dealing with detention centers since the report 
came out in 2004. What we have done essentially for the past 
four years is, we spent about $8 million to $10 million a year 
to improve the repair of detention facilities. In general, we 
do not build new detention facilities except that in 2009 we 
received roughly $20 million or so to build a new detention 
facility and we are going to be able to build a new detention 
facility for the Ogala Sioux Tribe. Normally that is a function 
that is given to the Department of Justice and as outlined by 
the previous panel, that has of course created a number of 
problems for us and that Mr. Gidner may touch on. Basically you 
can build a detention center but unless there is funding to 
operate and maintain the center that is given to the Bureau, 
then essentially that cannot happen. So there is a disconnect 
there and that is why Mr. Garcia raised this as his fundamental 
issue to try to essentially streamline and straighten out the 
funding for Indian programs and law enforcement in particular.
    Mr. Dicks. Is that an authorization issue? I mean, is that 
law or just the way the Department does it?
    Mr. Skibine. I think that the appropriations come to the 
Department of Justice, not to the Department of the Interior.
    We have also received funding under the Reinvestment Act 
for the maintenance and upkeep of detention facilities. That 
plan will be unveiled by Secretary Salazar this weekend in 
North Dakota. I cannot really talk about what we are doing but 
we are going to spend millions of dollars of the Reinvestment 
Act to essentially do major improvement at existing detention 
facilities that have been identified as needing repairs.
    Overall, I do not want to say that we are there because we 
are not. I think from what I understand, for the BIA facilities 
we have 35 detention facilities, 11 of which are in 
satisfactory condition, so we are rehabilitating those at the 
rate of about three a year under our current funding that we 
received in appropriations. Across the country, there are 84 
detention facilities so the remainder are tribal facilities of 
which 30 are in acceptable condition and 54 are not. So there 
is still a way to go, but this is--I know the IG report 
outlined that there was a lack of commitment by departmental 
officials to take care of detention programs and I think that 
is something that we are taking very seriously and so in 2005 
we hired a new director, Jack Reever, in whom I have a lot of 
confidence, to essentially come up with a plan, present it to 
our secretary and new assistant secretary in order to 
essentially make progress in order to operate detention centers 
that we can be proud of instead of them being essentially in 
deplorable condition.

                   RATIONALE OF THE OLIPHANT DECISION

    But before I turn to Mr. Gidner, I just want to make one 
comment on what the panel said before. You know, the 1978 
decision in the Oliphant case was interesting hearing the 
professor say because I remember it was the year after I 
graduated from law school, and I am not a professor so I am not 
going to discuss that but I remember, the basis from what I 
remember, the Court essentially, it is hard to say decided it 
right or wrong because from what I remember it essentially 
decided out of the blue that criminal jurisdiction over non-
Indians was inconsistent with their status, with the status of 
Indians, and that I think made out of whole cloth so there 
certainly was no previous case that discussed why anything--why 
sovereignty was inconsistent with the Indian status. But in my 
opinion, the 1978 decision after years of progress under the 
Warren Court was the first decision that essentially represents 
a progressive erosion of the Court's understanding and support 
for tribal sovereignty in general and that erosion has 
continued even up to today, and I think that is one of the very 
unfortunate things that befell Indian tribes as it tried to 
push self-determination and self-governance and essentially is 
the erosion of their ability to be self-governing by the 
Supreme Court by essentially taking away attributes of their 
sovereignty and it is not only in criminal matters but I think 
in civil matters as well. That is an unfortunate problem that I 
think the previous panel said cried for change.
    Public Law 280 is something that we discussed also and it 
is another major issue because we do not give funding to tribes 
in Public Law 280 states like Alaska and California and those 
two states have more than half of all the Indian tribes in the 
United States, though certainly not in acreage. And as a 
result, I think that it is through the tribes that are not 
under Public Law 280 rely on the BIA but I think the tribes 
that are Public Law 280 states do not get any funding and do 
not necessarily get the services from the states that they are 
entitled to, which is a big problem I think. It would have been 
good to have a representative from a tribe in a Public Law 280 
state to essentially outline what the problems are there in 
terms of jurisdictional gaps.
    All right. With that, I will let my colleague, Jerry 
Gidner, discuss our progress on law enforcement issues.
    Mr. Dicks. Mr. Gidner.

                       Statement of Jerry Gidner

    Mr. Gidner. Thank you, Mr. Chairman and members of the 
committee. I am Jerry Gidner, the director of the Bureau of 
Indian Affairs. I am a member of the Sault Sainte Marie Tribe 
of Chippewa Indians and I suspect were I stopped on a 
reservation I would not be treated as an Indian either. I am 
pleased to provide a statement today on behalf of the 
Department regarding law enforcement issues.
    First I want to provide just a brief overview of what 
services BIA provides. We provide police services, patrol 
officers, criminal investigations, detention program 
management. We support tribal courts and we provide officer 
training at our Indian police academy. We support 191 law 
enforcement programs. Forty of those we run ourselves. That 
means the police officers, the police chiefs, the dispatchers 
are BIA employees. One hundred and fifty-one are tribally 
operated. That means the money flows to the tribes from us 
through either the 638 self-determination contracts or the 
self-governance compacts that Mr. Garcia mentioned. We support 
91 detention programs out of 82 facilities on 57 reservations. 
Of those 91 programs, 19 are BIA operated, 67 are tribal.
    And I will say, to digress for a second on the Public Law 
280 issue that was just mentioned, since Alaska and California 
are 280 states, Alaska has 229 villages, California has 106 
tribes, so out of 562 federally recognized tribes, 335 just 
from those two states alone are not supported by BIA for law 
enforcement. That does not even include that whole other list 
of states that was discussed where it could be tribe-by-tribe 
basis.
    The Indian police academy in Artesia, New Mexico, provides 
a basic 16-week police training and numerous other courses. We 
are collocated with the Federal Law Enforcement Training Center 
in Artesia, New Mexico, and I will point out, since domestic 
violence is on the agenda, as part of that training we do 
provide our officers at least 22 hours of training modules that 
have domestic violence specifically in the titles and many 
other hours of training on related topics. And just by way of 
commercial break, on May 7th we will have a law enforcement 
memorial ceremony at the training center where we honor 
officers, Indian Country law officers who have fallen during 
the past years.

                       LAW ENFORCEMENT CHALLENGES

    First I want to talk about some of the challenges we face 
and some of them were mentioned in your own opening statements 
and by the previous panel. Then I will talk about the progress 
we have made. The challenges are the remote locations--and by 
the way, Mr. Chairman, we do factor in geography when we are 
setting funding and staffing levels for tribes, one of several 
factors--the lack of housing--we cannot hire officers in these 
remote locations if there is no place for them to live--the 
high levels of drug and alcohol abuse, crime rates two to 22 
times the national average. We have difficulty recruiting 
officers. Right now 59 percent of the BIA and tribal law 
enforcement agencies are at a recommended national staffing 
average, so slightly more than half. It is up from 36 percent 
in 2006 but still nowhere near where it needs to be. The lack 
of adequate staffing means we have inadequate protection, 
unsafe conditions for the Indian communities as was mentioned, 
unsafe conditions for our officers who often work alone. Many 
reservations do not have 24-hour police coverage.
    As I think you have gotten a sense of, the jurisdictional 
issues make our job complex and I would just submit to you that 
I would put BIA and tribal police officers up against any 
police force in the world but if the people in this room cannot 
understand the jurisdictional issues, then I want you to 
consider how a police officer on the ground crossing tribal, 
non-tribal land at any given moment is going to make that 
decision. It is very difficult. It makes their job on the 
ground much more complex. And the need for coordination with 
other federal agencies, this was also discussed at length, but 
it is a critical factor. I will agree with President Two Bulls 
that all parts of the problem must be addressed together, and 
if we cannot address law enforcement, detention, tribal courts, 
detention facilities, operation and detention facilities, 
maintenance all together, then we are missing pieces of the 
puzzle, and all those pieces are critical.
    Let me talk a little bit about the progress and successes 
we have made. I do want to thank the committee for the budget 
increases over the past few years, $25.7 million in 2008 and 
$28.6 million, I believe, in 2009. In 2008, we targeted that 
money, $16.9 million for additional staffing, $6.3 million for 
drug enforcement and $2.5 million for internal affairs and our 
program management. We are just about at the point of having 
the distribution prepared for fiscal year 2009 since the budget 
has now been passed. We are targeting these reservations with 
unusually high crime rates and that will be available shortly. 
We also I believe in 2010 the President has already announced 
in his blueprint that he would like to include additional 
funding to bring 70 percent of the law enforcement agencies to 
adequate staffing. Some notable----
    Mr. Dicks. Seventy percent?
    Mr. Gidner. Seventy percent. Some notable areas of progress 
in the past two years----
    Mr. Dicks. Are those on the ones that used to have or is it 
ones the tribes have or both?
    Mr. Gidner. Overall, I will say, though that tribal leaders 
may not believe this but of the ones that are adequate 
staffing, a much larger majority of those are tribal programs 
and the ones that are farther from full staffing are BIA 
programs, and that----
    Mr. Dicks. I think they would believe that.
    Mr. Gidner. Perhaps. Partly it is because the tribes 
sometimes can get other DOJ grants or other funds to bring them 
closer, and we do not, of course.

                      OPERATION DAKOTA PEACEKEEPER

    We ran Operation Dakota Peacekeeper at the Standing Rock 
Reservation. For several months we rotated staff from other law 
enforcement agencies, BIA and tribal, to beef up the police 
force there, and that led to precipitous drops in both violence 
and minor crime rates, and although it relied on borrowed staff 
and we cannot run that indefinitely, in fact we have concluded 
that, I think it provided the first empirical evidence in a 
long time of what we can actually accomplish if we have 
adequate staffing on a reservation.
    One of our biggest problems, just to be honest, is our 
ability to recruit law enforcement officers. We have had 
numerous advertisements on the street the past two years 
because of the new money that has been provided. We have had a 
number of applicants for those positions and we have hired a 
number of positions. Unfortunately, we have had almost an equal 
number of officers leave during that time period. So the bottom 
line is, our law enforcement numbers are essentially flat today 
from where they were 18 months ago despite additional staffing. 
We are working to correct that. We are about to sign a 
recruitment contract similar to what the border patrol has done 
but on a smaller scale.
    Mr. Dicks. Well, this is where Mr. Olver could help us. We 
need a little housing for police officers in remote areas. That 
could be a big help. Would that not help if you guys could 
build some housing?
    Mr. Gidner. That would help, absolutely, and the 2009 money 
provided $3.5 million to begin that process. And, you know, 
there are a number of reasons. We may not know them all.

                            HOUSING SUPPORT

    Mr. Olver. Maybe we can have an explanation of what you get 
from BIA through the Interior budget for housing, what it is 
used for, so that I will know what the difference is between 
the Indian block grant program within HUD that ends up being 
$600 million or thereabouts per year partially going for 
housing and partially going for a set of services. I am a 
little unclear still about what we do out of Interior and what 
gets done out of Housing and Urban Development.
    Mr. Gidner. The HUD money is for tribes to provide housing 
for members. We have a housing improvement program that 
provides money for sort of the poorest of the poor.
    Mr. Dicks. But you zeroed that. We had to put the money 
back in.
    Mr. Gidner. Yes, thank you.
    Mr. Dicks. You did not zero it. I do not want to believe 
that. I want to believe that OMB did it and the White House.
    Mr. Gidner. That is fine with me, sir.
    Mr. Simpson. I suspect that was the previous 
Administration.
    Mr. Dicks. I did not want to mention that, but I think you 
know who I was talking about.
    Mr. Gidner. But neither of those programs address BIA 
employee quarters, and we would have to get exact numbers but 
we have very little to no money to run employee quarters. We 
can rent those quarters to our employees. That money is 
supposed to provide the maintenance. Those quarters are in 
abysmal condition. We are trying now to----
    Mr. Dicks. Now, where is this again?
    Mr. Gidner. Employee quarters, and they are scattered, you 
know, across the country in remote areas for law enforcement 
education personnel.
    Mr. Dicks. We just gave you $500 million for construction, 
BIA construction. Could you use some of that money to fix these 
things?
    Mr. Gidner. Some of that could be used for that as part of 
the overall stimulus, and we believe the Secretary is going to 
announce the projects this Saturday, so I will stay out of the 
way.
    Mr. Olver. Mr. Chairman, was it out of Interior's budgeting 
that that $500 million was done----
    Mr. Dicks. Yes.
    Mr. Olver [continuing]. Or is that out of my budgeting?
    Mr. Dicks. No, that is BIA.
    Mr. Olver. BIA got $500 million?
    Mr. Dicks. Yes, BIA got $500 million.
    Mr. Olver. In the stimulus?
    Mr. Dicks. In the stimulus.
    Mr. Olver. Indian housing also got $500 million in the 
stimulus out of HUD.
    Mr. Dicks. Well, that is because they got a billion.
    Mr. Skibine. Right. We are only talking about the $500 
million----
    Mr. Olver. That comes through BIA.
    Mr. Gidner. The HUD money is for tribes for their purposes. 
We are talking about employee quarters, which is a different 
matter.
    Mr. Skibine. But there are two things with employee 
quarters. First there is the repairs of existing quarters that 
we can use the Reinvestment Act for and then there is the 
building of new quarters where there is no housing for 
employees, and that is one of the problems we are having in 
recruiting, and that is what we have the $3.5 million for 2009 
that enabled us to build 15 units of employee quarters for law 
enforcement, and that is extremely useful. In the past when we 
have gotten money for employee quarters, it has been for 
education facilities, not for law enforcement, so that is 
something that we are very, very grateful for.

                       COORDINATION AND TRAINING

    Mr. Gidner. So cognizant of the time, let me move on. 
Things that we have done, we have created and staffed a Drug 
Enforcement Division of 33 officers. These officers work 
nationwide with various federal taskforces attacking, you know, 
the cartels, not the petty dealers, and there is a lot of work 
federally going on on that. We participate in those efforts. We 
have created 18 school resource officer positions. We have 
filled some of those. These are officers at the schools to help 
prevent gang activities, work with the kids, respond to 
emergencies if they do arise. We have hired victim witness 
coordinator positions. That is something that has been lacking 
in our operation.
    I would say our cooperation with the Department of Justice 
is really at unprecedented levels, and the issues raised by the 
previous panel do exist and we have had situations where DOJ 
would have money to build a detention facility but for whatever 
reason we did not get money in our budget to operate that 
facility once it was built. That is an ongoing problem but we 
are working with them very closely now, particularly with the 
stimulus money.
    Mr. Dicks. Normally you have to ask for the money in order 
to get the money.
    Mr. Gidner. Yes, sir, I understand.
    Mr. Dicks. Did you ask for the money?
    Mr. Gidner. Well, I will just say, you know probably more 
than anybody the different choices that have to be made in the 
budget process, and I will say, that was before my time in this 
job. I do not know what----
    Mr. Dicks. How long have you been in this job?
    Mr. Gidner. Seventeen months. I have been in BIA 11 years, 
federal government about 17.
    Mr. Dicks. Go ahead. Finish your statement.
    Mr. Gidner. We mentioned the $3.5 million for employee 
quarters, and there is also increases in 2009 for the Indian 
police academy and we hope to advance online and distance 
learning.
    Mr. Dicks. Let me ask you another question. On housing, do 
you have a way like the military does where they can rent 
housing?
    Mr. Gidner. Yes.
    Mr. Dicks. Do they get a housing allowance? Do the officers 
get a housing allowance?
    Mr. Gidner. I do not believe they get a housing allowance 
but they would pay us rent, which would go toward the operation 
and maintenance of the house.
    Mr. Dicks. But in other words, could they go out and rent a 
house because they are in a remote area and have the government 
pay for it?
    Mr. Gidner. No.
    Mr. Dicks. They cannot do that? Okay.
    Mr. Gidner. In a lot of cases, they cannot rent a house, 
period, because there are no houses. Operation Dakota 
Peacekeeper almost did not happen because of housing issues.
    With that, I will conclude my statement and open this up 
for questions. I appreciate the opportunity.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296B.078
    
    [GRAPHIC] [TIFF OMITTED] T2296B.079
    
    [GRAPHIC] [TIFF OMITTED] T2296B.080
    
    [GRAPHIC] [TIFF OMITTED] T2296B.081
    
    [GRAPHIC] [TIFF OMITTED] T2296B.082
    
                  DOMESTIC VIOLENCE AND SEXUAL ASSAULT

    Mr. Dicks. Well, obviously you heard the witnesses. I mean, 
this is a very serious situation where one out of three women 
who live on these reservations will be sexually assaulted 
during her lifetime if we do not do something. Now, what is it 
that you would recommend that we do to try to reverse this 
terrible situation?
    Mr. Gidner. Well, I would say right now we do not have a 
specific program on domestic violence or sexual assault. We 
have an overall law enforcement program which is woefully 
inadequate in many places, and I think we need to get that 
program working the way it should at the levels it needs to be 
at to reduce all crime, and if that happens, sexual assaults 
and domestic violence also should decline.
    Mr. Dicks. What about SANE, these people who are----
    Mr. Gidner. Sexual assault nurse.
    Mr. Dicks. Yes. What about that? I mean, it sounded like it 
was not that expensive, like $25 million you could do a 
significant amount. Why have we not----
    Mr. Gidner. It is an IHS function. We have purchased rape 
kits and distributed them with some of our funds, so we cannot 
be part of that solution, but it is one of those jurisdictional 
issues again.
    Mr. Skibine. I think besides what Mr. Gidner has outlined 
in terms of funding, I think that the previous panel also 
outlined the problem with the jurisdictional quagmire that 
exists is partly responsible for that--that is part of the 
problem and especially since I think I heard them--in reading 
the Amnesty International report, I think that the majority of 
offenders are in fact non-Indians. So they cannot be prosecuted 
by tribal courts and that is something the previous panel 
discussed at length and I think that increasing the 
jurisdiction and the fines and the amount of sentencing power 
of tribal courts would go a long way towards giving credibility 
to these court systems and law enforcement programs to 
essentially send a message that essentially domestic violence 
and violence against women, whether it be by tribal members or 
non-tribal members, will not be tolerated right now. Right now 
that is not happening, and I think President Two Bulls also 
outlined the fact that the funding we have talked about does 
not involve improvement and repairs of police stations or 
tribal court buildings, so that is not something that is not in 
the Reinvestment Act either and I think she outlined how the 
conditions of these facilities were sorely lacking.
    Mr. Dicks. The reality is, they used to have 110 officers, 
they needed 120, and they have 48. Is that the right number?
    Mr. Gidner. Yes.
    Mr. Dicks. How does this happen?
    Mr. Gidner. We distribute the budget that we have to 
distribute. Inflation has eaten it. Flat budgets, budget 
requests for whatever reason have not included that. It is a 
problem that developed over a long period of time.
    Mr. Dicks. Well, this is one thing I think we have to 
address. I just do not see any way that we cannot address this. 
Now, can you tell us basically what the Secretary's strategy is 
going to be here?
    Mr. Gidner. Well, I am not sure I can yet, Mr. Chairman.
    Mr. Dicks. Well, we can ask him when he comes.
    Mr. Skibine. I think the Secretary hopes to, as soon as he 
has an assistant secretary, to devise a plan and a policy to 
try to solve----
    Mr. Dicks. I hope one thing he will do is include the 
tribes in the planning, because I found over the years that if 
the tribes are not involved, that it does not work. You have to 
have something where there is buy-in by the tribes.
    Mr. Skibine. Absolutely, and I think that the Secretary is 
also committed to tribal consultation, as he stated.
    Mr. Dicks. Mr. Simpson.

                         NEED FOR MAJOR REFORM

    Mr. Simpson. Thank you, Mr. Chairman. I join Mr. Olver in, 
if you want to feel depressed, it is amazing to me, and 
honestly, I really do not have any questions for you because I 
do not put the blame for this problem on BIA or DOI. I think 
you are working in a system that is so totally broken that 
unless we reform this cotton-picking system, we are going to 
continue to fiddle around trying to fix, you know, put Band-
Aids on when we are bleeding from the arteries. That does not 
work. It seems to me listening to the previous panel and to all 
of you, I mean, I think you are doing what you can within a 
system that needs major, major overhaul and reform to address 
these fundamental problems that we have been listening to. I 
join with the other members in that it just seems strange to 
me, even beyond strange, some of the laws that we have put in 
place, and until we change those, I do not know that we are 
going to fix this situation. I mean, we could throw more money 
at it, and I suspect we will and try to address it through the 
fact that we know that we have inadequate funding and we will 
put more funds into it but that will not change the underlying 
problem, and unless we do that, I do not think we are address 
some of the major issues.
    Mr. Dicks. The only thing I would say, you know, this 
exercise you had, what do you call it, Dakota----
    Mr. Gidner. Dakota Peacekeeper.
    Mr. Dicks. It worked, right?
    Mr. Gidner. The crime numbers dropped.
    Mr. Dicks. So we do know that, and so what that says to me 
at least is that if we added more or got the Administration to 
request and we supported adding more law enforcement people, it 
could have a positive effect. I think you could also deal with 
and try to get the authorizers to deal with some of these 
jurisdictional issues, so I do not think it is hopeless.
    Mr. Simpson. I agree with you that we can have an effect. A 
Band-Aid on an artery that is bleeding has an effect, but in 
fact unless you sew that artery up, you are in trouble.
    Mr. Dicks. Obviously we need a major initiative.
    Mr. Simpson. Certainly Congress needs to address some of 
these issues that have come up, and we will do our share of 
what we can do within this Appropriations Committee, and I 
confident that with the members on this subcommittee that we 
will do everything we can, given the current structure, but we 
need a much broader policy and fix to this, so I appreciate 
your being here and your testimony.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Mollohan.

                   FEDERAL PROSECUTION RESPONSIBILITY

    Mr. Mollohan. Well, thank you, Mr. Chairman. I think both 
the chairman and the ranking member are right on when they talk 
about some sort of systemic reform in the justice programs 
which cover Indian Country. But again, short of that, you 
indicated in response to one question that you do not have a 
specific sexual assault program, you need an overall justice 
initiative. Where would you start with that? As I understand 
all the talk about one year, what that really means is that the 
Indian jurisdictions do not cover, do not run to, have no 
jurisdictions over felonies, any crime that is committed that 
could be punished under the law by more than one year 
imprisonment. Is that correct?
    Mr. Skibine. I think that the tribes have concurrent 
jurisdiction but they are--with the federal government on major 
crimes but they are limited to this one-year, $5,000 penalty.
    Mr. Mollohan. Okay. So--go ahead. I am sorry.
    Mr. Skibine. So essentially if the federal government does 
not prosecute what we were talking about, a rape, on the 
previous panel, then the tribal court can prosecute the crime 
but we would be limited.
    Mr. Mollohan. So the tribal court could prosecute for the 
crime of rape or the crime of murder but could only sentence up 
to one year?
    Mr. Dicks. And only against a tribal member.
    Mr. Skibine. That is correct, only against a--no, not the 
tribal member, against any Indian.
    Mr. Dicks. Against any Indian?
    Mr. Skibine. Right.
    Mr. Mollohan. Okay. So you would----
    Mr. Dicks. So non-Indians under Oliphant, it cannot try 
them.
    Mr. Mollohan. I see. So you have non-Indians you could not 
try at all, you have no jurisdiction. Would the tribes have 
jurisdiction for trying an offense for a non-Indian that was 
not a felony offense?
    Mr. Skibine. No, there is no jurisdiction for any criminal 
offense.
    Mr. Mollohan. When people talk about that and they make 
recommendations about it, I should have asked the other panel 
but what is their desire with regard to jurisdiction? Do they 
want that jurisdiction?
    Mr. Skibine. I think so. Well, this would be consistent 
with the sovereignty of tribes over their territory.

                 CHANGES REQUIRED FOR FULL SOVEREIGNTY

    Mr. Mollohan. Yes, it certainly would be consistent.
    Mr. Dicks. See, one thing that could happen here is that 
Congress could overturn Oliphant and give the tribes 
jurisdiction over non-Indians.
    Mr. Mollohan. Well, my question is, would you like to have 
that jurisdiction?
    Mr. Garcia. If the capabilities of the tribes are up to 
par, then it makes sense to do that, but I think there is where 
the assessments are so important, that those tribes that 
require still direct services and whatnot, they have to be--the 
providers of those services have to be cognizant as well as the 
tribes----
    Mr. Mollohan. Well, I know it gets really incredibly 
complicated but I am just trying to get it, the top line 
aspiration would be that Indian Country would like to be able 
to assert sovereignty, which would mean have jurisdiction over 
felony crimes and be able to apply sentence felonies for 
Indians and non-Indians?
    Mr. Dicks. Yes.
    Mr. Mollohan. Okay. Then that raises really, you know, 
having that jurisdiction would raise all of these incredible 
resource issues. I mean, you would have to have prisons and 
detention centers. A prison is not a detention center so it 
really does raise fundamental resource issues, so I just wanted 
to----
    Mr. Garcia. The other solution would be that you could have 
cooperative arrangements within the states.
    Mr. Mollohan. You could have imprisonment in state 
institutions. That is the way you----
    Mr. Dicks. Or federal.
    Mr. Garcia. That is the innovation we need to address and 
we need to do it together.
    Mr. Mollohan. Is anybody talking about that innovation? I 
mean, has that been laid out? Who are you talking with about 
that?
    Mr. Garcia. NCAI to tribal leaders across the nation, as 
president of the National Congress of American Indians, and we 
are looking for innovative solutions, not the same old things 
that have been tried or not tried and so I think this is really 
what we are looking for.
    Mr. Mollohan. As the chairman and ranking member have 
mentioned, you do need fundamental reform. Are you talking to 
the authorizing committees in the Congress and is the new 
Secretary----
    Mr. Garcia. Some of them we are and certainly the 
Secretary, yes, and also on the Senate side we are also working 
with that and so I think that is part of what may be addressed 
in some of the bills and amendments to the language.

                  PAST EFFORTS TO ADDRESS JURISDICTION

    Mr. Dicks. Have the tribes sent up a bill on this or asked 
for a bill to be considered?
    Mr. Garcia. Well, what we have done, Mr. Chairman, is that 
a number of tribes have undertaken this effort themselves as 
well as the regional in the organizations and they have passed 
resolutions to the effect to turn over the Oliphant case and 
the next step is then to do it as a wholehearted effort from 
the representatives of the National Congress of American 
Indians that represent, I think we are represented by about 250 
member tribes and we can push the effort. Then we can draw the 
language and we will talk to and approach the appropriate 
Congressional people and build support so that it has a chance 
of passing, and we are in the midst of doing that.
    Mr. Mollohan. Mr. Chairman, if you solve the jurisdictional 
issue and give people power to protect themselves, then you 
will take care of non-Indians going on Indian reservations and 
committing these kinds of crimes really fast.
    Mr. Simpson. Would you yield for just one second for a 
question?
    Mr. Mollohan. Yes, sir.
    Mr. Simpson. Let me ask you a question, and this is 
internal to us. The Senate has an Indian Affairs Committee. In 
the House, all of Indian affairs are dealt with in the 
Resources Committee. The Resources Committee has a whole lot of 
issues with public lands, Forest Service, BLM, et cetera, et 
cetera, et cetera. Do you feel that the issues dealing with 
Native Americans are dealt with better in the Senate than they 
are in the House, that there is more attention paid to them, 
more knowledge within the--because we are talking about, you 
know, the authorizing committee ought to take this up. They 
have a whole bunch of issues and we do not have anything that 
is specific to Indian affairs.
    Mr. Garcia. Mr. Simpson, I think you have basically 
answered the question, that it operates and functions a lot 
better because it is focused on these issues, and that is the 
same reason you might want to think of why having the Bureau of 
Indian Affairs within the Department of Interior does not make 
any sense because there are too many other underlying issues 
that take priority over the lives of Indian Country and so it 
would be the same thing, and so we have made in the past 
suggestions and recommendations that on the House side there be 
a counterpart of the Senate Committee on Indian Affairs, and so 
if we can do that, I think Congressman Cole has knowledge about 
that but----
    Mr. Simpson. Mr. Cole tells me that there used to be on the 
House side.
    Mr. Garcia. And if that were reinstituted, it would be a 
better approach and I think we can concentrate on the efforts, 
as you have seen through the--we are now just talking about law 
enforcement and crimes. It is the same thing with housing, 
health care and other issues, so it would be appropriate to do 
that and I would strongly recommend that that be considered.
    Mr. Simpson. I thank the gentleman.
    Mr. Dicks. Mr. Cole.

                       DISCUSSING JURY SELECTION

    Mr. Cole. Thank you very much, Mr. Chairman. Just to that 
point before I get to my questions, I know Mr. Kilde and I have 
worked together to try and get at least a subcommittee on 
Interior because everything is dealt with at the full committee 
level there, and you know, that is just really tough because 
there is just too many people that have the kind of discussion 
we have had today and get the kind of focus, and so we 
structurally are not set very well to deal with Indian issues 
on our side as compared to the Senate. Now, at the end of the 
day, attitude is everything. I mean, you could have the perfect 
structure and it is really who is sitting on those committees 
and what their approach is. As you have shown, Chairman, thank 
you very much for your focus and your interest.
    I do want to go back to this jurisdictional issue quickly 
and ask you, and I say this as somebody who is very much in 
favor of granting it. The issues aside from the resources 
issues, which have already been mentioned and certainly 
correctly so, because you do change everything when you extend 
that authority as to what you are going to require from law 
enforcement officials, their level of training, their 
sophistication. There is also the issue of jury pools, that is, 
because you are going to have an all-Indian jury and a non-
Indian offender in some cases so you open yourselves up to--I 
mean, these are things that have to be thought through. That 
was one of the justifications for taking it away in the first 
place. And you also open yourself up to the whole appeals 
process, where do you go. Because obviously a state has a 
pretty sophisticated court system. You can appeal, you know, 
right into an appellate system with a supreme court at the top 
of it and then cross appeal in the federal. Most tribes, you 
would have the federal avenue but where would you go. So having 
raised all those questions, I am just asking you, and 
recognizing it would take a step-by step monumental effort to 
get back there, are you in favor? Does the BIA have an official 
position in restoring tribal jurisdiction?
    Mr. Skibine. I am not sure that we have an official 
position on that.
    Mr. Cole. Are you comfortable speaking to it personally? I 
am not trying to put you on the spot.
    Mr. Skibine. Yes, personally I think I am in favor of it.
    Mr. Cole. Do you have an opinion as well?
    Mr. Gidner. We do have an official position.
    Mr. Cole. I am not trying to trap you but you all have 
experience in this.
    Mr. Gidner. I would say it is very difficult to run 
effective law enforcement, given the current jurisdictional 
situation, so I think there should be a fix for that.
    Mr. Cole. Okay. Let me ask you this question too following 
along those lines because going back to some of the things we 
have discussed in both panels, what about the consolidation, an 
issue that Joe raised, sort of bringing together resources and 
everything across the federal government, either back within 
the BIA or, you know, some sort of council that operates across 
jurisdictions? Is that a good idea? Is that necessary?
    Mr. Skibine. I think it is a good idea because right now we 
have communication problems. We are trying to improve that, 
especially with the Department of Justice, but there have been 
problems, like the problems of building jails without any 
funding to operate the jail, so there is--I think if everything 
was thought out before, we would not have these kind of 
problems.

                  GETTING MORE FOCUS ON INDIAN ISSUES

    Mr. Cole. Now to draw you all the way, I am going to go to 
Joe's point, although I say this, Joe, with some trepidation. 
There has been a period in American history when a single 
Cabinet department focused on Indian affairs but we called it 
the Department of War back then. You know, you have to think 
twice about whether or not you want to return. But would it be 
a good idea to have a separate department, given the diversity 
and the complexity of Indian Country, the different tribal 
traditions? I mean, it is an enormously complex area to deal 
with and should it be at the secretary or the Cabinet level?
    Mr. Skibine. I think so. I think that it would certainly 
give more visibility to Native issues and it would essentially 
eliminate the conflicts that the Secretary of the Interior, for 
instance, has right now. So I think with that, it would be 
something that I think all the Indian tribes would support.
    Mr. Cole. I will just make this single comment. I agree 
because it is very difficult for the Secretary of the Interior, 
who is handling resource issues and really managing our 
property, but, you know, he is effectively managing somebody 
else's property when you are talking about, you know, the 
Department's authority in Indian Country because, you know, 
this is not land owned by the United States government, it is 
landed owned by the Chickasaw Nation or the Comanche Nation or 
what have you and so absentee landlords usually are not good, 
and the conflicts, because there is so much federal land that 
abuts Indian Country, particularly the land-based tribes that 
they deal with, and the position that puts the Secretary in is 
incredibly difficult politically. So anyway, if anybody else 
wanted to express an opinion on that. Joe, I think I know yours 
but I am always interested for you getting it in the record.
    Mr. Garcia. Thank you, Congressman. I hope it is in the 
record and we will follow suit with resolutions from NCAI but 
from across the land and not only on the issue about 
establishing a department and secretary but as well from 
Oliphant case and there are numerous other ones like the 
Carcieri that was just decided that when you talk about courts, 
who is the Supreme Court made up of? There are certainly no 
Indians on the Supreme Court and they make major decisions that 
have impacted us severely and I think we have got to consider 
that but there are a number of tribes from across the land who 
if they have jury courts, they have non-Indian members serving 
on the courts and a lot of the judges are non-Indian and so the 
capabilities and whatnot I think are there but we had to go 
through a systematic process in fixing all of the dilemmas that 
we face because what we have done is, we have done a lot of 
piecemeal fixing and you cannot do it with a system as 
complicated as what we are talking about.
    Mr. Cole. Back to Mr. Simpson's point about the nature of 
an institutional fix and one point to your point. I have gone 
back and looked at a lot of the questions that are asked at 
Judiciary Committee hearings in the United States Senate. We 
have no authority there over--does anybody ever even ask 
anybody going on the Supreme Court about what they think about, 
you know, Native American laws or tribal status? You will not 
find it. The question is simply never raised. It is never 
raised, let alone to the federal people going in and so you do 
not have people that are headed to the courts very often. 
Thinking about this is a very important area of law and it is 
extraordinarily important and extraordinarily complex. But 
anyway, thank you, gentlemen, for being here.
    Thank you, Mr. Chairman.

                      COLLECTING APPROPRIATE DATA

    Mr. Dicks. I am going to go to Mr. Olver in just a second 
but I want to ask one question here. Amnesty International and 
other witnesses have testified and made statements that there 
is no official statistics being collected specifically on 
sexual violence in Indian Country. How might such a data 
collection effort be developed and how would the Department be 
involved?
    Mr. Gidner. Well, I believe that there is no gender-
specific crime collection data being collected.
    Mr. Dicks. Why not?
    Mr. Gidner. I just do not think we have the system to do it 
right now. We do not really have a good system for collecting 
data. Data coming in from tribes is still sometimes given to us 
manually for us to enter in. The Department is working on an 
incident reporting system for all bureaus that we would be 
involved with and could be rolled out to tribes later after it 
is developed. So we would definitely have a roll in any data 
collection process.
    Mr. Dicks. But as of now you do not keep this, you do not 
collect the data?
    Mr. Gidner. No.
    Mr. Dicks. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman.

                         INDIAN HEALTH SERVICES

    Just to get my bearings here, Mr. Secretary, you have under 
your jurisdiction both the IHS----
    Mr. Skibine. No.
    Mr. Olver. You do not?
    Mr. Skibine. No.
    Mr. Olver. Where is IHS?
    Mr. Dicks. Health and Human Services.
    Mr. Olver. So all you have then is the Bureau of Indian 
Affairs?
    Mr. Skibine. That is correct, and the Bureau of Indian 
Education.
    Mr. Olver. Which is separate? There is a separate Bureau of 
Indian Education?
    Mr. Skibine. Yes, correct.
    Mr. Olver. Just those two major bureaus under the 
Secretary?
    Mr. Skibine. That is correct.
    Mr. Olver. You are acting because you are awaiting--no, you 
are not waiting for Senate confirmation. It is a Senate-
confirmed position, I take it?
    Mr. Skibine. The assistant secretary is. That is correct.
    Mr. Olver. The assistant secretary is. So are you a 
candidate for that?
    Mr. Skibine. No, I am not. There is a candidate that has 
been named.
    Mr. Olver. It has not been confirmed. They have not had 
hearings?
    Mr. Skibine. They have to set up a hearing.
    Mr. Olver. Where do you go when that confirmation occurs?
    Mr. Skibine. When is it?
    Mr. Olver. Where do you go?
    Mr. Skibine. Oh, me? I go back to being a faceless 
bureaucrat in the bowels of the Interior Department.
    Mr. Olver. Let's not go there, any farther there. Mr. 
Gidner, you are a professional?
    Mr. Gidner. Yes.
    Mr. Olver. A professional as opposed to a political 
confirmed appointee.
    Mr. Gidner. Yes, the Bureau of Indian Affairs is a career 
position.
    Mr. Olver. I want to go back. My impression, I have been 
struggling here with some numbers because Mr. Garcia started me 
out by giving numbers and I used to be able to work very 
quickly with numbers. I am finding it not so easy, especially 
when a conversation is going on, but I come to the conclusion 
that about twice the number of officers on reservations would 
be essentially proportionate to the number of officers in the 
general population for roughly 300 million people. Is that 
about right, roughly 25,000 instead of 2,500 would be roughly 
the proportionate number?
    Mr. Gidner. We compare ourselves to the non-metropolitan 
areas but----
    Mr. Olver. So you would normally----
    Mr. Gidner [continuing]. The shortfall is still 
considerable. I do not know exactly what the number is today.

                    NUMBERS OF ENFORCEMENT OFFICERS

    Mr. Olver. I was taking an average across the whole 
population and yes, usually you find much higher number of law 
enforcement officials in the urban areas. Okay. So maybe the 
2,500 is actually pretty close to proportionate for the rural 
population.
    Mr. Gidner. We are below even the rural.
    Mr. Olver. When I calculated the--oh, I see.
    Mr. Dicks. Mr. Olver, let me just read one thing here. I 
think it may be helpful. This comes out of the gap analysis, 
United States Department of Interior. As a whole, Indian 
Country has 2,555 LEOs yet needs 4,409 LEOs, resulting in a gap 
of 1,854 LEOs or a 42 percent unmet staffing need. This is 
2006.
    Mr. Olver. I will accept that as 4,400 being fairly close 
to the 5,000 that I was coming to as a rough number that was 
needed. Somebody can explain to me where the 675,000 were. That 
was for the whole United States, which is for rural and urban 
areas in total. Anyway, all right.
    Mr. Gidner, you had mentioned at a point that there were a 
certain number of detention centers, a total number of 60 or so 
of them, and 20 of them were operated by the BIA or was it 40, 
the opposite?
    Mr. Gidner. For detention centers, detention programs, we 
operate 19. There are 91 detention programs and----
    Mr. Dicks. What was that number again?
    Mr. Gidner. Ninety-one detention programs. We operate 19, 
tribes operate 67.
    Mr. Olver. Sixty-seven and 19. Well, there is some small 
difference but I will not worry about that for the moment. 
Detention programs, these would be detention programs on 
particular reservations?
    Mr. Gidner. Yes.
    Mr. Olver. Then there are many reservations that do not 
have a detention program, do not have a detention center?
    Mr. Gidner. Yes. These are--and you have to distinguish the 
programs versus the facilities because a facility can have more 
than one program, an adult program and a juvenile program, for 
example, but there are 82 facilities on 57 reservations so the 
short answer is yes, there are reservations without a 
detention.
    Mr. Olver. Then there are lots of these reservations, most 
of them probably in California and Alaska, that simply do not 
have a detention program or a detention center on the 
reservation?
    Mr. Gidner. Right.
    Mr. Dicks. Because they are dealing with the state.
    Mr. Olver. All right, in those places they are dealing with 
the state but there are lots of others, a couple hundred of 
them, that just apparently do not have a detention center or a 
detention program. What is the difference? Why do you run some 
of them and the tribes run others?
    Mr. Gidner. Well, as a general matter, it depends. Under 
self-determination, tribes get to decide whether they want to 
run them or not.

                  SUPPLEMENTING THE ENFORCEMENT BUDGET

    Mr. Olver. Are yours better run than the tribes'?
    Mr. Gidner. Not necessarily. I have not seen an analysis of 
that. If a tribe takes the program from us under a contract or 
a compact, the money that we would use to run it goes to the 
tribe and they run it with that money.
    Mr. Skibine. Right. In some cases, tribes, especially 
tribes that have income from economic sources like gambling, 
are able to supplement their law enforcement programs and 
detention centers so in that way they have access to funds that 
we do not use.
    Mr. Gidner. Do you then give them less out of the 
appropriation?
    Mr. Skibine. No.
    Mr. Olver. The tribes get proportionate amounts of money to 
use to run the detention centers in places that you run them?
    Mr. Gidner. We do not have a means so we provide them the 
amount that we use to run that program.
    Mr. Olver. The budget shows for the justice funding that it 
has gone up a little more than 10 percent from 2007 to 2008 and 
slightly less than 10 percent to 2009, but I note that the 
construction budget has taken a huge jump comparatively. In 
terms of real numbers and real needs it may not be very large 
but a big jump between 2008 and 2009. And I see there is, to go 
back to this question of housing which I was being trapped on 
earlier, the employee housing, I do not--I would have to check. 
I do not see any particular reason why some of the Indian 
housing block grant monies that go out each year in 
Transportation and HUD's budget could not be used for employee 
housing. On the other hand, it seems to me that it would be 
perfectly reasonable to be using part of your money if it were 
adequate in the first place for housing for the employees one 
way or the other. It does not matter as long as it gets done, 
as long as you have housing for employees. Because whether you 
have 4,404 or whatever the number is of law enforcement 
officials, they have to have good training and they have to 
have this jurisdictional issue because several people on the 
previous panel pointed out that you really had to have the 
training in order to take a crime scene and get the data out of 
that crime scene, milk that data out as quickly as you possibly 
can before the state comes in or the FBI comes in and looks and 
says we do not have enough to prosecute in any kind of a way. 
So you really have to up dramatically the training that is 
going on for people to be able to provide the law enforcement 
of an equivalent nature to what the non-reservation population 
in this country gets.
    Mr. Gidner. Well, I would say I think our training is 
exceptional for BIA and tribal police officers. There is a 16-
week basic police officer training. If people want to become 
criminal investigators, there is separate criminal 
investigation training. There is other training. We send people 
to the FBI academy at Quantico.
    Mr. Olver. I heard you say that you would put them against 
law enforcement officers anywhere else. Then the only issue 
then for why Ms. Two Bulls from the Pine Ridge Reservation 
really then has that there are so few people available that 
they cannot get to deal with the incidents that they get called 
on in a timely manner.
    Mr. Gidner. Well, President Two Bulls may have a different 
view of our training than I do. I certainly respect that. But 
the amount of officers and the timing to get there is 
absolutely an issue.
    Mr. Olver. And the roads.
    Mr. Gidner. And the roads.
    Mr. Olver. And not being plowed in the wintertime or 
whatever it may be that makes it so difficult.
    Mr. Gidner. Absolutely. These things are all interrelated. 
There is really no way to separate them.

                           DEFINING THE NEED

    Mr. Dicks. The big thing is, we are 40 percent below where 
we need to be in terms of numbers.
    Mr. Olver. Right, and the replacement facilities for the 
detention facilities, my guess is, we would all be appalled if 
we visited those detention centers and one needs a lot of 
replacement money so that nearly three times as much money for 
replacement facilities where you have them. There are probably 
some that need extensive repair, probably tearing down and 
total replacement.
    Mr. Gidner. We would agree.
    Mr. Simpson. Mr. Chairman, could I just follow on that?
    Mr. Dicks. Yes, Mr. Simpson.
    Mr. Simpson. What is the standard for tribal police 
officers? Is it set by the BIA, by the tribe? Do they have to 
go through the training to become a police officer?
    Mr. Gidner. They do. For officers funded with our money, 
they certainly would have to have the level of training that we 
set. Some tribes will send them to a state training center and 
then have a separate unit on Indian Country jurisdiction, which 
we provide and most state academies would not. So I am looking 
into how we could possibly regionalize the program. Artesia, 
New Mexico, has an established facility but is a long damn way 
from home, just about anywhere. It is a long drive from Artesia 
to Albuquerque but farther from Pine Ridge, so we have heard 
that from tribes. They would like a way to get training without 
having to send people so far away for so long.
    Mr. Simpson. But if the police officer is hired by the 
tribe or not funded by you, they set their own standard on what 
they----
    Mr. Gidner. Pat, you know better than I.
    Mr. Ragsdale. Good afternoon, Mr. Chairman. I am Pat 
Ragsdale. I am the director of the Office of Justice Services 
within the Bureau of Indian Affairs. Tribal law enforcement 
officers, of which I used to be one, years and years ago, I was 
a tribal police chief, generally have to adhere to the same 
sort of federal standards that law enforcement officers across 
the country. For basic training, we send our officers both 
tribal and BIA officers, to the criminal investigator school at 
Glencoe, Georgia, and also, as as Mr. Gidner has indicated, to 
the national FBI academy as well as a host of other training 
facilities throughout the state. So as a whole, the 
qualifications and requirements for tribal, specific tribal 
officers and BIA officers, are the same. Furthermore, in order 
to carry a federal commission under our organic authority under 
the Law Enforcement Reform Act, they must need the background 
standards and we issue them federal commissions so they are 
authorized to act as federal law officers in the course of 
their regular duties provided they have adequate backgrounds 
and have the appropriate training qualifications.
    Mr. Simpson. Because one of the issues back in my career in 
politics at the state and local level was always state police 
or sometimes the local county police felt that the local tribal 
police were not trained, so trying to get some of that cross-
jurisdictional stuff addressed was always difficult and I do 
not know if it was jealousy or if it was reality. It sounds 
like they have come a long way.

                  COOPERATION BETWEEN TRIBES & STATES

    Mr. Ragsdale. There is a mechanism, and tribes and states 
and local entities have come a long ways in agreeing through 
cooperative law enforcement agreements that the Department of 
Interior, Bureau of Indian Affairs is engaged a sanction under 
the Law Enforcement Reform Act so that they are cross-
deputized, and when you answer a crime or an incident as a 
police officer, you respond to the call, and the concept of 
cooperative law enforcement agreement is, we cross-deputize, 
work out the insurance agreements and so on and so forth. And 
then we let the prosecutors figure out who has got jurisdiction 
if a criminal event has occurred and it needs to be prosecuted, 
and more and more of our tribes are moving in that direction 
and it does spread our resources a little further, at least for 
providing mutual aid to one another.
    Mr. Garcia. I have a point to add. I think I have an 
answer, Chairman, for your question about data on sexual 
assaults. Yesterday I was at a hearing in Houston and it had to 
do with the Adam Walsh Act and the Smart Office is working on--
well, it was a summit hosted by the Smart Office of DOJ and it 
has to do with the sexual registry and the Adam Walsh Act that 
was passed not too long ago, two years ago, in fact, the tribes 
are working in concert in most cases with states and others for 
having the registry and I think one of the things that was 
pointed out earlier is that if you have sexual assaults and 
even though you go through the prosecution, if are you limited 
to one year or less detention for these criminal activities, 
then the repeat offense increases. And so I think that is 
basically why that registry--and it is another thing that is 
tied to not just BIA but it is tied to other areas within what 
we are dealing with in Indian Country and in this case the 
assault. But on the other piece, I think the data that you were 
asking about, it is appropriate if it is a linear function or 
just taking a standard address but I think the numbers should 
include a variety of criteria that increases the numbers for 
law enforcement needs depending on where the----
    Mr. Simpson. And the crime.
    Mr. Garcia. Yes, and the rate of crime and all of that, and 
so if you consider those, it is a summation of different 
criteria that ups that number beyond just a doubling of the 
need in this case and so I think that is an important piece. 
But the other point I wanted to make was that when you have 
recruitment of officers for either the BIA or for tribal 
employment, these people go through the training at the expense 
of the Bureau or the expense of the tribe and they go work for 
a tribe but you know what happens to them is that they are 
enticed by the local funding law enforcement whether they be 
county, whether they be city or the state. They are enticed 
because of salaries and better benefits so they have been 
training using our dollars and there is no commitment that is 
initiated for them to serve out the duration a long time in the 
tribe and so they float off and they are gone and so now we are 
stuck with having to recruit more, and I have seen it happen 
too many times locally but it is happening throughout Indian 
Country as well, so it is another factor and so it is another 
piece of the puzzle that we have to work with.
    Mr. Olver. May I comment to that very briefly?
    Mr. Dicks. Yes.

                      AUTHORIZING LAW ENFORCEMENT

    Mr. Olver. It seems to me that it would help if the law 
enforcement issues were authorized by the same committee, 
Judiciary Committee that does the rest of the nation's law 
enforcement authorization, so that there would be right there 
some sense of consistency about the way that is done. I am not 
sure that that is the right place but that is clearly where 
jurisdiction of other law enforcement, that is defined from the 
federal level, comes. I do not understand why this one, for law 
enforcement purposes is under jurisdiction at Resources or 
wherever it is in the Senate. I have not quite figured out and 
understood that. It is just a thought.
    Mr. Dicks. I do not have an answer for you. We have to 
think about that.
    Mr. Gidner. Mr. Chairman, can I clarify one thing?
    Mr. Dicks. Why do you not explain it?
    Mr. Gidner. Well, no, I am not going to weigh into--I will 
weigh into many things but not how the Congress organizes 
itself. I cannot explain that, sir. I wanted to clarify a 
previous statement. We do collect sexual assault data but we do 
not differentiate it based on gender. Now, you may assume, if 
you wish, that, you know, most of the victims are female but we 
do not collect that information. We do collect sexual assault 
data, however.
    Mr. Dicks. What do you think of that?
    Mr. Ragsdale. That is absolutely true.
    Mr. Dicks. I know it is true but is it the right thing to 
do or not?
    Mr. Ragsdale. Well, it depends on the sophistication of 
your data collection. I mean, if you went through our----
    Mr. Dicks. Why would you not make a distinction? Why would 
you not just put down female or male? It does not seem like it 
would be a big--why not make it clear?
    Mr. Ragsdale. The information that we use is based on the 
FBI's UCR report, which we are trying to standardize, and I 
would say that the Bureau is behind in terms of sophistication 
of systems because of the reasons we were off the Internet for 
almost a decade and are just now coming back onto the system so 
we are working very hard----
    Mr. Dicks. The Interior Department?
    Mr. Ragsdale. The Interior Department, sophisticate our 
system so that we can, but if you drill down to the source 
behind the number of sexual assaults that we annually report, 
you will find that information. What I am saying is that it is 
not in a neat electronic system at this point in time. We just 
recently met with the Bureau of Justice Administration to 
gather statistics to try to effect some reform to statistical 
gathering for crime in Indian Country specifically.
    Mr. Dicks. Any other questions?
    Well, thank you. We appreciate your work. We know it is 
very difficult, and we have a lot of work to do.

[GRAPHIC] [TIFF OMITTED] T2296B.083

[GRAPHIC] [TIFF OMITTED] T2296B.084

[GRAPHIC] [TIFF OMITTED] T2296B.085

[GRAPHIC] [TIFF OMITTED] T2296B.086

[GRAPHIC] [TIFF OMITTED] T2296B.087

[GRAPHIC] [TIFF OMITTED] T2296B.088

[GRAPHIC] [TIFF OMITTED] T2296B.089

[GRAPHIC] [TIFF OMITTED] T2296B.090

[GRAPHIC] [TIFF OMITTED] T2296B.091

[GRAPHIC] [TIFF OMITTED] T2296B.092

[GRAPHIC] [TIFF OMITTED] T2296B.093

[GRAPHIC] [TIFF OMITTED] T2296B.094

[GRAPHIC] [TIFF OMITTED] T2296B.095

[GRAPHIC] [TIFF OMITTED] T2296B.096

[GRAPHIC] [TIFF OMITTED] T2296B.097

                                           Wednesday, May 13, 2009.

                       DEPARTMENT OF THE INTERIOR

                               WITNESSES

HON. KEN SALAZAR, SECRETARY OF THE INTERIOR
PAMELA HAZE, ACTING ASSISTANT SECRETARY OF THE INTERIOR FOR POLICY, 
    MANAGEMENT, AND BUDGET

                     Opening Statement of Mr. Dicks

    Mr. Dicks. Welcome, everyone, and thank you for being here 
today.
    It is my honor to welcome the 50th Secretary of the 
Department of the Interior and former Senator from Colorado, 
Ken Salazar. Secretary Salazar has many challenges and many 
opportunities ahead of him, and I look forward to working with 
him as the new administration leads this Nation in a new 
direction.
    The Department of the Interior manages 20 percent of the 
land mass of the United States and 1.7 billion acres of the 
Outer Continental Shelf. The Department is also responsible for 
the trust relationship between the United States and Native 
Americans. DOI is the manager of over 56 million acres of land 
held in trust for Native Americans and tribes.
    This committee has, over the past 2\1/2\ years, worked hard 
to preserve, protect, and support our natural resources and 
public lands. Each year, we have increased funding for the 
operation and maintenance of our parks and wildlife refuges. We 
have increased funding for the Department's efforts in 
adaptation and mitigation of climate change. In fact, it was 
this committee that initiated the National Global Warming and 
Wildlife Science Center in the U.S. Geological Survey. And we 
have supported increased funding for law enforcement efforts on 
Indian lands.
    All of this was initiated here by this congressional 
committee despite the dismal budget request we received from 
the previous administration. So it is with great pleasure that 
I note that the fiscal year 2010 budget for the Department of 
the Interior represents a remarkable shift in priorities from 
recent budget requests.
    The 2010 budget totals slightly more than $11 billion, 
which represents an 8.9 percent increase over the 2009 enacted 
level. This budget has a number of important components, 
including: it fully funds fixed costs for all your agencies; 
provides funding for climate change science, adaptation, and 
mitigation; increases funding for both traditional and 
renewable energy production; continues restoring the 
commitments we have made to the education and safety of Native 
Americans; moves towards fully funding the Land and Water 
Conservation Fund; funds important programs for public lands, 
wildlife refuges, and parks, including significant increases 
for operations and programs to promote youth participation in 
outdoor activities.
    By the way, I applaud the 21st-Century Youth Conservation 
Corps initiative. I think this is a great idea and one that we 
will be supporting. Our committee had Richard Louv, author of 
``The Last Child in the Woods,'' testify last year, and we 
found his testimony to be very revealing, and that we have to 
have initiatives in all of our departments to get more people 
and more children out into the woods.
    The budget provides for a matching grant program for 
signature projects and programs in our national parks. There 
are many details in this request that we will no doubt take a 
careful look at, including each of the initiatives and funding 
increases.
    There are some other issues that we will discuss today that 
have been of concern to the members of this subcommittee. The 
problems associated with the Minerals Management Service and 
the recent findings from the Office of the Inspector General 
and Government Accountability Office must be addressed to 
assure the American people that we are receiving fair value for 
their resources.
    There are also challenges associated with endangered 
species management, implementation of renewable energy 
policies, wildland fire management, and protection of our 
national monuments. The discussion of these issues will no 
doubt extend beyond our hearing today.
    In summary, the Department of the Interior programs have 
been challenged over the last years, and I am glad to see a 
reverse in approach and an increase in funding, though we are 
still not back to where we would have been had we received a 
reasonable amount of funding previously.
    I want to now call on Mr. Simpson from Idaho, who is our 
ranking Republican member. And we are trying to work, in this 
committee, on a very bipartisan basis, and we think these 
issues deserve bipartisan support.
    Mr. Simpson.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman. And thank you for 
bringing up the previous administration one more time.
    Mr. Dicks. Next year it will be on us.
    Mr. Simpson. I assume we are talking about the Roosevelt 
administration. I wasn't sure.
    Mr. Dicks. We just wanted you to remember how great it is 
to have----
    Mr. Simpson. I appreciate that.
    Mr. Secretary, I would like to join Chairman Dicks in 
welcoming you back to the Hill today. We appreciate the benefit 
of your views on the fiscal year 2010 budget request and 
believe that you will find that we are a pretty reasonable 
audience. In fact, Chairman Dicks often refers to our 
subcommittee as ``the fun bunch.'' We will see if we can live 
up to that reputation today.
    I hope to cover a lot of ground with you today. It is 
apparent from your short time in office that you have set an 
ambitious agenda for the Department. I admire that and believe 
that you are setting an early tone that is balanced and 
reasonable. I have always thought there is something wrong when 
people are pleased with every decision that you make. When you 
tick off people on all sides on a number of issues, that is 
usually a sign that you are doing a pretty good job.
    It is very clear that one of the most important roles the 
Department of the Interior will play in the coming years 
relates to securing our energy future. I remember shortly after 
the President nominated you to be Secretary you made a comment 
that you wanted to ``take the moon shot'' at achieving 
America's energy independence. I agree with you that it can be 
done and look forward to hearing your views on how we can get 
there.
    I don't think anyone in this room will disagree that our 
country today remains overly dependent on foreign sources of 
oil, that we can lessen this dependency by pursuing a variety 
of energy sources, both onshore and offshore, here at home. 
Taken together, renewables like wind, solar, and hydropower, 
along with clean coal and both onshore and offshore supplies of 
oil and gas, can move us down this road. There is no reason why 
we can't balance what is in the best interest of our energy-
dependent country with what is in the best interest of our 
natural environment.
    Mr. Secretary, I would be remiss if I didn't compliment you 
on the fine professional staff that serves you across the 
various bureaus of the Department. I especially want to commend 
Pam Haze, who is with you today, for her incredible work. I 
don't think she ever sleeps. She is a credit to you, the 
Department, and all Federal employees. And all of us thank Pam 
for her service.
    In closing, I hope later in the year you might consider 
visiting some of the most beautiful country that God ever 
created. Now, I know we might have a discussion of whether that 
is Colorado or Idaho, but of course I am talking about my home 
State of Idaho. And if you would like to hike in the Boulder-
White Clouds or take a float trip down the Snake River or down 
the River of No Return--nothing personal there, that is what 
they call it--I would love to have you come out any time and 
spend some time in Idaho.
    With that, Mr. Chairman, I thank you and yield back.
    Mr. Dicks. I would like to recognize Mr. Lewis, the ranking 
Republican member of the full committee and a person who takes 
a great interest in our work, for an opening statement if he 
would like to make one.
    Mr. Lewis. Thank you, Mr. Chairman, but no, thank you. I 
would just like to welcome the Secretary, and I want to listen 
and learn.
    Mr. Dicks. Okay.
    All right, Mr. Secretary, we will put your entire statement 
in the record. And it is a very good statement; I had a chance 
to review it. And we would let you go ahead and proceed as you 
wish, and then we will have some questions.

                     Statement of Secretary Salazar

    Secretary Salazar. Thank you very much, Chairman Dicks and 
Ranking Member Simpson. Thank you for your leadership of this 
committee, and thank you to the members of this committee, both 
on the Democratic and the Republican side.
    This committee does have a reputation of being a problem-
solving committee, of working together, and looking beyond the 
horizon. It is through your leadership that I inherited many of 
the initiatives that we will continue to build on, and do it in 
a fashion that makes our country stronger than it is and 
preserves our country for future generations.
    I also want to say thank you to your stellar staff. This is 
one incredible staff in the Appropriations Committee. Pam Haze 
and I very much have enjoyed working with the staff, not only 
on the economic recovery program but also with respect to what 
we are doing here on the budget.
    I also will join your appreciation of Pam Haze. I know this 
committee's feelings because Congressman Dicks and Congressman 
Simpson have said this to me many times, that Pam Haze walks on 
water. She is an extraordinary budget director, and we are very 
pleased to have her.
    Mr. Dicks. And late at night, too. That is the other thing.
    Secretary Salazar. She doesn't sleep. She is always going. 
She is an energizer bunny.
    Let me say that, since this is the first time that I have 
appeared before the Appropriations Committee, I want to just 
quickly frame what I am working on, in terms of my priorities. 
They are reflected in this budget, and they are reflected in 
decisions that I have made, and I want to just go through them 
very quickly. There are five priorities.

                 NEW ENERGY FRONTIER AND CLIMATE CHANGE

    The first is creating a new energy frontier and tackling 
the challenges of climate change. We have done a lot of work in 
that arena in the first 100 days. There is a lot more to come. 
I will mention some of those initiatives in just a few seconds.

                          TREASURED LANDSCAPES

    Second, I want to work with this committee, with the entire 
Congress, and with the President in moving forward with a 
``treasured landscapes'' agenda for the 21st century. We have a 
good beginning in this budget, but there is obviously a lot 
more that we are going to have to do there, as we look at our 
growing population and our diminishing habitats and many of the 
challenges that we face there.

                 21ST CENTURY YOUTH CONSERVATION CORPS

    Third, I want to usher in the 21st-Century Youth 
Conservation Corps, where we bring in tens of thousands of 
young people to work in our public lands and with our partners 
across America. I appreciate the comments from several of you 
and, Chairman Dicks, for your great support for this program.

                                 WATER

    Fourth, I want to help fix America's water problems. There 
are tough issues that we face. Historically, we used to think 
about them as issues of the West. Now we see them in places 
like Alabama and Georgia and Florida, where we are having some 
very difficult issues, and working with the Governors down 
there to try to address some of the issues that they face.

                 EMPOWERING NATIVE AMERICAN COMMUNITIES

    Fifth, as important as number one, and that is we have to 
have a robust agenda to empower our Native American communities 
and to address the tough issues of law enforcement, education, 
and economic opportunity.
    So, in those five areas--energy and climate change; 21st-
century treasured landscapes; 21st-Century Youth Conservation 
Corps; water issues; and empowering our Native American 
communities--I hope to work with all of you as we move forward 
on what will be a very robust agenda and what could be 4 years, 
or perhaps 8 years, ahead. But I believe that together we can 
make a fundamental difference for the future of our country.

                 AMERICAN RECOVERY AND REINVESTMENT ACT

    Two major highlights of things that have already happened 
that I would just like to thank the committee for their work 
on: the first is the Economic Recovery Act. You had Interior on 
your minds, and we appreciate the investments that were made, 
including the money that went into national parks, Bureau of 
Reclamation and the other investments that made up the $3 
billion appropriation that went to the Department of the 
Interior, some of which was under the jurisdiction of this 
committee, some of which was under the jurisdiction of other 
committees.

                       OMNIBUS PUBLIC LANDS BILL

    Second, the lands bill, which was passed after long delays, 
is something that I am very proud of. When President Obama 
signed that in the White House, many of you were present. It 
was truly one of the times when you had a bipartisan feeling 
here in Washington, D.C., where Democrats and Republicans had 
come together to do something that will be cherished by future 
generations to come. So I thank you for your work in that 
effort and think that those are achievements already in our 
early days here.

                        FISCAL YEAR 2010 BUDGET

    Moving forward to the 2010 budget, we do have targeted 
increases in several areas. The 2010 budget request is before 
you. In terms of constant dollars, the increase starts to 
reverse what has been a 10 percent reduction that occurred over 
the last 8 years. And, Congressman Simpson, it was in the prior 
administration, but I know this committee fought back in a 
bipartisan way to try to restore some of the funding priorities 
that are so important to the Department, and I very much 
appreciate that.
    Let me move quickly in terms of covering a few of the 
issues that are included in the budget.

                                 ENERGY

    First, in terms of energy, the 2010 budget envisions that 
we will be partners in achieving the vision that President 
Obama and this committee and the Congress have as we move 
forward towards energy independence. The Department in this 
budget, proposes $209 million in new investments in energy and 
climate science. I want to speak about a few of those things.

                            RENEWABLE ENERGY

    First, with respect to renewable energy, $41 million from 
the Recovery Act, which is not included in this budget, has 
already been used to expedite permitting to move forward with 
renewable energy projects for solar and wind and other 
renewable energy sources.
    This 2010 budget includes $75 million to tap into 
Interior's vast land holdings. As this committee is very 
familiar with, we administer on behalf of the American citizens 
about 20 percent of the land mass of the United States. There 
is huge opportunity there, in terms of how we move forward with 
renewable energy development. We can do it both onshore as well 
as offshore. So $50 million will go into renewable energy 
efforts.
    Just a footnote there: On our beginning work here, we have 
identified over 200 applications for solar and wind projects, 
in the Southwest, in the high plains, and off of the Atlantic. 
Many of those projects, frankly, have been waiting and are 
ready to go. So, from Arizona to the shores off of New Jersey 
and Delaware to the high plains of the Dakotas, we can harness 
this energy. We are in a position where we believe that, with 
this investment, we will be able to have permits for more than 
a dozen projects for both solar and wind completed by 2010. 
This is an agenda that is not a pie-in-the-sky, dream agenda, 
but it is something that we can, in fact, make happen.

                    CONVENTIONAL ENERGY DEVELOPMENT

    We also have included in here $17 million for MMS and BLM 
for oil and gas leasing programs. We understand the reality is 
that we consume oil and gas, and it is important for us to make 
sure that we have programs that work as we develop our oil and 
gas resources in this country.
    In response to some of the concerns of this committee, we 
also have $8 million for energy audit and compliance. And that 
is in response, in part, to the OIG recommendations that we do 
a better job at MMS in terms of addressing the royalty 
collections.

                            CLIMATE IMPACTS

    Secondly, climate impacts, we have addressed this issue by 
including $15 million to expand the climate effects science. 
This is a signature issue, I know, of this committee.
    We have included $65 million for land management bureaus to 
develop the tools to address the effects of climate change. 
That is to essentially monitor what is happening out on the 
ground, do the scientific analysis, and then begin the 
management and adaptation strategies that we are going to have 
to have in place to deal with the reality of climate change.
    We also include in here $40 million in grant funding to the 
States and Tribes to develop climate change adaptation 
strategies and $7 million for the U.S. Geological Survey for 
carbon sequestration research.

                          CARBON SEQUESTRATION

    I was in North Dakota just a few weeks ago, and I visited 
what is, I understand, the only existing carbon sequestration 
plant in North America. And they were injecting into a pipeline 
8,000 tons of CO<INF>2</INF> that was then being used for 
enhanced oil recovery in a pipeline that is 200 miles long. It 
goes to the north, across into the Canadian oil fields. I think 
there is great potential there. This will help us move forward 
and figure out a way of burning coal and doing it with the new 
technologies that will be developed.

                          TREASURED LANDSCAPES

    Secondly, treasured landscapes, that is another one of the 
moon shots that we absolutely want to take. It is a signature 
issue of these times. I hope that at the end of our time here 
together, working hand in hand, that we can say the legacy for 
the landscapes of America are equal to those of the vision of 
Abraham Lincoln in establishing Yosemite during the Civil War; 
the vision that President Teddy Roosevelt had in establishing 
the wildlife refuges and the foundation for our national park 
systems; or John Kennedy, with his great vision for the Land 
Water Conservation Fund.
    We make some significant downpayments on the treasured 
landscapes agenda here, and I look forward to continuing to 
work with you on how we can move that forward.

                             NATIONAL PARKS

    One area, specifically, here is with respect to parks. We 
have a $2.3 billion request for investments in parks, which is 
over a $100 million increase that will improve visitor 
facilities, perform daily maintenance, and conduct interpretive 
ranger programs. The budget includes $25 million in parks for 
park partnerships. We are modeling the subcommittee's action in 
2008 to leverage private donations so that we stretch our 
dollars further by bringing in the private sector.
    And, if I may, just a quick footnote on that: We ought to 
look at our national treasures and our landscapes, really, as 
economic engines for America. When you think about the billions 
of dollars that come into the economy from hunting and fishing 
and recreation in the outdoors, they are not jobs that can be 
exported. Those are jobs that are truly American jobs that will 
always stay here.
    And so, whether it is the national icons of Mount Rushmore 
in South Dakota or the Statue of Liberty in New York City, 
there are huge amounts of economic positive consequences that 
come from us making sure that we are protecting and preserving 
our history as well as our treasured landscapes.

                 21ST CENTURY YOUTH CONSERVATION CORPS

    Third, our 21st-Century Youth Conservation Corps. We 
request $50 million to start moving forward in that arena, 
including $30 million that will be used for a fishing and 
hunting program to help bring young people outdoors. We instill 
in them the same kind of connection to landscapes that I know 
that the people on this committee share.

                 EMPOWERING NATIVE AMERICAN COMMUNITIES

    Finally, American Indians and our efforts to empower 
American Indians, the first Americans of this country. We have 
several budget initiatives in here. We will just reference 
briefly two of them: law enforcement and Indian education, a 
little over $100 million that we are requesting in those areas.

                   LAW ENFORCEMENT IN INDIAN COUNTRY

    First, with respect to law enforcement, we have a situation 
in Indian country today where the rule of law is simply not 
upheld, where we have levels of crime and violence which 
sometimes is eight to 10 times higher than it is in non-Indian 
country. We need to address those issues effectively, and so we 
request $30 million to put additional officers on the streets, 
and increase our efforts at detention facilities and the 
justice systems in Indian country.
    As soon as I get my Assistant Secretary for Indian Affairs 
confirmed, we will create a task force that will work with the 
Department of Justice, the States and the tribes to move 
forward to finally address the issue of lawlessness in Indian 
country.

                            INDIAN EDUCATION

    And second, Indian education. You know, I did not know when 
I took this job that I would be the superintendent of all these 
schools. We have nearly 50,000 young Native Americans that 
attend the 183 schools that are under the Department of the 
Interior. We have included funding in here for education of 
young people. The Recovery Act money actually helped in 
significant ways, in terms of school construction and also with 
respect to the tribal colleges. There is $72 million included 
in this budget for Indian education.
    Let me just conclude by saying that I am honored to be 
Secretary of the Interior, because, in large part, I get to 
work with people like you.
    Some of my colleagues in the United States Senate, when I 
was making the decision to leave a comfortable position in the 
U.S. Senate, where, more than likely, I could have won re-
election in 2010, said to me, ``Why are you doing this? If you 
were moving forward to run the Department of Justice as 
Attorney General or Secretary of State to deal with all the 
international issues, I would see why you would give up a 
United States Senate seat.''
    My response to them is, I would rather be Secretary of the 
Interior because of the fact that, at the end of the day, we 
are dealing with all of our 325 million Americans, with all of 
our planet, and with the issues that ultimately are going to 
make a huge difference not only for ourselves but for 
generations to come. So I very much look forward to working 
with you in your role as Members of Congress and this committee 
and in my role as Secretary of the Interior.
    And with that, Congressman Dicks, I would be happy, Mr. 
Chairman, to take any questions.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296C.001
    
    [GRAPHIC] [TIFF OMITTED] T2296C.002
    
    [GRAPHIC] [TIFF OMITTED] T2296C.003
    
    [GRAPHIC] [TIFF OMITTED] T2296C.004
    
    [GRAPHIC] [TIFF OMITTED] T2296C.005
    
    [GRAPHIC] [TIFF OMITTED] T2296C.006
    
    [GRAPHIC] [TIFF OMITTED] T2296C.007
    
    [GRAPHIC] [TIFF OMITTED] T2296C.008
    
    [GRAPHIC] [TIFF OMITTED] T2296C.009
    
    [GRAPHIC] [TIFF OMITTED] T2296C.010
    
    [GRAPHIC] [TIFF OMITTED] T2296C.011
    
    [GRAPHIC] [TIFF OMITTED] T2296C.012
    
    [GRAPHIC] [TIFF OMITTED] T2296C.013
    
    [GRAPHIC] [TIFF OMITTED] T2296C.014
    
    [GRAPHIC] [TIFF OMITTED] T2296C.015
    
    [GRAPHIC] [TIFF OMITTED] T2296C.016
    
    Mr. Dicks. Well, thank you very much. That is an 
extraordinarily positive statement and one that is very much 
appreciated.

                           STATUE OF LIBERTY

    I saw you on the ``Today'' show just a week ago up at the 
Statue of Liberty, and I know there are a lot of members of the 
New York delegation that were very pleased by the announcement 
that we are going to open this thing up. And I am glad we are 
able to do that.
    There was a statement put out in redacted form that we 
received, and we have reviewed it. And I have talked to the 
Park Service. They are very comfortable with what is going to 
happen. But why don't you tell the committee what your plan is 
for the next several years up there so that we can better 
understand it.
    Secretary Salazar. I appreciate the question, Congressman 
Dicks.
    First, in terms of the plan, the plan is that, between now 
and the 4th of July, there will be modifications made to the 
Statue to make it more safe. It will include, for example, a 
handrail down the incline of the steps at the Statue of Liberty 
for public safety reasons.
    We also will develop a program that essentially will 
minimize the number of people who can actually have access into 
the Statue itself. The recommendations from the experts who 
prepared the review are that we provide access to 30 people an 
hour to the crown. That essentially will mean that you will 
have 10 people on the way up, 10 people in the crown, and 10 
people on the way down. If you calculate that over the entire 
course of the year and the hours that the Statue of Liberty is 
open, it equates to about 50,000 people that will have access 
to the crown of the Statue of Liberty.
    That is the interim plan, 2 years out. Then the longer-term 
plan will be to move forward with what will be longer-term 
changes that will further enhance the public safety within the 
Statue of Liberty. It will take about 2 years to go through the 
construction phase of that, and so access will be shutdown for 
that 2-year period while these renovations are, in fact, made.
    At the end of that period, what we will have done is not 
only we will have opened up the crown of the Statue of Liberty, 
but we also will have made the place significantly more safe 
for people.
    The second point I would make, Congressman Dicks, is the 
question of whether or not, ultimately, it will be safe. I am 
depending here on the recommendations of our National Park 
Service, as well as experts that were hired to provide us a 
review. Nothing in life is risk-free, and all of us who are 
here in Washington see the Washington Monument and the number 
of people who actually have access up and down to the 
Washington Monument, there are always risks. But we have, 
through extraordinary efforts of consultants who have been 
hired, taken a very comprehensive view of those issues and are 
confident that will be able to minimize the risks within the 
Statue of Liberty to its visitors.
    Mr. Dicks. And the Park Service gave me a briefing on this. 
They took the plan back to the consultants who had come up with 
the recommendations for some changes, and they felt that the 
things you were doing made sense. There is always risk in 
everything we do, but make the risk acceptable. And so, we are 
pleased to hear that.
    We just want to make sure that we do everything we can 
during this 2 years while we are designing the changes that are 
going to be made.
    We look forward to a budget request in 2011 to deal with 
this from the administration. I know Congressman Weiner and 
many other people were very interested in seeing the Statue 
opened again. And I am glad we can do it for the first 2 years.

                        YOUTH CONSERVATION CORPS

    Tell us about this 21st-Century Youth Conservation Corps 
initiative. It was very interesting. The Youth Conservation 
Corps has been a program that Senator Jackson from my State 
worked on and created. And it had almost died, but we fought 
off some of the people who wanted just to end this program. But 
we kept it at a very low funding level.
    But what you are talking about is a much greater expansion, 
especially at a time when young people need jobs and we also 
want to get young people out into the woods. I think this is a 
great idea. And I am sure you will have no problem getting the 
young people to be in the program.
    Can you tell us a little bit more about it and what your 
thinking is here?
    Secretary Salazar. Certainly.
    First, in terms of the need, I do believe we need to 
connect our young people to the outdoors in a much more 
significant way than we have in the past, in following a model 
that I created when I was director of the Department of Natural 
Resources in Colorado, where I created the Youth and Natural 
Resources Program.
    Through that program, we had 5,000 young people who worked 
with us, ages probably 16 through 26. These are young people 
who would come and work in maintenance of parks, in helping us 
count fish in streams, and a whole host of other things, get a 
wage and, at the same time, get exposed to higher education, 
for many of them, for the first time, attending 2 or 3 days at 
the University of Colorado or Colorado State University.
    The result of that program is that 5,000 kids went through 
that--and it was a very diverse group. One of the things we 
were trying to do was to reach out to Native Americans, African 
Americans, Hispanic women who had not participated at high 
levels in those kinds of programs. Well, today, many of those 
young people who went through that program are now wildlife 
biologists, park rangers, engineers. I hope we can do the same 
kind of thing at the Department of the Interior.
    We are on the way to try to get as many as 15,000 young 
people working with us over this summer as seasonals and in 
these kinds of programs. We hope to be able to expand the 
program with the request in the budget, which would include $30 
million more to help us bring young people to the outdoors for 
hunting and fishing, as well as $20 million for educational 
programs.
    Mr. Dicks. All right.
    Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    And thank you, Secretary, for your opening statement. I 
agree with what you say. I really think the job you have is one 
of the most important jobs in government, quite frankly. It 
probably affects more American lives than most people realize.

                       OMNIBUS PUBLIC LANDS BILL

    I particularly thank you for mentioning the lands bill, 
which I supported, which I think is very important. And while I 
sometimes get criticism from some of my friends, particularly 
in Idaho, who don't think we need any more wilderness and so 
forth and so on, I am actually hopeful that future generations 
that aren't born yet will look back at us and say, ``Well 
done,'' that we preserved these precious landscapes for them 
when we had the opportunity to do so. So I appreciate you 
mentioning that.

                            LAND APPRAISALS

    Let me ask you a couple questions about some issues that 
have come up that are sometimes some problems that have been 
mentioned to me by people.
    One is, we seem to have a broken land appraisal process and 
land acquisition process within the Department of the Interior. 
The delays that are caused by the inability to appraise these 
lands are making it difficult for people who want to work with 
the Federal Government and are willing to sell their lands in 
certain areas to the Federal Government and are finding it 
very, very difficult because of the delays that occur.
    Are you aware of the process or the problems that exist 
there? And what are you doing to try to address those problems?
    Secretary Salazar. Congressman Simpson, I am aware of those 
problems, and let me respond in two ways.
    First, I am keenly aware of the problems with respect to 
the two projects in Idaho. I have asked BLM staff to take a 
look at it and to provide a report back to me so that we can 
figure out how to break that process loose. So, we are working 
on that particular issue.
    Secondly, I think it is a systemic issue that needs to be 
looked at. I think the Idaho issues are only emblematic of a 
problem which is much larger. Once we get our people on the 
ground and have an Assistant Secretary for Policy, Management, 
and Budget, as well as Land and Minerals, then we can provide 
some assistance to Pam Haze and others, so that they are not 
having to work 19 hours a day. We will take a longer-term look 
at the problem and try to come up with some solutions.
    Mr. Simpson. Well, I appreciate that. And you are right, I 
didn't mention the two Idaho projects, even though you and I 
have talked about them and so forth, because I think it is a 
systemic problem, one that we have to address. Because we have 
to be seen--I think the Federal Government has to be seen as 
being able to work with these landowners if we are going to 
acquire that land, that precious land along some of the rivers. 
In Idaho, it is along the Snake River area that is very 
important.

                      OUTER CONTINENTAL SHELF PLAN

    Another issue is, the D.C. Circuit Court of Appeals 
recently issued a decision that would appear to place the 
current OCS 5-year plan in jeopardy. The lawsuit specifically 
addressed environmental concerns in Alaska, but some people are 
interpreting that court's decision as vacating the entire OCS 
5-year plan. Vacating the current plan would mean the loss of 
millions of dollars in receipts from the current oil production 
in the Gulf.
    How is the Department of the Interior interpreting the D.C. 
Circuit's ruling? From where you sit, does the ruling apply 
only to Alaska or to the entire 5-year plan of the OCS? And 
what is next, with regard to resolving this question?
    Secretary Salazar. Congressman Simpson, let me just say it 
is a very, very important question and a very difficult one to 
figure out what it was that the court intended to do.
    Mr. Simpson. It is hard to figure out what a court would 
say?
    Secretary Salazar. First of all, so we are all clear here 
Congressman Chandler and I served together as attorneys general 
for 6 years, so I know Ben well. I served proudly as Attorney 
General in my State and litigated thousands of matters, 
including many Supreme Court matters. I want to just make, with 
all due respect, one clarification to your statement, 
Congressman Simpson.
    This was not the Ninth Circuit Court of Appeals, which I 
know has a reputation in some places. This was the D.C. Circuit 
Court of Appeals, the second-highest court in the land next to 
the United States Supreme Court.
    The decision was written by a judge who was appointed by a 
Republican, a conservative judge, and, frankly, was looking at 
the plan that had been authorized in 2007 by the Department of 
the Interior. In the decision, the D.C. Circuit Court found 
that insufficient environmental analysis had taken place in the 
development of that plan.
    You can read that plan to essentially say that the entire 
OCS 5-year plan has been thrown out and that the nearly 2,000 
leases in the Gulf of Mexico and in Alaska that have been 
issued essentially have been called into question. You can read 
the decision that way, it is that far-reaching of a decision.
    What we have done is petitioned the court for 
clarification, and we make arguments in our petition that, at a 
minimum, we ought to be allowed to go in and cure the 
environmental defects but keep the 2007-2012 plan in place. 
That is particularly true in the Gulf Coast, where there has 
been so much environmental analysis that has been done.
    So, at this point in time, what we have done is filed our 
petition with the D.C. Circuit Court for clarification. We are 
waiting for a response from the court. That should give us a 
better idea on how to proceed. I will keep the committee 
informed as soon as we get the decision from the D.C. Circuit 
Court.
    Mr. Simpson. Do we know what the loss of revenue would be 
if the court threw out the entire 5-year OCS?
    Secretary Salazar. It is major, and we have addressed that 
in our brief. It is in the billions of dollars.

                      FEES ON NON-PRODUCING LEASES

    Mr. Simpson. One other question: The fees proposed on non-
producing oil and gas leases, how do you define the term ``non-
producing lease''? Would the proposed fees on non-producing oil 
and gas leases be addressed at the issuance of the lease or 
after a certain period of time? How would that work? And would 
existing leases tied up in this litigation that have been 
approved, would they be subject to the fees even though it is 
under litigation?
    Secretary Salazar. The proposed $4-an-acre fee for non-
producing lease acreage and how exactly that would work is 
something that we will work with the Members of Congress to 
figure out the exact details.
    The concept, however, is one that should not be at all 
alien to those of us from the West. I practiced water law for 
many years, and, just like in Idaho, I know the water laws of 
that State have the ``use it or lose it'' doctrine. So when you 
are dealing with a very valuable commodity which is owned by 
the public, in the case of water and the West, it is water 
owned by the public, appropriated to private owners. The same 
analogy can be made with respect to oil and gas. It is a very 
precious resource that is owned by all of America, the entire 
public. So, having a fee essentially creates, from our point of 
view, a sense of diligence in terms of moving forward. It will 
hopefully incentivize people to move forward and do exploration 
and development.
    Mr. Simpson. But we haven't defined yet what ``non-
producing lease'' actually means. Is that right? I mean, 
because if they get a lease and they are doing geological work 
on it and so forth, as opposed to producing gas and oil, is 
that a non-producing lease? Or have we gone that far to make 
that determination yet?
    Secretary Salazar. You know, your question--Pam is trying 
to help me here, but I think the answer to your question is 
that that has not yet been defined. And we will work with you 
to----
    Mr. Dicks. Will the gentleman yield just for a second on 
that point?
    Mr. Simpson. Certainly, yes.
    Mr. Dicks. I agree with the gentleman here. You know, it 
does take a while to go through the environmental process. 
There was some legislation last year, a ``use it or lose it'' 
approach, and I brought in people from your department and 
asked them, ``Now, what is a reasonable period of time?'' And, 
you know, they would say, 4 or 5 years to get to a point where 
you can get into production.
    So, as you said, maybe you are going to have to evaluate 
this yourself, as the Secretary, but I think it would be unfair 
to start penalizing people the day they got the lease. So you 
have to work out a plan of some sort.
    I yield.
    Secretary Salazar. Mr. Chairman, if I may?
    Mr. Dicks. Yes.
    Secretary Salazar. I agree with you, and I agree with 
Congressman Simpson. You know, it does take time, once a lease 
is finally approved, to go out and do the exploration. Then to 
make the investments to do the drilling and get it into 
production. That is part of what we will work with you on as we 
move forward.
    Drawing back to my water law analogy, if I may, for a 
second--I know you don't have all the--you do have problems 
with water----
    Mr. Dicks. We have water problems, too, believe me. Trying 
to keep California from taking over the Columbia River.
    Secretary Salazar. You know, there are statutory mechanisms 
and case law that, at least for the State of Colorado, would 
require abandonment after 10 years of non-use. I don't know if 
that is the right measure to use, but it is something that we 
will work with you to develop something that is common sense 
that addresses your concerns.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Dicks. All right.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    It is nice to have you running the Department, Senator, 
Secretary. And we look forward to working with you.

                            COLORADO PLATEAU

    The U.S. Geological Survey just recently released a study 
which documented how dust from the Colorado Plateau, especially 
from public lands, is being carried by wind and deposited on 
the snowpack of the Rocky Mountains. This causes a darkening 
and premature melting of that snowpack. The dust has 
substantially increased over many years, obviously, primarily 
due to surface-disturbing activities, and they cite off-road 
vehicle use, energy development, and grazing.
    With climate change models predicting a hotter and much 
drier desert in the Southwest, any additional melting of the 
snowpack will threaten water supplies for all of the downstream 
Colorado River users, which is millions of people. The U.S. 
Geological Survey reports that best grazing practices, 
limitation of off-road vehicle use, and energy development 
surface disturbance in fact are the best ways to prevent this 
dust problem, to mitigate it.
    So I wanted to ask, what steps are land managers taking to 
mitigate and/or prevent increased surface disturbance? It is a 
good example of how this ecology is interrelated and ultimately 
affects people.
    Secretary Salazar. It is something which we, as the leading 
earth science agency on behalf of the U.S. Government and its 
people, spend a lot of time working to develop the science to 
try to come up with conclusions, as USGS did in this study that 
you raised. We will continue to do that and, indeed, invested 
some $41 million out of the Economic Recovery Act for those 
continued scientific analyses to take place.
    I will note that there are a number of different factors 
that are contributing to these issues on the Colorado Plateau, 
and among those issues, as you noted, is the issue of climate 
change and what that means with respect to water supply, which 
I know is an issue for all the States that share the water on 
the Colorado River.
    The water use organizations along the Colorado River Basin, 
from the seven States, have been some of the leading advocates 
for us to do something on climate change, because they 
recognize that the warming of the planet is causing significant 
impacts in terms of the seasonality of flows and the runoff 
from mountain snow.
    It is an issue that is very much on our mind, Congressman 
Moran, and we will keep you updated and be happy to provide you 
any additional information.
    Mr. Moran. Well, obviously, the macro issue is global 
climate change, but there are some more micro issues that are 
specific to Interior Department enforcement that come to bear. 
And, of course, it is one of the things about the Interior 
Department, is that they do the research, they come up with the 
professional, scientifically based conclusions. And then we 
need to take those conclusions and, working with you, take some 
of the difficult measures. And I say they are difficult largely 
because of the political context to bring them about.

                           OFF-ROAD VEHICLES

    Let me cite another such issue. Just this past weekend, a 
group of off-road vehicle protesters, exhorted by a King County 
commissioner and a Utah State representative, illegally rode up 
a route to the Paria River on the Grand Staircase National 
Monument through a wilderness study area. The route has been 
closed for about 10 years as part of the monument's management 
plan. The BLM declined to issue any citations or otherwise 
intervene in what was clearly and provocatively an illegal 
action.
    Enforcement of conservation measures is never easy, we know 
that, and rarely popular. I mean, for example, in Wyoming, 
Teddy Roosevelt dedicated Yellowstone National Park, and for 10 
years the Wyoming legislature tried to repeal that. Well, of 
course, they never would do that now, but it took quite some 
time and a lot of political backbone to preserve it. And no one 
would ever suggest that that was not the right thing to do 
initially.
    But how do you think BLM should be responding to these 
challenges to Federal policy.
    Secretary Salazar. Congressman Moran, I believe that no one 
is above the law and no one is above the regulations and, once 
we have rules in place, that they ought to be followed.
    It is something that is of concern to me. I was not aware 
that the BLM had refused to take action in this particular 
incident in Utah. But it is something that, as you raised it, 
is of concern to me.
    Mr. Moran. Okay. Well, I am glad to hear that. Thank you, 
Mr. Secretary.
    Mr. Dicks. Thank you.
    Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman.
    Secretary Salazar, this is my first exposure to you 
personally. I must say I am very impressed by both your style 
and also the content of that which you are communicating with 
the committee. I mean, we don't have to agree on everything, as 
Simpson said, but in the meantime working together is the best 
way for us to come to some positive and nonpartisan solutions.

                            RENEWABLE ENERGY

    As we look to energy independence, among the alternative 
sources that will play a part of that, both solar and wind 
energy potential impact the territory I happen to represent 
very significantly. And the conflicts become quickly obvious 
for anybody who would but look. In the California desert, the 
Mojave is ever present; you can put almost four eastern States 
in that territory and have room left over. But we also have our 
Nation's two most significant military training centers, the 
National Training Center for the Army and the 29 Palms Marine 
Corps facility where they are doing the training that 
absolutely prepares our people for the work and the challenges 
they face in the Middle East.
    At the same time, off-road vehicle users of our desert 
territories are very anxious to have some territory remain, and 
yet, while they have been cooperative with the military 
efforts, at the same time they have been pushed all over the 
place.
    As we go to expand further either wilderness or the kind of 
preservation that takes place in the East Mojave National 
Preserve, we directly impact these alternative sources. One of 
the proposals would have a major solar facility in the region. 
If, let's say, we use our desert for those purposes and look to 
it as one of the alternatives, how do we deal with questions 
like the endangered ground squirrel or the desert tortoise? How 
do we deal, at the same time, with those off-road vehicle users 
who will be pushed away one more time?
    The Marine Corps needs more territory for 29 Palms, 
significant territory. And, as you are having these discussions 
going forward with my colleague Dianne Feinstein, there are 
obviously overlap and conflicting circumstances that we have to 
consider.
    To make that point in a different way, as you drive east 
from my district into a territory known as Palm Springs, there 
is a vast territory on the edges there where the first major 
set of windmills were put up. Now, I have to tell you, I don't 
spend a lot of my time worrying too much about visual blight, 
but if that is not visual blight, I have not seen it anywhere. 
And, at the same time, many a person is expressing concern 
about what windmills are doing to birds in the region.
    So, as we go about meeting these challenges, and we are 
dealing with a relatively small part of our total quest for 
energy independence, both solar and wind energy have their 
difficulties. And I would like to know what you all are 
thinking about in connection with those conflicts.
    Secretary Salazar. Congressman Lewis, you raise an 
excellent question. One of the main charges that I have is to 
try to work through those issues, and we are, in fact, working 
through them.
    In a global context, in responding to your question, it 
seems to me what we have to do is be proactive in planning 
where we are going to site both solar, wind, or geothermal 
energy facilities. That requires us to be thoughtful, 
essentially, to take on the kind of land-use planning effort 
that is taken on by local governments everywhere.
    You, from California, Congressman Lewis, I know are very 
familiar with the RETI Program, which BLM and the Governor and 
lots of other people have been participating in. We are moving 
very fast forward to the point where hopefully very soon we 
will be able to sign an MOU on it. We are going to zone the 
appropriate places for siting of these renewable energy 
facilities with the State of California. The idea is to 
basically look at the entire area, in this particular case, all 
of southern California, where there is the huge solar 
potential.
    When you look at the map of southern California, you see 
the huge solar potential that is there, but then what you have 
to do is, as you go through your screening process, is you take 
out those areas that are national parks or national monuments 
or those areas where you are going to have a conflict with an 
endangered species or where you have Department of Defense 
facilities.
    So you go through these multiple screenings, and then you 
are left with those areas which we believe are appropriate for 
use for, say, a solar energy facility and take into account 
also how that solar energy facility is located in proximity to 
the grid so that you deal with the transmission issue.
    We have moved forward with that kind of planning process. 
The investments of this Congress, through the economic recovery 
program, have allowed us to essentially do the environmental 
analysis that is required so that we can, in fact, make those 
plans a reality. We include in this budget a significant 
request to continue those efforts, which will include the 
opening up of renewable energy offices. So hopefully, by doing 
that, we will be able to avoid those conflicts.
    I will say this, Congressman Lewis, that I think in the 
past what has happened is there has been kind of a helter-
skelter approach to applications for solar and wind and 
geothermal on the public lands. It is whoever comes in the door 
first, well, we will take your application. It seems to me that 
we need to reverse that, and we need to be planning and 
essentially saying, ``These are the places where it would be 
most appropriate for the siting of these kinds of facilities.'' 
That is what we are undertaking with all deliberate speed.
    Mr. Lewis. Well, Mr. Secretary, I was very impressed by 
your discussion of developing policies that encourage Americans 
to understand, see, and participate in appropriate use of our 
public lands, kids and parks, you know, et cetera.
    But when we created the East Mojave Preserve, BLM, the 
National Park Service, the forestry people knew that there were 
about five major areas that deserved wilderness status, 
pristine areas. The vast percentage of the territory was common 
desert land. A practical decision was made at the other end 
that to preserve the five different areas that were relatively 
small, let's encompass millions of acres to which people have 
very little access. The volunteers used to go with the BLM to 
take care of the big horned sheep were not allowed to go in any 
longer; the Park Service did it. The Park Service didn't want 
to have volunteers come in. So we lost watering holes and big 
horn sheep, and large numbers died as a result of it.
    So, sensible policy that doesn't just automatically presume 
we can't afford to do the management of individual areas, let's 
close down the whole territory, is just the reverse end 
product, in terms of the kind of use you were talking about.
    So I would appreciate very much a continuing dialogue 
regarding these sorts of questions, as we look at broadening 
the use of public lands for park and for preservation purposes.

                             NUCLEAR ENERGY

    I have one other comment. If the Secretary would, I would 
appreciate very much, in terms of your alternative source, 
energy source development, where is the Department relative to 
the expanded use of nuclear within the mix? A long time ago, we 
made the decision essentially to walk away from nuclear while 
other countries in the world have made different decisions.
    Secretary Salazar. Congressman Lewis, President Obama 
supports a comprehensive energy plan, where we put all of the 
items of an energy portfolio on the table, and it does include 
nuclear.
    Department of Energy leads that effort more so than the 
Department of the Interior, but we do have a role with respect 
to the production of uranium on our public lands, as well as 
how we are ultimately going to deal with the disposal issues, 
which are very difficult, as we move forward with a nuclear 
chapter.
    Mr. Dicks. Mr. Chandler.
    Mr. Chandler. Thank you, Mr. Chairman.
    Secretary Salazar, always wonderful to see you. And I, for 
one, was very, very pleased when I got the news that President 
Obama was going to nominate you for this position.
    Some of your friends, as I think you said earlier, were 
puzzled by your taking this position, but having known you from 
your work as Attorney General, I know how you feel about public 
service and stewardship, and this allows you to be the chief 
steward. You can't beat that. I think it is one of the best 
jobs in the United States of America, and I can't think of a 
more terrific person to hold the post.
    Secretary Salazar. I agree with the first part of your 
statement, on the terrific job.
    Mr. Chandler. And that is why the second part of my 
statement was accurate.

                     ENGAGING YOUTH IN CONSERVATION

    Several observations. I am very pleased with your efforts 
with the Civilian Conservation Corps idea. Of course, we know 
the history of that, with President Roosevelt. And I heard for 
years from my wife's grandfather about it, because as a young 
man he was employed by the CCC during the Roosevelt years. And 
it meant so much to so many people in this country. And, as you 
said, it connected them to the land. And that was a very, very 
important thing, and is a very important thing for the ongoing 
stewardship of the land in our country. And I think it is a 
very farsighted approach.
    I also appreciate your quote, since we have had so many 
Secretaries of the Interior from the western part of the 
country, I appreciated seeing your quote that you were going to 
make this about all of America. And I think, for those of us 
from the eastern side of the Mississippi River, we appreciate 
that, because we know that the resources on the eastern side 
are awfully important, too.
    I have already made Chairman Dicks view some of the 
Appalachian mountain range with me. I am going to try to get 
you to do it, see if I can talk you into it.
    Mr. Dicks. It is a good trip, and you ought to take it, if 
you can do it.
    Secretary Salazar. I will.

                   CONSERVATION ROYALTY ON RENEWABLES

    Mr. Chandler. Thank you, Mr. Chairman.
    One of the major budget initiatives, of course, that you 
talk about, in fact the first one that you talked about, was a 
new energy frontier, with of course the heavy focus on 
renewables on Federal lands, the production of renewable 
energy.
    Have you considered--and I know in your time in the Senate 
you were involved with this and some other traditional energy 
sources--the conservation royalty approach? Have you considered 
the notion of attaching a conservation royalty to renewable 
energy as it goes forward, one that maybe was dedicated to the 
Land and Water Conservation Fund?
    Secretary Salazar. Thank you, Congressman Chandler. Let me, 
first of all, just say I appreciate your comments on youth and 
making sure this is the Department of America. Because I do, as 
I told Congressman Dicks and Congressman Simpson when I first 
met with them. When I was going through confirmation everybody 
assumed this was a Department of just the West. If you look at 
our wildlife refuges, if you look at our national parks, if you 
look at the things that we do in territories, it really is 
about all of America, so I appreciate that comment.
    With respect to a conservation royalty on renewables, I 
want to have a robust conversation with you and obviously with 
the President and OMB on what we do with some of the dollars 
that will be generated from renewable energy. Right now, under 
the current statute, at least offshore, the revenue-sharing 
mechanism is that 27.5 percent goes to the coastal State, the 
rest of it goes into the Federal Treasury.
    I want us to explore the possibility of taking some of 
those revenues and directing them into a 21st-Century Land and 
Water Conservation Fund. I know these are difficult issues, but 
we need, I think, to move forward in that direction.
    My own view that I have shared with the Chairman is that, 
when you look at the Land and Water Conservation Fund--what 
Bobby Kennedy, Stewart Udall, Henry Diamond, and others wrote 
that in the early 1960s, and then President Kennedy in his 
letters to Congress and his statements to Congress--they said 
we need to move forward with an LWCF. The thought was that we 
were taking resources from our earth and that those resources 
should produce revenue to permanently fund the Land and Water 
Conservation Fund effort.
    Secretary Salazar. But it didn't go very far. The 
consequence of that is that we have not funded it. We are going 
to be working with you closely on that.
    Mr. Chandler. Well, I notice that you said that President 
Obama had a vision of fully funding it. And this would be one 
of the ways at some point that we could get there, it would 
seem to me.
    Mr. Dicks. Thank you very much.
    Mr. Calvert. Thank you, Mr. Secretary.
    Mr. Dicks. Mr. Calvert from California.

              WATER CRISIS AND THE ENDANGERED SPECIES ACT

    Mr. Calvert. Thank you for coming today.
    You mentioned water. I am from California, and we are happy 
to extract water from the State of Washington if given the 
opportunity. And certainly, Colorado has been a big friend to 
California's water use over the years. I enjoy visiting 
Colorado when the water is white up there on the mountains; 
that is a beautiful sight to see.
    But right now we are in a significant crisis. You are 
probably aware that we have some communities in the Central 
Valley that have over 50 percent unemployment. Water has been 
significantly cut back because of the ongoing crisis in the 
Delta.
    Last December, the Fish and Wildlife Agency issued a new 
biological opinion for the Delta smelt after a Federal judge 
ruled back in 2007 that a previous opinion was inadequate and 
ordered State and Federal Fish and Wildlife agencies to issue a 
revised opinion. This opinion, which forms the basis of the new 
operating rules for the State water project and Federal Central 
Valley project, could result in permanent restrictions on water 
deliveries through the Delta, reducing deliveries by up to 50 
percent in some years. As you may be aware, that project serves 
over 25 million Californians and millions of acres of farm 
land.
    The most recent study indicates that the operation of these 
water pumps is not the greatest factor in reducing Delta smelt 
population. The biological opinion calls for increased 
reservoir releases in the fall of some years to reduce 
salinity. This may be in direct conflict with the biological 
opinion that protects salmon, that is expected to be issued by 
a Fish and Wildlife report later this year.
    The State and local agencies involved in water resource 
management continue to struggle with the narrow approach of the 
Endangered Species Act and the tendency for the ESA regulations 
to exclusively focus on single stressors to the complex 
ecosystems. As a result, promising projects are all too often 
tied up in bureaucratic red tape litigation. Meanwhile, species 
continue to decline.
    I understand that both Governor Schwarzenegger and Senator 
Feinstein have asked you to consider appointing a high-level 
Federal designee to work with the State and Federal agencies to 
ensure consistent and coordinated application of ESA, 
particularly in the case of the Delta smelt and salmon 
biological opinions.
    Is this something you are going to consider?
    Secretary Salazar. Yes, indeed. I will personally be 
involved.

                      WATER SUPPLY AND DELTA SMELT

    Mr. Calvert. The pumping restrictions which have now been 
in place for more than a year, do you have any knowledge of 
this? The pumping restrictions, which have now been in place 
for more than a year, 18 months, now have an impact on the 
Delta smelt population?
    Secretary Salazar. The fact is that the Delta and its water 
supply are being managed to try to address the multiple demands 
for water in what is a very complex ecosystem.
    Congressman Calvert, you were correct when you said that 
there were multiple factors related to the endangered species 
issues in the Bay-Delta. You would have not only pumps, which 
were addressed in the biological opinion, but also a whole host 
of other issues, including water quality, that have to be dealt 
with.
    As I have communicated, Congressman Calvert, to Governor 
Schwarzenegger, as well as to Senator Feinstein and other 
members of the California delegation, it seems to me, we need a 
time out and a fresh start to, frankly, start addressing the 
issues of water in the Bay-Delta. I would think that it would 
be one of those crown jewel kinds of undertakings in which I 
will personally be involved, along with the Chesapeake and 
Puget Sound and a few others. Because the kind of challenges 
that we are facing in the Bay-Delta really require leadership 
that does not end up putting the farmers, the defenders of the 
environment, the farm workers--who now in some counties, as you 
said, are unemployed at a rate of 50 percent--in the kind of 
jeopardy that they are left in year after year.
    I will take personal leadership in trying to come up with 
some solutions to the issue.
    Mr. Calvert. I would appreciate that. They are in economic 
crisis in the Central Valley. And then, of course, it affects 
southern California as well, in that a significant part of our 
water supply comes from the Delta.
    But the immediate disaster in the Central Valley--I think 
you have been through there--is heartbreaking. People standing 
in line for food, just devastated economies, the highest 
unemployment rate in any area in the United States. And farmers 
are people pulling out their permanent crops, tree crops that 
have been there for many years, because they can't get enough 
water just to keep those pecan trees, almond trees, watered.
    It is something that is worth your personal consideration, 
and I appreciate anything you can do about this.
    Mr. Dicks. Thank you.
    Mr. Hinchey.

            ENERGY DEVELOPMENT ON THE UTAH-COLORADO PLATEAU

    Mr. Hinchey. Thank you very much, Mr. Chairman.
    Secretary Salazar, thank you very much also, and thank you 
particularly for the very good things that you have been doing 
in the short term that you have been there, including the 
decision which was made late last year to auction oil and gas 
land on the Utah-Colorado Plateau, which is one of the most 
pristine areas in the world. And you overturned that and 
protected that very pristine area, and I just want to express 
my deep gratitude and appreciation to you for that, among many 
other things that you are doing.

                       ENERGY POLICY ACT OF 2005

    The Energy Policy Act of 2005 has in it a lot of pieces 
that I have found to be very damaging and destructive, 
including one provision which is a categorical exclusion from 
NEPA's ability to review oil and gas activities on public 
lands. In other words, this is a provision that has been used 
to eliminate that kind of review with regard to those kind of 
activities on public lands. And so what we have happening is, 
more and more of these drilling permits have been issued with 
less and less appropriate environmental review.
    There have been huge amounts of these permits that have 
been issued. So I am wondering if you have had an opportunity 
to look at this, and will you reverse this position and 
instruct the BLM to comply with CEO and, of course, your own 
Department's NEPA rules with respect to the use of these so-
called ``categorical exclusions'' that are being issued under 
that section 390 of that 2005 Energy Policy Act?
    Secretary Salazar. Congressman Hinchey, let me just say, I 
appreciate the question. I have not yet had the opportunity to 
get into the details of the issue. I am aware of the issue, and 
as our Assistant Secretaries and Bureau Directors are confirmed 
by the Senate, I will look at the issue more closely.
    I will just say that I was just given a note that because 
of my decision concerning the Utah lease sale, the United 
States Senate refused to get the cloture on my Deputy Secretary 
of Interior on a vote of--they had only 57 votes to get to the 
cloture, three votes short.
    It shows the difficulty of these issues, that the decision 
that we made on the Utah lease sales was absolutely the correct 
decision. I stand by it. I have no regrets. But, frankly, you 
see the political song and dance that goes on when you make 
these tough decisions.

                         OIL & GAS DEVELOPMENT

    Let me comment, I think, with respect to a big issue that I 
know you are concerned about and that is how we get to the 
right balance. We will have development of oil and gas, as I 
said, but that doesn't mean that you have to turn over every 
rock and go after oil and gas in every place. There are some 
places that are too important that we must protect, either 
because of their national iconic values at some of our national 
parks or because of other ecological issues. We will bring that 
balance. We will make that change.
    And not everybody is going to be happy; and just like 
Congressman Simpson indicated, maybe because we make people mad 
both on the left and the right, we may be doing the right 
thing.
    Mr. Hinchey. Well, I thank you very much. And I think that 
it would be a very good thing for all of us, for you and for 
all of us in this Congress, to look at that 2005 Energy Policy 
Act because it is just loaded with issues that are being very, 
very damaging and dangerous, particularly to environmental 
situations. And that categorical review of that elimination of 
the NEPA ability to look into the situation is very, very 
touching. And I think GAO is coming out with a report some time 
later this summer which is going to be an analysis of that 
situation and contains some recommendations in it. I think that 
will be something interesting to look at.

                            LAND IN TO TRUST

    Just one other brief question; this is one that has to do 
with a situation in the State of New York and, in fact, a part 
of that State that I represent in this Congress.
    The economy of this country is in desperate shape, and the 
situation in New York is among all of the states that are 
having a difficult time. One of the things that has been tried 
to be done, actually over the course of the last several years, 
was the ability of Native American tribes to set up these 
casino operations in places that are outside of the areas that 
they possess.
    There have been serious restrictions on that in the context 
of the previous administration and the previous Secretary of 
Interior, and I am wondering if you have had an opportunity to 
look at this issue. There are a number of these issues in a 
number of places around the country, including two or three of 
them in the State of New York. One of them is in a place called 
Sullivan County, which is southeastern New York, but just sort 
of adjacent to the Pennsylvania border, along the Delaware 
River.
    So I am wondering if you might have an opportunity to look 
at that. You may not have had it yet, but if you would, I think 
it would be something significant.
    Secretary Salazar. I am aware of the issue, Congressman, 
and aware of the issue as you describe it across the country 
with respect to taking land into trust off reservations for a 
variety of different kinds of purposes.
    I do not yet have an Assistant Secretary for Indian Affairs 
confirmed. I think it may happen in the next few days, and I 
will assign a high priority to the Assistant Secretary to take 
a look at these issues.
    Mr. Hinchey. Okay. Thank you very much.
    Mr. Dicks. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    And, Mr. Secretary, a pleasure to meet you this morning. I 
look forward to working with you in the future. And I was 
pleased, as I was reading your biography, that you are also a 
graduate of the University of Michigan. And I had a great 
experience yesterday; Mike Waring of the UM office brought the 
three--football, basketball and hockey--coaches by, and they 
are doing a little fund-raising tour for a great place, as you 
know.

                        GREAT LAKES RESTORATION

    I want to commend you and President Obama for--in your 
budget request, for the Great Lakes restoration. And as you 
look at the sheet, some people may say, Holy cow, a percent 
change of 830 percent. That is a big increase.
    But one of the shames around here is, a number of years ago 
we took sort of a global approach to the Everglades and decided 
that that was really worth a serious investment. And we have 
never done that with the Great Lakes. Congressman Vernon Ehlers 
and others have worked hard on the Great Lakes Legacy Act. 
President Clinton started with $50 million, and President Bush 
followed with $50 million, but sort of putting along at $50 
million a year doesn't get the job done.
    In Ashtabula County, which was one of the 53 areas of 
concern in the Great Lakes, we just celebrated the cleanup. 
But, you know, it took 30 years, and a lot of money, and it 
went--some names that will be familiar, starting with a 
Congressman by the name of Bill Stanton; and it went to a 
Congressman by the name of Dennis Eckart; a 2-year guy, Eric 
Fingerhut. And I have been here for 15 and we are finally 
getting the job done. And really serious money needs to be put 
at this problem. And I want to thank you publicly for doing 
that in your budget request.
    The question that I have is on the budget request. It is 
$475 million, and as I understand it, the EPA has made some 
announcements relative to how they want to spend it initially, 
and it is $15 million for the USGS, $57.5 million for the Fish 
and Wildlife Service, $10.5 million for the National Park 
System, and $3 million for the Bureau of Indian Affairs. As I 
do a quick scribbling, that only adds up to $86 million. And my 
concern is that the request is $475 million, $475 million is 
needed.
    And so where is the other $400 million, do you think?
    Mr. Dicks. I can help a little bit here.
    I think there is $134 million that goes to other agencies, 
to the Army Corps of Engineers outside of this bill, to NOAA, 
to a number of other agencies outside of the Interior 
Department.
    This is an EPA program, so EPA is taking the lead. There is 
some money being spent on Interior agencies, but a lot of it is 
being spent--$134 million, I believe, goes to other agencies 
other than within the Department of Interior and EPA.
    Mr. LaTourette. Mr. Chairman, I appreciate that help very 
much. But even at that, 134 and 86, we are still just a little 
north of $200 million.
    I think what I am asking, Mr. Secretary, I am commending 
you and the administration for making this a big priority for 
28 percent of the world's fresh water. I want to make sure that 
the $475 million doesn't get stuck in the pockets here and 
actually gets to the Great Lakes restoration.
    So taking the chairman at his word----
    Mr. Dicks. We have looked at these numbers now. $283 is at 
EPA for their efforts, and $134 million goes outside of this 
bill.
    Mr. LaTourette. But unless I am wrong, and the chairman is 
free to correct me, as I add up what EPA has proposed already 
in their 2010 request, it is the numbers that I indicated that 
are 86. And so the EPA owes us $200 million. And I guess I am 
asking how that money is going to be spent and how we are going 
to clean up these areas of concern and take care of the zebra 
mussel, the sea lamprey, the round goby, the Asian carp, and 
all that other business.
    Secretary Salazar. If I may, Congressman LaTourette and Mr. 
Chairman, there is set aside, I think it is, $475 million 
spread out across a number of different agencies. One of the 
agencies that will get a very significant amount to help with 
this effort is, as Chairman Dicks indicated, EPA at $234 
million, but also the Army Corps of Engineers and a whole host 
of other agencies that are involved.
    Let me give you a better sense of where I am coming from 
with respect to the Great Lakes. I think there are probably a 
minimum of 10, maybe many more, of these signature national 
landscape restoration efforts which require the greatest degree 
of leadership in order to make sure that the dollars that we 
are investing, from our end of the Federal Government, the 
State, the local and the nonprofit and private end actually get 
us some results. The Great Lakes restoration effort is one of 
those efforts, and that is why it is included in the 
President's budget at $475 million.
    Now, the Department of the Interior's part of that is only 
the $86 million I believe you referred to. We will work in 
partnership with the rest of the Federal agencies and other 
stakeholders to make this a reality.
    You know, I would like to see--from my position as 
Secretary of Interior to get to a point where we can see 
demonstrable results as opposed to just ongoing studies with 
respect to places like the Great Lakes, the Chesapeake, the 
Everglades and so on.
    Mr. LaTourette. I appreciate the answer.
    And just so I am clear, one, I think it is a great 
initiative. But, two, with all the numbers that you have used, 
the chairman used, I have used, I worry that money is going to 
get stuck here and not be put into the Great Lakes restoration.
    Mr. Dicks. I want the gentleman to be assured that we will 
get a breakout of this that is comprehensible from EPA and 
Interior so that you can completely understand it.
    Mr. LaTourette. I thank the Chair.
    And I thank you, Mr. Secretary.
    Mr. Dicks. Let's get Mr. Olver, if we can. We have got 
three votes coming up. We are going to have to go over and 
vote. Two of them are 5-minute votes.
    And then we will have to come back and finish. Can the 
Secretary stay?
    Secretary Salazar. Absolutely.
    Mr. Pastor. I will put my questions into the record.
    Mr. Dicks. Okay. We will put your questions in the record, 
Mr. Pastor.
    (See Questions for the Record)
    Mr. Dicks. Mr. Olver.

             TRANSPORTATION AND EDUCATION IN INDIAN COUNTRY

    Mr. Olver. Thank you, Mr. Chairman.
    Mr. Secretary, I too am impressed by your reasons for 
taking this job. And I must say I am greatly relieved for the 
natural heritage of--for our natural heritage and the future of 
the Department under your stewardship; I really am. I am very 
pleased by your presentation here today.
    I have the honor of being the Chair of the THUD 
Appropriations Subcommittee.
    Mr. Dicks. That is Transportation and Housing.
    Mr. Olver. Transportation, Housing and Urban Development is 
where one gets the THUD.
    But in any case, it turns out, I think, we will have many 
opportunities, I hope we will have many opportunities to 
discuss issues because we do build the roads on your Indian 
reservations and your national parks and the public parks and 
such, and we also do the housing in Indian country. So I think 
we are going to, I could spend my whole time talking about 
those things. But I want to explore something else that you 
alluded to that has puzzled me a little bit.
    I think you said you have--and I see in your testimony--169 
primary and secondary schools. And I think you mentioned 50,000 
students, which I suspect was not just those 169, but the 183 
which includes the tribal colleges and universities. I would 
guess, being the total number of schools and colleges under the 
BIE.
    There must be at least, your managers from the Bureau of 
Indian Affairs, when they spoke with us at an earlier hearing, 
they pointed out that there were almost 2.5 million people 
living on reservations, and another, well, at least 2 million, 
and another half to a million somewhere that are really living 
off reservations. That must mean then that there are many of 
these reservations which do not have schools on them; is that 
true?
    Secretary Salazar. That is correct.
    Mr. Olver. That is correct. And they are being educated in 
the regular schools of the area. So that is why we get to only 
50,000 or so people in the educational system that you are 
dealing with?
    Secretary Salazar. That is correct.
    Mr. Olver. I think you said 50,000 students, roughly.
    Secretary Salazar. Roughly. I think the number is more like 
42,000. It used to be 47,000. I think the number is about 
42,000.
    Mr. Olver. Well, now then, does the amount that is included 
in the budget, which is $796 million or something like that, 
for education, does that cover more than just those--does that 
go to payments for Indian students who are out in the public 
schools other than on the reservations; or does that only go 
for that 168-169 primary and secondary schools and 14 colleges 
and universities?
    Secretary Salazar. My understanding is that it goes to the 
schools under the jurisdiction of BIE and to the tribal 
colleges, so the approximate $80 million increase that we have 
for education in Indian country would be investments into those 
schools. And indeed, from the recovery package we made major 
investments in the construction aspect of many of these 
schools, as well.
    Mr. Olver. So we don't pay for the education of Indian 
students if they are being educated in the public schools in 
any way? Is there any payment made, Federal payment made, to 
localities?
    Secretary Salazar. I think you are correct. But again I 
would be happy to provide an additional response to you. Or 
maybe somebody on the committee can help me.
    [The information follows:]

                            Indian Education

    Our 2010 budget contains over $21 million in Johnson O'Malley 
Assistance Grants, which are provided to American Indian and Alaska 
Native students attending public schools. These grants are provided 
directly to tribes and are used to provide students with the support 
they need to stay in school, including remedial instruction, 
counseling, and cultural programs. The budget also includes close to 
$35 million for scholarships and adult education programs, which allow 
Indian students to further their education at schools of their 
choosing. In addition, the Department of Education provides funding for 
public schools on reservations through impact aid to compensate schools 
for lack of a tax base.

                            INDIAN EDUCATION

    Mr. Olver. I think Mr. Cole is suggesting that there is 
impact aid of some sort. But where does it appear in the 
budget?
    Secretary Salazar. Probably in the Department of Education.
    Mr. Olver. Department of Education.
    Mr. Dicks. And we have Johnson-O'Malley grants, as well, to 
help students with their educational plans.
    Mr. Olver. Well, that is sort of the edge of a much larger 
problem that we will have some discussion, perhaps with staff, 
about.

                                HOUSING

    Mr. Secretary, in the area of housing, it turns out that 
there are--we have a program under HUD; I have a program under 
HUD, which is somewhere in the $600-million-a-year range. And 
there is a housing program under Interior for something in the 
range of $20 million a year, in that range; it is a much 
smaller program. We have had the experience this year of the 
President's budget, looking at it, another issue, brownfields 
redevelopment, where EPA, which is under this subcommittee, has 
a program for assessment of brownfields, but HUD traditionally 
has had a smallish program for redevelopment of brownfield 
sites and such. And our program in HUD was zeroed out under the 
belief that that was duplicative.
    Now, I see nothing about whether--no words in your 
testimony or in the summary that I have of the budget as to 
whether that housing program remains in Interior or under your 
jurisdiction; or was it also one of those that was--for reasons 
of apparent, possible duplication--being consolidated?
    Secretary Salazar. Congressman Olver, Budget Director Haze 
informs me that we do have $13 million in the BIA for housing.
    I think your central point, though, is that to the extent 
that we are able to do so, we should be coordinating and making 
sure that Secretary Sean Sullivan and myself and others that 
have something to do with housing are, in fact, coordinating 
our housing programs.
    Mr. Dicks. We had better go over and vote. We will come 
right back as quickly as possible. And we appreciate your 
patience.
    [Recess.]
    Mr. Dicks. Mr. Cole.
    Mr. Cole. Thank you Mr. Chairman. Could I yield for a 
moment to my friend from Idaho for the purpose of a 
recognition?
    Mr. Dicks. Sure.
    Mr. Simpson. Thanks Mr. Chairman. I just want to take the 
opportunity to recognize the chairman of the Nez Perce tribe 
who is here, Sam Penney, who is visiting us today and doing 
some other things.
    But I would like to welcome you to the committee. Thanks, 
Sam.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman.
    First of all, let me begin by thanking you for coming back. 
I appreciate it very much. I know how busy you are, and I 
appreciate you giving us some additional time.
    Second, I just want to thank you and the President. I 
appreciate very much the increases in the budget as it relates 
to Indian Country, particularly in education, particularly in 
law enforcement. They were very badly needed, and I appreciate 
your leadership, Mr. Secretary, in that regard.
    I have got two areas of questions I want to go, a couple 
relate to Indian Country, a couple to energy. On Indian 
Country, you had the unfortunate experience as soon as you 
walked in, not untypical, of finding yourself embroiled in a 
lawsuit, the Carcieri lawsuit, which, as I know members of this 
committee will know, basically the Supreme Court decided that 
tribes that were not listed in the 1934 Indian Reorganization 
Act were not subject to the Department's moving land into 
trust. And it has caused, as you can imagine, as you know, a 
great deal of consternation across Indian Country, particularly 
for tribes that were recognized by Congress after 1934.
    So I am curious as to what sort of legislative fix--and I 
think there is a great deal of bipartisan sympathy to do that--
if the administration is going to propose something, and sort 
of where you are in your thinking. Because otherwise we are not 
sure how much--but we have got a considerable amount of 
economic activity for newer tribes or tribes that were 
recognized more recently, is actually a better way to put it--
that is at risk.
    Secretary Salazar. Thank you very much, Congressman Cole.
    And, Mr. Chairman, again, my apologies for the interruption 
here and my having to run over to the Senate.
    Congressman Cole, the Carcieri decision is one of great 
import to this Nation and to the Native American tribes, as 
well as to the Department of the Interior and all of you who 
have reservations and Native American communities in your 
areas. We are keenly aware of the complexity and difficulty of 
this issue and have engaged in a consultation with the tribal 
community to see how we might be able to bring about a 
legislative resolution that makes sense.
    We need to deal with the tribal issues for those tribes 
recognized between 1934 and this time, and then we also need to 
develop a process going forward. It is not going to be an easy 
undertaking, but we will keep you and the committee up to date 
as we move forward with it.
    Mr. Cole. Well, please do. I would certainly like to work 
with you on finding a satisfactory resolution to that issue. It 
doesn't affect any of my tribes directly, but it certainly 
affects a great number of people.

                   LAW ENFORCEMENT IN INDIAN COUNTRY

    Second, this is just to make a request. This committee 
received testimony when we talked about law enforcement issues 
in Indian Country to the effect that a lot of our tribes that 
are poorer and are technically eligible for Department of 
Justice grants of all sorts, matching grants, simply don't have 
the funds to do the match. And, you know, it is a considerable 
problem.
    Some tribes, again, are fairly successful. And I would hope 
that you could engage in some sort of discussion with your 
counterpart at the Department of Justice, with maybe Attorney 
General Holder and see if we can find some way, because 
Congress has amended a lot of legislation in recent years to 
allow tribal governments to apply for the same sorts of grants 
that other localities and our States get in the law enforcement 
area.
    But obviously they don't have a taxing base; they have no 
ability to tax, and they can't use Federal funds to match other 
Federal funds. And so they are really very constrained. So 
there ought to be some way to either hold them harmless or do 
something, because we certainly have had cases where people 
need to construct detention facilities on reservations, need 
equipment, and simply can't come up with money for the match; 
and they don't qualify and it ends up going someplace else.
    So anything you can do in that regard would be greatly 
appreciated.
    Secretary Salazar. Thank you, Congressman Cole. I think it 
is a very important issue, and it is one of coordination among 
sister agencies in the Federal Government. It is an issue that 
as soon as I have my people on board and we get the people in 
the Department of Justice on board, we will take a hard look at 
that issue and make whatever changes we need to make to make 
the grant programs more effective and accessible to tribes, as 
you were describing.

                                 ENERGY

    Mr. Cole. Well, thank you very much, Mr. Secretary.
    Let me move quickly now to energy, if I may, because I do 
have some concerns and I don't think you dealt with this in 
your written testimony, although you may and I may have missed 
it.
    But I was going through the budget area and there is a 
discussion on, I think, page 20 of the document that we got 
about levying a tax on certain offshore oil and gas production. 
This, I take it, is not the fees we were talking about. That is 
not the--I want to get to that in a minute.
    But I am curious as to what this tax would be. It is not 
specified in sort of the language that says, ``In the interest 
of advancing important policy objectives such as providing more 
level playing field among producers, raising return to the 
taxpayer, encourages sustainable oil and gas production, the 
administration is developing a proposal to impose an excise tax 
on certain oil and gas produced offshore in the future, the 
administration looks forward to working with Congress.''
    I am just curious where we are at in that process. What 
kind of a tax is it? How much is it? And it sort of implies it 
would only apply to certain producers, so I am curious as to 
who it would apply to and who it wouldn't.
    Secretary Salazar. Congressman Cole, the specific issue 
that you raise has to do with certain leases issued in the Gulf 
during a period in the late 1990s, and those leases have been 
the subject of litigation.
    We have two ways of resolving the issue. One is to pursue 
the legal remedies which ultimately here is a pending appeal to 
the United States Supreme Court. And the other alternative is 
to try to figure out some legislative fix to address that 
particular issue.
    We are working with OMB and, obviously, with Congress as we 
figure out how exactly we will move forward on the issue.
    Mr. Cole. Okay. I know the issue you are talking about now.
    Along the same area, there is discussion by the 
administration for eliminating some of the tax deductions that, 
frankly, make domestic production possible--intangible drilling 
cost deductions, depletion allowance, those sorts of things. If 
those were removed, do you have any study under way as to what 
that would do on the public lands in terms of decreasing 
exploration and production? Because I can assure you, if those 
go away, you are going to see a very marked decline in domestic 
exploration and production.
    Contrary to some of the things in your document, we are not 
a very cheap place to produce oil and gas. We are a pretty 
expensive producer, because our fields are reasonably mature 
and a lot of the best sites have already been used. So I think 
that tax incentive is important to the domestic industry, and I 
think--my opinion would be, it would impact the number of 
people seeking permits to drill on public land as well.
    Do you have any reaction to that or any study under way?
    Secretary Salazar. I do have a reaction, Congressman Cole, 
and that is that we need to make sure that we are getting a 
fair return back to the American citizen. We are, as citizens, 
the owners of these public resources. There is, as you know in 
this committee, recent GAO studies that indicate that, frankly, 
the American taxpayer is not getting a fair return back. So the 
issue you raise is one of those that falls within a range of 
discussions that we will be having conversations on with you.
    Mr. Cole. When we had the discussion with GAO about that 
and they appeared before this committee, I asked, and I don't 
think they--their comparison, and I would just ask you to do 
the same thing as you look forward, because I agree with you, 
getting a fair return is the appropriate thing and ought to be 
at the top of the administration's list of things to do.
    But they looked at what we got in comparison to other 
countries. I would just suggest, you ought to look at private 
leases in the area to see whether or not the government's 
really not getting the same return. Again, it is very--there 
are other places in the world that are much more lucrative to 
drill because the finds are potentially much larger than in the 
United States.
    So the real question is whether or not the returns the 
taxpayers are getting are out of line with what a private 
domestic person who was giving an oil and gas lease would give.
    And I don't think the GAO report actually dealt with it. It 
really just compared what you might get if you were drilling in 
a foreign country, which again might or might not be a much 
cheaper place to explore and produce.
    Mr. Dicks. Mr. Price. Thank you for being so patient.
    Mr. Price. Yes, indeed. I am going to add my word of 
greetings to the Secretary, and thank you for taking this on 
and for your good work thus far.
    Mr. Dicks. Mr. Price is the chairman of the Homeland 
Security Appropriations Subcommittee, so even though he is a 
very junior member of this committee, he is a cardinal. So he 
is a very important person.
    Secretary Salazar. Thank you, Congressman.

                      FEES ON NON-PRODUCING LEASES

    Mr. Price. Well, thank you; I wasn't expecting that. As a 
matter of fact, I am a new member of this subcommittee, and I 
am very glad to be on this subcommittee. But as my question may 
reveal, I am asking some fairly basic questions about some of 
our policy challenges here, and in doing that I am actually 
following up mainly on Mr. Simpson's earlier questions about 
Outer Continental Shelf leasing and related matters. So let me 
ask you a couple of questions again by way of elaboration.
    This matter of the proposed fee on nonproducing leases, of 
course, this links back, as you recognize, to the debate we had 
in the House last year on ``use it or lose it'' and the broader 
debate on Outer Continental Shelf exploration. I wonder if you 
could tell us how you define ``nonproducing leases''? What is 
the working definition of that?
    And what is the--what do you envision the ultimate 
disposition of these leases to be? Is there a certain point at 
which a nonproducing lease should be sold back, or would the 
owner indefinitely continue to pay a fee? Or just how is this 
going to work?

                    OUTER CONTINENTAL SHELF PLANNING

    I would appreciate your filling that out.
    Secondly, this pending 5-year proposal, as I understand it, 
would allow offshore drilling, could allow offshore drilling as 
close as 3 miles to the shore, including, as you well know, 
areas that have been under moratorium recently and for as many 
as 30 years. That certainly applies to North Carolina coastal 
waters off of the Outer Banks and other areas.
    We passed some compromise legislation in the House that 
allowed for drilling between 50 and 100 miles offshore, and 
permitted the states to have a decisive role in making that 
decision. So here, too, I have a question about what you are 
envisioning as you revisit this 5-year plan and formulate your 
own position.
    I am sure you are getting an avalanche of comments as we 
speak. What do you regard as the appropriate limit on close-in 
drilling and the role of the States in determining what should 
be permitted?
    Secretary Salazar. Thank you very much, Congressman Price. 
Those are very important and very timely questions.
    With respect to your first question on the fee for 
nonproducing leases, the proposal is that we put in a $4 per 
acre fee on these nonproducing leases. As I indicated earlier 
in my testimony, that is still to be defined. We do not have 
yet a specific proposal on that relative to what it means to be 
a nonproducing lease and for how long. I think, as Chairman 
Dicks and others on the committee pointed out earlier, because 
you get a lease today doesn't mean that you are going to be in 
production tomorrow or in the next year; and it may actually 
take you multiple years to get there. So that reality has to be 
factored in as we develop the details and we will work closely 
with this committee as we move forward on that.
    With respect to your second question concerning the Outer 
Continental Shelf and the 5-year plan, I want to say--when we 
think about the OCS in today's world, we need to look at it in 
the context of two 5-year plans. There is a current 5-year plan 
that is in place, which is a 2007-through-2012 plan. That is a 
plan that essentially has been thrown out by the D.C. Circuit 
Court of Appeals, and we are in the process of getting 
clarification from the court about what we do with respect to 
that plan and all of those leases. Some 2,000 leases in the 
Gulf and also in Alaska were essentially functioning under the 
mandate of that 5-year plan. So there is a question mark there 
with the existing plan as it exists today.
    Secondly, with respect to the new 5-year plan that the 
prior administration proposed in the late hour of its 
existence, that particular plan is one in which I have extended 
the comment period through September the 21st. I did so because 
I did not feel that something that was as major as a new plan 
for the Outer Continental Shelf should only receive 60 days of 
comment and input from the Congress. And that is essentially 
what ended up happening with that rollout at the end of the 
last administration.
    So I extended the comment period, and we are in the process 
of holding hearings, receiving comments; and obviously the 
point of view of the Members of Congress is very important to 
us as we move forward with what will be a new 5-year plan for 
the OCS.
    In terms of what is appropriate relative to the creation of 
buffer zones in certain areas, 50 miles, 100 miles, we haven't 
gotten yet to the point where we have, where I have or the 
President has, at least a proposal to move forward. It is 
something that we will work with in the coming months.
    Mr. Price. Well, I commend you for reopening that comment 
period. I would agree that this is a matter of great 
significance. And as I said earlier, I expect you are not 
having any absence of comments. I would imagine they are coming 
in at a pretty good clip, and you will have plenty to think 
about.
    This issue of the States' role, though, is a vexing one, I 
think, and I assume there will be a good deal of grist for the 
mill in that regard as well. We certainly take it seriously in 
North Carolina, although we don't have perfect agreement 
ourselves as to what extent the States should be interjected 
into some kind of approval process. We tend to think that a 
State role, though, in a State like ours, a State role is 
appropriate, given the particular interest we have and the fact 
that these are waters that are treacherous and of a particular 
environmental sensitivity.
    Thank you very much, Mr. Chairman.
    Mr. Dicks. I have just a couple of things I wanted to go 
through. I will try to do it quickly.

                             CLIMATE CHANGE

    We have been concerned on climate change. We have our 
wildlife center at the USGS, and you have done some very good 
initiatives on climate change in your budget, which we 
appreciate. What we are concerned about is a cap-and-trade 
bill. I would like to see at least 5 percent of revenues 
generated devoted to the protection of wildlife and to help 
fund the agencies.
    Now, this is under consideration by the committees up here. 
Mr. Dingell has been a major advocate of this; I am an advocate 
of this. We have talked to CEQ Chair Nancy Sutley about this in 
the sense of trying to find out kind of where the 
administration is.
    Do you have any idea where the administration stands on 
this? I think it is something that should be considered.
    Secretary Salazar. Chairman Dicks, you are looking--
    Mr. Dicks. And this would be through your agencies.
    Secretary Salazar. You are looking at something that I 
think has great possibility and great hope. Frankly, I think 
that particularly when you look at the amount of money that we 
need to invest in our land and water conservation and all the 
initiatives which this committee has already supported. One of 
the ways of getting there is to look at what we have done in 
the past and what the needs are, whether it be the Great Lakes 
or Puget Sound or the Bay-Delta or the coastal wetlands of 
Louisiana or, you can keep going on, the whole landscape of 
America.
    And I frankly think that we need to figure out ways of 
getting revenue into that agenda, and an appropriate source 
would be revenue that ultimately comes from cap-and-trade.
    Mr. Dicks. All right.

                         ENDANGERED SPECIES ACT

    You and I have had a few discussions about the Endangered 
Species Act. There have been 30 years of listing species or 
subspecies or vertebrate population. Once it is determined to 
be threatened or endangered either in the entirety of its range 
or in a significant portion of its range it is listed 
throughout.
    Now, there was a 2007 opinion made by the previous 
administration that basically said that a species that is 
threatened or endangered may be protected in only some of the 
places it occurs. And some of us who have been advocates of 
protecting the Endangered Species Act are concerned about that 
decision and what the impact might be on previous decisions.
    I have talked to Tom Strickland about this, but have you 
had a chance to think about that issue? As an attorney general 
and a former head of the DNR in your State, you had a lot of 
experience on this. Would you like to take that one for the 
record?
    Secretary Salazar. Let me take it for the record, but only 
comment in this regard: that we have seen examples of the 
Endangered Species Act work in great ways through the whooping 
crane recovery program in multiple States and a whole host of 
other things. If there are ways in which we can improve the 
functioning of the Act, either through legislative changes, we 
will work with you, as well as whether we can improve it 
through the administrative authorities which we currently have.
    [The information follows:]

                   Endangered Species M-37013 Opinion

    On March 16, 2007, Solicitor Bernhardt signed opinion M-37013, 
entitled ``The Meaning of `In Danger of Extinction Throughout All or a 
Significant Portion of its Range.' '' The phrase at issue is found in 
the definitions of ``threatened species'' and ``endangered species'' in 
the Endangered Species Act. Solicitor Bernhardt concluded that:
    1. The Significant Portion of its Range (SPR) phrase is a 
substantive standard for determining whether a species is an endangered 
species. This applies when the Secretary concludes because of the 
statutory five-factor analysis that a species is ``in danger of 
extinction throughout . . . a significant portion of its range,'' it is 
to be listed and the protections of the ESA applied to the species in 
that portion of its range where it is specified as an ``endangered 
species'';
    2. The word ``range'' in the SPR phrase refers to the range in 
which a species currently exists, not to the historical range of the 
species where it once existed;
    3. The Secretary has broad discretion in defining what portion of a 
range is ``significant,'' and may consider factors other than simply 
the size of the range portion in defining what is ``significant''; and
    4. The Secretary's discretion in defining ``significant'' is not 
unlimited; he may not, for example, define ``significant'' to require 
that a species is endangered only if the threats faced by a species in 
a portion of its range are so severe as to threaten the viability of 
the species as a whole.
    In discussing how these conclusions related to other provisions of 
the ESA, Solicitor Bernhardt also concluded that, under section 4(c)(1) 
of the Act, the Secretary can specify over what portion of its range a 
listed species is threatened or endangered. Thus, in a situation in 
which the Secretary determines that a species is threatened only in a 
significant portion of its range, but not in the remainder of its 
range, the Secretary may specify just the threatened portion as 
``threatened.''

                            RENEWABLE ENERGY

    Mr. Dicks. And, you know, the one thing I just mentioned on 
renewables, I am for renewables, but they don't all have to be 
done on public lands. I would hope we would look at private 
lands as well. As you know, being the Senator and attorney 
general from Colorado, there was, under the previous 
administration, kind of a stampede to get these energy projects 
out there. And we don't want to see the same thing happen with 
renewables we need to take into account the environmental 
issues.
    And I am for all of these renewables--solar, wind. I am a 
little more nervous about offshore issues because I don't think 
we have really looked at that.
    And one other thing I just wanted to mention to you on 
sequestration. Dr. Mark Myers, who was the former head of the 
U.S. Geological Survey, with his testimony a couple of years 
ago, pointed out that we have not done a lot of science on 
carbon sequestration in areas other than in former oil and gas 
fields. We know a little bit about that. But just going out 
somewhere in, let's say, eastern Washington State or in 
Colorado, and just putting this into the ground, there has not 
been a lot of science done on this.
    And there is some money in your budget to do science on 
this. I think this is imperative, that we get this right. And I 
know there was a big flap in Illinois about a project up there 
that got cancelled. But I think trying to find answers to these 
things from both a geologic and a biological perspective are 
very important.
    I just wondered if you had any comment on that.
    Secretary Salazar. I fully agree.
    Mr. Dicks. Okay.
    Mr. Simpson. We will try and wrap this up.
    Mr. Simpson. Thank you, Mr. Chairman.
    There is money in your budget to study sequestration?
    Secretary Salazar. Yes, there is $7 million.
    Mr. Simpson. Are you coordinating with the Department of 
Energy on that, because I know the Department of Energy is also 
looking. And we substantially fund sequestration studies in the 
Department of Energy. Are you working cross-department with 
them?
    Secretary Salazar. Yes, very closely.

                      STATES AND OFFSHORE DRILLING

    Mr. Simpson. Okay. Just a couple of other things.
    One of them is a statement that I just wanted to say, and I 
am sorry that Mr. Price left, but it had to do--relative to the 
States that want to have control really--or veto power, I 
guess--of offshore drilling outside their coasts and really 
outside of lands or in waters that are United States waters, 
not State waters.
    And they want----
    Mr. Dicks. I think that was the Peterson amendment.
    Mr. Simpson. Yeah. They want to have, it was part of the 
deal to get it through.
    But I find it surprising sometimes when these States want 
to have the State have a say in all this and be able to veto 
that, or whatever; and yet, when it deals with public lands, 
with inside a State, whether it is going to be wilderness or 
something like that, the State doesn't matter. So there is a 
little bit of duplicity in all of this.
    We have got to have the States' input and all that versus 
when we try to do it out in the West. In some of the wilderness 
things, we have had proposals from people who live nowhere near 
Idaho to make, I don't know, it is 9 million acres of Idaho 
wilderness, and they don't live anywhere near Idaho; and their 
argument is always, these are all public lands owned by all of 
us. And they are right. But the people that are going to 
protect these lands are the people that live there. Just a 
statement.

                         FORMER OCS MORATORIUM

    A couple of other questions. Any chance of the 
administration looking again at a moratorium on OCS?
    Secretary Salazar. We are going through a very thoughtful 
process, Congressman Simpson, concerning the OCS, and we are 
looking at a number of different things, including where we 
need additional information, where we don't have any 
information.
    For example, in the Atlantic, the last seismic work that 
was done there was some 30 years ago. We are taking a 
comprehensive approach in assembling information and data and 
input, but do not at this point have a plan, whether it is 
moratorium or not moratorium, or defining areas where it is 
going to be appropriate to drill.

                            1872 MINING LAW

    Mr. Simpson. Okay. Is the Department going to be looking at 
a rewrite of the 1872 mining law?
    Secretary Salazar. Yes.
    Mr. Simpson. Have you got an outline for that yet? Do you 
know what you will be proposing?
    We have had laws--a proposal passed Congress last year that 
was, in my view, a little extreme. But I am one who believes 
that the 1872 Mining Law needs to be updated--obviously, since 
1872--but the one that passed the House, as I said, was a 
little extreme and obviously was not going to go anywhere in 
the Senate.
    We need a commonsense proposal to updating this mining law.
    Secretary Salazar. I agree with you, Congressman Simpson, 
that we need to move forward and reform the 1872 mining law. 
There are many areas, frankly, of agreement already between the 
mining world and the environmental world, and there may be a 
way in which we can craft legislation that will be acceptable.
    It is a priority of mine. It is not something, frankly, 
that I am going to be able to get to in terms of the substance 
of the negotiation and working with you and other Members of 
the Congress until I am able to get some people on board to 
help me work on these issues.
    Mr. Simpson. Right. I appreciate that.
    One last statement or comment or question. I guess this 
might be for our chairman. We always talk about previous 
administrations. It seems like we always talk about previous 
administrations.

                            MARINE MONUMENTS

    Earlier this year President Bush took steps to preserve 
190,000 square miles across U.S. Territories in the South 
Pacific. Two years ago he did the same thing with another 
138,000 square miles north of Hawaii. Taken together, this 
amounts to an area more than twice the size of the State of 
California. The areas saved by President Bush are natural 
aquariums teeming with coral reefs, migrating sharks and tuna; 
and on the small protected islands are the roosts of millions 
of sea birds. In these two actions, President Bush reserved 
more square miles from development than any previous President 
in history.
    Mr. Dicks. And we congratulate him for that.
    Mr. Simpson. Well, I just wanted to get it on the record.
    Now, the question. One of the, or much of the management of 
this is under Fish and Wildlife Service. There is nothing in 
your budget, as I understand it, for the increased management 
that is going to be necessary there.
    Mr. Dicks. And also there is a ship that sank there that 
really desperately needs to be removed, so we have got to 
figure out a way to solve that problem.
    But I commend the gentleman for mentioning this because it 
is one of the major accomplishments.
    Secretary Salazar. I will look into the issue, Congressman.
    [The information follows:]

       Pacific Remote Islands Marine National Monument Shipwrecks

    The Pacific Remote Islands Marine National Monument has two 
shipwrecks, one at Palmyra Atoll and one at Kingman Reef, that are 
impacting the surrounding corals and ocean habitats.
    The shipwreck Hui Feng No. 1, at Palmyra Atoll National Wildlife 
Refuge, is a 37 meter Taiwanese longliner that ran aground in June 1991 
in six meters of water. The ship is presently intact and sits at an 80 
degree list with portions of the ship above water but is degrading. The 
ship cannot be towed because it would break up before it would move 
causing further disruption to the environment and a more difficult 
clean up. Dissolving iron or other metals from the wreck is triggering 
rapid growth of native corrallimorph such that it is now smothering 
coral surrounding the ship. It is currently estimated that 250 acres of 
coral surrounding the shipwreck is infested with essentially a 
monoculture corallimorph environment where previously was located a 
healthy coral environment with a plethora of fish and other marine 
species. The location of the wreck is far from the channel in shallow 
water surrounded by emergent coral heads. To remove the ship, it must 
be cut up and shipped to Honolulu, Hawaii for recycling. The estimated 
cost to remove the ships and restore the coral reefs at Palmyra Atoll 
and Kingman Reef is $9.6 million. Restoration of the coral reefs would 
be a long term effort.
    In 2007, a wooden fishing vessel ran aground in the Kingman Reef 
National Wildlife Refuge. The vessel is 25.5 meters long with a beam of 
eight meters. The vessel is lying hard aground on the shallow perimeter 
reef crest with the bow pointing SSW towards the lagoon. Although the 
vessel burned to the waterline, the hull and keel are currently intact 
with no cracks or holes. The rudder, standpost, and propeller were 
undamaged except for the brace forward of the rudder that was severed 
in the middle. Various items are strewn about in the hull including 
engine parts, fishing gear, coils and compressors from the 
refrigeration equipment, and several large fiberglass tanks.
    The Kingman Reef wreck is being battered by windward surf during 
each high tide and is at high risk of being broken up and scattered. 
Apart from the physical damage caused by the ship grounding, the 
rusting hulls and metal fragments introduce iron into the otherwise 
pristine waters. The iron acts as a nutrient and encourages the growth 
of algae that blocks sunlight and smothers the coral. To remove this 
vessel, it will need to be cut up. If the vessel is not removed, it 
will likely break up and becomes a greater threat to the coral reef 
ecosystem.

    Mr. Simpson. Thank you.
    Thank you, Mr. Chairman.
    Mr. Dicks. Okay. Just quickly and then I am going to go to 
Mr. Olver.

                   VIOLENCE AGAINST NATIVE AMERICANS

    We had a hearing with Amnesty International on sexual 
violence against American Indian and Alaska Native women, and 
it said there are violations of human rights on many levels. 
But one example of the significant disparities that exist for 
American Indian and Alaska Native people in assessing health 
services and justice in the United States. The vast majority of 
these crimes will go unpunished.
    And then the U.S. Department of Justice's own statistics--
and I think you mentioned this in your statement--indicate that 
Native American, Alaska Native women are more than 2-1/2 times 
more likely than women in the United States, in general, to be 
raped or sexually assaulted.
    The agencies responsible for responding to this violence 
are severely underfunded, and their services are far from 
adequate to ensure that the required law enforcement and 
medical attention are supplied.
    I know Mr. Olver was very concerned about this. All of the 
members of the committee were very concerned about this.
    And the other problem, as a former attorney general, you 
will be very sensitive to this. You know, most of the people 
who commit these crimes are non-Indians who come onto the 
reservation, commit this act, and then the Indian police 
officers have no jurisdiction over non-Indians under a case 
that actually was out in my State, Oliphant v. Suquamish. And 
if there is a criminal conviction, in a tribal court, it is 
only a 1-year penalty for some of these very heinous crimes.
    I know you have got a lot on your plate. But I think this 
is one where we have to improve. They did a major exercise out 
in South Dakota where they brought in adequate law enforcement 
on the reservation, and the level of crime dropped 
dramatically. So we know that if we do have the law enforcement 
personnel there then they can get this under control.
    But this is out of control. This is not right. And you are 
just starting out. I hope you will put this on your agenda. It 
is called Operation Dakota Peacekeeper, which I will give you a 
copy of when we are done here. I hope you will take this on as 
a concern. And you are going to have people, I think, with BIA 
that will have great experience too. We will have some good 
people to work with. We want to help you on this.
    Secretary Salazar. I think it is an American tragedy. It 
needs to be addressed. It will be very high on my priority 
list, and I will work in partnership with the United States 
Department of Justice as well as with other law enforcement 
agencies to get the job done.

                        MANAGEMENT OF NEW LANDS

    Mr. Dicks. Okay.
    Mr. Olver, did you have any final questions?
    Mr. Olver. Yes. I would be happy to.
    Of course, thank you, Mr. Chairman. I want to commend you 
for your comments about the major omnibus bill, the land bill. 
That is a bill that had probably 100 different items in it--
Fish and Wildlife Service, national parks, trails, scenic 
trails, geological trails, historic trails, so on and so forth. 
I am wondering how you manage to find enough funding to handle 
and start all those different things that are going to be going 
on in those areas.
    I was particularly interested that there was a Trail of 
Tears National Historic Trail, which now joins the Chief Joseph 
Trail in the Northwest, in Idaho and Oregon and so on. It has 
always seemed to me that there were some other ones that ought 
to be similarly recognized like the long walk from Las 
Guardando back to Canyon de Chelly in Arizona, or the route of 
the northern Cheyenne tribe from Indian Country up to Montana. 
It was a very amazing thing in the late 1880s.
    There are probably others as well. But those are the ones 
that quickly come to my mind that ought to be considered.
    But I am sort of wondering how you managed to--whether the 
budget is adequate to dealing with all these new 
responsibilities that the major units of the Interior 
Department are going to have to deal with.
    Secretary Salazar. Congressman Olver, the answer is no, it 
is not. That is because the so-called ``Omnibus Lands Bill''--I 
wish it had another name because it is such a milestone in our 
treasured landscapes agenda that we all believe in so much, and 
I think ``omnibus'' doesn't quite get it.
    It is a major bill. As you well know, it is an 
authorization bill, so ultimately we will have to find ways of 
funding it. It was passed and signed by the President after our 
2010 budget was put together. That is why I think, with the 
exception of two Indian water rights settlements, those 
budgetary needs are not reflected in the 2010 budget at this 
point.
    Mr. Olver. So we will have to reflect it in the 2011 
budget, those things that are ready to move forward?
    Secretary Salazar. Yes. Unless you can find another way of 
doing it.

                             REORGANIZATION

    Mr. Olver. Can you give me an idea, are you in the business 
of trying to reorganize the offices of the Fish and Wildlife 
Service and the National Park Service? I don't have any sense 
of what the map looks like as to where the major administrative 
offices are, but those are the two largest units of the 
Department of the Interior, with pieces all over the country, 
each of them with pieces all over the country. BLM is more 
western; Indian, BIE/BIA is spottily placed and so forth, not 
very many in the eastern part.
    What I am getting at is, there appears to be a move to 
close an office dear to my heart, namely the Boston offices of 
the Park Service, to reduce its significance or close it, 
something along that line. I am wondering if this is a general 
program that you have before the Department to consider those 
kinds of reorganizations in Fish and Wildlife Service and Park 
Service.
    Secretary Salazar. Three points, Congressman Olver: First, 
I am not aware of any position or movement to close any office 
in the Boston area. Two, I don't have anything specific with 
respect to National Parks and the Fish and Wildlife Service in 
terms of reorganization. Three, I do think that it is important 
for us, especially at the beginning of this administration, to 
take a hard look at how we are organized and to see whether or 
not there are ways in which we can improve our work.
    I will tell you one that is very much on my mind, and we 
have some ideas, but they are not yet formulated into any 
proposal, is how we deal with MMS and BLM on that side of the 
ledger. On the National Park side and Fish and Wildlife side 
and Bureau of Reclamation side, we have regional offices with 
different regions. I ask myself the question, which I think all 
of us probably ask ourselves from time to time, Why do we have 
different regions? Are we organized in the right way? Would it 
make more sense to be organized along major watersheds? Are 
there different ways in which we can do that?
    I think it is important at the beginning of an 
administration to really take a hard look at those issues, and 
I will be doing that once we have our full management team in 
place.
    Mr. Dicks. All right.I think that does it. We are going to 
call it a morning.
    Mr. Secretary, you were very impressive. You did a great 
job and answered all of our questions. And we look forward to 
working with you on all these important issues.
    And just keep Pam there, because she is our----
    Secretary Salazar. Don't steal her from me.
    Mr. Dicks [continuing]. Life and blood. Oh, no, we are not 
going to do that, I will tell you that. She stays right with 
you.
    Anyway, thank you very much. And I am glad you went over 
and defended your appointee, too. I am glad you had a chance to 
do that.
    Secretary Salazar. Thank you very much.
    Mr. Simpson. I would have actually been back quicker, Mr. 
Chairman, but your brother was in the chair.
    Mr. Dicks. He was in the chair. We were beating up on him, 
``We got to get back, we got to get back.'' Anyway, I am sure 
he will talk to you about it.
    Secretary Salazar. Thank you, Mr. Chairman.

    [GRAPHIC] [TIFF OMITTED] T2296C.017
    
    [GRAPHIC] [TIFF OMITTED] T2296C.018
    
    [GRAPHIC] [TIFF OMITTED] T2296C.019
    
    [GRAPHIC] [TIFF OMITTED] T2296C.020
    
    [GRAPHIC] [TIFF OMITTED] T2296C.021
    
    [GRAPHIC] [TIFF OMITTED] T2296C.022
    
    [GRAPHIC] [TIFF OMITTED] T2296C.023
    
    [GRAPHIC] [TIFF OMITTED] T2296C.024
    
    [GRAPHIC] [TIFF OMITTED] T2296C.025
    
    [GRAPHIC] [TIFF OMITTED] T2296C.026
    
    [GRAPHIC] [TIFF OMITTED] T2296C.027
    
    [GRAPHIC] [TIFF OMITTED] T2296C.028
    
    [GRAPHIC] [TIFF OMITTED] T2296C.029
    
    [GRAPHIC] [TIFF OMITTED] T2296C.030
    
    [GRAPHIC] [TIFF OMITTED] T2296C.031
    
    [GRAPHIC] [TIFF OMITTED] T2296C.032
    
    [GRAPHIC] [TIFF OMITTED] T2296C.033
    
    [GRAPHIC] [TIFF OMITTED] T2296C.034
    
    [GRAPHIC] [TIFF OMITTED] T2296C.035
    
    [GRAPHIC] [TIFF OMITTED] T2296C.036
    
    [GRAPHIC] [TIFF OMITTED] T2296C.037
    
    [GRAPHIC] [TIFF OMITTED] T2296C.038
    
    [GRAPHIC] [TIFF OMITTED] T2296C.039
    
    [GRAPHIC] [TIFF OMITTED] T2296C.040
    
    [GRAPHIC] [TIFF OMITTED] T2296C.041
    
    [GRAPHIC] [TIFF OMITTED] T2296C.042
    
    [GRAPHIC] [TIFF OMITTED] T2296C.043
    
    [GRAPHIC] [TIFF OMITTED] T2296C.044
    
    [GRAPHIC] [TIFF OMITTED] T2296C.045
    
    [GRAPHIC] [TIFF OMITTED] T2296C.046
    
    [GRAPHIC] [TIFF OMITTED] T2296C.047
    
    [GRAPHIC] [TIFF OMITTED] T2296C.048
    
    [GRAPHIC] [TIFF OMITTED] T2296C.049
    
    [GRAPHIC] [TIFF OMITTED] T2296C.050
    
    [GRAPHIC] [TIFF OMITTED] T2296C.051
    
    [GRAPHIC] [TIFF OMITTED] T2296C.052
    
    [GRAPHIC] [TIFF OMITTED] T2296C.053
    
    [GRAPHIC] [TIFF OMITTED] T2296C.054
    
    [GRAPHIC] [TIFF OMITTED] T2296C.055
    
    [GRAPHIC] [TIFF OMITTED] T2296C.056
    
    [GRAPHIC] [TIFF OMITTED] T2296C.057
    
    [GRAPHIC] [TIFF OMITTED] T2296C.058
    
    [GRAPHIC] [TIFF OMITTED] T2296C.059
    
    [GRAPHIC] [TIFF OMITTED] T2296C.060
    
    [GRAPHIC] [TIFF OMITTED] T2296C.061
    
    [GRAPHIC] [TIFF OMITTED] T2296C.062
    
    [GRAPHIC] [TIFF OMITTED] T2296C.063
    
    [GRAPHIC] [TIFF OMITTED] T2296C.064
    
    [GRAPHIC] [TIFF OMITTED] T2296C.065
    
    [GRAPHIC] [TIFF OMITTED] T2296C.066
    
    [GRAPHIC] [TIFF OMITTED] T2296C.067
    
    [GRAPHIC] [TIFF OMITTED] T2296C.068
    
    [GRAPHIC] [TIFF OMITTED] T2296C.069
    
    [GRAPHIC] [TIFF OMITTED] T2296C.070
    
    [GRAPHIC] [TIFF OMITTED] T2296C.071
    
    [GRAPHIC] [TIFF OMITTED] T2296C.072
    
    [GRAPHIC] [TIFF OMITTED] T2296C.073
    
    [GRAPHIC] [TIFF OMITTED] T2296C.074
    
    [GRAPHIC] [TIFF OMITTED] T2296C.075
    
    [GRAPHIC] [TIFF OMITTED] T2296C.076
    
    [GRAPHIC] [TIFF OMITTED] T2296C.077
    
    [GRAPHIC] [TIFF OMITTED] T2296C.078
    
    [GRAPHIC] [TIFF OMITTED] T2296C.079
    
    [GRAPHIC] [TIFF OMITTED] T2296C.080
    
    [GRAPHIC] [TIFF OMITTED] T2296C.081
    
    [GRAPHIC] [TIFF OMITTED] T2296C.082
    
    [GRAPHIC] [TIFF OMITTED] T2296C.083
    
    [GRAPHIC] [TIFF OMITTED] T2296C.084
    
    [GRAPHIC] [TIFF OMITTED] T2296C.085
    
    [GRAPHIC] [TIFF OMITTED] T2296C.086
    
    [GRAPHIC] [TIFF OMITTED] T2296C.087
    
    [GRAPHIC] [TIFF OMITTED] T2296C.088
    
    [GRAPHIC] [TIFF OMITTED] T2296C.089
    
    [GRAPHIC] [TIFF OMITTED] T2296C.090
    
    [GRAPHIC] [TIFF OMITTED] T2296C.091
    
    [GRAPHIC] [TIFF OMITTED] T2296C.092
    
    [GRAPHIC] [TIFF OMITTED] T2296C.093
    
    [GRAPHIC] [TIFF OMITTED] T2296C.094
    
    [GRAPHIC] [TIFF OMITTED] T2296C.095
    
     [GRAPHIC] [TIFF OMITTED] T2296C.096
    
                                            Thursday, May 14, 2009.

                         NATIONAL PARK SERVICE

                               WITNESSES

DANIEL N. WENK, ACTING DIRECTOR
BRUCE SHEAFFER, COMPTROLLER

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. Good morning, Mr. Wenk. On behalf of the 
subcommittee, I want to welcome you today. We appreciate your 
service as Acting Director of the National Park Service, the 
Park Service could not be in better hands, and look forward to 
your testimony outlining the Administration's 2010 request for 
the Park Service.
    This subcommittee has a long history of supporting the Park 
Service. Over the last two and a half years as chairman, I have 
worked hard to ensure that these national treasures have had 
sufficient funds, and I must say that the previous 
Administration did support the Park Service very effectively.
    Mr. Simpson. All right.
    Mr. Dicks. I am very happy to see your request, with a 6.8 
percent increase overall, and $134 million increase for 
operations of the National Parks. As always, we will do our 
best to provide resources to ensure the Parks are properly 
preserved for future generations, and that today's visitors 
have a first class experience.
    I would like to quickly summarize the major components of 
the 2010 request for the National Park Service. At a total of 
$2.7 billion, it is an increase of $171 million over the 
previous year. This includes a $100 million program increase 
for park operations and maintenance, $25 million for a new Park 
Partnership Matching Grant Program, $68 million for federal 
land acquisitions, and $30 million for state conservation 
grants supported by the Land and Water Conservation Fund.
    The only downside to the budget is a $32 million reduction 
in park construction. I understand that part of the reasoning 
for this is due to the $589 million provided for park 
construction through the Recovery Act, out of a total of $750 
million that went to the Park Service.
    In addition to these increases, the budget request 
envisions Park Service participation in a number of department-
wide initiatives. You have requested $5 million to introduce 
high school- and college-age students to the career 
opportunities in the Park Service, as part of the Twenty First 
Century Conservation Corps Initiative. There also is $10 
million requested for the Park Service Climate Change Program, 
which includes Protecting America's Treasured Landscapes 
Initiative. The proposed budget continues the commitment of an 
annual $100 million increase for ten years, for operation of 
the National Parks, which was started under the previous 
Administration.
    With all this good news on the budget front, there are some 
policy questions. The decision about guns in the parks is 
something we will discuss today. In addition, I continue to be 
concerned about the role of the Park Police here in Washington, 
although I am glad to see your budget provides the funds to 
bring the force to 630 sworn officers.
    Mr. Wenk, I know that many decisions will be made by a new 
Director once he or she is named and confirmed. Until then, I 
know the Park Service, as I said, is in good hands with career 
civil servants like yourself.
    Before I ask you to begin your statement, I want to turn to 
our ranking member, Mr. Simpson, and see if he would like to 
make a statement.

               Opening Remarks of Ranking Member Simpson

    Mr. Simpson. Thank you, Mr. Chairman. That was a wonderful 
statement.
    Mr. Dicks. Thank you. I call them as I see them.
    Mr. Simpson. Mr. Wenk, Mr. Shaeffer, I am glad to be brief 
in the interest of time, but the Chairman did some welcoming 
you both to the committee.
    Judging from your proposed budget and the funding you 
received in the stimulus package, it would appear that the 
National Park Service is in reasonably good standing with the 
President and the Office of Management and Budget.
    I look forward to hearing more about how and where the 
dollars are being spent now, as well as your plans for the 
future. Of course, we know that your annual budgets are about 
more than just dollars and cents. What fun your job would be 
without addressing policy issues, like snow machines in parks, 
guns in parks, land condemnation, a few of those 
noncontroversial sorts of subjects. Again, I realize that you 
have a full plate dealing with these and other issues, and look 
forward to discussing some of them with you today.
    I also want to thank you both and your staff for the 
professional work that you do. Our National Park System remains 
among the most treasured national assets that we have. I do not 
believe the general public gives public servants like 
yourselves, people who dedicate their entire careers to 
preserving these stunning national resources, enough credit.
    In closing, as I have done with the Secretary of Interior 
and the Secretary of the Forest Service, Chief of the Forest 
Service, I would like to invite both of you to visit the great 
State of Idaho at some point in time, if you have the 
opportunity, and maybe take a hike in the Boulder White Clouds 
or float down the Snake River, or as I told the Secretary, no 
offense, the River of No Return. It is a great place, but I 
would love to have you any time you would like to come out.
    With that, Mr. Chairman, thank you, and I look forward to 
the testimony.
    Mr. Dicks. We will put your entire statement in the record. 
You may proceed as you choose.

               Statement of Dan Wenk, Acting NPS Director

    Mr. Wenk. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to appear before you 
today on the National Park Service Fiscal Year '10 budget 
request.
    We sincerely thank you for your continuing support of the 
work we do as stewards of many of our Nation's most treasured 
natural and cultural resources. We especially appreciate the 
significant increase in operations funding that you have 
provided for Fiscal Year 2008 and Fiscal Year 2009, as well as 
the $750 million made available to the National Park Service in 
the American Recovery and Reinvestment Act.
    On August 15, 1916, the National Park Service was formed to 
manage special places set aside to reflect the character of our 
Nation, and preserve them for generations to come. As the 
National Park Service nears its hundredth anniversary as 
stewards of this Nation's most cherished natural and cultural 
resources, the challenge of managing these special places has 
grown more complex, but no less imperative.
    Through the Fiscal Year 2010 budget request, the National 
Park Service will strive to achieve the goals of the Secretary 
of Interior's Protecting America's Treasured Landscape 
Initiative, and prepare for another century of conservation, 
preservation, and enjoyment. The National Park Service will 
build park operational capacity, tackle climate change impacts, 
enhance critical stewardship programs at parks, engage our 
youth in conservation, effectively maintain NPS facilities, and 
ensure organizational capacity and professional development.
    The 2010 budget increase of $171 million for the Park 
Service provides the impetus to change the National Park System 
to meet the expectations of the public, a legacy that is 
uniquely American. In preparation for the hundredth 
anniversary, the budget request provides the means to engage 
Americans in getting reacquainted with nature's wonders and the 
Nation's proud history, and for international visitors to enjoy 
these special places and stories of the country.
    The Fiscal Year 2010 budget request reflects the 
President's commitment to our National Parks, with $100 million 
program increase in park operations to maintain facilities, 
preserve cultural and natural resources, and protect the 
investments being made through the American Recovery and 
Reinvestment Act of 2009. The Fiscal Year 2010 budget request 
safeguards the improved investments made in parks, and builds 
upon the rich philanthropic history of the Service, by 
including a $25 million matching grant program for signature 
parks, projects, and programs.
    In the Fiscal Year 2010 budget request, I would like to 
refer you to my prepared statement, and just touch on a few 
highlights. Our emphasis continues to be on increasing funding 
for park operations. The Fiscal Year 2010 budget request 
includes $100 million focused on five key components within the 
operation of the National Park System account, including $73.7 
million to enhance park operations capacity and $5.9 million in 
the category of stewardship and education.
    The most valued assets available to the Park Service are 
its more than 20,000 dedicated employees. An efficient and 
effective Park System requires that the National Park Service 
invest in their professional development. To this end, the 
Fiscal Year 2010 budget request includes $5.4 million to 
support National Park Service employee training and 
development. It also includes $5 million as a part of the 
Department's creating a Twenty First Century Youth Conservation 
Corps Initiative to increase youth partnership programs in the 
National Park Service, and $10 million as part of the 
Department's initiatives on tackling climate impacts for 
collaboration with Interior bureaus and other state and federal 
agencies that monitor climate change.
    In addition, the Fiscal Year 2010 budget request proposes a 
multi-year, incremental approach in support of the President's 
commitment to fully fund the Land and Water Conservation Fund 
programs at $900 annually, across the Department of Interior 
and the U.S. Forest Service. For the National Park Service, the 
Fiscal Year 2010 budget proposes funding totaling $98 million 
in discretionary appropriations, of which $68 million is 
available for the land acquisition projects and administration.
    Mr. Chairman, in closing, may I say again how much we 
appreciate your support and the support of the subcommittee, 
for the varied programs in the National Park Service. Our 
employees are excited about the work we will be doing to 
prepare our National Parks for our second century of 
stewardship. We look forward to working with you in meeting the 
challenges ahead.
    Mr. Chairman, that concludes my remarks. I would be pleased 
to answer any questions you and the subcommittee may have.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296C.097
    
    [GRAPHIC] [TIFF OMITTED] T2296C.098
    
    [GRAPHIC] [TIFF OMITTED] T2296C.099
    
    [GRAPHIC] [TIFF OMITTED] T2296C.100
    
                           STATUE OF LIBERTY

    Mr. Dicks. Yesterday, the Secretary was here, and I asked 
him a question about the Statue of Liberty. I told him that I 
was satisfied with the approach that is being taken, because of 
the conversation you and I had a few days ago.
    Why do you not again, for the subcommittee, explain what is 
going to happen, and talk a little bit about the consulting 
report, those parts that you can talk about, and just how this 
is going to proceed. The consultants have confirmed that this 
is a safe thing to do. It will take a couple years to design 
and then it will be closed down while the improvements are 
made. Why do you not go through this for the subcommittee, so 
we will have a better understanding of what is going to happen?
    Mr. Wenk. Certainly. The National Park Service has not had 
access to the Crown since 2001. We were asked last year, in the 
authorizing committee, to take another look at what we might be 
able to do to provide access to the Crown in any kind of a 
manner.
    We engaged a nationally and internationally renowned firm 
called Hughes Associates out of Baltimore, to take a look at 
the issues surrounding the life, health, safety, or safety 
issues, in terms of access, to assure that we had, could meet 
code requirements, or if not meet code requirements, what could 
we do to make it as safe as possible, and to make it an 
acceptable situation.
    What they have told us is that we can, in fact, well, they 
found something that we did not expect. They found that we have 
significant problems within the pedestal of the Statue of 
Liberty, in terms of life, health, safety codes. That is the 
area below the Statue herself, down to the ground, about a 
seven story stone block foundation, on which the Statue rests.
    The challenges involved actually are within the Statue 
itself, require the addition of a handrail to take it as far as 
we can take it, to be as safe as possible within the Statue. 
So, between now and July 4, we are going to install the 
handrail. On the upside, we are going to assure that all the 
safety devices that are currently in place are operational, 
work, and we are going to provide a fire watch operational 
pattern within the pedestal and the tower itself that will 
assure visitor safety, while we are designing the solution for 
the pedestal to the Statue.
    The design of the solution will take 18 months to two 
years, between the design and contracting for that. We would 
expect, in Fiscal Year 2011, we would be able to contract, 
then, for the pressurized fire towers in the pedestal that will 
allow safe egress from the Statue itself without the additional 
fire watch. That construction process will take approximately 
two years to get it done. We will accelerate it to the greatest 
extent possible, but during the time of construction, no access 
can be allowed into the pedestal or into the Statue and the 
Crown itself. But we believe that the numbers will be 
approximately 150 visitors a day, during the design period of 
time, and once we are done, the numbers will be about 275 
visitors a day will be allowed to the Crown itself. They will 
be accompanied by a Ranger. They will be assisted, and we can 
only have, according to the report, approximately 30 visitors 
at any one time in the Statue. How that would work, is there 
would be 30, or excuse me, 10 on the way up the stairs, 10 in 
the Crown itself, and 10 on the way down. And so, the capacity 
is extremely limited, to provide a safe experience for our 
visitors to the Statue of Liberty.
    The costs for this, Mr. Chairman, are currently estimated 
to be in excess of $30 million to make these improvements.
    Mr. Dicks. And as I understand it, that will be in the 2011 
budget request.
    Mr. Wenk. That would be our first opportunity to request 
that, yes, sir.
    Mr. Dicks. Okay. And I think it is important to note that, 
when you were doing this report the fire safety issue was not 
the first thing you were looking at. I think this has been a 
great service to find out that there is an issue here that can 
be dealt with, and the consulting firm has said it can be dealt 
with safely, the way you are going to do it for the next two 
years.
    Mr. Wenk. Mr. Dicks, what the consulting firm has said is 
that we will have an acceptable level of risk. We can reduce 
the risk from the level that it is now to an acceptable level, 
and with management, we can make a safe experience for our 
visitors.
    Mr. Dicks. So, in your personal and professional opinion, 
you think this is safe for the public, and that we can go 
forward with this. And we know there is always some risk, but 
you think the risk is acceptable.
    Mr. Wenk. I believe it is an acceptable level in the 
limited numbers that we are talking about. We can never return 
to the time when we had a constant stream of visitors up to the 
Crown and back down. We will have to do them in small groups. 
It will have to be monitored.
    And the other consideration that we had, even pre-9/11 in 
2001, is we also closed the Crown down, and closed the Statue 
down when it got over 85 degrees and 90 percent humidity, 
because the temperature and the humidity inside the Statue 
itself make it unsafe. So, we will continue to do those things 
that will provide safe access for visitors.
    Mr. Dicks. I am going to do something different than I 
normally would do. Does anybody want to ask a question on this 
subject? Anybody? Okay.

                         FIREARMS IN THE PARKS

    Let me go to guns in the Parks. Tell us where we are. We 
know about the Senate amendment. There was a court case, and I 
think the judge has issued a motion to stay in order to make 
sure an Environmental Impact Statement is done in a proper 
fashion.
    Can you tell us where we are on this?
    Mr. Wenk. Mr. Chairman, you are correct. The process we are 
in right now: next week, we have, actually need to, respond to 
the courts. And in our response to the courts, the Department 
made a decision not to appeal the decision of the courts.
    We are asking for a stay that, well, could be granted next 
week. We have been asked to come back and give them a schedule 
and a cost for how we are going to approach an environmental 
document that will evaluate the proposed rule, and any other 
appropriate alternatives to the proposed rule. We have put 
together a schedule and a cost, and the schedule it will take 
to go through the NEPA process, which is the EIS process. And 
we believe that the EIS process is appropriate and necessary, 
because it is highly controversial. We had over 140,000 
comments on the proposed rule last year, so the process will 
take two to three years, and the cost of about $500,000 for us 
to engage the public, in terms of public scoping, public 
meetings, appropriate response, going out with alternatives, 
and then, once we have a final decision, putting together the 
final rule, or the proposed and final rule.
    Mr. Dicks. This also affects refuges, too.
    Mr. Wenk. It does. It is both National Parks and Fish and 
Wildlife Service.
    Mr. Dicks. Are you coordinating with them?
    Mr. Wenk. We are working with them, we will work jointly 
with the Fish and Wildlife Service, on the preparation of the 
document and the proposed rule.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. Could you follow that up, and tell us what the 
existing rule is, and what the proposed rule would be?
    Mr. Wenk. The existing rule, since 1983, under the Reagan 
Administration, the rule that was put in, allows for transport 
of firearms through parks, but they have to be inoperable and 
stowed. The proposed rule, or excuse me, the final rule that 
went into effect on January 9, allowed for concealed carry 
within National Parks.
    It allowed for concealed carry within National Parks, based 
on the underlying state law. In other words, if you could carry 
a concealed weapon on Main Street of Anytown, USA, you would be 
able to carry a concealed weapon within a National Park, under 
the rule that went into effect on January 9.

                            RECREATION FEES

    Mr. Simpson. Let me ask you about the, as we discussed 
yesterday, a little bit about the recreation program. I did not 
realize that the Park Service was actually part of that, was 
part of that program. I assumed we always collected fees in 
National Parks, I just did not know that when Chairman Regula 
had put that into place, it included the Park Service, and 
then, what the Park Service can do with those fees. Currently, 
the statute requires an 80/20 split between the collecting 
park. The other 20 percent goes to, I guess, a central fund, 
that is then distributed on an as-needed basis, some to parks 
that do not collect fees, and so forth.
    There has been some questions about what the parks are 
spending those fees on, the accumulated balances that seem to 
grow. I think it was $275 million over the last few years, 
something like that. Do we need to modify that statute, the 80/
20 collection, the retention by the collecting parks? Do we 
need to make sure that the programs and projects that these 
fees are being spent on are more defined, or should we still 
leave it up to the decisions of those parks and so forth?
    Give me your discussion on that, or your thoughts on that.
    Mr. Wenk. We have been collecting fees in National Parks 
since, I think, about 1908, and as part of that, approximately 
200, about half of the National Parks, collect fees. You are 
correct on the split, the 80/20 split. The 20 percent fund, if 
you will, that is contributed to, and all parks, then, compete 
for those funds. So, even the parks that do not have fee 
collection can benefit from fees that are collected by the 
National Park System.
    Mr. Simpson. So, of the 20 percent, so can the fees, or the 
parks that actually collected those fees.
    Mr. Wenk. All parks can compete for that 20 percent.
    Mr. Simpson. So, they may get the 80 percent, retain the 80 
percent that they collected, plus they may get some from the 20 
percent, on a competitive basis. Is that----
    Mr. Wenk. They may. As a matter of policy, that is rarely 
done.
    Mr. Simpson. Okay.
    Mr. Dicks. It usually goes to the other parks.
    Mr. Simpson. Right.
    Mr. Dicks. The ones that do not have----
    Mr. Simpson. Right.
    Mr. Dicks [continuing]. The rec fees.
    Mr. Simpson. Right.
    Mr. Sheaffer. That is correct.
    Mr. Simpson. Right. Right.
    Mr. Wenk. Since the late '90s, when we had the first Fee 
Demonstration Program, then the Fee Program, I believe that we 
have seen, and we have developed systems and programs to 
effectively understand, approve and look at the projects that 
are being done.
    And a high percentage of the projects that are being done 
are projects that we would look at as deferred maintenance. 
There are also projects that are resource-based projects. But 
basically, they are in support of the visitor use or the 
resource preservation of a park area.
    The formula that we have now, certainly, I would say that 
to re-look at the formula, in terms of the distribution, may be 
appropriate, because it may provide the opportunity for any 
park not to get any less than they are getting now, but those 
parks that collect a lot of fees, perhaps there is some 
benefit. We should make sure we are working on the highest 
priorities of the National Park System, and there are parks 
that do not collect fees, and that 20 percent, obviously, is 
only 20 percent of a bigger number.
    Mr. Simpson. Right.
    Mr. Wenk. It would be good, I believe, to re-look at that 
formula, in terms of the distribution of fees. And I would ask 
Bruce to comment on that as well.
    Mr. Sheaffer. The current authority allows us to actually--
--
    Mr. Simpson. Grab the mike, Mr. Sheaffer.
    Mr. Sheaffer [continuing]. Allows us to go to 60 percent, 
actually. It has been done very little throughout the Service, 
to this point. The carry-over balance has been a problem, and 
it is principally due to the fact that so much of the money 
resides in the 80 percent parks, the large collecting parks.
    Mr. Simpson. Is that where most of the carryover balance 
is?
    Mr. Sheaffer. Over 70 percent of the carryover balance 
tends to be there.
    Mr. Simpson. Is that because they are trying to accumulate 
funds for a larger project----
    Mr. Sheaffer. Exactly.
    Mr. Simpson [continuing]. Than what they could fund in one 
year?
    Mr. Sheaffer. Exactly.
    Mr. Simpson. Is that what the fund was intended to do, or 
is the fund intended to do more of the smaller projects that 
you can do annually, to keep up maintenance and that kind of 
stuff, do you think?
    Mr. Sheaffer. Well, I do think that the original intent 
when we first allowed parks to keep these funds, was to, the 
backdrop at the time was the backlog.
    Mr. Simpson. Yeah.
    Mr. Sheaffer. The recognition of the maintenance backlog, 
and the needs for improving facilities. So, I would say yes, 
but there is really a disproportionate share, frankly, if you 
think of this in terms of a Service-wide priority, a 
disproportionate share being held by the large collecting 
parks. Grand Canyon collects $20 million out of the $170 
million, for example. The next largest is Yosemite at $17 
million, then it drops down to $7 million for Yellowstone. 
Then, they start all going down to around the $3 million and 
the $2 million level. It is really a relatively small number of 
parks that collect the vast majority of the resources.
    Mr. Simpson. If we have to make changes in that, or if we 
would, I guess that would be statutory changes, because it is 
in the statute, the 80/20 split, is that right?
    Mr. Sheaffer. The allowance is, there is allowance in that 
law to go to 60.
    Mr. Simpson. 60/40.
    Mr. Sheaffer. I believe it is the Secretary who is granted 
that authority.
    Mr. Simpson. If we were to make changes in that, what would 
you recommend, or would that be putting you----
    Mr. Sheaffer. Well, by eliminating most of those things, it 
gives us a maximum flexibility to put the money where it is 
most needed.
    Mr. Simpson. Right.
    Mr. Sheaffer. Even if that means going back to the 
collecting parks with the resources, once they are ready to do 
one of these large projects.
    Mr. Dicks. Yeah, just on this subject, if you would yield.
    Mr. Simpson. Sure.
    Mr. Dicks. On these big parks that are getting all this 
money, could you go 60/40 on those, and then, 40 percent would 
come back, so you would not have the three big parks getting 
the lion's share of the money?
    Mr. Sheaffer. Certainly, we could.
    Mr. Dicks. Have you ever thought about that?
    Mr. Sheaffer. Yes, we have, and I think we have thoughts of 
doing that. It is really a cash management issue, and that is 
the way I think we should be approaching it: looking at the 
projects, looking at the schedule of those projects, giving 
them a priority, and then, allocating the cash as we take it 
in, to the highest priority projects, regardless of where they 
occur.
    And we could certainly, in that process, give preference to 
the collecting parks, but having carryover balances sitting in 
those parks is not a good use of the money available to us, so 
going to 60 percent might resolve the problem.
    Mr. Dicks. Again, part of the problem is that it takes so 
long for the Park Service.
    Mr. Wenk. You know, I think in some cases, I will use Grand 
Canyon as an example. They have a recently approved General 
Management Plan. So, that is not the issue. And I do not think 
the issue is with planning the projects, per se. There is some 
accumulation of funds that they try to do over a number of 
years. The Grand Canyon, and in their defense, you have not 
seen in the line item construction program of the National Park 
Service many projects for the Grand Canyon. This year is an 
exception, in the past, you have not. And one of the reasons is 
because, typically, they have been seen to have a lot of money 
coming in through fees, that they could handle much of their 
own, much of their projects.
    But, I think it is a combination of things, Mr. Chairman.
    Mr. Dicks. Just a little history here.
    Mr. Wenk. Sure.
    Mr. Dicks. One of the problems we did not want is to have 
them substitute the money. In other words, you know our intent, 
at least, was not to have them substitute the money.
    Mr. Wenk. Yeah.
    Mr. Dicks. Because they had the money.
    Mr. Wenk. But----
    Mr. Dicks. But it is the rich getting richer. I think 
something could be done on these major parks.
    Mr. Simpson. Even if there was not a statutory split 
number, 60/40, 80/20, whatever, these parks would still get the 
majority of the money, because they have the majority of 
visitors. Is that right? Is that, do you assume that?
    Mr. Dicks. That is the reason they get all the money.
    Mr. Wenk. They have a lot of the needs.
    Mr. Simpson. Right, exactly.
    Mr. Wenk. Those big parks that were identified have some of 
the largest infrastructure needs that we have within the 
National Park System.
    Mr. Simpson. Yeah. And, but what I am suggesting also, is 
that some of these smaller parks that do not collect fees 
probably have some needs and to eliminate a statutory 
requirement will give the Park Service flexibility to actually 
look at where they ought to put the resources. And even with 
the flexibility granted to the Park Service, still, those 
larger parks are still going to get a majority of the money, 
because of the needs that they have.
    Mr. Wenk. I believe that is true.
    Mr. Simpson. Okay. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Olver was here first, although--Mr. 
Chairman.
    Mr. Olver. Thank you, Mr. Chairman. Director Wenk, how long 
have you been Acting Director?
    Mr. Wenk. I have been Acting Director since January 20.
    Mr. Olver. Oh, really. I see. So, we are waiting for----
    Mr. Simpson. That was an unfortunate date, as I recall.
    Mr. Dicks. Before that, we had a previous Administration.
    Mr. Olver. So, we are waiting for a confirmation, still.
    Mr. Dicks. Yes.
    Mr. Wenk. We are waiting for a nomination in the National 
Park Service.
    Mr. Olver. That is even worse.
    Mr. Dicks. Not from his perspective.
    Mr. Wenk. True. I was Deputy Director for Operations for 
the National Park Service prior to that.
    Mr. Olver. Okay. The Secretary yesterday was handed a note 
in the middle of hearing that the Senate had failed to confirm, 
refused to confirm, in any case, and so, I wonder what that 
means for the next set of things down the line.

                        SPECIAL RESOURCE STUDIES

    Anyway, I wanted to follow up on a couple of points that I 
had raised with the Secretary yesterday. I had asked, the 
ranking member, Mr. Simpson, had commented that the budget was 
certainly a more favorable budget, and that is certainly true, 
and we are grateful for that, from the new Administration. And 
yet, in this last, just earlier this year, we passed an 
enormous bill. It has--for the Park Service, it has a bunch of 
scenic rivers, wild and scenic rivers, a bunch of trails, a 
bunch of Heritage Areas, new Heritage Areas and so forth. And I 
do not know that I see where the money is going to be to get 
those up and going. I noticed that the budget is level funded, 
at the level of new trail studies. I would have suspected you 
might even drop that by half, because with all those ones that 
finally made it through all at once, it may be a couple of 
years for the Congress to get it, get up enough momentum to 
have a whole bunch more coming through that need studies being 
done.
    But the amount of money that, let me see, I think it is, 
there is about an 8 percent increase in what is called the 
Rivers, Trails, and Conservation Assistance Program, which must 
be where you, where you begin to deal with all these new ones.
    Can you tell me how that fits? I asked him if the budget 
was enough, and he said no. Frankly, no. But I would certainly 
like to hear, I will not say the rest of what he said, but----
    Mr. Wenk. I believe we have a sequencing issue here, 
primarily, that the Omnibus Bill, the Public Lands Omnibus 
Bill, was passed after much of this budget had been formulated. 
I think these are issues that we are going to have to take up 
in the future, in future budgets, but we will address those to 
the extent we can, within the budget that we have before you 
today, for 2010.
    Mr. Olver. Well, does it take, every one of these, I am 
hearing that it takes an average of five years for a management 
plan, for each one of these instances to come through the 
system, so if it takes that long for something to come through 
after all, each one of these trails has already had a 
feasibility study, the management plan, the feasibility study 
has to have taken into account management issues, how they 
intend to try to partner out systems for, in the case of 
trails, trails, and they also have Heritage Areas, and some 
probably scenic rivers, also in that legislation. Time for 
Massachusetts. What, why would it take five years----
    Mr. Wenk. Well, we have----
    Mr. Olver [continuing]. To get the management plan?
    Mr. Wenk. It is, in fact, an issue of funding. We have 
numerous new areas. We have special resource studies, et 
cetera, that we need to undertake. We have limited funding to 
deal with all of those, so we cannot fully fund each one of 
those things, to do it in the, if you will, the most 
expeditious manner. We have to provide funding, as we have 
funding, to do those projects, and to do those plans, and so, 
we are not working on each of those plans as fast as we could, 
if we could fund each one of those at 100 percent of the 
requirement.
    Mr. Olver. But it sounds, from what you are saying, as if 
none of those that were in that Omnibus Bill are going to get 
any significant money this year, because everybody has been in 
line for previous, from previous years, for what monies there 
are that are being actually requested here.
    Mr. Wenk. I believe we hope to start those plans this year, 
but it will be a minimal start.
    Mr. Olver. What would it take to do these plans in 
something like two years? Two years is a reasonable period of 
time. Five years is a ridiculous situation.
    Mr. Wenk. I do not know that number. It is something that 
we could provide, but I cannot tell you that offhand.
    Mr. Olver. I think that would be a very good thing for us 
to have.
    Mr. Dicks. Why do you not send that up to us?
    [The information follows:]

                        Special Resource Studies

    Project costs and the timeframe in which studies can be completed 
is dependent upon the subject area's complexity factors, such as the 
size and jurisdictional span as well as the public and private interest 
in the proposed area. In a study's simplest form, such as a small 
monument or house with good background data and few controversial 
issues, the cost may be as little as $100,000 to $200,000, with the 
completion time averaging 1-2 years utilizing a streamlined NEPA 
process. In some recently authorized larger studies, such as the 
Michigan Maritime Sites and Chattahoochee Trace National Heritage Area, 
the study time may increase to between 2 and 5 years because public, 
private, and state involvement must be sought and the background 
research needs are far greater. The cost of a study for a large or 
controversial area can triple that of a simple feasibility study, up to 
$600,000. There are currently 37 authorized heritage areas and new NPS 
units which require studies.

    Mr. Olver. To understand what it is that would make the, 
what was done last year, with great fanfare and a great deal of 
hope, what would make that happen in a reasonable period of 
time.
    Let me ask you, what division is it in the Park Service, 
that does historic preservation?
    Mr. Wenk. It is our Cultural Resources Division.
    Mr. Olver. There is a Division, and who is the Director of 
that Division?
    Mr. Wenk. Jan Matthews is the Associate Director for 
Cultural Resources.
    Mr. Olver. So, all within Cultural Resources, and Jan 
Matthews. Okay. Do I have time left, Mr. Chairman?
    Mr. Dicks. You are about expired.
    Mr. Olver. Okay, well--I will sit here and take another 
round.
    Mr. LaTourette. Manage your time.
    Mr. Olver. Do not take that too far.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. I want to make sure Mr. LaTourette is not 
sensitive about----
    Mr. LaTourette. Oh no, I know what I have to do.
    Mr. Cole. There he is. We have had this concern before.
    Mr. Dicks. I went over. I figure I have had eight minutes. 
Both sides. Equity and justice.
    Mr. Cole. I appreciate that, Mr. Chairman. I am a little 
ashamed. My questions are going to be very parochial. An 
historic event.
    Mr. Dicks. Used to that in this Congress.
    Mr. Cole. Well, you know, I mean, it is pretty historic. 
You praised the previous Administration, Mr. Simpson is 
complaining about the rich getting richer, something 
Republicans never do.
    Mr. Dicks. Idaho.

           CHICKASAW NATIONAL RECREATION AREA VISITOR CENTER

    Mr. Cole. It is pretty remarkable. If I could, let me start 
out with a specific, and you may not be able to answer these, 
and I recognize that, and if you could just get back to me.
    One related to, in a sense, several years, Chickasaw 
National Recreation Area, in central Oklahoma, which is in my 
district, and they were scheduled to receive a Visitors Center, 
and that was a year, in which, I want to say this is '03 or 
'05, and we were far enough along, actually did the 
groundbreaking, I mean, so it was happening, and it was just 
part of the normal course of construction. They were on a list, 
and that year, we had a terrific wildfire outbreak, and 
appropriately, all spending was stopped, and the money was 
redirected toward those fires, and we were told at the time, 
well, do not worry, next year, then, we will go back to normal 
and it will happen. Well, we have never gotten back to normal, 
and we were later informed, for some reason I cannot 
understand, we were at the bottom of whatever the construction 
list is, so you know, it has been a matter of considerable 
chagrin, as you can imagine, to this local community. It is 
like we got started, we even have the pictures in the 
newspaper, and there is, you know, nothing there.
    So, if you could tell us why that happened and how that 
happened, and whether or not it is reversible, or what the 
schedule is, that would be enormously helpful to me.
    Mr. Wenk. I cannot, but Mr. Sheaffer can.
    Mr. Cole. Okay.
    Mr. Sheaffer. There were significant fires, Department-
wide, and what happens in those cases is money is borrowed from 
the large capital accounts that are in each Bureau of Interior 
and Agriculture's accounts. In that year, there was a 
significant amount borrowed.
    More often than not, that money is repaid to us through 
supplemental actions. In this case, it was not. And so, 
projects that were in our construction program that were 
unobligated at the time, or land acquisition programs, were 
lost, and then, would have to be subject to future 
appropriation.
    Mr. Cole. And again, just for the record, we had no 
complaints at all with the diversion of the money for the 
fires. I mean, that is clearly an appropriate thing to do in 
those circumstances. But again, we were told, you are kind of 
in a line. But anyway, thank you for the explanation. I would 
love to work with you on that.

                         USS OKLAHOMA MEMORIAL

    Second, and this is an informational question, a couple 
years ago, the USS Oklahoma was made a memorial at Pearl 
Harbor, and it, see, I have been out for the dedications, it 
seems spectacular. We love having it, it literally sits in 
front of where the Missouri sits, which sits where the Oklahoma 
sat when it was sunk on December 7, 1941.
    At the time, we had to work through some issues, and one of 
them was that the memorial itself would be difficult for 
veterans, or for people to access, as to where it was situated, 
and might affect access to the other memorials, that is, the 
Arizona Memorial and the Missouri. Could I just get some 
statistics on what the use, estimated visitation of the three 
memorials has been since the Oklahoma Memorial was put in 
place?
    Mr. Wenk. We would be happy to provide that.
    [The information follows:]

                         USS Oklahoma Memorial

    The USS Oklahoma Memorial is managed cooperatively by the staff of 
the USS Arizona Memorial, the U.S. Navy, and USS Oklahoma Memorial 
Committee. The USS Oklahoma Memorial was dedicated on December 7, 2007 
and subsequently incorporated into the World War II Valor in the 
Pacific National Monument created by Presidential Proclamation on 
December 5, 2008.
    The NPS maintains visitor use statistics for the USS Arizona 
Memorial site, which was a unit of the national park system before it 
also was incorporated into the World War II Valor in the Pacific NM. 
There were 1.4 million visits to the USS Arizona Memorial in 2008. NPS 
does not collect separate visitor statistics for the USS Oklahoma 
memorial at this time.
    Though located near the USS Arizona Memorial, the USS Missouri 
Memorial is not a part of the World War II Valor in the Pacific 
National Monument, the NPS does not manage the USS Missouri Memorial, 
and does not collect visitation statistics for the site.

                    OKLAHOMA CITY NATIONAL MEMORIAL

    Mr. Cole. That would be helpful. And last question, thank 
you, Mr. Chairman, this relates to the Oklahoma City Memorial, 
where we have a rather unique relationship with the Park 
Service. That is, the memorial itself, of the Oklahoma City 
bombing, is privately funded, and matter of fact, we had a $4 
million authorization from the Federal Government, $2 million 
of which was paid, $2 million was never appropriated. But the 
National Park Service actually runs the visitors site as they 
come in. There is a museum. It is a quite spectacular event. 
Former President Clinton actually just went on the Board, or 
venue.
    I was just curious, from your standpoint, how the 
arrangement had worked. It has been unusual, I think, for 
private entities to construct and operate, in this kind of 
partnership with the Park Service. So, has it gone well, has it 
been the right thing? Are there changes we ought to be looking 
at from one side or the other?
    Mr. Wenk. I am going to make my response, based on the fact 
that I have heard no complaints. I think that it seems to be 
working well. I have not heard any group or organization come 
forward and say that they have a concern about how it is 
operating, or the ability to provide the services that we need 
to provide to the public. So, I can check into it further, but 
I have no knowledge that it is not working.
    Mr. Cole. Well, I am not looking to create trouble. I just 
wanted to make sure. Because it has certainly worked from the 
private side. I mean, the community is enormously pleased to 
have the National Park Service there. So, just thank you for 
the job you do.
    Thank you, Mr. Chairman. I yield back.
    Mr. Dicks. Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman. It is great 
to see you again, and thank you very much for everything you 
do.

                         EVERGLADES RESTORATION

    I wanted to start my part here by asking a question about 
the Florida Everglades National Park. For a number of years, 
myself and a number of other members of this subcommittee have 
been very interested in the upgrading, restoration, of the 
Florida Everglades National Park. It is the largest subtropical 
National Park in the country. And it is also home for something 
in the neighborhood of two or three dozen endangered species, 
threatened or endangered species.
    So, it is a very important place. So, I am wondering if you 
could bring us up to date on what the situation is, with regard 
to the Everglades National Park, on the restoration, the 
activities that were engaged in to bring it back strongly, and 
just where we are on that situation.
    Mr. Wenk. I think one of the biggest issues that we have to 
deal with, and we have to make sure we are successful, is 
recreating the water flows. The blockage that exists is 
basically on the Tamiami Trail. We are in the process right now 
of contracts, and I understand the lawsuits are being resolved 
right now, in terms of allowing the construction to go forward, 
by the Corps of Engineers, that will build bridges, that will 
allow for appropriate water flow to reinvigorate, if you will, 
or restore the water flow to the Everglades, and that is the 
biggest issue. That is a project that is, as you know, of 
significant cost, and it is critical to restore the flows.
    Mr. Hinchey. Including that road, I forget the name of it, 
that runs east to west.
    Mr. Wenk. Tamiami Trail.
    Mr. Hinchey. Yeah, Tamiami Trail. And the correction on 
that, in order to strengthen and make this operation more 
effective. I do not think anything has been happening on that.
    Mr. Wenk. Well, there has been a lawsuit that, I believe, 
is in fact, if not in the final throes of resolution, it has 
been resolved, it is very close. And when that is resolved, the 
Corps of Engineers will go under contract to start construction 
on that bridge.
    Mr. Hinchey. Okay. But, I have a few minutes.
    Mr. Dicks. No. I was just going to point out, I think in a 
conversation we had, it was said that the Corps has contracting 
ability. It does not have all the money.
    Mr. Hinchey. Right.
    Mr. Dicks. So, I know you are concerned.
    Mr. Hinchey. Yes.
    Mr. Dicks. We are definitely moving ahead on this project.
    Mr. Wenk. Absolutely.
    Mr. Hinchey. The budget for this year does not provide the 
funding that is necessary to do it. There is a cutback in the 
construction, the aspects of the construction budget, which is 
focused on the needs to deal with this Everglades National 
Park.
    Mr. Wenk. Right.
    Mr. Hinchey. Why is that?
    Mr. Sheaffer. Well, decisions were made that that was a 
sufficient level to get us through, for the period of 2010, 
from now until the end of 2010.
    Mr. Hinchey. The total that had been falling back so much 
in the last several years, or what?
    Mr. Sheaffer. Well, there is actually a fair amount of 
money held by us and the Corps, to take us through that period 
of time, and the Corps is able to obligate money, even though 
they do not hold 100 percent of what is needed, counting on the 
future years funding. We have, between the two of us right now, 
for this project, $114 million. The Corps obligates money at 
the rate of about $5 million a month, so the projection at this 
point is that there will be enough money to take us into 2011, 
even to the point of, should appropriations come a bit late, we 
would have enough money to continue the project.
    Mr. Hinchey. Right, but there does not seem to be enough 
money, or frankly, I am not sure if there is even enough 
attention, and I say that, based upon experience, where there 
has not been in the past enough funding, and there has not been 
enough attention, on dealing with this project. I mean, this is 
something that is very, very important, and I think that, I 
know the chairman is deeply concerned about this, as I am, and 
other Members here, I think this is something that really needs 
more now, that we have a different set of circumstances, will 
not say how exactly, but now, we need more attention being 
focused on this. What do you think we should do?
    Mr. Wenk. We have been told that the request for funding 
this year will be sufficient.
    Mr. Hinchey. Who said that?
    Mr. Wenk. Working with the Corps of Engineers, that the 
request for funding was----
    Mr. Dicks. Well, I assume OMB was involved in this, too.
    Mr. Wenk. I would assume, I believe so as well.
    Mr. Hinchey. Was involved in the conversation.
    Mr. Wenk. Yes. That the funding that we have will allow us 
to move forward, and then you will see additional requests for 
funding, between the Park Service and the Corps, to finish the 
project.
    Mr. Hinchey. Okay.
    Mr. Dicks. There was a legal issue that we put language in 
for, that helped deal with this, which was necessary. Or it 
would have been stopped. But this is a very high priority for 
me, to make this thing happen.
    Mr. Wenk. I know it is a high priority for you, and it is 
for me, and it is for others.
    Mr. Dicks. For our country, I hope.
    Mr. Simpson. It is for us also.
    Mr. Wenk. But it has also been very frustrating, even 
though it has been a high priority for us, it has been 
frustrating, in the fact that we have not seen the kind of 
progress on this project that really needed to be done. And I 
am just enormously hopeful that in the present set of 
circumstances, we are going to see more positive progress being 
made.
    Mr. Dicks. I think we will make progress, and we will 
start, and we are going to build this bridge.
    Mr. Hinchey. Yeah.
    Mr. Dicks. And that is the first thing that has to happen.
    Mr. Hinchey. Right.
    Mr. Simpson. Mr. Chairman, if the gentleman would yield for 
just a second.
    Mr. Hinchey. Sure.
    Mr. Simpson. Just the other day, we had a hearing in the 
Energy and Water Subcommittee with the Army Corps of Engineers, 
and I asked them about this specific project, and they 
obviously supported it being done, said there was a carryover 
balance in their budget to fund it, and they thought the 
funding was sufficient, although they could not talk about it 
specifically, because they did not have their budget out.
    Mr. Hinchey. Carryover funding in their budget is there, 
because----
    Mr. Simpson. Right.
    Mr. Hinchey [continuing]. The past budgets have not been 
used intelligently, and in the ways in which they were 
authorized to be used. That is the problem.
    Mr. Simpson. But I will tell you that they are aware that 
we are very concerned about it, and I do not think they 
expected that question in the Energy and Water hearing.
    Mr. Dicks. It is true that the Interior Department has now 
got the lead on this, right?
    Mr. Sheaffer. The funding lead, yes.
    Mr. Wenk. The funding lead, yes.
    Mr. Dicks. I know you love that.
    Mr. Sheaffer. Yes, we embrace that.
    Mr. Hinchey. Well, I would hope that you would be, you 
know, paying attention to this, more so than the attention that 
it has gotten in the past. We are going to be paying attention 
to it. I am hoping that maybe some of us will have an 
opportunity at the time, to go down there and actually see what 
is happening----
    Mr. Dicks. Got to do that.
    Mr. Hinchey [continuing]. And how it is being handled. I 
think that is very important that we should do that.
    Mr. Wenk. We would welcome that.
    Mr. Hinchey. Yeah. Okay. My time is up.
    Mr. Dicks. Mr. LaTourette.
    Mr. LaTourette. Well, I actually think Mr. Calvert was here 
first.
    Mr. Calvert. We had a discussion about who came in first.
    Mr. Dicks. Who came in first. Okay, Mr. Calvert. We love 
Mr. Calvert.
    Mr. LaTourette. I have to apologize to my members, because 
when we started, I said my members do not wake up until 9:30.
    Mr. Dicks. And they both came in at ten after.
    Mr. Calvert. Well, I apologize, Mr. Chairman. We had the 
California Wine folks up last night, so----

                          CENTENNIAL CHALLENGE

    Mr. Dicks. Well, I hope you had a wonderful evening.
    Mr. Calvert. Oh, it was great. It was fabulous.
    First, I want to start by commending the Park Service on 
the upcoming centennial. One initiative that was enacted by the 
previous Administration and continued by the current one, 
though by a different name, is the Centennial Challenge which, 
as you know, allows projects in specific parks to raise monies 
through private companies, foundations, et cetera, and match 
with federal dollars.
    However, in these economic times I am kind of curious, as 
this money tightens up or dries up, have these partnership 
grants been impacted? Have you had to slow down some of these 
projects, cancel any of these projects? What is going on?
    Mr. Wenk. In speaking of the past grants that were offered 
or made available in 2008, one of the requirements was that the 
money had to be 100 percent available, in order for them to 
receive the matching funds of the Federal Government. So, there 
is no slowdown on those.
    We also, at the time, had a commitment, a large commitment 
for funds for various projects from around the country. I think 
with this budget, we will have to reinvigorate, or go back to 
those groups and organizations, to make sure that the monies 
are still there, as we select the projects that we would use in 
this budget to match this $25 million that we have. But we 
anticipate that the money will be there, and partners are 
excited about this opportunity, once again.
    Mr. Calvert. Okay. I----
    Mr. Sheaffer. If I----
    Mr. Calvert. Yes, sir.
    Mr. Sheaffer. I think one thing we may have seen here in 
the most recent time, and I do not know whether you have an 
additional question in this regard or not we actually had a 
call for projects this year, in '09, in response to money that 
was available to us under the continuing resolution.
    What we found was, we had two partners in this, that of 
course, there is a private sector part, and there is often the 
state and local governments. We saw some indication that the 
state and local governments were not as interested in 
partnering with us as they had been, in the call that we made 
in the course of Fiscal Year 2008, so that could be an 
indication of things that we may face in the future. But the 
partners, the private sector, the nonprofits, tended to be just 
as vigorous.

                 CONSTRUCTION AND DEFERRED MAINTENANCE

    Mr. Calvert. Okay. I also noticed that some of the line 
items in your 2010 budget show a reduction in the requested 
amount over '09, in part, because funds for these projects have 
been appropriated through the recent stimulus bill, especially 
in the construction accounts.
    These funds may help the '10 budget appear leaner on paper, 
but they are one time appropriations, are you counting on those 
kind of appropriations in the future? How are you dealing with 
that, because I would assume that once funds have been taken 
away from an account, they also become much more difficult to 
get back. With over $9 billion, in deferred maintenance in the 
National Park Service, and a laundry list of projects on the 
Park Service's wish list for the Centennial in 2016, do you 
believe it is prudent to utilize this budgeting activity even 
though it may negatively impact program funding levels over the 
long term?
    Mr. Wenk. One of the things we have here is we have a 
capacity issue for us. With the requirement that we need to get 
the $750 million obligated prior to September 30 of 2010, we 
will have a considerable workload that we need to accomplish 
within the year for which this budget is going forward.
    We do believe that we will need to go back to levels that, 
in order to make significant inroads into the backlog that we 
have of $9 billion, we need to increase that number back to 
historic levels. And so, we would be working to do that.
    Mr. Calvert. Okay. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Chairman. And 
thank you for your testimony, and thanks for the courtesy call 
the other day.

                         EVERGLADES RESTORATION

    I am a new member of this subcommittee. What was the nature 
of the lawsuit that was holding things up in the Everglades, 
that Mr. Hinchey was asking you about, just so I know what it 
was?
    Mr. Wenk. I may not be able to tell you that right--it was 
a lawsuit by the Miccosukee Indian tribe, for alleged National 
Environmental Policy Act deficiencies with the environmental 
assessment on the construction of the bridge.
    Mr. LaTourette. And those things have been cleared away.
    Mr. Wenk. Well, the Corps is currently filing motions with 
the court for dismissal of the lawsuit, in order to comply with 
the Congressional directive that was provided.

                            LAND ACQUISITION

    Mr. LaTourette. Okay. Thank you. The budget request comes 
in, for land acquisition, at $98 million. Could you briefly 
describe for the subcommittee what the process that the Service 
uses to determine which land is going to be acquired during the 
Fiscal Year, and whether or not the individual parks play a 
role and have a seat at the table, I guess, when those 
decisions are being made?
    Mr. Wenk. Do you want this one?
    Mr. Sheaffer. Sure.
    Mr. Wenk. I will let Mr. Sheaffer answer it.
    Mr. Sheaffer. Almost all of our programs, our capital 
programs, and including land acquisition, are developed by 
first asking the individual superintendents what they need, and 
having them assign priorities, coming through them to the 
regional office where a second layer of priorities is added, 
then to the Washington office. So, the superintendents at the 
park level play a prominent role, particularly in land 
acquisition, in determining the need. The needs in land 
acquisition tend to focus on degree of threat, immediate degree 
of need, willing sellers, of course, but we often find, now, 
with the somewhat limited land acquisition budget, that the 
threat of development if the land is not purchased becomes the 
dominant factor in priority setting.
    Mr. LaTourette. Is there an objective scoring system, in 
other words, the projects that score 90, if there is no 
emergencies going on, win, or is it subject to, based upon 
the----
    Mr. Sheaffer. It is somewhat both.

                             HERITAGE AREAS

    Mr. LaTourette. One of the concerns in the budget request 
is the Heritage Areas, and I think Mr. Olver mentioned some new 
areas being established. I think the Heritage Areas are now 49, 
and although the entire budget request is up $171 million, it 
looks like, and you can correct me if I am wrong, the Heritage 
Areas, which are valuable additions to the parks, I mean, 
really extend the reach of the National Park System, are sort 
of flat funded at $16 million.
    Not only with the new areas that Mr. Olver is talking 
about, but with the old areas that are undergoing evaluations, 
and have to demonstrate certain levels of accomplishment to 
continue to be favorably viewed. Could you just talk about how 
the determination was made, while there is a decent increase in 
the overall budget, that the Heritage Areas are flat funded for 
this Fiscal Year?
    Mr. Sheaffer. Well, it is true, it is flat, the budget is 
relatively flat for Heritage Areas from the money provided. I 
would have to say that it is up considerably from prior year 
requests for Heritage Areas. So, there is an interest within 
the Administration, I think, to provide the necessary 
resources, and the recognition that the expansion of this 
program requires some additional resources.
    There are a couple of things that are relevant here, in 
terms of the Heritage Areas. One is the Park Service and the 
Administration have been taking a position for some time there 
needs to be some generic legislation, some overriding 
legislation, to guide the management and oversight of these 
Heritage Areas. They each have their own legislation, and they 
are similar, but still, in some cases, very different. And it 
makes it very difficult to manage 49 areas, under those 
circumstances. I certainly think that, particularly with the 
addition of the new areas, taking us to 49 this year, there has 
to be some additional resources provided.
    What we have been doing the last couple of years, and it 
has been in collaboration with the committees, is allocating 
the monies that we do have by a formula, a fairly fundamental 
formula, that provides them with some money to support their 
infrastructure, and it does not go much beyond that at this 
point, particularly with that number of areas. The more 
recently authorized areas, that have yet to develop a plan, 
have been getting around $150,000, and the areas beyond that 
have been getting in the $300,000 to $400,000 range, based on 
this formula.
    Mr. Dicks. Would the gentleman yield just briefly?
    Mr. LaTourette. Happy to.
    Mr. Dicks. What about Preserve America? How does this fit? 
The Preserve America Program.
    Mr. Sheaffer. With the Heritage Areas?
    Mr. Dicks. Yeah.
    Mr. Sheaffer. Because they do, in some cases, they do 
similar things.
    Mr. Dicks. Right.
    Mr. Sheaffer. Preserve America was computed separately, as 
a separate entity.
    Mr. Dicks. But they do a lot of Heritage Areas, as I 
understand it.
    Mr. Sheaffer. They do. They do. I do not want----
    Mr. Dicks. So, they are two separate programs. There is 
another program that does Heritage Areas. I just wanted to 
point that out to you.
    Mr. Sheaffer. There is overlap in goal, for sure.
    Mr. Dicks. There is $3 million or so----
    Mr. Sheaffer. $3.2 million in our----
    Mr. Dicks. We zeroed it last year, but tried to cut 
something out, you know.
    Mr. Sheaffer. And that----
    Mr. Dicks. Now, we are getting a lot of heat for doing 
that.
    Mr. Sheaffer. Well, that $3.2 million that was zeroed out, 
there were actually announcements made for that $3.2 million 
worth of projects, and the reason that it is in this request 
here is to support that $3.2 million worth of projects.
    Mr. Dicks. It is to finish off the ones that were done 
before.
    Mr. Sheaffer. That is correct.
    Mr. Dicks. All right. Thank you.
    Mr. LaTourette. I thank the chairman for his clarification, 
and I thank you for your answer. Just two quick--has the 
Service proposed national legislation for the way that we 
should treat all Heritage Areas?
    Mr. Sheaffer. Yes.
    Mr. LaTourette. Get a copy of that to my office, so I can 
review it.
    Mr. Sheaffer. By all means.

                   GREAT LAKES RESTORATION INITIATIVE

    Mr. LaTourette. And the last question, when we had the 
Secretary yesterday, I gave him great credit, and President 
Obama great credit, for the $475 million Great Lakes 
Restoration Initiative, and it appears that $10.5 million, I do 
not have my notes in front of me from yesterday, but $10.5 
million is going to the Park Service. Have you all figured out 
what you are going to do with that money yet?
    Mr. Sheaffer. I believe they do have some specifics on that 
available. We could provide you those.
    Mr. LaTourette. I would appreciate that.
    Mr. Sheaffer. We would be happy to.
    Mr. LaTourette. Thank you so much. Thank you, Mr. Chairman.
    [The information follows:]

                   Great Lakes Restoration Initiative

    The Great Lakes Restoration Initiative is a $475.0 million proposal 
included in the 2010 Environmental Protection Agency budget. The 
initiative identifies programs and projects strategically chosen to 
target the most significant problems in the Great Lakes ecosystem and 
to demonstrate measureable results. The EPA would utilize a portion of 
the funding, and disperse nearly 60 percent of the requested funding to 
other federal agencies. The 2010 budget proposes $10.5 million for NPS 
to cooperate with the U.S. Coast Guard to identify sources of 
contamination and to remediate and restore affected areas in multiple 
parks, with a focus on sites of previous light station activity, dumps, 
and fuel spills. NPS will also monitor mercury, lead, DDT, and other 
contaminants in six national parks on the Great Lakes.

                         WILD AND SCENIC RIVERS

    Mr. Dicks. Tell us how you handle scenic rivers. What is, 
you know, wild and scenic rivers? That is part of your 
responsibility. Is that correct?
    Mr. Wenk. It is part of our responsibility. We, how we 
handle them. I am not sure----
    Mr. Dicks. Well, we had the legislation in 1968. Congress 
designates them. The Secretary can designate them. If they are 
on federal lands, I assume then whoever has the federal lands 
has some management responsibility. I am just curious, because 
I had not really thought about the impact that this is under 
the Park Service authority.
    Mr. Wenk. Well, I believe a lot of this program is handled 
in partnership with local communities. We work with those local 
communities, government entities, advocacy groups to develop 
management plans, and to put protections into place, and to do 
the things that we need to do.
    The total in the budget this year for that is $1.74 
million. I am looking at the numbers, it looks like about 12 
different partnerships we have with wild and scenic rivers.
    Mr. Dicks. And there were some increases in wild and scenic 
rivers, I believe, in this omnibus bill that was enacted. So, 
you have more to worry about.
    Mr. Wenk. Oh, in terms of more wild and scenic rivers. Yes.

                       PLAN FOR THE NATIONAL MALL

    Mr. Dicks. Mr. Simpson and I had a chance to go out to the 
Mall. We looked at the Jefferson and Lincoln Memorials and many 
other things. Tell us where we are on the Mall.
    Mr. Wenk. Well, the Mall plan is something that is going on 
right now, and we are in the public comment and development of 
final alternatives for the Mall plan. We do have, under the 
American Recovery and Reinvestment Act, three significant 
projects in the monies that were appropriated to the National 
Park Service.
    That includes repairs and improvements to the Reflecting 
Pool between the Washington and the Lincoln Memorial, and 
includes the World War I Memorial, and it----
    Mr. Sheaffer. Jefferson.
    Mr. Wenk. Excuse me, and the Jefferson Sea Wall, repairs to 
the Jefferson Sea Wall.
    Mr. Dicks. That definitely needs work.
    Mr. Wenk. Yes, it does. I think that is about an $18 
million estimated cost on that project. The total for all those 
projects, I believe, is about $58 million. And those are all in 
the Recovery Act, and I think there is public works----
    Mr. Wenk. That is being done by Federal Highways, in terms 
of some roads improvements, but I cannot tell you specifically 
what those are, in and around the Mall.
    Mr. Dicks. And I know the private sector is out trying to 
raise money, a very good group of people, who I have met with 
several times, and I am impressed with their sincerity in their 
effort. How long do you think it is going to take us to do 
this? Is this going to be a ten year deal, twenty year?
    Mr. Wenk. I do not know. It is certainly a multiyear 
effort. The Trust for the National Mall is a primary partner 
that we are working with diligently to make some of these, to 
look at improvements, and they are helping to fund improvements 
across the Mall. The turf management issues on the Mall are 
extreme issues. We have work that we need to do, in terms of 
the security around the Jefferson Memorial. So, we have a 
number of projects that we need to get into the pipeline, we 
need to work actively to fund, to make the improvements. It is 
a high emphasis of the Secretary. It is a high emphasis of 
ours, to ensure that the mall creates the kind of presence that 
we believe is appropriate for, if you will, America's front 
yard.
    Mr. Dicks. For the $58 million you talked about for these 
three projects, is that enough to complete those three 
projects?
    Mr. Wenk. Yes.
    Mr. Dicks. Or will they take additional funding?
    Mr. Wenk. Well, the project on the Sea Wall, especially----
    Mr. Dicks. The Sea Wall probably would, I would think.
    Mr. Wenk. That is, if you will, phase one.
    Mr. Dicks. Right.
    Mr. Wenk. That will be a multiphase project and cost tens 
of millions of dollars to do the Sea Wall.
    Mr. Sheaffer. That is really only the Sea Wall right in 
front of the Memorial itself. It does not take care of the 
balance of the Sea Wall around the tidal basin.
    Mr. Dicks. During the briefing we received while on the 
Mall tour, we were told about additional projects needed at 
these memorials, including the security upgrades at the 
Jefferson Memorial, and installation of security cameras at 
Lincoln.
    Your 2010 budget does not request money for either project. 
What is your timeframe for completing the work, and when can we 
expect a funding request?
    Mr. Wenk. One of the major issues with the Jefferson 
Memorial is the design issues that we need to work through all 
the approving bodies, whether it be the National Capitol 
Planning Commission or the Commission on Fine Arts. I believe 
we are in active discussions. We have not been able to come to 
conclusions on those discussions, on the appropriate design 
solution to the security issues at the Jefferson Memorial.
    I know there has been work that has been done on some of 
the, maybe not those projects specifically, but we are looking, 
in a systematic manner, at upgrading some of the security 
equipment and monitoring of that security equipment with the 
U.S. Park Police.

                              CONSTRUCTION

    Mr. Dicks. I note there are three projects in the 
construction budget that were not included in the five year 
programs provided in previous budgets. The projects include 
$16.8 million at the Grand Canyon, which we discussed a little 
bit earlier, and $13 million at Grand Teton, both for employee 
housing, and $10.5 million for a visitor information center at 
Mesa Verde.
    Why are these projects coming up now?
    Mr. Wenk. A very critical need. We have done everything we 
can at Grand Canyon. I will start with Grand Canyon, in terms 
of eliminating the need for employee housing within the park 
area.
    After looking at all of the options available, after 
actually having offices and employees live down in the 
Flagstaff area, there still remains a critical need for 
employee housing at----
    Mr. Dicks. I agree with that. I have been there.
    Mr. Wenk [continuing]. In Grand Canyon. That is what that 
is about. Grand Teton----
    Mr. Dicks. But you could not, if you could not use your----
    Mr. Wenk. We are not----
    Mr. Dicks [continuing]. Demo money.
    Mr. Wenk. Correct, we are not, by the rules, if you will--
--
    Mr. Dicks. The rules.
    Mr. Wenk [continuing]. Of the fee demo money, we are not 
able, we were not able to use fee demo money for that housing. 
And the same is true for Grand Teton, and the housing costs for 
seasonal housing, employee housing in Grand Teton, outstrips 
our ability to pay or to retain employees in that area, and 
this housing also is for that purpose.
    The Mesa Verde project that you indicated is a project that 
started out as a partnership project. We had, working very 
closely with, and I am sorry, I cannot remember the specific 
names, but the Friends group----
    Mr. Dicks. Put it in the record when you do.
    [The information follows:]

                        Mesa Verde National Park

    The name of the National Park Service's partner organization at 
Mesa Verde National Park is the Mesa Verde Foundation (MVF).

    Mr. Wenk. For Mesa Verde, it is a very important project. 
It is a necessary project. This Friends group has, in fact, 
purchased and donated lands. We had, in our budget 5-year plan 
previously, the Curatorial Facility. This visitor center was 
something that they had hoped to be able to accomplish through 
fundraising. They have indicated that they will not be able to 
do that, but we believe it is an important component of this 
whole experience. But they will be raising funds to do some 
other things in the park.
    Mr. Dicks. Mr. Simpson.
    Mr. Simpson. I want to follow up just a little bit on what 
Mr. Calvert was talking about, and that is, and I will give you 
this example. One of the concerns, and this is not a criticism 
of the stimulus package, but one of the concerns that I had 
with the stimulus package is, in the Department of Energy, as 
an example, environmental management, we have worked for years 
to try to get a baseline up that is sufficient to do the 
cleanup at these nuclear sites.
    Our fear is that all of a sudden we throw in a bunch of 
stimulus money, and the baseline goes down because of the 
stimulus money, and in fact, they got $6 billion in the 
stimulus funding for cleanup, and in this year's budget 
proposal, the baseline is down substantially. And the word, the 
actual document says because of the stimulus funding, now, we 
have got to work to get that baseline back up. And that is the 
same concern, I think, that Mr. Calvert expressed.

                          DEFERRED MAINTENANCE

    What is your backlog maintenance, and what do you think, 
and we talked the other day about three different accounts that 
are used to address that, and what would you say an adequate 
level of those three accounts should be, in order to, and you 
know, we are talking theoretical in an ideal world here, what 
should it be to actually address the backlog maintenance?
    Mr. Wenk. I will answer the first part of the question, and 
perhaps look to Mr. Sheaffer for help on the rest of that.
    The identified deferred maintenance backlog of the National 
Park Service is about $9 billion, just over $9 billion. We have 
broken that down. Of that $9 billion, about half of that is 
roads, and half of it is building structures, monuments, some 
of the other facilities we have in the parks.
    Of that half, if you will, we have also broken it down 
further to critical systems deferred maintenance. The $9 
billion, that includes some buildings that frankly, we would 
not fix. The cost-benefit of fixing those buildings, and the 
use of buildings, the necessity of those buildings, we would 
probably tear them out. And I think you see some monies in the 
Recovery Act and in our budget, to actually remove some of 
those buildings we do not need.
    But the critical systems that we are looking at, we need to 
do those things that are most critical to preserve structures, 
and that is where we would concentrate our efforts. The line 
item construction program, for example, this year, is at about 
$117 million. Previous years, it has been at $220 million or 
$215 million or $225 million.
    The repair rehab program is, Bruce, if you can give some 
exact numbers, it is about $100 million. We believe, in order 
to bite into that number, it needs to be increased. We have 
about a 2 percent a year depreciation on assets. And when you 
have the kind of asset base that we have, even to keep up with 
that 2 percent a year depreciation, you need a significant 
investment. And then, to cut into that $9 billion a year, you 
need to obviously increase that even more. Specific numbers, I 
do not know that I have right now, but we did not get a $9 
billion backlog because we had sufficient funds to deal with 
it.

                           FLIGHT 93 MEMORIAL

    Mr. Simpson. Okay. Just one last question. Could you tell 
me where we are on the Flight 93 Memorial, and what is going on 
with that?
    Mr. Wenk. I can. The critical piece of land to the Flight 
93 was owned by the Svonavecs. It includes the impact site. On 
January 16 of this year, we were a third party to an agreement 
between the families of Flight 93 and the Svonavecs that 
basically indicated that we agreed that they were going to sell 
the land to the Federal Government, but we did not agree on 
what the price was going to be. So, we agreed that we would go 
through a condemnation process, based on the authority that was 
provided.
    We have also entered in, now, with the Department of 
Justice, to do a condemnation on the other seven parcels of 
land that we need, because we have to purchase those parcels of 
land, and once we enter into the condemnation process on those, 
we can actually begin to work on phase one of the Memorial, to 
have phase one of the Memorial completed by September 11 of 
2011. And so, we are in the process of working with the 
Department of Justice.
    Mr. Simpson. How many total acres are we talking about?
    Mr. Wenk. Total acres, about 1,500, I think it is 1,400 
something, for all parcels of land. And the families had 
negotiated and purchased a number of those, that we have now 
purchased from them, and we are going through the condemnation 
process on the remaining tracts of land.
    Mr. Simpson. Thank you.
    Mr. Dicks. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Wenk, nice to see you.

                       UNITED STATES PARK POLICE

    Mr. Wenk. Good to see you, sir.
    Mr. Moran. If you would give us an update on the additional 
responsibilities that the Park Police have been given, with 
regard to the national icons, you know, the monuments, the 
memorials. That had exacted a particular burden on the 
allocation of time and resources. Maybe you could address that 
for a moment.
    Mr. Wenk. The U.S. Park Police, post 9/11, had a 
requirement for increased security around the national icons, 
not only here in Washington, D.C., that are expressed as the 
Lincoln, the Washington, and the Jefferson Memorials, but also, 
the Statue of Liberty in New York.
    The work that they have done has required a higher level of 
personnel to be dedicated to each one of those icons, 
screening, operations to be put in place, certainly at the 
Statue of Liberty, and at the Washington Monument, and we have 
actually reconfigured now, to a greater extent, the patrol 
areas, and reconfigured the organization of the U.S. Park 
Police to make the icon security all report to one person, so 
we can have a better coordinated effort, in order to assure the 
protection of those icons throughout the system.
    Mr. Moran. Good.
    Mr. Dicks. If you would yield. You have hired additional 
people, you have got a new chief.
    Mr. Wenk. Yes. Last year, you may recall the Office of the 
Inspector General came out with a report on the U.S. Park 
Police that contained twenty recommendations. A lot of those 
recommendations were things that were actually quite easy to 
fix, and we were able to deal with the equipment issues for the 
U.S. Park Police, the training issues for the U.S. Park Police, 
and we are currently addressing some of the leadership and 
command structure issues.
    Chief Lauro was hired right at the first of the year, and 
he was on duty as the Chief of the U.S. Park Police just in 
time for the inauguration. However, he had been the Acting 
Chief of Police since March 1, I believe, of 2008. He is 
currently in the process of filling out his command staff. He 
has an announcement on the street, and expects to fill the 
Assistant Chief position very soon.
    For the first time in over five years, we have had the 
sergeant and lieutenants' exams. We have now made promotions 
within the U.S. Park Police, and that I think has gone a long 
ways to increase the morale of the U.S. Park Police. We have 
just hired a new captain, or excuse me, new major, I believe, 
up in New York, to fill a post that was recently vacated, when 
that major came down to Washington.
    So, I think we have got the right things in place. We have 
a situation where we have paid very close attention as to, in 
fact, restore the force, and to provide the administrative 
staff. In the budget this year, you will see $5 million total. 
$4 million of that is to get the officer corps back up to the 
level of 630, which we consider a full complement of officers, 
and the other $1 million of that is to build the administrative 
capacity to support the U.S. Park Police.
    Mr. Dicks. Mr. Moran.
    Mr. Moran. Good. Thank you. We have a good relationship 
with Mr. Sheaffer, Ms. Haze, you have very fine people working 
for you, and I know one of the issues that you constantly deal 
with is kind of the different cultures, between the urban 
perspective and the more rural perspective, and we, I know we 
have clashes. We have clashes sometimes within this 
subcommittee, and we appreciate your trying to achieve that 
balance.

               URBAN PARK AND RECREATION RECOVERY PROGRAM

    But let me discuss, for a moment, the urban issues, because 
we have National Parks in urban areas that are just overrun 
with people. It is important to protect the public land that is 
kind of mammoth in scope, where it is available, but in urban 
cities, we are desperate for open space, and you know, along 
the Parkway, for example, in Northern Virginia, on a weekend, 
if it is a nice weekend, like it was last weekend, you can 
hardly move. I mean, it is more like a shopping mall, and it is 
almost dangerous, with the cyclists and the joggers and the 
walkers and everybody else trying to enjoy it. It is a credit 
to the Park Service.
    But it does seem that, over the long run, we need some 
vision of expanding open space in urban areas. The states and 
localities are trying to do it, but they cannot really afford 
it, and a lot of the open space is invariably going for 
development. There was an Urban Park Fund, and I do not think 
you have any plans in your budget to develop that, but I think 
it would be good if you could, to help out states and 
localities, and to provide the kind of dwindling open space 
that urban dwellers are just in desperate need of.
    And maybe you could address that for a moment, Mr. Wenk.
    Mr. Wenk. I am not as familiar with that, perhaps, as I 
should be. I am going to ask Mr. Sheaffer, if he could, to 
address that.
    Mr. Sheaffer. With regard to the Urban Park and Recreation, 
the UPARR Program, we last got an appropriation for that, I 
believe in 2002.
    Mr. Dicks. We have 2004 here. You had $300,000 in 2000.
    Mr. Sheaffer. $300,000, I show a small amount.
    Mr. Dicks. 2002 was the last real appropriation.
    Mr. Moran. Well, $300,000, I mean, that gets lost.
    Mr. Sheaffer. That is why I ignored those years, to be 
honest with you.
    Mr. Dicks. That was to close out the program.
    Mr. Sheaffer. I think it was.
    Mr. Dicks. I am with you on this, by the way.
    Mr. Sheaffer. Thank you. Thank you. And the program was 
received very well. It was to fill a gap in the Land and Water 
Conservation Fund, frankly where it was not addressing the kind 
of recreational needs that the cities needed, as opposed to the 
suburbs and the other urban areas.
    So, while I think it is a favored program, and one that 
clearly we have embraced over time, it has been a funding 
issue, as far as being able to allocate the resources to it, 
so----
    Mr. Moran. But it is difficult for us to provide the money, 
unless there is receptivity on the part of the executive branch 
to use it, to want it. So, let me put a plug in. It is nice to, 
and I am not surprised that the chairman is also supportive of 
the need to consider the Urban Park Fund, as our population 
grows, and the interest in getting some open space, some 
breathing air, increases. I do think the Park Service could 
play a vital role, and this might be the vehicle where you 
could do that.
    Mr. Dicks. Just for the sake of discussion, we have Rock 
Creek Park, but that is a National Park in itself. So, is that 
considered an urban park?
    Mr. Wenk. Absolutely.
    Mr. Sheaffer. Yes.
    Mr. Dicks. So there are urban parks, down in San Francisco.
    Mr. Wenk. Gateway.
    Mr. Dicks. So, there are a lot of urban parks. What would 
be unique about this fund? To create new ones? This would, or 
just to maintain the ones we already have?
    Mr. Moran. Now, this fund, this UPARR fund, went to cities, 
directly to cities, on a competitive basis, to provide things 
like indoor recreational opportunities that were not there. It 
was famous, at one point, for midnight basketball programs and 
the like.
    Mr. Dicks. Well, this Administration might like that.
    Mr. Wenk. It is possible.
    Mr. Moran. No, no, seriously. I mean Anacostia, those kids 
have nowhere to go, you know, and----
    Mr. Dicks. The Washington Tennis and Education Foundation 
is building a new facility.
    Mr. Moran. That is Anacostia's hope.
    Mr. Dicks. They could use something else.
    Mr. Moran. Yeah, oh no, it would help.
    Mr. Dicks. Yeah. Exactly.
    Mr. Moran. Absolutely. And there is a first tee program 
over there, too.
    Mr. Dicks. They need that, too.
    Mr. Moran. Well, they need it all, but I do think that it 
is consistent with what the Administration sees as meeting some 
of the needs of urban areas, and I know there is a real need. 
And you know, it is not a bad thing for there to be as much 
support of the Park Service on the part of urban legislators as 
well as more rural legislators. It is achieving that balance. 
So, I guess I put the plug in for that.
    Mr. Dicks. Stateside land and water conservation. Now, that 
goes back to the states.
    Mr. Sheaffer. Right.
    Mr. Dicks. And then they do recreation projects----
    Mr. Sheaffer. Outdoor recreation projects.
    Mr. Dicks. Outdoor recreation.
    Mr. Sheaffer. Outdoor recreation, that is correct.
    Mr. Dicks. But still, a little different from urban----
    Mr. Sheaffer. The needs are very different in most cases, 
that is right.
    Mr. Moran. I can see a little compromise with off-road 
vehicles versus, you know, that kind of stuff. Thank you, Mr. 
Chairman.
    Mr. Dicks. Right. Mr. Cole.
    Mr. Cole. Thank you very much, Mr. Chairman. Just a couple 
of points for the record, and then, just one question.

                      CIVIL WAR BATTLEFIELD SITES

    I just want to thank you for the professionalism of your 
testimony. It is just really wonderful, and it is a great 
reflection on the people that you lead. We all go to National 
Parks for different reasons. I probably spend most of mine at 
historic sites, as an old historian, and battlefields, and 
anything like that. And it always amazes me, just the quality 
of the people that are there. How much they know about the 
sites, how enthusiastic they are, you know, how they will seek 
you out, if there is a tour coming up. It is just wonderful. 
And thank you, just thanks for the terrific job you do.
    I do have a concern, or not a concern, I would just like to 
be educated a little bit, on the size of your budget to deal 
with encroachment issues. I mean, obviously, we have a lot of 
Civil War battle sites here in Northern Virginia, for instance, 
where there is different encroachment and pressure on there. I 
would like to know what is the scope of the budget capacity 
that you have to deal with those? I know you have alliances 
with private groups, to try to work on these areas with you, 
which is wonderful.
    And just tell us a little bit about that, and do you have 
what you need, given the size of the problem, particularly in 
the coastal areas, where we have got large populations, lots of 
development?
    Mr. Wenk. You know, one of the programs that we have, is we 
have the Civil War Battlefield Fund, which is about a $4 
million fund, that allows us to deal with some of those issues.
    You know, depending on the issue, the year, the time, 
depends on whether or not that is adequate on an annual basis. 
But it is something, certainly, we have the capacity to deal 
with issues as they come up.
    Mr. Dicks. This is, if you would yield just for a second. 
This is an issue that last year, some money came back, because 
they did not obligate it, and there is a number of Members that 
have talked to me about this. They are very concerned that they 
are going to miss an opportunity on some of these real critical 
Civil War battlefields.
    Can you tell us what happened there?
    Mr. Sheaffer. The authorization for the program lapsed, and 
the authorization was very clear as to what happened with 
unobligated balances on that day, and there was no legal 
recourse. The money was unobligated at the time, and we had to 
turn it back to the Treasury.
    Mr. Dicks. And--if you had had your way. But the money, 
they did not get it done.
    Mr. Sheaffer. But it has since been reauthorized.
    Mr. Dicks. Okay.
    Mr. Sheaffer. And this $4 million will reinvigorate the 
program.
    Mr. Dicks. All right. Mr. Cole.
    Mr. Cole. Well, just along those lines, please--I think 
there really is a very strong bipartisan constituency for this 
sort of thing, and you know, again, I appreciate the work, when 
you lose these sites, you lose them forever. And you really 
can, you know, lose something quite remarkable, and that is 
part of, as much as the natural world that you work with, and 
that is extraordinarily important, maintaining the historical 
integrity of these sites, I think, is critically important for 
the country as well.
    So, just thanks for the work you do. I mean, it is 
remarkably impressive, and you go a long way on not very many 
dollars, and we appreciate it. Thank you.
    Mr. Wenk. We have a great group of people. Thank you.
    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Olver.

              URBAN PARKS AND RECREATION RECOVERY PROGRAM

    Mr. Olver. Thank you, Mr. Chairman. I do not know where to 
begin at this point--things raised. A few comments on the UPARR 
Program.
    I think we ought to be doing half of a billion per year in 
a 50/50 program, competitive, but where there is really a 
serious match on the part of the urban areas into it. Most of 
our, what we call rural National Parks are out there in long 
distances, and they are drawing from all over the country. So, 
it is people from all over who are using them. And so, it is 
appropriate that those should be created and operated on a 
national basis.
    In the real urban areas, it seems to me perfectly 
reasonable that there should be some match coming through in 
that, because there are not really going to be people from long 
distances coming there. It is recreational areas within.
    Eleanor Holmes Norton and I cosponsored legislation about 
ten years ago, and the intent there was clearly the inner city 
and Anacostia and such. I had an interest in smaller cities, 
which really did not have much hope of getting parks, really, 
downtown, and so on. They did not have the money.
    And I have a number of smaller cities, and so, we were 
looking for a serious UPARR program. That is why I am thinking 
it ought to be something that ought to be quite large and 
organized, and I am wondering, from the interest that has been 
shown, I think everybody has some interest in this UPARR kind 
of an issue. We all have cities that have not had money to 
burn, in order to be able to spend on this sort of thing.
    And there might be a way of reviving an authorization 
process that actually creates a program of that sort. Secondly, 
I want to----
    Mr. Dicks. I think, if you would yield just a second, I 
think that is the way to do this. I mean, if we are going to 
redo it, then I think we ought to redo it, and go back to the 
authorizers, and get a much more substantial program.
    Mr. Olver. Well, yeah, but why do not we, from hearing, we 
are hearing this sort of thing. We all have an interest. Why 
would not a bunch of us, as members of this subcommittee, help 
to create that authorization?
    Mr. Dicks. I would be willing to work with you on that.
    Mr. Simpson. Absolutely. Jeff was a cosponsor.
    Mr. Dicks. Yeah, but we gave up on it about eight years 
ago.
    Mr. Olver. Anyway.
    Mr. Dicks. It is a new day.

                        NATIONAL HERITAGE AREAS

    Mr. Olver. On the Heritage Area situation, do you have a 
chart somewhere on a wall that shows these 49 areas? There are 
several of them newer.
    Mr. Wenk. We do.
    Mr. Olver. That shows when they were authorized, when they 
were, how much funding they got. Originally----
    Mr. Wenk. Nine additional.
    Mr. Olver. Originally, most of--yeah, but this doesn't give 
anywhere nearly enough information for me. We do have that 
chart.
    Mr. Wenk. We do.
    Mr. Olver. See, most of these have been authorized with $1 
million per year for ten years. None of them, or virtually none 
of them, have gotten the full amount at any time along the way. 
But eventually, at the same time, none of them ever come off 
the payroll, so to speak. And some of them that have had that 
whole $10 million, that that was supposed to be the way to get 
them up and running, so that they could get up the momentum, 
and continue that without additional federal money in there, 
they are still getting money, and our newer ones, as they come 
up, are getting down, as you pointed out, to $150,000 a year at 
the beginning. How do you ever get going?
    How do you ever build up any momentum in that sort of 
situation? So, there is a total funding problem that I suspect 
is just there, that you have got to get some more funding in 
the program. We cannot have it level funded year after year, or 
we are never going to get anywhere for the newer ones, and 
there are several new ones that have been created again.
    Mr. Wenk. We agree.

                        REGIONAL CENTRAL OFFICES

    Mr. Olver. Some others here probably agree too. I have one 
sort of parochial thing. I also asked this of the Secretary 
yesterday, and he surprised me by saying he really did not have 
any understanding that there was any kind of consolidation 
going on in the Park Service.
    We are now talking with just the Park Service, the major 
unit in the Interior Department, and I am curious. What is, he 
got into a question of well, there were some, why we had 
different regions for different agencies within the Park 
Service, or particularly, say Fish and Wildlife Service, versus 
the Park Service.
    In just your area, how many regions are there?
    Mr. Wenk. Seven regions of the Park Service.
    Mr. Olver. Seven. And I am sure that our staff has that 
seven. Do they have a central office in each one of those 
regions?
    Mr. Wenk. Yes, they have central offices. And I think it 
was 1995, at that time, there was a number of support offices 
that were created throughout the system. Between 1995 and 
today, there has been consolidation back to more or less one 
central office in most all of those regions.
    Mr. Olver. Okay. So, there is a process moving along here, 
partly driven by the budget per se, not necessarily by the 
administrative, by the----
    Mr. Wenk. By the administrative needs?
    Mr. Olver. Needs.
    Mr. Wenk. I think it is a combination. I believe that we 
have a situation where we have less employees in our regional 
offices, we have made a determination that we were going to 
concentrate our budget increases on operations, concentrate on 
making sure we had rangers in the field.
    Because of that, I think regional offices have been 
downsized over the intervening period of time, and in order to 
increase the efficiency of a number of those operations, it is 
helpful, it is not a requirement, to have people working on 
similar programs located in the same place, in order to provide 
the level of services that we need to provide.
    Mr. Olver. Okay. Many years ago, when I was in the state 
legislature, we worked on, through the Philadelphia office, to 
work on a National Recreation Area, which never actually was 
created. The opposition was so substantial. But we, from 
Massachusetts, had to go there.
    Well, in the meantime, one of those sub-regional offices, 
Boston, was created, which then makes it much more, much easier 
for the New England area. The region that Philadelphia serves 
goes all the way down through, it has all of the Middle 
Atlantic states, I think.
    Mr. Wenk. Right.
    Mr. Olver. It includes Virginia and West Virginia and 
Maryland and so forth, does it not?
    Mr. Wenk. Yes.
    Mr. Olver. I do not know exactly. I am curious, how many, 
there would have been seven central offices.
    Mr. Wenk. Yes.
    Mr. Olver. How many of these sub-regional offices would 
there have been at the maximum point, in the size of the 
program? Three? The maximum would have been three sub-regionals 
in a region?
    Mr. Sheaffer. During the timeframe that Mr. Wenk was 
talking about, we had ten fully functioning regional offices at 
one point in time. We consolidated to seven.
    Mr. Olver. That came down to seven.
    Mr. Sheaffer. There were three ``satellite offices'' 
created at that time, where there had been three regional 
offices. One was in Boston, one was in Seattle, and one was in 
Santa Fe. Santa Fe is nearly phased out. It is in the process 
of being phased out. Seattle has been downsized to some degree. 
And Boston has stayed relatively the same size as it was prior 
to that.
    Mr. Olver. So, it is in a down phasing mode.
    Mr. Sheaffer. It is, as of a recent internal study and 
review, in the process of being downsized. That is correct.
    Mr. Olver. Okay. Well, that is a clarification from the 
Secretary's understanding as of yesterday, and I cannot imagine 
that he could know the details of that sort of thing, going 
over a long period of time.
    Mr. Sheaffer. And it has been a period of time.
    Mr. Olver. So, we are down really to six regionals, only, 
well, seven regions, but Seattle and Santa Fe are already 
farther along the down phasing than Boston.
    Mr. Sheaffer. They have.
    Mr. Olver. I object to the down phasing of Boston, of 
course.
    Mr. Sheaffer. I understand.
    Mr. Olver. The road to a balanced budget is long and 
difficult, but you have got, so there was never a point where 
all of them had a subregional office, at that maximum point.
    Mr. Sheaffer. No. No, there was not.
    Mr. Olver. All right. Okay. I will get some details. You 
might give me, somebody might give me some details of when 
these things.
    Mr. Dicks. Maybe you could have a meeting or something.
    Mr. Olver. Yeah. I could. Thank you.
    Mr. Dicks. Mr. Hinchey.

                         EVERGLADES RESTORATION

    Mr. Hinchey. Thank you very much, Mr. Chairman. I just 
wanted to return briefly to the Everglades.
    The request this year for funding is less than the request 
for the previous Fiscal Year, because there is money left over 
from the previous Fiscal Year, that is going to be used, in 
this particular context, to meet the needs. Is that correct?
    Mr. Wenk. That is correct.
    Mr. Hinchey. How much is that? How much is left over? Do we 
know?
    Mr. Wenk. $114 million is what we currently hold.
    Mr. Hinchey. Oh. Okay. All right. So, there is going to be 
a good attention focused on this over the course of the 
upcoming Fiscal Year, to deal with these problems.
    Mr. Wenk. Yes.
    Mr. Dicks. If you would yield. When is the date to start 
this bridge? I know, we have to go through the court and all 
that, but if everything worked well, when would we start 
building this bridge?
    Mr. Wenk. I believe that they are----
    Mr. Sheaffer. They are ready to go. They are poised.
    Mr. Wenk. It is ready to go.
    Mr. Sheaffer. They actually had documents ready to go prior 
to the lawsuit being filed, so the belief is that they can move 
very quickly once they, once the court sets it aside.
    Mr. Dicks. Mr. Hinchey.

                           YELLOWSTONE BISON

    Mr. Hinchey. Okay. Thank you, Mr. Chairman. I just wanted 
to talk a little bit about, or ask you a little bit about this 
genetically pure bison that almost was eliminated back in the 
last century, and has now, because of the attention that was 
focused on it, brought back into strength. And the genetically 
pure bison is, I think, almost exclusively, perhaps completely 
exclusively in Yellowstone National Park, in that region.
    There was a period, beginning a couple of years ago, two or 
three years ago, maybe, something like that, where these 
genetically pure bison were being targeted and shot because of 
the alleged threat that they were posing to other forms of life 
in the area, cattle mostly.
    Mr. Wenk. Right.
    Mr. Hinchey. And they were alleged, they were never proven. 
So, I am just wondering if there is any change in that attitude 
now? What is going to be the policy to ensure that these 
genetically pure bison, that were linked back to the beginning 
of our being here, anyway, how that is going to be handled? How 
are we going to make sure that they continue, and they are not 
going to be eliminated?
    Mr. Wenk. I think the good news, Mr. Hinchey, is that 
during the past year, we did not have to slaughter any of the 
bison.
    Mr. Hinchey. Well, there are some people who argue that 
they never had to slaughter the bison.
    Mr. Wenk. I understand.
    Mr. Hinchey. The slaughtering of the bison was based on 
allegations which were completely false.
    Mr. Wenk. And one of the ways that we have worked with the 
Interagency Bison Management Plan Partners Group, which is the 
Department of Interior, the Department of Agriculture, and the 
state organizations, is that we have entered into an agreement 
with the Royal Teton Ranch, which is a large land holding 
outside of Yellowstone National Park. Bison would traditionally 
migrate there, in fact, it is where they were captured and 
slaughtered when that was done. We have provided $1.5 million 
to the State of Montana for them to buy the grazing rights for 
30 years, and then the State of Montana will pay an annual fee 
for that 30 year period of time, to allow for a number of bison 
to roam. We are starting small, in terms of the number of the 
bison that can roam, so we can look at some of the effects, 
look at the impact of those bison going into that area with the 
intention that we will get to a point where we will not have to 
slaughter these bison.
    Mr. Hinchey. There were some people who were alleging that 
the real reason for the slaughtering of the bison was because 
there were some people who just wanted to go out and take a 
shot at the bison and kill them, as part of their sort of 
hunting process, and I think that there is a lot of, you know, 
factual truth with regard to that assertion. So, I think this 
is something that really needs to be honestly addressed in the 
upcoming future, and right now.
    Mr. Wenk. I believe hunting was part of the equation and is 
part of the equation. The slaughter of the bison was done in a 
manner where they were corralled. They were shipped to a 
processing plant, and the meats, at that point in time, were 
given to tribes, and the hides, et cetera, were given to Native 
American tribes. So that did happen, in terms of the hunting, 
yes, but it was not the way that the vast majority of the bison 
were removed at that time.
    Mr. Hinchey. Okay. So, that is under supervision now?
    Mr. Wenk. It is absolutely under active management. We 
believe that in order to have a viable population, we need 
about 3,000 animals, and we are at about 3,000 animals now.
    Mr. Hinchey. Yeah. Good. Okay. Thanks very much. I just 
wanted to, if I have a minute or two.
    Mr. Dicks. Go right ahead. Go right ahead.

                             CLIMATE CHANGE

    Mr. Hinchey. A brief question about the issue of climate 
change, which you are focused on, and you have what seems to be 
a very solid and secure plan to make a significant contribution 
to dealing with climate change.
    One of the aspects of dealing with climate change is the 
protection and preservation of open space, natural open space, 
and that means limitation on roads and things of that nature, 
to maintain that open space, maintain the trees, maintain all 
of the natural entities that contribute to protection against 
global warming.
    I am just wondering if there is any specific plan that 
might be in the process of being put forward, which would deal 
with all of these proposals for roads and other areas, that 
would eliminate the, actually deal with and negate, to a large 
extent, the plan that you have, to make a contribution to 
dealing with global warming.
    Mr. Wenk. one of the things that we have been paying a lot 
of attention to in the past, is the issue of climate change, 
there is a great effort on the part of this Administration, to 
have a coordinated effort, in terms of working not just with 
the National Park Service, but with Fish and Wildlife Service, 
USGS all the bureaus within the Department, to really have a 
coordinated effort. I think there are efforts within the 
government to coordinate that, obviously beyond just the 
Department of Interior.
    We have a very small part of that; we have $10 million in 
the 2010 budget that is going to deal with some of the 
strategies for adaptive management, some of the strategies for 
monitoring, to see the effects of it, and to try to put the 
people in place that we need to provide that level of effort 
and coordination.
    So, the effort, while it was started before, I think, there 
is, if you will, a redoubling of the effort to try to 
understand some of the things that you are talking about, Mr. 
Hinchey.
    Mr. Hinchey. Particularly vehicular traffic, and I hope 
that there will be a lot of attention paid to not advance 
vehicular traffic, not to create more roads in these places.
    Mr. Wenk. Within the National Parks in my career of 30 plus 
years I cannot think of any new roads that have been 
constructed. There has been major rehabilitation--other than 
the ones that were specifically for that purpose.
    But you know, within park areas, mostly, it is for repair, 
rehabilitation, some reconstruction of existing roads.
    Mr. Hinchey. Thank you very much, Mr. Chairman.

                           CULTURAL RESOURCES

    Mr. Dicks. Time is about running out. I want to get to one 
other subject. In October 2008, the National Academy of Public 
Administration issued a report on Saving Our History: A Review 
of National Park Cultural Resource Programs. This report made 
several recommendations to improve the Park Service's 
stewardship of cultural resources, including new performance 
measures, park superintendent accountability, museum management 
funding and staffing. What has been the response to this 
report?
    Mr. Wenk. The response is in process right now, Mr. 
Chairman. There is a Cultural Resources Advisory Group, with 
the regional directors and the National Leadership Council. We 
have put together individuals that are going to work on a 
response to each one of those 18 recommendations that are 
contained in the NAPA report. That is underway right now. We 
are just now looking at how we are bringing these people all 
together. And I am actively involved, the Deputy Director for 
Operations Acting, Ernie Quintana is actively involved with the 
Associate Director for Cultural Resources, to take these issues 
on.
    Mr. Dicks. When the Park Service budget was going down, do 
you think cultural resources got neglected a bit, when you had 
to cut people? Is it one of these things that now, with a 
little better budget, we will be able to address, and restore 
that----
    Mr. Wenk. I do not know that the cultural----
    Mr. Dicks [continuing]. Aspect of the parks?
    Mr. Wenk. I am not going to let us off that easy, Mr. 
Chairman. I do not know that Cultural Resources was affected by 
those budget downturns any more than any other program. I think 
that we have to make sure that we are, just as with the U.S. 
Park Police----
    Mr. Dicks. So, they have been neglected a bit, and now, we 
have got to look at it.
    Mr. Wenk. Yes.
    Mr. Dicks. This report gives us the impetus to do that.
    Mr. Wenk. Gives us a basis to do that.
    Mr. Dicks. Okay. All right. I think we will call it a day. 
Very good job.
    Mr. Wenk. Thank you.
    Mr. Dicks. Thanks.

    [GRAPHIC] [TIFF OMITTED] T2296C.101
    
    [GRAPHIC] [TIFF OMITTED] T2296C.102
    
    [GRAPHIC] [TIFF OMITTED] T2296C.103
    
    [GRAPHIC] [TIFF OMITTED] T2296C.104
    
    [GRAPHIC] [TIFF OMITTED] T2296C.105
    
    [GRAPHIC] [TIFF OMITTED] T2296C.106
    
    [GRAPHIC] [TIFF OMITTED] T2296C.107
    
    [GRAPHIC] [TIFF OMITTED] T2296C.108
    
    [GRAPHIC] [TIFF OMITTED] T2296C.109
    
    [GRAPHIC] [TIFF OMITTED] T2296C.110
    
    [GRAPHIC] [TIFF OMITTED] T2296C.111
    
    [GRAPHIC] [TIFF OMITTED] T2296C.112
    
    [GRAPHIC] [TIFF OMITTED] T2296C.113
    
    [GRAPHIC] [TIFF OMITTED] T2296C.114
    
    [GRAPHIC] [TIFF OMITTED] T2296C.115
    
    [GRAPHIC] [TIFF OMITTED] T2296C.116
    
    [GRAPHIC] [TIFF OMITTED] T2296C.117
    
    [GRAPHIC] [TIFF OMITTED] T2296C.118
    
    [GRAPHIC] [TIFF OMITTED] T2296C.119
    
    [GRAPHIC] [TIFF OMITTED] T2296C.120
    
    [GRAPHIC] [TIFF OMITTED] T2296C.121
    
    [GRAPHIC] [TIFF OMITTED] T2296C.122
    
                                            Thursday, May 21, 2009.

                         U.S. GEOLOGICAL SURVEY


                               WITNESSES

DR. SUZETTE M. KIMBALL, ACTING DIRECTOR, UNITED STATES GEOLOGICAL 
    SURVEY
CARLA BURZYK, DIRECTOR OF OFFICE OF BUDGET AND PERFORMANCE, UNITED 
    STATES GEOLOGICAL SURVEY
ROBERT E. DOYLE, DEPUTY DIRECTOR, UNITED STATES GEOLOGICAL SURVEY
LINDA GUNDERSEN, CHIEF SCIENTIST FOR GEOLOGY, UNITED STATES GEOLOGICAL 
    SURVEY
SUSAN HASELTINE, ASSOCIATE DIRECTOR FOR BIOLOGY, UNITED STATES 
    GEOLOGICAL SURVEY
    Mr. Dicks. The committee will come to order. Sorry to say 
we have votes, unfortunately, but that is what we do here.
    This afternoon we examine the U.S. Geological Survey's 
budget request. I am pleased to welcome Dr. Suzette Kimball, 
the Acting Director.
    Before I make a few remarks I would like to take a moment 
to recall the previous director. During the last Administration 
Dr. Mark Myers did, I think, a very outstanding job, and I 
talked to him the other day, and he is doing well. I hope my 
friend and Ranking Member notices that I can praise a member of 
the previous Administration.
    Mr. Simpson. Well noted.

                     Opening Statement of Mr. Dicks

    Mr. Dicks. I also must say that it is very refreshing to 
see this very good budget request from the Obama Administration 
and Secretary Salazar. This subcommittee encounters many 
difficult environmental and land use issues. It is vital that 
the Nation develop and use the best science we can get.
    The USGS has a tremendous reputation for scientific 
excellence. Good natural science will be more and more 
important as our Nation's population continues to expand and as 
climate change alters our environment. The support for science 
is a hallmark of the new Administration, and this request is 
consistent with that trend.
    I look forward to hearing about several aspects of this 
budget. I am particularly interested in the Survey's research 
and monitoring efforts on global warming. I am pleased to see 
that the request would increase the National Climate Change and 
Wildlife Science Center funding by $5 million.
    I am also very interested in research on geological and 
biological carbon sequestration. If our Nation is going to 
invest billions in various carbon storage and limitation 
technology, it is vital to get the science right, and right now 
we are not prepared with enough information on sequestration.
    I am also interested in the Survey's work on stream gauges 
and water quality monitoring. Water is quickly becoming almost 
priceless. We need to invest in good surface and ground water 
monitoring and scientific analysis. The extensive partnerships 
the USGS has developed are wonderful, but it is also important 
that the Federal Government participates and not continue the 
decline in funding. The request increases stream gauge funding 
by $5 million, which is something we will have to seriously 
consider.
    We also need to remember the traditional USGS strengths. 
This includes vital science and monitoring of earthquakes, 
volcanoes, the national map, remote sensing, and other aspects 
of geography, biological science, and hydrology.
    Mr. Dicks. Mr. Simpson, we recognize you for your 
statement.

                    Opening Statement of Mr. Simpson

    Mr. Simpson. Thank you, Mr. Chairman, and Acting Director 
Kimball, thank you for being here this afternoon. 
Unfortunately, these things would happen a lot better if we did 
not have to vote, but occasionally they make us do that, and 
thank you for our meeting the other day. As you may know by 
now, I believe that science is the backbone of most of what we 
oversee in this appropriations bill, and there is no more 
distinguished or more credible science agency than the USGS.
    As scientists worldwide have proven, our planet is changing 
in ways that our species have never before experienced; from 
temperature to rainfall to natural hazards to shifts in entire 
ecosystems. The more we know about how, where, and when these 
changes are occurring the more prepared we can be to mitigate 
and adapt to these changes as society and as stewards of our 
natural resources. The USGS has a critical role to play now 
more than ever.
    From my position on this subcommittee and the Energy and 
Water Subcommittee and all the myriad meetings with interested 
parties, I am overwhelmed by the number and diversity of 
actions and investments people want to make in the name of 
climate change. Individually, most of these actions seem to 
make sense, but as an appropriator of taxpayer dollars I have 
doubts whether our collective federal investments are 
coordinated and strategic across the Department of Interior and 
government wide. We must do a better job of coordinating our 
strategies and communicating them to the public.
    I strongly encourage the USGS to take a leadership role in 
this effort. I look forward to your testimony today, learning 
more about where the USGS is headed and how this budget helps 
the agency get there. Thank you.
    Mr. Dicks. We will put your entire statement in the record, 
and you may proceed as you wish.

                        Statement of Dr. Kimball

    Ms. Kimball. Thank you very much, sir. I very much 
appreciate the opportunity, Mr. Chairman, Mr. Simpson, to 
appear before this subcommittee today. I am also pleased to be 
able to present the Administration's proposal for the U.S. 
Geological Survey's fiscal year 2010, budget.
    Accompanying me today are Robert Doyle, our Deputy 
Director, and Carla Burzyk, the Director of our Office of 
Budget and Performance. In addition we also have with us today 
the Associate Directors, Bryant Cramer, our Associate Director 
for Geography, Linda Gundersen, our Chief Scientist for 
Geology, Matt Larson, the Associate Director for Water, Sue 
Haseltine, our Associate Director for Biology, Karen Baker, our 
Associate Director for Administration Policy and Services, and 
Kevin Gallagher, our Associate Director for Enterprise 
Information and our Geographic Information Officer.

                            BUDGET OVERVIEW

    The 2010, budget request for the USGS is $1.1 billion. This 
is an increase of $54 million over the 2009, enacted level of 
$1.04 billion. It focuses on issues of national importance and 
includes continued work in areas that have enjoyed the support 
of this subcommittee over the years.
    The budget also strongly supports the six focus areas of 
the USGS science strategy. These focus areas are ecosystems, 
climate change, energy, hazards, human health, and how it is 
affected by the environment, and water availability in the 
water census. The increases in the budget will ensure that USGS 
maintains the expertise necessary to address the scientific and 
societal challenges that will arise in months and years ahead.
    It also supports our valuable partnerships with other DOI 
bureaus, federal agencies, the states, local government 
agencies, and our tribal nations. This budget proposal enhances 
USGS efforts in support of key Administration and Secretarial 
priorities. Specifically, the New Energy Frontier, a 21st 
Century Youth Conservation Corps, and Climate Impacts and 
Change.

                     NEW ENERGY FRONTIER INITIATIVE

    Included in the budget is a proposed increase of $3 million 
for the New Energy Frontier Initiative. We plan to support the 
Department's efforts to develop renewable energy sources in an 
environmentally-safe and economically-sound manner. We plan to 
study geothermal resources to provide the scientific basis to 
improve the viability of this important but underutilized 
resource. We also plan to use these funds as a scientific basis 
to understand the impacts of renewable energy options such as 
wind energy, solar energy, and biofuels on ecosystems and 
wildlife populations.

                 21ST CENTURY YOUTH CONSERVATION CORPS

    Also included in the fiscal year 2010, budget is an 
increase of $2 million for the 21st Century Youth Conservation 
Corps Initiative. USGS plans to use the additional funding to 
enhance opportunities for America's youth to explore careers in 
the natural sciences. We will expand our existing academic 
collaboration efforts to additional universities across the 
country, enhance our relationships with key partners, and 
further connect with the next generation of young scientists.
    We will also expand USGS efforts to assist tribes with 
scientific and technical training necessary to develop the 
competencies needed to manage tribal energy and natural 
resources more effectively. This is a key priority of Secretary 
Salazar, and the USGS vigorously supports it.

                             CLIMATE CHANGE

    The budget contains a significant increase to continue our 
studies of climate impacts and the changes that are manifest 
through climate change. The Administration proposes an increase 
of $22 million to lead a multi-agency effort in climate impacts 
research and monitoring. With this increase we plan to continue 
our climate impacts monitoring efforts and develop regional 
collaborative research hubs. We plan to develop the methodology 
for assessing biologic carbon storage potential. We plan to use 
the recently-developed geologic assessment methodology to 
initiate a national assessment of geological carbon 
sequestration potential.
    We plan to continue the support for the National Climate 
Change and Wildlife Science Center, and we plan to provide 
information to U.S. Fish and Wildlife Service and other 
agencies for use in the development of strategic habitat 
conservation and adaptation methodologies.

                   GREAT LAKES RESTORATION INITIATIVE

    The Administration is also proposing a Great Lakes 
Restoration Initiative. The amount is contained in the EPA 
budget, however, the USGS is projected to receive an increase 
of $15 million through this effort. These funds will be used to 
expand our research, to enhance ecosystem-based management of 
coastal resources by various partner groups, to integrate 
ecosystem-based collaborative studies that provide forecasting 
models and assessments to anticipate the impacts of future 
coastal change in the Great Lakes, and to develop decision-
support tools to evaluate policy and management strategies to 
preserve the environmental and economic health of the Lakes' 
coastal systems.
    As part of this effort we have projects planned in each of 
the five key areas that are identified in that initiative, 
including toxic substances, invasive species, near-shore health 
and non-point source pollution, habitat and wildlife protection 
and restoration, and information for decision making and 
accountability.

                          ADDITIONAL INCREASES

    I am also happy to testify that the USGS budget contains 
some additional increases. Five million dollars to enhance the 
National Stream Gauge Network, $4.2 million to address species 
at risk due to changing arctic ecosystems, $1 million for the 
analysis and synthesis of data collected during two previous 
USGS sea-floor mapping cruises in the arctic to support the 
United States effort on the expanded Continental Shelf, 
$727,000 to support the USGS partnership with other Interior 
agencies, state and local agencies, industry and private 
landowners in the Wyoming Landscape Conservation Initiative, 
and $2 million for the USGS Cooperative Research Unit Program. 
This increase will be used to fill vacant research scientist 
positions in units across the country.
    Our budget also includes increased funds to cover the cost-
of-living expenses, our fixed cost burden. This is extremely 
important for us in order to be able to continue to conduct 
important and very objective science for the nation. The 2010, 
budget request reflects our commitment to address both short-
term and long-term challenges that are important to the nation, 
and it aligns supportively with our USGS science strategy.
    This concludes my statement this afternoon, Mr. Chairman. I 
very much appreciate the opportunity to testify before you in 
this Subcommittee, and I will be happy to answer any questions 
that you or the other members have for us.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2296C.123
    
    [GRAPHIC] [TIFF OMITTED] T2296C.124
    
    [GRAPHIC] [TIFF OMITTED] T2296C.125
    
    [GRAPHIC] [TIFF OMITTED] T2296C.126
    
    Mr. Dicks. I have a question, a pacific northwest question.
    Ms. Kimball. Yes.
    Mr. Dicks. I understand that a recent geological 
investigation by the USGS has discovered a major earthquake 
fault which crosses Washington State, going from Whidbey Island 
across the Cascade Range, to Yakima and beyond. I am told that 
this is a major feature with the potential for a serious 
earthquake in the future.
    Please tell us about the investigation that discovered this 
fault, and please describe the fault's potential and other 
characteristics. Are there investigations supported by the 
Multi-Hazards Funding increase which the Congress provided in 
fiscal year 2009?
    Ms. Kimball. Yes, sir. In fact, a portion of our fiscal 
year 2008, Multi-Hazards Program funding was used to conduct an 
aeromagnetic survey as an experiment across central Washington, 
eastward to Yakima. The results of that indicated to us that 
there was----
    Mr. Dicks. Now, this is different than LIDAR. Right?
    Ms. Kimball. This is correct.
    Mr. Dicks. Okay.
    Ms. Kimball. This is different than LIDAR.
    Mr. Dicks. Why do you not explain the two technologies just 
a little bit?
    Ms. Kimball. To do that I think I need to ask our Chief 
Scientist for Geology, Linda Gundersen, to explain the 
technical differences between those surveys.
    Ms. Gundersen. Aeromagnetic surveys are flown from planes 
using a sensor that looks at the magnetic properties of the 
rocks and how they differ, and in this way we can image the 
rocks at depth and on the surface. LIDAR uses laser, and it 
bounces the laser off of the surface of the earth, creating a 
very-detailed, high-resolution topographic map of the surface, 
and we use that both terrestrial and near-shore and up rivers, 
and it is a marvelous technology that we use.
    Mr. Dicks. You want to proceed?
    Ms. Kimball. Very likely. The results from the 2008, 
aeromagnetic experiment are, in fact, being presented even as 
we speak this week at the American Geophysical Union meeting in 
Toronto. In fact, the results of that survey found strong 
evidence that the would-be island fault zone that had been 
previously mapped actually connects into additional fault areas 
in the eastern part of the state. It appears likely that there 
is a very large system throughout the Cascade Arc.
    With our fiscal year 2009, funding we are extending the 
aeromagnetic surveys to the south and the east. We suspect that 
these data will probably also show several prominent faults in 
eastern Washington.
    Mr. Dicks. Would they possibly reach Idaho?
    Ms. Kimball. As a result of these studies we are working 
very closely with Washington State agencies to develop an 
earthquake preparedness scenario, not unlike the great shakeout 
exercise that we did in California last year, and this exercise 
will be conducted in Pierce County, and they are, even as we 
speak, working on developing a basic fact sheet on earthquakes 
in the Tacoma fault area. We are teaching courses to emergency 
management providers in the area and for anyone else who might 
be participating in this exercise, and we will be able to 
develop vulnerability maps for the area that will be used in 
developing earthquake preparedness scenarios for the public in 
which the public can participate.
    So we found this to be a very successful exercise in 
California, and we are really looking forward to extending this 
into the pacific northwest.

                                 LIDAR

    Mr. Dicks. A few years ago I added funding to help the USGS 
acquire LIDAR images of the Puget Sound area. Are there areas 
of Puget Sound that still lack LIDAR coverage where such data 
would improve your assessment of earthquake or other hazards? 
And what about eastern Washington?
    Ms. Kimball. Eastern Washington is an area that we 
particularly would like to be able to conduct LIDAR surveys in. 
We believe there are two high-priority areas that need that 
work. One is the greater Yakima area, and the other is over the 
Hanford Region National Monument in the eastern part of 
Washington. We are particularly interested in examining the 
change in direction that we anticipate for major fault trends 
near the Hanford Region. We think that it will provide major 
enhancement to our understanding of this large fault system in 
Washington.

                   MULTI-HAZARD DEMONSTRATION PROJECT

    Mr. Dicks. I understand that USGS scientists are now taking 
a new approach with regard to getting the new science they 
develop into the hands of the public. Can you discuss how the 
earthquake scientists have developed new models which can be 
directly used by the various state and local authorities as 
they implement their hazard response plans as required by the 
FEMA? I know that you discussed that a little bit with the 
Pierce County part of this.
    Ms. Kimball. Right. This is an effort that began as part of 
our Multi-Hazards Demonstration Project, and it was identified 
as a key need for local communities to have a better 
understanding of how fault mechanics worked and what the 
potential would be for significant earthquake activity in a 
particular area. We have used and enhanced our models and are 
beginning to look at three-dimensional models as well. These 
models are being designed to enhance earthquake predictability. 
We are working towards goals of being able to predict 
earthquakes 30 to 90 seconds out, which may not sound like a 
lot, but it is a significant amount in terms of being able to 
protect the public.
    Those models were used to design a scenario for southern 
California. We are in the process of designing that scenario 
for the pacific northwest, and we are also designing scenarios 
in cooperation with the partnership in the New Madrid Seismic 
Zone in the central United States.
    Mr. Dicks. Is there anything you would like to add to that?
    Ms. Gundersen. No. I would like to add, though, that with 
the island fault we did, through geologic studies, discover 
that it could carry a magnitude seven or greater.
    Mr. Dicks. So that is a very large earthquake.
    Ms. Gundersen. Yes, it is.
    Mr. Dicks. Mr. Simpson.

                        WATER QUALITY MONITORING

    Mr. Simpson. Is there any way we can stop those from 
vibrating Idaho? Just out of curiosity. No. Thank you for being 
here today. A couple of questions.
    First, there are about three programs in Idaho that I 
suspect are in every state, and as you know, states are going 
through budget crunches just like the Federal Government. They 
just do not have printing presses like we do and consequently, 
they are cutting back in a variety of areas. We have a 
statewide surface water quality program and a statewide 
groundwater quality program and a statewide groundwater levels 
program that are shared between the Idaho Department of Water 
Resources and the Idaho Department of Environmental Quality and 
the USGS up to a 50-50 match sort of thing. I suspect they are 
about 50-50 matches.
    The Idaho Water Science Center recently announced that they 
will discontinue surface water monitoring at 47 sites statewide 
after September, 2009, because they just do not have the money 
to match this program, and so, consequently, they are going to 
discontinue it.
    Is the 50-50 match the appropriate thing? You know, we put 
money into the stimulus package to help states that were having 
difficulties. As you all have read the papers about the money 
that is going to California and to other states. Idaho received 
some of it. Should we be reexamining the 50-50 match 
particularly in those states that might be having some dire 
consequences of not being able to match that so that we can 
continue the water quality and water quantity monitoring that 
we have been doing?
    I notice in your budget you, as you mentioned, put in $5 
million to enhance the National Stream Gauge Network. This work 
is pretty important, and I hate to see that discontinued at 
these sites in Idaho, and I am just wondering what your 
thoughts are on that.
    Ms. Kimball. Well, I agree with you. This work is very 
important, and it is one of the cornerstones in the USGS. It is 
work that is depended upon by taxpayers in 50 states. Much of 
the information that is derived from our Stream Gauge Program 
goes directly to assist states and municipalities in developing 
strategies to protect the public through enhanced flood 
warning.
    Mr. Simpson. And, in fact, it would be accurate to say that 
it is not only Idaho that these stream gauges are important 
for, because those streams leave Idaho at some point in time 
and go to Washington and Oregon and other places, and so 
knowing those quantities and qualities and stuff is important 
to downstream states, too.
    Ms. Kimball. Absolutely, and having the network across the 
country is important. It helps us understand issues associated 
with predicting drought, predicting flood potential, and so the 
continuity of the network is very important.
    We are exceptionally sensitive to the fact that our 
cooperators across many states are experiencing difficulties in 
these fiscal times, and the ability to support through matching 
funds the network to the extent that the support has been in 
the past has been impacted by this. It is true that we did 
receive stimulus funds that are going to help improve the 
infrastructure associated with the Stream Gauge Network, 
specifically to enhance the telemetry packages enabling us to 
have better communications and to meet new standards for the 
satellite transmission of data in the future.
    However, the stimulus monies carry a finite timeframe for 
their expenditure, and so they do not help in developing the 
basis for a long-term operation and maintenance plan for these 
gauges. Our network of 7,000 plus gauges cost about $15,000 a 
year to operate and maintain. About 25 percent of that is 
supported through NSIP, through our appropriated funds. We 
believe that to get to a full Federal funding support for the 
network will take us about 10 years at the funding levels that 
are proposed in the 2010, budget, but it is a great start to 
help us do that, and the intent in those funds that are 
proposed in this budget is to, in fact, help us work with the 
states and the local governments that are having funding 
difficulties to be able to maintain continuity in the Stream 
Gauge Network. That continuity is extraordinarily important.
    Mr. Simpson. Well, I appreciate that, and I look forward to 
working with you on that to see if we can, as you say, maintain 
the integrity of the network, because closing 47 of these sites 
is not in the best interest of Idaho or of the country quite 
frankly.
    Mr. Dicks. What would it cost--excuse me, if you will 
yield. What would it cost to keep them open?
    Ms. Kimball. The 47?
    Mr. Dicks. Yes.
    Ms. Kimball. About 50 times $15,000. What is that?
    Voice. Seven point five million.
    Ms. Kimball. There you go. Thank you.
    Mr. Simpson. I have got some numbers on what the DEQ and 
the Idaho Department of Water Resources share and the USGS 
share of these programs has been. The USGS's share of them have 
been about a half a million dollars, and the Idaho share has 
been about that same thing.
    So I do not know exactly what it would cost on all this, 
but it would be interesting to look at it and see if there is 
something that we might be able to do to help that out. And I 
am not suggesting something that would be a long-term 
investment, because I think the states should do their share 
also, but we have some extraordinary short-term problems, and 
that is why these are actually being closed down because of the 
budget problems that they have had in the state trying to put 
the budget together. So I look forward to working with you on 
that and trying to address that.

                             CLIMATE CHANGE

    After our meeting the other day I took some time to get 
familiar with the U.S. Climate Science Program and the 
strategic plan developed in 2003, by a previous Administration. 
I would like to think that the scientific community is better 
coordinated on climate change than I had previously thought.
    Would you take a few minutes to describe for us whether and 
how the U.S. Climate Change Program provides leadership and the 
coordination across the Federal Government, what the USGS role 
is, and how that strategic plan is driving agency budget 
priorities? I noticed you mentioned in your testimony the $22 
million you had for inter-departmental climate change issues 
that you are going to be dealing with.
    So could you discuss that for a few minutes?
    Ms. Kimball. Well, I think that the climate change 
community, and I can speak directly towards the science 
community associated with climate change issues has become more 
and more aware of the need to closely coordinate activities. 
The USGS provides leadership within the Climate Change Science 
Program for the Federal Government, we represent the Department 
of Interior in that group, and we have taken the lead in 
developing several of the report products that are coming out 
within the next couple of months.
    As part of that we also have been very active in 
departmental efforts to have a coordinated cross bureau 
perspective within the Department of the Interior, and we are 
building on efforts that began in the previous Administration 
but are continuing today. Within 2 or 3 weeks of Secretary 
Salazar coming on board, he called all of the Acting Bureau 
Directors together in the Department of Interior, told us that 
he was holding us personally responsible for ensuring that we 
had a coordinated departmental effort.
    We have now within the Department a Climate Change and 
Energy Task Force and within USGS we have identified a USGS 
Climate Change Task Force that connects to the hierarchy within 
the Federal Government. The USGS has been able to participate 
with the Department in coordination meetings with OSTP, with 
CEQ, and with other organizations, and in fact, within the next 
month I have meetings scheduled with NOAA, for example, 
directly to talk about how our efforts will be designed 
deliberately to be complementary, not conflicting or 
overwhelming them.
    I am confident that the science community is working very 
hard to eliminate redundancies, overlap, and the perception of 
that overlap through developing better communication 
strategies.
    Mr. Simpson. It is, as I said in my opening statement, one 
of my main concerns is the amount of money we are spending on 
climate change, not necessarily the amount of money, but that 
we do not know how much money we are spending, and that it is 
so broad and spread out throughout the government. And I gave 
you an example the other day of my concern when I was at the 
state level. Well, I will tell you when I first came here, 
first on the Appropriations Committee, I was on the VA HUD and 
Independent Agencies Subcommittee at the time, we had a 
hearing, and they were looking long programs for low-interest 
loans for businesses in underdeveloped areas, minority areas, 
those types of things. What we funded is just the 
administration of the program, and afterwards, because I knew 
there were programs--this was in one of the agencies, I knew 
there were programs like this in the Department of Agriculture, 
the Department of Commerce, you know, throughout the 
government. And I asked how many programs there were like this, 
and a lady came up to me afterwards and said she puts on a 
conference on these programs. There are 42 different agencies 
that do essentially the same thing, maybe a little different 
twist here and different twist there and a Senator's name 
attached to this program, and a Senator's name attached to this 
program, but essentially the same thing.
    And the reason I got off on this is I had a constituent 
that was looking at trying to get a business loan and some 
assistance through the Federal Government and actually had no 
idea where to go and was sent to the Department of Agriculture. 
It was a lumber company, and so Department of Agriculture, 
Small Business Administration, and you could go throughout this 
myriad of stuff.
    I do not want to see us in 10 years look back and say, man, 
we have spent a lot of money on this, and we have no 
coordination, and we got agencies all over the place. I am 
willing to spend what it takes to do what is necessary in this 
area, but it is a big concern of mine, and I just wanted to 
express that to you, again.
    And I will yield back at the current time, Mr. Chairman.
    Mr. Dicks. You want to comment on that?
    Ms. Kimball. Well, I think it is fair to say that the USGS 
agrees with you. We believe that there are so many things that 
need to be done that we can ill-afford to waste time, effort, 
or money----
    Mr. Dicks. Right.
    Ms. Kimball [continuing]. Duplicating efforts. So I agree.
    Mr. Dicks. Mr. Moran, the Vice-Chairman of the committee.
    Mr. Moran. Thank you very much, Mr. Chairman, and nice to 
see you, Dr. Kimball, and nice to see some of the folks that we 
have had an opportunity to continuously work with over the 
years.

                          ENDOCRINE DISRUPTORS

    The Chairman would be deeply disappointed if I did not ask 
you about inter-sex fish in the Potomac.
    Mr. Dicks. I was hoping you would.
    Mr. Moran. There was a recent PBS documentary entitled, 
``Poison Waters,'' and USGS was actually featured on the issue 
of endocrine-disrupting chemicals and inter-sex fish, in one of 
the surveys that was taken as many as 90 percent of the 
smallmouth bass had inter-sex characteristics. So it seems to 
be a serious concern. I have been concerned since I read a book 
by a woman by the name of Theo Coburn, who brought the 
possibility of EDCs and other chemicals having an adverse 
impact upon human health over time, and I still think there was 
something to her concern.
    What I would like for you to do first of all is to update 
us on what you are doing in that regard and what you think 
might be links to human health with regard to the same kind of 
chemicals. In other words, I mentioned this to Ms. Jackson, and 
she said that they are planning on looking at about 67 
chemicals. Of course, there are 80,000 that we do not know what 
the impact is, particularly the impact when you mix them. So I 
would like to give you an opportunity to bring us up to date on 
this particular issue.
    Ms. Kimball. Well, we are conducting quite a number of 
studies specifically focused in the bay watershed but also in 
the Puget Sound watershed to address inter-sex fish 
characteristics and fish kills in the rivers and the bay 
watershed. To date our work is indicating that there are 
widespread abnormalities in the fish reproductive systems in 
several fish species, and we can link those to exposures to 
estrogenic contaminants for the most part.
    The preliminary studies are also suggesting that the 
prevalence and the severity of these abnormalities may increase 
as both the human population in the watershed and agricultural 
activities increase. We are committed to continuing to conduct 
the research to assess both the causes of the inter-sex 
characteristics in the watershed to also document the spatial 
distribution and to compare the incidents of inter-sex 
characteristics across species and life stages in order to 
determine whether there are any measurable effects that we can 
see that are linked to those particular characteristics.
    Mr. Moran. You found them in smallmouth bass. What other 
fish, for example, have you found them in?
    Ms. Kimball. I am going to have to refer that question to 
our Associate Director for Biology.
    Mr. Moran. Yeah.
    Ms. Kimball. Sue Haseltine.
    Mr. Moran. Yeah. Hi, Sue. In the meantime you can continue. 
I just wanted to understand.
    Ms. Kimball. Well, I also wanted to point out that we have 
recently published a study that shows that many of the skin 
lesions in fish in both the Potomac and Shenandoah River sheds 
or watersheds may also be linked to endocrine disruption 
compounds. So we are seeing this across more than just 
estrogenic compounds as well in the watershed.
    Mr. Moran. Do you want to tell us, Sue?
    Ms. Haseltine. I would just say that most of our sampling 
has been done with smallmouth bass, but we also have a few 
largemouth bass and other shiners and species of fish, but I 
would not say that we had any pattern in any other species 
besides the smallmouth bass.
    Mr. Moran. Okay. Thank you.
    Some people speculate one of the reasons we have these 
contaminants is that our current sewage systems, if you will, 
are not adequate to filter out the kinds of things that are 
getting into the water and have these adverse effects, some of 
the chemicals and so on. One of the things, for example, that 
we dispose of pills and so on intact or, of course, through the 
digestive system that goes into the water, you know, birth 
control pills could contribute to estrogen.
    A lot of speculation has taken place. In fact, I am 
wondering if at some point we are not going to have to see if 
we cannot get some incentive for pharmacies to take back unused 
pills because they invariably get flushed, and they do not get 
screened in the water systems from getting into the water 
supply, and this may be one of the things.
    Would you care to speculate on what other sources may be 
responsible for causing these lesions and pervasive 
reproductive aberrations in fish?
    Ms. Kimball. Sue, I think I will turn that one to you as 
well.
    Ms. Haseltine. I think that we do not have the 
comprehensive sampling to really speculate very far, but we do 
as Suzette said have more incidents of these kinds of 
biological effects around outflows of human sewage treatment 
but also agricultural in areas of heavy agricultural runoff. We 
suspect that many of the chemicals that are pharmaceuticals and 
all that are related to this in both the veterinary and in 
human health.
    But there are also as you said many other chemicals that we 
cannot rule out.
    Mr. Moran. Well, a concern, I do not want to be all 
argumentative or critical, and I know you have not had the 
resources or the focus in prior years perhaps up until now, but 
this is kind of the same answer we have been getting for the 
last few years. We do not have the data. The problem is by the 
time we get the data it may be almost irreversible to clean it 
up. The Chesapeake is in horrible shape for many reasons, some 
of it agricultural runoff, vegetation goes on steroids and so 
on, and then sucks up all the oxygen in the water, but there 
are also an awful lot of contaminants in there.
    And as we are studying, the situation continues to get 
worse. So it would be good if we could get some kind of 
commitment to sort of accelerate the study so that we can then 
deal with the results.
    Mr. Haseltine. I think one of the challenges that we have 
is that we measure those contaminants that are associated with 
say national drinking water standards, but the number of 
compounds that are not regulated by that is huge. From our 
perspective, which is not a regulatory perspective, is looking 
at the potential impacts of certain constituents in the water 
column. What is not well understood is the range of 
interactions among these multiple compounds. And as you might 
well imagine, you end up with a magnitude of potential 
interactions that is very, very large.
    Mr. Moran. It just seemed ironic because Puget Sound is a 
big issue here in addition to the Chesapeake, but they focused, 
interestingly enough, on the Puget Sound and Chesapeake Bay.
    Mr. Dicks. Right.
    Mr. Moran. And both particular concerns to you and I and 
then, of course, the Great Lakes to Mr. Obey. So I think you 
will get some receptivity if we can get some definitive data.
    Mr. Dicks. I just wanted to clarify something. Whose 
responsibility is it? Is it EPA's or USGS?
    Ms. Kimball. For regulating standards?
    Mr. Dicks. To evaluate the water quality. In other words, I 
think what they are saying is we may have all these compounds 
in the water that our existing systems do not get rid of, and 
we all may be vulnerable. That is one of the conclusions that 
Hedrick Smith reached. They asked an official of the DC 
government ``would you drink the water from the District of 
Columbia,'' and they said ``no.''
    Mr. Moran. Hell no.
    Mr. Dicks. Yes.
    Mr. Moran. You have got to be kidding.
    Mr. Dicks. I want to make sure we understand what role you 
are playing, and I would think you are doing more of the 
science here.
    Ms. Kimball. Absolutely.
    Mr. Dicks. I would assume that EPA has the regulatory 
responsibility, or can you clarify who does what?
    Ms. Kimball. And states do as well.
    Mr. Dicks. And the state and locals.
    Ms. Kimball. Our responsibility is in looking at the 
constituents that contribute to water quality in the Nation's 
streams. We can do the studies that link different kinds of 
compounds found in the environment to potential environmental 
outcomes or biological impacts, impacts to the biological 
system.
    But the regulatory function, setting the standards, 
applying the standards, and enforcing the standards are the 
responsibility of the states and the EPA.
    Mr. Simpson. What would Fish and Wildlife's role be?
    Ms. Kimball. In terms of regulating water quality?
    Mr. Simpson. We are dealing with fish.
    Ms. Kimball. Right.
    Mr. Simpson. So Fish and Wildlife must have a role in this 
somewhere?
    Ms. Haseltine. I think most of the responsibility for fish 
populations rest with the states, and the Fish and Wildlife 
Service deals with inter-jurisdictional fish, anadromous fish, 
those types of fisheries, but the major responsibility for fish 
populations in the watershed would be with the states.
    Mr. Dicks. This was a Babbit initiative putting most of the 
Interior Department scientific effort in the USGS. Now, 
obviously, the Fish and Wildlife Service still has some 
scientists, but is not most of the science supposed to be done 
by USGS on issues that presented themselves to the Department?
    Ms. Kimball. Yes. We are responsible for being the 
organization that provides the objective science information by 
which management decisions are made by the other DOI bureaus.
    Mr. Simpson. Could I follow up on that?
    Mr. Dicks. Sure.
    Mr. Simpson. I asked this question when you were discussing 
this. I would have never thought this was USGS's role, and I 
would have thought that was EPA's role, and I have been told 
the Fish and Wildlife Service does do sampling of fish in the 
Potomac and does have an initiative to keep medications out of 
the water.
    So, I mean, we got all these different agencies that are 
dealing with this. Now, would EPA or would Fish and Wildlife 
say, jeez, we are having these strange fish show up, and we 
need to find out, and we have some suspicions that some 
chemicals--and go to you and ask you could you do the research 
on water quality, what is in the water, those types of things, 
the impacts it might have on fish and so forth. And then if you 
find that there are contaminants that are potentially 
dangerous, that are causing these things, go to the EPA and 
say, EPA, we need to regulate these things?
    Ms. Kimball. Typically that is the general scenario, and it 
could be Fish and Wildlife Service's, it could be a local 
community that says----
    Mr. Simpson. Sure. Yeah.
    Ms. Kimball [continuing]. We are noticing something 
anomalous, but we do not understand the system. They would come 
to us, and we would do the research that would identify what 
the natural system is and the potential impacts. Then that 
information would go back to the management or regulatory 
agency, and they would make those decisions based on their 
particular sets of procedures, policies, regulations, and 
rules.
    Mr. Simpson. Okay.
    Mr. Dicks. Mr. Cole.
    Mr. Cole. Thank you, very much, Mr. Chairman, and Director 
Kimball, good to see you again. Thanks for stopping by the 
office. It was a great discussion, very helpful to me.
    I just got a few things.

                   NATIONAL STREAM GAUGE INFORMATION

    Mr. Cole. Okay. Mr. Simpson went through quite a bit of 
information on the Stream Gauge System where we have got a 
great concern as well. It is very important to us in terms of 
flooding. Could you elaborate just for the committee a little 
bit about the relationship you have with NOAA and your Stream 
Gauge Program?
    Ms. Kimball. Well, our Stream Gauge Program has been part 
of the USGS foundation for monitoring networks across the 
country for better than 100 years. For that matter, we have 
stream gauges that have been operating for longer than 100 
years, and as such we have the responsibility across the 
country to operate that gauge network in order to provide 
information associated with stream flow and water quality. 
These data are used for both recreational uses, for example, 
boaters, rafters, fishermen, but also used to provide 
information through the National Flood Warning System. That 
system is managed by the National Weather Service, and we have 
a partnership with NOAA to provide that information to the 
National Weather Service for their stream flow projections 
related to flooding.
    Mr. Cole. So without your program they really do not have 
the ability to do their job in terms of forecasting flooding?
    Ms. Kimball. Not to the national extent across the network.
    One of the benefits of the national network is that we can 
maintain a certain set of standards and quality assurance so 
the public knows how the information was derived consistently 
across the full network across the nation.

                      GROUNDWATER RESEARCH PROGRAM

    Mr. Cole. The other kind of water which is really critical 
to us in Oklahoma are, as you know, aquifers in particular. Can 
you elaborate a little bit on what you do with respect to 
helping us define, you know, the amounts available, the 
recharge rates, et cetera?
    Ms. Kimball. Well, that is a key part of basic hydrologic 
science, and we do have our Groundwater Research Program, and 
that, in fact, identifies key aquifers around the country, and 
we are working to develop an understanding of those aquifers, 
water flow, and recharges as you mentioned.
    One of the key elements that we are beginning to work on 
are the models that link groundwater flow and surface water 
flow so that we get a full understanding of the full water 
budget in any particular area.
    Mr. Cole. Extraordinarily important in a lot of states with 
water disputes back and forth now being so common, not just in 
the southwest. We are now having them with Texas because we are 
relatively water rich, and they have got the huge growing 
population. We are frankly just not sure how much we can pull 
out of the ground to meet our needs, and we are very worried 
about overusing the aquifers we have.

                    NATIVE AMERICAN TRIBAL RELATIONS

    One other area of questioning and I was pleased, and we 
talked about this at length in the office, and thank you for 
the publications somebody sent over today which was great, but 
you have an excellent working relationship with a lot of tribes 
in the country, and we would be very interested in knowing sort 
of for the committee's sake the scale of activity and the 
different things that you do with the Indian tribes.
    Ms. Kimball. Well, I can provide a general overview and 
then what I would like to do is to be able to provide a written 
response with more detail.
    Mr. Cole. Absolutely.
    Ms. Kimball. We have a coordinator whose responsibility it 
is to work with all of our regions, and most of the activity 
takes place through our individual science centers and our 
scientists. We work very closely with the various Tribal 
Nations in terms of doing various kinds of sampling and 
studies.
    For instance, we have studies going on right now in the 
desert southwest with the Navajo Nation, looking as climate 
change and as rainfall patterns change, what does that do for 
the potential generation of dust-bowl type areas.
    We work very closely in the pacific northwest with the 
Chehalis Tribe, and they are integral to our water monitoring 
efforts, water quality monitoring efforts.
    We have a program for Native American interns, and we are 
planning to expand that program. One of the things that we are 
anxious to do is to be able to attract a new cohort of young 
scientists that bring that perspective out of the Tribal 
Nations into USGS.
    I am meeting next week with the Presidents of the DOI 
Tribal Universities, one in Lawrence, Kansas, one in Texas, to 
talk about ways to expand that effort.
    So one of the key things that we want to do with the Youth 
Conservation Corps Funding that is proposed in our budget is to 
be able to work much more closely with the Tribal universities 
to be able to attract those young scientists into the Survey.
    Mr. Cole. Well, I just want to again note one thing for the 
record, which was just I was amazed at the range of things you 
do. I mean, the title of the agency is not at all indicative of 
the just extraordinary range of work that you are engaged in. 
So I just thank you very much.
    Yield back, Mr. Chairman.

            NATIONAL CLIMATE CHANGE WILDLIFE SCIENCE CENTER

    Mr. Dicks. Thank you. I am also pleased to see that you 
have requested a $5 million increase for the National Climate 
Change and Wildlife Science Center. What has the new center 
accomplished so far this year, and what are your plans for the 
$5 million increase?
    Ms. Kimball. Well, we are really excited about this center, 
and we very much thank the Committee for the funds that it has 
provided to get this started. As you know, we have designed 
this as a research center without the bricks and mortar. So we 
are planning on devoting the funds associated with this 
directly to science products and science applications, not to 
an infrastructure.
    This past year we have been working through a series of 
workshops with partners that range from other Federal agencies, 
to universities, to NGOs to identify the key set of goals, 
objectives, and key issues that this center should focus on. We 
recently, within the last couple of weeks, had a workshop at 
Patuxent to do some final design for the first element of this 
center, which would be a regional hub in the southeast.
    With the funding that was provided through the 2009, 
Omnibus Bill we anticipate being able to establish the National 
Leadership Office and then put in place probably two, maybe 
three of the regional hubs. Our intention is to have regional 
hubs located at universities or in conjunction with our other 
partners. This is truly a partnership effort.
    The regional hubs then reach out to a number of local 
application offices that include scientists from universities 
and resource managers from other bureaus. They work together on 
locally-specific issues that will lead to better application of 
models for adaptation to climate change.
    With the funds for next year we believe that we can 
establish the full complement of six regional hubs and have 
this as a fully operational activity with science projects 
underway and in place on the ground.
    Mr. Dicks. Well, you know, we are very interested in this. 
We want you to keep us involved in briefings so we know what is 
happening because we are very interested in this.

                         GREAT BODIES OF WATER

    On the great bodies of water, the Great Lakes, the 
Chesapeake, and Puget Sound. I was on Governor Gregoire's Puget 
Sound Partnership Committee, and then legislation in our state 
was passed to create a partnership to be the lead like the 
Chesapeake Bay Foundation and the Great Lakes Office of EPA. 
And I see now that EPA is going to take more of a role on the 
Chesapeake.
    One of the things that we talked about was that there is a 
need, we think, in Puget Sound to have a scientifically-
credible plan. In other words, it is one thing just to go 
through the list of the invasive species and point source, non-
point source, various aspects of work that would be done, but 
there has to be somehow pulled together a plan that then is 
reviewed scientifically in order to make sure that whatever we 
do is going to lead to recovery. The GAO has investigated both 
the Chesapeake and the Great Lakes, and they found that there 
was a lack of accountability. My phrase is ``random acts of 
kindness.'' We are doing all these nice things, but is it going 
to lead to recovery?
    And I think we have a right, rather than just keep pouring 
the money into this thing to hold the locals, the Puget Sound 
Partnership, the Chesapeake Bay Group, and the Great Lakes 
office to develop a credible plan that is scientifically 
credible.
    What we did out there is we took a group of independent 
scientists to review the plan. I do not think you can just have 
the people at EPA or USGS or the Fish and Wildlife Service 
review their own plan. I think you got to have an independent 
group.
    And I guess my question then is who should do this? Is this 
something that you turn to the National Academy of Sciences 
for? Or do you put together a group like we did, a group of 
scientists within our area, in the Pacific Northwest, who had 
the expertise on Puget Sound issues? How do you do it? Because 
I think it has to be done, and I think the Great Lakes is going 
to develop a new plan for 2011, and they are asking for a very 
substantial amount of money. I think if we are going to give 
them that money we have to insist that they have a credible 
plan, an action agenda and a credible plan to implement the 
agenda and that it will lead to recovery.
    Ms. Kimball. Well, I agree with you, and I think you will 
find that most of the scientists in USGS would absolutely agree 
with that. Peer review, credible peer review is absolutely the 
hallmark of science, and it is what we rely on to be able to 
certify to you, to the taxpayer that, in fact, the science that 
we do is appropriate, that it is well-founded, that it is 
accurate, and that it addresses the issue.
    And so in that regard having a good science plan and being 
able to see some clear direction I think really helps inform 
the overall activities as you decide what it is you are going 
to do to get to recovery.
    We have had over the years a very long and very productive 
working relationship with the National Academy of Science. We 
have found that they have provided a lot of very thoughtful 
overviews of USGS work and thoughtful sets of directions for us 
to follow that then have informed where we have gone when we 
developed a science plan.
    That being said, we have also been very pleased to be part 
of the efforts to develop the science directions, not only in 
the Puget Sound but in places like the Grand Canyon, in 
Chesapeake Bay, the Everglades, for instance, where those plans 
do have reviews that are put together through the consortium 
that is working on the activity.
    We have had a very long and productive working relationship 
with the National Academy of Science, and they have provided 
good information.
    Mr. Dicks. So if we are looking for somebody to do an 
independent review, that would not be a bad place to look. This 
committee has used the National Academy of Sciences over the 
years to look at some critical things.
    Ms. Kimball. That is a correct statement. It would not be a 
bad place to look.
    Mr. Dicks. All right. Mr. Hinchey, I am very sorry.
    Mr. Hinchey. Oh, no. I am very happy that I was here to 
listen to you, and I must say that I am very impressed with the 
statements that you make and the questions that you ask in the 
context of these hearings.
    Mr. Dicks. Thank you.

               NATIONAL STREAM GAUGE INFORMATION PROGRAM

    Mr. Hinchey. I also want to thank you very much for 
everything you have done. I thank you for the meeting and the 
discussions that we have had. I just wanted to talk a little 
bit more about that Stream Gauge Program because it is a 
serious issue, and the importance of it was recognized when it 
was set up some time ago. I am not even sure when it was set up 
but quite some time ago. How long has it been around?
    Mr. Dicks. One hundred years.
    Ms. Kimball. We have gauges that have been operating for 
100 years.
    Mr. Hinchey. One hundred years. Yeah. That is what I 
thought. So that is very, very important, and unfortunately, 
like many of the internal needs of this country, over the 
course of the last several decades a lot of that has been 
ignored, and they are falling down, and sometimes they are not 
even getting supported. We just had an effort in part of 
upstate New York to bring back some of these stream gauges. We 
had some success in doing that, and I very much appreciate you 
for the efforts that you have been working on trying to do 
this.
    These things are very important, important for a lot of 
reasons, including assessing flooding and the potential for 
flooding and assessment of the kind of damage that flooding is 
likely to do, and there are a lot of places that have had 
flooding recently, not just in the state that I represent but a 
lot of other places around the country.
    So I am hoping that something more can be done, and I 
wonder if you could tell us how much additional funding would 
the agency need in order to ensure that the stream gauges get a 
high priority and that no more of them are going to be 
eliminated, and then over time, over a short time at least, 
some of them can be put back. What would be needed to try to 
achieve that?
    Ms. Kimball. Well, as I mentioned earlier, in order to 
operate and maintain a gauge, the cost is approximately $15,000 
a year. Our Stream Gauge Network is in excess at the moment of 
7,000 gauges, approximately \2/3\ of those are associated with 
the National Flood Warning System, so they directly relate to 
that. The total cost if you were to look at a total Federal-
only program of maintaining the gauges would be at about $130 
million, thereabouts.
    We operate the Stream Gauge Network now through a network 
of about 850 cooperators and partners across the country. There 
is a strength to that as well as a weakness, and the strength, 
of course, is the real commitment on the part of local 
municipalities to the stream gauging effort, and the fact that 
the Stream Gauge Network directly supports the local 
communities.
    On the other hand, it also means that when we have fiscal 
issues that affect states and local communities. It is more 
difficult to maintain continuity in the Stream Gauge Network, 
and so we end up with the problems that we have been struggling 
with this past year of portions of the network going down. We 
work very hard to bring the network back up, but then that 
leaves gaps in the data record, and having the long-term record 
is very helpful for us to provide information to better 
understand issues associated with drought patterns, with 
climate change, with being able to develop the models to 
predict potential water-related issues.
    So having the continuity in the gauges in also very 
important to us.
    Mr. Hinchey. The importance of this was recognized 100 
years ago when these things were set up, and unfortunately now 
so many of them have been drifting away.
    I have asked about how much money would be used, and I 
think that that is something that I hope you would look into 
and give us specific amounts of funding that would be needed. 
You mentioned the amount that would be needed across the board.

                 AMERICAN RECOVERY AND REINVESTMENT ACT

    I wonder also if in order to prevent these stream gauges 
from being taken down or being ignored, if it might be possible 
to use some of the stimulus funding that is available to 
prevent them from just disappearing, keeping them moving, 
keeping them alive.
    Ms. Kimball. One of the challenges with the stimulus funds 
is that there is a very tight timeframe for spending the money, 
and it is one-time funds, and so we made a deliberate decision 
to not use the stimulus funds to incur new long-term 
obligations where we did not have any guarantee that we would 
be able to maintain or operate any particular entity, whether 
it was stream gauge or a facility out into the future.
    That being said, the decisions that we have made about 
using the stimulus funds as they pertain to the Stream Gauge 
Network focuses on improving the communications capabilities 
that will bring us into line with the technology that is going 
to be necessary for the satellite transmission of data from the 
NOAA satellite that we use as our vehicle for the transmission 
of these data, and transform its current communications package 
into a new one in 2013. In addition, we have been using the 
stimulus funds for projects associated with the deferred 
maintenance associated with the Stream Gauge Program, including 
removing cable ways, old wells, that sort of thing.
    We have been doing these kinds of things each year slowly 
with appropriated funds. So there is, in fact, a cascading 
effort, and it is not a large amount of money, but it will in 
future years free up money in our appropriated funds that we 
then can look to realigning in terms of our support for the 
Stream Gauge Program.
    And I want to reassure you, Mr. Hinchey, and the committee 
just how seriously at USGS we take this issue and how much we 
value those partnerships with the states and how important the 
continuity in the Stream Gauge Program is to us.
    Mr. Hinchey. Well, I recognize that, and I very much 
appreciate it, and I just hope that we can work with you 
effectively to keep this thing alive and as effective as it 
should be. And I thank you very much.
    Mr. Dicks. Thank you, Mr. Hinchey.
    Mr. Simpson.

                          SUCCESSION PLANNING

    Mr. Simpson. My friend talked about the 100-year-old stream 
gauge. What about employees?
    Ms. Kimball. I am not sure we got a point there.
    Mr. Simpson. I am coming across more and more agencies that 
are concerned about, you know, the baby boomer age. Are you 
facing that within your agency, the loss of the institutional 
knowledge because of impending retirements, and what are you 
doing about it?
    Ms. Kimball. Absolutely we are, and I am often asked in our 
leadership courses what keeps you awake at night, and the 
succession planning piece is something that does keep us awake 
at night.
    We give out more 40 and 50 and 60-year pins than you would 
think. One of the real benefits in USGS is that our scientists 
are incredibly dedicated, and even when they are eligible to 
retire, they stay on either as employees or they retire and 
come back as emeritus scientists and commit themselves to the 
science.
    But that being said, we are, in fact, skewed towards the 
upper-age brackets within our workforce, and in the past years 
it has been very difficult for us to be able to bring on 
sufficient new scientists into the organization to have some 
overlap and have, again, the continuity in the scientific 
workforce that we would anticipate as retirements take place.
    Mr. Simpson. Are fewer students going into college in the 
field?
    Ms. Kimball. It depends on which part of the field you are 
talking about. We have a very broad set of capabilities and 
capacities, but one of our challenges, of course, is, in fact, 
to attract young students into not only the natural sciences 
but to value public service as a career objective. To us that 
is telling us that we need to start working with students at a 
much younger age than you would think, and so we have. In fact, 
we have started to develop programs with high school students 
to give them the opportunity to see the exciting science that 
takes place and encourage them, follow their careers through 
into college so that they see the value in public sector 
science as a career objective.
    We have instituted several programs to bring talented young 
scientists into the organization. One of our hallmarks is the 
Mendenhall Post-Doctoral Program, and that, again, gives a real 
opportunity to very, very highly-qualified young scientists to 
come in, but we are talking small numbers relative to the 
potential that we would have for retirement.
    Mr. Simpson. Yeah.
    Ms. Kimball. We are absolutely committed to taking a very 
serious look at that recruitment strategy and that interaction 
with young students and young scientists, new scientists early 
in their careers. But, again, the real challenge is to engage 
students early enough so they start their college career 
thinking about public sector science.

            NATIONAL CLIMATE CHANGE WILDLIFE SCIENCE CENTER

    Mr. Simpson. As a follow up to the Chairman's question on 
the Wildlife Science Center, Fish and Wildlife Service is also 
proposing something very similar with their regional hubs and 
landscape conservation centers. The Park Service, BLM, and 
Forest Service also seem to be doing similar things.
    But there is only one map of the United States. How are all 
of these different landscape efforts tied together, and are 
they complementary?
    Ms. Kimball. I can say that each of those bureaus that you 
identified have been part of the planning effort for the 
Climate Change and Wildlife Science Center. As that center has 
developed, and the strategic plan for the development of that 
center has developed, it was done in the context of knowing 
what other plans are in other bureaus.
    So every effort is made so that this does not duplicate the 
effort, that we are not creating yet another cadre of the 
landscape conservation centers.
    Again, I would like to ask Sue Haseltine, who has been 
directing this effort, to give you a bit more detail. She has 
been out on the landscape talking explicitly to each of these 
agencies to ensure that we have complementary, not conflicting 
agendas associated with the development of the center.
    Mr. Simpson. Okay.
    Ms. Haseltine. We are trying to develop this both with our 
science partners across the Federal Government, the university 
community, and with our stakeholders in the resource management 
community. So, for instance, the Fish and Wildlife Service and 
the Park Service and the Forest Service and NOAA have been on 
our steering committee from the beginning, and we have at least 
within the Department of Interior come to the consensus that 
these regional climate science hubs in the center will provide 
the regional focus for providing information to all those 
resource management communities. We will then work together in 
partnership to apply it to their specific mission.
    So while I agree with you that many of the documents are 
confusing because it seems like we are talking about the same 
things, we really are talking about specific roles and 
functions at the regional and local application levels so that 
we do not duplicate effort, and in fact, we are complementary.
    In the science community, for instance, we are working hand 
in hand with NOAA and NASA to use their downscale climate 
information and then derive products for ecology and biology. 
We are working with the Forest Service on ecological models for 
the systems that they predominantly work in because they have 
the expertise, and we want to build on that. We do not want to 
duplicate it.

                         GREAT LAKES INITIATIVE

    Mr. Simpson. Okay. In the Great Lakes Initiative I suspect 
Canada has a role to play in this? And are we working with 
them? Is it a cooperative effort with Canada, because, you 
know, I mean, if we work on half those Great Lakes and the 
other half go to heck.
    Ms. Kimball. I can tell you USGS works very closely through 
both the Council of Lake Committees and the bi-national effort 
with the Lake Committees on all of our research in the Great 
Lakes. The activities that take place associated with our role 
to understand populations and factors that affect the Great 
Lakes fishery as a whole are done as part of a bi-national 
effort.
    Mr. Simpson. Okay.
    Ms. Kimball. Multi-national if you include the Tribal 
Nations, which are also separate entities in the Great Lakes 
efforts.

                            ARCTIC ECOSYSTEM

    Mr. Simpson. Okay. We all know that polar bears are in 
trouble because of melting sea ice. They have become kind of 
poster children to a large degree. On Monday Fish and Wildlife 
Service agreed to make an initial determination of whether the 
pacific walrus should be listed. They, too, depend on sea ice.
    The 2010 budget includes $4.2 million for arctic ecosystem 
research. What we do not know about arctic ecosystems, and what 
are we trying to find out, and what should we know about polar 
bears and walrus that we do not know.
    Ms. Kimball. Well, it is a little hard to tell you what we 
do not know about walrus if we do not know it.
    Mr. Simpson. Yeah. What are we looking for?
    Ms. Kimball. Right. I think one of the really important 
things that has come out of research that USGS has done over 
this past year is to really focus on the complex issues in high 
latitudes, and part of that is associated with sea ice, and 
yes, polar bears are poster children for that. But there are a 
whole suite of other activities that are embodied in our 
research there in the high latitudes. Everything from what 
happens with melting permafrost and how that effects the 
ecosystems to how differing ice packs affect the coastal 
erosion and coastal aspects. Water quality and water issues, 
again, associated with permafrost melting and release of carbon 
that is stored in the areas that are at the moment within the 
permafrost that would then be released.
    Because of a number of factors, not the least of which is 
associated with access, and the very complex interactions 
associated with cold region ecosystems, that we do not have the 
kind of information or many things for that matter, we do not 
even have a good estimate of the walrus population because many 
of the techniques that we would use in the lower 48 contiguous 
states are not available to us in the very high latitudes. We 
are in the process of just developing the kinds of models that 
we need in order to predict and project what the impacts of 
various factors would be on various species.
    I think another important aspect, of course, is that we are 
beginning to look at this from an ecosystem perspective, so we 
are not looking at it on a species-by-species perspective, and 
that is another element within the USGS science plan that I 
think is very important. That was one of the elements when we 
start looking at how habitat varies. You are looking at both 
the physical and biological systems together, which is a real 
strength with USGS with the biology component and the physical 
science component co-located within the bureau.
    Mr. Simpson. Well, I appreciate that, and again, thank you 
for being here and thanks for your testimony and for the work 
that you do. I think the USGS probably maintains one of the 
highest levels of credibility in their science among the public 
and among other scientists. So I appreciate what you do and 
look forward to working with you on this.

                        WATER ISSUES IN THE WEST

    In reading your testimony and stuff I noticed you sent over 
a few maps, and I was interested in listening to Mr. Cole 
about, you know, one of the things we have in the west as he 
mentioned, and I guess they have it in Oklahoma, is this idea 
that over the last 10 years has kind of become prevalent, we 
always thought that there was surface water and there was 
groundwater, and we managed the two differently, and we have 
water wars because of it going on and trying to conjunctively 
manage groundwater and surface water is something new in the 
west that we are trying to deal with. So the work that you have 
done there has been very important to us as we try to deal with 
those issues.
    But in your testimony you sent over three maps; one was the 
states with the most rapid population growth, and then the 
states facing extreme drought, and the same states with water 
reductions, water supplies reduced due to climate change in the 
future, and it is amazing that those same states that have 
predicted reduced water supplies, that are going to face 
extreme drought conditions, have the highest population 
potential growth. And also in the west those are the ones that 
have the greatest fire hazards and wildfires in the forests and 
other things.
    You do not have to be a scientist to draw an arrow between 
these things, so I appreciate your work, and I look forward to 
working with you.
    Ms. Kimball. Thank you very much.
    Mr. Simpson. Thank you.
    Mr. Dicks. Mr. Hinchey.

                          CARBON SEQUESTRATION

    Mr. Hinchey. Thank you very much, Mr. Chairman.
    I just wanted to ask you a question about climate change. I 
understand that you are engaging now in investigations or 
research into biological and geological carbon sequestration, 
and frankly I am very doubtful that there is any way that we 
can figure out how to burn coal in ways that we can take care 
of all of the emissions that come as a result of that.
    But nevertheless, you are engaged in this, you know, very I 
think intelligently and looking at it very carefully and maybe 
what you come up with might make some sense, might be useful.
    I wonder about the potential danger, though, of putting 
huge amounts of this material underground, and I am wondering 
if that is part of your investigation, part of the things that 
you are looking at, and if you could tell us a little bit about 
what your plans are and what you are doing on this issue.
    Ms. Kimball. Well, for the geologic carbon sequestration as 
mandated through the Energy Independence and Security Act in 
2007, we have just completed a methodology for assessing areas, 
underground areas associated with the potential for carbon 
sequestration, and that report is out for public review. The 
public review period will close in a couple weeks, and then the 
Federal peer review process will also take place, and we 
anticipate that that will be published in August. In 2010, we 
will actually start the assessment process.
    And that assessment will provide the kind of information 
that you are addressing. What we are looking at is what 
geologic formations exist in which areas that have the greatest 
potential for secure storage of carbon. So part of that is 
looking at porosity, part of it is looking at fracture zones, 
part of it is looking at fault systems where if you inject 
carbon, will it stay put, or will it migrate back to the 
surface. And then the other piece--and we do this as a 
probabilistic assessment and so we are looking at what the 
probability is of being able to maintain secure storage.
    As part of that there is the risk analysis that then 
establishes, again, what is the probability for secure storage, 
and what is the risk that would be associated with using a 
particular formation as a reservoir in which to store carbon. 
Then the decisions about whether to assume that risk, of 
course, will be made in combination of Federal and industry 
interactions when it comes time to determine whether or not the 
technologies will be employed to use that.
    Mr. Hinchey. So I assume at this point you have some 
assumptions of the risks and some at least vague understanding 
of what the risks are and might be but not yet have you 
determined specifically what those risks are, how serious they 
could very well be. Not just of the gas coming up out of the 
places where they were put but the concentration of those 
amounts over period of time and the difficult danger that that 
might ensure if that goes on for some significant period.
    Ms. Kimball. As you might well imagine, we have more 
knowledge about some areas than we have about other areas. 
Areas that have already been well explored where you already 
have developed oilfields or natural gas fields, we know more 
about the geologic formations there than we do in other areas 
where we are providing assessments based on our knowledge of 
geologic conditions. Again, the degree of our explicit 
knowledge about an area will also factor into our ability to 
assess that probability factor.
    Mr. Hinchey. Well, that is going to be very interesting to 
see.
    I understand that this surmises that only about 25 percent 
of the emissions can be controlled and placed in the areas such 
as what is being proposed here. Is that correct?
    Ms. Gundersen. As you know, DOE right now is conducting 
injection experiments in a number of the states, but 
CO<INF>2</INF> has very similar physical properties to 
petroleum, and so in our assessments we are using a lot of the 
same assumptions for petroleum, and that includes for petroleum 
under pressure. In certain kinds of rock types you might have 
that kind of loss and in other rock types not.
    So our assessment relied on areas in similar kinds of 
trapping mechanisms that are used for petroleum.
    Mr. Hinchey. Yes.
    Ms. Gundersen. We assume because there are caps, just as in 
most petroleum reservoirs, that they would suffice as a cap for 
the CO<INF>2</INF> because they successfully cap both the oil 
and the gas. The assessments are based on that, and the 
assumption of the containment of the gas is based upon that.
    Mr. Hinchey. So do we know what you might expect to be able 
to control of all the emissions that we are likely to continue 
to experience?
    Ms. Gundersen. What you would want is a good reservoir that 
has a good cap, just like we have with the regular petroleum 
reservoir. The problem will come as we look at rocks, 
reservoirs that are not currently petroleum reservoirs, where 
we do not understand the properties as well. That is one of the 
tests that DOE is conducting right now with some of the 
injection laws.
    Mr. Hinchey. Okay.
    Ms. Kimball. I think, Mr. Hinchey, the maybe short answer 
to the question is that at the moment we are not at the point 
where we know enough to be able to say 25 percent of current 
emissions could be contained.
    Mr. Hinchey. I assumed that. Okay. Thanks very much.

                          ARCTIC OCEAN MAPPING

    Mr. Dicks. Tell us what you are doing with the Arctic Ocean 
and other ocean sea-floor mapping. You have got a $1 million 
increase for a total of 4 million for Arctic Ocean mapping.
    Ms. Kimball. That is correct. This is part of the effort to 
provide information that would go into a U.S. package or 
delineation of the extended Continental Shelf. The national 
task force for this is led through the Department of State, and 
we are a full partner within the Department of State for 
providing scientific information. NOAA is also a partner as 
well as a number of academic institutions.
    Mr. Dicks. What are we trying to do?
    Ms. Kimball. The law as it pertains to the extended 
Continental Shelf is providing the opportunity for countries to 
identify jurisdictional boundaries that extend past the current 
national limits. Those boundaries are determined by a 
combination of factors that defines what they are calling the 
extended Continental Shelf, which includes thickness of 
sediment and slope characteristics.
    Within the Arctic Ocean area, specifically the Beaufort Sea 
and the Chukchi Sea, the reason why it is important to U.S. and 
Canada and Russia is the potential for oil and gas and mineral 
extraction in those areas. That is why having a good 
delineation of the extended Continental Shelf would be 
important to the U.S. if we sign onto the law of the sea. 
Russia and Canada have already been preparing their packages, 
which are submitted to an international committee to review.
    Mr. Dicks. Are these claims for areas?
    Ms. Kimball. Sort of. Yeah. I mean, that would be one way 
to do it, but it is defined as a mechanism under the law of the 
sea to establish a jurisdictional boundary.
    Mr. Dicks. Okay.
    Ms. Kimball. It had been determined by the U.S. National 
Task Force that the greatest potential for the United States' 
interest would be in the arctic, and so that is why we are 
doing the work there. We have conducted two sea-floor mapping 
exercises. The $1 million enables us to finish the analyses of 
the information and the data that was gathered in those cruises 
and then to undertake the responsibility that we have been 
asked to do on behalf of the National Task Force, which is to 
develop the data management framework on behalf of all of the 
agencies and academic entities that are providing information 
into this effort.
    With funds in 2010, we will finish the analyses of the data 
that we have already collected, we will establish the data 
management framework, and we will be a full participant in the 
development of the United States package.
    Mr. Dicks. Do you work with MMS on this?
    Ms. Kimball. Absolutely. MMS is involved.

               FISH DISEASE, VIRAL HEMORRHAGIC SEPTICEMIA

    Mr. Dicks. VHS, the terrible fish disease----
    Ms. Kimball. Yes.
    Mr. Dicks [continuing]. Can you tell us, are you working on 
this? This disease is devastating fish in the Great Lakes I am 
told. Mr. Obey, our Chairman, I know has been very concerned 
about this.
    Ms. Kimball. We are working on it. Two years ago when it 
emerged we redirected internally some of our funds to begin 
working on it. Several of our science centers are actively 
engaged. Most actively engaged is our Western Fisheries 
Research Center, and they are developing the DNA analyses to 
improve our knowledge of the virus itself as well as developing 
methods for rapid detection and quantification for this virus.
    We are also doing research in the Upper Midwest 
Environmental Science Center that is looking at a disinfection 
process to see if they can eliminate this virus from eggs in 
northern pike and walleye. This work is ongoing, and we also 
agree that it is a very important effort to pursue.
    Mr. Dicks. Do you have enough resources to pursue this 
vigorously?
    Ms. Kimball. Well, we have been doing this through the 
redirection of funds and changing our priorities for activities 
within those science centers. We at the moment are using about 
$250,000 per year dedicated to this effort.
    Mr. Dicks. That does not sound very aggressive to me.
    Ms. Kimball. Needless to say that the importance of this 
particular effort, there are, I think, a lot of----
    Mr. Dicks. Are others working on this besides you? I mean, 
is this the whole government effort on this thing?
    Ms. Kimball. Well, we are----
    Mr. Dicks. I am sure the states are working on it.
    Ms. Kimball. Right. The states are working on it.
    Mr. Dicks. Fish and Wildlife.
    Ms. Kimball. USDA is working on it, APHIS, Fish and 
Wildlife Service are working on it as well as the States. So it 
is an important effort across both the Federal Government and 
the state governments.

                            INVASIVE SPECIES

    Mr. Dicks. Another thing we learned about the Great Lakes 
in our hearing was they have 188 invasive species and the 
number is growing, and they have had a lot of problems with 
this. A lot of it comes in from shipping vessels. At one point 
there was an interagency group on invasives. Is that still in 
existence, and are they doing anything?
    Ms. Kimball. It still is in existence. For that matter 
within the Department of Interior we have representatives to 
that group. Are they engaged in this particular effort?
    Voice. No.
    Mr. Dicks. I am not talking about this disease now.
    Ms. Kimball. Right.
    Mr. Dicks. I am talking about another 188 invasive species.

                              NATURE SERVE

    Please summarize your partnership with the network of state 
and natural heritage data programs and the Nature Serve 
coordinator and how this helps get data on rare and sensitive 
plants and animal species and habitat in the hands of land 
managers and others who work on site-specific projects.
    Ms. Kimball. We have been working with Nature Serve over 
the past 3 years to do exactly that, to be able to pull this 
kind of information into a database that then could be widely 
used. We anticipate that this work will be completed this year 
in 2009, so the Administration's budget for 2010 does not 
reflect any funds to continue the work.
    Mr. Dicks. It is pretty inexpensive, is it not? I mean, I 
think this is a very good program.
    Ms. Kimball. Oh, we have been spending just short of $1 
million a year on this, and the partnership with Nature Serve 
has been a very valuable one. I anticipate that we will 
continue to work with them as projects emerge that meet both 
their priorities and ours.
    In this particular case one of the things that has been 
really valuable is being able to reconcile the data that has 
been developed through Nature Serve with a lot of other systems 
and other information collected in order to have a larger 
interoperable, multi-access data set available for multiple 
users. So the effort has been very valuable. As I said, we 
believe that we will be able to have it completed this year.
    Mr. Dicks. What does completed mean?
    Ms. Kimball. That the work that moves to update the 
existing species profiles and to reconcile the data in the 
Nature Serve database with our other systems will be done so 
that we can develop range maps for certain pollinators and so 
that those databases are ready to accept any new information 
that may come in from sources.
    Mr. Dicks. Mr. Hinchey, any further questions?
    Mr. Hinchey. Just one briefly if I may, Mr. Chairman.
    Mr. Dicks. Yes.

                           ALTERNATIVE ENERGY

    Mr. Hinchey. I know that Secretary Salazar is focusing to 
some extent, in addition to a lot of other things, on 
alternative energy and some new energy program, and I am 
wondering to what extent the focus of that energy issue is 
really on alternative energy, maybe even geothermal as well as 
solar perhaps.
    Ms. Kimball. Well, within our budget request for 2010, we 
have $3 million that has been identified for research in 
alterative energy and renewable energy systems. One of those is 
geothermal energy, and our intent is to be able to develop a 
better understanding of the mechanics and the physics of 
geothermal energy and to develop the mapping assessment of 
where those resources exist.
    In addition, we are also looking at the potential 
environmental impacts associated with developing solar energy 
fields, wind energy fields, and biofuels. So, again, the 
environmental biological piece is another piece of research 
that we anticipate undertaking in that effort.
    Mr. Hinchey. Good. I think that is very good. I think that 
will be very helpful and very useful.
    Ms. Kimball. Thank you.
    Mr. Hinchey. Thanks.
    Mr. Dicks. Let me ask you about sequestration.
    Ms. Kimball. Sure.

                          CARBON SEQUESTRATION

    Mr. Dicks. We put some money in last year to get this thing 
started because Dr. Myers pointed out to us that there had not 
been a lot of research done on sequestration. We knew something 
about oil and gas fields and taking carbon dioxide and putting 
into those fields, but you know, if we are going to make this a 
major part of our national policy, he thought we needed to do a 
lot more scientific research on how this works in other areas, 
and apparently you have a geological way of doing this and a 
biological way of doing this.
    Can you explain what you are doing on this subject and what 
you think about it?
    Ms. Kimball. Well, as I mentioned, we have finished the 
methodology to do a national assessment for geological carbon 
sequestration, and we anticipate that the reviews of those 
documents and that methodology will be complete by the end of 
the summer and will be beginning in 2010, to actually conduct 
those assessments in specific-identified areas. There will 
probably be an initial focus on Federal lands.
    For biological carbon sequestration we have just 
constituted a core team of exceptional scientists I have to say 
to develop the national assessment framework for biological 
carbon sequestration within the next year, but within that they 
have also identified methodologies to establish a framework and 
pilot projects to do focused experiments within specific 
ecosystem types to better understand carbon cycling in various 
ecosystems.
    Again, the biological carbon sequestration effort will have 
a large component that is risk analysis and the tradeoffs. If 
you create a greater fuel loading because you are developing 
forested areas, then what is the associated risk for fire, for 
instance, as an example, so that the risk analysis piece is 
important.
    The other piece that will figure into the biological carbon 
sequestration work is the socioeconomic aspects and economic 
tradeoffs for resource evaluation. And so we are ready to 
start. The scientific team that will be working on this has 
been identified. They will be beginning their work the week 
after next, and we have a timeframe for biological carbon 
sequestration effort to be complete in April of 2010.
    Mr. Simpson. Mr. Chairman.
    Mr. Dicks. Yes. Mr. Simpson.
    Mr. Simpson. If I could follow up on that, on the 
biological sequestration you are talking mostly on public 
lands.
    Ms. Kimball. Not necessarily.
    Mr. Simpson. Working with private landowners? Because 70 
percent of the lands are owned by private individuals.
    Ms. Kimball. We are working with ecosystem types, and so 
certainly private landowners have been, especially when you 
talk about agricultural impacts, very much engaged in that 
discussion. When I mentioned that we will probably be looking 
at Federal lands first on the geologic carbon sequestration, 
that relates to a departmental interest in understanding what 
resources are available on Federal lands to help achieve the 
Administration's goal for energy independence.
    And so we anticipate that will be a departmental priority.
    Mr. Dicks. All right. Well, thank you. You have done a very 
good job, and we appreciate your thoroughness and the good work 
of the USGS.
    Ms. Kimball. Thank you very much for the opportunity.
    Mr. Dicks. The meeting stands adjourned. Thank you.

    [GRAPHIC] [TIFF OMITTED] T2296C.127
    
    [GRAPHIC] [TIFF OMITTED] T2296C.128
    
    [GRAPHIC] [TIFF OMITTED] T2296C.129
    
    [GRAPHIC] [TIFF OMITTED] T2296C.130
    
    [GRAPHIC] [TIFF OMITTED] T2296C.131
    
    [GRAPHIC] [TIFF OMITTED] T2296C.132
    
    [GRAPHIC] [TIFF OMITTED] T2296C.133
    
    [GRAPHIC] [TIFF OMITTED] T2296C.134
    
    [GRAPHIC] [TIFF OMITTED] T2296C.135
    
    [GRAPHIC] [TIFF OMITTED] T2296C.136
    
    [GRAPHIC] [TIFF OMITTED] T2296C.137
    
    [GRAPHIC] [TIFF OMITTED] T2296C.138
    
    [GRAPHIC] [TIFF OMITTED] T2296C.139
    
    [GRAPHIC] [TIFF OMITTED] T2296C.140
    
    [GRAPHIC] [TIFF OMITTED] T2296C.141
    
    [GRAPHIC] [TIFF OMITTED] T2296C.142
    
    [GRAPHIC] [TIFF OMITTED] T2296C.143
    
    [GRAPHIC] [TIFF OMITTED] T2296C.144
    
    [GRAPHIC] [TIFF OMITTED] T2296C.145
    
    [GRAPHIC] [TIFF OMITTED] T2296C.146
    
    [GRAPHIC] [TIFF OMITTED] T2296C.147
    
    [GRAPHIC] [TIFF OMITTED] T2296C.148
    
    [GRAPHIC] [TIFF OMITTED] T2296C.149
    
    [GRAPHIC] [TIFF OMITTED] T2296C.150
    
    [GRAPHIC] [TIFF OMITTED] T2296C.151
    
    [GRAPHIC] [TIFF OMITTED] T2296C.152
    
    [GRAPHIC] [TIFF OMITTED] T2296C.153
    
    [GRAPHIC] [TIFF OMITTED] T2296C.154
    
    [GRAPHIC] [TIFF OMITTED] T2296C.155
    
    [GRAPHIC] [TIFF OMITTED] T2296C.156
    
    [GRAPHIC] [TIFF OMITTED] T2296C.157
    
    [GRAPHIC] [TIFF OMITTED] T2296C.158
    
    [GRAPHIC] [TIFF OMITTED] T2296C.159
    
    [GRAPHIC] [TIFF OMITTED] T2296C.160
    
    [GRAPHIC] [TIFF OMITTED] T2296C.161
    
    [GRAPHIC] [TIFF OMITTED] T2296C.162
    
    [GRAPHIC] [TIFF OMITTED] T2296C.163
    
    [GRAPHIC] [TIFF OMITTED] T2296C.164
    
    [GRAPHIC] [TIFF OMITTED] T2296C.165
    
    [GRAPHIC] [TIFF OMITTED] T2296C.166
    
    [GRAPHIC] [TIFF OMITTED] T2296C.167
    
    [GRAPHIC] [TIFF OMITTED] T2296C.168
    
    [GRAPHIC] [TIFF OMITTED] T2296C.169
    
    [GRAPHIC] [TIFF OMITTED] T2296C.170
    
    [GRAPHIC] [TIFF OMITTED] T2296C.171
    
    [GRAPHIC] [TIFF OMITTED] T2296C.172
    
    [GRAPHIC] [TIFF OMITTED] T2296C.173
    
    [GRAPHIC] [TIFF OMITTED] T2296C.174
    
    [GRAPHIC] [TIFF OMITTED] T2296C.175
    
    [GRAPHIC] [TIFF OMITTED] T2296C.176
    
    [GRAPHIC] [TIFF OMITTED] T2296C.177
    
    [GRAPHIC] [TIFF OMITTED] T2296C.178
    
    [GRAPHIC] [TIFF OMITTED] T2296C.179
    
    [GRAPHIC] [TIFF OMITTED] T2296C.180
    
    [GRAPHIC] [TIFF OMITTED] T2296C.181
    
    [GRAPHIC] [TIFF OMITTED] T2296C.182
    
    [GRAPHIC] [TIFF OMITTED] T2296C.183
    
    [GRAPHIC] [TIFF OMITTED] T2296C.184
    
    [GRAPHIC] [TIFF OMITTED] T2296C.185
    
    [GRAPHIC] [TIFF OMITTED] T2296C.186
    
    [GRAPHIC] [TIFF OMITTED] T2296C.187
    
    [GRAPHIC] [TIFF OMITTED] T2296C.188
    
    [GRAPHIC] [TIFF OMITTED] T2296C.189
    
    [GRAPHIC] [TIFF OMITTED] T2296C.190
    
    [GRAPHIC] [TIFF OMITTED] T2296C.191
    
    [GRAPHIC] [TIFF OMITTED] T2296C.192
    
    [GRAPHIC] [TIFF OMITTED] T2296C.193
    
    [GRAPHIC] [TIFF OMITTED] T2296C.194
    
    [GRAPHIC] [TIFF OMITTED] T2296C.195
    
    [GRAPHIC] [TIFF OMITTED] T2296C.196
    
    [GRAPHIC] [TIFF OMITTED] T2296C.197
    
    [GRAPHIC] [TIFF OMITTED] T2296C.198
    
    [GRAPHIC] [TIFF OMITTED] T2296C.199
    
    [GRAPHIC] [TIFF OMITTED] T2296C.200
    
    [GRAPHIC] [TIFF OMITTED] T2296C.201
    
    [GRAPHIC] [TIFF OMITTED] T2296C.202
    
    [GRAPHIC] [TIFF OMITTED] T2296C.203
    
     [GRAPHIC] [TIFF OMITTED] T2296.001
    


                               I N D E X

                              ----------                              
                                                                   Page

            Oversight Hearing on Department of the Interior

Addressing Climate Change........................................    87
Appeals and Litigation...........................................    79
BIA Issues.......................................................    72
BIA: Trust Lands.................................................    82
Business and Information Management..............................    41
Chairman Dicks Opening Statement.................................     1
Comparing Production Numbers: Oil & Gas..........................    80
Comparing Royalties within the United States.....................    70
Concerns about Revenue Collection................................     6
Congressional Interest...........................................    63
Cost of Production in the U.S. vs. Other Countries...............    81
Deferred Maintenance.............................................  5,68
Energy Production and Royalty Management QFRs...................90, 106
Environmental Protection: Oil & Gas Permits......................    75
Ethical Lapses...................................................   105
Financial Management Systems and Maintenance Problems..........101, 111
Fire Transfers...................................................    73
Future Challenges for DOI........................................     9
General QFRs....................................................89, 105
Hearing Process..................................................    65
Implementing Recommendations.....................................    61
Improving Royalty Collection.....................................    84
Indian and Island Communities....................................     4
Indian Country..................................................95, 107
Insular Affairs.............................................42, 98, 110
Interviews for Reports...........................................    78
Land Acquisition.............................................4, 97, 109
Land Management Collaboration and Climate Change.................    93
Lands............................................................    42
Law Enforcement..................................................    43
Maintenance, Health & Safety Concerns............................    42
Market Value vs. Ability to Pay..................................    77
New Challenges...................................................    63
Non-Producing Oil Leases.........................................    87
Oil & Gas Programs...............................................    40
Other Oil & Gas Management Practices.............................     7
Previous Exploitation of American Indians........................    83
Procurement Concerns.............................................    64
Questions for the Record.........................................    89
Questions for the Record Submitted by Representative Simpson.....   102
Resource Protection, Climate Change..............................     3
Resource Protection, Oil & Gas...................................     3
Resource Protection, Wildland Fire...............................     3
Revenues not at Market Levels....................................     8
Royalty-In-Kind..................................................    60
Selling Federal Lands............................................    86
Statement of Mr. Rusco, GAO......................................     7
Statement of Ms. Kendall, OIG....................................    40
Statement of Ms. Nazzaro, GAO....................................     2
The Purpose of Royalties.........................................    63
Timeframes for Reports Recommendations...........................    66
Tribal Recognition...............................................    82
Trust Funds......................................................    42
Use or Lose Leases...............................................    67
Valuing Natural Resources........................................    74
Wildland Fire....................................................    92

                    Council on Environmental Quality

ARRA: Recovery Act Projects......................................   129
Carbon Cap & Trade...............................................   146
CEQ..............................................................   170
CEQ & Other Agencies.............................................   165
CEQ Arbitrating Agency Conflict..................................   132
CEQ role in ARRA projects........................................   121
CEQ: Plan for the Future.........................................   120
Chairman Dicks: Opening Remarks..................................   117
Clean Coal and Carbon Sequestration..............................   144
Clean Energy and Emissions Reduction.............................   122
Clean Water Act Jurisdiction.....................................   145
Climate & Energy Policy..........................................   157
Climate Change.................................................152, 167
Climate Change and Human Activity................................   146
Climate Change: International Cooperation........................   148
Climate Change: Non-Federal Partners.............................   143
Coordinating Environmental Policy................................   134
Coordinating with Dept. of Interior..............................   137
Energy Development and Alternative Energy........................   153
Energy Exploration...............................................   140
Everglades and Florida Bay.......................................   149
Everglades/South Florida Restoration.............................   154
Federal Drought Action Team......................................   129
Forest Service...................................................   162
Funding..........................................................   161
Global Energy Policy.............................................   148
Global Warming Legislation--Conserving Ecosystems................   137
Great Lakes......................................................   169
Green Initiatives in ARRA........................................   120
Green Jobs and Renewable Energy..................................   139
Large Aquatic Resources..........................................   166
Litigation of NEPA Decisions.....................................   136
Mountain Top Removal.............................................   131
Mountaintop Mining/Clean Water Act...............................   162
Mr. Simpson: Opening Remarks.....................................   118
National Environmental Policy Act (NEPA).........................   150
NEPA Waiver......................................................   171
Nuclear Energy...................................................   141
Ocean Acidification............................................128, 154
Office of Energy and Climate.....................................   156
Other FY 2010 Initiatives and CEQ................................   122
Process to Site Smart Grid.......................................   143
Public Transportation............................................   161
Renewable Energy Expansion.......................................   138
Role of CEQ....................................................133, 150
Smart Energy Grid................................................   142
Staffing and Budgeting...........................................   138
Staffing at CEQ..................................................   128
State NEPA requirements vs. Federal..............................   130
Statement of Nancy Sutley, CEQ...................................   119
Van Jones........................................................   156

              Oversight Hearing on Wildland Fire Budgeting

Accountability for Wildfire Costs................................   203
Advance Cost Share Agreements....................................   214
Aging USFS Air Tankers...........................................   241
Airtanker Fleet................................................262, 285
American Recovery and Reinvestment Act (ARRA)..................266, 287
Are Lawsuits Impacting Fuels Treatments?.........................   237
Backlog of Fuels Treatments......................................   235
Benefits of Fire.................................................   239
Budget Changes to Address Problems...............................   217
Building an Economy for Forest Restoration.......................   243
Climate Change and Wildfire......................................   246
Comparing Fires to Floods........................................   210
Cost Share Agreements............................................   244
Costs to the States..............................................   213
County Planning and Building Codes...............................   205
Department of Interior Issues....................................   287
Fire Budgeting.................................................267, 291
Fire Fighting Operations.......................................259, 283
Fire Suppression and Cost Accountability..................243, 255, 280
Fire Transfers.................................................268, 291
Hazardous Fuels Reduction and State Fire Assistance............263, 286
Incentives for Communities.......................................   204
International and Other Examples.................................   211
Is There a Need for a Plan?......................................   214
Large Fires and Decision Support.................................   242
More than a Government Problem...................................   211
Multiple Plans in Place Guiding Decisions........................   234
National Fire Insurance Concept..................................   212
New Decision Support Process.....................................   217
New Fire Attack Strategy.........................................   238
New Technologies.................................................   276
Opening Statement: Mr. Dicks.....................................   173
Opening Statement: Mr. Simpson...................................   174
Potential for Fee Assessment.....................................   207
Proposing a Comprehensive Solution...............................   192
Recovery Act and Fuels Reduction.................................   236
Reduction in Timber Management, is it Related to Fire Cost?......   203
Responding to Multi-Jurisdictional Incidents.....................   240
Right Size Funding for Fuels and Fire............................   201
Some Fires Cannot be Suppressed..................................   239
State Fire Assistance by FEMA....................................   213
Statement of Mr. Kashdan, Forest Service.........................   215
Statement of Ms. Christiansen, NASF..............................   192
Statement of Ms. Nazzaro, GAO....................................   175
Strategic Fuels Treatment........................................   234
Structure Protection and Cost Share..............................   245
The Impacts of the Current Situation.............................   209
Three-Point Strategy for Fire....................................   216
Too Much Emphasis on Climate Change?.............................   247
Treating Wildfire as a Natural Disaster..........................   200
Up Front Investment to Reduce Future Costs.......................   208
Wildfire Responsibility at Every Level...........................   200
Wildfire Suppression Accounts and the FLAME Act................249, 277
Wildland Fire Aerial Resources...................................   205
Wildland Fires are Emergencies...................................   206

          Oversight Hearing on the Minerals Management Service

Activity Status of Leases........................................   346
Adjusting Royalty Rates..........................................   351
Alaska...........................................................   354
Business and National Resources..................................   331
Chukchi and Beaufort Seas........................................   391
Concern Over Production Self-Reporting...........................   325
Data Tracking and Integrity...............................360, 368, 378
Draft Proposed Program...........................................   356
Due Diligence.............................................362, 370, 382
Energy Policy....................................................   387
Environmental Concerns...........................................   388
Ethical Lapses...................................................   333
Fair Value for Oil & Gas.........................................   345
Five-Year Planning and OCS Development.....................362, 70, 381
Fixing the Royalty-in-Kind Program...............................   328
Government Revenues on World Market..............................   305
IG/GAO/RPC Recommendations................................358, 365, 375
Impact on the Industry...........................................   352
Inspecting Leases................................................   353
Inspections and Compliance................................361, 368, 379
Is the Process a Problem?........................................   348
Kerr McGee/Anadarko Case..................................363, 371, 386
Management and Royalty Collection................................   395
Management Concerns..............................................   324
New Analysis of Outer Continental Shelf..........................   350
Non-Producing Leases.............................................   330
OCS Resources.............................................364, 373, 399
Offshore Production Information..................................   337
Opening Statement: Mr. Dicks.....................................   301
Opening Statement: Mr. Simpson...................................   302
Personnel Management.............................................   345
Proposed Change for Non-Producers................................   347
Regulating Offshore Production...................................   349
Renewable Energy..........................................363, 372, 384
Revenue Collection...............................................   334
Revenue Sharing..................................................   399
Royalty-in-Kind and Royalty Rates.........................360, 367, 376
Statement of Mr. Cruickshank.....................................   335
Statement of Mr. Rusco, GAO......................................   303
Statement of Ms. Kendall, OIG....................................   318
The MMS 5-Year Plan..............................................   355
The Outer Continental Shelf......................................   356
The Process up to Production.....................................   332
The Royalty Policy Committee.....................................   336
The Royalty Relief Situation.....................................   329
Updating the Reporting System....................................   326
Valuing Lease Opportunities......................................   327
Virginia Coast...................................................   390
What Type of Fix is Required?....................................   328
Why In-Kind Royalties?...........................................   349

                    Testimony of Members of Congress

Cherry Valley Wildlife Refuge....................................   404
DOI Insular Affairs, EPA Clean Water Infrastructure..............   408
Hemlock Wooly Adelgid............................................   401
Ridgewood STAG...................................................   405
Statement of Representative Debbie Halvorson.....................   405
Statement of Representative Diane Watson.........................   407
Statement of Representative Gerry Connolly.......................   401
Statement of Representative Madeleine Bordallo...................   408
Statement of Representative Paul Kanjorski.......................   404
Storm Water, Secondary Sewer Renewal.............................   407

                Law Enforcement Issues in Indian County

Authorizing Law Enforcement......................................   478
Changes Required for Full Sovereignty............................   468
Collecting Appropriate Data......................................   472
Cooperation between States and Tribes............................   477
Cooperation Issues...............................................   437
Coordination and Training........................................   459
Criminal Sentencing in Indian Country............................   451
Defining the Need................................................   476
Detention Centers..............................................454, 486
Discussing Jury Selection........................................   470
Domestic Violence and Sexual Assault.............................   468
Drugs in Indian Country..........................................   444
Example of Jurisdictional Concerns...............................   439
Explaining Jurisdiction Issues...................................   445
Federal Prosecution Responsibility...............................   468
Finding a Solution to Crime in Indian Country....................   437
Getting More Focus on Indian Issues..............................   471
Herseth Sandlin's Tribal Law Bill................................   415
History of Jurisdictional Challenges.............................   446
Indian Health Services...........................................   473
Introduction of Theresa Two Bulls................................   415
Jurisdiction Issues..............................................   438
Jurisdictional Issues and Tribal Courts..........................   484
Justice Facilities in Indian Country.............................   418
Law Enforcement..................................................   488
Law Enforcement Challenges.......................................   457
Need for Major Reform............................................   467
Numbers of Enforcement Offices...................................   474
Opening Statement: Mr. Dicks.....................................   413
Opening Statement: Mr. Simpson...................................   414
Overall Issues............................................480, 490, 493
Past Efforts to Address Jurisdiction.............................   469
Past Reductions in Available Funds...............................   443
Potential Fix for Coordinating Funds.............................   448
Previous Efforts to Fix Problems.................................   447
Rationale for the Oliphant Decision..............................   455
Safe Trails Task Force...........................................   442
Southwest Border/Homeland Security...............................   487
Statement of George Skibine......................................   453
Statement of Joe Garcia..........................................   425
Statement of Sarah Deer..........................................   431
Statement of Theresa Two Bulls...................................   417
Substance Abuse/Methamphetamine..................................   485
Supplementing the Enforcement Budget.............................   475
The Human Impacts of Crime.......................................   418
Transportation System Funding....................................   450
Virginia Recognition Bill........................................   489

                       Department of the Interior

1872 Mining Law..................................................   545
21st Century Youth Conservation Corps..........................498, 501
American Recovery and Reinvestment Act..........................499,580
Carbon Sequestration.............................................   501
Climate Change.................................................542, 621
Climate Impacts..................................................   500
Colorado Plateau.................................................   524
Conservation Royalty on Renewables...............................   529
Conventional Energy Development..................................   500
Creating a 21st Century Youth Conservation Corps.................   556
Creating a New Energy Frontier...................................   551
Empowering Native American Communities.........................499, 502
Endangered Species.............................................543, 567
Endangered Species M-37013 Opinion...............................   543
Energy...............................................499, 539, 594, 627
Energy Development on the Utah-Colorado Plateau..................   531
Energy Policy Act of 2005........................................   532
Engaging Youth in Conservation...................................   528
Fees on Non-Producing Leases...................................523, 541
Fiscal Year 2010 Budget..........................................   499
Fisheries........................................................   569
Flight 93 Memorial...............................................   560
Former OCS Moratorium............................................   545
Global Warming...................................................   598
Great Lakes Restoration..........................................   533
Guns in the Parks................................................   562
Housing..........................................................   537
Indian Affairs...................................................   588
Indian Country...................................................   566
Indian Education..........................................502, 537, 629
Indians..........................................................   601
Insular Affairs..................................................   579
Land Acquisition/LWCF............................................   571
Land and Water Conservation Fund (LWCF)........................597, 623
Land Appraisals..................................................   521
Land in to Trust.................................................   533
Law Enforcement..................................................   599
Law Enforcement in Indian Country..............................502, 538
Management of New Lands..........................................   548
Marine Monuments.................................................   546
Minerals Management Service......................................   563
Moving Forest Service to Interior................................   622
National Environmental Policy Act (NEPA).........................   602
National Landscape Conservation System (NLCS)..................576, 600
National Park Service............................................   590
National Parks...................................................   501
National Streamflow Information System...........................   577
National Wildlife Refuges......................................568, 604
New Energy Frontier and Climate Change...........................   498
Nuclear Energy...................................................   528
Office of Surface Mining.........................................   571
Off-Road Vehicles................................................   525
Oil & Gas Development............................................   532
Oil, gas, and Oil Shale..........................................   573
Omnibus Public Lands Bill......................................499, 521
Opening Statement of Mr. Dicks...................................   495
Opening Statement of Mr. Simpson.................................   496
Outer Continental Shelf Plan...................................522, 541
Overall Questions................................................   610
Pacific Remote Islands Marine National Monument Shipwrecks.......   546
Park Partnership Grants........................................558, 622
Park Police......................................................   562
Protecting Treasured Landscapes..................................   555
Raising Fees on Oil & Gas Production.............................   621
Renewable Energy.....................................500, 526, 544, 572
Reorganization...................................................   549
Soboba Settlement Act............................................   626
Southwest Border/Homeland Security...............................   566
State Wildlife Grants                                               569
Statement of Secretary Salazar...................................   497
States and Offshore Drilling.....................................   545
Statue of Liberty................................................   519
Tackling Climate Impacts.........................................   553
Treasured Landscapes...........................................498, 501
U.S. Fish and Wildlife Service...................................   589
U.S. Geological Survey.........................................590, 607
USGS--Hazards Research...........................................   577
Valley Forge.....................................................   625
Violence Against Native Americans................................   547
Water............................................................   498
Water Crisis and the Endangered Species Act......................   530
Water Supply and Delta Smelt.....................................   530
Wild Horse and Burro Management..................................   575
Wildland Fire Management at Interior.............................   578
Youth Conservation Corps.......................................520, 621

                         National Park Service

21st Century Youth Conservation Corps............................   680
American Recovery and Reinvestment Act (ARRA) Projects...........   683
Centennial Challenge.............................................   652
Chickasaw National Recreation Area Visitor Center................   647
Civil War Battlefield Sites......................................   663
Climate Change.................................................669, 678
Construction..............................................657, 671, 691
Construction and Deferred Maintenance............................   652
Cultural Resources.............................................670, 687
Deferred Maintenance.............................................   659
Ellis Island Restoration.........................................   692
Everglades Restoration...............................649, 653, 667, 672
Firearms in the Parks............................................   640
Flight 93 Memorial...............................................   659
General Questions for the Record.................................   688
Great Lakes Restoration Initiative...............................   655
Heritage Areas.................................................654, 664
Heritage Partnerships............................................   674
Historic Preservation Offices....................................   688
Historically Black Colleges and Universities.....................   687
Jefferson & Lincoln Memorials....................................   671
Land Acquisition.................................................   653
Land Acquisition & State Assistance..............................   686
NPS Operations Budget............................................   690
Oklahoma City National Memorial..................................   648
Opening Remarks of Chairman Dicks................................   631
Opening Remarks of Ranking Member Simpson........................   632
Park Partnerships................................................   673
Plan for the National Mall.......................................   656
Professional Development.........................................   685
Recreation Fees..................................................   641
Regional Central Offices.........................................   665
Renewable Energy/Solar...........................................   689
Special Resource Studies.........................................   645
Statement of Dan Wenk, Acting NPS Director.......................   633
Statue of Liberty................................................   639
Stimulus Bill Funding............................................   690
United States Park Police......................................660, 676
Urban Park and Recreation Recovery Program.....................661, 664
USS Oklahoma Memorial............................................   648
Wild and Scenic Rivers...........................................   656
Yellowstone Bison................................................   668

                         U.S. Geological Survey

21st Century Youth Conservation Corps..........................695, 736
Additional Increases.............................................   696
Alternative Energy...............................................   724
American Recovery and Reinvestment Act...........................   716
Arctic Ecosystem.................................................   718
Arctic Ocean Mapping...........................................722, 740
Biological Research Division.....................................   737
Budget Overview..................................................   695
Carbon Sequestration......................................720, 725, 755
Climate Change..................................696, 705, 727, 745, 754
Climate Change Coordination......................................   755
Endocrine Disruptors...........................................707, 746
Energy Minerals Resources........................................   750
Fish Disease, Viral Hemorrhagic Septicemia.......................   723
General Questions for The Record.................................   744
Great Bodies of Water..........................................713, 734
Great Lakes Restoration Initiative.............................696, 718
Groundwater Research Program.....................................   811
Idaho Surface Water..............................................   752
Invasive Species.................................................   723
LIDAR............................................................   703
Multi-Hazard Demonstration Project...............................   703
National Climate Change Wildlife Science Center................712, 717
National Stream Gauge Information..............................711, 714
Native American Tribal Relations.................................   712
Natural Hazards Research.........................................   731
Nature Serve...................................................724, 751
New Energy Frontier Initiative.................................695, 735
Opening Statement of Mr. Dicks...................................   691
Opening Statement of Mr. Simpson.................................   694
Seafloor Mapping.................................................   740
Statement of Dr. Kimball.........................................   694
Succession Planning............................................716, 757
Washington State Earthquake Fault................................   741
Water............................................................   753
Water Institutes.................................................   749
Water Issues in the West.........................................   719
Water Quality and Quantity.......................................   729
Water Quality Monitoring.........................................   704

                         Indian Health Service

Alcohol and Substance Abuse......................................   784
American Recovery and Reinvestment Act (ARRA) Funds..............   765
Area Allocations.................................................   771
Contract Health Services.........................................   773
Current Services.................................................   799
Dental Health..................................................790, 799
Diabetes.........................................................   792
Direct Operations and Health Information Technology..............   803
Director's Initiatives...........................................   794
Domestic Violence................................................   775
Epidemiology/Surveillance/Data Issues............................   776
Facilities Maintenance and Improvement...........................   803
Funding for New Tribes...........................................   783
GAO Studies on Property Management...............................   797
Health Care Facilities Construction and Staffing.................   788
Health Information Technology....................................   780
Health Professionals and Loan Repayment..........................   787
IHS Mission......................................................   797
Indian Health Care Improvement Fund..............................   774
Indian Health Professionals......................................   801
Joint Venture/Small Ambulatory Grants............................   789
Mental Health....................................................   791
New Tribes.......................................................   799
Oversight........................................................   766
Pharmaceuticals..................................................   792
Sexual Assault...................................................   776
Staffing and Credentialing.......................................   770
Statement of Dr. Roubideaux......................................   761
Unobligated Balances.............................................   793
Urban Indian Health..............................................   786

                                  <all>

</pre></body></html>
